                                                     Fiscal Year




                         2005
United States Army Annual Financial Statement


             Call to Duty – 230 Years of Service to Our Nation




                                                    http://www.army.mil
We are interested in your feedback regarding the content of this report. Please feel free to
              e-mail your comments to AAFS@hqda.army.mil or write to:

                              Department of the Army
   Ofﬁce of the Deputy Assistant Secretary of the Army (Financial Management and
                                    Comptroller)
                    Ofﬁce of the Financial Reporting Directorate
                         Room 3A312, 109 Army Pentagon
                            Washington, DC 20310-0109

 Additional copies of this report can be obtained by sending a written request to the e-
                          mail or mailing address listed above.

You may also view this document at: http://www.asafm.army.mil/fo/fod/cfo/cfo.asp
                                                     Fiscal Year




                         2005
United States Army Annual Financial Statement


             Call to Duty – 230 Years of Service to Our Nation
Table of Contents
Message from the Secretary of the Army                            iii

Message from the Assistant Secretary of the Army
(Financial Management and Comptroller)                             v

Message from the Assistant Secretary of the Army (Civil Works)    vii

FY 2005 in Review                                                  1

General Fund – Management’s Discussion & Analysis                  8

Working Capital Fund – Management’s Discussion & Analysis        144

Civil Works Fund – Management’s Discussion & Analysis            224




                                                                    i
                                                                       The Honorable Francis J. Harvey




ii Secretary of the Army Message | FY 2005 Army Annual Financial Statement
                      As the President stated on July 07, 2005, the day terrorists struck
                      in London, “the war on terror goes on.” This long war is likely
                      to continue for the foreseeable future. Consequently, the Army
                      must be ready and relevant today and tomorrow, always able to
                      accomplish our mission of protecting America and providing the
                      necessary forces and capabilities to the combatant commanders in
                      support of the National Security and Defense Strategies.

                     In parallel with ﬁghting the global war on terror, the Army
                     is undertaking its largest transformation since WWII. The
                     transformed force will be more powerful, ﬂexible, rapidly
                     deployable and it positions the Army to defeat new and
                     emerging threats. Over the past year we continued to build the
                     modular brigade combat teams, which are the centerpiece of the
                     transformed force and to increase the size of the operational Army.
                     Additionally, ongoing unit rebalancing, in conjunction with
                     our new modular forces, will reduce the stress on our force by
permitting more predictable rotation cycles with longer periods at home for our Soldiers.

The Army is also transforming its “back ofﬁce” by streamlining its business practices
and processes that enable us to more effectively manage people, cost and schedule
– components which make up the backbone of business. The Army is beginning a
critical review of the institutional Army to determine what resources, material, and
property are essential to organizations, missions, and structures. We are adopting
proven management analysis tools and procedures to analyze our manufacturing, repair,
and administrative processes which will reduce cost while freeing up resources for
the operational Army. We also awarded the contract for the General Fund Enterprise
Business System, which will produce accurate, reliable, and timely ﬁnancial information
enabling better decisions and support for our Soldiers and their families.

To achieve our vision of remaining the preeminent landpower on earth, our Soldiers
must remain the best trained, organized, equipped, and sustained in the world. Soldiers,
and their civilian colleagues, are performing magniﬁcently today in Iraq, Afghanistan,
and in over 100 other countries around the globe; they deserve the best support we
can provide. Consequently, transformation is ingrained in everything the Army does,
operationally and institutionally.




                                            Francis J. Harvey
                                            Secretary of the Army




                                                                                        iii
                                                                                             Valerie Lynn Baldwin




iv Assistant Secretary of the Army (Financial Management and Comptroller) | FY 2005 Army Annual Financial Statement
                       During ﬁscal year 2005, the Army managed $149 billion of
                       appropriated funds. This included $58.4 billion in Global
                       War On Terrorism supplemental funds. Among numerous
                       accomplishments, we maintained a high operations tempo with
                       19 active component and 10 reserve component brigade combat
                       teams deployed to Iraq, Afghanistan, and throughout the world.
                       We created seven additional modular brigades as part of our
                       Army transformation, and provided support to civil authorities
                       along the Gulf coast for Hurricanes Katrina and Rita.

                       In addition, we adjusted the ﬁnancial management strategic
                       planning framework to align with strategic objectives. Under
                       this framework, four ﬁnancial initiatives were developed to close
                       the gap between Army requirements and funding, improve the
                       quality of ﬁnancial management information systems, improve
                       accountability and management controls for the Army enterprise,
                       and execute effective ﬁnancial management.

Providing accurate, timely, and relevant ﬁnancial information to Army leaders requires
sophisticated ﬁnancial and business case analyses. By stressing innovation, creativity,
ﬂexibility, and following the Chief Financial Ofﬁcer Strategic Plan, solid progress is being
made to reach this objective. Thank you for your efforts and for serving this great Army.




                                             Valerie L. Baldwin
                                             Assistant Secretary of the Army
                                             (Financial Management and Comptroller)




                                                                                           v
                                                                                             John Paul Woodley, Jr.




vi Assistant Secretary of the Army (Civil Works) | FY 2005 Army Annual Financial Statement
                       The Army Corps of Engineers traces its origins back to the
                       construction of fortiﬁcations at Bunker Hill in 1775. Since then, the
                       Corps has responded to the challenges of the nation and the Army.
                       Throughout its history, the Corps has been committed to serving the
                       nation and the Army in peace and war by providing comprehensive
                       engineering, management and technical services.

                        Our responsibilities over time have continually evolved to reﬂect
                        America’s priorities. What began as a military engineering mission
                        for nation building in the 18th Century expanded into a major
                        peacetime mission in the 19th Century. The Corps helped a young
                        nation map the frontier and expand westward by surveying roads
                        and canals. The Corps contributed to the nation’s economy by
                        developing an inland navigation system that moved commerce
                        across states and keeping ports and harbors open, a role critical
                        for national defense. In the 20th Century, the Corps’ civil mission
                        expanded again with the adoption of more water resources
                        development and management duties, including ﬂood control,
                        hydropower, recreation, water supply, shore protection, and
disaster relief. More recently, environmental protection and restoration responsibilities
were entrusted to the Corps.

As society’s requirements and values have changed, the Civil Works mission has reﬂected
changing national priorities for public water management. The Corps’ abilities to evaluate,
facilitate, advise, develop, operate, and manage provide a robust set of capabilities for the
nation’s beneﬁt in facilitating an integrated approach to water resources management.

Responsibilities for the development, management, and protection of water resources
constitute the current Army Civil Works mission. One of the great strengths of the Corps
is the force multiplier effect between civil and military missions. In addition to the direct
contributions that the Civil Works mission makes to our economic and environmental
security and prosperity, the Corps also applies its Civil Works assets to support the Army
in times of national need to enhance homeland security. In turn, the Civil Works mission
derives greater capability and effectiveness by being an integral part of the larger Army
and Defense team.

Looking to the future, we must seek to do everything within our authorities to ensure that
our country’s economy remains strong and its natural resources protected. Our nation’s
water resources are ﬁnite, and in managing those resources we are increasingly challenged
to reach decisions that achieve an appropriate balance between the social and economic
beneﬁts of development with the need to protect the environment. As science and
engineering continue to advance, we will seek to leverage these advancements to strike that
balance.

We are dedicated to continuing a national water resources program that serves the best
interest of our citizens. In that regard, I will continue to rely on the Strategic Plan for the
Army Civil Works mission that sets forth the framework for enhancing the sustainability of
America’s water resources.



                                               John Paul Woodley, Jr.
                                               Assistant Secretary of the Army
                                               (Civil Works)




                                                                                                vii
                                                                                  Year in Review

                                   When the nation calls, the Army always has and always
                                  will answer that call. But we cannot stand still…we need
                                                                                  to change.
                                                                   The Honorable Francis J. Harvey, Secretary of the Army




viii FY 2005 in Review | FY 2005 Army Annual Financial Statement
FY 2005 In Review
Overview
The operations of the Army tempo remained high in
ﬁscal year (FY) 2005. More than 250,000 Soldiers - a
signiﬁcant proportion of active and reserve component
combat forces – are deployed in 120 countries around
the world. Most of these Soldiers are in Iraq and
Afghanistan, engaged in direct support of the Global
War on Terrorism (GWOT); but the Army also
continues to deter aggression and assist U.S. Allies in             As FY 2005 came to a close, the Army had 1,014,910
Korea; Europe, including the Balkans; South America;                men and women in uniform with 492,728 in the active
Africa; and in numerous other locations. In addition,               force, 189,005 in the Army Reserve (USAR) and 333,177
Soldiers perform much essential work throughout the                 in the Army National Guard (ARNG). In addition, the
United States, to include providing homeland defense,               Army employed 235,645 civilian personnel.
supporting ﬁreﬁghting efforts in national forests, and
most recently, supporting the relief effort following
Hurricanes Katrina and Rita.
                                                                    Operation Iraqi Freedom and Iraq
                                                                    Reconstruction
                                                                    Operation Iraqi Freedom continues to be the most
                                                                    signiﬁcant mission in terms of troop levels and other
                                                                    resources. The Army force at the end of the ﬁscal year
“We are the best Army in the world                                  consisted of approximately 105,000 active and reserve
without a question. We just want to be                              component Soldiers. These Soldiers continue to assist
                                                                    the Iraqi people on their path toward a democratic
a better Army.”                                                     state through the elimination of insurgents, provision
                                                                    of security, training of Iraqi security forces, and
           The Honorable Francis J. Harvey, Secretary of the Army
                                                                    rebuilding of Iraqi infrastructure. On January 30, 2005,
                                                                    they worked with the Iraqi security forces to provide
                                                                    security for a high voter turnout and the successful
This 21st century security environment is one                       election of the new Iraqi assembly.
characterized by uncertainty and unpredictability. The
Army is transforming to adapt to this environment,                  The United States Army Corps of Engineers (USACE)
at a pace that is steadily increasing due to the                    is involved signiﬁcantly in the reconstruction of Iraq’s
demands of being at war. The transformation effort                  infrastructure. Its Gulf Region Division has execution,
is focused on the Army’s centerpiece, the Soldier, and              quality control, and quality assurance oversight of
speciﬁcally on improving the capabilities of Soldiers               the Iraq Reconstruction and Relief Program. These
to accomplish their missions. This focus ensures the                military, civilian, and contractor professionals not
Army accomplishes its mission of providing necessary                only deal with the normal issues and concerns of
forces and capabilities to the combatant commanders,                rebuilding a crumbling infrastructure, but must do
and realizes its vision of remaining relevant and ready,            so under threat of attack from insurgents. Progress
today and tomorrow.                                                 nonetheless is being made. The USACE, working
                                                                    with the Iraq Project and Contracting Ofﬁce, which
                                                                    manages the approximately $18.4 billion Iraq Relief
                                                                    and Reconstruction Fund, certiﬁed over 1,600 of the
                                                                    3,200 planned infrastructure projects as successfully
                                                                    completed by the end of the ﬁscal year. In fact, in June
                                                                    2004, when Iraq transitioned to sovereignty, just over




                                                                                                                               1
Maj. Roger Alsup, a Missouri National Guardsman from the U.S. Army Corps of Engineers and               Army engineers from Alaska-based Company C, 864th Engineer Combat Battalion, level a
principal of T.S. Hill Middle School in Dexter, Mo., distributes school supplies to Iraqi children in   portion of the nearly completed 117-kilometer TK Road, stretching from Kandahar to Tarin
Fallujah. (by Norris Jones)                                                                             Kowt, Afghanistan. (by 1st Lt. Laura Walker)


200 projects were started. Today, more than 2,700
projects have been started. Improvements have been                                                      Homeland Security
made to schools, hospitals, rail stations, bridges, water                                               Homeland security is a team effort lead by the
treatment stations, electric power plants, oil processing                                               Department of Homeland Security. Within the
facilities, and many other infrastructure areas.                                                        Department of Defense (DoD), the mission of
                                                                                                        supporting homeland security rests with the U.S.
Operation Enduring Freedom –                                                                            Northern Command (USNORTHCOM) whose
Afghanistan                                                                                             roles include homeland defense and civil support.
Operation Enduring Freedom continues as well. At                                                        Speciﬁcally, the command’s mission is to conduct
the end of the ﬁscal year, the Army had approximately                                                   operations to deter, prevent, and defeat threats
15,000 Soldiers in Afghanistan supporting the Afghan                                                    and aggression aimed at the United States and its
people’s quest for freedom and democracy. Signiﬁcant                                                    territories, and to assist civil authorities as directed by
progress continues with the presidential election                                                       the President or the Secretary of Defense. The Army’s
being held in October 2004 followed by parliamentary                                                    role in fulﬁlling this mission is executed primarily by
elections in September 2005. In addition to the                                                         the ARNG.
elections, success was achieved through continued
improvements in security and infrastructure. The
Afghan National Army continues to grow in number
and skill as well as the Afghan National Police, which
welcomed its ﬁrst class of graduates from the Kabul
Police Academy. On the infrastructure side, one of the
USACE’s major efforts is the construction of roads in
order to extend transportation routes into more rural
areas of the country. One speciﬁc project, the road
linking the cities of Kandahar and Tarin Kowt, was
ﬁnished in September 2005. Enhancing transportation
within Afghanistan will strengthen the newly elected
government’s credibility throughout the nation. In
addition, the Afghanistan – Tajikistan Bridge Project
was started in March 2005. Upon its completion in
2007, the bridge will signiﬁcantly enhance the market                                                   Army Reserve Soldiers from the 357th, 366th and 401st Chemical Companies, practice
                                                                                                        nuclear, chemical and biological decontamination and treatment procedures for simulated
economy of both nations. Work also continues to                                                         casualties at a joint civilian-military exercise at Fort McCoy, Wisc. (by Staff Sgt. Brian D.
improve schools, hospitals, and other infrastructure                                                    Lehnhardt)

projects.


2 FY 2005 in Review | FY 2005 Army Annual Financial Statement
The USNORTHCOM and National Guard Bureau,
which includes both the Army and Air National
Guards, held a homeland defense conference in
February 2005 in order to ensure both parties know
how to work together in accomplishing the mission
of defending the homeland. Army involvement in
homeland security included participation in numerous
training exercises including Alaska Shield/Northern
Edge 2005. Alaska Shield/Northern Edge provided a
wide range of simulated natural disasters and terrorist
actions in 21 Alaskan communities. The purpose was
to challenge civilian and military ﬁrst responders and
test organizational and integration skills at all levels of
government. In addition, Soldiers from Fort Hood’s
                                                              Paratroopers from the 82nd Airborne Division, perform a search and rescue mission in ﬂood-
4th Infantry Division participated in a USNORTHCOM            ravaged New Orleans. (by by Staff Sgt. Christopher J. Crawford Sr)

quick reaction force (QRF) exercise at Lackland Air
Force Base. The QRF exercises are designed to ensure          the restoration of communications infrastructure, and
ground forces can be deployed rapidly throughout the          the provision of security. The USACE also played a
United States to accomplish the command’s homeland            critical role, repairing damaged levees, pumping ﬂood
defense mission. ARNG Soldiers participated in                water out of New Orleans, and repairing damaged
Operation Winter Freeze, a three-month operation              homes, among other support missions.
with the U.S. Customs and Border Patrol along the
U.S. – Canadian border, to keep terrorists out of the         Transformation
country and to break up smuggling rings supporting            The Army continued to move forward in all of its
the terrorist threat.                                         transformation initiatives, to include several of the
                                                              most important: modularity, rebalancing, stabilization,
In addition to assisting with homeland defense                growing the operational Army, and business process
operations and training, the Army played a major role         transformation. Success in these initiatives is crucial to
in the civil support mission, particularly in providing       becoming a 21st century Army able to meet current and
support after Hurricane Katrina that struck the Gulf          future threats.
Coast in early September followed closely by Hurricane
                                                              The reorganization of warﬁghting units into new,
Rita. Katrina brought devastation unprecedented by
                                                              modular brigade combat teams (BCTs) continued with
any other natural disaster in the United States and, as
                                                              12 more BCTs, to include one Stryker BCT becoming
a result, required unparalleled support from the DoD          operational, and seven new BCTs created in FY 2005.
and Army. The ARNG committed over 50,000 troops               The modularity initiative ultimately will result in more
to the recovery operation, supported by more than             combat power for the Army along with more efﬁcient
7,000 Soldiers from the active Army. These Soldiers           and effective planning and logistics support due to the
participated in rescue and recovery operations, the           standardized makeup of the modular brigades.
provision of medical care, the distribution of supplies,




“We’re on a continual path to transformation. We’re never going to arrive
someplace that we’re going to stop. It’s open-ended. It’s forever.”
                                                                                  General Peter J. Schoomaker, Chief of Staff of the Army




                                                                                                                                                           3
The current and future security environments have               efﬁciently as possible to free up resources for the
required the Army to begin a rebalancing of its active          operational Army and its warﬁghting mission.
and reserve component forces to ensure the right
capabilities exist, in the right numbers and within the
right component, to enhance mission accomplishment.
Progress continued in FY 2005 with the rebalancing              “Any activity that you undertake,
of over 26,000 positions. This rebalancing also will
result in reduced stress on high demand/low density             you have to approach it almost
units and will improve readiness for rapid response
operations.
                                                                everyday asking yourself a very simple
                                                                question…what will I do today or
The stabilization of Soldiers within units and at
installations is critical to both unit combat effectiveness     what have I done today to change and
and Soldier and family quality of life. The Army
is implementing life cycle management in its new
                                                                improve this organization? That’s
brigades with the goal of Soldiers being assigned               transformation.”
to a BCT for 36 months. This enhances the combat
capabilities of the unit along with predictability and                     The Honorable Francis J. Harvey, Secretary of the Army
quality of life for Soldiers and their families. The
Army brought ﬁve BCTs under the new life cycle
management plan in FY 2005 with one more following              Numerous initiatives have either been energized
shortly thereafter. The combination of the modularity,          or have come into existence in the business
rebalancing, and stabilization initiatives result in an         transformation arena. One of the most signiﬁcant
Army Force Generation model that is much improved               is the application of the Lean/Six Sigma business
and that will reduce the stress on the force signiﬁcantly.      process improvement tool. These techniques are being
                                                                applied to manufacturing, repairing, resetting, service,
Another critical initiative in which the Army is                and administrative processes. In the manufacturing,
making progress is growing its operational force                repairing, and resetting arenas, the Army Materiel
strength from 315,000 to 355,000 by the end of                  Command is using Lean/Six Sigma extensively,
FY 2007. This is necessary to ensure proper manning             particularly at its numerous depots. The results are
of the new modular BCTs, the redesigned division                impressive. At Letterkenny Army Depot, for example,
and corps headquarters, and the maneuver support                savings from the application of Lean/Six Sigma are
and sustainment units of the operational Army. In               projected to be $21.5 million for the period FY 2003-
FY 2005, approximately 8,000 positions in the                   2006. In addition, it enabled the depot to handle an
institutional Army were converted from military                 increase in workload of 52 percent from FY 2004 to
to civilian stafﬁng, thus releasing Soldiers for the            FY 2005 with a manning increase of just 27 percent.
operational Army. The goal for military to civilian
conversions by the end of the program is 29,000.                The Army is also using the Base Realignment and
The balance of 11,000 Soldiers to be added to the               Closure (BRAC) program to further its transformation
operational force will come from a reduction in the             efforts. At the end of the ﬁscal year the President
number of Soldiers not assigned directly to units.              submitted to Congress recommendations that
                                                                included closing 12 and realigning six major Army
Business Transformation                                         installations. The process allowed the Army to make
                                                                more sound restationing decisions for the modularized
Business transformation has grown signiﬁcantly in
                                                                BCTs to ensure power projection capabilities are
importance within the Army in FY 2005. Limited
                                                                optimally positioned to meet the challenges of the 21st
resources in conjunction with a very high optempo
                                                                century, and to take maximum advantage of existing
security environment have required the institutional
                                                                infrastructure assets.
Army to ensure it is operating as effectively and




4 FY 2005 in Review | FY 2005 Army Annual Financial Statement
Financial Management Transformation                        Army Systems, Controls, and Legal
and Improvements                                           Compliance
The Army is also transforming its ﬁnancial                 The Army continues to move forward with the
management. One of its most signiﬁcant advances            implementation of its Chief Financial Ofﬁcers (CFO)
in FY 2005 came with the awarding of the General           Strategic Plan, which is designed to synchronize
Fund Enterprise Business System (GFEBS) contract.          Army efforts via a single comprehensive management
GFEBS will modernize the Army’s business operations        plan with the overall objective of providing quality
through a world-class integrated business system           information to decision-makers. High-quality
that provides transparent, auditable ﬁnancial              information is one of the foundations required for
information in real time to enhance the management         achieving a favorable audit opinion.
of the Army’s resources. It will replace old, outdated
technology, improve the commander’s ability to             The plan is moving forward in numerous areas. In
ﬁnance requirements, and provide cost information          one example, the Ofﬁce of the Assistant Secretary of
that managers can use to manage their operations.          the Army (Financial Management and Comptroller)
It is a commercial software product widely used in         (OASA (FM&C)) worked with the Defense Finance and
government and industry and will become the common         Accounting Service (DFAS) to create interfaces between
system that provides a single authoritative source for     Army property systems and the DFAS Corporate
the Army’s ﬁnancial management information. The            Database (DCD), a component of the Business
timeline for full implementation is aggressive, with the   Enterprise Information Services infrastructure required
ﬁrst technical demonstration scheduled for 2006 and        by the DoD Business Management Modernization
full operational capability to come in 2009.               Program. Successful completion of this initiative
                                                           will produce automated quarterly reporting of Army
The Joint Reconciliation Program also is helping to        General Property, Plant, and Equipment (GPP&E),
improve the Army’s ﬁnancial results. Army efforts          streamlining current ﬁnancial reporting processes and
to reduce unliquidated obligations for canceling           moving the Army toward eliminating manual data.
appropriations were again successful as it reduced
the balance from $409 million at the beginning of          Another example involves the Integrated Facilities
FY 2005 to an ending balance of $21 million. This is a     System (IFS), an installation business system that
key performance measure for public sector ﬁnancial         addresses public works functions to include real
management effectiveness and reduces the potential         property inventory, job cost accounting, work
requirement of the Army having to use current              estimating and management, supply, and contract
resources for past years’ requirements.                    administration. The Army has modiﬁed IFS to make
                                                           it compliant with the Federal Financial Management
In FY 2005 the Army also continued implementation of       Integrity Act (FFMIA) of 1996 in terms of its ability
the Defense Travel System (DTS), deploying DTS to all      to provide accurate, reliable, and timely ﬁnancial
29 sites scheduled for the year. DTS is an e-commerce      information to Army managers regarding real
initiative that reduces the number of steps a traveler     property. In FY 2005, the U.S. Army Audit Agency
must execute by more than half. In addition, each          (USAAA) performed an audit and assured that the
travel voucher processed using DTS saves the Army          system modiﬁcations provide the necessary capabilities
approximately $25 compared to those processed by           to ensure compliance. Efforts now turn toward
legacy ﬁnancial systems, a savings of over 500 percent     assessing the accuracy of real property data.
on voucher processing alone. When fully deployed,
DTS will support over 3.2 million military and DoD         Full implementation of the Army CFO Strategic Plan
civilian personnel who make approximately 5.6 million      will result in the elimination of noncompliant ﬁnancial
trips annually.                                            management and feeder systems, the introduction and




                                                                                                                     5
Soldiers from 1st Battalion, 508th Infantry Regiment, 173rd Airborne Brigade, board a CH-47 Chinook helicopter for a counterinsurgency operation near Mangritae, Afghanistan. (by Spc. Harold
Fields)


use of state-of-the-art ﬁnancial management systems,                                               high-quality information thus produced will enable
and the introduction of more effective and efﬁcient                                                Army leaders to make better decisions and to provide
business processes and management controls. The                                                    better support to the Soldier.




6 FY 2005 in Review | FY 2005 Army Annual Financial Statement
Photo Credits
Table of Contents Photo
Soldiers from 1st Battalion, 155th Brigade Combat Team and Marines from the 2nd Air Naval
Gunﬁre Liaison Company, search for insurgents who launched mortars at them near Al
Iskandariyah, Iraq. (by Kurt Gibbons II)

Year in Review Opening Photo
Soldiers from 2nd Platoon, Troop C, 4th Squadron, 14th Cavalry Regiment, keep a sharp
lookout for insurgents while fellow Soldiers and Marines (not shown) search an area of Iraq
near the Syrian border for weapons caches. (by Tech. Sgt. Andy Dunaway)




                                                                                              7
                                                                             General Fund

                                      The war that we’re currently engaged in, this level of
                             operational demand, in fact is both a stressor on the force, as
                            well as a vehicle to help us change because it gives us velocity.
                             It gives us additional resources we otherwise wouldn’t have.
                                                           General Peter J. Schoomaker, Chief of Staff of the Army




8 General Fund | FY 2005 Army Annual Financial Statement
General Fund – Management’s Discussion & Analysis
Overview
The Army General Fund is the largest Army
fund. It ﬁnances military operations; supporting
services; personnel; facilities; procurement; research,
development, test, and evaluation (RDT&E); and
nearly every other function required to keep the Army
operating. A majority of the General Fund’s revenue
comes from congressional appropriations. In FY 2005,
the Army received over $149 billion in appropriations        Vision
from Congress.                                               The Army vision is to remain the world’s preeminent
                                                             landpower, relevant and ready at all times to serve the
Mission                                                      nation. The Army must fully train and appropriately
The Army mission is to support the National Security         organize its forces, develop innovative and adaptive
and Defense Strategies by providing well-trained,            leaders, and design support structures in accordance
well-led, and well-equipped forces to the combatant          with the new global security environment. The Army
commanders. This mission encompasses the intent of           must supply its combatant commanders with the forces
Congress, as deﬁned in Title 10 of the United States         necessary to meet and defeat any adversary, in any
(U.S.) Code, to:                                             situation, at any time.

1) Preserve the peace and security, and provide              Organization
   for the defense, of the U.S., the territories,
                                                             The Army is a very large and complex organization.
   commonwealths, and possessions of the U.S., and
                                                             Soldiers are its centerpiece, focus, and key component.
   any areas occupied by the U.S.;
                                                             The Soldier either makes up the various organizational
2) Support the national policies;                            elements of the Army, or is the reason for the element’s
3) Implement national objectives; and                        existence. The Soldier is a professional, the ultimate
                                                             expression of what the Army provides to the nation.
4) Overcome any nations responsible for aggressive
   acts that imperil the peace and security of the U.S.      The Army, however, consists of more than just
                                                             Soldiers. It also includes civilians in leadership
This mission has been unchanged for the 230 year             and support roles at all levels. Civilian employees
existence of the Army, but the environment and nature        are essential to the successful accomplishments of
of conﬂict have undergone many changes over time,            the Army mission and the Soldiers. Soldiers and
especially recently with the Global War on Terrorism         civilians alike are united by the common purpose of
(GWOT). This has required the Army to undergo a              service to the nation. A third tier of personnel are the
simultaneous transformation process in the way that          civilian contractors who provide specialized support
it ﬁghts and in the way that it trains and equips its        and services to sustain and enhance readiness and
Soldiers. This transformation is progressing rapidly,        operations. All three groups - Soldiers, Army civilians
but must be taken to its full conclusion if the Army is to   and contractors - serve the Army in both the garrison
be relevant and ready, today and into the future.            and deployed environments.

                                                             The Army is organized with the primary objective of
                                                             supporting the mobilization, training, deployment,
                                                             and sustainment of its Soldiers, anywhere in the
                                                             world. The Headquarters, Department of the Army
                                                             (HQDA) leads and manages the entire Army according



                                                                                                                        9
              Relevant and Ready Landpower in Service to the Nation

              The Nation has entrusted the Army with preserving its
              peace and freedom, defending its democracy, and providing
              opportunities for its Soldiers to serve the country and
              personally develop their skills and citizenship. Consequently,
              we are and will continuously strive to remain among the most
              respected institutions in the United States. To fulﬁll our solemn
              obligation to the Nation, we must remain the preeminent land
              power on earth-the ultimate instrument of national resolve;
              strategically dominant on the ground where our Soldiers’
              engagements are decisive.

                                                            The Honorable Francis J. Harvey, Secretary of the Army
                                                                                                        April 2005




10 General Fund | FY 2005 Army Annual Financial Statement
                                                                                            Staff Sgt. Chris Golde, a squad leader with Company A, Task Force 1-21, 25th Infantry
                                                                                            Division, patrols Kirkuk, Iraq. (by Spc. Sean Kimmon)




      “Army Values, Soldier’s Creed, Warrior Ethos… These three statements
      establish the guiding value and standards of the Army profession. To understand
      Soldiers, you must know about them. To be a Soldier, you must live them.”
                                                                                                                                                          CSA, MAY 2005




to the instructions of the Executive Ofﬁce of the                                           requirements of the 21st century security environment.
Headquarters, which includes the Secretary of the
Army and the Chief of Staff. It is within the Executive                                     Below headquarters level the Army is organized into
Ofﬁce that decision making authority is uniﬁed,                                             the major commands (MACOMs) within which most
enabling responsive actions to the dynamic mission                                          Soldiers, civilians, and contractors reside (see Figure 2).

                                                                                                        The Inspector      Chief of Legislative       DUSA(OR)
                                                                                                          General                Liaison
                                                                                                                                                                   Chief of Public
                                                                                                                                                DUSA                   Affairs
                                                                                                  Admin.                   Army Auditor
                                                                                                 Assistant                   General
                                                                                                                                                                        Small &
                                                                                                        General                                                      Disadvantaged
                                                                                                        Counsel                                                    Business Utilization

                                                                                                                                     SECARMY
                                                    ASA Acquis            ASA                                                          USA                         Executive
     ASA
  Manpower &
                         ASA
                     Installs and        ASA        Log. & Tech     Financial Mgmt. &     Chief Info        Director                                               Office the
 Reserve Affairs       Environ        Civil Works     [Mil Dep
                                                       Acquis]
                                                                     Comptroller [Mil
                                                                       Dep Budget]
                                                                                          Officer G-6     Army Staff                        CSA                    HQDA (EOH)
                                                                                                                                           VCSA
                                                                                                                                                                     SMA
                   ACS Installation      Chief of Engrs
      G-1 *                                                 G-4 *       G-8 *   G-3/5/7        G-2                                                              Chief of
                      Mgmt. *                * **                                                                        The Judge                             Chaplains
                                                                                                                         Advocate
                                                                                                                          General
                                                                                  OGC Oversight                                                        The Surgeon
                                                                                                        MACOMs                                          General **
              Clearly defined responsibilities to ASA
                                                                                                                                   Chief
              Oversight                                                                                                            NGB
                                                                                                                                                  Chief Army
         *    Responsible to ASA for advice and assistance in functional area                                                                      Reserve
        **    MACOM Commander                                                                                                                                  *As of September 30, 2005

                                                                                                        Figure 1. Headquarters, Department of the Army (HQDA)



                                                                                                                                                                                           11
Of these, Forces Command (FORSCOM) is the largest,                        facilities, and equipment necessary to best prepare
encompassing the majority of the Army combat                              Soldiers for their mission. Examples of the institutional
organizations (e.g. armies, corps, divisions, brigades,                   Army functions and facilities are:
battalions, companies, platoons, and squads) and
more than 730,000 Soldiers of the active and reserve                           Accessions
components.                                                                    Training
 Figure 2. Major Commands (MACOMS)                                             Doctrine development
 Eighth U.S. Army, Korea                                                       Human resource management
 Military Surface Deployment and Distribution Command (SDDC),
 VA, United States
                                                                               Medical support and health sustainment
 U.S. Army Corps of Engineers (USACE), DC, United States                       Civil engineer and infrastructure support
 U.S. Army Criminal Investigation Command, VA, United States                   Acquisition and procurement activities
 U.S. Army Europe (USAREUR), Germany
                                                                               Organic industrial facilities
 U.S. Army Forces Command (FORSCOM), GA, United States
                                                                               Laboratories and research centers
 U.S. Army Intelligence and Security Command, VA, United States
 U.S. Army Materiel Command (AMC), VA, United States                           Hospitals and clinics
 U.S. Army Medical Command (MEDCOM), TX, United States                         Corps of Engineers districts
 U.S. Army Military District of Washington, DC, United States
                                                                          The operational Army, led by FORSCOM, provides the
 U.S. Army Paciﬁc Command (USARPAC), HI, United States
                                                                          landpower capabilities for the combatant commander.
 U.S. Army South (USARSO), TX, United States                              Within the operational Army, the transition from a
 U.S. Army Space and Missile Defense Command (SMDC), VA,                  division-centric warﬁghting force to a brigade-centric
 United States                                                            force continues. At the heart of this change is the
 U.S. Army Special Operations Command (USASOC), NC, United                modularization and standardization of Army brigade
 States                                                                   combat teams, a process that will see the evolution of
 U.S. Army Training and Doctrine Command (TRADOC), VA,                    a more rapidly deployable, ﬂexible, and powerful force.
 United States
                                                                          Viewed by component, the Army can be separated
                                                                          into the active and reserve components. The active
The Army organization can be broken down by                               component consists of full-time Soldiers and Army
component or according to functionality. In terms                         civilians assigned to the operational and institutional
of functionality, it divides into institutional and                       organizations that perform the day-to-day Army
operational arms. The institutional Army mission is                       missions. Congress annually reviews and mandates
to support the warﬁghter by providing the training,                       the number of Soldiers that the Army may maintain.




“The metaphor of the racecar to describe the difference between the operational
army and the institutional army, I think, is a good one. The pit crew would be the
institutional army. It’s those things that stand behind the operational force and
enable it to be properly trained, properly equipped, properly recruited, properly
manned and properly structured.”
                                                                MG N. Ross Thompson, III, Army Director of Program, Analysis and Evaluation




12 General Fund | FY 2005 Army Annual Financial Statement
                                                                                                component. Throughout FY 2005 and immediate prior
                                                                                                ﬁscal years, the Army has experienced unprecedented
                                                                                                high levels of reserve component activation and
                                                                                                deployment. This fact, combined with brigade
                                                                                                modularization, makes this the period of most
                                                                                                profound change in the Army since World War II.

                                                                                                21st Century Strategic Framework and
                                                                                                Army Transformation

                                                                                                “The security environment of the 21st
                                                                                                century is characterized in particular
Soldiers from the 3rd Infantry Division move swiftly into their M1A1 Abrams Main Battle Tanks
for a mission to Baqubah, Iraq. (by Staff Sgt. Suzanne Day)
                                                                                                by what we call irregular warfare
The reserve component comprises of the ARNG and
                                                                                                which we see going on real time in
the USAR. The ARNG has two missions: federal and                                                Iraq with counterinsurgencies coupled
state. Its federal mission is to provide trained and
ready forces for wartime, national emergencies, and                                             with stability and reconstruction
other missions. Its state mission is to train for and                                           operations.”
respond to domestic emergencies and other missions
as required by state law. Unless federally mobilized,                                                      The Honorable Francis J. Harvey, Secretary of the Army
ARNG units are commanded by their state executive,
usually the governor.                                                                           On November 19, 2004 the Army appointed its
                                                                                                19th Secretary, Dr. Francis J. Harvey. It is the
                                                                                                responsibility of the Secretary to direct the Army in
                                                                                                pursuit of its vision, and Dr. Harvey accordingly has
                                                                                                introduced a strategic framework within which the
                                                                                                Army will operate as it maneuvers through today’s
                                                                                                unpredictable security environment. This environment
                                                                                                is characterized by what is predicted to be a persistent
                                                                                                state of conﬂict presenting the Army with four types
                                                                                                of challenges: traditional, irregular, catastrophic, and
                                                                                                disruptive (see Figure 3). It is an environment far
                                                                                                different from anything that the Army has faced in the
                                                                                                past, and requires signiﬁcant and rapid transformation
                                                                                                to remain relevant and ready.

                                                                                                Within this framework (see Figure 4), the Army
Soldiers from the Tactical Psychological Operations Team 1092, 155th Brigade Combat Team,
patrol Tak, Iraq, in their Bradley Fighting Vehicle. (by Lance Cpl. Michael J. O’Brien)
                                                                                                has four overarching and interrelated strategies for
                                                                                                accomplishing its mission of providing necessary
The USAR is the primary federal reserve force                                                   forces and capabilities to the combatant commanders
of the Army. The primary role of the USAR is to                                                 in support of the National Security and Defense
provide specialized units and resources to support                                              Strategies. The effective and efﬁcient achievement of
the deployment and sustainment of Army forces                                                   these strategies is imperative to success; imperative
around the globe. In addition, the USAR is the main                                             to reaching the Army’s strategic vision. The
source of individual Soldiers for headquarters staff                                            common thread uniting each of these strategies is
augmentations and to ﬁll vacancies in the active                                                transformation.



                                                                                                                                                              13
Figure 3. The Security Environment

                    The Security Environment
                                                                                                   Likelihood
                    IRREGULAR                                                                                   CATASTROPHIC




                                                                                                       Higher
                    Irregular challenges from the adoption or employment of unconventional                      Catastrophic challenges involving the surreptitious acquisition, possession, and
                    methods by non-state and state actors to counter stronger state opponents –                 possible terrorist or rogue employment of WMD or methods producing
                    terrorism, insurgency, civil war, etc.                                                      WMD-like effects.

                    Seeking to erode U.S. power                                                                 Seeking to paralyze U.S. power
Vulnerability




                    Ethnic War; Guerrilla; Insurgency; Terror                                                   WMD; Rogue, Terrorist; Homeland Missile Attacks

                                                     Lower                                                                                              Higher
                    TRADITIONAL                                                                                 DISRUPTIVE
                    Traditional challenges posed by states employing legacy and advanced                        Disruptive future challenges emanating from competitors developing,
                    military capabilities and recognizable military forces, in long established,                possessing, and employing breakthrough technological capabilities intended to
                    well-known forms of military competition and conflict.                                      supplant our advantages in particular operational domains.




                                                                                                       Lower
                    Seeking to challenge U.S. power                                                             Seeking to marginalize U.S. power
                    Legacy Nuclear Forces; Uniformed Militaries                                                 Cyber-War; Directed Energy; Genetic Weapons; Nano Weapons




The four strategies are to: (1) develop ready and
                                                                                                          Soldier’s family. Soldiers ultimately accomplish the
relevant land forces for the 21st century security
                                                                                                          mission and therefore the focus must be on them to
environment; (2) train and equip Soldiers to serve
                                                                                                          ensure they are prepared in every way to perform their
as warriors and grow adaptive leaders; (3) attain
                                                                                                          duties at the highest possible level.
a quality of life for Soldiers and their families that
matches the quality of their service; and (4) provide                                                     The performance results section that follows details the
infrastructure to enable the force to fulﬁll its strategic                                                progress throughout FY 2005 that the Army has made
roles and missions. Each strategy has a number of                                                         toward each of its four strategic goals.
supporting initiatives, 21 in all. These strategies and
initiatives are necessary to meet today’s commitments
while preparing for the future. Their common focus                                                        Business Transformation
is the Soldier, directly in the provision of training and                                                 Business transformation has been given a new and
resources and indirectly in the provision of care for the                                                 stronger emphasis with Secretary Harvey’s arrival.
                                                                                                          There have been detached business transformation
Figure 4. The Strategic Framework                                                                         initiatives within the Army for many years, but they
                                                                                                          have lacked the focus required for business enterprise
                       21st Century Security Environment                                                  transformation. The Army Posture Statement for 2005
                “An Era of Uncertainty: Unpredictability, Misinformation and                              clearly states that business transformation is a strategic
                  Misconceptions” Four Challenges: Traditional, Irregular,                                imperative. Focusing on the warﬁghter, the statement
                               Catastrophic and Disruptive
                                                                                                          mandates that all resources be expended efﬁciently in
                                                                                                          support of the effectiveness of the operational Army.
                                                                                                          This imperative requires a fundamental change in the
                                                                     Mission                              way the business of the Army is viewed as well as the
                        Vision                          Provide necessary forces and                      manner in which it allocates resources and measures
                Relevant and Ready                      capabilities to the Combatant
                Landpower in Service                    Commanders in support of the                      the effectiveness of the employment of those resources.
                    to the Nation                           National Security and
                                                             Defense Strategies
                                                                                                          The primary goal of business transformation is to
                                                                                                          streamline or eliminate redundant operations and
                                                                                                          to redirect resources to the warﬁghting mission. To
                Four Overarching and Interrelated Strategies                                              accomplish this goal, the Army has set for itself the
                                     21 Supporting Initiatives                                            objectives for establishing a performance culture;



14 General Fund | FY 2005 Army Annual Financial Statement
“We are looking at transforming the entire system that supports the Soldier both at
home and on the battleﬁeld and provides us an Army where we have a great deal of
conﬁdence that what we are ﬁelding are whole teams that have been together, that
are well-equipped, well-trained, and capable of accomplishing a wide range of tasks
for the challenges of the 21st century.”
                                                                                General Peter J. Schoomaker, Chief of Staff of the Army




improve its reset, repair, manufacturing, and business              combines Six Sigma and Lean manufacturing
processes; outsource where it makes sense; apply                    techniques to achieve both greater efﬁciency and
information technology; and empower its leaders to                  increased quality or effectiveness. This approach
make the necessary changes and hold them accountable                has been adapted for use in management and
for their decisions.                                                administration as well as in traditional industrial
                                                                    operations. The Army has conducted executive-level
Initiatives are underway to accomplish the goal                     training and identiﬁed high payoff processes in which
of transforming business processes and achieving                    to employ Lean/Six Sigma. The Army has completed
signiﬁcant efﬁciencies. The Army will use the                       a ﬁrst round of process reviews that included the
resources harvested from these efforts to provide                   planning, programming, budgeting, and execution
additional warﬁghting capabilities as well as to                    process and the processes and functions associated
continue the transformation of business processes.                  with the Ofﬁce of the Administrative Assistant to the
Below are short descriptions of the major initiatives               Secretary of the Army. The Army anticipates at least
or associated efforts that the Army will leverage to                a 30 percent reduction in personnel resources in these
achieve additional efﬁciencies.                                     two process areas with the use of the Lean/Six Sigma
                                                                    process. Lean/Six Sigma is also being applied to some
“We have to look at how we do business.                             of the Army’s manufacturing and repair processes at
                                                                    depots of the Army Materiel Command.
Lean Six Sigma is reducing the cycle
                                                                    Information Management Systems Portfolio
time of processes used to conduct                                   Management: This process takes a disciplined and
business. They could be manufacturing                               logical approach to reviewing information technology
                                                                    (IT) enabling processes against required capabilities
processes; they can be repair processes.                            to determine redundancies and gaps. In addition to
                                                                    providing the management tool to eliminate redundant
It applies to everybody. It applies                                 systems and applications, this process also allows
to the factory ﬂoor; it applies to                                  the enforcement of ﬁnancial statutory requirements
                                                                    associated with information management systems.
the engineering; it applies to the                                  The cost savings from the elimination of redundant
administration.”                                                    systems will contribute signiﬁcantly to the funding of
                                                                    IT modernization and enabling business process re-
           The Honorable Francis J. Harvey, Secretary of the Army   engineering initiatives.

Lean/Six Sigma: This is a manufacturing best                        Institutional Army Adaptation: This initiative entails
business practice process improvement tool that                     a critical review of the institutional, or business, side




                                                                                                                                    15
of the Army with the objective of focusing the business     As previously stated, the Army is using every
processes and organization structure to provide             opportunity and is making a signiﬁcant culture change
maximum effectiveness and efﬁciency to optimize             to transform the business of the Army. Changing
its support of the operational side. Organizations          business practices has many potential beneﬁts
such as the Training and Doctrine Command and               such as focusing on increasing effectiveness while
the Army Materiel Command are being assessed to             reducing costs. The goal of the Army’s fundamental
determine the business processes that are core and          business enterprise transformation effort is to create
essential to the missions of these commands and, from       revolutionary results through continuous assessments
that, the organizational structure that best supports       of business processes and incremental transformation.
the execution of these processes. The Army expects          The beneﬁts that the Army will garner from this
to realize signiﬁcant human resource savings as the         initiative are increased capabilities and resource
recommendations of this initiative are put into place.      efﬁciencies that will result in better support to the
                                                            Soldier.
Business Initiatives Council: The Business Initiatives
Council (BIC) has been in place since 2001 and has
generated signiﬁcant improvements. It initially
                                                            Financial Management Strategic
consisted of both a DoD component and an Army               Framework and Transformation
component, but currently is focused within the              In accordance with the Army strategic context update,
service. Initiatives undertaken to date by the BIC have     the OASA (FM&C) updated its own strategic priorities
focused on areas such as privatization of installation      for ﬁnancial management (see Figure 5).
housing and guest lodging, cost effective approaches
to environmental characterization and clean up,             The Army ﬁnancial management team must execute
                                                            these priorities in a ﬁnancial management environment
efﬁcient methods of providing for household moves
                                                            characterized by tight budgets, an emphasis on
for Soldiers, and a number of other projects in that
                                                            controls, increasing accountability and transparency,
vein. In addition, initiatives have been identiﬁed that
                                                            the need for timely resource decision-making,
are function or task focused, but have had similar          enterprise systems, and an emphasis on results-
cost effectiveness impacts. This program operates           oriented governance. It is in this environment that
across the Army and actively encourages participation       the Army ﬁnancial management community must
from everyone at all levels to substantially improve        accomplish its mission of providing the resources
operating methods. In the case of the BIC, these are        to support Army missions while controlling the
not conﬁned to the realm of the institutional Army, but     distribution of funds, accounting for assets, and
also include numerous initiatives focused on delivering     ensuring the efﬁcient and effective stewardship of the
operational capability.                                     nation’s resources entrusted to the Army.

Base Realignment and Closure (BRAC):                        The ﬁnancial management strategic priorities are:
While BRAC is concerned with the alignment of               (1) close the gap between Army requirements and
infrastructure with Army and joint current and future       funding, (2) improve the quality of the ﬁnancial
requirements, there are opportunities to identify other     management information systems, (3) improve
efﬁciencies and process improvements leveraging the         accountability and management controls for the
BRAC analyses and recommendations. For example,             Army enterprise, and (4) execute effective ﬁnancial
organizations that are relocating may be analyzed to        management. Just as with the Army overarching
determine if processes performed can be made more           priorities, the common thread woven through
efﬁcient and effective, thereby reducing the personnel      each of these priorities is transformation. The ﬁrst
and associated infrastructure requirements. To              priority supports the provision of well-trained,
perform these analyses before relocating can conserve       equipped Soldiers, and adaptive leaders while each
transportation funding as well as limit the potential       of the last three priorities directly supports business
construction or modiﬁcation requirements at the             transformation initiatives. The OASA (FM&C) moved
receiving location.




16 General Fund | FY 2005 Army Annual Financial Statement
Figure 5. Strategic Priorities for Army Financial Management

                                       21st Century Financial Management Environment
               Constrained budget                                        Emphasis on controls
               Increasing accountability, transparency                   Need for timely resource decision-making
               Enterprise systems                                        Emphasis on results-oriented government

   Intent: Army financial management will be an effective, efficient provider of support to the Joint and expeditionary Army.
   Mission: Provide the resources to support Army missions. Control the distribution of funds, account for Army assets
   and ensure the efficient and effective stewardship of the Nation’s resources entrusted to Department of the Army.


                    Loyalty – Duty – Respect – Selfless-Service – Honor – Integrity – Personal Courage

  Overarching Strategy:            Overarching Strategy:                  Overarching Strategy:           Overarching Strategy:
  1. Close the gap between Army    2. Improve the quality of financial    3. Improve accountability and   4. Execute effective
     requirements and funding         management information systems         management controls for         financial management
                                                                             the Army enterprise

                                                Human and Financial Resources
                           Risk: Increasing or constant requirements in the face of limited resources.


forward with each of its priorities in FY 2005, as                  provide Army decision makers with more relevant
detailed below.                                                     and reliable ﬁnancial information, but it will also
                                                                    eliminate a substantial number of legacy systems by
Narrowing the Requirements Gap: First, the                          integrating their functionality. At this point, the OASA
Army planning, programming and budgeting                            (FM&C) has identiﬁed 252 candidate legacy ﬁnancial
communities are working to narrow the gap between                   management systems and have developed a timeline
requirements and resources by exercising greater                    for eliminating 29. Decisions for the remaining
discipline throughout the requirements generation                   systems will be made as GFEBS development and
and prioritization process. The OASA (FM&C)                         implementation continues.
initiated a plan to review requirements and associated
historical data to determine potential opportunities for            Improving Accountability and Management
reductions or divestitures. It also devised a strategy to           Controls: The OASA (FM&C) made progress in
better estimate and monitor acquisition costs in order              improving accountability and management controls
to enhance decision making and determine if there are               by hiring a new principal deputy for controls who
any opportunities for reductions. Finally, the OASA                 will focus on this particular strategy. Strong controls
(FM&C) continued to improve the communication                       are a requirement for ensuring proper management
of the Army story to the American public, including                 of Army resources and that information is accurate
Congress, to ensure that the members of Congress and                and timely. The OASA (FM&C) also has progressed
their staff are fully educated on Army programs.                    in budget performance integration (BPI) metrics
                                                                    having associated 83 percent of the Army’s total
Improving Financial Management Information                          obligation authority with BPI metrics, meeting the DoD
Systems: The OASA (FM&C) moved forward in                           requirement of 80 percent for FY 2006. In addition, the
accomplishing its strategy of improving the quality                 OASA (FM&C) continued to improve management
of ﬁnancial management information systems by                       controls by monitoring their implementation progress
awarding the General Fund Enterprise Business System                for Anti-deﬁciency Act cases, government travel and
(GFEBS) contract. Not only will this new commercial-                purchase card delinquencies, and Defense Travel
off-the-shelf enterprise resource planning system                   System usage.




                                                                                                                                    17
Executing Effective Financial Management: Finally,                                                    programming, budgeting, and execution process with
the OASA (FM&C) enhanced ﬁnancial management                                                          the goal of allowing for continuous resource decision
throughout FY 2005 by applying Lean/Six Sigma to                                                      making informed by strategy, priorities, execution
several of the Army’s internal processes that resulted                                                analysis, and changing global conditions.
in signiﬁcant time and money savings. The Army
streamlined its BIC procedure by cutting the process                                                  The Army CFO Strategic Plan has been updated to
time in half and simpliﬁed both the Anti-Deﬁciency                                                    include these and other initiatives to ensure the Army
Act and Contract Disputes Act processes to reduce                                                     makes consistent progress toward reaching each of
investigative cycle time and interest payments,                                                       these priorities along with achieving a favorable audit
respectively. In addition, the Army Comptroller                                                       opinion on its ﬁnancial statements. The CFO Strategic
Proponency ofﬁce provided training, education,                                                        Plan is the Army’s road map to full compliance with
and leadership development opportunities to the                                                       the Chief Financial Ofﬁcers (CFO) Act of 1990. The
future ﬁnancial management workforce by exceeding                                                     plan continues to result in better quality information
professional training and education enrollment level                                                  being provided to Army leaders, decision makers, and
goals in each quarter. The resource management                                                        stakeholders enabling them to make more informed
community also has begun the revision of the planning,                                                decisions.




A Soldier from the 35th Infantry Regiment, 25th Infantry Division (Light), in Zabol Province, Afghanistan, carefully scales the side of a homemade ladder to search for Taliban insurgents and
weapons caches. (by Spc. Jerry T. Combes)




18 General Fund | FY 2005 Army Annual Financial Statement
General Fund Performance Goals,                            supporting this strategy are:
Objectives, and Results                                        Build a campaign-quality force with joint and
The current national security environment requires             expeditionary capabilities;
the Army to be engaged fully to provide capabilities
required to ﬁght and win the GWOT and to sustain               Enhance joint interdependence;
the full range of the nation’s global commitments.             Reset the force;
Additionally, the security environment demands the
Army transform its forces today to meet tomorrow’s             Convert to a brigade-based modular force;
needs by providing a campaign-quality Army with                Rebalance active and reserve component units and
joint and expeditionary capabilities. As previously            skills;
stated, the Army is pursuing four overarching and
                                                               Stabilize Soldiers and units to enhance cohesion
interrelated strategies to meet both today’s and
                                                               and predictability;
tomorrow’s needs.
                                                               Leverage Army science and technology programs;
This section describes the Army FY 2005 performance
                                                               Spin out Future Combat Systems (FCS) capabilities
goals, objectives, and results in terms of its four
                                                               in the current force; and
strategies and supporting initiatives. Since the
Army must address both operational demands and                 Restructure Army aviation.
transformation initiatives, the results indicate how the
performance is balanced within the defense strategy’s      Initiative: Build a campaign-quality force with joint
four spheres of risk -- force management, operational,     and expeditionary capabilities.
institutional, and future challenges. The results of       An environment of persistent conﬂict requires
the report also describe how the Army will fulﬁll the      a campaign-quality force capable of sustaining
obligation to defend the nation and its interests by       signiﬁcant levels of commitment. The Army will
remaining the preeminent landpower on earth, ready         provide that force through modular conversion,
to meet the challenges of the complex 21st century         development and implementation of the Army force
security environment.                                      generation (ARFORGEN) model, development and
                                                           ﬁelding of the FCS, and several of the other initiatives.

Army Performance Results                                   Modular conversion is at the heart of the strategy
The four major strategies laid out by Army leadership      to build a campaign-quality force with joint and
are supported by 21 initiatives. These 21 initiatives      expeditionary capabilities. Modular conversion
are constructed to guide the Army through the              migrates capabilities previously found in divisions and
transformation of the operational force and                corps to the brigade, enabling the Army to be more
streamlining of business processes. The Army is in the     responsive to combatant commander requirements
process of aligning all programs to the 21 initiatives.    and providing increased capabilities to the joint force
Some of the initiatives have mature performance            commander. Additionally, modular army, division,
measures that are currently reporting actionable           and corps headquarters provide the combatant
results. These initiatives will be discussed in detail     commander with readily deployable, scalable,
below.                                                     headquarters that are joint task force or coalition joint
                                                           force capable.

Strategy: Develop Ready and Relevant Land Forces for       ARFORGEN, when fully implemented, will enable
the 21st Century Security Environment                      the Army to routinely sustain a commitment of up to
The Army’s ﬁrst overarching strategy is to develop         20 brigade combat teams (BCTs) and surge to provide
ready and relevant land forces in support of the           40 BCTs on short notice, if required, providing a
combatant commanders and the joint force to sustain        truly campaign-quality force. The Army has made
the full range of global commitments. The initiatives      signiﬁcant progress on the ARFORGEN model in FY




                                                                                                                   19
2005 and will publish a complete implementation plan        Initiative: Convert to a brigade based modular force.
in January 2006.                                            Conversion to the Army modular force (see Figure
                                                            6) started in FY 2004 and continues today. This
The Army is also providing combatant commanders             conversion touches all aspects of the Army—from
with improved joint and expeditionary capabilities          structure to training methodologies to the global
through the development and ﬁelding of the FCS. FCS-        footprint of the force—enabling the Army to be more
equipped BCTs will provide the joint force commander        responsive to combatant commanders’ requirements.
with a truly expeditionary force capable of ﬁghting
on arrival, even on a distant battleﬁeld. Mature FCS
technologies will be spun out to the ﬁeld well before
full ﬁelding, providing the current force with increased
capabilities.

Initiative: Enhance joint interdependence.
Joint interdependence is essentially the purposeful
reliance on other services to provide required
capabilities to Army units. As part of ongoing
transformation efforts, the Army has substantially
reduced the number of artillery and air defense units
within its force structure. The Army has done this in
recognition of the fact that sister services, as part of
a joint team, can deliver these capabilities to ground
                                                            Soldiers from 2nd Squadron, 14th Cavalry Regiment, roll through the desert in their Stryker
forces. The Army re-invested resources from this            vehicle during a patrol near the Iraq/Syria border. (by Staff Sgt. Kyle Davis)
divestiture into additional brigade combat teams and
other forms of landpower that provide the joint force       Figure 6. Conversion to a Brigade Based Modular Force
with capabilities complimentary to those of the other       This graphic depicts
services.                                                   units that have
                                                            converted to the
Initiative: Reset the force.                                modular (BCT)
Major combat operations in Iraq and Afghanistan             structure; units                                                         Deployed
are placing tremendous demands on the Soldiers              trained, equipped,
and equipment. The reset program is designed to             and ready to deploy;
address the effects of combat stress on equipment           and units that will                               Modular Prior To FY 2005
and to prepare that equipment and Soldiers for future       restructure in the
missions. In FY 2005, the 4th Infantry Division and         upcoming year.
the 101st Airborne Division (Air Assault) completed
the reset program. The 2nd Light Cavalry Regiment,
the 10th Mountain Division, the 1st Armored Division,
the 76th Infantry Brigade (Indiana), the 30th Infantry
Brigade (North Carolina), and the 82nd Airborne                                                                                Next to Deploy
Division are in various stages of the reset program.                                                  Trained, Equipped, and Ready To Deploy
                                                                                                                    in FY 2005

Amidst the constant demands of war, equipment is
aging far more rapidly than projected. In FY 2005, the
Army goal was to recapitalize over 6,500 tracked and
wheeled vehicles. The Army exceeded this goal in
FY 2005 funding the recapitalization of a total of 7,050
tracked and wheeled vehicles.                                                                        Units Scheduled To Convert After FY 2005

                                                                                                                  Denotes new Active Brigade




20 General Fund | FY 2005 Army Annual Financial Statement
The modularity initiative represents the transition               eliminate over-structure in the reserve components to
of the Army from a division-centric structure to one              ﬁll remaining units to 100 percent. Under this initiative
that is centered on the BCT. The conversion increases             the Army will restructure over 125,000 positions by FY
the number of active brigades from 33 to 43 and the               2011.
total number of brigades (active and reserve) in the
rotational pool to 77. Modular conversion standardizes            The Army had planned to rebalance over 26,000
brigade formations across the active and reserve force            positions this year and it met that goal. Currently,
and increases capabilities of the BCTs by organizing              the Army remains on track to complete the rebalance
them the way they will operate. In combination with               initiatives by FY 2011. Additionally, the Army
ARFORGEN, lifecycle manning, and other initiatives,               continues to identify and convert positions in its
modular conversion will reduce stress on the force by             institutional force from military to civilian to free up
increasing the number of BCTs in the rotational pool              additional Soldiers to ﬁll requirements in the operating
and enabling predictable rotation cycles. Additionally,           force. The Army met the FY 2005 goal by converting
modular brigades will provide the organizational                  7,604 positions from military to civilian.
framework for implementing the Future Combat Force
Strategy (FCFS).                                                  Initiative: Stabilize Soldiers and units to enhance
                                                                  cohesion and predictability
In FY 2005, the goal was for 11 BCTs and one Stryker              To improve unit cohesion and readiness, while
brigade to be operational. The Army achieved this goal            reducing both turbulence in units and uncertainty for
by converting four brigades from the 101st Airborne               families, the Army has changed how it mans units.
Division (Air Assault), three brigades from the 10th              Under lifecycle management, the Army stabilizes
Mountain Division, four brigades from 4th Infantry                Soldiers inside a BCT for approximately 36 months.
Division, and the 172nd Stryker (SBCT), completing the            Lifecycle management will build more deployable,
modular conversion of four of the Army’s ten divisions.           combat capable units while also improving long term
These BCTs are trained, equipped, and ready, and will             stability, predictability, and quality of life for Soldiers
deploy in support of Operation Iraqi Freedom (OIF) or             and their families. In FY 2005 the Army planned to
Operation Enduring Freedom (OEF) in FY 2006.                      resource six BCTs under lifecycle management. To
                                                                  date the Army has implemented lifecycle management
The Army’s newly created modular formations are                   in ﬁve BCTs with the sixth unit coming on-line in
making a difference now. The FCFS will allow the                  October 2006.
Army to take advantage of technologies as they are
developed and place them into the hands of Soldiers.              Initiative: Spin out future combat systems capabilities
                                                                  into the current force.
Table 1. Convert to a Brigade-Based Modular Force                 The FCS program is a holistic approach to designing
                                                                  and producing a family of manned and unmanned
                                  FY 2005 Goal   FY 2005 Actual
                                                                  systems that are fully networked, information based,
 Number of BCTs ready to deploy        11             11          and integrated across the Army as part of the joint
 Number of SBCTs ﬁelded                1               1          team. FCS will use evolutionary acquisition to develop,
                                                                  ﬁeld, and upgrade FCS components throughout their
Initiative: Rebalance active and reserve component                lifecycle. The Army will accelerate ﬁelding of select
units and skills.                                                 FCS capabilities (called spin outs) to reduce operational
To meet the demands of the new security environment,              risk to the current force. The modular formations,
the Army is rebalancing the active and reserve                    enabled by FCS, will ensure Soldiers and leaders have
components in order to: increase the Army’s                       the capabilities needed to win decisively whenever and
capabilities in military police, military intelligence,           wherever the nation calls them to do so.
special forces, chemical, civil affairs, and psychological
operations; decrease the necessity for involuntary                The Army restructured the FCS program to accelerate
mobilization of reserve component units during                    the introduction of battle command, the Army
the ﬁrst 15 days of a rapid response operation; and               network, and other crucial capabilities to the current



                                                                                                                           21
force, while continuing to build the initial FCS-           allowed the Army to modularize, modernize, and
equipped BCT. Accelerating the ﬁelding of battle            improve force protection for aviation units, to include
command capabilities to establish a more capable and        accelerated ﬁelding of aircraft survivability equipment.
reliable network will support the DoD goal to bring         Modernizing the ﬂeet will reduce maintenance costs,
the joint community closer to a common operational          increase survivability, and improve readiness rates.
picture. The linkage brings improved situational            Key components of the aviation modernization plan
awareness, which will allow warﬁghters to see,              include: resetting aircraft as they return from Iraq and
understand, and strike ﬁrst.                                Afghanistan; producing more MH-47G’s; converting
                                                            aviation brigades to support the Army Modular Force;
In FY 2005 the Army continued to deploy critical            and recapitalizing UH-60A’s and CH-47D’s.
communications systems to provide timely and
accurate command and control information to the             Table 2. Restructure Army Aviation
Soldier in the ﬁeld. These systems included:
                                                                                                 FY 2005 Goal   FY 2005 Actual
     Single Channel Ground and Airborne Radio                Number of Aircraft Reset (Mix of        480             506
                                                             OEF/OIF Returning Aircraft)
     System (SINCGARS), a versatile data and voice
     communications system that operates on the              MH-47G Produced                         13              13
     digitized battleﬁeld;                                   Combat Aviation Brigades (CAB)           5               5
                                                             UH-60 A-A Recapitalization              26              26
     Multi-Band Interoperable Tactical Radio (MBITR),
     a light weight hand held tactical radio;                CH-47 D-D Recapitalization               3               3

     Force Battle Command, Brigade and Below
     (FBCB2)/ Blue Force Tracking (BFT), a digital          This program is on track and already is paying
     battle command information and integrating             dividends. Due to decreased reset costs, the Army was
     system that provides near real-time common             able to complete more aircraft than originally planned.
     picture, navigation tools, messaging capability,       Also, initial data show that Army recapitalized aircraft
     and force tracking capability for immediate            have a 20 percent higher mission capable rate and are
     battleﬁeld identiﬁcation.                              experiencing less than 1 percent non-mission critical
                                                            failures.
     Enhanced Position Location Reporting System
     (EPLRS), the mobile wireless data communications
     backbone for the Army’s Tactical Internet, which       Strategy: Train and Equip Soldiers to Serve as
                                                            Warriors and Growing Adaptive Leaders
     also works with FBCB2.
                                                            Training and equipping Soldiers to serve as
These systems supplied tactical internet capabilities       warriors and growing adaptive leaders is the second
for four divisions and three BCTs in OIF and OEF            overarching strategy. The initiatives in this area are:
during FY 2005. In FY 2006, the Army plans to
continue to equip the forces with these systems,                 Reinforce the centerpiece: Soldiers as warriors;
which will enhance mission effectiveness and Soldier             Recruit and retain Soldiers;
survivability signiﬁcantly. Each acquisition or
developmental system has a detailed development plan             Equip Soldiers;
and milestones. The milestone decision authority must            Train Soldiers and grow adaptive leaders; and
review progress and approve further development at
                                                                 Enhance the combat training centers.
each key decision gate. In addition, program managers
report monthly the cost, schedule, and performance          Initiative: Reinforce the centerpiece: Soldiers as
variance from the plan for each system.                     warriors.
                                                            Human skills may change as technology and warfare
Initiative: Restructure Army aviation.
                                                            demand greater versatility. No matter how much the
In February 2004, the Army canceled the Comanche
                                                            tools of warfare improve, it is the Soldier who must
helicopter program. Reallocation of Comanche funding



22 General Fund | FY 2005 Army Annual Financial Statement
exploit these tools to accomplish the mission. The                                                  the GWOT. Several factors have contributed to the
Soldier will remain the ultimate combination of sensor                                              difﬁcult recruiting environment. These include low
and shooter.                                                                                        unemployment, the GWOT, a lower youth propensity
                                                                                                    to serve, and a greater reluctance of parents and other
Mental and physical toughness underpin the beliefs                                                  inﬂuencers to recommend military service.
embraced in the Soldier’s Creed and must be
developed within all Soldiers — without regard to their                                             Table 4. Active Component End-Strength Within 2%
specialty, their unit, or their location on the battleﬁeld.
                                                                                                                                         FY 2003                  2004                    FY 2005
In FY 2005 the Army implemented the additional rigor
and relevance directed by the Chief of Staff, Army’s                                                 Goal                                480,000                482,400                   502,400
Warrior Ethos concept. The program of instruction                                                    Temporary Authority                     NA                    NA                     512,400
in basic combat training increased the Soldier’s                                                     Actual                              499,301                499,543                   492,728
warﬁghting capability through enhanced training on                                                   Percent Delta                         4.0%                   3.6%                    (2.0%)
39 individual tasks and nine battle drills. The Army                                                 Performance Measure: The number of Soldiers on active duty at the end of the year.
also began implementation of the new ofﬁcer education
system in FY 2005 and created the Basic Ofﬁcer Leader                                               The selected reserve accession goal in FY 2005 was
Course II to focus on critical warrior tasks for all newly                                          91,487 (63,002 ARNG and 28,485 USAR). The ARNG
commissioned ofﬁcers. Finally, the Intermediate Level                                               missed its accession goal in FY 2005 by 12,783. The
Education (ILE) program replaced the Command and                                                    USAR also missed its accession goal by 4,626. Lower
General Staff Ofﬁcer Course expanding the ability to                                                than expected accessions, coupled with normal
educate 100 percent of the Army’s mid-grade ofﬁcers                                                 attrition, meant that the selected reserve ﬁnished the
while creating focus on ofﬁcers’ speciﬁc career paths.                                              year over 32,000 below desired end-strength. Despite
                                                                                                    the end-strength shortfalls, both the ARNG and USAR
Initiative: Recruit and retain Soldiers.                                                            have continued to sustain operations for both federal
Recruiting: In FY 2005, 73,373 Soldiers answered the                                                and civil authorities. The hurricane support for Katrina
nation’s call to service by enlisting in the Army. The                                              and Rita deployed over 51,000 ARNG Soldiers in both
Army achieved 92 percent of its FY 2005 goal of 80,000.                                             state active duty and federal status.
This is the ﬁrst shortfall since 1999. The Army is
beginning FY 2006 with its smallest pool of recruits in                                             Table 5. Selected Reserve (USAR and ARNG) End-Strength
the delayed entry program pipeline in more than two                                                 Within 2%

decades -- just 12 percent of its yearly target of 80,000
                                                                                                                                   FY 2003                   FY 2004                  FY 2005
recruits.
                                                                                                     Goal                           555,000                  555,000                      555,000
Table 3. Recruiting                                                                                  Actual                         562,981                  547,049                      522,182
                                                                                                     Percent Delta                    1.4%                    (1.4%)                      (5.9%)
                                 FY 2003          FY 2004          FY 2005          FY 2005          Performance Measure: The number of Soldiers in the USAR and ARNG at the end of the year.
                                  Actual           Actual           Goal             Actual
 Active Army                      74,132           77,587           80,000           73,373         To address this recruiting shortfall, the Army increased
 Army Reserve                     27,365           21,292           22,175           19,400         its recruiting force by over 4,000 recruiters (increasing
 Army National Guard              54,202           49,210           63,002           50,219         the numbers to 6,279 active, 1,774 USAR, and 5,100
 Performance Measure: Measures the number of Soldiers recruited during a given ﬁscal year against   ARNG recruiters). The Army has also increased
 the published goals.
                                                                                                    college fund grants to $70,000 for qualiﬁed active
                                                                                                    component applicants and increased the maximum
The Army did not achieve the end-strength of 502,400                                                enlistment bonus from $8,000 to $10,000 for reserve
set by Congress, missing this requirement by 9,672.                                                 component, non prior service accessions.
The target end-strength supports the Army’s plan
to add 10 combat brigades (from 33 to 43 by the end                                                 Continuing to adapt its recruiting action plan to the
of FY 2007) to the operational force and provides                                                   challenging environment, the Army set forth other
ﬂexibility while being simultaneously engaged in                                                    proposals that are currently pending congressional



                                                                                                                                                                                                    23
approval. The proposals include a $2,500 referral                                                 The USAR exceeded their goal by 237 Soldiers and
bonus for Soldiers who inﬂuence friends and                                                       closed the ﬁscal year at 102 percent of the FY 2005
acquaintances to enlist in the Army. Other incentives                                             retention mission by reenlisting 16,485. The ARNG
include doubling the maximum enlistment bonus,                                                    closed out ﬁscal year 2005 at 104 percent of the FY 2005
from $20,000 to $40,000, for top-scoring recruits, and                                            retention mission by exceeding their goal by over 1,200
a $45,000 tax free home mortgage down payment for                                                 Soldiers.
Soldiers who stay in the service for six years. Finally,
                                                                                                  Table 6. Active and Reserve Component Retention
the ARNG and USAR increased the age limit for new
recruits from age 35 to 39. The age limit change alone
                                                                                                                                  FY 2003          FY 2004          FY 2005          FY 2005
provided 900 new Soldier contracts. The active Army                                                                                Actual           Actual           Goal             Actual
is proposing the same age limit change.                                                            Active Army                     54,151            60,010          64,162           69,512
                                                                                                   Army Reserve                    13,749            16,330          16,248           16,485
Retention: Another mitigating factor in easing the
                                                                                                   Army National Guard             52,832            47,012          32,570           33,804
recruiting shortfall is the Army’s success in retaining
                                                                                                   Performance Measure: Measures the number of Soldiers reenlisted during a given FY against the
Soldiers. In FY 2005, the Army exceeded its retention                                              published goals.
goal for all three components -- active Army, ARNG,
and USAR. The Army’s success in retention indicates
                                                                                                  Recruiting Soldiers who are conﬁdent, adaptive,
that Soldiers believe in what they are doing and, once
                                                                                                  competent, and able to handle the full complexity
recruited, are inclined to stay. Additional bonus
                                                                                                  of 21st century warfare in this combined, joint,
money was instrumental in capitalizing on this
                                                                                                  expeditionary environment is highly competitive and
willingness to serve. For instance, a bonus of $15,000
                                                                                                  very challenging.
was offered to any Soldier who reenlisted while
deployed to Iraq, Kuwait, or Afghanistan.                                                         Initiative: Equip Soldiers
                                                                                                  Operations in Iraq and Afghanistan have highlighted
                                                                                                  new needs for equipment, and particularly for
                                                                                                  protective equipment, for Soldiers. The Army is
                                                                                                  pursuing two programs in particular to protect
                                                                                                  deployed combat troops: the Rapid Fielding
                                                                                                  Initiative (RFI) and a program to armor high-mobility,
                                                                                                  multipurpose wheeled vehicles (HMMWVs).


                                                                                                  Figure 7. Rapid Fielding Initiative Status Report

                                                                                                  FY04        119,000
                                                                                                                    187,086
                                                                                                  FY05                              449,426
                                                                                                                                    448,647
                                                                                                  FY06                                     530,247
Capt. Jeffrey T. Burgoyne, commander, Company B, 1st Battalion, 325th Airborne Infantry            (1Q)
Regiment, 82nd Airborne Division, shakes hands with his brother, Sgt. 1st Class Cliff Burgoyne,
                                                                                                  FY06                                          580,347
a platoon sergeant in the same battalion, after reenlisting him during a ceremony at Bagram        (2Q)
Airﬁeld, Afghanistan. (by Pfc. Mike Pryor)
                                                                                                  FY06                                             623,447
                                                                                                   (3Q)                                                                            Planned
The active Army FY 2005 retention goal was 64,162.                                                                                                                                 Issued
                                                                                                  FY06                                                 670,047
The Army not only met this goal, but reenlisted 9,500                                              (4Q)

more Soldiers than last year achieving 108 percent of                                             FY07                                                                   888,500
the retention mission. All 10 active divisions achieved
better than 100 percent of their retention goals with                                                     0             200000      400000       600000        800000                 1000000
                                                                                                                                   Number of Soldiers Equipped
the 3rd Infantry Division, which is currently in Iraq,
ﬁnishing at 138 percent of their FY 2005 goal.




24 General Fund | FY 2005 Army Annual Financial Statement
RFI is one of the most innovative, cost-effective, and                 FY 2004 the initial requirement to equip 119,000
popular programs that have been launched to ensure                     Soldiers quickly grew to 151,000 Soldiers, and by
troops are properly equipped for the GWOT. The RFI                     the end of September 2004 over 187,000 Soldiers had
equipment issued reﬂects the lessons learned during                    been equipped. To meet such dynamic demands, the
three years of ﬁghting in complex environments and                     program uses innovative business techniques such as
includes such items as optical sights for weapons,                     incentive contracts, just in time inventory, advanced
grappling hooks, door rams, and ﬁber optic viewers to                  packaging, and radio frequency identiﬁcation device
enhance Soldiers’ abilities to observe from protected                  tracking. An additional 263,000 Soldiers were
positions. Other items enhancing the Soldier’s                         equipped in FY 2005, bringing the current program
survivability are advanced ballistic helmets, hydration                total to 450,000 Soldiers.
systems, ballistic goggles, knee and elbow pads, and an
improved ﬁrst aid kit. Initially providing 49 separate                 The Army goal is to provide armor for every vehicle
items of equipment to Soldiers and small units, focus                  required to operate off base. Up-armoring includes the
groups from various combat and combat support units                    addition of a protective turret shield around gunners,
identiﬁed additional requirements resulting in the                     heavy doors with gun ports, armoring in the front and
current RFI list containing 58 items of equipment.                     rear quarter panels and the rocker panel beneath the
                                                                       door, ballistic window glass, bulletprooﬁng behind
The RFI program is charged with equipping 888,000                      the rear seats, and other protections not visible. The
Soldiers of the operational Army by the end of FY                      armored doors feature new heavy-duty latches and
2007 (see Figure 7) and has demonstrated tremendous                    have weather-stripping to keep out dust and sand.
agility in responding to changing requirements. In                     Eighty-eight percent of all HMMWVs are now up-


 Figure 8. Equipping Our Soldiers: Soldier Protection Programs in Iraq and Afghanistan
 AREA                                    WHERE WE WERE IN JANUARY 2005                   WHERE WE ARE SEPTEMBER 2005
 SOLDIER BODY ARMOR                      All Soldiers and DoD civilians in theater       All soldiers and DoD civilians in theatre
                                         equipped; plus 60,000 Deltoid Auxiliary         equipped; 495,000 IBA/SAPI sets plus 173,000
                                         Protectors issued                               DAP issued
 UP-ARMORED HMMWVs                       More than 6,400 HMMWVs ﬁelded                   10,194 HMMWVs ﬁelded


 TACTICAL WHEELED VEHICLE ADD-           More than 19,000 vehicles in theatre have       23,292 vehicles in theatre have add-on-armor
 ON ARMOR KITS                           add-on armor kits                               kits (LVL I/II)
 ARMORED SECURITY VEHICLES               82 ASVs in theatre; total requirement of 872    158 FMC in theatre
 (ASV)                                   approved

 BRADLEY REACTIVE ARMOR TILES            592 sets delivered; acceleration plan in        689 sets delivered; acceleration plan in
 (BRAT)                                  execution                                       execution

 COUTER-IED DEVICE                       1,496 systems in theatre                        20,757 systems in theatre


 TACTICAL AND SMALL UNMANNED             128 systems deployed; requirement remains       155 systems in theatre (9 Shadow / 146
 AERIAL VEHICLE (UAV)                    194                                             Raven)


 AIRCRAFT SURVIVABILITY                  All theatre aircraft upgraded with basic ASE.   All theatre rotary wing aircraft to be upgraded
 EQUIPMENT (ASE)                         In process of upgrading to an advanced          with Common Missile Warning System/
                                         Common Missiles Warning System/Improved         Improved Countermeasure Munitions
                                         Countermeasures Munitions Dispenser             Dispenser (CMWS/ICMD) by 1st Quarter FY07
                                         (CMWS/ISMD)




                                                                                                                                           25
armored, and the remaining vehicles are restricted to                                          operational tempo (OPTEMPO) miles per year for
operating only on military bases.                                                              the M1 Abrams tank (live and virtual miles) and
                                                                                               corresponding training support to execute fully
Our up-armoring efforts help (see Figure 8) protect                                            the combined arms training strategy. The active
Soldiers from one of the main dangers to troops in                                             component ﬂying hour program requires an average
Iraq, remotely triggered improvised explosive devices                                          of 14.5 live ﬂying hours per aircrew each month to
(IEDs). To combat this threat the Army now has over                                            provide fully qualiﬁed and trained air crews.
20,000 counter-IED devices in theatre. Additionally,
all Soldiers and DoD civilians are now equipped                                                In FY 2005 the Army over executed the number of
with interceptor body armor (IBA) and small arms                                               OPTEMPO miles and hours because operational tempo
protective inserts (SAPI).                                                                     is planned according to peacetime needs. The miles
                                                                                               and hours shown in the table below include training
Initiative: Train Soldiers and grow adaptive leaders.                                          for deployments as well as mileage/ﬂight hours
A balance of training and education is required to                                             actually accomplished in support of OIF and OEF.
prepare Soldiers to perform their duties. Training
prepares Soldiers and leaders to execute complex                                 Table 7. Ground and Air OPTEMPO (Active)
missions in accordance with                                                           FY 2002 FY 2003 FY 2004           FY 2005 Goal FY 2005 Actual
the precepts and guidelines      Ground OPTEMPO (Mileage)                               944         1,071         1,512     899           991
of established doctrine,
                                 Air OPTEMPO (Flight Hours)                             13.1         15.1         17.4      14.5          18.4
while education gives them
                                 Performance Measure Ground: Compare average miles per tank executed versus goal.
the ability and conﬁdence        Performance Measure Air: Total monthly hours/crew OPTEMPO versus goal.

to adapt when uncertain          * September 2005 Monthly Army Performance Review

conditions demand an
approach for which they cannot be prepared by formal                             Fully executing the OPTEMPO, which supports the
training.                                                                        combat readiness of Army Soldiers, is a top priority.
                                                                                 The Army strategy incorporates an appropriate mix
                                                                                 of live, virtual, and constructive training. The Army
                                                                                 maximizes the use of training simulators because they
                                                                                 provide cost-effective, on-demand combat training
                                                                                 and reduce wear on ranges. The Engagement Skills
                                                                                 Trainer 2000, a simulated ﬁring range, represents the
                                                                                 new millennium in basic combat training techniques.
                                                                                 Integrating computers and lasers to train basic riﬂe
                                                                                 marksmanship ﬁts well with American Soldiers who
                                                                                 are accustomed to playing advanced-technology video
                                                                                 games on computers.

                                                                                               Initiative: Enhance the combat training centers.
                                                                                               The Army undertook major efforts in FY 2005 to
                                                                                               integrate lessons learned from all ongoing operations
2nd Lt. Veltum, a Transportation Ofﬁcer Basic Course student, leads fellow students through
tactical maneuvers during Manassas Run, a week-long training exercise at Fort A.P. Hill, Va.   into its individual Soldier and collective training. This
(by Sgt. Jacob Boyer)
                                                                                               required the adoption of the contemporary operating
The Army trains the way it intends to ﬁght, according                                          environment at combat training centers (CTCs), which
to a combined arms strategy that has armored vehicles                                          resulted in a training regimen based on the realistic
and aircraft at its center. The combined arms training                                         missions and supporting activities. Training at the
strategy determines the resourcing requirements to                                             CTCs prepares Soldiers and units for situations they
maintain the combat readiness of its forces. For the                                           may encounter while deployed.
active component, the Army requires 899 ground




26 General Fund | FY 2005 Army Annual Financial Statement
The overarching goal at the CTCs is to replicate
the increased complexity of the current and future
operational environment in controlled circumstances.
Investment in the CTCs saves lives. Training sites
with mosques and Arabic city layouts populated with
an indigenous Arabic-speaking population are now
the norm. This forces Soldiers and units to learn and
employ the language proﬁciency and interpreters
necessary to act in a culturally correct manner and deal
with civilians on the battleﬁeld. It also establishes the
conditions for ﬁghting the insurgent forces of a speciﬁc
culture.

The CTCs now incorporate more role players,
non-governmental actors, media representatives,             Aerial view of Ft. Belvoir family housing.

and sites with Arabic names. Para military forces,
police organizations, terrorists/criminals, and             An area of the utmost concern for Soldiers and families
detainee operations are also an integral part of this       is a fully functional and safe place to live. The Army is
training. Information operations are addressed at           on track to meet the FY 2007 adequacy goals (FY 2008
the fundamental level to ensure an understanding of         overseas) at enduring installations by having programs
the importance of individual and unit actions as they       and resources in place to eliminate inadequate
relate to the media and the impact of information on        housing through privatization, construction, and
operations. Finally, the Iraqi military and security        divestiture. The Army’s privatization of housing
forces are replicated to ensure the unit in training        efforts ensure sustainment of adequate housing to
understands the interactions required with these types      meets contemporary standards for the long term. In
of units and how to best leverage that resource.            FY 2005 the Army’s privatization projects met its goals
                                                            by improving 4,272 housing units from inadequate to
                                                            adequate (2,409 renovations, 1,863 new constructions).
Strategy: Attain a Quality of Life for Soldiers and Their   To date, the Army has privatized over 59,000 units and
Families that Matches the Quality of Their Service          in the coming years will privatize 24,000 more - over
The third overarching strategy is to attain a quality       90 percent of the U.S. inventory. Privatization also
of life and well-being for Soldiers and their families      ensures long term sustainment of adequate housing
that match the quality of their service. The Army’s         that meets contemporary standards. Additionally, the
initiatives in this area are:                               Army completed the renovation and modernization of
                                                            8,204 barracks spaces in FY 2005.
    Maintain the viability of the all-volunteer force;
    and
                                                            Strategy: Provide Infrastructure to Enable the Force to
    Care for Army families and Soldiers.                    Fulﬁll Its Strategic Roles and Missions
The all-volunteer force is the backbone of the United       The Army’s fourth strategy is to provide infrastructure
States Army. Maintaining its viability is and always        to enable the force to fulﬁll its strategic roles and
will be an absolute priority.                               missions. Transformation of business, resourcing, and
                                                            acquisition processes promotes the long-term health
Initiative: Care for Army families and Soldiers.            of the Army. The Army is working aggressively to
The Army well-being programs are vital in maintaining       streamline business processes and practices by taking
and improving retention rates. To remain successful in      advantage of industry innovation, outsourcing, and
this area it must continue to provide exceptional well-     partnering. The initiatives associated with this strategy
being programs and to care for its Soldiers, veterans,      are:
and family members.




                                                                                                                   27
           Implement business transformation;                                                                     system that will provide web-based, online, real-time
                                                                                                                  transaction and information capability, and will be
           Maintain installations as “ﬂagships of readiness”;
                                                                                                                  accessible to all Army and DoD components. The
           Improve global force posture;                                                                          GFEBS application will fulﬁll the requirements of the
           Develop LandWarNet; and                                                                                Federal Financial Management Improvement Act of
                                                                                                                  1996 and will be certiﬁed by the U.S. Army Audit
           Implement BRAC (approved) recommendations.                                                             Agency (USAAA). GFEBS will allow the Army to
                                                                                                                  comply with the Chief Financial Ofﬁcer Act of 1990
Initiative: Implement business transformation.
                                                                                                                  by improving performance, standardizing processes,
The Army is achieving management improvement
                                                                                                                  reducing legacy stove-piped systems, and providing all
results through the implementation of the ﬁve
                                                                                                                  levels of leadership with reliable, relevant, and timely
government-wide initiatives of the President’s
                                                                                                                  ﬁnancial information. The FY 2005 goal for GFEBS was
management agenda (PMA). There are tasks under
                                                                                                                  to award a contract so the Army could begin work.
each of the ﬁve major PMA initiatives (a total of 22
                                                                                                                  That contract was awarded in June 2005.
tasks). The Ofﬁce of the Secretary of Defense rates the
services and defense agencies quarterly on progress                                                               Initiative: Maintain installations as “ﬂagships of
using a red, yellow, or green stop-light method.                                                                  readiness”.
(Army results are depicted in a follow-on section titled                                                          Installations are an essential component in maintaining
“Advancing the PMA.”)                                                                                             the premier army in the world. They are the platforms
                                                                                                                  from which the Army rapidly mobilizes and deploys
The Army is improving the process of resourcing the
                                                                                                                  military power and sustains its military families.
combatant commanders by changing the Planning,
                                                                                                                  Installations play a vital role in training the force
Programming, Budgeting, and Execution (PPBE)
                                                                                                                  and reconstituting it upon return from deployment.
process. The goal is to commit the “right” resources
                                                                                                                  Installations also provide deployed commanders
into the stewardship of commanders when needed,
                                                                                                                  with the ability to reach back for information and
seek ways to increase corporate resourcing ﬂexibility,
                                                                                                                  other support through advanced communications
and increase near-term resourcing responsiveness for
                                                                                                                  technology.
current operational requirements to support combatant
commanders and an Army at war – today and in the                                                                  Installations continue to face many challenges as the
future.                                                                                                           Army focuses on the demands of current operations.
                                                                                                                  For example, to enable the creation of new modular
The intent of a new PPBE process is to provide a
                                                                                                                  brigades, the Army needs new facilities. The Army
more robust and responsive ﬁnancial management
                                                                                                                  must allocate construction funding for permanent
system for the force. The FY 2005 goal was to develop
                                                                                                                  facilities once the FY 2005 base closure and permanent-
a transparent system that provided a method for
                                                                                                                  stationing decisions are completed. Additionally, the
conducting cross-functional coordination. The
                                                                                                                  Army is unable to meet the DoD goal of a facilities
revised process allows all stakeholders the ability
                                                                                                                  recapitalization rate of 67 years. In FY 2006, the Army’s
to evaluate tradeoffs and prioritize needs within
                                                                                                                  facilities recapitalization rate is 112 years, and funding
available resources and constraints. The Army
                                                                                                                  plans indicate the Army will not achieve the 67-year
established a program budget assessment team to serve
                                                                                                                  recap rate until FY 2011.
as a reviewing committee for all new and updated
requirements. When complete, the Army’s PPBE                                                                      Table 8. Facilities Recapitalization Rate1
process will provide users the ability to update needs
and monitor the resourcing process continuously.                                                                                                            FY 2002                FY 2003                FY 2004
                                                                                                                    Actual                                      80                    104                    1242
Another major area of business transformation is                                                                    Goal                                        67                     67                     67
initial implementation of the General Fund Enterprise                                                               Performance Measure: This is deﬁned as the number of years that it will take to replace all
Business System (GFEBS). The GFEBS provides                                                                         existing buildings at the current annual funding level [Recap Rate (years)=Value of Assets (Plant
                                                                                                                    Replacement Value) divided by the Recap Investment].
the Army with an integrated ﬁnancial management

1
    The OSD goal stated in the Quadrennial Defense Report (QDR) is to drive down the recapitalization rate of facilities to 67 years.
2
    The actual total Army FY 2005 Recapitalization Rate will not be computed until the release of the FY 2007 President’s Budget.


28 General Fund | FY 2005 Army Annual Financial Statement
Performance Measure: This is deﬁned as the number                         States. The 2001 Quadrennial Defense Report (QDR)
of years that it will take to replace all existing buildings              highlighted the need for more agile, dispersed forces
at the current annual funding level [Recap Rate                           to promote U.S. interests and to better respond to
(years)=Value of Assets (Plant Replacement Value)                         challenges. In FY 2005 the Army developed a strategic
divided by the Recap Investment].                                         rebasing plan that is synchronized with the demands
                                                                          and realities of the GWOT (see Figure 9).
Installations also serve as “Flagships of Readiness”
by improving force reception through their use as                         For example, the Army allocated $71 million for
power projection platforms. These installations project                   renovation of facilities at Fort Carson for the 2nd
the equipment and capabilities by surface or air to                       Brigade of the 2nd Infantry Division’s move from
meet requirements in the combatant commander’s                            Korea. Prior to this undertaking, Fort Carson only had
operational plans, the strategic planning guidance,                       sufﬁcient barracks to accommodate two maneuver
and the joint swiftness objectives. The Army analyzes                     brigades adequately - the 3rd Armored Cavalry
throughput capability of railcars and aerial ports of                     Regiment and the 3rd Brigade, 4th Infantry Division.
embarkation (APOEs) to measure the performance                            When completed, this FY 2005 project will satisfy
of installations acting as power
projection platforms. In FY 2005,
the goal was for installations to                                         Figure 9. Active Component Brigade Combat Realignment
                                          Korea
                                                                                                                                     Germany         Italy
achieve 100 percent throughput
capability for both railcars and
APOEs. Railcars achieved the
goal of 100 percent throughput
                                            Ft Lewis
capability, but APOEs only
achieved a throughput capability
of 72 percent. There are 15 APOE
                                                                                                                                           Ft Drum
platforms, eight of which are
not meeting their throughput                                                                                        Ft Knox
                                                                                            Ft Riley
requirements. Deployment                                                    Ft Carson
                                                                                                                 Ft Campbell
requirements and capabilities are
                                                                                                                               Ft Bragg
                                                       Ft Irwin
being reexamined in light of the
                                                                                                                        Ft Benning
integrated global presence basing
                                                                                 Ft Bliss
strategy, base realignment and                      Ft Wainwright
                                                    Ft Richardson                               Ft Hood
                                                                                                       Ft Polk                  Ft Stewart/HAAF

closure, and the Army modular
force initiative. These acute changes
in the landscape might impact
the programming of deployment                   Schofield Bks / Shafter


infrastructure.                                                           the unaccompanied housing requirement for the 2nd
                                                                          Brigade by providing a third maneuver brigade set of
Table 9. Throughput Capability
                                                                          barracks that complies with the DoD standard.
                                                          FY 2005
                                         FY 2005 Goal      Actual         Initiative: Develop LandWarNet.
 Percent Railcar throughput capability      100%           100%
                                                                          LandWarNet (see Figure 10) is the Army portion of
                                                                          the Global Information Grid that will provide a jointly
 Percent APOE throughput capability         100%           72%
                                                                          interoperable and integrated network supporting
                                                                          commander-centric battle space communications. A
Initiative: Improve global force posture                                  combination of infrastructure and services, it will move
The Army has embraced DoD’s strategy for changing                         both warﬁghting and business information over a
its global force posture as the Army realigns its                         seamless network.
capabilities to locations within the continental United



                                                                                                                                                             29
Figure 10. LandWar Net


                                                    WNW Sub-Network
                 WIN-T                                                                         WIN-T
                External                                                                      Strategic
                Interop                                                                       Network
                                                                            UE1


             WNW
          Sub-Network


                UA3

                        AV C2V
          CIC

                       BIC                           NAI 15
                                 CAB CIC
                 FEC                                                      NAI 16



                                                                                                             NAI 17
                                           NLOS
                  NLOS CIC            CIC Battery




LandWarNet will unify Army networks and units from            is reviewing JTRS with the goal of bringing it back on
the tactical level to the combatant commander level,          track.
providing all users with the ability to view the same
picture of the battle space. Under the LandWarNet             While WIN-T and JTRS are under development, the
umbrella, the Warﬁghter Information Network-Tactical          Army is ﬁelding the Joint Network Node (JNN) as an
(WIN-T) will wirelessly connect vehicles with each            interim communications network solution. The Army
other along with distant units, command centers,              met the FY 2005 plan (ﬁeld to critical deploying units),
and satellite networks. The Joint Tactical Radio              by equipping all deploying units with JNN to enable
System (JTRS) will extend the network to individual           battle command on the “quick halt” – that is to enable
Soldiers. WIN-T and JTRS will give Soldiers increased         instant communications without the need to set up
situational awareness and information depth that              antennae and other communications equipment.
currently resides only at the brigade level and above.
In the future, these will enable commanders and               Initiative: Implement BRAC (approved)
leaders to use automated, collaborative decision-             recommendations.
support tools to plan, synchronize and virtually              Base Realignment and Closure (BRAC) is a means to
rehearse missions no matter where they are in the             reconﬁgure the Army infrastructure into one where
battle space, while on the move. Commanders                   operational capacity is optimized for both warﬁghting
will have the same mobility as their Soldiers while           capability and efﬁciency, and to enhance joint activity
maintaining uninterrupted contact with the joint              opportunities. BRAC will provide the Army a
force. Although the WIN-T program is proceeding               comprehensive review of its installation inventory,
on schedule, the JTRS program is lagging. The Army            eliminate physical capacity, align base structure
                                                              with post-cold war force structure, and provide



30 General Fund | FY 2005 Army Annual Financial Statement
opportunities for jointness.                                resource decisions. Performance management is the
                                                            way the Army conducts its day-to-day business. The
At the end of FY 2005, the Army was awaiting the ﬁnal       Army’s process of aligning programs with strategies
decision on the BRAC Commission report, which the           allows it to measure successes and points to the areas
President forwarded to Congress on September 15,            that need extra effort.
2005. The report recommended 12 major Army base
closures and 6 major Army base realignments that will       The GWOT, coupled with supplemental funding over
satisfy the following Army goals.                           the past several years, has challenged the ﬁnancial
                                                            community to focus support for the current force and
    Reduce cost and generate savings of $2.5 billion        strategies that will guide the Army into the future. The
    annually and a 20-year net savings of $28 billion;      General Fund Annual Financial Statement provides
    Optimize military value;                                the ﬁnal feedback for both Army leadership and the
                                                            American taxpayer. It shows how the Army spent its
    Advance the Army modular force initiative;              money and, through the performance budget, shows
    Accommodate the rebasing of overseas units;             what the Army accomplished with those funds.
    Enable the transformation of both the active and
    reserve components as well as rebalancing the           Future Effects of Existing Conditions
    forces; and
                                                            The Risk Management Framework
    Contribute to joint operations.
                                                            The Army has embraced the Quadrennial Defense
With the BRAC recommendations forwarded to                  Review risk management framework and has aligned
Congress, the Army can begin to measure and report          all performance management efforts with the four
the percentage of total acreage removed from the            risk areas: force management risk, operational risk,
Army’s books compared to its goals.                         institutional risk, and future challenges risk. The
                                                            Army went one step further by adding a ﬁfth risk area,
With regard to overall Army transformation, it is           ﬁnancial management risk, which cuts across all four
important to note that the BRAC recommendations are         QDR risk areas. Financial management risk is a key
linked inextricably to the Army modular force initiative    consideration behind all of the Army’s decisions in
because they provide the optimum infrastructure to          how to develop its performance budget and how to
stand up, train, support, and rapidly deploy brigade        resource its programs. All 21 strategic initiatives are
combat teams. Using installations as “ﬂagships of           aligned to the risk management framework.
readiness,” the Army will no longer focus on where
the wars of the 20th century ended, but rather look to
the future to project force against potential adversaries
who threaten national security.                                Force Management
                                                                      Risk                    Operational Risk

Conclusion
The 21st century ﬁnancial management environment
continues to be challenging as it is characterized
by constrained budgets, increasing accountability,
transparency, an emphasis on controls, and the need                   Future                  Institutional Risk
for timely resource decision-making to fund an Army              Challenges Risk
that gets results. To this end, the Army has developed
a budget performance integration system to assist
senior leadership to make timely, wise, and provident




                                                                                                                     31
Operational Risk                                            in active component personnel strength is helping
                                                            the Army man its transforming modular BCTs now
The Army has done much to mitigate risk, in all
                                                            undergoing activation or conversion.
dimensions, but particularly in the operational risk
quadrant. Operational risk relates to the ability to
create plans that can be adapted quickly as events          Future Challenges Risk
unfold, train for the next real-time mission, and           The management of future challenges risk requires the
supply Soldiers with what they need now. It relates         Army to strike a balance between its current and future
to achieving near-term objectives, not long-term            investments, keeping risk at acceptable levels while
outcomes—thus, it is an important dimension of the          meeting its current commitments and preparing for
Army’s strategy, but not the entire strategy.               future challenges. In the near-term, the Army plans to
                                                            minimize future risks through the spin out of higher
Creating modular units; ﬁelding Stryker BCTs;
                                                            payoff technologies into the current force (as they
restructuring Army Aviation following the cancellation      become available).
of the Comanche program; establishing the reset
program; and initiating rapid ﬁelding and rapid             To meet future challenges, the Army is taking steps
equipping programs are all helping to meet the              to become a more effective member of the joint team,
demands for Army forces, while reducing the levels          improve operational headquarters, and develop
of operational risk. Due to dramatically increased          transformational capabilities.
operational tempo, the operational ﬂeet’s condition
and age are affecting current equipment readiness.
High mileage and ﬂight hours coupled with the severe        Institutional Risk
environmental conditions encountered in Iraq and            Institutional risk relates to transforming institutional
Afghanistan have placed greater stress on equipment         processes to generate resources for the operational
than expected.                                              Army. This includes improving management
                                                            and business processes, implementing ﬁnancial
                                                            improvement initiatives, improving installations,
Force Management Risk                                       and providing support to the warﬁghter. To reduce
To meet these challenges both today and in the future,      institutional risk, the Army will continue to reﬁne
the Army is pursuing numerous initiatives to reduce         resourcing processes to make it more agile and
force management risk. The Army is working to               responsive to the immediate requirements of the
maintain the viability of the all-volunteer force, and      combatant commanders and to help prepare the Army
is enhancing recruiting and retention programs. By          for future challenges.
developing the Army modular forces, the pool of
rotating units will increase signiﬁcantly and, thereby,     The Army’s investments in LandWarNet are improving
reduce the stress on the force. The Army is working         the installations’ ability to project and sustain forces.
to stabilize the force, to improve unit cohesion and        The result is a more rapidly deployable force that
readiness, and to reduce uncertainty for families. It is    requires less logistics overhead structure and has a
also pursuing personnel management improvements to          greater capacity to reach back to home stations for
position the force for the future.                          intelligence, medical, and other essential support.

Numerous initiatives are focused on reducing force          The Army’s investment accounts will be critical to
management risk. These include: establishing a              its ability to maintain technological superiority and
larger pool of rotational forces through modularity;        ensure the development and ﬁelding of the future
rebalancing the active and reserve components;              force. The Army will need assistance to maintain
eliminating redundant capabilities; stabilizing             these investment accounts to strike the proper balance
the force; enhancing recruiting and retention; and          between supporting current operations and readiness,
increasing the personnel strength of the operational        and investing in capabilities required to ensure future
Army. In addition, congressional approval of increases      success. As the risk management framework continues




32 General Fund | FY 2005 Army Annual Financial Statement
to mature and grow, the Army will continue to utilize         often were not trained adequately on their roles and
its tenants of planning, examining results, and making        responsibilities, or on the limitations of their authority.
tradeoffs based on risk.                                      Furthermore, they often lacked an understanding
                                                              of speciﬁc contract requirements. In addition, there
                                                              was an overall lack of surveillance plans, resulting
Management Integrity                                          in a lack of systematic inspections and ineffective
Inherent throughout the Army is the belief that               documentation of contract performance. Proper
commanders are responsible for all their units do or          quality assurance procedures require surveillance
fail to do. Two key components of this philosophy             plans that serve as roadmaps for monitoring contractor
are the requirement that management establish sound           performance. This is a key element of establishing
management controls and that it act with integrity in         strong internal controls that ensure the Army receives
implementing these controls at all levels of command.         value for its serve-contracting dollar. Due in part to
The Army functional proponents are charged with               the lack of documentation, procedures for validating
identifying and establishing sound management                 and approving contractor invoices sometimes were not
controls and providing oversight to ensure compliance         adequate.
with their management control directives.
                                                              Since the weakness was ﬁrst identiﬁed, several major
Since the inception of the Army management control            commands have instituted ongoing actions to improve
processes 22 years ago, Army commanders have                  contract administration. The ﬁrst step for the Army
reported 1,371 material weaknesses to the Secretary           was to develop and improve administration and
of the Army. Through the process of aggregating               oversight of service contract guidance, with special
similar problems and discarding lesser issues, the            emphasis on the quality assurance process. During
Army leadership reported 231 material weaknesses to           the fourth quarter of FY 2005, the USAAA reviewed
the DoD. Only six of these remain open. The current           the corrective actions and validated that the weakness
status of Army material weaknesses is:                        could be closed. In FY 2006, the Army will open a new
                                                              material weakness relating to contract oversight and
    Open material weaknesses as of September 30, 2004    12   administration.
    Plus: New material weaknesses identiﬁed in FY 2005    0
                                                              Standard Procurement System (SPS) Interface to
    Less: Material weaknesses corrected in FY 2005        6   Computerized Accounts Payment System (CAPS)
    Open material weaknesses as of September 30, 2005     6   The SPS was intended to be ﬁelded as a paperless
                                                              contract writing system. It was to use electronic data
                                                              feeds to create electronic images of contracts. These
Weaknesses Corrected During FY 2005                           images were to be viewable by personnel at Army
The Army corrected six management control                     paying ofﬁces, and the electronic data feeds were
weaknesses during FY 2005. A brief description of each        designed to populate CAPS data ﬁelds so as to effect
corrected weakness follows.                                   payments.

Contract Administration of Service Contracts                  Army contracting ofﬁces used the SPS to write
Service contracts represent an ever-increasing                contracts for vendors at Army posts, camps and
percentage of the overall contract dollars the Army           stations, and the Defense Finance and Accounting
expends and now have surpassed the dollars awarded            Service (DFAS) used the CAPS to process payment
for major weapon systems programs. In FY 2003,                information for most of these contracts. The Army
the U.S. Army Audit Agency (USAAA) identiﬁed a                experienced numerous problems getting these systems
signiﬁcant weakness in the administration of service          to work together effectively. Reliable electronic data
contracts relating to the lack of an effective quality        feeds from contracting ofﬁces to CAPS paying ofﬁces
assurance oversight process.                                  were not established in a manner to support timely
                                                              and accurate payments of contractors in accordance
Although contracting ofﬁcers generally appointed              with prompt payment regulations (Prompt Payment, 5
quality assurance personnel for contracts, they               C.F.R. §1315).



                                                                                                                       33
The use of contract images posted in electronic             Command (USCENTCOM) staff identiﬁed a warﬁghter
document access format for use by DFAS paying ofﬁces        requirement for information available only through use
was not proven to be reliable, requiring the contracting    of AIT and speciﬁcally requested implementation of
ofﬁces to forward printed copies of the contracts to        radio frequency identiﬁcation (RFID) technology by all
the paying ofﬁce. Furthermore, the electronic data ﬁle      services operating within its area of responsibility.
of contract information created by the SPS interface
program was only sporadically successful, requiring         To support the Army and joint service concept of
manual entry of vendor payment data upon receipt            operations, combatant commanders need visibility of
of the paper contract when the electronic data feed         the entire supply chain from the supplier to the foxhole.
failed. This problem directly contributed to the Army       This requires not only tracking the container or pallet
incurring late payment interest penalties of about          but also visibility of what is “in-the-box.” In-the-box
$470,000 in FY 2001. In many of the cases where the         visibility is key to the Army logistics transformation
SPS interface failed, the paper contract was received       requirement to reduce the logistics footprint. It places
well after goods and services were provided to and          a premium on the distribution of limited assets to the
accepted by the government. Failure to correct this         unit with the most mission-critical need. In-the-box
weakness would require Army contracting ofﬁces to           visibility also facilitates the redistribution of parts to
continue forwarding paper contracts to paying ofﬁces,       higher priority units from assets located both within
increasing the likelihood of erroneous contractor           the continental United States and OCONUS.
payments and unnecessary interest payments.
                                                            Historically, the Air Force and Navy, as the primary
To correct this problem, the Ofﬁce of the Assistant         transporters of materiel and equipment in theater,
Secretary of the Army (Acquisition, Logistics               have only been concerned with tracking materiel at
and Technology) and the DFAS entered into a                 the container or pallet level. This type of tracking
memorandum of agreement to address data migration           can be done at a low technology level and without
and interface requirements for information from the         the infrastructure investment required of the newer
SPS to the CAPS. During FY 2003, the deployment             technology; however, RFID technology enhances
of a new version of the SPS was completed. This             in-the-box visibility of container and pallet shipments
version included enhancements to correct the                moving throughout the DoD transportation system.
deﬁciencies noted above. Testing of the new version         After the successful use of RFID in support of
was completed in FY 2004, and the USAAA began its           operations in Somalia, Haiti, and most currently,
review and validation of the enhanced SPS. During           Operation Joint Endeavor, the Commander,
the ﬁrst quarter of FY 2005, the USAAA validated the        USCENTCOM, stated that the combatant commander,
functionality of the SPS, allowing the weakness to be       USCENTCOM, required that all air pallets, containers
closed.                                                     and commercial sustainment moving to and from the
                                                            theater and intra-theater movements be tagged with
In-Transit Visibility (ITV) Policies and Standards          RFID at their origin for asset and ITV tracking in the
In FY 2002, leaders within the Army and on the joint        combined joint operations area.
staff recognized that the ITV Program needed DoD
policy guidance to identify standards, uniformity           The Army G-4 said that in order to correct this
and consensus in objectives, equipment standards            deﬁciency, the DoD should establish policy that
and functional requirements. The Army took                  identiﬁes uniform standards, objectives, and functional
the lead outside the continental United States              requirements. During FY 2004, the OSD approved
(OCONUS) in deploying and successfully using                an ITV policy, which provided guidance to establish
automatic identiﬁcation technology (AIT) to obtain          technology and standards, initiate demonstrations,
in-transit visibility of materiel and personnel in          solicit comments, review lessons learned, and
both peacetime and contingency operations. There            implement strategy. The OSD published a RFID
was, however, no joint doctrine that mandated AIT           policy that identiﬁed uniform standards, objectives,
for ITV or hardware/software standards to ensure            and functional requirements. In FY 2005, the Army
interoperability. Meanwhile, the U.S. Central



34 General Fund | FY 2005 Army Annual Financial Statement
implemented the OSD policy and integrated RFID              of Staff (ODCS), G-3, the Chief Information Ofﬁcer/G-
and ITV into its Standard Army Retail Supply System         6, and the ODCS, G-2.
being ﬁelded during FY 2005 through FY 2007. During
the ﬁrst quarter of FY 2005, the USAAA completed            The implementation of the C2 protect program
its validation of the policy implementation, and the        management plan should improve the ability of the
weakness was closed.                                        Army to detect attempted intrusions and penetrations
                                                            through the use of automated detection software and
Information Systems Security                                improved training of Army systems and network
There is widespread recognition that there will             administrators and security personnel. In addition,
always be a cyber-threat directed at the Army               improvements in the Army incident reporting
unclassiﬁed automated information systems and               system should result in a signiﬁcant increase in the
telecommunications networks. To ensure adequate             number of detected and reported incidents and a
defense against cyber-threats, the Army will always         corresponding decrease in the number of systems that
have to be on guard to identify any systemic                are penetrated. Assessments of these incidents will
deﬁciencies in systems and network security design          show the effectiveness of trained administrators and
and implementation; ensure adequate incident                improvements in the Army detection and reporting
response to a constantly evolving threat; exercise          systems. During FY 2005, the USAAA completed its
containment of identiﬁed threat activity and implement      validation of the corrective actions, and the weakness
effective countermeasures; and establish a robust           was closed.
Information Systems Security (INFOSEC) education,
training, awareness, and professional development           Management of Unexploded Ordinance (UXO)
program.                                                    This weakness resulted from systemic deﬁciencies in
                                                            the management of UXO and munitions constituents
The decisiveness, effectiveness, and potential safety of    (MC) throughout the DoD. The USAAA addressed this
the warﬁghter in attaining national security objectives     weakness in two separate reports. At the time of these
will be at risk if the Army does not continually            reports, neither the DoD nor the Army had an effective,
reevaluate potential risks. If an adequate defense in       integrated and proactive UXO and MC management
depth is not implemented, information processed and         program that addressed the full life cycle perspective of
transmitted throughout the Army systems would be            ranges, land withdrawals, and munitions manufacture,
vulnerable to compromise and exploitation by hostile        or their use, demilitarization and disposal. In addition,
forces and could be at risk during a national crisis. As    there was no consensus among the DoD, the Army,
a result, Army INFOSEC policy and procedures for            and environmental regulators as to clean up standards
managing risk to Army information systems, networks         or preferred clean up techniques. Without a program
and intelligent weapon systems must be managed and          to focus and address these issues, the Army access
protected in accordance with continually evolving DoD       to military ranges was considered to be at serious
and national practices.                                     risk of being restricted by outside entities such as
                                                            environmental regulatory agencies, as in the case of the
To ensure an adequate cyber-defense, the Army               Massachusetts Military Reservation.
leadership has outlined in the command and control
(C2) protect program management plan the measures           The focus of Army leadership is on preserving the
that the Army leadership will undertake to ensure the       ability to train Soldiers, to accomplish necessary
Army portion of the defense information infrastructure      weapons systems and materiel testing, to reduce risks
is adequately protected. The C2 protect program             from UXO and MC, and to manage UXO and MC clean
management plan is designed to manage and control           up expenditures. This is accomplished by developing
the growth of C2 protection initiatives, is in consonance   innovative technologies and an effective, integrated,
with the Army enterprise strategy, and supports             and proactive UXO and MC management program
defense information warfare efforts. It has been            to address life cycle concerns. All investments
developed to address potential weaknesses and has           necessary to develop, mature, and exploit UXO and
been formally signed by the Ofﬁce of the Deputy Chief       MC technologies were to be approved and prioritized



                                                                                                                  35
by the Army Environmental Technology Technical                                                    Army to compile ﬁnancial reports at each site. The
Council and executed in accordance with the Army                                                  OSD approved the Army’s request in May 2003.
policy on investment strategy. Program management                                                 System qualiﬁcation and software development testing
initiatives followed policy guidance and funding                                                  were completed in FY 2005, allowing the weakness to
guidelines as they were developed by the OSD. During                                              be closed.
FY 2005, the USAAA validated the corrective actions,
and the weakness was closed.
                                                                                                  Open Material Weaknesses
Financial Reporting of Real Property                                                              In FY 2005, the Army reported six open material
The Army real property database, Installation Facilities                                          weaknesses. Two of these weaknesses, line-of-duty
System (IFS), could not properly calculate depreciation                                           and incapacitation pay, and manpower requirements
nor provide a complete audit trail of transactions.                                               determination system, are under ﬁnal review by
The initial solution to interface IFS with the Defense                                            the USAAA and are scheduled to close during the
Property Accountability System (DPAS) did not meet                                                ﬁrst quarter of FY 2006. Two additional material
ﬁnancial statement reporting requirements. Data                                                   weaknesses, reserve component mobilization
mismatches between IFS and DPAS, and DPAS not                                                     accountability, and ﬁnancial reporting of general
accepting IFS negative numbers, resulted in dollar                                                equipment, are scheduled to close in the fourth
values being overridden and lost ﬁnancial transactions                                            quarter of FY 2006. The remaining two uncorrected
audit trails.                                                                                     weaknesses, ﬁnancial reporting of equipment in-transit,
                                                                                                  and logistics asset visibility and accountability, are
Due to the problems encountered with the IFS and                                                  scheduled to close in FY 2007 and FY 2008, respectively.
DPAS interface, the decision was made to discontinue
the interface effort and to modify IFS, allowing the




Soldiers from Company A, 3rd Battalion, 141st Infantry Regiment, Texas Army National Guard, practice counterinsurgency tactics near Bagram, Afghanistan. (by Spc. Harold Fields)




36 General Fund | FY 2005 Army Annual Financial Statement
Advancing the President’s                                               conversion in order to free-up military personnel to
Management Agenda                                                       ﬁll positions in the operational Army. The Army has
                                                                        effectively reduced the cost of converting to a modular
The PMA consists of ﬁve government-wide programs
                                                                        brigade-based force and increased its tooth to tail ratio
with goals designed to deliver results that matter to
                                                                        through this program.
the American people. The Army’s progress in each of
these initiatives is discussed below.
                                                                        Competitive Sourcing
Strategic Management of Human Capital                                   Many of the tasks performed by government
                                                                        employees can be contracted out to the commercial
The Army has improved its PMA rating steadily
                                                                        marketplace. Although the Army remains “red” under
and recently attained a green rating for all factors in
                                                                        all areas of competitive sourcing, progress is being
the area of strategic management of human capital.
                                                                        made. The Army continues to lead DoD in seeking
Strategic management of human capital is about
                                                                        savings by outsourcing non-core functions; successful
growing people to ensure that the Army will have
                                                                        outsourcing will also contribute to the efforts to man
not only the right person for the right job, but a cost
                                                                        combat units fully while maintaining an effective
effective, age-appropriate workforce with the skills
                                                                        institutional Army.
necessary for the Army of 2020.

The Army developed a national security personnel                        Improved Financial Management Performance
system change management strategy that includes
                                                                        During FY 2005, the Army continued to build upon a
methods for assuring managers have the skills
                                                                        number of initiatives that will enable it to provide more
necessary for the desired performance. The senior
                                                                        useful and reliable ﬁnancial information.
executive service performance standards are linked
to the Army goals and objectives. The Army is also                      The CFO Strategic Plan is an Army-wide management
seeking to identify critical skills and close skill gaps                plan designed to synchronize efforts across all Army
through directed hiring and training. One process                       functional areas to integrate processes and systems,
extremely important to the Army is military to civilian

Strategic Management of Human Capital
1Q05 2Q05 3Q05 4Q05
                       Human Capital Strategies linked to agency mission and goals.
                       Organization structured to provide optimal service at lowest cost.
                       Continuity of leadership and knowledge is assured through succession planning and professional development.
                       Performance appraisals for SES and managers linked to agency mission.
                       Workforce is diverse, including mission critical occupations and leadership.
                       Current and future skill gaps in mission critical occupations are identified and reduced.
                       Aggressive hiring timeline goals are met.
                       Human capital program is guided by measurable outcomes.



Competitive Sourcing
1Q05 2Q05 3Q05 4Q05
                       Completed public, private, or direct conversion competitions.
                       Competitions and direct conversions conducted pursuant to approved competition plan.
                       Commercial reimbursable support service arrangements between agencies are completed with private sector



Improved Financial Management
1Q05 2Q05 3Q05 4Q05

                       Accurate financial information on demand/used for day-to-day management by 2007.




                                                                                                                                     37
while improving upon the quality of management                            of better service.
information. The plan involves 22 cross-functional
Army organizational elements, as well as the DFAS,                        The Army has made signiﬁcant investment in IT
the OUSD (Comptroller), and the DoD Inspector                             systems, migrating a vast array of information to the
General. Using a ﬁve-year planning horizon, the CFO                       internet. By doing so it has both provided universal
Strategic Plan identiﬁes the steps each organizational                    access to that information and has reduced printing
element must take to integrate fully all ﬁnancial and                     and publication costs. The Army has been able to
non-ﬁnancial processes and systems that impact                            keep its IT investments within ten percent variance of
Army resources. Achieving greater accountability                          planned cost, schedule, and performance goals. In the
requires that all assets and liabilities, revenues and                    FY 2005 President’s Budget, the Ofﬁce of Management
expenses, and the full costs of programs and activities,                  and Budget (OMB) rated satisfactory most of the
be consistently, completely, and accurately recorded,                     Army’s business case analyses (OMB Exhibit 300
monitored, and reported.                                                  reports).

The Army will use the latest technology to develop
ﬂexible, streamlined procedures and processes that will                   Budget and Performance Integration
provide the type of information that will enable sound                    Budget performance integration and full costing
decision-making. The ﬁnancial management and                              requires:
functional communities are identifying unnecessary
systems that may be eliminated and those essential                              Performance goals for all programs in the budget;
systems that must be retained and brought into                                  A governance process to measure and review if
compliance with all statutory, regulatory, and audit                            those goals were achieved;
requirements. The CFO Strategic Plan will assist in
                                                                                Valid and reliable alignment of programs to
the coordination and execution of Army efforts in
                                                                                strategic objectives;
support of DoD’s business management modernization
program initiatives.                                                            A cost accounting structure to organize data; and
                                                                                A ﬁnancial management IT system to support cost
Expanded Electronic Government                                                  accounting.
The President’s Management Agenda requires that                           Using the ﬁve-part plan as its guide, the Army has
information technology (IT) be applied across all areas                   accomplished the following.
of government to reduce costs and enable the provision

E-Government
1Q05 2Q05 3Q05 4Q05
                        All major IT investments submit 300s; 100% of 300s receive a score of 4 or higher from OMB.
                        All major IT investments meet acquisition program baselines with less than 10% deviation.
                        90% of operational systems are properly secured.
                        No IT projects redundant with E-Gov initiatives.



Budget and Performance Integration
1Q05 2Q05 3Q05 4Q05
                        Report on performance management results (Dods BSC) in the Annual Defense Report (ADR).
                        Senior managers regularly use performance measure information to inform management decisions.
                        The full cost of achieving performance goals is accurately (+/- 10%) reported.
                        Performance appraisals for SES and managers linked to agency mission.
                        Use performance measures and Program Assessment Rating Tool (PART) information to justify funding request, management
                        actions, and legislative proposals.
                        Has at least one efficiency measure for all PARTed programs.




38 General Fund | FY 2005 Army Annual Financial Statement
The Army has performance goals and measures              The Army is adjusting the alignment of its
for all programs in the Performance Budget. The          programs to its strategic objectives now. The
performance budget justiﬁcation book provided            Army will call upon subject matter experts to validate
stop light ratings for all programs based on the         the alignment. The Army will conduct performance
performance measures and parameters previously           reviews in FY 2006. The Army currently is developing
approved for each. Using the performance assessment      and identifying the few “vital” performance measures
form, the Army established performance measures          and will conduct quarterly performance reviews for the
for 100 percent of its programs with 81 percent of the   Secretary of the Army upon completion.
programs rated effective and efﬁcient. OMB scored the
Army land forces operations program at 92 percent, or    The Army is constructing and standardizing the
“effective,” and the Army FCS/modularity programs        cost structure throughout the Army to provide near
70 percent, or “adequate.”                               real-time reliable and valid cost information. The
                                                         Army has made progress in implementing activity
The Army use of the primary PPBC governance              based costing and in identifying and standardizing the
body has been an effective means of implementing         data elements to be used in the enterprise system.
the budget performance integration initiative. The
Army requires program managers to set program            Finally, the Army is implementing cost structures
performance goals for each ﬁscal year based on the       for its General Fund Enterprise Business System.
appropriations provided. The Army measures its           GFEBS is a key system in making budget performance
programs against the goals set for the ﬁscal year and    integration useful to Army leadership. GFEBS will
reviews those out of variance at cost performance        provide the Army with reliable ﬁnancial data and
program reviews. The Secretary of the Army and the       provide the information needed to make better
Army executive council review only the few programs      business decisions. The GFEBS application will fulﬁll
that have been deﬁned “critical.”                        the requirements of the Federal Financial Management
                                                         Improvement Act of 1996 and will be certiﬁed by the
                                                         USAAA. GFEBS will allow the Army to comply with
                                                         the Chief Financial Ofﬁcers Act of 1990 by improving
                                                         performance, standardizing processes, reducing
                                                         legacy stove-piped systems and providing all levels
                                                         of leadership reliable, relevant, and timely ﬁnancial
                                                         information. The quality of this ﬁnancial information
                                                         will accelerate the Army’s ability to evaluate
                                                         performance results and integrate them into budget
                                                         decisions.




                                                         Learn More About America’s Army
                                                         http://www.army.mil




                                                         Photo Credits
                                                         General Fund Opening Photo
                                                         A Soldier from Company A, 1st Battalion, 24th Infantry Regiment, 25th Infantry Division,
                                                         maintains a sharp lookout for enemy forces in Mosul, Iraq. (by PFC Jory C. Randall)




                                                                                                                                                    39
                   Principal Financial Statements, Notes, and Supplementary Information




40 General Fund | Principal Financial Statements, Notes, and Supplementary Information
LIMITATIONS
LIMITATIONS OF THE FINANCIAL STATEMENTS

The ﬁnancial statements have been prepared to report the ﬁnancial position and results
of operations for the entity, pursuant to the requirements of Title 31, United States Code,
section 3515(b).

While the statements have been prepared from the books and records of the entity, in
accordance with the formats prescribed by the Ofﬁce of Management and Budget, the
statements are in addition to the ﬁnancial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

To the extent possible, the ﬁnancial statements have been prepared in accordance with
federal accounting standards. At times, the department is unable to implement all elements
of the standards due to ﬁnancial management systems limitations. The department
continues to implement system improvements to address these limitations. There are other
instances when the department’s application of the accounting standards is different from
the auditor’s application of the standards. In those situations, the department has reviewed
the intent of the standard and applied it in a manner that management believes fulﬁlls that
intent.

The statements should be read with the realization that they are for a component of the
United States Government, a sovereign entity. One implication of this is that the liabilities
cannot be liquidated without legislation that provides resources to do so.

LIMITATIONS CONCERNING NATIONAL DEFENSE PROPERTY, PLANT AND
EQUIPMENT

The Federal Accounting Standards Advisory Board revised Statement of Federal Financial
Accounting Standards No. 6 to require the capitalization and depreciation of military
equipment (formerly national defense property, plant and equipment/ND PP&E) for ﬁscal
years 2003 and beyond, and encouraged early implementation.




                                                                   FY 2005 Army Annual Financial Statement   41
42 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Department of Defense - Department of the Army
CONSOLIDATED BALANCE SHEET
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                     2005 Consolidated                     2004 Consolidated
¬¬¬ASSETS¬(Note¬2)
     Intragovernmental:
        Fund Balance with Treasury (Note 3)
        Entity                                                   $          86,799,034 $                                 89,297,373
        Non-Entity Seized Iraqi Cash                                            61,370                                      113,430
        Non-Entity-Other                                                       232,913                                      137,806
        Investments (Note 4)                                                     3,495                                        1,496
        Accounts Receivable (Note 5)                                           276,634                                      461,867
        Other Assets (Note 6)                                                  824,303                                      556,380
        Total Intragovernmental Assets                           $          88,197,749 $                                 90,568,352

     Cash and Other Monetary Assets (Note 7)                     $           1,482,046 $                                 1,525,090
     Accounts Receivable (Note 5)                                              584,005                                     492,394
     Loans Receivable (Note 8)                                                       0                                           0
     Inventory and Related Property (Note 9)                                37,703,353                                  37,647,721
     General Property, Plant and Equipment (Note 10)                       120,401,746                                 113,111,572
      Investments (Note 4)                                                           0                                           0
      Other Assets (Note 6)                                                  3,844,524                                   3,351,504
¬¬¬TOTAL¬ASSETS                                                  $         252,213,423 $                               246,696,633

¬¬¬LIABILITIES¬(Note¬11)
      Intragovernmental:
         Accounts Payable (Note 12)                              $            1,918,309 $                                  1,706,731
         Debt (Note 13)                                                               0                                            0
         Other Liabilities (Note 15 & Note 16)                                2,372,261                                    2,402,903
         Total Intragovernmental Liabilities                     $            4,290,570 $                                  4,109,634

     Accounts Payable (Note 12)                                  $          10,137,011 $                                   9,460,194
     Military Retirement Benefits and Other Employment-Related               1,663,650                                     1,632,843
     Actuarial Liabilities (Note 17)
     Environmental Liabilities (Note 14)                                    39,760,514                                   40,366,172
     Loan Guarantee Liability (Note 8)                                          12,394                                       12,293
     Other Liabilities (Note 15 and Note 16)                                 6,401,916                                    8,669,192
¬¬¬TOTAL¬LIABILITIES                                             $          62,266,055 $                                 64,250,328

¬¬¬NET¬POSITION
     Unexpended Appropriations                                   $          74,704,745 $                                73,238,304
     Cumulative Results of Operations                                      115,242,623                                 109,208,001
¬¬¬TOTAL¬NET¬POSITION                                            $         189,947,368 $                               182,446,305

¬¬¬TOTAL¬LIABILITIES¬AND¬NET¬POSITION                            $         252,213,423 $                               246,696,633




                                                                             The accompanying notes are an integral part of these ﬁnancial statements.


                                                                               FY 2005 Army Annual Financial Statement                            43
Department of Defense - Department of the Army
CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                              2005 Consolidated                        2004 Consolidated
¬¬¬Program¬Costs
      Intragovernmental Gross Costs                                   $                   39,987,320        $                      35,460,140
      (Less: Intragovernmental Earned Revenue)                                            (8,491,160)                              (7,388,378)
      Intragovernmental Net Costs                                     $                   31,496,160        $                      28,071,762
      Gross Costs With the Public                                     $                  116,179,312        $                     108,861,815
      (Less: Earned Revenue From the Public)                                              (1,249,287)                              (1,152,055)
      Net Costs With the Public                                       $                  114,930,025        $                     107,709,760
      Total Net Cost                                                  $                  146,426,185        $                     135,781,522
¬¬¬Cost¬Not¬Assigned¬to¬Programs                                                                    0                                        0
¬¬¬(Less:Earned¬Revenue¬Not¬Attributable¬to¬Programs)                                               0                                        0
¬¬¬Net¬Cost¬of¬Operations                                             $                  146,426,185        $                     135,781,522




                                                                                            The accompanying notes are an integral part of these ﬁnancial statements.


44 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Department of Defense - Department of the Army
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                     2005 Consolidated                         2004 Consolidated
CUMULATIVE¬RESULTS¬OF¬OPERATIONS
   Beginning¬Balances                                            $         109,208,001 $                                   100,631,646
   Prior Period Adjustments¬(+/-)
        Changes in Accounting Principles (+/-)                                       0                                               0
        Correction of Errors (+/-)                                                   0                                               0
   Beginning¬Balances,¬as¬adjusted                               $         109,208,001 $                                   100,631,646
   Budgetary¬Financing¬Sources:
        Appropriations received                                                      0                                               0
        Appropriations transferred-in/out (+/-)                                      0                                               0
        Other adjustments (rescissions, etc) (+/-)                                   0                                               0
        Appropriations used                                                150,048,733                                     127,335,115
        Nonexchange revenue                                                      9,331                                           5,143
        Donations and forfeitures of cash and cash equivalents                   5,609                                           4,663
        Transfers-in/out without reimbursement (+/-)                         3,721,535                                      13,189,641
        Other budgetary financing sources (+/-)                                  2,141                                       2,540,445
   Other¬Financing¬Sources:
        Donations and forfeitures of property                                         0                                              0
        Transfers-in/out without reimbursement (+/-)                            528,071                                        400,794
        Imputed financing from costs absorbed by others                       1,092,805                                        882,077
        Other (+/-)                                                         (2,947,418)                                              0
   Total¬Financing¬Sources                                       $         152,460,807 $                                   144,357,878
   Net¬Cost¬of¬Operations¬(+/-)                                            146,426,185                                     135,781,522
   Net¬Change                                                    $            6,034,622 $                                    8,576,356
   Ending¬Balance                                                $         115,242,623 $                                   109,208,002

UNEXPENDED¬APPROPRIATIONS
¬¬¬¬Beginning¬Balances                                           $          73,238,304 $                                    47,674,714
¬¬¬¬Prior¬period¬adjustments¬(+/-)
        Changes in Accounting Principles (+/-)                                       0                                               0
        Correction of Errors (+/-)                                                   0                                               0
¬¬¬¬Beginning¬Balances,¬as¬adjusted                              $          73,238,304 $                                    47,674,714
¬¬¬¬Budgetary¬Financing¬Sources:
        Appropriations received                                             149,831,938                                   149,547,719
        Appropriations transferred-in/out (+/-)                               2,560,759                                      4,745,349
        Other adjustments (rescissions, etc) (+/-)                            (877,523)                                    (1,394,364)
        Appropriations used                                               (150,048,733)                                 (127,335,114)
        Nonexchange revenue                                                           0                                              0
        Donations and forfeitures of cash and cash equivalents                        0                                              0
       Transfers-in/out without reimbursement (+/-)                                   0                                              0
       Other budgetary financing sources (+/-)                                        0                                              0
¬¬¬¬Other¬Financing¬Sources:
        Donations and forfeitures of property                                        0                                               0
        Transfers-in/out without reimbursement (+/-)                                 0                                               0
        Imputed financing from costs absorbed by others                              0                                               0
        Other (+/-)                                                                  0                                               0
    Total¬Financing¬Sources                                      $           1,466,441 $                                    25,563,590
    Net¬Cost¬of¬Operations¬(+/-)                                                     0                                              0
    Net¬Change                                                               1,466,441                                      25,563,590
    Ending¬Balance                                               $          74,704,745 $                                    73,238,304

                                                                            The accompanying notes are an integral part of these ﬁnancial statements.


                                                                              FY 2005 Army Annual Financial Statement                            45
Department of Defense - Department of the Army
COMBINED STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2005 and 2004 ($ in Thousands)



                                                               Budgetary Financing Accounts            Non-Budgetary Financing Accounts
                                                              2005 Combined      2004 Combined         2005 Combined                    2004 Combined
BUDGETARY¬RESOURCES
  Budget Authority:
     Appropriations received                              $      149,846,916 $      149,559,892 $                             0$                               0
     Borrowing authority                                                   0                  0                               0                                0
     Contract authority                                                    0                  0                               0                                0
     Net transfers (+/-)                                           1,046,572          2,517,085                               0                                0
     Other                                                                 0                  0                               0                                0
  Unobligated balance:
     Beginning of period                                          22,880,757          8,212,989                         1,424                            1,272
     Net transfers, actual (+/-)                                   2,369,187          4,698,264                             0                                0
       Anticipated Transfers Balances                                      0                  0                             0                                0
  Spending authority from offsetting collections:
     Earned                                                                0                   0                            0                                0
       Collected                                                  20,948,238         18,739,994                           101                              152
       Receivable from Federal sources                             (415,099)             412,742                            0                                0
     Change in unfilled customer orders                                    0                   0                            0                                0
       Advance received                                               77,733             306,576                            0                                0
       Without advance from Federal sources                        2,159,939           1,896,851                            0                                0
     Anticipated for the rest of year, without advances                    0                   0                            0                                0
     Previously unavailable                                                0                   0                            0                                0
     Transfers for trust funds                                             0                   0                            0                                0
      Subtotal                                            $       22,770,811 $       21,356,163 $                         101 $                            152
  Recoveries of prior year obligations                            17,033,447         13,996,679                             0                                0
  Temporarily not available pursuant to Public Law                         0                   0                            0                                0
  Permanently not available                                        (877,523)         (1,394,364)                            0                                0
  Total¬Budgetary¬Resources                               $      215,070,167 $      198,946,708 $                       1,525 $                          1,424

STATUS¬OF¬BUDGETARY¬RESOURCES
   Obligations incurred:
       Direct                                             $      175,086,215 $      152,590,936 $                             0$                               0
       Reimbursable                                               24,506,660         23,475,016                               0                                0
       Subtotal                                           $      199,592,875 $      176,065,952 $                             0$                               0
   Unobligated balance:
       Apportioned                                                13,665,452         21,458,641                         1,525                            1,424
       Exempt from apportionment                                      11,980             13,411                             0                                0
       Other available                                                     2                  0                             0                                0
   Unobligated Balances Not Available                              1,799,858          1,408,704                             0                                0
¬¬¬Total,¬Status¬of¬Budgetary¬Resources                   $      215,070,167 $      198,946,708 $                       1,525 $                          1,424
Relationship¬of¬Obligations¬to¬Outlays:
   Obligated Balance, Net - beginning of period           $       57,022,399 $       46,482,855 $                             0$                               0
   Obligated Balance transferred, net (+/-)                                0                  0                               0                                0
   Obligated Balance, Net - end of period:
       Accounts receivable                                        (1,478,349)        (1,893,446)                              0                                0
       Unfilled customer order from Federal sources              (14,873,109)       (12,713,171)                              0                                0
       Undelivered orders                                          66,772,263         56,509,574                              0                                0
       Accounts payable                                            13,948,617         15,119,442                              0                                0
   Outlays:
       Disbursements                                             173,467,566        149,220,137                             0                                0
       Collections                                               (21,025,971)       (19,046,568)                        (101)                            (152)
       Subtotal                                           $      152,441,595 $      130,173,569 $                       (101) $                          (152)
   Less: Offsetting receipts                                        (195,234)           (63,289)                            0                                0
¬¬¬Net¬Outlays                                            $      152,246,361 $      130,110,280 $                       (101) $                          (152)


                                                                                            The accompanying notes are an integral part of these ﬁnancial statements.


46 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Department of Defense - Department of the Army
CONSOLIDATED STATEMENT OF FINANCING
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                                                  2005 Consolidated                   2004 Consolidated
Resources¬Used¬to¬Finance¬Activities:
Budgetary Resources Obligated
 Obligations incurred                                                                        $               199,592,875 $                        176,065,951
 Less: Spending authority from offsetting collections                                                        (39,804,359)                         (35,352,991)
 and recoveries (-)
 Obligations net of offsetting collections and recoveries                                    $               159,788,516 $                        140,712,960
 Less: Offsetting receipts (-)                                                                                 (195,234)                              (63,289)
 Net obligations                                                                             $               159,593,282 $                        140,649,671
Other Resources
 Donations and forfeitures of property                                                                                  0                                   0
 Transfers in/out without reimbursement (+/-)                                                                     528,071                             400,794
 Imputed financing from costs absorbed by others                                                                1,092,805                             882,077
 Other (+/-)                                                                                                  (2,947,418)                                   0
 Net other resources used to finance activities                                              $                (1,326,542) $                         1,282,871
Total¬resources¬used¬to¬finance¬activities                                                   $               158,266,740 $                        141,932,542
Resources¬Used¬to¬Finance¬Items¬not¬Part of¬the¬Net¬Cost¬of¬Operations
 Change in budgetary resources obligated for goods,
 services and benefits ordered but not yet provided
       Undelivered Orders (-)                                                                $               (10,942,905) $                       (12,185,137)
       Unfilled Customer Orders                                                                                 2,237,672                            2,203,425
 Resources that fund expenses recognized in prior periods                                                     (1,282,337)                            (870,785)
 Budgetary offsetting collections and receipts that do not affect net cost of operations                          195,334                               63,441
 Resources that finance the acquisition of assets                                                            (26,752,491)                          (9,901,005)
 Other resources or adjustments to net obligated resources
 that do not affect net cost of operations
       Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-)                              0                                    0
       Other (+/-)                                                                                              2,419,346                            (400,794)
Total¬resources¬used¬to¬finance¬items¬not part¬of¬the¬net¬cost¬of¬operations                 $               (34,125,381) $                       (21,090,855)
Total¬resources¬used¬to¬finance¬the¬net¬cost¬of operations                                   $               124,141,359 $                        120,841,687

Components¬of¬the¬Net¬Cost¬of¬Operations¬that¬will
not¬Require¬or¬Generate¬Resources¬in¬the¬Current¬Period:
Components Requiring or Generating Resources in Future Period:
 Increase in annual leave liability                                                          $                      91,655 $                             95,284
 Increase in environmental and disposal liability                                                                        0                            3,103,711
 Upward/Downward reestimates of credit subsidy expense (+/-)                                                             0                               10,869
 Increase in exchange revenue receivable from the the public (-)                                                         0                                    0
 Other (+/-)                                                                                                        54,908                               63,634
 Total components of Net Cost of Operations that                                             $                     146,563 $                          3,273,498
 will require or generate resources in future periods
Components not Requiring or Generating Resources:
 Depreciation and amortization                                                                                 16,965,074                             9,815,563
 Revaluation of assets or liabilities (+/-)                                                                         1,074                               515,037
 Other (+/-)
       Trust Fund Exchange Revenue                                                                                    (82)                                 (36)
       Cost of Goods Sold                                                                                                0                                    0
       Operating Material & Supplies Used                                                                                0                                    0
       Other                                                                                                    5,172,197                            1,335,773
 Total components of Net Cost of Operations that will not require or generate resources      $                 22,138,263 $                         11,666,337
Total¬components¬of¬net¬cost¬of¬operations¬that
will¬not¬require¬or¬generate¬resources¬in¬the¬current period                                 $                22,284,826 $                         14,939,835
Net¬Cost¬of¬Operations                                                                       $               146,426,185 $                        135,781,522


                                                                                                 The accompanying notes are an integral part of these ﬁnancial statements.


                                                                                                   FY 2005 Army Annual Financial Statement                            47
Department of Defense - Department of the Army
COMBINED STATEMENT OF CUSTODIAL ACTIVITY
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                                  2005 Combined                              2004 Combined
SOURCE¬OF¬COLLECTIONS
    Deposits by Foreign Governments                                 $                       136,000 $                                           0
    Seized Iraqi Cash                                                                             1                                       118,349
    Other Collections                                                                             0                                             0
    Total Cash Collections                                          $                       136,001 $                                     118,349
    Accrual Adjustments (+/-)                                                                     0                                             0
    Total Custodial Collections                                     $                       136,001 $                                     118,349
DISPOSITION¬OF¬COLLECTIONS
    Disbursed on Behalf of Foreign Governments and                  $                        82,613 $                                               0
    International Organizations
    Seized Assets Disbursed on behalf of Iraqi People                                        52,061                                       283,058
    Increase (Decrease) in Amounts to be Transferred                                         53,387                                             0
    Collections Used for Refunds and Other Payments                                               0                                             0
    Retained by The Reporting Entity                                                              0                                             0
    Seized Assets Retained for Support of the Iraqi People                                 (52,060)                                     (164,709)
    Total Disposition of Collections                                $                      136,001 $                                      118,349
NET¬CUSTODIAL¬COLLECTION¬ACTIVITY                                   $                             0 $                                           0




                                                                                         The accompanying notes are an integral part of these ﬁnancial statements.


48 General Fund | Principal Financial Statements, Notes, and Supplementary Information
FY 2005 Army Annual Financial Statement   49
Note 1. Signiﬁcant Accounting Policies
1.A.      Basis of Presentation
These ﬁnancial statements have been prepared to report the ﬁnancial position and results of operations of the
Department of the Army, as required by the Chief Financial Ofﬁcers Act of 1990 (CFO Act), expanded by the
Government Management Reform Act of 1994 (GMRA), and other appropriate legislation. The ﬁnancial statements
have been prepared from the books and records of the Army in accordance with the Department of Defense (DoD)
Financial Management Regulation; Ofﬁce of Management and Budget (OMB) Bulletin No. 01-09, Form and Content of
Agency Financial Statements; and to the extent possible, Federal Generally Accepted Accounting Principles (GAAP).
The accompanying ﬁnancial statements account for all resources for which the Army is responsible. Under the
above guidance, classiﬁed assets, programs, and operations have been excluded from the statements or aggregated
and reported in such a manner that they are no longer classiﬁed. The Army ﬁnancial statements are in addition to
the ﬁnancial reports prepared by the Army pursuant to OMB directives that are used to monitor and control the
Army use of budgetary resources.

The Army is unable to fully implement all elements of Federal GAAP and OMB Bulletin No. 01-09 due to limitations
of its ﬁnancial and non-ﬁnancial management processes and systems. The Army derives its reported values and
information for major asset and liability categories largely from nonﬁnancial feeder systems, such as inventory and
logistics systems. These were designed to support reporting requirements focusing on maintaining accountability
over assets and reporting the status of federal appropriations, rather than preparing ﬁnancial statements in
accordance with Federal GAAP. As a result, the Army cannot currently implement every aspect of Federal GAAP
and OMB Bulletin No. 01-09. The Army continues to implement process and system improvements addressing
the limitations of its ﬁnancial and non-ﬁnancial feeder systems. Further explanation of these ﬁnancial statement
elements is provided in the applicable note.

Fiscal Year (FY) 2005 is the ﬁfteenth year that the Army has prepared ﬁnancial statements required by the CFO Act,
GMRA, and Federal Financial Management Improvement Act of 1996 (FFMIA), (P.L. 104-208). The purpose of the
CFO Act was to bring more effective ﬁnancial and operational management practices to the Federal government
through statutory provisions; provide for improvement of accounting, systems, ﬁnancial management, and internal
controls; and provide for the production of complete, reliable, timely, and consistent ﬁnancial information. GMRA
extended the CFO Act to all activities of Executive Branch agencies. FFMIA expanded reporting requirements under
the CFO Act. The reporting entities within the Army changed to facilitate these reporting requirements.


1.B.      Mission of the Reporting Entity
The overall mission of the Army is to organize, train, equip, and support armed forces to deter aggression and,
if necessary, defeat aggressors of the United States and its allies. It is no longer a world in which two hostile
superpowers face each other. It is our nation’s force of decision – a full spectrum force – trained and ready to
respond to a wide range of crises, from ﬁghting and winning major theater wars, to peacekeeping, humanitarian
relief missions, and disaster relief in communities at home.

The primary mission of the Army remains constant: to ﬁght and win the nation’s wars. In an uncertain world,
the Army performs a wide variety of other missions around the world and at home including deterring potential
adversaries, reassuring and lending stability to allies, supporting our communities in times of emergency,
preserving peace and security, supporting national policies, and implementing national objectives. During times of
war, implementation of planned initiatives may be delayed as funding is redirected toward supporting the primary
mission.

In addition to its military operations, the Army is frequently deployed both at home and abroad in response to
natural disasters. Nationally, the Army provides substantial support to relief operations associated with storms,
tornadoes, and hurricanes. The Army also provides support and relief assistance abroad. Whatever the mission,
committing the Army, commits the nation.


50 General Fund | Principal Financial Statements, Notes, and Supplementary Information
1.C.     Appropriations and Funds
The Army appropriations and funds are divided into the general, working capital (revolving funds), trust, special,
and deposit funds. These appropriations and funds are used to fund and report how the resources have been used
in the course of executing the Army missions.

General funds are used for ﬁnancial transactions arising under congressional appropriations, including personnel,
operation and maintenance, research and development, procurement, and construction accounts.

Revolving funds receive their initial working capital through an appropriation or a transfer of resources from
existing appropriations or funds and use those capital resources to ﬁnance the initial cost of products and services.
Financial resources to replenish the initial working capital and to permit continuing operations are generated by
the acceptance of customer orders. Revolving funds operate with ﬁnancial principles that provide improved cost
visibility and accountability to enhance business management and improve the decision making process. The
activities provide goods and services on a reimbursable basis. Receipts derived from operations are normally
available in their entirety for use without further congressional action.

Trust funds represent the receipt and expenditure of funds held in trust by the government for use in carrying out
speciﬁc purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

Special funds account for government receipts earmarked for a speciﬁc purpose.

Deposit funds are generally used to: (1) hold assets for which the Army is acting as an agent or custodian or whose
distribution awaits legal determination, or (2) account for unidentiﬁed remittances.


1.D.     Basis of Accounting
The Army generally records transactions on a budgetary basis and not an accrual accounting basis as is required by
Federal GAAP. For FY 2005, the Army ﬁnancial management systems were unable to meet all of the requirements
for full accrual accounting. Many of the Army ﬁnancial and nonﬁnancial feeder systems and processes were
designed and implemented prior to the issuance of Federal GAAP and therefore, were not designed to collect and
record ﬁnancial information on the full accrual accounting basis as required by Federal GAAP. In addition, most
of the Army ﬁnancial management systems do not comply with the U.S. Government Standard General Ledger
(USSGL) at the transaction level. The Army has undertaken efforts to determine the actions required to bring its
ﬁnancial and nonﬁnancial feeder systems and processes into compliance with all elements of Federal GAAP. One
such action is the current revision of Army accounting systems to record transactions based on the USSGL. Until
such time as the Army systems and processes are updated to collect and report ﬁnancial information as required
by Federal GAAP, the Army ﬁnancial data will be based on budgetary transactions, non-ﬁnancial feeder system
transactions, and adjustments for known accruals of major items such as payroll expenses, accounts payable, and
environmental liabilities. When possible, the ﬁnancial statements are presented on the accrual accounting basis.
One example of information presented on the budgetary basis is data on the Statement of Net Cost. Much of this
information is based on obligations and disbursements and may not always represent accrued costs.

In addition, the Army identiﬁes programs based upon the major appropriation groups provided by Congress.
The Army does not, however, accumulate costs for major programs based on performance measures because its
ﬁnancial processes and systems do not account for costs in line with established measures. The Army is reviewing
available data and attempting to develop a cost reporting methodology that provides the cost information required
by the Statement of Federal Financial Accounting Standard (SFFAS) No. 4, Managerial Cost Accounting Concepts and
Standards for the Federal Government.


1.E.     Revenues and Other Financing Sources
Financing sources for general funds are provided primarily through congressional appropriations that are received



                                                                                FY 2005 Army Annual Financial Statement   51
on both an annual and a multiyear basis. When authorized, these appropriations are supplemented by revenues
generated by sales of goods or services through a reimbursable order process. The Army recognizes revenue as
a result of costs incurred or services performed on behalf of other federal agencies and the public. Revenue is
recognized when earned under the reimbursable order process.

The Army does not include non-monetary support provided by U.S. Allies for common defense and mutual security
in its list of other ﬁnancing sources that appears in the Statement of Financing. The U.S. has agreements with foreign
countries that include both direct or indirect sharing of costs that each country incurs in support of the same general
purpose. Examples include countries where there is a mutual or reciprocal defense agreement or where U.S. troops
are stationed. DoD is reviewing these types of ﬁnancing and cost reductions in order to establish accounting policies
and procedures to identify what, if any, of these costs are appropriate for disclosure in the ﬁnancial statements in
accordance with GAAP. Recognition of support provided by host nations would affect both ﬁnancing sources and
recognition of expenses.


1.F.      Recognition of Expenses
For ﬁnancial reporting purposes, the DoD policy requires recognition of operating expenses in the period incurred;
however, the Army ﬁnancial and nonﬁnancial feeder systems were not always designed to collect and record
ﬁnancial information on the full accrual accounting basis. Accrual adjustments are made for major items such as
payroll expenses, accounts payable, and environmental liabilities. Expenditures for capital and other long-term
assets are not recognized as expenses in the Army operations until depreciated, in the case of Property, Plant
and Equipment (PP&E), or consumed, in the case of Operating Materials and Supplies (OM&S). Net increases or
decreases in unexpended appropriations are recognized as a change in net position. Certain expenses, such as
civilian annual leave and military leave earned but not taken, are ﬁnanced in the period in which payment is made.

The Army adjusted operating expenses as a result of the elimination of balances between DoD components. See
Note 18, Disclosures Related to the Statement of Net Cost for further information.


1.G.      Accounting for Intragovernmental Activities
The Army, as an agency of the Federal government, interacts with and is dependent upon the ﬁnancial activities of
the Federal government as a whole. Therefore, these ﬁnancial statements do not reﬂect the results of all ﬁnancial
decisions applicable to the Army as though the agency was a stand-alone entity.

The Army proportionate share of public debt and related expenses of the Federal government are not included.
The Federal government does not apportion debt and its related costs to Federal agencies. The Army ﬁnancial
statements, therefore, do not report any portion of the public debt or interest, nor do the statements report the source
of public ﬁnancing whether from issuance of debt or tax revenues.

Financing for the construction of Army facilities is obtained through budget appropriations. To the extent this
ﬁnancing was obtained through issuance of public debt, interest costs were not capitalized since the Department of
the Treasury does not allocate these interest costs to the beneﬁting agencies.

The Army civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal Employees
Retirement System (FERS), while military personnel are covered by the Military Retirement System (MRS).
Additionally, employees and personnel covered by FERS and MRS also have varying coverage under social security.
The Army funds a portion of the civilian and military pensions. Reporting civilian pensions under CSRS and FERS
is the responsibility of the Ofﬁce of Personnel Management (OPM). The Army recognizes an imputed expense for
the portion of civilian employee pensions and other retirement beneﬁts funded by OPM in the Statement of Net
Cost; and recognizes corresponding imputed revenue from the civilian employee pensions and other retirement
beneﬁts in the Statement of Changes in Net Position.

Assets, funded actuarial liability, and unfunded actuarial liability for military personnel are reported in the Military


52 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Retirement Fund (MRF) ﬁnancial statements. The actuarial liability for military retirement health beneﬁts is
recognized in the Other Defense Organization General Fund column of DoD Agency-wide consolidating/combining
statements.

To prepare reliable ﬁnancial statements, transactions occurring between components or activities within the Army
must be eliminated; however, the Army, as well as the rest of the federal government, cannot accurately identify all
intragovernmental transactions by customer. The Defense Finance and Accounting Service (DFAS) is responsible
for eliminating transactions between components or activities of the Army. For FYs 1999 and beyond, seller entities
within the DoD provided summary seller-side balances for revenue, accounts receivable, and unearned revenue
to the buyer-side internal DoD accounting ofﬁces. In most cases, the buyer-side records have been adjusted to
recognize unrecorded costs and accounts payable. Intra-DOD intragovernmental balances were then eliminated.

The Army accounting systems do not capture trading partner information at the transaction level. Therefore,
current systems cannot produce data necessary for reconciliations between buyers and sellers, nor eliminate
all intragovernmental transactions between trading partners. As a result, the Army balances are compared to
seller-side data summarized at the component trial balance level. Based on these comparisons, the amount of
intragovernmental transactions on the buyer-side is forced to agree with seller-side information.

The Department of the Treasury, Financial Management Service (FMS) is responsible for eliminating transactions
between the Army and other federal agencies. In September 2000, FMS issued the “Federal Intragovernmental
Transactions Accounting Policies and Procedures Guide.” The Army was not able to fully implement the policies
and procedures in this guide related to reconciling intragovernmental assets, liabilities, revenues, and expenses for
non-ﬁduciary transactions. The Army, however, was able to implement the policies and procedures contained in
the “Intragovernmental Fiduciary Transactions Accounting Guide,” as updated by the “Federal Intragovernmental
Transactions Accounting Policies and Procedures Guide,” issued October 2002, for reconciling intragovernmental
transactions. These transactions pertain to investments in Federal securities, borrowings from the United States
Treasury and the Federal Financing Bank, Federal Employees’ Compensation Act transactions with the Department
of Labor (DoL), and beneﬁt program transactions with OPM.


1.H.     Transactions with Foreign Governments and International Organizations
Each year, the Army components sell defense articles and services to foreign governments and international
organizations, primarily under the provisions of the Arms Export Control Act of 1976. Under the provisions of the
Act, the Army has authority to sell defense articles and services to foreign countries and international organizations,
generally at no proﬁt or loss to the U.S. Government. Customers may be required to make payments in advance.


1.I.     Funds with the U.S. Treasury
The Army ﬁnancial resources are maintained in U.S. Treasury accounts. The majority of cash collections,
disbursements, and adjustments are processed worldwide at the DFAS, Military Services, and the US Army Corps of
Engineers (USACE) disbursing stations, as well as the Department of State ﬁnancial service centers. Each disbursing
station prepares monthly reports, which provide information to the U.S. Treasury on check issues, electronic fund
transfers, interagency transfers and deposits.

In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury, by
appropriation, on interagency transfers, collections received, and disbursements issued. The Department of the
Treasury then records this information to the applicable Fund Balance with Treasury (FBWT) account maintained in
the Treasury’s system. Differences between the Army recorded balance in the FBWT accounts and Treasury’s FBWT
accounts sometimes result and are subsequently reconciled. Material disclosures are provided in Note 3, Fund
Balance With Treasury. Differences between accounting ofﬁces’ detail-level records and Treasury’s FBWT accounts
are disclosed in Note 3, Fund Balance With Treasury, Disclosures Related to Problem Disbursements and In-Transit
Disbursements, speciﬁcally, differences caused by in-transit disbursements and unmatched disbursements (which
are not recorded in the accounting ofﬁces’ detail-level records).


                                                                                FY 2005 Army Annual Financial Statement   53
1.J.      Foreign Currency
The Army conducts a signiﬁcant portion of its operations overseas. The Congress established a special account to
handle the gains and losses from foreign currency transactions for ﬁve general fund appropriations (operation and
maintenance, military personnel, military construction, family housing operation and maintenance, and family
housing construction). The gains and losses are computed as the variance between the exchange rate current at the
date of payment and a budget rate established at the beginning of each ﬁscal year. Foreign currency ﬂuctuations
related to other appropriations require adjustments to the original obligation amount at the time of payment. These
currency ﬂuctuations are not separately identiﬁed.


1.K.      Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes accounts, claims, and refunds receivable from other
federal entities or from the public. The Army bases the allowances for uncollectible accounts that are due from the
public upon analysis of collection experience by fund type. The Army does not recognize an allowance for estimated
uncollectible amounts from other federal agencies. Claims against other Federal agencies are to be resolved between
the agencies. See Note 5, Accounts Receivable, for material disclosures.


1.L.      Loans Receivable
Not applicable.


1.M.      Inventories and Related Property
Inventories are reported at approximate historical cost using Latest Acquisition Cost (LAC) adjusted for holding
gains and losses.

The Army uses the LAC method because its inventory systems were designed for material management rather than
accounting. The systems provide accountability and visibility over inventory items. They do not maintain historical
cost data necessary to comply with SFFAS No. 3, Accounting for Inventory and Related Property. They are also unable
to directly produce ﬁnancial transactions using the USSGL, as required by FFMIA of 1996 (P.L. 104-208). DoD is
transitioning to a Moving Average Cost methodology for valuing inventory that, when fully implemented, will
allow the Army to comply with SFFAS No. 3.

SFFAS No. 3 distinguishes between inventory held for sale and inventory held in reserve for future sale. There
is no difference in how these accounts are managed or valued. Normally, the Army manages only military or
government-speciﬁc material. The Army does not manage items commonly used in and available from the
commercial sector. In addition, operational cycles are irregular, and the military risks associated with stock-
out positions have no commercial equivalent. The Army holds material based on military need and support for
contingencies. Therefore, the Army does not attempt to account separately for items held for current or future sale.

Related property includes OM&S and stockpile materials. OM&S, including munitions not held for sale, are valued
at standard purchase price. For the most part, the Army uses the consumption method of accounting for OM&S
by expensing material when issued to the end user. Where current systems cannot fully support the consumption
method, the Army uses the purchase method - that is, items are expensed when purchased. The Army reported
signiﬁcant amounts using the purchase method either because the systems could not support the consumption
method or because management deems that the item is in the hands of the end user.

The Army accounts for condemned material as excess, obsolete, and unserviceable. The net value of condemned
material is zero because disposal costs are greater than potential scrap value.

In addition, past audit results identiﬁed uncertainties about the completeness and existence of quantities used to
produce the reported values. Material disclosures related to inventory and related property are provided in Note 9,
Inventory and Related Property.

54 General Fund | Principal Financial Statements, Notes, and Supplementary Information
1.N.     Investments in U.S. Treasury Securities
The Army reports investments in Treasury securities at cost, net of unamortized premiums or discounts. Premiums
or discounts amortize into interest income over the term of the investment using the effective interest rate method
or another method obtaining similar results. The Army intends to hold investments until maturity, unless needed
to ﬁnance claims or otherwise sustain operations. Consequently, the Army does not make provisions for unrealized
gains or losses on these securities. Material disclosures related to investments in treasury securities are provided in
Note 4, Investments.


1.O.     General Property, Plant and Equipment
General PP&E assets are capitalized at historical acquisition cost plus capitalized improvements when an asset has a
useful life of two or more years, and when the acquisition cost equals or exceeds the DoD capitalization threshold of
$100,000. All General PP&E, other than land, is depreciated on a straight-line basis. Land is not depreciated.


Military Equipment
The SFFAS No. 23 establishes generally accepted accounting principles for valuing and reporting military equipment
(e.g., ships, aircraft, combat vehicles, and weapons) in Federal ﬁnancial statements. The standard requires the
capitalization and depreciation of the cost of military equipment, including the cost of modiﬁcations and upgrades.
The Army uses data from the Bureau of Economic Analysis to calculate a value for military equipment.


Contractor Provided
When it is in the best interest of the government, the Army provides government property to contractors that is
necessary to complete their contract work. Such property is either owned or leased by the Army, or purchased
directly by the contractor for the government based on contract terms. When the value of contractor procured
General PP&E exceeds the DoD capitalization threshold, such PP&E is required to be included in the value of
General PP&E reported on the Army Balance Sheet.

DoD is developing new policies and a contractor reporting process that will provide appropriate General PP&E
information for future ﬁnancial statement reporting purposes. Accordingly, the Army reports only the portion of
government property in the possession of contractors that is maintained in the Army property systems.

To bring the Army into fuller compliance with federal accounting standards, the DoD has issued new property
accountability and reporting regulations that require the DoD Components to maintain, in their property systems,
information on all property furnished to contractors. This action and other DoD proposed actions are structured to
capture and report the information necessary for compliance with federal accounting standards.

Material disclosures related to General PP&E are provided in Note 10, General PP&E, Net.


1.P.     Advances and Prepayments
Payments in advance of the receipt of goods and services are recorded as advances or prepayments and reported as
an asset on the Balance Sheet. Advances and prepayments are recognized as expenditures and expenses when the
related goods and services are received.


1.Q.     Leases
Generally, lease payments are for the rental of operating facilities and are classiﬁed as either capital or operating
leases. When a lease is essentially equivalent to an installment purchase of property (a capital lease), the Army
records the applicable asset and liability if the value equals or exceeds the current DoD capitalization threshold. The
Army records the amounts as the lesser of the present value of the rental and other lease payments during the lease
term (excluding portions representing executory costs paid to the lessor), or the asset’s fair value. The Army deems


                                                                                FY 2005 Army Annual Financial Statement   55
the use of estimates for these costs as adequate and appropriate due to the relatively low dollar value of capital
leases. Imputed interest was necessary to reduce net minimum lease payments to present value calculated at the
incremental borrowing rate at the inception of the leases. In addition, the Army classiﬁes leases that do not transfer
substantially all of the beneﬁts or risks of ownership as operating leases and records payment expenses over the
lease term.


1.R.      Other Assets
The Army conducts business with commercial contractors under two primary types of contracts--ﬁxed price and cost
reimbursable. To alleviate the potential ﬁnancial burden on the contractor that long-term contracts can cause, the
Army provides ﬁnancing payments. One type of ﬁnancing payment that the Army makes, for real property, is based
upon a percentage of completion. In accordance with SFFAS No. 1, Accounting for Selected Assets and Liabilities, such
payments are treated as construction in process and are reported on the General PP&E line and in Note 10, General
PP&E, Net.

In addition, based on the Federal Acquisition Regulation, the Army makes ﬁnancing payments under ﬁxed price
contracts. The Army reports these ﬁnancing payments in the “Other Assets” line item, because the Army becomes
liable only after the contractor delivers the goods in conformance with the contract terms. If the contractor does not
deliver a satisfactory product, the Army is not obligated to reimburse the contractor for its costs and the contractor is
liable to repay the Army for the full amount of the advance.


1.S.      Contingencies and Other Liabilities
SFFAS No. 5, Accounting for Liabilities of the Federal Government, deﬁnes a contingency as an existing condition,
situation, or set of circumstances that involves an uncertainty as to possible gain or loss to the Army. The
uncertainty will be resolved when one or more future events occur or fail to occur. A contingency is recognized as
a liability when a past event or exchange transaction has occurred, a future loss is probable, and the amount of loss
can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but
at least a reasonable possibility that a loss or additional loss will be incurred. Loss contingencies include the
collectibility of receivables, pending or threatened litigation, and possible claims and assessments. The Army loss
contingencies arising as a result of pending or threatened litigation or claims and assessments occur due to events
such as aircraft, ship and vehicle accidents; medical malpractice; property or environmental damages; and contract
disputes.

Other liabilities arise as a result of anticipated disposal costs for the Army assets. This type of liability has two
components -- nonenvironmental and environmental. Recognition of an anticipated environmental disposal liability
commences when the asset is placed into service, consistent with SFFAS No. 6, Accounting for Property, Plant, and
Equipment. Based upon the Army policies, which are consistent with SFFAS No. 5, Accounting for Liabilities of Federal
Government, a nonenvironmental disposal liability is recognized for an asset when management decides to dispose of
the asset.

The Army, by means of the Armament Retooling and Manufacturing Support (ARMS) Initiative legislation, has
been authorized to establish a loan guarantee program to facilitate commercial ﬁrms’ use of speciﬁed ammunition
manufacturing facilities and the Army recognizes the loan guarantee liability. The Army is authorized by Public
Law 103-337, the National Defense Authorization Act for Fiscal Year 1995, to enter into this agreement with the U.S.
Department of Agriculture Rural Business-Cooperative Service (RBS).

For material disclosures, see:
Notes 8, Direct Loan and/or Loan Guarantee Program.
Note 14, Environmental Liabilities and Disposal Liabilities.
Note 15, Other Liabilities.


56 General Fund | Principal Financial Statements, Notes, and Supplementary Information
1.T.     Accrued Leave
Civilian annual leave and military leave that have been accrued and not used as of the balance sheet date are
reported as a liability. The liability reported at the end of the ﬁscal year reﬂects the current pay rates.


1.U.     Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
appropriations represent budget authority, which is unobligated and has not been rescinded or withdrawn, and
funds obligated but for which legal liabilities have not been incurred.

Cumulative results of operations represents the difference, since inception of an activity, between expenses and
losses and ﬁnancing sources (including appropriations, revenue, and gains). Beginning with FY 1998, this included
the cumulative amount of donations and transfers of assets in and out without reimbursement.


1.V.     Treaties for Use of Foreign Bases
The DoD Components have the use of land, buildings, and other facilities, which are located overseas and have been
obtained through various international treaties and agreements negotiated by the Department of State. DoD capital
assets overseas are purchased with appropriated funds; however, title to land and improvements are retained by
the host country. Generally, treaty terms allow the DoD Components continued use of these properties until the
treaties expire. These ﬁxed assets are subject to loss in the event treaties are not renewed or other agreements are
not reached which allow for the continued use by DoD. Therefore, in the event treaties or other agreements are
terminated whereby use of the foreign bases is no longer allowed, losses will be recorded for the value of any non-
retrievable capital assets after negotiations between the U.S. and the host country have been concluded to determine
the amount to be paid the U.S. for such capital investments.


1.W.     Comparative Data
The Financial Statements and accompanying Notes to the Financial Statements report the ﬁnancial position and
results of operations for FY 2005. Financial statement ﬂuctuations greater than 2 percent of total assets on the
Balance Sheet and/or greater than 10 percent between FY 2004 and FY 2005, are explained within the Notes to the
Financial Statements.


1.X.     Unexpended Obligations
The Army obligates funds to provide goods and services for outstanding orders not yet delivered. The ﬁnancial
statements do not reﬂect this liability for payment for goods/services not yet delivered.


1.Y.     Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections
matched at the transaction level to a speciﬁc obligation, payable, or receivable in the activity ﬁeld records as opposed
to those reported by the U.S. Treasury. These amounts should agree with the undistributed amounts reported on
the departmental accounting reports. In-transit payments are those payments that have been made to other agencies
or entities that have not been recorded in their accounting records. These payments are applied to the entities’
outstanding accounts payable balance. In-transit collections are those collections from other agencies or entities
that have not been recorded in the accounting records. These collections are also applied to the entities’ accounts
receivable balance.

The Department of Defense policy is to allocate supported undistributed disbursements and collections between
federal and nonfederal categories based on the percentage of federal and nonfederal accounts payable and
accounts receivable. The Army uses speciﬁc identiﬁcation to categorize supported undistributed collections


                                                                                FY 2005 Army Annual Financial Statement   57
as federal or nonfederal accounts receivable. The Army allocates all undistributed disbursements based on a
comparison of accounts payable to the accounts receivable of federal entities providing goods and services to the
Army. Unsupported undistributed disbursements are recorded in accounts payable. Unsupported undistributed
collections should be recorded in other liabilities; however, all Army undistributed collections are supported.


1.Z.       Development Fund for Iraq
On June 28, 2004, transfer of power from the Coalition Provisional Authority (CPA) to the Interim Iraqi Government
(IIG) occurred. Prior to the transfer, the CPA was responsible for the management and accounting of the
Development Fund for Iraq (DFI). Ongoing resolution of issues surrounding transfers of approximately $1.7
billion of DFI assets, including $86.0 million transferred from IIG to the Multi-National Force-Iraq in August 2004,
will require additional disclosure in future ﬁnancial statements. The Army has established a plan to reconcile and
account for these amounts and record DFI funds received. As of the 4th Quarter, FY 2005, the Army has reconciled
the $86.0 million transferred from IIG. The Army has recorded a total of $136.0 million in DFI assets, which
includes the $86.0 million reconciled and a $50.0 million transfer in 1st Quarter, FY 2005. See Note 22 for additional
discussion on DFI.

Note 2. Nonentity Assets
  As of September 30                                                    2005                   2004
  (Amounts in thousands)
  1. Intragovernmental Assets
     A. Fund Balance with Treasury                            $                 294,283    $           251,236
     B. Investments                                                                   0                      0
     C. Accounts Receivable                                                           0                      0
     D. Other Assets                                                                  0                      0
     E. Total Intragovernmental Assets                        $                 294,283    $           251,236
  2. Nonfederal Assets
     A. Cash and Other Monetary Assets                        $                1,482,046   $          1,525,090
     B. Accounts Receivable                                                       53,773                187,140
     C. Loans Receivable                                                               0                      0
     D. Inventory & Related Property                                                   0                      0
     E. General PP&E                                                                   0                      0
     F. Investments                                                                    0                      0
     G. Other Assets                                                                   0                      0
     H. Total Nonfederal Assets                               $                1,535,819   $          1,712,230
  3. Total Nonentity Assets                                   $                1,830,102   $          1,963,466
  4. Total Entity Assets                                      $            250,383,321     $     244,733,167
  5. Total Assets                                             $            252,213,423     $     246,696,633


Relevant Information for Comprehension
Nonentity Assets of $1.8 billion are assets held by the Army, but are not available to fund mission operations.

Nonentity Intragovernmental Fund Balance with Treasury of $7.3 billion is made up of $6.9 billion in material child
transfers from the Executive Ofﬁce of the President for the Iraqi Relief and Reconstruction Fund, $179.5 million in
deposit funds, $61.4 million in Iraqi custodial funds that coalition forces seized during Operation Iraqi Freedom to
be used in support of the Iraqi people, and $53.4 million in custodial funds for the Developmental Fund for Iraq.
Further explanation on the Iraqi custodial funds is disclosed in Note 22.

Nonentity Non-Federal Cash and Other Monetary Assets of $1.5 billion represent both cash and foreign currency.
Further disclosures in Note 7.



58 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Nonentity Non-Federal Accounts Receivable of $53.8 million represents net receivables that originated in
appropriations that are closed and are no longer available to execute Army missions. Army continues to pursue
collection actions and any amounts collected are deposited into the Treasury’s miscellaneous receipt account.

The Army has $250.4 billion in Entity Assets. Entity Assets consist of resources that the Army has the authority to
use, or where management is legally obligated to use funds to meet current year obligations.


Fluctuations and/or Abnormalities
Nonentity Fund Balance with Treasury increased $43.0 million or 17 percent primarily due to increases in Withheld
Income Taxes of $26.0 million caused by timing differences between collection of taxes from personnel and
disbursement to the respective government entitie and in Army Member Savings Program of $19.6 million caused
by an increase in deployed soldiers drawing imminent danger pay who are authorized to deposit funds and later
withdraw the funds with interest. In addition, the Iraqi Seized Assets decreased $52.1 million due to the continued
depletion of the funds as the assets are disbursed on behalf of the Iraqi people and increased $53.4 million due the
Development Fund for Iraq ﬁrst being reported in FY 2005. The remaining increase is due to various other deposit
funds.

Nonfederal Accounts Receivable decreased $133.4 million or 71 percent due to the Department of Defense’s policy to
write-off uncollectable cancelled accounts receivable in FY 2005.


Note Reference
For additional line item discussion, see:
Note 3, Fund Balance with Treasury
Note 4, Investments
Note 5, Accounts Receivable
Note 6, Other Assets
Note 7, Cash and Other Monetary Assets
Note 8, Direct Loan and/or Loan Guarantee Programs
Note 9, Inventory and Related Property
Note 10, General PPE, Net
Note 22, Disclosures Related to the Statement of Custodial Activity

Note 3. Fund Balance with Treasury

 As of September 30                                                2005                     2004
 (Amounts in thousands)
 1. Fund Balances
    A. Appropriated Funds                                 $            86,709,695   $           79,827,618
    B. Revolving Funds                                                     47,069                   36,457
    C. Trust Funds                                                            798                    2,862
    D. Special Funds                                                       41,472                        0
    E. Other Fund Types                                                   294,283                9,681,672
    F. Total Fund Balances                                $            87,093,317   $           89,548,609
 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                          $            87,794,995   $           89,548,609
    B. Fund Balance per Army                                           87,093,317               89,548,609
 3. Reconciling Amount                                    $               701,678   $                    0


The Fund Balance represents the amount of available funding to be utilized for executing the Army mission. The
Fund Balance is reconciled to the Treasury Trial Balance. During September 2005, Army made a net adjustment of



                                                                               FY 2005 Army Annual Financial Statement   59
$40.3 million for unsupported undistributed disbursements and collections to bring the Fund Balance reported by
Army into agreement with Treasury. Due to system deﬁciencies a larger adjustment of $544.1 million was recorded
but the actual effect on Army Fund Balance was $40.3 million.

Treasury Trial Balance reports an additional $701.7 million in Fund Balance with Treasury than reported by
the Army. This includes $555.1 million in canceling year authority, $32.1 million in child transfers with the
Executive Ofﬁce of The President, and $166.8 million in receipt accounts reported on the Treasury Trial Balance
but not included in the Army Fund Balance. In addition, $52.3 million in parent transfers with the Department of
Transportation and Department of Agriculture were reported in the Army Fund Balance but not in the Treasury
Trial Balance.

When Treasury appropriates funds to an entity and the entity allows another federal entity to execute an
apportioned amount of those funds, the entity that receives the original appropriation is deemed the parent and the
entity that is allowed to execute those funds is the child. In these type of transactions, the parent entity and not the
child reports the activity in its Fund Balance unless the balance is material to the child.


Fluctuations and/or Abnormalities
Appropriated Funds increased $6.9 billion or 9 percent and Other Fund Types decreased $9.4 billion or 97 percent
due to an Ofﬁce of the Secretary of Defense requirement to report the Iraqi Relief and Reconstruction Fund material
child transfer from the Executive Ofﬁce of the President as Appropriated Funds. In FY 2004, the fund reported $9.4
billion and in FY 2005 reported $7.0 billion.

Revolving Funds increased $10.6 million or 29 percent primarily due to increase in Army Conventional Ammunition
to ﬁnance the procurement of ammunition components and assembly into conventional ammunition.

Trust funds decreased $2.0 million or 72 percent. The major cause was a bond redemption of $1.9 million on
September 30, 2004 that was reinvested at the beginning of FY 2005. This artiﬁcially increased the fund balance in FY
2004.

Special funds increased $41.5 million or 100 percent due to a DoD policy to report special funds seperately. In FY
2004 the balance was reﬂected in Other Fund Types.


Intragovernmental Payment and Collection (IPAC)
The Intragovernmental Payment and Collection (IPAC) differences are reconcilable differences that represent
amounts recorded by Treasury but not reported by the organization. The Army had no IPAC differences greater
than 180-days old as of September 2005.

Automated reconciliation tools have virtually eliminated all existing differences for the Army. Field sites requiring
additional backup to record the transaction in their accounting system, accounting errors, or timing differences
between disbursing and Treasury cut-off dates are the primary reasons for an IPAC difference to exist today.


Check Issue Discrepancy
For August 2005, the Army 2100 Comparison of Checks Issued Report received from Treasury includes the following
(in thousands):




60 General Fund | Principal Financial Statements, Notes, and Supplementary Information
DFAS                                        0-60 DAYS   61-180 DAYS      > 180 DAYS       TOTAL
Indianapolis                                 $167,693      ($55,879)             ($44)   $111,771
Columbus (Army DSSNs)*                         $3,268            $0                 $0     $3,268
Columbus (Transp Pay)                           $991             $0                 $0      $991
Columbus (Def Agencies)                           $0             $0                 $0        $0
TOTAL (2100 ARMY)                            $171,952      ($55,879)             ($44)   $116,030
*DSSN is Disbursing Station Symbol Number


Check issue differences in the 0-60 days category are considered timing differences due to in-transit time between
reporting check issues by the ﬁeld and processing into the Treasury Check Payments and Reconciliation System.

The differences in the 0-60 days and the 61-180 days are expected to clear by October 2005.


Deposit Differences
The deposit differences are reconcilable differences reported by the Treasury or the Army. The Army has $7.1
million in deposit differences greater than 180 days old as of September 2005. The primary cause for this increase is
non-timely processing of documents by U.S. Army Forces Central Command disbursing station in Kuwait.


Vested Iraqi Cash
The Army has collected $1.7 billion of Vested Iraqi Cash. This cash is vested in accordance with the International
Emergency Economic Powers Act, Section 1701 and will be used in support of the Iraqi people. The Army has
disbursed $1.7 billion in support of the Iraqi people as follows:

(Amounts in thousands)                                                  Amount
Collected                                                              $1,724,131
Disbursed
Iraqi Salaries                                                         $1,184,791
Repair/Reconstruction/Humanitarian Assistance                            147,826
Iraqi Ministry Operations (Ministry of Finance, Defense, etc.)           356,813
Total Disbursed                                                        $1,689,430
Remaining Funds                                                          $34,701


Other Fund Types
The $294.3 million in Other Fund Types consists of $179.5 million in deposit funds, $61.4 million in Seized
Iraqi Cash, and $53.4 million in Development Fund for Iraq. Further explanation on the Seized Iraqi Cash and
Development Fund for Iraq is disclosed in Note 22.


Canceling Appropriated Funds
As of September 2005, Army withdrew $555.1 million in canceling appropriated funds in accordance with Treasury’s
policy.


Note Reference
See Note 1.I., Signiﬁcant Accounting Policies, for additional discussion on ﬁnancial reporting requirements and DoD
policies governing Funds with the U.S. Treasury.

For additional line item discussion, see:
Note 2, Nonentity Assets


                                                                                                    FY 2005 Army Annual Financial Statement   61
Note 20, Disclosures Related to the Statement of Budgetary Resources
Note 22, Disclosures Related to the Statement of Custodial Activity


Status of Fund Balance with Treasury
  As of September 30                                                  2005                    2004
  (Amounts in thousands)
  1. Unobligated Balance
     A. Available                                         $                  13,678,958   $        21,473,477
     B. Unavailable                                                           1,799,859             1,408,704
  2. Obligated Balance not yet Disbursed                  $                  80,720,880   $        71,629,016
  3. Non-Budgetary FBWT                                   $                   7,250,455   $           251,236
  4. Non-FBWT Budgetary Accounts                          $                (16,354,933)   $      (14,608,107)
  5. Total                                                $                  87,095,219   $        80,154,326

Deﬁnitions
Non-Budgetary FBWT includes entity and nonentity FBWT accounts which do not have budgetary authority, such
as unavailable receipt accounts or clearing accounts.

Non-FBWT Budgetary Accounts include budgetary accounts that do not affect FBWT, such as contract authority,
borrowing authority, spending authority, and investment accounts.


Fluctuations and/or Abnormalities
Unobligated Balance – Available decreased $7.8 billion and Obligated Balance not yet Disbursed increased $9.1
billion primarily due to obligating FY 2005 funds for the Global War on Terror and Tsunami Relief and a FY 2004
multi-year Operations and Maintenance appropriation to train and equip the Afghan National Army.

Unobligated Balance - Unavailable increased $391.1 million primarily due to an increase in unapportioned authority
and allotments of expired authority. Unapportioned authority increased $150.0 million for the procurement of
ammunition. Allotments of expired authority increased $241.3 million primarily in the Operations and Maintenance
appropriations.

Non-Budgetary FBWT represents $7.0 billion in Iraqi Relief and Reconstruction Fund which is a material child
transfer from the Executive Ofﬁce of the President, $179 million in deposit funds, $61.4 million in Seized Iraqi Cash,
$53.4 million in Development Fund for Iraq, and ($29.6) million in suspense accounts. The $7.0 billion increase is
due to a DoD policy to include material child transfers as Non-Budgetary FBWT. In FY 2004, material child transfers
were not reported in the Status of Fund Balance with Treasury.

Non-FBWT Budgetary Accounts increase of $1.7 billion reﬂects increases in reimbursable authority in support of
logistical activities and land force readiness support for Army Procurement and Operations and Maintenance.




62 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Disclosures Related to Suspense/Budget Clearing Accounts
                                                                                                        (Decrease)/
 As of September 30                      2003              2004                  2005           Increase from FY2004 - 2005
 (Amounts in thousands)
Account
 F3875                              $                0 $               0 $           (27,176) $                          (27,176)
 F3880                                               0                 0                7,973                               7,973
 F3882                                           (908)             (820)               25,084                              25,904
 F3885                                               0                 0             (36,501)                            (36,501)
 F3886                                             200               187                  117                               ( 70)
Total                               $           ( 708) $          ( 633) $           (30,503) $                          (29,870)


The Army established policies and procedures to ensure accurate and consistent use of Suspense and Budget
Clearing accounts. Suspense reconciliations have been reported as a material weakness since 1997.

A substantial amount of increases/decreases in the suspense accounts from prior ﬁscal years, reﬂects a change in
year end recording. In the past, at the end of each ﬁscal year most suspense/budget clearing accounts were reduced
to zero (as required by the Department of Treasury) by transferring the balances to proper appropriation accounts.
For FY 2005 the Ofﬁce of Management and Budget requested the departments to not reduce the budget clearing
accounts to zero at year end.

The Army transferred the following accounts to their Operation and Maintenance Account (21 2020) for FY 2004 and
FY 2003 (in thousands):

             Accounts                                      FY 2004        FY 2003
21 F3875     Budget Clearing Accounts                      $37,389        $82,292
21 F3880     Check Cancellations                            33,815           2,913
21 F3885     Intergovernmental Payment and Collection      (18,896)       370,885

In FY 2004, Army implemented Public Law 107-314, to write-off $181 million net and $34 billion absolute from the
unsupported suspense balances.

Negative amounts shown above do not indicate abnormal balances, but a preponderance of disbursements over
collections.


Disclosures Related to Problem Disbursements and In-Transit Disbursements
                                                                                                                       (Decrease)/
                                                                                                                    Increase from FY
 As of September 30                                               2003               2004             2005             2004 - 2005
 (Amounts in thousands)
1. Total Problem Disbursements, Absolute Value
    A. Unmatched Disbursements (UMDS)                       $           259,857 $          69,858 $     120,703 $                  50,845
    B. Negative Unliquidated Obligations (NULO)                          26,251            24,424        20,927                   (3,497)
2. Total In-transit Disbursements, Net                      $         1,086,574 $       1,652,211 $   1,143,441 $               (508,770)


Deﬁnitions
Absolute value is the sum of the positive values of debit and credit transactions without regard to the sign.

Unmatched Disbursements (UMDs) occur when payments do not match to a corresponding obligation in the
accounting system.


                                                                                               FY 2005 Army Annual Financial Statement   63
Negative Unliquidated Obligations (NULOs) occur when payments have a valid obligation but the payment is
greater than the amount of the obligation recorded in the ofﬁcial accounting system. These payments use available
funds for valid receiving reports on delivered goods and services under valid contracts.

In-Transits represents the net value of disbursements and collections made by a DoD disbursing activity on behalf
of an accountable activity but not yet attempted to be posted in an accounting system.

Aged UMDs and NULOs
The Army absolute value UMDs, NULOs, and $21.1 million in aged in-transit disbursements represent problem
disbursements. UMDs and NULOs are considered to be problem disbursements immediately, while in-transits are
considered normal business activity up to the 30-day aging category. After 30 days, they are considered as problem
disbursements. Fluctuations in the schedule represent normal activity for UMDs and NULOs based on the inﬂow of
undistributed disbursements received for processing.

In FY 2004, the $69.9 million in UMDs reﬂected the net value rather than the absolute value. The absolute value was
$128.9 million.

Note 4. Investments and Related Interest
                                                                              2005                                            2004
                                                                          Unamortized                           Market
                                                  Par     Amortization     (Premium/          Investments,       Value      Investments,
 As of September 30                            Value/Cost   Method          Discount)             Net          Disclosure       Net
 (Amounts in thousands)
 1. Intragovernmental Securities
                                                              Effective
    A. Non-Marketable, Market-Based            $     3,487
                                                              interest
                                                                          $          (10) $          3,477 $        3,471 $        1,491
    B. Accrued Interest                                 18                                             18              18              5
    C. Total Intragovernmental Securities      $     3,505                $      ( 10) $             3,495 $        3,489 $        1,496
 2. Other Investments                          $         0                             0 $               0            NA $             0


Fluctuations and/or Abnormalities
The Department of the Army Investments increased $2.0 million or 134 percent. The major cause was a bond
redemption of $1.9 million on September 30, 2004 and was reinvested at the beginning of FY 2005.


Relevant Information for Comprehension
The Army Gift Fund was established to control and account for the disbursement and use of monies donated to the
Army along with the interest received from the investment of such donations. The related earnings are allocated to
appropriate Army activities to be used in accordance with the directions of the donor. These funds are recorded as
Non-Marketable Market-Based U.S. Treasury Securities, which are not traded on any securities exchange, but mirror
the prices of marketable securities with similar terms.


Note Reference
See Note 1.N., Signiﬁcant Accounting Policies, for additional discussion on ﬁnancial reporting requirements and
DoD policies governing investments in U.S. Treasury securities.




64 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Note 5. Accounts Receivable
                                                                          2005                                   2004
                                                                     Allowance For
                                                  Gross Amount        Estimated              Accounts          Accounts
 As of September 30                                   Due            Uncollectibles       Receivable, Net   Receivable, Net
 (Amounts in thousands)
 1. Intragovernmental Receivables                $     276,634                    N/A     $       276,634   $        461,867
 2. Nonfederal Receivables (From the Public)     $     709,733   $          (125,728)     $       584,005   $        492,394
 3. Total Accounts Receivable                    $     986,367   $          (125,728)     $       860,639   $        954,261


Allowance Method
The method to estimate Allowance for Loss on Accounts Receivable was changed from percentage of actual
write-offs to percentage of aged receivables by category. The allowance is calculated by using 50 percent of aged
receivables in the 180-day to 2-year category and 100 percent of aged receivables in the greater than 2 year category.
The aged categories are taken from the 3rd Quarter, FY 2005 Quarterly Accounts Receivable Report. The Allowance
for Loss on Accounts Receivable will be re-estimated annually in compliance with standards.


Fluctuations and/or Abnormalities
Intra-governmental Receivables decreased $185.2 million or 40 percent from FY 2004 to FY 2005. The decrease is
primarily related to increased efforts to monitor receivables and ensure proper recording of collections. Efforts
have been made to move all reimbursable activity within the government to the Intragovernmental Payment and
Collection process thus decreasing the overall receivable balance. The decrease was seen in receivable balances
from the Department of Air Force for $97.2 million, Other Defense Agencies for $37 million, and Health and Human
Services for $15.3 million. The remaining $35.7 million was seen in various other agencies.

Net Non-Federal Receivables (from the Public) increased $91.6 million or 19 percent from FY 2004 to FY 2005.
Increases were seen in areas impacted by the war as In-Service debts increased $9.5 million and debts from Foreign
Governments increased $124.2 million. The majority of the Foreign Governments increase primarily pertains to one
country under Multi-National Division Agreements that are not being paid by the foreign government, but by the
Ofﬁce of the Secretary of Defense (Comptroller). Payment is dependant on the receipt of the Ofﬁce of Secretary of
Defense budget supplement and is expected during FY 2006. There is continuous effort to monitor receivables and
ensure proper recording of collections resulting in the reduction of Non-Federal Receivables.

Non-Federal Receivables (from the Public) consists of accounts receivable, refund receivable, claims receivable and
interest receivable. The following schedule illustrates the major contributors to Gross Amount Due from Non-
Federal Accounts Receivable (from the Public), by type of debt:




                                                                                        FY 2005 Army Annual Financial Statement   65
(Amounts in thousands)

Type of Debt                                                       Amount
Contractor Debt                                                    $94,825
Individual (Out-of-Service)                                        183,657
Military Pay (In-Service)                                          100,106
Civilian Pay (In-Service)                                           34,048
Sales of Goods & Services                                           51,463
Interest                                                            34,675
Foreign Military Sales                                              30,347
Foreign Governments                                                200,610
Non-Appropriated Funds Instrumentalities                            13,652
Vendor Debt                                                          2,342
Other                                                               27,047
        Subtotal                                                  $772,772
Undistributed Collections Public                                  (63,039)
        Gross Non-Federal Accounts Receivable (from the Public)   $709,733


Relevant Information for Comprehension
Allocation of Undistributed Collections
The Army reported $10.5 million of supported undistributed collections. The Army supported undistributed
collections are reported as either federal or public.

Elimination Adjustments
The Army’s General Fund accounting systems do not capture trading partner data at transaction level in a manner
that facilitates trading partner aggregations. Therefore, the Army is unable to reconcile Intragovernmental Accounts
Receivable balances with its trading partners. The Army intends to develop long-term systems improvements that
will include sufﬁcient up-front edits and controls to eliminate the need for after-the-fact reconciliations. These
improvements will be implemented incrementally through planned ﬁelding of a compliant ﬁnancial management
system for all Army activities.

Accounts Receivable Over 180 Days
The Army reported $272.9 million of Non-Federal Accounts Receivable (from the Public) and $3.0 million of
Intragovernmental Accounts Receivable over 180 days. Over 50 percent of Non-Federal Accounts Receivable (from
the Public) consisted of personnel and contractor debt. The Intragovernmental Accounts Receivable consisted of
debt from reimbursable transactions within DoD.

Nondelinquent accounts receivable are receivables not yet due under the contract or billing documents pertaining to
the receivable. Current nondelinquent accounts receivable are those that are due in the next 12 months. Noncurrent
nondelinquent accounts receivable are those amounts that are due beyond the next 12 months. Delinquent accounts
receivable shall be aged from the date the accounts is considered delinquent as outlined in the DoD Financial
Management Regulations.




66 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Accounts Receivable Groups
(thousands)

Category                               Intragovernmental     Nonfederal
Nondelinquent
       Current                                 $1,168,045      $386,915
       Noncurrent
Delinquent
       1 to 30 days                                29,384          4,772
       31 to 60 days                                  570         10,910
       61 to 90 days                                5,137         28,836
       91 to 180 days                               9,303         68,398
       181 days to 1 year                           2,758       103,908
       Greater than 1 year and less                   207         54,541
       then or equal to 2 years
       Greater than 2 years and less                              39,808
       than or equal to 6 years
       Greater than 6 years and less                              67,021
       than 10 years
       Greater than 10 years                                       7,664

The aged accounts receivable schedule above does not include undistributed collections or eliminate any receivables
with the Army. The primary difference is due to eliminations of $991 million.

Non-Federal Refunds Receivable
Refunds Receivable are presented in the table below. Amounts reported for Public Refunds Receivable primarily
originated from debts owed by military service members collectible to the Army active military personnel
appropriation.

       (Amounts in thousands)

    FY 2005 Non-Federal           FY 2005 Non-Federal
     Refunds Receivable         Accounts Receivable (Net)   Percent of Net Amount
              $165,725                  $584,005                    28%


Note Reference
See Note 1.K., Signiﬁcant Accounting Policies, for additional discussion on ﬁnancial reporting requirements and
DoD policies governing accounts receivable.

Note 6. Other Assets

   As of September 30                                                        2005                    2004
   (Amounts in thousands)
   1. Intragovernmental Other Assets
      A. Advances and Prepayments                                     $              824,303    $        556,380
      B. Total Intragovernmental Other Assets                         $              824,303    $        556,380
   2. Nonfederal Other Assets
      A. Outstanding Contract Financing Payments                      $             3,470,563   $      2,789,090
      B. Other Assets (With the Public)                                               373,961            562,414
      C. Total Nonfederal Other Assets                                $             3,844,524   $      3,351,504
   3. Total Other Assets                                              $             4,668,827   $      3,907,884




                                                                                                    FY 2005 Army Annual Financial Statement   67
Relevant Information for Comprehension
The Army has reported outstanding ﬁnancing payments for ﬁxed price contracts as Other Assets. The Army
becomes liable after the contractor delivers the goods in conformance with the contract terms of ﬁxed price contracts.
The Army is not obligated to reimburse the contractor for its costs and the contractor is liable to repay the Army the
full amount of the outstanding contract ﬁnancing payments if a satisfactory product is not delivered.


Fluctuation and/or Abnormalities
Intragovernmental Advances and Prepayments increased $267.9 million or 48 percent from FY 2004. Improved
business processes of using Treasury’s Intragovernmental Reconciliation Analysis System have allowed Army
to capture advances to others with agencies outside of DoD. Increased in advances to the Department of Interior
for $199.2 million, Department Homeland Security for $53.8 million, and National Aeronautics and Space
Administration for $14.8 million make up the majority of the overall increase. The increase is due to Army using
estimates in FY 2004 and actuals in FY 2005.

Outstanding Contract Financing Payments increased $681.5 million or 24 percent from FY 2004. The majority of the
increase occurred in the appropriations for Missile Procurement, Army of $217.4 million, Procurement of Weapons
and Tracked Combat Vehicles, Army of $150.8 million, Other Procurement, Army of $229.2 million and Operation
and Maintenance, Army $51.1 million.

The Other Assets (With the Public) which consist of Military Pay and Travel Advances decreased $188.5 million or
34 percent because of increased collection efforts.


Intragovernmental Eliminations
The buyer-side Advances and Prepayments balances were adjusted upward $909.6 million to agree with seller-side
unearned revenue on the books for other DoD reporting entities. In addition, $85.4 million of intra-Army General
Fund transactions were eliminated leaving a balance of $824.3 million.


Note Reference
See Note 1. R., Signiﬁcant Accounting Policies, for additional discussion on ﬁnancial reporting requirements and
DoD policies governing other assets.

For regulatory discussion on other assets, see the Department of Defense Financial Management Regulation, Volume 6B,
Chapter 10, paragraph 1008.

Note 7. Cash and Other Monetary Assets

  As of September 30                                                            2005                2004
  (Amounts in thousands)
  1. Cash                                                               $           1,010,331   $      1,168,692
  2. Foreign Currency (non-purchased)                                                 471,715            356,398
  3. Total Cash, Foreign Currency, & Other Monetary Assets              $           1,482,046   $      1,525,090


Deﬁnitions
Cash – The total of cash resources under the control of the Army, which includes coin, paper currency, negotiable
instruments, and amounts on deposit in banks and other ﬁnancial institutions. Cash available for agency use
includes petty cash funds and cash held in revolving funds which will not be transferred into the U.S. Government
General Fund.

Foreign Currency – Consists of the total U.S. dollar equivalent of purchased foreign currencies held in foreign


68 General Fund | Principal Financial Statements, Notes, and Supplementary Information
currency fund accounts. Non-purchased foreign currency is limited to the Treasury Index 97X7000 fund account.

Other Monetary Assets - Includes gold, special drawing rights, and U.S. Reserves in the International Monetary
Fund. This category is principally for use by the Department of the Treasury and is not used by Army.


Fluctuations and/or Abnormalities
Cash and foreign currency decreased $43.0 million or 3 percent, primarily due to continued support of the
contingency missions Operation Iraqi Freedom and Operation Enduring Freedom. Overall foreign currency
increased approximately $115.3 million or 32 percent, which includes currency to pay foreign vendors and cash in
the custody of foreign agents primarily in support of the Army’s forward deployed tactical units.


Other Information Related to Cash and Other Monetary Assets
Cash and foreign currency reported consists primarily of cash held by disbursing ofﬁcers to carry out their paying,
collecting and foreign currency accommodation exchange mission. Foreign currency is valued using the Department
of Treasury Prevailing Rate of Exchange. This rate is the most favorable rate that would legally be available to the
U.S. Government’s acquisition of foreign currency for its ofﬁcial disbursements and accommodation of exchange
transactions. All Army cash and foreign currency is non-entity and is therefore restricted.

All foreign currency shown above is purchased foreign currency residing in Local Depository Accounts overseas.
Due to limitations of the current format of line 2, Foreign Currency (non-purchased) is erroneously shown as non-
purchased.


Note Reference
See Note 1.J., Signiﬁcant Accounting Policies, for additional discussion on ﬁnancial reporting requirements and DoD
policies governing foreign currency.

Note 8. Direct Loan and/or Loan Guarantee Programs
As of September 30
Direct Loan and/or Loan Guarantee Programs The entity operates the following direct loan and/or
Loan guarantee program(s)
        Military Housing Privatization Initiative
        Armament Retooling & Manufacturing Support Initiative


Armament Retooling and Manufacturing Support Initiative
The Armament Retooling and Manufacturing Support Initiative (ARMS), Title 10 United States Code (USC)
4551-4555, is designed to encourage commercial use of the Army’s inactive ammunition plants through many
incentives for businesses willing to locate to a government ammunition production facility. These facilities have
production capacity greater than the current military requirements; however, this capacity could be needed in the
event of a major war. The revenues from the property rental are used to pay for the operation, maintenance and
environmental clean up at the facilities. This savings in overhead cost lowers the production cost of the goods
manufactured and funds the environmental clean up at no cost to the government.

The Army, by means of ARMS Initiative legislation, established a loan guarantee program to facilitate commercial
ﬁrms’ use of speciﬁed ammunition manufacturing facilities. The Army and Department of Agriculture Rural
Business-Cooperative Service (RBS) established a Memorandum of Understanding for the RBS to administer the
ARMS Initiative Loan Guarantee Program (AILP).




                                                                              FY 2005 Army Annual Financial Statement   69
Direct Loans Obligated After FY 1991
Not applicable.


Total Amount of Direct Loans Disbursed
Not applicable.


Subsidy Expense for Post-1991 Direct Loans
Not applicable.


Subsidy Rate for Direct Loans
Not Applicable.


Schedule for Reconciling Subsidy Cost Allowance Balances for Post-1991 Direct Loans
Not applicable.


Defaulted Guaranteed Loans from Post-1991 Guarantees
Not applicable.


Guaranteed Loans Outstanding
                                                                       Outstanding Principal,          Amount of Outstanding
  As of September 30                                                Guaranteed Loans, Face Value        Principal Guaranteed
  (Amounts in thousands)
  Guaranteed Loans Outstanding
  1. Military Housing Privatization Initiative                      $                         0    $                        0
  2. Armament Retooling & Manufacturing Support Initiative          $                    26,996    $                   24,196
  3. Total                                                          $                    26,996    $                   24,196

                              2005
  New Guaranteed Loans Disbursed
  1. Military Housing Privatization Initiative                      $                         0    $                        0
  2. Armament Retooling & Manufacturing Support Initiative          $                       740    $                      629
  3. Total                                                          $                       740    $                      629

                              2004
  New Guaranteed Loans Disbursed
  1. Military Housing Privatization Initiative                      $                          0   $                           0
  2. Armament Retooling & Manufacturing Support Initiative          $                          0   $                           0
  3. Total                                                          $                          0   $                           0

The increase in the face value of the guaranteed loans of $740 thousand and the amount of principal guaranteed of
$629 thousand are due to an FY 2005 loan closing and disbursement of an FY 2004 loan obligation.




70 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Liability for Post-1991 Loan Guarantees, Present Value
 As of September 30                                                                               2005                         2004
 (Amounts in thousands)
 Loan Guarantee Program
 1. Military Housing Privatization Initiative                                          $                       0      $                  0
 2. Armament Retooling & Manufacturing Support Initiative                                                 12,394                    12,293
 3. Total                                                                              $                  12,394      $             12,293


Subsidy Expense for Post-1991 Loan Guarantees
 As of September 30
 (Amounts in thousands)
                                                                 Interest
                             2005                               Differential           Defaults             Fees                 Other              Total
 1. New Loan Guarantees Disbursed:
   Military Housing Privatization Initiative                $                  0   $              0   $              0    $                 0   $             0
   Armament Retooling & Manufacturing Support Initiative                       0                  0                  0                      0                 0
   Total                                                    $                  0   $              0   $              0    $                 0   $             0
                                                                 Interest
                             2004                               Differential           Defaults             Fees                 Other              Total
 2. New Loan Guarantees Disbursed:
   Military Housing Privatization Initiative                $                  0   $              0   $              0    $                 0   $             0
   Armament Retooling & Manufacturing Support Initiative                       0               174                 (56)                     0               118
   Total                                                    $                  0   $         174      $      ( 56)        $                 0   $           118
                                                                                   Interest Rate       Technical                 Total
                             2005                           Modifications           Reestimates       Reestimates             Reestimates           Total
 3. Modifications and Reestimates:
    Military Housing Privatization Initiative               $                  0   $              0   $              0    $              0.00   $             0
    Armament Retooling & Manufacturing Support Initiative                      0                  0                  0                   0.00                 0
   Total                                                    $                  0   $            0     $          0        $                 0   $             0
                                                                                   Interest Rate       Technical                 Total
                             2004                           Modifications           Reestimates       Reestimates             Reestimates           Total
 4. Modifications and Reestimates:
   Military Housing Privatization Initiative                $                  0   $              0   $              0    $              0.00   $             0
   Armament Retooling & Manufacturing Support Initiative                       0                  0           7,451                      0.00          7,451
   Total                                                    $                  0   $              0   $       7,451       $                 0   $      7,451


 2000                                                             2005                  2004
 5. Total Loan Guarantee:
   Military Housing Privatization Initiative                $                  0   $              0
   Armament Retooling & Manufacturing Support Initiative                       0            7,569
   Total                                                    $                  0   $        7,569


There is no subsidy expense in FY 2005.




                                                                                                              FY 2005 Army Annual Financial Statement             71
Subsidy Rate for Loan Guarantees
                                                                    Interest                      Fees and other
                                                                  Supplements      Defaults         Collections        Other     Total
  Loan Guarantees:
  1. Military Housing Privatization Initiative                           0.00%           0.00%             0.00%       0.00%     0.00%
  2. Armament Retooling & Manufacturing Support Initiative               0.00%           3.75%            -1.79%       0.00%     1.96%

This budgeted subsidy rate in effect for the FY 2005 remained the same for the entire ﬁscal year.


Schedule for Reconciling Loan Guarantee Liability Balances for Post-1991 Loan Guarantees
  As of September 30                                                                             2005                     2004
  (Amounts in thousands)
  1. Beginning Balance of the Loan Guarantee Liability                              $                   12,293     $              1,273
  2. Add: Subsidy Expense for Guaranteed Loans Disbursed during the
     Reporting Years by Component
     A. Interest Supplement Costs                                                   $                       0      $                  0
     B. Default Costs (Net of Recoveries)                                                                   0                      174
     C. Fees and Other Collections                                                                          0                      (56)
     D. Other Subsidy Costs                                                                                 0                         0
     E. Total of the above Subsidy Expense Components                               $                       0      $               118
  3. Adjustments
     A. Loan Guarantee Modifications                                                $                        0     $                  0
     B. Fees Received                                                                                       60                        0
     C. Interest Supplements Paid                                                                            0                        0
     D. Foreclosed Property and Loans Acquired                                                               0                        0
     E. Claim Payments to Lenders                                                                            0                        0
     F. Interest Accumulation on the Liability Balance                                                      41                    3,451
     G. Other                                                                                                0                        0
     H. Total of the above Adjustments                                              $                      101     $              3,451
  4. Ending Balance of the Loan Guarantee Liability before Re-estimates             $                   12,394     $              4,842
  5. Add or Subtract Subsidy Re-estimates by Component
     A. Interest Rate Re-estimate                                                   $                       0      $                  0
     B. Technical/default Re-estimate                                                                       0                     7,451
     C. Total of the above Re-estimate Components                                   $                       0      $              7,451
  6. Ending Balance of the Loan Guarantee Liability                                 $                   12,394     $             12,293


One loan obligated with total subsidy expense of $118 thousand was processed in FY 2004. This subsidy expense
primarily consists of default costs and fees and other collection.

The $60 thousand guaranteed fee for the loan received in FY 2004 was not received until FY 2005.

Interest accumulation on the liability balance decreased $3.4 million primarily due to reestimated loan amortization
amount from Treasury reported in FY 2004. The reestimated loan amortization amount reported to recognize an
increase in the guarantee loan liability due to an estimated loss claim. In FY 2005, only $41 thousand interest income
was reported.

The reestimate decreased $7.5 million between FY 2004 and FY 2005, primarily due to a reestimate for a liability for
an impending loss claim in FY 2004. A reestimate was not required in FY 2005.




72 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Administrative Expense
Not applicable.

Note 9. Inventory and Related Property
  As of September 30                                         2005                            2004
  (Amounts in thousands)
  1.   Inventory, Net                             $                   109,586      $               204,707
  2.   Operating Materials & Supplies, Net                         37,593,767                   37,443,014
  3.   Stockpile Materials, Net                                             0                            0
  4.   Total                                      $                37,703,353      $            37,647,721


Inventory, Net
                                                                    2005                                        2004
                                              Inventory,         Revaluation                                                  Valuation
 As of September 30                          Gross Value         Allowance             Inventory, Net       Inventory, Net     Method
 (Amounts in thousands)
 1. Inventory Categories
    A. Available and Purchased for Resale    $      23,163   $           (3,106)               20,057   $            12,768     LAC
    B. Held for Repair                                   0                     0                    0                     0
    C. Excess, Obsolete, and Unserviceable           2,416               (2,416)                    0                     0     NRV
    D. Raw Materials                                     0                     0                    0                     0
    E. Work in Process                              89,529                     0               89,529               191,939      SP
    F. Total                                 $     115,108   $           (5,522)              109,586   $           204,707


Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
NRV = Net Realizable Value
O = Other
SP = Standard Price
AC = Actual Cost


Restrictions of Inventory Use, Sale, or Disposition
There are no restrictions on the use, sale, or disposition of inventory except in the following situations:

a) Distributions without reimbursements made when authorized by DoD directives;
b) War Reserve Materiel includes fuels and subsistence items that are considered restricted; and
c) Inventory, with the exception of safety stocks, may be sold to foreign, state and local governments, private
   parties, and contractors in accordance with current policies and guidance or at the direction of The President.

Other Information
General Composition of Inventory
Inventory is comprised of ammunition in the Conventional Ammunition Working Capital Fund (CAWCF).
Inventory is tangible personal property that is:

a) Held for Sale, or Held for Repair for eventual sale;
b) In the process of production for sale; or



                                                                                              FY 2005 Army Annual Financial Statement     73
c) To be consumed in the production of goods for sale or in the provision of services for a fee.

Excess, obsolete, and unserviceable inventory is condemned material that must be retained for management
purposes. Work-in-Process includes munitions in production and depot maintenance work with its associated
labor, applied overhead, and supplies used in the delivery of maintenance services. The U.S. Government Standard
General Ledger does not include a separate Work in-Process account unrelated to sales.

Decision Criteria for Identifying the Category to Which Inventory is Assigned
Managers determine which items are more costly to repair than replace. Items retained for management purposes
are coded condemned. The net value of these items is zero, and is shown as excess, obsolete, and unserviceable.
The category held for sale includes all issuable material. Economically repairable material is categorized as held for
repair.


Fluctuations and/or Abnormalities
The CAWCF reports balances for Inventory Available and Purchased for Resale; Inventory Excess, Obsolete, and
Unserviceable; and Inventory Work-in-Process. Inventory sales are primarily made to the Military Departments.
CAWCF Total Inventory, Net, showed an overall decrease of $95.1 million or 46 percent, in FY 2005. CAWCF
Available and Purchased for Resale Inventory, Net showed a increase of $7.3 million or 57 percent and Work in
Process showed a decrease of $102.4 million or 53 percent. The increase in Available and Purchased for Resale is
attributable to ﬁlling the orders received while the decrease in Work in Process indicates no new orders and eventual
close out of CAWCF.

A year-to-year decrease in CAWCF Inventory is expected as the program progresses toward its ﬁnal closeout on
September 30, 2007. Effective September 30, 1998, CAWCF ofﬁcially stopped the acceptance of new orders for the
procurement of Conventional Ammunitions. At this time, only a few undelivered customer orders remain to be
shipped.


Note Reference
See Note 1.M., Signiﬁcant Accounting Policies, for additional discussion on ﬁnancial reporting requirements and
DoD policies governing inventory and related property.


Operating Materials and Supplies, Net

                                                                          2005                                     2004
                                                     OM&S              Revaluation                                              Valuation
  As of September 30                               Gross Value         Allowance             OM&S, Net           OM&S, Net       Method
  (Amounts in thousands)
  1. OM&S Categories
     A. Held for Use                           $      37,593,767   $                 0   $      37,593,767   $     37,443,014     LAC
     B. Held for Repair                                        0                     0                   0                  0
     C. Excess, Obsolete, and Unserviceable            1,336,536           (1,336,536)                   0                  0      SP
     D. Total                                  $      38,930,303   $       (1,336,536)   $      37,593,767   $     37,443,014


Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost adjusted for holding gains and losses
NRV = Net Realizable Value
O = Other
SP = Standard Price
AC = Actual Cost




74 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Relevant Information for Comprehension
Restrictions on Operating Materials and Supplies (OM&S)
The total tonnage of munitions stock, to include chemical stocks awaiting destruction for FY 2005 and out years, is
446,631 tons.

The Army reported $4.9 billion of OM&S Held for Future Use. This amount represents ammunition held under
a host nation treaty agreement and is not intended for use by U.S. Forces. The ammunition is intended for use in
defense of the host nation by the host nation.

General Composition of OM&S
OM&S includes spare and repair parts, ammunition, and tactical missiles.

Changes in the Criteria for Identifying the Category to which OM&S are Assigned
The category Held for Use includes all issuable material. Economically repairable material is categorized as held for
repair.

Decision Criteria for Identifying the Category to which OM&S are Assigned
Managers determine which items are more costly to repair than to replace. Items retained for management purposes
are coded condemned. The net value of these items is zero, and is shown as Excess, Obsolete, and Unserviceable.

Total Excess, Obsolete and Unserviceable
The Army establishes an allowance for excess, obsolete, and unserviceable OM&S and inventory at 100 percent of
the carrying amount in accordance with DoD policy.

Government Furnished Material (GFM) and Contractor Acquired Material (CAM)
The value of the Army’s GFM and CAM in the hands of contractors is normally not included in the OM&S values
reported above. The DoD is presently reviewing its process for reporting these amounts in an effort to determine the
appropriate accounting treatment and the best method to annually collect and report required information without
duplicating information in other existing logistics systems.


Note Reference
See Note 1.M., Signiﬁcant Accounting Policies, for additional discussion on ﬁnancial reporting requirements and
DoD policies governing inventory and related property.


Stockpile Materials, Net
Not applicable.




                                                                               FY 2005 Army Annual Financial Statement   75
Note 10. General PP&E, Net
                                                                                                   2005                                                2004
                                                           Depreciation/                                       (Accumulated
                                                           Amortization     Service         Acquisition        Depreciation/       Net Book          Prior FY Net
     As of September 30                                      Method          Life             Value            Amortization)        Value            Book Value
     (Amounts in thousands)
     1. Major Asset Classes
         A. Land                                               N/A             N/A      $        473,405               N/A     $       473,405   $         464,254
         B. Buildings, Structures, and Facilities              S/L          20 Or 40          42,991,192   $  (27,570,505)          15,420,687          15,596,637
         C. Leasehold Improvements                             S/L         lease term             13,860          (11,242)               2,618               2,144
         D. Software                                           S/L          2-5 Or 10            528,762         (180,346)             348,416             292,064
         E. General Equipment                                  S/L           5 or 10           3,119,395       (2,042,868)           1,076,527             926,606
         F. Military Equipment                                 S/L           Various         403,430,000     (306,710,000)          96,720,000          90,280,000
         G. Assets Under Capital Lease                         S/L         lease term            166,617         (138,615)              28,002              35,997
         H. Construction-in-Progress                           N/A             N/A             6,246,266               N/A           6,246,266           5,495,062
         I. Other                                                                                117,729          (31,904)              85,825              18,808
     2. Total General PP&E                                                              $    457,087,226   $ (336,685,480)     $   120,401,746   $     113,111,572

1
    Note 15 for additional information on Capital Leases


Legend for Valuation Methods:
S/L = Straight Line
N/A = Not Applicable


Fluctuations and/or Abnormalities
The Net Book Value (NBV) of Leasehold Improvements increased $474.0 thousand or 22 percent. The increase
is attributed to more accurate reporting as a result of quality assurance/quality control reviews by the Army’s
Assistant Chief of Staff for Installation Management.

The Army reported an increase in Software NBV of $56.4 million or 19 percent. This increase is attributed to a
continuing initiative to establish the baseline to report internal use software. Internal Use Software identiﬁed and
reported in FY 2005 includes Reserve Component Automation System, Joint Computer Aided Acquisition and
Logistic Support, Transportation Information System Block I, Property Book Unit Supply Enhancement, and various
other projects in development.

The Army reported an increase in Equipment NBV of $149.9 million or 16 percent. This increase is attributed to an
Army initiative to establish capital asset visibility of Government Furnished Equipment at Government Owned
Contractor Operated Army installations.

Assets Under Capital Lease decreased by $8.0 million or 22 percent due to straight-line amortization of leased assets.

Construction in Progress (CIP) increased $751.0 million or 14 percent. Major components of the increase include:
$304.0 million net in U.S. Army Corps of Engineers projects which include the construction and repair of barracks,
training facilities, utilities, and vehicle maintenance facilities; $447.0 million net of current transfers, completions,
and transfers out for the Defense Emergency Response Fund and Ofﬁce of the Secretary of Defense projects.

Other of $85.8 million represents projected value of forest product sales (timber reserve) and property recorded
using the Defense Finance and Accounting Service Corporate Database (DCD) Interface Initiative. Fourth Quarter,
FY 2005 marks the ﬁrst time Army property system data is reported using the DCD Interface. The $67.0 million
or 356 percent increase is attributable to personal property being misclassiﬁed as other timber. This data will be
researched and revised during 1st Quarter, FY 2006.




76 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Relevant Information for Comprehension
Military Equipment
In FY 2005, the Army reported military equipment with an acquisition value of $403.4 billion and accumulated
depreciation of $306.7 billion for a NBV of $96.7 billion.

The Federal Accounting Standards Advisory Board issued Statement of Federal Financial Accounting Standards
No. 23, Eliminating the Category National Defense Property, Plant, and Equipment, in May 2003. This standard, which
is effective for accounting periods beginning after September 30, 2002, established generally accepted accounting
principles (GAAP) for valuing and reporting military equipment (e.g., ships, aircraft, combat vehicles, weapons)
in federal ﬁnancial statements. The standard requires the capitalization and depreciation of the cost of military
equipment, including the cost of modiﬁcations and upgrades.

The DoD has determined that it is not practical at this time to accumulate from internal records the information
necessary to value military equipment in accordance with GAAP, because the Army and DoD are currently working
to revise their accounting processes and systems to support informational needs of management and compliance
with GAAP. In the interim, DoD will base the value of military equipment for ﬁnancial statement presentation
purposes on data provided by the Bureau of Economic Analysis (BEA), Department of Commerce.

The data, provided by BEA, consists of investment and net book value data for 84 groups of military equipment
such as tracked vehicles, aircraft, ships and combat vehicles. BEA uses DoD budget, expenditure, and delivery data
to calculate the Army’s annual investment in military equipment, after recognizing any equipment transfers or war
losses. DoD adjusts BEA data to eliminate equipment items that are not accounted for as military equipment, such
as spares, munitions, and inventory items, which are accounted for and reported as Inventory and Related Property.


Note Reference
See Note 1.O., Signiﬁcant Accounting Policies, for additional discussion on ﬁnancial reporting requirements and
DoD policies governing general property, plant and equipment.


Assets Under Capital Lease
 As of September 30                                                  2005                     2004
 (Amounts in thousands)
 1. Entity as Lessee, Assets Under Capital Lease
    A. Land and Buildings                                    $                166,071 $             166,071
    B. Equipment                                                                  546                     0
    C. Other                                                                        0                     0
    D. Accumulated Amortization                                             (138,615)             (130,074)
    E. Total Capital Leases                                  $                 28,002 $              35,997


Fluctuations and/or Abnormalities
Assets Under Capital Lease decreased by $8 million or 22 percent due to straight-line amortization of leased assets.


Relevant Information for Comprehension
The Army is the lessee in eight Section 801 Family Housing Leases for two on-post and six off-post housing facilities.
These leases have between two and eight years remaining on their terms. The Eighth U.S. Army G3 Aviation is
also the lessee in an equipment lease for a training simulator. This is a lease ﬁrst reported in 3rd Quarter, FY 2005.
As shown in Note 15, the liability is valued at $14 million for current and $33 million for non-current. The future
executory and imputed interest costs, as shown in a combined form in Note 15 Capital Lease Liability section, are
$11 million and $9 million, respectively. Future executory costs are estimates based on historical data. The imputed
interest that was necessary to reduce the net minimum lease payments to the present value was calculated at the
incremental borrowing rate at the inception of the leases.


                                                                                 FY 2005 Army Annual Financial Statement   77
Note Reference
See Note 1.Q., Signiﬁcant Accounting Policies, for additional discussion on ﬁnancial reporting requirements and
DoD policies governing leases.

Note 11. Liabilities Not Covered by Budgetary Resources

   As of September 30                                                            2005                     2004
   (Amounts in thousands)
   1. Intragovernmental Liabilities
      A. Accounts Payable                                                 $                      0    $                  0
      B. Debt                                                                                    0                       0
      C. Other                                                                             473,993                 593,847
      D. Total Intragovernmental Liabilities                              $                473,993    $            593,847
   2. Nonfederal Liabilities
      A. Accounts Payable                                                 $                 90,204    $             73,766
      B. Military Retirement Benefits and
          Other Employment-Related Actuarial Liabilities                                  1,663,650               1,632,843
      C. Environmental Liabilities                                                       38,399,062              37,494,670
      D. Loan Guarantee Liability                                                                 0                       0
      E. Other Liabilities                                                                4,357,513               4,871,124
      F. Total Nonfederal Liabilities                                     $              44,510,429   $          44,072,403
   3. Total Liabilities Not Covered by Budgetary Resources                $              44,984,422   $          44,666,250
   4. Total Liabilities Covered by Budgetary Resources                    $              17,281,633   $          19,584,078
   5. Total Liabilities                                                   $              62,266,055   $          64,250,328


Relevant Information for Comprehension
Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered funded by realized
budgetary resources as of the balance sheet date.

The schedule below identiﬁes the Army Other Intragovernmental liabilities.

(Amounts in thousands)
                                                    FY 2005    FY 2004
Federal Employees’ Compensation Act (FECA)          $274,311   $281,613
Unemployment Beneﬁts                                 145,898    133,628
Cancelled Accounts Receivable                         53,784     95,693
Judgment Fund                                             0      81,923
Judgment Fund – Notiﬁcation and Federal                   0        990
  Employee Antidiscrimination and Retaliation Act
Total Intragovernmental- Other                      $473,993   $593,847

FECA decreased $7.3 million or 3 percent from FY 2004 and Unemployment Beneﬁts increased $12.2 million or 9
percent from FY 2004.

Cancelled Accounts Receivable decreased $41.9 million or 44 percent. The Ofﬁce of the Secretary of Defense (OSD)
requested that the departments begin to write off uncollectible cancelled accounts receivable starting in FY 2005.

Per FY 2005 OSD ﬁnancial statement guidance, all Judgment Fund liability is now reported as part of funded
Accounts Payable and reﬂected on Note 12, Accounts Payable.




78 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Nonfederal Liabilities
The majority of Accounts Payable’s 22 percent increase of $16.4 million is attributable to Military Personnel, Army
for overestimated personnel and Permanent Change of Station travel costs that will be reversed in FY 2006.

Other Employment-Related Actuarial Liabilities (FECA) increased $30.8 million or 2 percent and Environmental
Liabilities increased $904.3 million or 2 percent from FY 2004.

The schedule below identiﬁes the Army Other Nonfederal liabilities.

(Amounts in thousands)             FY 2005      FY 2004
Annual Leave                     $2,728,208   $2,656,508
   Nonenvironmental – Disposal    1,318,443    1,325,886
   Contingent Liabilities          175,541      742,237
   Iraqi Seized Cash                61,370      113,430
   Development Fund for Iraq        53,387            0
   Capital Leases                   20,565       33,063
Total Non-Federal - Other        $4,357,514   $4,871,124

Annual Leave increased $71.7 million or 3 percent and Nonenvironmental – Disposal had a decrease of $7.4 million
or 1 percent from FY 2004.

Contingent Liabilities’ decrease of $566.7 million or 76 percent is attributable primarily to a change in the reporting
of Chemical Demilitarization. Based on analysis performed by Army, it was determined that these liabilities were
more properly reported as environmental liabilities on Note 14.

Iraqi Seized Cash continues to be disbursed to the Iraqi people accounting for a decrease of $52.1 million or 46
percent.

The Development Fund for Iraq was not reported until 1st Quarter, FY 2005. For additional information, refer to
Note 1Z.

Capital Leases decreased by $12.5 million or 38 percent as a result of annual amortization.


Note Reference
For additional line item discussion, see:
Note 1Z, Signiﬁcant Accounting Policies, Development Fund for Iraq
Note 8, Direct Loan and/or Loan Guarantee Programs
Note 12, Accounts Payable
Note 13, Debt
Note 14, Environmental Liabilities and Disposal Liabilities
Note 15, Other Liabilities
Note 16, Commitments and Contingencies
Note 17, Military Retirement Beneﬁts and Other Employment Related, Actuarial Liabilities
Note 22, Disclosures Related to the Statement of Custodial Activity




                                                                                 FY 2005 Army Annual Financial Statement   79
Note 12. Accounts Payable
                                                                                2005                                      2004
                                                                          Interest, Penalties, and
  As of September 30                                Accounts Payable        Administrative Fees          Total            Total
  (Amounts in thousands)
  1. Intragovernmental Payables                    $         1,918,309   $                    N/A    $    1,918,309   $    1,706,731
  2. Non-Federal Payables (to the Public)                  10,136,895                         116        10,137,011        9,460,194
  3. Total                                         $       12,055,204    $                    116    $   12,055,320   $   11,166,925

Intragovernmental Accounts Payable consists of amounts owed to other federal agencies for goods or
services ordered and received but not paid. Interest, penalties, and administrative fees are not applicable to
intragovernmental payables. Non-Federal Accounts Payable (to the Public) are payables to entities other than the
federal government.


Fluctuations and/or Abnormalities
Intragovernmental Accounts Payable with entities other than the Army General Fund increased $211.6 million or 12
percent primarily due to a $98.0 million increase for the Defense Finance and Accounting Services Working Capital
Fund caused from unbilled receivables where a funding document was received after the billing cycle and a $96.7
million increase due to a report mapping change. In 1st Quarter, FY 2005, the Treasury directed that Judgment Fund
liabilities be reported as Accounts Payable rather than Other Liabilities which moved the reporting from Note 15,
Other Liabilities to Note 12, Accounts Payable.


Relevant Information for Comprehension
Undistributed Disbursements
Undistributed disbursements are the difference between disbursements recorded at the detail level in the activity’s
accounting records versus those reported by the U.S. Treasury.

Supported undistributed disbursements are allocated to Non-Federal Accounts Payable. As a result, Accounts
Payable was adjusted downward in the amount of $1.3 billion. Unsupported undistributed disbursements are
recorded as Disbursements in Transit and are reﬂected on the note.

Intragovernmental Eliminations
The Army accounting systems do not capture trading partner data at the transaction level in a manner that facilitates
trading partner aggregations for intra-agency sales; therefore, the Army was unable to reconcile intragovernmental
accounts payable to the related intragovernmental account receivable that generated the payable.

The DoD summary level seller Accounts Receivables were compared to the Army Accounts Payable. An adjustment
was posted to Accounts Payable based on the comparison with the Accounts Receivable of the DoD Components
providing goods and services to the Army. Intragovernmental Accounts Payable were adjusted upward for $380.4
million while Non-Federal Accounts Payable were adjusted downward for the same amount. The Army intends
to develop long-term systems improvements that will include sufﬁcient upfront edits and controls to eliminate the
need for after-the-fact reconciliations. In addition, $980.4 million of intra-Army General Fund transactions were
eliminated leaving a balance of $1.9 billion.


Note Reference
See Note 1.G., Signiﬁcant Accounting Policies, for additional discussion on ﬁnancial reporting requirements and the
DoD policies governing accounts payable.




80 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Note 13. Debt
Not applicable.

Note 14. Environmental Liabilities and Disposal Liabilities
                                                                                           2005                                  2004
 As of September 30                                              Current Liability   Noncurrent Liability       Total            Total
 (Amounts in thousands)
 1. Environmental Liabilities – Non Federal
  A. Accrued Environmental Restoration (DERP funded) Costs:
   1. Active Installations--Environmental Restoration (ER)       $        385,343    $          2,826,639   $    3,211,982   $    3,520,341
   2. Active Installations--ER for Closed Ranges                           13,248               5,169,486        5,182,734        5,781,055
   3. Formerly Used Defense Sites (FUDS) -- ER                            110,711               4,116,739        4,227,450        4,321,276
   4. FUDS--ER for Transferred Ranges                                      69,208              14,514,844       14,584,052       14,084,281
  B. Other Accrued Environmental Costs (Non-DERP funds)
   1. Active Installations--Environmental Corrective Action                17,299                 362,305         379,604          259,034
   2. Active Installations--Environmental Closure Requirements              2,759                  94,088          96,847           51,215
   3. Active Installations--Environ.Response at Active Ranges               6,491                 297,596         304,087          267,632
   4. Other                                                                     0                       0               0                0
  C. Base Realignment and Closure (BRAC)
   1. BRAC Installations--Environmental Restoration (ER)                   59,962                 463,481         523,443          597,347
   2. BRAC Installations--ER for Transferring Ranges                       20,549                 613,544         634,093          480,122
   3. BRAC Installations--Environmental Corrective Action                   5,909                  48,237          54,146           24,965
   4. Other                                                               112,026                       0         112,026          209,437
  D. Environmental Disposal for Weapons Systems Programs
   1. Nuclear Powered Aircraft Carriers                                         0                       0                0                0
   2. Nuclear Powered Submarines                                                0                       0                0                0
   3. Other Nuclear Powered Ships                                               0                       0                0                0
   4. Other National Defense Weapons Systems                                    0                       0                0                0
   5. Chemical Weapons Disposal Program                                   557,949               9,892,101       10,450,050       10,769,467
   6. Other                                                                     0                       0                0                0
 2. Total Environmental Liabilities:                             $      1,361,454    $         38,399,060   $   39,760,514   $   40,366,172


Relevant Information for Comprehension
Environmental Liabilities
Army Accrued Environmental Restoration Costs (DERP funded): The Army is required to cleanup contamination
resulting from past waste disposal practices, leaks, spills and other past activity prior to 1986 from hazardous
substances and wastes that created a public health or environmental risk and prior to FY 2003 from unexploded
ordnance (UXO), discarded military munitions, and munitions constituents at other than operational ranges under
the Defense Environmental Restoration Program (DERP), established by Section 211 of the Superfund Amendments
and Reauthorization Act of 1986 codiﬁed in Title 10 of the United States Code (USC) 2701. Related sections in
Title 10 of the USC, 2701-2706 and 2810-2811 further deﬁne the program. The DERP is implemented in accordance
with the DoD Directive 4715.1E, Environmental Security, March 2005; and DoD Instruction 4715.7, Environmental
Restoration Program, April 22, 1996, and the Management Guidance for the Defense Environmental Restoration
Program, September 28, 2001. Environmental liabilities for the Department of the Army DERP (Active Installations
and Formerly Used Defense Sites (FUDS) are prepared in accordance with the Management Guidance for the
Defense Environmental Restoration Program and the DoD Financial Management Regulation (FMR) 7000.14.

The estimated Army total environmental restoration cost for the current operating period is based on the amounts
that will be expended within 12 months and amounts that will be expended more than 12 months from the Balance
Sheet date. The amount that will be expended within 12 months from the Balance Sheet date is calculated based
on the disbursement goals for the current appropriation and unliquidated obligations. The amount that will be
expended more than 12 months from the Balance Sheet date is calculated based on the remaining disbursement goal
amounts of the current appropriation and unliquidated obligations and the site-level estimate of the cost to complete
all activities at a site within the Army DERP inventory. In accordance with DERP Management Guidance, the site-
level estimates are point estimates (by site and by remediation phase) calculated using a validated cost-estimating


                                                                                                   FY 2005 Army Annual Financial Statement    81
model or an engineered cost and entered into a database. The estimates are reviewed annually and updated to
incorporate changed assumptions and additional site-level information. At a minimum, estimates are updated
annually to report the costs in constant dollars. The Army is presently researching methods to capture capital costs
in remediating legacy waste. The Army expects to establish a methodology for accumulating capital expenditures
related to environmental remediation in FY 2006.

The Army does not have unrecognized costs associated with general property, plant, and equipment under the
DERP. The Army is constantly researching sites for possible issues that would result in liability recognition.
Through the continued research, the Army recognizes a liability as discovered. Once identiﬁed, the costs are
recognized and recorded, resulting in no unrecognized costs for the period.

There are no changes in the total estimated environmental restoration liability due to changes in laws and
technology.

Environmental restoration liabilities are reported in constant dollars. There are no changes to the total
environmental restoration liability cost due to inﬂation or deﬂation.

Army Other Accrued Environmental Costs (Non-DERP funds): The Army is required to cleanup contamination
resulting from waste disposal practices, leaks, spills and other activity after 1986 from hazardous substances and
wastes and after FY 2003 from UXO, discarded military munitions, and munitions constituents migrating from an
operational range under the Army Compliance Cleanup Program. The Resource Conservation and Recovery Act
(RCRA), as well as host nation requirements for overseas installations, require the Army to take corrective actions
to clean up areas where there has been a release related to hazardous material/waste handling and/or storage
activities. The Army is also required to close facilities with permits in accordance with environmental laws when
operation of that facility ceases. The Army Compliance Cleanup Program addresses environmental requirements
reported under RCRA Subtitle C, RCRA Subtitle D, and RCRA Subtitle I to characterize, investigate and cleanup
active Army installations within the United States; and, for overseas installations, requirements in accordance with
DoD policy as prescribed in DoDI 4715.8 (Environmental Remediation for DoD Activities Overseas). Environmental
liabilities for the Department of the Army “Other Accrued Environmental Costs” are prepared in accordance with
the draft Guidance for Recognizing, Measuring and Reporting Environmental Liabilities Not Eligible for Defense
Environmental Restoration Program Funding (July 2005) and the DoD FMR 7000.14.

The liability estimates used for environmental corrective action and environmental response at active ranges
for the current operating period is based on the amounts that will be expended within 12 months and will be
expended more than 12 months from the Balance Sheet date. The amount that will be expended within 12 months
from the Balance Sheet date is calculated based on the disbursement goals for the current appropriation. The
Army is currently developing a reporting system to track total prior year unliquidated obligations for “Other
Accrued Environmental Costs” and anticipates having this system in place during FY 2006. The amount that will
be expended more than 12 months from the Balance Sheet date is calculated based on the remaining amounts of
the current appropriation and site-level estimates of the cost to complete all activities at a site within the Army
Compliance Cleanup Program inventory. The site-level estimates are point estimates (by site and by remediation
phase) calculated using a validated cost-estimating model or an engineered cost and entered into a database.
The estimates are reviewed annually and updated to incorporate changed assumptions and additional site-level
information. At a minimum, estimates are updated annually to report the costs in constant dollars.

The liability estimates used for environmental closure requirements are under development. Closure requirements
are prepared and submitted by Army installations on an as-needed basis and reported on the Army Financial
Statements under Active Installations – Environmental Closure Requirements. These estimates are point estimates
to close the facility in accordance with a closure plan and are entered into a database. The assigned current liability
cost includes an estimation of expenditure based on the disbursement goals for the current year appropriation only.
The Army is currently developing a reporting system to track total prior year unliquidated obligations for “Other
Accrued Environmental Costs” and anticipates having this system in place during FY 2006.



82 General Fund | Principal Financial Statements, Notes, and Supplementary Information
The Army does not have unrecognized costs associated with general property, plant, and equipment under its
Compliance Cleanup Program. The Army is constantly researching sites for possible issues that would result in
liability recognition. Through the continued research, the Army recognizes a liability as they are identiﬁed. Once
identiﬁed, the costs are recognized and recorded, resulting in no unrecognized costs for the period.

According to the Resource Conservation and Recovery Act (RCRA), the Army records an expense and liability
for each asset placed in service during the year that would affect the environment. For each subsequent year,
environmental costs are expensed to remain RCRA compliant. As a result, no amortization costs are recognized for
assets placed in service in FY 2006.

There have been no changes in the law or technology that caused a material change in the “Other Accrued
Environmental Costs” total estimated liability. There are varying material changes to all “Other Accrued
Environmental Costs” due to implementation of corrective measures to attain an unqualiﬁed audit opinion on the
environmental liability portion of the Army’s Financial Statement. These corrective measures include identifying
the universe of sites under each non-DERP category, estimating the liability for each site, and showing a reduction
in liability as funds are spent to address the liability. The Army plans to implement all corrective measures for
reporting “Other Accrued Environmental Costs” during FY 2006.

Liabilities for reporting “Other Accrued Environmental Costs” are reported in constant dollars. There were no
changes to the total “Other Accrued Environmental Costs” liability cost due to inﬂation or deﬂation.

Army Base Realignment and Closure (BRAC): The BRAC program identiﬁes environmental restoration costs in
accordance with the DERP established by Section 211 of the Superfund Amendments and Reauthorization Act of
1986 codiﬁed in Title 10 of the United States Code (USC) 2701 and environmental costs in accordance with RCRA
that require the Army to take corrective actions to clean up areas where there has been a release related to hazardous
material/waste handling and/or storage activities. Environmental liabilities for the Department of the Army BRAC
are prepared in accordance with the Management Guidance for the Defense Environmental Restoration Program,
the draft Guidance for Recognizing, Measuring and Reporting Environmental Liabilities Not Eligible for Defense
Environmental Restoration Program Funding (July 2005) and the DoD FMR 7000.14.

The estimated BRAC total environmental costs for the current operating period is based on the amount recorded
as the current liability and the amount recorded as the non-current liability for the Balance Sheet date. The current
liability is the amount that will be expended or obligated within 12 months from the Balance Sheet date. The non-
current liability is the estimated amount to complete all activities at a site within the Army BRAC environmental
inventory. The estimates are site-level point estimates (by site and by remediation phase) calculated using a
validated cost-estimating model or an engineered cost and entered into a database. The estimates are reviewed
annually and updated to incorporate changed assumptions and additional site-level information. At a minimum,
estimates are updated annually to report the costs in constant dollars. The Army is presently researching methods
to capture capital costs in remediating legacy waste. The Army expects to establish a methodology for accumulating
capital expenditures related to environmental remediation in FY 2006.

The Army does not have unrecognized costs associated with general property, plant, and equipment under
the BRAC program. The Army is constantly researching sites for possible issues that would result in liability
recognition. Through the continued research, the Army recognizes a liability as discovered. Once identiﬁed, the
costs are recognized and recorded, resulting in no unrecognized costs for the period.

There are no changes in the total estimated BRAC environmental liability due to changes in laws and technology.
BRAC environmental liabilities are reported in constant dollars. There are no changes to the total BRAC
environmental liability cost due to inﬂation or deﬂation.

Environmental Disposal Liabilities
Methodology Used to Estimate Environmental Liabilities
The Army uses estimates of expenditure of current appropriations, unliquidated obligations and annual estimates


                                                                               FY 2005 Army Annual Financial Statement   83
of cost-to-complete as the basis for the total environmental liability calculation for Army DERP, Other Accrued
Environmental Costs and BRAC environmental.


     Accrued Environmental Restoration (DERP Funded) Costs:
     The Army identiﬁed $3.2 billion to characterize, investigate and cleanup 737 DERP eligible sites at active Army
     installations. The 737 sites include 302 sites undergoing investigation, 97 sites undergoing remediation and
     remedial action operations and long-term monitoring at 338 sites. The total liability at these sites may change
     materially in either direction as restoration activities are completed. The current liability number is based on
     disbursement goals for the FY 2006 allocation and unliquidated obligations (ULOs). The ULO data are pulled
     from reports provided by Defense Finance and Accounting Service (DFAS). Quarterly updates to the current
     liability numbers are based on changes to the ULOs reported in DFAS monthly reports. Non-current liabilities
     are based on the disbursement goals for FY 2006 allocation and ULOs and site-level cost-to-complete estimates
     from FY 2007 through program completion in accordance with the Management Guidance for the DERP and the
     DoD FMR 7000.14. Cost-to-complete estimates are updated annually for various reasons such as overlooked or
     previously unknown contaminants, better site characterization from additional sampling, re-estimation based
     on different assumptions or lessons learned. For Active Installations, the cost-to-complete estimate for the
     DERP is collected in the Army Environmental Database – Restoration (AEDB-R) for all eligible sites.

     The Army identiﬁed $4.2 billion to characterize, investigate and cleanup 1,660 DERP eligible sites at FUDS
     properties. The 1,660 sites include 219 sites undergoing investigation, 426 sites undergoing remediation and
     remedial action operations and long-term monitoring at 75 sites. The total liability at these sites may change
     materially in either direction as restoration activities are completed. The current liability number is based
     on disbursement goals for the FY 2006 allocation and ULOs. The ULO data are obtained from the Corps of
     Engineers Financial Management System (CEFMS), which feeds the DFAS monthly reports. Quarterly updates
     to the current liability numbers are based on changes to the unliquidated obligations recorded in CEFMS. Non-
     current liabilities are based on the disbursement goals for the FY 2007 allocation and ULOs and site-level cost-to-
     complete estimates from FY 2007 through program completion in accordance with the Management Guidance
     for the DERP and the DoD FMR 7000.14. Cost-to-complete estimates are updated annually for various reasons
     such as overlooked or previously unknown contaminants, better site characterization from additional sampling,
     re-estimation based on different assumptions or lessons learned. For FUDS properties, the cost-to-complete
     estimate for the DERP is collected in the FUDS Management Information System (FUDMIS).


     Active Installations – Environmental Restoration (ER) for Closed Ranges
     An inventory of closed ranges on active Army installations has been completed and the Army identiﬁed $5.2
     billion to characterize, investigate and cleanup 194 sites at closed ranges. Closed ranges have been taken
     out of service as a range and put to new use (incompatible with range activities), or are not considered by
     the Military Departments to be a potential range area. A closed range is still under the control of a DoD
     Component. The 194 sites include 192 sites undergoing investigation, one site undergoing remediation and
     remedial action operations and long-term maintenance at 1site. The current and non-current liability numbers
     for environmental restoration at closed ranges is based on the same methodology used for environmental
     restoration at active Army installations. The total liability at these sites may change materially in either
     direction as restoration activities are completed.


     FUDS – Environmental Restoration for Transferred Ranges
     An inventory of transferred ranges on FUDS properties has been completed and the Army identiﬁed $14.6
     billion to characterize, investigate and cleanup 1,186 sites at transferred ranges. Transferred ranges are
     properties formerly used as a military range that are no longer under military control and have been leased
     by DoD, transferred, or returned from the DoD to another entity, including federal entities. Status of the 1,186
     sites on transferred ranges is 37 are currently in the investigation phase, 62 are in remedial action phase and
     20 are in remedial action operations/long term maintenance. The current and non-current liability numbers


84 General Fund | Principal Financial Statements, Notes, and Supplementary Information
   for environmental restoration at transferred ranges is based on the same methodology used for environmental
   restoration at FUDS properties. The total liability at these sites may change materially in either direction as
   restoration activities are completed.

Other Accrued Environmental Costs (Non-DERP Funds)
   Active Installations – Environmental Corrective Action
   The Army identiﬁed $379.6 million to conduct environmental corrective action at 781 sites at active Army
   installations under the Army Compliance Cleanup Program. The 781 sites include 344 sites undergoing
   investigation, 246 sites undergoing remediation and remedial action operations and long-term management at
   191 sites. . The total liability at these sites may change materially in either direction as corrective action activities
   are completed. The current liability number is based on the disbursement goal for costs required for FY 2006 (22
   percent). Currently ULO data is not available for environmental corrective action under the Army Compliance
   Cleanup Program. The Army anticipates that ULO data will be available from the DFAS beginning in FY 2006.
   Quarterly updates to the current liability numbers will be based on changes to the ULOs reported in DFAS
   monthly reports. The non-current liability reﬂects 78 percent of the total estimated environmental corrective
   action costs for FY 2006 and site-level cost-to-complete estimates from FY 2007 through program completion.
   Site-level cost-to-complete estimates are developed by the installation using the standard cost estimating
   program, the Remedial Action Cost Engineering and Requirements (RACER). Cost-to-complete estimates
   are updated annually for various reasons such as overlooked or previously unknown contaminants, better
   site characterization from additional sampling, or re-estimation based on different assumptions and lessons
   learned. For Active Installations, the cost-to-complete estimate for the corrective actions under the Compliance
   Cleanup Program is collected in the Army Environmental Database – Compliance Cleanup (AEDB-CC) for all
   eligible sites. Installations previously reported corrective action requirements in the Environmental Program
   Requirements (EPR) database.


   Active Installations – Environmental Closure Requirements
   The Army identiﬁed $96.8 million to conduct environmental closure requirements at 47 sites at active Army
   installations reﬂecting total validated December 2004 active closure plans requirements for RCRA-C and
   RCRA-D. Army environmental closure requirements and the liability estimates used for environmental
   closure requirements are under development. Closure requirements are prepared and submitted by Army
   installations on an as-needed basis and reported on the Army’s Financial Statement under Active Installations
   – Environmental Closure Requirements. These estimates are point estimates to close the facility in accordance
   with a closure plan and are entered into the EPR database. The current liability estimate is 22 percent of the total
   costs recorded in the EPR for FY 2006. The non-current liability total is 78 percent of FY 2006 total estimated
   costs plus the total costs in the EPR database for

   FY 2007 through FY 2013. The Army is currently developing a reporting system to track total prior year
   unliquidated obligations for “Other Accrued Environmental Costs” and anticipates having this system in place
   during FY 2006.


   Active installations – Environmental Response at Active Ranges
   The Army identiﬁed $304.1 million to conduct environmental response at one active range under the Army
   Compliance Cleanup Program. The total liability at this site may change materially in either direction as
   response activities are completed. Active ranges include military ranges that are currently in service and are
   being regularly used, that are still considered by the Army to be a potential range area, and that have not
   been put to a new use that is incompatible with range activities. Environmental response at an active range
   in conducted only when there is an environmental law requiring such action. An environmental response
   at an active range includes investigation, characterization and cleanup of soil, sediment, surface water and
   groundwater and unexploded ordnance. The current liability number is based on the disbursement goal for
   costs required for FY 2006 (22 percent). Currently ULO data is not available for environmental response at


                                                                                  FY 2005 Army Annual Financial Statement   85
     active ranges under the Army Compliance Cleanup Program. The Army anticipates that ULO data will be
     available from the DFAS beginning in FY 2006. Quarterly updates to the current liability numbers will be
     based on changes to the ULOs reported in DFAS monthly reports. The non-current liability reﬂects 78 percent
     of the total estimated environmental response at active ranges for FY 2006 and site-level cost-to-complete
     estimates from FY 2007 through program completion. Site-level cost-to-complete estimates are developed
     by the installation using the standard cost estimating program, the Remedial Action Cost Engineering and
     Requirements (RACER). Cost-to-complete estimates are updated annually for various reasons such as
     overlooked or previously unknown contaminants, better site characterization with sampling, or re-estimation
     based on different assumptions and lessons learned. For Active Installations, the cost-to-complete estimate
     for environmental response at active ranges under the Compliance Cleanup Program is collected in the Army
     Environmental Database – Compliance Cleanup (AEDB-CC) for all eligible sites.


     Base Realignment and Closure (BRAC):
     The Army identiﬁed $523.4 million for environmental restoration at 128 sites, $634.1 million for environmental
     restoration at transferring ranges for 35 sites and $54.1 million for corrective action at 23 sites. The total
     liability at these sites may change materially in either direction as restoration and corrective action activities
     are completed. Transferring ranges are proposed for transfer or will be returned from DoD to another entity,
     including other federal entities. The inventory of transferring ranges at BRAC installations is complete.
     Environmental costs at BRAC installations are funded using the base closure account. The current liability
     amount for BRAC environmental costs is the FY 2006 allocation. The ULO data for environmental restoration,
     environmental restoration at transferring ranges and environmental corrective action are pulled from reports
     provided by DFAS but are not identiﬁed individually. BRAC ULOs are provided as BRAC-Other. Quarterly
     updates to the current liability numbers are based on changes to the ULOs reported in DFAS monthly reports.
     Non-current liabilities are based on site-level cost-to-complete estimates from FY 2007 through program
     completion. Cost-to-complete estimates are updated annually for various reasons such as overlooked or
     previously unknown contaminants, better site characterization from additional sampling, re-estimation
     based on different assumptions or lessons learned. For BRAC installations, the environmental cost-to-
     complete estimates are collected in the Army Environmental Database – Restoration (AEDB-R) for all BRAC
     environmental sites.


     Environmental Disposal for Weapons Systems Programs:
     The Chemical Demilitarization Program is based on the ﬁscal year 1986 National Defense Authorization Act (PL
     99-145, as amended by subsequent acts) that directed the DoD to destroy the unitary chemical stockpile by April
     29, 2004. The Army, as Executive Agent within the DoD, provides policy, direction, and oversight for both the
     Chemical Stockpile Program and the Non-Stockpile Chemical Materiel Project. As such, the Army is responsible
     for the safe and economical disposal of the U.S. stockpile of lethal and incapacitating chemical warfare
     agents and munitions. The program objective is to destroy the U.S. Stockpile of unitary chemical agents and
     munitions in accordance with the public law and the schedules approved by the Defense Acquisition Decision
     Memorandum dated September 26, 2001, and updated in the April 2003 Acquisition Program Baseline. In prior
     quarters Army reported Chemical Stockpile Program separately on Note 14 and the Non-Stockpile Chemical
     Materiel Project on Note 15. In FY 2005, stockpile and non-stockpile liabilities will be reported together on Note
     14. It is expected that the baseline will be updated in future quarters which may cause a signiﬁcant change in
     the liability.


     Non-Stockpile Chemical Materiel Demilitarization:
     All requirements relating to the destruction of non-stockpile materiel covered under the Chemical Weapons
     Convention (CWC) have been identiﬁed through the Chemical Agents and Munitions Destruction, Army
     Appropriation and Military Construction. However, a 1993 review identiﬁed an unfunded, possible contingent
     liability of approximately $9.2 billion for the potential remediation of small and large burial sites (CWC only



86 General Fund | Principal Financial Statements, Notes, and Supplementary Information
        requires destruction of munitions after they are uncovered). This possible contingent liability was previously
        disclosed on Note 16, Commitments and Contingencies.


Changes in the Liability Estimate (greater than 10 percent change)
The 4th Quarter, FY 2005 total Active Installations – ER liability for Closed Ranges of $5.2 billion decreased 10
percent from $5.8 billion reported in 4th Quarter, FY 2004. The major factors contributing to the decrease are the
reduction of 44 sites from the inventory, reduced site acreage, and changes to remediation technologies applied to
sites.

The 4th Quarter, FY 2005 total Active Installations – Environmental Corrective Action liability of $379.6 million
increased 47 percent from $259.0 million reported in the 4th Quarter FY 2004 and the FY 2005 total Active
Installations – Environmental Response at Active Ranges liability of $304.1 million increased 14 percent from $267.6
million reported in the 4th Quarter FY 2004. The major contributing factor to both increases is a change in reporting
requirements. The Army implemented a new Compliance Cleanup (CC) reporting database that speciﬁcally targets
corrective actions at an installation. Installations previously reported these requirements in the Environmental
Program Requirements (EPR) database along with all other installation environmental program requirements.
The installation must use site-level detail and a standard estimating tool, the Remedial Action Cost Engineering
and Requirements (RACER). The 4th Quarter, FY 2005 total Active Installations – Environmental Closure liability
of $96.8 million increased 89 percent from $51.2 million reported in the 4th Quarter FY 2004. The major factor
contributing to the increase is the addition of an Army Major Command’s environmental closure requirements not
previously reported in the EPR.

The 4th Quarter, FY 2005 total BRAC Installations – Environmental Restoration (ER) liability of $523.4 million
decreased 12 percent from $597.3 million in 4th Quarter, FY 2004 due to improved cost estimating methodology at
the installation-level and decrease level of effort requirements. The 4th Quarter, FY 2005 total BRAC Installations
– ER for transferring range liability of $634.1 million increased 32 percent from $480.1 million in 4th Quarter, FY 2004
due to new regulatory requirements. The 4th Quarter, FY 2005 total BRAC Installations – Environmental Corrective
Action liability of $54.1 million is a 117 percent increase from the $25.0 million liability reported in 4th Quarter, FY
2004. The major factor contributing to the increase is also new regulatory requirements. One installation’s corrective
action requirements increased 266 percent. The 4th Quarter, FY 2005 Other category which represents total BRAC
unliquidated obligations of $112.0 million is a 47 percent decrease from the $209.4 million reported in 4th Quarter,
FY 2004 due to the liquidation of current liability obligations and a changed methodology for calculated current
liability based on disbursement goals.


Other Information
Others Category Disclosure Comparative Table
(amounts in thousands):

Types                                           FY 2005     FY 2004
BRAC – Other
   Prior Year BRAC ULOs That Cannot Be         $ 112,026   $ 209,437
   Identiﬁed To A Speciﬁc Program
Total                                          $112,026    $ 209,437




                                                                                  FY 2005 Army Annual Financial Statement   87
Note 15. Other Liabilities
                                                                                         2005                            2004
                                                                     Current         Noncurrent
  As of September 30                                                 Liability        Liability          Total           Total
  (Amounts in thousands)
  1. Intragovernmental
     A. Advances from Others                                     $       138,074     $          0    $     138,074   $       95,733
     B. Deposit Funds and Suspense Account Liabilities                   213,950                0          213,950          137,806
     C. Disbursing Officer Cash                                        1,482,046                0        1,482,046        1,525,090
     D. Judgment Fund Liabilities                                              0                0                0           82,913
     E. FECA Reimbursement to the Department of Labor                    120,385          153,926          274,311          281,613
     F. Other Liabilities                                                260,472            3,408          263,880          279,748
     G. Total Intragovernmental Other Liabilities                $     2,214,927     $    157,334    $   2,372,261   $    2,402,903
  (Amounts in thousands)
  2. Nonfederal
     A. Accrued Funded Payroll and Benefits                      $       578,786     $          0    $     578,786   $    2,083,447
     B. Advances from Others                                             866,239                0          866,239          750,119
     C. Deferred Credits                                                         0              0                0               0
     D. Deposit Funds and Suspense Accounts                                      0              0                0               0
     E. Temporary Early Retirement Authority                                     0              0                0               0
     F. Nonenvironmental Disposal Liabilities
         (1) Military Equipment (Nonnuclear)                                     0              0                0               0
         (2) Excess/Obsolete Structures                                          0              0                0               0
         (3) Conventional Munitions Disposal                                     0       1,318,443       1,318,443        1,325,886
         (4) Other                                                             0                0                0                0
     G. Accrued Unfunded Annual Leave                                  2,728,211                0        2,728,211        2,656,508
     H. Capital Lease Liability                                           13,978           33,053           47,031           59,397
     I. Other Liabilities                                                687,666           175,540         863,206        1,793,835
     J. Total Nonfederal Other Liabilities                       $     4,874,880     $   1,527,036   $   6,401,916   $    8,669,192
  3. Total Other Liabilities                                     $     7,089,807     $   1,684,370   $   8,774,177   $   11,072,095


Fluctuations and/or Abnormalities
Intragovernmental Liabilities
Advances from Others increased $42.3 million or 44 percent. The majority of the increase is attributable to
advances from the Ofﬁce of National Drug Control Policy, the Executive Ofﬁce of The President, and Department of
Homeland Security for new initiatives related to classiﬁed missions associated with national and military security.

The balance reported for the Deposit Funds and Suspense Account liabilities increased by $76.1 million or 55
percent. The majority of the increase is attributable to the Army uniform services thrift saving program of $63.5
million and Member Saving Deposit Program of $19.6 million caused by an increase in deployed soldiers drawing
imminent danger pay who are authorized to deposit funds and later withdraw the funds with interest.

Treasury issued guidance in FY 2005 to report Judgment Fund Liabilities for Contract Disputes Act and the
Notiﬁcation and Federal Employee Antidiscrimination and Retaliation Act as Accounts Payable. Judgment Fund
Liabilities were reported as part of Other Liabilities in FY 2004.




88 General Fund | Principal Financial Statements, Notes, and Supplementary Information
The schedule below identiﬁes the Intragovernmental Other Liabilities.

(Amounts in thousands)                        FY 2005     FY 2004      Change
Unemployment                                  $149,307   $133,627      $15,680
Accounts Receivable Cancelled                   53,784     95,693      (41,909)
Employee Beneﬁts
       Retirement (CSRS/FERS)                   33,456     26,693         6,763
       Health                                   24,677     20,397         4,280
       Life Insurance                             574         475           99
Education Beneﬁts Trust Fund                     2,082       2,863        (781)
Total Intragovernmental - Other Liabilities   $263,880   $279,748      $15,872


Cancelled Accounts Receivable decreased $42 million or 44 percent. This decrease is due to the Ofﬁce of the
Secretary of Defense request that the departments begin to write-off uncollectable cancelled accounts receivables in
FY 2005.

Employee Beneﬁts increased $11.1 million primarily due to Civilian Service Retirement System/Federal Employees
Retirement System of $6.8 million, and Health Beneﬁts of $4.3 million. The increase of the Employee Beneﬁts is
attributable to payroll information not received timely in FY 2005 to process payment.

Education Beneﬁts Trust Fund decreased $781 thousand or 27 percent due to increased estimated present value
beneﬁt (PVB) for FY 2005. The PVB increased due to a new educational beneﬁt for mobilized reservists. As a result,
the liability decreased in FY 2005.

Non-Federal Liabilities
Accrued Funded Payroll and Beneﬁt decreased $1.5 billion or 72 percent primarily due to a timing difference of
the military payroll disbursement. In FY 2004, the liability reﬂected one half month of military payroll accrual. In
FY 2005, the military payroll was disbursed on the last day of the ﬁscal year, therefore, only minor amounts were
accrued.

Advances from Others increased $116.1 million or 15 percent, primarily due to the USACE Gulf Region Division
receiving advances for various construction projects in support of the Multi-National Division in Iraq and pre-
payments from the Kuwait government in support of the Global War on Terrorism.

Capital Lease Liability decreased $12.4 million or 21 percent as a result of annual amortization.

The schedule below identiﬁes the Non-Federal Other Liabilities.

(Amounts in thousands)                         FY 2005     FY 2004      Change
   Employer Contributions and Payroll Taxes   $334,954    $315,926      $19,028
   Contingent Funded/Non-Funded                187,017    1,011,845    (824,827)
   Contract Holdbacks                          226,478     343,010     (116,531)
   Iraqi Seized Cash                            61,370     113,430      (52,060)
   Development Fund for Iraq                    53,387           0       53,387
   Other                                             0        9,624       9,624
Total Non-Federal - Other Liabilities         $863,206   $1,793,835   ($930,629)

Contingent Liabilities decreased $824.8 million or 82 percent primarily due to a change in reporting of Chemical
Demilitarization. Army performed analysis and determined that these liabilities were more properly reported as
environmental liabilities in Note 14.



                                                                                   FY 2005 Army Annual Financial Statement   89
Contract Holdbacks decreased $116.5 million or 34 percent due to a change in computation of Contract Holdbacks
for Mechanization of Contract Administration Systems.

Iraqi Seized Cash continues to be disbursed to the Iraqi people accounting for the $52.1 million or 46 percent
decrease.

The Development Fund for Iraq was not reported until 1st Quarter, FY 2005.


Note Reference
For additional line item discussion, see Note 12 Accounts Payable.


Capital Lease Liability
                                                                                        2005                                         2004
                                                                                  Asset Category
  As of September 30                                        Land and Buildings        Equipment        Other           Total         Total
  (Amounts in thousands)
  1. Future Payments Due
      A. 2006                                           $                20,785   $          144   $           0   $    20,929   $    20,785
      B. 2007                                                            18,009              150               0        18,159        20,785
      C. 2008                                                             8,529              156               0         8,685        18,009
      D. 2009                                                             5,376               93               0         5,469         8,529
      E. 2010                                                             5,376                0               0         5,376         5,376
      F. After 5 Years                                                    8,682                0               0         8,682        14,058
      G. Total Future Lease Payments Due                $                66,757   $          543   $           0   $    67,300   $    87,542
      H. Less: Imputed Interest Executory Costs                          20,124              143               0        20,267        28,144
      I. Net Capital Lease Liability                    $                46,633   $          400   $           0   $    47,033   $    59,398


  2. Capital Lease Liabilities Covered by Budgetary Resources                                                      $    26,467   $    26,334
  3. Capital Lease Liabilities Not Covered by Budgetary Resources                                                  $    20,565   $    33,063

The Army is the lessee in eight capital leases for military family housing and one equipment lease. The Ofﬁce of
Management and Budget Bulletin 01-09 and Circular A-11 direct that any capital leases entered into during FY 1992
or later are required to be fully funded in the ﬁrst year of the lease.

Capital Lease Liabilities Covered by Budgetary Resources
The present value of the lease payments, $26.5 million, for leases originating after FY 1991 plus the current portion of
the Pre-1992 leases is shown as Covered by Budgetary Resources.

Capital Lease Liabilities Not Covered by Budgetary Resources
The remaining six leases, that originated before FY 1992, are funded on a ﬁscal year basis causing the noncurrent
amounts of $20.6 million to be shown as Not Covered by Budgetary Resources.

Note 16. Commitments and Contingencies
Disclosures Related to Commitments and Contingencies


Relevant Information for Comprehension
Nature of Contingency
The Army General Fund has other contingent liabilities in which the possibility of loss is considered reasonable.
These liabilities are not accrued in the Army’s ﬁnancial statements.


90 General Fund | Principal Financial Statements, Notes, and Supplementary Information
As of September 30, 2005, the Army General Fund has approximately $255.0 million in claims considered reasonably
possible. These contingent liabilities and estimates are presented in the following table:

Estimate of the Possible Liability
(Amounts in thousands)

Title of Contingent Liabilities                         Estimate
Litigation Division                                       95,821
Administrative Tort Claims (Army Fund)                    45,000
European Environmental Claims (Army Fund)                 40,000
Low-Level Radioactive Waste Disposal                      26,955
Army Contract Appeals Division                            25,000
Army Environmental Law Division                           21,151
Network Enterprise Technology Command                       908
Army Personnel Claims                                       124
Total                                                   $254,959


Note Reference
See Note Disclosure 1. S. - Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Contingencies and Other Liabilities.

Note 17. Military Retirement Beneﬁts and Other Employment Related Actuarial
         Liabilities
                                                                                     2005                                            2004
                                                    Actuarial Present     Assume       (Less: Assets
                                                    Value of Projected    Interest    Available to Pay      Unfunded           Unfunded Actuarial
  As of September 30                                  Plan Benefits       Rate (%)       Benefits)       Actuarial Liability        Liability
  (Amounts in thousands)
  1. Pension and Health Benefits
     A. Military Retirement Pensions                $                0                $             0    $                 0   $                0
     B. Military Retirement Health Benefits                          0                              0                      0                    0
     C. Medicare-Eligible Retiree Benefits                           0                              0                      0                    0
     D. Total Pension and Health Benefits           $                0                $             0    $                 0   $                0
  2. Other
     A. FECA                                        $         1,663,650    4.53%      $             0    $       1,663,650     $        1,632,843
     B. Voluntary Separation Incentive Programs                       0                             0                    0                      0
     C. DoD Education Benefits Fund                                   0                             0                    0                      0
     D. [Enter Program Name}                                          0                             0                    0                      0
     E. Total Other                                 $         1,663,650               $             0    $       1,663,650     $        1,632,843
  3. Total Military Retirement Benefits and Other
     Employment Related Actuarial Liabilities:      $         1,663,650               $             0    $       1,663,650     $        1,632,843

Market Value of Investments in Market-based and Marketable Securities: Not applicable

Military Retirement Pensions: The portion of the military retirement beneﬁts actuarial liability applicable to the
Army is reported on the ﬁnancial statements of the Military Retirement Fund.

Military Retirement Health Beneﬁts: Health beneﬁts are funded centrally at the DoD level. As such the portion
of the health beneﬁts actuarial liability that is applicable to the Army is reported only on the DoD Agency-wide
ﬁnancial statements.

Medicare-Eligible Retiree Beneﬁts: Not reported by Military Retirement Systems.



                                                                                                   FY 2005 Army Annual Financial Statement          91
Federal Employees Compensation Act (FECA)
Actuarial Cost Method Used: The Army’s actuarial liability for Workers’ Compensation beneﬁts is developed by
the Department of Labor and provided to the Army each ﬁscal year end. The liability includes the expected liability
for death, disability, medical, and miscellaneous costs for approved compensation cases. The liability is determined
using a method that utilizes historical beneﬁt payment patterns to predict the ultimate payments.

Assumptions: The projected annual beneﬁt payments are discounted to the present value using the Ofﬁce of
Management and Budget’s economic assumptions for 10-year U.S. Treasury notes and bonds. Cost of living
adjustments and medical inﬂation factors are also applied to the calculation of projected future beneﬁts.

Note 18. Disclosures Related to the Statement of Net Cost
The Consolidated Statement of Net Cost in the federal government is unique because its principles are driven
on understanding the net cost of programs and/or organizations that the federal government supports through
appropriations or other means. This statement provides gross and net cost information that can be related to the
amount of output or outcome for a given program and/or organization administered by a responsible reporting
entity. The amounts presented in the Consolidated Statement of Net Cost are based on funding, obligation, accrual
and disbursing transactions, which are not always recorded using accrual accounting. Army systems do not always
record the transactions on an accrual basis as is required by the generally accepted accounting principles. The
information presented also includes data from non-ﬁnancial feeder systems to capture all cost and ﬁnancing sources
for the Army.


Program Costs
Intragovernmental Gross Costs increased $4.5 billion or 13 percent primarily due to a $1.3 billion increase in health
care normal cost contribution rates provided by the Board of Actuaries for DoD eligible retirees and a $936.8 million
increase in the Defense Logistics Agency due to the use of the new Business Systems Modernization system, which
provides better trading partner data than previously reported information by the legacy systems. The remaining
increases are due to various other agencies such as the Department of Air Force, Department of Transportation, and
Department of Interior.

Gross Costs with the Public increased $7.3 billion primarily in support of land force readiness including resources
for all law enforcement supporting Army mission requirements providing protection for all personnel, facilities, and
critical assets. The increase also includes a $3.8 billion increase in Iraqi Relief and Reconstruction Fund related to
Security and Law Enforcements for additional police training and border enforcement for Iraqi citizen’s protection.


Program Revenues
Intragovernmental Earned Revenue increased $1.1 billion or 15 percent. The increase reﬂects the increases in
reimbursable authority in support of logistical activities and land force readiness support for Army Procurement
and Operations and Maintenance.

Revenue with the Public increased $97.2 million primarily due to reimbursable activity in support of logistics for
all law enforcement supporting Army mission requirements and for activity related to Army ability to meet global
commitments in support of our National Military Strategy and to pursue cooperative activities with other nations.




92 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Note 19. Disclosures Related to the Statement of Changes in Net Position
                                                                          2005               2005              2004              2004
                                                                        Cumulative                         Cumulative
                                                                        Results of        Unexpended       Results of        Unexpended
  As of September 30                                                    Operations       Appropriations    Operations       Appropriations
  (Amounts in thousands)
  1.     Prior Period Adjustments Increases (Decreases)
         to Net Position
         A. Changes in Accounting Standards                         $                0   $            0    $            0    $          0
         B. Errors and Omissions in Prior Year Accounting                            0                0                 0               0
              Reports
         C. Other Prior Period Adjustments                                           0                0                 0               0
         D. Total Prior Period Adjustments                          $                0   $            0    $            0    $          0
  2.     Imputed Financing
         A. Civilian CSRS/FERS Retirement                           $          316,873   $            0    $     330,114     $          0
         B. Civilian Health                                                    525,159                0          472,428                0
         C. Civilian Life Insurance                                              1,655                0            1,557                0
         D. Judgment Fund                                                      249,118                0           77,978                0
         E. Intra-Entity                                                             0                0                0                0
         F. Total Imputed Financing                                 $      1,092,805     $            0    $     882,077     $          0


Fluctuations and/or Abnormalities
Imputed Financing
The $52.7 million or 11 percent increase in Civilian Health is attributable to an increase in the average enrollment
and a higher cost factor by the Ofﬁce of Personnel and Management (OPM). For FY 2005, the cost factor is $4,903 per
enrolled employee. (See the OPM Beneﬁt Administration Letter, Number 05-303 and dated September 8, 2005).

The increase in Judgment Fund of $171.1 million or 219 percent is attributable to payments as follows:

(Amounts in Thousands)   Number of Claims   FY 2005   FY 2004   Difference
Court of Claims                        4      $51.5      $4.3       $47.2
Torts                                878      196.6      68.7       127.9
Small Claims                           2         1         5            -4.0
Totals                               884     $249.1     $78.0       171.1

Cumulative Results of Operations
Appropriations used increased $22.7 billion or 18 percent due to obligating FY 2005 funds for the Global War on
Terror and Tsunami Relief and a FY 2004 multi-year Operations and Maintenance appropriation to train and equip
the Afghan National Army.

Non-Exchange revenue increased $4.2 million or 81 percent primarily due to $3.4 million increase in collections for
the Forest and Wildlife Conservation. The remaining $800 thousand is due to other miscellaneous collections.

Donations and forfeitures of cash and cash equivalents increased $946 thousand or 20 percent due to increased
donations to the West Point Military Academy in FY 2005.

Budgetary ﬁnancing sources transfers-in/out without reimbursement decreased $9.5 billion or 72 percent. Transfers-
in/out are one time events that are not repeatable from year to year. In FY 2005, the Iraqi Relief and Reconstruction
Fund reported $2.9 billion and the Defense Working Capital Fund reported $855 million. In FY 2004, $10.3 billion
was reported in the Iraqi Relief and Reconstruction Fund and $2.9 billion in the Defense Working Capital Fund.

Other budgetary ﬁnancing sources represent adjustments to bring the proprietary accounts into agreement with


                                                                                                 FY 2005 Army Annual Financial Statement     93
the budgetary accounts. Due to system deﬁciencies, there are unreconciled differences between the budgetary and
proprietary trial balances. The net effect of these adjustments is reﬂected on Other budgetary ﬁnancing sources
and Other on the Statement of Net Position. The $3.4 billion or 134 percent decrease in Other budgetary ﬁnancing
sources and $2.1 billion or 100 percent increase in Other is entirely due DoD policy to change the reporting of other
gains and losses from Other budgetary ﬁnancing sources to Other.

Other Financing Sources Transfers-in/out without reimbursement is comprised of transfers of Property, Plant and
Equipment (PP&E) and Construction in Progress (CIP). Transfers in without reimbursement of $528.1 million for
FY 2005 and $400.8 million for FY 2004 for an increase of $127.3 million or 32 percent: Transfers-in/out without
reimbursement are one time events that are not repeatable from year to year. The following table provides a
breakout of the data for each year:

(Amounts in Thousands)                    Transfers In       Transfers Out    Transfer In       Transfers Out
                                            FY 2005             FY 2005        FY 2004             FY 2004
Property Plant & Equipment
Defense Logistics Agency                            $-                 $ -           $ 4.3                $ -
Ofﬁce of the Secretary of Defense                        -                -           44.2                   -
Special Command Operations                               -                -           16.1                   -
Tricare Management Activity                              -                -            8.7                   -
Missile Defense Agency                                   -                -           27.9                   -
Other Defense Agencies                                   -                -          129.3                   -
Air Force                                                -                -          150.9                   -
U.S. Army Corps of Engineers                             -                -                 -          $(68.9)
Net Transfers of PP&E to the Army                 71.9                    -                 -                -
       Total Property Plant & Equipment          $71.9                             $381.4              $(68.9)
Construction in Progress
Defense Emergency Response Fund                   $4.5                 $ -             $ -                $ -
Ofﬁce of the Secretary of Defense                581.4                    -                 -                -
Air Force                                                -                -                 -            (9.3)
Defense Logistics Agency                                 -           (84.6)           84.6                   -
Missile Defense Agency                                   -           (45.1)            6.2                   -
Defense Health Organization                              -                -            6.8                   -
       Total Construction in Progress           $585.9            $(129.7)           $97.6              $(9.3)
Totals                                          $657.8            $(129.7)         $479.0              $(78.2)

Unexpended Appropriations
Decreases in the Appropriations transferred-in/out and Other adjustments and an increase in the Appropriations
used relate directly to the change in the overall Army appropriations.

Appropriations transferred-in/out decreased $2.2 billion or 46 percent due to the reporting of Net Transfers of

$2.6 billion in FY 2005 and $4.8 billion in FY 2004. Appropriations transferred-in/out are one time events that are
not repeatable from year to year. The following table provides a breakout of the net changes for FY 2005:




94 General Fund | Principal Financial Statements, Notes, and Supplementary Information
(Amounts in Thousands)                        Transfer in       Transfer out
                                               FY 2005            FY 2005
Drug Interdiction                                   $457.5               $ -
Restoration of Formerly Used Defense Sites           265.6                     -
National Nuclear Security Administration                    -          (72.3)
Defense Agencies                                     357.0                     -
Miscellaneous Transfers                               62.8                     -
Defense Working Capital Fund                         855.0                     -
Foreign Currency Fluctuations                        259.0                     -
Total                                             $2,256.9            $(72.3)

Other adjustments decreased $516.8 million or 37 percent due primarily to decreases in the amount of rescissions of
current year authority of $97.8 million or 29 percent, prior year balances of $314.5 million or 78 percent and cancelled
authority of $104.5 million or 16 percent.


Note Reference
For regulatory disclosure related to “The Statement of Changes in Net Position”, see the Department of Defense
Financial Management Regulation, Volume 6B, Chapter 10, paragraph 1022.

For additional line item discussion, see:
Note 18, Disclosures Related to the Statement of Net Cost
Note 20, Disclosures Related to the Statement of Budgetary Resources
Note 21, Disclosures Related to the Statement of Financing

Note 20. Disclosures Related to the Statement of Budgetary Resources
  As of September 30                                                                   2005                  2004
  (Amounts in thousands)

  1.     Net Amount of Budgetary Resources Obligated for Undelivered
         Orders at the End of the Period                                           $    71,524,849   $         60,568,539
  2.     Available Borrowing and Contract Authority at the End of the Period                     0                      0


The Net Amount of Budgetary Resources Obligated for Undelivered Orders increased $11.0 billion or 18 percent
primarily due to the increase in appropriations received for the Emergency Supplemental Appropriations Act for
Defense, the Global War on Terror, and Tsunami Relief.


Fluctuations and/or Abnormalities
Budget Authority – Net Transfers for FY 2005 of $1.0 billion consists of appropriation transfers of $457.5 million in
Drug Interdiction, $265.6 million in Restoration of Formerly Used Defense Sites, ($72.3) million in National Nuclear
Security Administration, $357.0 million with Defense Agencies, and $7.8 million in miscellaneous transfers. The
decrease of $1.5 billion or 58 percent is largely due to decreases in transfers from the Ofﬁce of the President and the
Iraqi Freedom Fund in support of Iraqi Security and Stability and contingency missions.

Unobligated balance - Beginning of period increased $14.7 billion or 179 percent largely due to the $13.5 billion
supplemental received in September 2004 for Operations and Maintenance related to Operation Iraqi Freedom. As
of September 2004, only $2.5 million had been obligated causing the material increase.

Unobligated balance-Net transfers, actual of $2.4 billion consists of prior year appropriation transfers of $1.2 billion


                                                                                       FY 2005 Army Annual Financial Statement   95
from the Iraqi Freedom Fund in support of contingency missions, $855.0 million from the Defense Working Capital
Fund, $259.0 million from Foreign Currency Fluctuations, Defense, and $55.0 million in miscellaneous transfers.
Transfers are a one-time event and ﬂuctuations between ﬁscal years do not correlate with each other.

Spending Authority from Offsetting Collections – Receivable from Federal sources of ($415.0) million reﬂects the
change in receivables from FY 2004 to FY 2005.

Recoveries of Prior Year Obligations or deobligations increased $3.0 billion or 22 percent from FY 2004 consisting
primarily of $1.7 billion in Operations and Maintenance, $702.6 million in Military Personnel, and $430.7 million
in Procurement deobligations. This is largely due to systematic correction processes that require the movement of
obligations between management structure to ﬁrst deobligate and then reobligate the funds. The actual FY 2005
Army Military Personnel deobligation is $697.1 million of which $394.0 million was a transfer to Foreign Currency
Fluctuations, Defense and $1.1 billion in Operations and Maintenance.

Permanently not available decreased $516.8 million or 37 percent due to decreases in the amount of Recissions
of current year authority of $97.8 million or 29 percent, prior year balances of $314.5 million or 78 percent, and
cancelled authority of $104.5 million or 16 percent. Recissions of current year authority consist of $70.1 million in
Operations and Maintenance, and $35.8 million in Procurement. Recissions of prior year balances consist primarily
of $237.5 million in Military Construction and $105.1 million of Procurement. Cancelled year authority increased
$129.1 million in Military Personnel and decreased $24.5 million in Operations and Maintenance.

Obligations incurred, Undelivered orders, and Disbursements increased $23.5 billion or 13 percent, $10.3 billion
or 18 percent, and $24.2 billion or 16 percent, respectively and the Unobligated balance – Apportioned decreased
$7.7 billion or 36 percent. The ﬂuctuations are due to obligating FY 2005 funds for the Global War on Terror and
Tsunami Relief and a FY 2004 multi-year Operations and Maintenance appropriation to train and equip the Afghan
National Army.

Unobligated Balance – Exempt from Apportionment decreased $1.4 million or 11 percent primarily due to a decrease
in the Forest & Wildlife Conservation, Military Reservations appropriation.

Unobligated Balances Not Available increased $391.1 million or 28 percent due to an increase in unapportioned
authority and allotments of expired authority. Unapportioned authority increased $150.0 million for the
procurement of ammunition. Allotments of expired authority increased $241.3 million primarily in the Operations
and Maintenance appropriations.

Accounts Receivable and Unﬁlled Customer Orders from Federal Sources increased $415.1 million or 22 percent
and decreased $2.2 billion or 17 percent, respectively, due to ﬂuctuations in the status of Spending Authority from
Offsetting Collections. Spending Authority from Offsetting Collections had an overall increase of $1.4 billion or 7
percent.

Collections increased $2.0 billion or 10 percent largely due to increases in reimbursable authority in support of
logistical activities for Army Procurement and Operations and Maintenance.

Offsetting receipts are primarily comprised of $118.9 million in Army General Fund Proprietary Receipts, $42.5
million in Recoveries under the Foreign Military Sales, $13.5 million in Collections of Receivables from Cancelled
Accounts, and $11.0 million in Recoveries of Government Property Lost or Damaged. The $131.9 million or 208
percent increase is largely attributed to $83.1 million increase in General Fund Proprietary Receipts and $44.7 million
increase in Recoveries under the Foreign Military Sales.


Accounting Standard U.S. Standard General Ledger
The Army has not fully implemented the U.S. Government Standard General Ledger in all operational accounting
systems. Guidance from the Treasury Financial Manual, Part 2, Chapter 4000, Federal Agencies’ Centralized Trial
Balance System II is used to populate the Army Statement of Budgetary Resources.


96 General Fund | Principal Financial Statements, Notes, and Supplementary Information
The Army accounting systems do not provide or capture data needed for obligations incurred and recoveries of
prior year obligations in accordance with Ofﬁce of Management and Budget (OMB) Circular A-11, Preparation,
Submission, and Execution of the Budget requirements. Although the Army developed an alternative methodology to
calculate these items, the amount of distortion cannot be reliably determined, and may or may not be material.


Intra-entity Transactions
The Statement of Budgetary Resources does not include eliminating entries and therefore a Disaggregated Statement
of Budgetary Resources is included in the Required Supplementary Information section of the ﬁnancial statements.


Apportionment Categories
OMB Bulletin No. 01-09 section 9.27 speciﬁcally requires disclosure of the amount of direct and reimbursable
obligations incurred against amounts apportioned under Category A, Category B, and Exempt from Apportionment.
Obligations incurred consists of $174.1 billion in Category A, Direct; $945.3 million in Category B, Direct; $20.2
billion in Category A, Reimbursable; and $4.3 billion in Category B, Reimbursable. This disclosure agrees with
the aggregate of the related information as reported on the agency’s Budgetary Execution Report (SF 133) and
Obligations Incurred on the Statement of Budgetary Resources.


Separate Column for Non-budgetary Credit Program Financing Accounts
A Non-budgetary Credit Program Finance Account column allows for a clear distinction between budgetary and
non-budgetary credit program ﬁnancing. Non-budgetary credit ﬁnancing accounts are reported separately from the
budgetary totals in the Budget of the United States Government. Separate reporting on the Statement of Budgetary
Resources enhances reconciliation of the two sets of information. Further information on the credit ﬁnancing
accounts is provided in Note 8.

The Unobligated Balance – Apportioned increased $101 thousand, or 7 percent due to new loan obligations and
liabilities for an impending loss claim. Spending authority from offsetting collections – Collected and Outlays
– Collections increased $51 thousand due to the collection of guaranteed fees into the Rural Development
appropriation for a FY 2004 loan.


Offsetting Receipts Line
Receipts are collections that are credited to the general, special, or trust fund receipt accounts. In addition, they
represent offsetting receipts distributed to the Army. Offsetting receipts offset budget authority and outlays at the
agency level in the Budget of the United States Government. Offsetting receipts must be included in the Statement
of Budgetary Resources to reconcile it to information in the Budget of the United States Government.


Spending Authority from Offsetting Collections
Adjustments in funds that are temporarily not available pursuant to Public Law, and those that are permanently
not available are not included in the Spending Authority From Offsetting Collections on the Statement of Budgetary
Resources or the Spending Authority for Offsetting Collections and Recoveries on the Statement of Financing.


Undelivered Orders
Undelivered Orders presented in the Statement of Budgetary Resources includes Undelivered Orders-Unpaid for
both direct and reimbursable funds.




                                                                                FY 2005 Army Annual Financial Statement   97
Note 21. Disclosures Related to the Statement of Financing
The Statement of Financing is intended to articulate and detail the relationship between net obligations from
budgetary accounting and net cost of operations from proprietary accounting. Intra-entity transactions have not
been eliminated; therefore, the statements are presented as combined and combining.


Fluctuations and/or Abnormalities
Obligations incurred and Undelivered orders increased $23.5 billion or 13 percent and

$1.2 billion or 16 percent, respectively primarily due to the obligating FY 2005 funds for the Global War on Terror
and Tsunami Relief and a FY 2004 multi-year Operations and Maintenance appropriation to train and equip the
Afghan National Army.

Spending authority from offsetting collections and recoveries decreased $4.5 billion or 13 percent largely due to
increases in reimbursable authority in support of logistical activities for Army Procurement and Operations and
Maintenance.

Offsetting receipts and Budgetary offsetting collections and receipts that do not affect net cost of operations
increased $131.9 million primarily due to $44.7 million increase in Recoveries under the Foreign Military Sales and
$83.1 million increase in Army General Fund Proprietary Receipts.

Transfers-in/out without reimbursement of $528.0 million is comprised of $71.9 million for Property, Plant and
Equipment and $456.2 million for Construction in Progress (CIP). CIP was transferred in from the Ofﬁce of the
Secretary of Defense for $581.4 million and the Defense Emergency Response Fund for $4.5 million and transferred
out to the Missile Defense Agency for $45.1 million and Defense Logistics Agency for $84.6 million. Transfers-in/out
are one time events that are not repeatable from year to year.

Imputed ﬁnancing from costs absorbed by others has increased by $210.7 million or 24 percent primarily due to a
$171.0 million increase in Judgment Fund Imputed Financing. This increase represents an increase in payments by
the Court of Claims for $47.2 million, Torts for $127.9 million, and a decrease in Small Claims since October 1, 2004.

Other Resources – Other decreased $2.9 billion or 100 percent and Other resouces or adjustments to net obligated
resources that do not affect net cost operations – Other increased $2.8 billion or 704 percent due to a mapping
change that includes Other Gains and Losses. The majority of Other Gains and Losses represent adjustments to
bring the proprietary accounts into agreement with the budgetary accounts. Due to system deﬁciencies, there are
unreconciled differences between the budgetary and proprietary trial balances.

Resources that fund expenses recognized in prior periods decreased $411.6 million or 47 percent primarily due to
decreases of in Defense Environmental Restoration Program liabilities.

Resources that ﬁnance the acquisition of assets increased by $16.9 billion and or 170 percent and Depreciation and
amortization increased by $7.1 billion or 73 percent. The Army bases the value of military equipment for ﬁnancial
statement presentation purposes on projections provided by the Bureau of Economic Analysis (BEA), Department
of Commerce. BEA revised the military equipment projections resulting in increases in the projected purchase and
depreciation of military equipment. Further explanation is provided in Note 10.

Increase in environmental and disposal liability decreased $3.1 billion or 100 percent. The FY 2005 decrease in
environmental and disposal liabilities is reﬂected in Resources that fund expenses recognized in prior periods.

Upward/Downward reestimates of credit subsidy expense decreased $10.9 million or 100 percent. The FY 2004
expense was due to a September 2004 reestimation of an impending loss claim for the Armament Retooling and
Manufacturing Support Initiative.



98 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Other Components Requiring or Generating Resources in Future Period represents increases in future funded
expense for various liabilities such as Federal Employment Compensation Act, Unemployment Compensation,
and Closed Accounts Payable. The decrease of $8.7 million or 14 percent represents decreases in the expected
unemployment compensation.

Revaluation of assets or liabilities in FY 2005 represents the $1.1 million in Construction in Progress that was
terminated. In FY 2004, the Revaluation of assets or liabilities was comprised of excess, obsolete, and unserviceable
Operating Material and Supplies.

Other Trust Fund Exchange Revenue increased by $45.6 thousand or 125 percent due to investments earning higher
revenue in FY 2005.

Cost of Goods Sold and Operating Material and Supplies Used can not be properly captured or estimated. The
Army is continually reviewing and developing procedures to accurately report these values in the future.

Other Components not Requiring or Generating Resources of $5.2 billion is primarily comprised of Other
Expenses not Requiring Budgetary Resources for the Iraqi Relief and Reconstruction Fund. The Iraqi Relief and
Reconstruction Fund is a material child transfer where Army is the child and the Department of the Executive Ofﬁce
of The President is the parent. Treasury requires that the ﬁnancial statements of a material child transfer account be
presented in the child’s ﬁnancial statements except for the Statement of Budgetary Resources. A reconciling item
is included in Other because Obligations incurred on the Statement of Financing does not include expenses related
to the Iraqi Relief and Reconstruction Fund. The $3.8 billion increase is largely attributed to $2.2 billion increase
in expenses related to Security and Law Enforcements due to the need for additional police training and border
enforcement for Iraqi citizen’s protection. The remainder of the increase is attributable to other miscellaneous
expenses.


Note Reference
For additional information related to the Statement of Financing, see:
Note 8, Direct Loan and/or Loan Guarantee Programs
Note 10, General Property Plant & Equipment, Net
Note 11, Liabilities Not Covered By Budgetary Resources
Note 14, Environmental Liabilities and Disposal Liabilities
Note 16, Commitments and Contingencies
Note 20, Disclosures Related to the Statement

Note 22. Disclosures Related to the Statement of Custodial Activity
The Statement of Custodial Activity displays current year collections and disbursements for two custodial accounts:
Development Fund for Iraq and Iraqi Seized Assets. Funds held in a Custodial Activity are only used for their stated
purposes and are not available for the Department’s use.


Development Fund for Iraq (DFI)
The DFI is for urgent humanitarian assistance, reconstruction, and other projects carried out for the beneﬁt of the
Iraqi people. Current year deposits from the Interim Iraqi Government transferred to the Multi-National Force-Iraq
are $136.0 million with $82.6 million in disbursements.




                                                                               FY 2005 Army Annual Financial Statement   99
                                                                                                    (Amounts in thousands)

                                                                                           During                   Cumulative
                                                                                           FY 2005                from Inception
Source of Collections
       Deposits by Foreign Governments                                                       $136,000                     $ 136,000
Disposition of Collections
       Security and Law Enforcement                                                                $763                            $763
       Electric Sector                                                                          24,367                         24,367
       Oil Infrastructure                                                                            430                            430
       Water Resources and Sanitation                                                             6,662                            6,662
       Transportation and Telecommunications                                                      5,208                            5,208
       Roads, Bridges and Construction                                                            4,230                            4,230
       Health Care                                                                                2,720                            2,720
       Private Sector Development                                                                 3,817                            3,817
       Education, Refugees, Human Rights, and Governance                                        34,416                         34,416
       Total Disbursed on behalf of Foreign Governments                                         82,613                         82,613
       Retained for Future Support of Foreign Governments                                       53,387                         53,387
       Total Disposition of Collections                                                      $136,000                      $136,000
Net Custodial Collection Activity                                                                     $0                               $0
Note – The Retained for Future Support of Foreign Governments is reﬂected as Increase (Decrease) in Amounts to be Transferred on the
Statement of Custodial Activity



Seized Assets
During Operation Iraqi Freedom, the U.S. Government seized assets from the Iraqi Government that are used in
support of the Iraqi people. As of September 30, 2005, $61.4 million of seized monetary assets remain to be disbursed
in support of the Iraqi people as shown in the table below.

                                                                                                           (Amount in thousands)

                                                                                                 During               Cumulative
                                                                                                 FY 2005            from Inception
Source of Collections
       Seized Iraqi Cash                                                                                    $1                $927,216
Disposition of Collections
       Iraqi Salaries                                                                                       $0                 $30,838
       Repair/Reconstruction/Humanitarian Assistance                                                  51,231                   494,959
       Iraqi Ministry Operations (Ministry of Finance, Defense, etc.)                                     830                  264,737
       Fuel/Supplies                                                                                          0                    75,312
       Total Disbursed on behalf of Iraqi People                                                    $52,061                   $865,846
       Retained for Future Support of the Iraqi People                                             (52,060)                        61,370
       Total Disposition of Collections                                                                     $1                $927,216
Net Custodial Collection Activity                                                                           $0                          $0




100 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Note 23. Other Disclosures
 As of September 30                                                             2005
 (Amounts in thousands)

 1. ENTITY AS LESSEE-Operating Leases
 Future Payments Due                           Land and Buildings        Equipment            Other             Total
       Fiscal Year
       2006                                    $             6,303   $                0   $            0   $         6,303
       2007                                                  6,298                    0                0             6,298
       2008                                                  4,950                    0                0             4,950
       2009                                                  3,794                    0                0             3,794
       2010                                                  2,118                    0                0             2,118
       After 5 Years                                        15,550                    0                0            15,550
 Total Future Lease Payments Due               $            39,013   $                0   $            0   $        39,013


Deﬁnitions
Lessee – A person or entity who receives the use and possession of leased property (e.g. real estate or equipment)
from a lessor in exchange for payment of funds.

Operating Lease - A lease which does not substantially transfer all the beneﬁts and risks of ownership. Payments are
charged to an expense account over the lease term as it becomes payable.


Relevant Information for Comprehension
Land and Building lease periods vary and are not expected to be renewed at the end of the lease term. There are no
material escalation clauses or contingent rental restrictions. Costs are gathered from existing leases, General Service
Administration bills, and Inter-service Support Agreements of which the largest component is ofﬁce space. Future
year projections use the Consumer Price Index (CPI), rather than the DoD inﬂation factor. The CPI impacts increases
to the leases, especially those at commercial lease sites.




                                                                                     FY 2005 Army Annual Financial Statement 101
Department of Defense - Department of the Army
CONSOLIDATING BALANCE SHEET
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                            Active Army        Army Reserve        Army National Guard
¬¬¬ASSETS¬(Note¬2)
     Intragovernmental:
     Fund Balance with Treasury (Note 3)
     Entity                                                           $       81,913,671   $       1,281,261   $             3,604,102
     Non-Entity Seized Iraqi Cash                                                 61,370                   0                          0
     Non-Entity-Other                                                            232,913                   0                          0
     Investments (Note 4)                                                          3,495                   0                          0
     Accounts Receivable (Note 5)                                              1,229,724              19,389                    18,801
     Other Assets (Note 6)                                                           126                   0                        (4)
     Total Intragovernmental Assets                                   $       83,441,299   $       1,300,650   $             3,622,899
     Cash and Other Monetary Assets (Note 7)                          $        1,482,046   $               0   $                      0
     Accounts Receivable (Note 5)                                                524,138              22,294                    37,573
     Loans Receivable (Note 8)                                                         0                   0                          0
     Inventory and Related Property (Note 9)                                  37,703,353                   0                          0
     General Property, Plant and Equipment (Note 10)                         117,980,798           1,505,613                   915,335
     Investments (Note 4)                                                              0                   0                          0
     Other Assets (Note 6)                                                     3,765,423               2,883                    76,218
¬¬¬TOTAL¬ASSETS                                                       $      244,897,057   $       2,831,440   $             4,652,025

¬¬¬LIABILITIES¬(Note¬11)
      Intragovernmental:
      Accounts Payable (Note 12)                                      $        3,117,641 $          103,362 $                   68,933
      Debt (Note 13)                                                                   0                  0                          0
      Other Liabilities (Note 15 & Note 16)                                    2,400,920              9,003                     47,787
      Total Intragovernmental Liabilities                             $        5,518,561 $          112,365 $                  116,720
      Accounts Payable (Note 12)                                      $        7,830,236 $          273,181 $                1,620,125
      Military Retirement Benefits and Other Employment-Related                1,332,740             55,397                    275,513
      Actuarial Liabilities (Note 17)
      Environmental Liabilities (Note 14)                                     39,760,514                  0                          0
      Loan Guarantee Liability (Note 8)                                           12,394                  0                          0
      Other Liabilities (Note 15 and Note 16)                                  5,763,213            191,718                    446,985
¬¬¬TOTAL¬LIABILITIES                                                  $       60,217,658 $          632,661 $                2,459,343

¬¬¬NET¬POSITION
     Unexpended Appropriations                                        $       71,104,696 $           881,002 $               1,842,539
     Cumulative Results of Operations                                        113,574,703           1,317,777                   350,143
¬¬¬TOTAL¬NET¬POSITION                                                 $      184,679,399 $         2,198,779 $               2,192,682

¬¬¬TOTAL¬LIABILITIES¬AND¬NET¬POSITION                                 $      244,897,057 $         2,831,440 $               4,652,025




102 General Fund | Principal Financial Statements, Notes, and Supplementary Information
    Component Level        Combined Total        Eliminations       2005 Consolidated       2004 Consolidated




$                  0   $        86,799,034   $             0    $          86,799,034   $          89,297,373
                   0                61,370                 0                   61,370                 113,430
                   0               232,913                 0                  232,913                 137,806
                   0                 3,495                 0                    3,495                   1,496
           (991,280)               276,634                 0                  276,634                 461,867
             824,181               824,303                 0                  824,303                 556,380
$          (167,099)   $        88,197,749   $             0    $          88,197,749   $          90,568,352
$                  0   $         1,482,046   $             0    $           1,482,046   $           1,525,090
                   0               584,005                 0                  584,005                 492,394
                   0                     0                 0                        0                       0
                   0            37,703,353                 0               37,703,353              37,647,721
                   0           120,401,746                 0              120,401,746             113,111,572
                   0                     0                 0                        0                       0
                   0             3,844,524                 0                3,844,524               3,351,504
$          (167,099)   $       252,213,423   $             0    $         252,213,423   $         246,696,633




$         (1,371,627) $          1,918,309 $               0 $              1,918,309 $             1,706,731
                    0                    0                 0                        0                       0
             (85,449)            2,372,261                 0                2,372,261               2,402,903
$         (1,457,076) $          4,290,570 $               0 $              4,290,570 $             4,109,634
$             413,469 $         10,137,011 $               0 $             10,137,011 $             9,460,194
                    0            1,663,650                 0                1,663,650               1,632,843

                    0           39,760,514                 0               39,760,514              40,366,172
                    0               12,394                 0                   12,394                  12,293
                    0            6,401,916                 0                6,401,916               8,669,192
$         (1,043,607) $         62,266,055 $               0 $             62,266,055 $            64,250,328



$           876,508 $           74,704,745 $               0 $             74,704,745 $            73,238,304
                  0            115,242,623                 0              115,242,623             109,208,001
$           876,508 $          189,947,368 $               0 $            189,947,368 $           182,446,305

$          (167,099) $         252,213,423 $               0 $            252,213,423 $           246,696,633




                                                                                        FY 2005 Army Annual Financial Statement 103
Department of Defense - Department of the Army
CONSOLIDATING STATEMENT OF NET COST
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                            Active Army          Army Reserve         Army National Guard
¬¬¬Program¬Costs
A.¬Military¬Personnel
       Intragovernmental Gross Costs                                  $             (746)    $                0   $                      0
       (Less: Intragovernmental Earned Revenue)                                 (118,985)              (18,470)                      4,186
       Intragovernmental Net Costs                                    $         (119,731)    $         (18,470)   $                  4,186
       Gross Costs With the Public                                    $        43,328,299    $       3,678,830    $             6,299,842
       (Less: Earned Revenue From the Public)                                       7,509                   620                    (8,596)
       Net Costs With the Public                                      $        43,335,808    $       3,679,450    $             6,291,246
       Total Net Cost                                                 $        43,216,077    $       3,660,980    $             6,295,432
B.¬Operation¬and¬Maintenance                                                            0
       Intragovernmental Gross Costs                                  $         8,838,719    $           10,086   $                21,379
       (Less: Intragovernmental Earned Revenue)                              (10,860,946)              (60,950)                 (155,148)
       Intragovernmental Net Costs                                    $       (2,022,227)    $         (50,864)   $             (133,769)
       Gross Costs With the Public                                    $        62,432,671    $       1,832,231    $             4,729,764
       (Less: Earned Revenue From the Public)                                   (921,770)               (3,339)                    (5,687)
       Net Costs With the Public                                      $        61,510,901    $       1,828,892    $             4,724,077
       Total Net Cost                                                 $        59,488,674    $       1,778,028    $             4,590,308
C.¬Procurement
       Intragovernmental Gross Costs                                  $          969,985     $               0    $                     0
       (Less: Intragovernmental Earned Revenue)                                (927,288)                     0                          0
       Intragovernmental Net Costs                                    $            42,697    $               0    $                     0
       Gross Costs With the Public                                    $       10,210,123     $               0    $                     0
       (Less: Earned Revenue From the Public)                                    (49,382)                    0                          0
       Net Costs With the Public                                      $       10,160,741     $               0    $                     0
       Total Net Cost                                                 $       10,203,438     $               0    $                     0
D.¬Research,¬Development,¬Test¬&¬Evaluation
        Intragovernmental Gross Costs                                 $         3,077,434    $               0    $                     0
        (Less: Intragovernmental Earned Revenue)                              (3,411,852)                    0                          0
        Intragovernmental Net Costs                                   $         (334,418)    $               0    $                     0
        Gross Costs With the Public                                   $       10,373,745     $               0    $                     0
        (Less: Earned Revenue From the Public)                                  (127,135)                    0                          0
        Net Costs With the Public                                     $       10,246,610     $               0    $                     0
        Total Net Cost                                                $         9,912,192    $               0    $                     0
E.¬Military¬Construction/Family¬Housing
        Intragovernmental Gross Costs                                 $         3,655,992    $           1,804    $                     0
        (Less: Intragovernmental Earned Revenue)                              (3,725,421)                    0                          0
        Intragovernmental Net Costs                                   $           (69,429)   $           1,804    $                     0
        Gross Costs With the Public                                   $           493,506    $          13,824    $               427,008
        (Less: Earned Revenue From the Public)                                  (138,852)                    0                          0
        Net Costs With the Public                                     $           354,654    $          13,824    $               427,008
        Total Net Cost                                                $           285,225    $          15,628    $               427,008




104 General Fund | Principal Financial Statements, Notes, and Supplementary Information
    Combined Total         Eliminations       2005 Consolidated         2004 Consolidated



$             (746)    $             0    $               (746)     $           8,816,058
          (133,269)                  0                (133,269)                 (371,996)
$         (134,015)    $             0    $           (134,015)     $           8,444,062
$        53,306,971    $             0    $          53,306,971     $          38,206,501
              (467)                  0                    (467)                    18,804
$        53,306,504    $             0    $          53,306,504     $          38,225,305
$        53,172,489    $             0    $          53,172,489     $          46,669,367

$         8,870,184    $             0    $            8,870,184    $            8,721,639
       (11,077,044)                  0              (11,077,044)              (10,871,264)
$       (2,206,860)    $             0    $          (2,206,860)    $          (2,149,625)
$        68,994,666    $             0    $           68,994,666    $           62,739,839
          (930,796)                  0                 (930,796)                 (832,216)
$        68,063,870    $             0    $           68,063,870    $           61,907,623
$        65,857,010    $             0    $           65,857,010    $           59,757,998

$           969,985    $             0    $             969,985     $             826,430
          (927,288)                  0                (927,288)                 (778,486)
$             42,697   $             0    $               42,697    $               47,944
$        10,210,123    $             0    $          10,210,123     $          17,237,458
            (49,382)                 0                  (49,382)                  (64,604)
$        10,160,741    $             0    $          10,160,741     $          17,172,854
$        10,203,438    $             0    $          10,203,438     $          17,220,798

$         3,077,434    $             0    $            3,077,434    $            2,588,330
        (3,411,852)                  0               (3,411,852)               (2,703,026)
$         (334,418)    $             0    $            (334,418)    $            (114,696)
$       10,373,745     $             0    $          10,373,745     $            8,684,468
          (127,135)                  0                 (127,135)                 (123,475)
$       10,246,610     $             0    $          10,246,610     $            8,560,993
$         9,912,192    $             0    $            9,912,192    $            8,446,297

$         3,657,796    $             0    $            3,657,796    $            2,340,929
        (3,725,421)                  0               (3,725,421)               (3,267,676)
$           (67,625)   $             0    $              (67,625)   $            (926,747)
$           934,338    $             0    $              934,338    $            1,956,026
          (138,852)                  0                 (138,852)                 (144,173)
$           795,486    $             0    $              795,486    $            1,811,853
$           727,861    $             0    $              727,861    $              885,106




                                                                                       FY 2005 Army Annual Financial Statement 105
Department of Defense - Department of the Army
CONSOLIDATING STATEMENT OF NET COST
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                            Active Army         Army Reserve         Army National Guard
F.¬Other
      Intragovernmental Gross Costs                                   $           61,873    $               0    $                     0
      (Less: Intragovernmental Earned Revenue)                                    (9,060)                   0                          0
      Intragovernmental Net Costs                                     $           52,813    $               0    $                     0
      Gross Costs With the Public                                     $        6,662,016    $               0    $                     0
      (Less: Earned Revenue From the Public)                                      (2,655)                   0                          0
      Net Costs With the Public                                       $        6,659,361    $               0    $                     0
      Total Net Cost                                                  $        6,712,174    $               0    $                     0

G.¬Total¬Program¬Costs
      Intragovernmental Gross Costs                                   $        16,603,257   $           11,890   $                 21,379
      (Less: Intragovernmental Earned Revenue)                               (19,053,552)             (79,420)                 (150,962)
      Intragovernmental Net Costs                                     $       (2,450,295)   $         (67,530)   $             (129,583)
      Gross Costs With the Public                                     $      133,500,360    $       5,524,885    $            11,456,614
      (Less: Earned Revenue From the Public)                                  (1,232,285)              (2,719)                   (14,283)
      Net Costs With the Public                                       $      132,268,075    $       5,522,166    $            11,442,331
      Total Net Cost                                                  $      129,817,780    $       5,454,636    $            11,312,748
¬¬¬Cost¬Not¬Assigned¬to¬Programs                                      $                 0   $                0   $                      0
¬¬¬(Less:Earned¬Revenue¬Not¬Attributable¬to¬Programs)                                   0                    0                          0
¬¬¬Net¬Cost¬of¬Operations                                             $      129,817,780    $       5,454,636    $            11,312,748




106 General Fund | Principal Financial Statements, Notes, and Supplementary Information
    Component Level         Combined Total         Eliminations       2005 Consolidated         2004 Consolidated


$          23,350,794   $        23,412,667    $             0    $           23,412,667    $           12,166,754
           10,792,774            10,783,714                  0                10,783,714                10,604,070
$          34,143,568   $        34,196,381    $             0    $           34,196,381    $           22,770,824
$        (34,302,547)   $      (27,640,531)    $             0    $         (27,640,531)    $         (19,962,477)
                    0                (2,655)                 0                    (2,655)                   (6,391)
$        (34,302,547)   $      (27,643,186)    $             0    $         (27,643,186)    $         (19,968,868)
$           (158,979)   $         6,553,195    $             0    $            6,553,195    $            2,801,956



$          23,350,794   $        39,987,320    $             0    $          39,987,320     $          35,460,140
           10,792,774            (8,491,160)                 0               (8,491,160)               (7,388,378)
$          34,143,568   $        31,496,160    $             0    $          31,496,160     $          28,071,762
$        (34,302,547)   $       116,179,312    $             0    $         116,179,312     $         108,861,815
                    0            (1,249,287)                 0               (1,249,287)               (1,152,055)
$        (34,302,547)   $       114,930,025    $             0    $         114,930,025     $         107,709,760
$           (158,979)   $       146,426,185    $             0    $         146,426,185     $         135,781,522
$                   0   $                  0   $             0    $                    0    $                    0
                    0                      0                 0                         0                         0
$           (158,979)   $       146,426,185    $             0    $         146,426,185     $         135,781,522




                                                                                      FY 2005 Army Annual Financial Statement 107
Department of Defense - Department of the Army
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                         Active Army       Army Reserve       Army National Guard
CUMULATIVE¬RESULTS¬OF¬OPERATIONS
   Beginning¬Balances                                             $       107,622,334 $        1,338,565 $                247,102
   Prior Period Adjustments¬(+/-)
        Changes in Accounting Principles (+/-)                                      0                  0                        0
        Correction of Errors (+/-)                                                  0                  0                        0
   Beginning¬Balances,¬as¬adjusted                                $       107,622,334 $        1,338,565 $                247,102
   Budgetary¬Financing¬Sources:
        Appropriations received                                                     0                  0                        0
        Appropriations transferred-in/out (+/-)                                     0                  0                        0
        Other adjustments (rescissions, etc) (+/-)                                  0                  0                        0
        Appropriations used                                               133,021,007          5,605,817               11,580,888
        Nonexchange revenue                                                     9,331                  0                        0
        Donations and forfeitures of cash and cash equivalents                  5,609                  0                        0
        Transfers-in/out without reimbursement (+/-)                        3,721,535                  0                        0
        Other budgetary financing sources (+/-)                                 2,141                  0                        0
   Other¬Financing¬Sources:
        Donations and forfeitures of property                                        0                  0                       0
        Transfers-in/out without reimbursement (+/-)                           456,293                  0                       0
        Imputed financing from costs absorbed by others                      1,092,805                  0                       0
        Other (+/-)                                                        (2,538,572)         (171,969)                (165,099)
   Total¬Financing¬Sources                                        $       135,770,149 $        5,433,848 $             11,415,789
   Net¬Cost¬of¬Operations¬(+/-)                                           129,817,780          5,454,636               11,312,748
   Net¬Change                                                     $          5,952,369 $         (20,788) $               103,041
   Ending¬Balance                                                 $       113,574,703 $        1,317,777 $                350,143

UNEXPENDED¬APPROPRIATIONS
¬¬¬¬Beginning¬Balances                                            $        69,762,599 $          761,566 $              1,996,609
¬¬¬¬Prior¬period¬adjustments¬(+/-)
        Changes in Accounting Principles (+/-)                                      0                  0                        0
        Correction of Errors (+/-)                                                  0                  0                        0
¬¬¬¬Beginning¬Balances,¬as¬adjusted                               $        69,762,599 $          761,566 $              1,996,609
¬¬¬¬Budgetary¬Financing¬Sources:
        Appropriations received                                            132,583,149          5,823,476               11,425,313
        Appropriations transferred-in/out (+/-)                              2,512,119            (54,903)                 103,543
        Other adjustments (rescissions, etc) (+/-)                           (732,165)            (43,320)               (102,038)
        Appropriations used                                              (133,021,006)        (5,605,817)             (11,580,888)
        Nonexchange revenue                                                          0                   0                       0
        Donations and forfeitures of cash and cash equivalents                       0                   0                       0
       Transfers-in/out without reimbursement (+/-)                                  0                   0                       0
       Other budgetary financing sources (+/-)                                       0                   0                       0
¬¬¬¬Other¬Financing¬Sources:
        Donations and forfeitures of property                                       0                  0                        0
        Transfers-in/out without reimbursement (+/-)                                0                  0                        0
        Imputed financing from costs absorbed by others                             0                  0                        0
        Other (+/-)                                                                 0                  0                        0
    Total¬Financing¬Sources                                       $         1,342,097 $          119,436 $              (154,070)
    Net¬Cost¬of¬Operations¬(+/-)                                                    0                 0                        0
    Net¬Change                                                    $         1,342,097 $          119,436 $              (154,070)
    Ending¬Balance                                                $        71,104,696 $          881,002 $              1,842,539



108 General Fund | Principal Financial Statements, Notes, and Supplementary Information
    Component Level      Combined Total       Eliminations     2005 Consolidated       2004 Consolidated


$                 0 $        109,208,001 $              0 $          109,208,001 $            100,631,646

                  0                    0                0                      0                        0
                  0                    0                0                      0                        0
$                 0 $        109,208,001 $              0 $          109,208,001 $            100,631,646

                   0                   0                0                      0                        0
                   0                   0                0                      0                        0
                   0                   0                0                      0                        0
           (158,979)         150,048,733                0            150,048,733              127,335,115
                   0               9,331                0                  9,331                    5,143
                   0               5,609                0                  5,609                    4,663
                   0           3,721,535                0              3,721,535               13,189,641
                   0               2,141                0                  2,141                2,540,445

                   0                    0               0                       0                       0
              71,778              528,071               0                 528,071                 400,794
                   0            1,092,805               0               1,092,805                 882,077
            (71,778)          (2,947,418)               0             (2,947,418)                       0
$          (158,979) $       152,460,807 $              0 $          152,460,807 $            144,357,878
           (158,979)         146,426,185                0            146,426,185              135,781,522
$                  0 $          6,034,622 $             0 $             6,034,622 $             8,576,356
$                  0 $       115,242,623 $              0 $          115,242,623 $            109,208,002



$           717,530 $         73,238,304 $              0 $           73,238,304 $             47,674,714

                  0                    0                0                      0                        0
                  0                    0                0                      0                        0
$           717,530 $         73,238,304 $              0 $           73,238,304 $             47,674,714

                  0           149,831,938               0             149,831,938              149,547,719
                  0             2,560,759               0               2,560,759                 4,745,349
                  0             (877,523)               0               (877,523)               (1,394,364)
            158,978         (150,048,733)               0           (150,048,733)            (127,335,114)
                  0                     0               0                       0                         0
                  0                     0               0                       0                         0
                  0                     0               0                       0                         0
                  0                     0               0                       0                         0

                  0                    0                 0                     0                        0
                  0                    0                 0                     0                        0
                  0                    0                 0                     0                        0
                  0                    0                 0                     0                        0
$           158,978 $          1,466,441 $               0 $           1,466,441 $             25,563,590
                 0                    0                 0                     0                        0
$           158,978 $          1,466,441 $               0 $           1,466,441 $             25,563,590
$           876,508 $         74,704,745 $               0 $          74,704,745 $             73,238,304



                                                                                    FY 2005 Army Annual Financial Statement 109
Department of Defense - Department of the Army
COMBINING STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                      Active Army         Army Reserve       Army National Guard
Budgetary Financing Accounts
BUDGETARY¬RESOURCES
   Budget Authority:
       Appropriations received                                  $      132,598,127 $          5,823,476 $             11,425,313
       Borrowing authority                                                       0                    0                        0
       Contract authority                                                        0                    0                        0
       Net transfers (+/-)                                                 737,956                5,792                  302,824
       Other                                                                     0                    0                        0
   Unobligated balance:
       Beginning of period                                              22,015,477             185,127                    680,153
       Net transfers, actual (+/-)                                       2,629,163             (60,695)                 (199,281)
         Anticipated Transfers Balances                                          0                    0                         0
   Spending authority from offsetting collections:
       Earned                                                                    0                     0                        0
         Collected                                                      20,660,481                78,351                 209,406
         Receivable from Federal sources                                 (374,726)                 3,789                 (44,162)
       Change in unfilled customer orders                                        0                     0                        0
         Advance received                                                   78,015                 (301)                       19
         Without advance from Federal sources                            2,155,926                 6,572                  (2,559)
       Anticipated for the rest of year, without advances                        0                     0                        0
       Previously unavailable                                                    0                     0                        0
       Transfers for trust funds                                                 0                     0                        0
       Subtotal                                                 $       22,519,696 $              88,411 $               162,704
   Recoveries of prior year obligations                                 14,784,600              722,876                1,525,971
   Temporarily not available pursuant to Public Law                              0                     0                        0
   Permanently not available                                             (732,165)              (43,320)               (102,038)
¬ ¬ Total¬Budgetary¬Resources                                   $      194,552,854 $          6,721,667 $             13,795,646

STATUS¬OF¬BUDGETARY¬RESOURCES
  Obligations incurred:
       Direct                                                   $      155,608,378 $          6,434,921 $             13,042,916
       Reimbursable                                                     24,184,351               97,240                  225,069
       Subtotal                                                 $      179,792,729 $          6,532,161 $             13,267,985
  Unobligated balance:
       Apportioned                                                      13,461,059               21,928                  182,465
       Exempt from apportionment                                            11,980                    0                        0
       Other available                                                           1                    1                        0
   Unobligated Balances Not Available                                    1,287,085              167,577                  345,196
¬¬¬Total,¬Status¬of¬Budgetary¬Resources                         $      194,552,854 $          6,721,667 $             13,795,646
Relationship¬of¬Obligations¬to¬Outlays:
   Obligated Balance, Net - beginning of period                 $       52,852,406 $          1,419,081 $              2,750,912
  Obligated Balance transferred, net (+/-)                                       0                    0                        0
  Obligated Balance, Net - end of period:
       Accounts receivable                                              (1,435,542)            (19,534)                  (23,273)
       Unfilled customer order from Federal sources                    (14,835,779)            (32,652)                   (4,678)
       Undelivered orders                                                64,893,024            706,276                 1,206,084
       Accounts payable                                                  11,579,523            437,665                 1,898,308
  Outlays:
       Disbursements                                                   155,878,110            6,126,250               11,463,206
       Collections                                                     (20,738,496)             (78,050)               (209,425)
       Subtotal                                                 $      135,139,614 $          6,048,200 $             11,253,781
  Less: Offsetting receipts                                               (195,234)                    0                       0
¬ Net¬Outlays                                                   $      134,944,380 $          6,048,200 $             11,253,781



110 General Fund | Principal Financial Statements, Notes, and Supplementary Information
    Component Level     2005 Combined      2004 Combined




$                 0 $      149,846,916 $      149,559,892
                  0                  0                  0
                  0                  0                  0
                  0          1,046,572          2,517,085
                  0                  0                  0

                  0         22,880,757          8,212,989
                  0          2,369,187          4,698,264
                  0                  0                  0

                  0                  0                   0
                  0         20,948,238         18,739,994
                  0          (415,099)             412,742
                  0                  0                   0
                  0             77,733             306,576
                  0          2,159,939           1,896,851
                  0                  0                   0
                  0                  0                   0
                  0                  0                   0
$                 0 $       22,770,811 $       21,356,163
                  0         17,033,447         13,996,679
                  0                  0                   0
                  0          (877,523)         (1,394,364)
$                 0 $      215,070,167 $      198,946,708




$                 0 $      175,086,215 $      152,590,936
                  0         24,506,660         23,475,016
$                 0 $      199,592,875 $      176,065,952

                  0         13,665,452         21,458,641
                  0             11,980             13,411
                  0                  2                  0
                  0          1,799,858          1,408,704
$                 0 $      215,070,167 $      198,946,708

$                 0 $       57,022,399 $       46,482,855
                  0                  0                  0

                   0        (1,478,349)        (1,893,446)
                   0       (14,873,109)       (12,713,171)
            (33,121)         66,772,263         56,509,574
              33,121         13,948,617         15,119,442

                  0        173,467,566        149,220,137
                  0        (21,025,971)       (19,046,568)
$                 0 $      152,441,595 $      130,173,569
                  0           (195,234)           (63,289)
$                 0 $      152,246,361 $      130,110,280




                                                             FY 2005 Army Annual Financial Statement 111
Department of Defense - Department of the Army
COMBINING STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                      Active Army         Army Reserve     Army National Guard
Non-Budgetary Financing Accounts
BUDGETARY¬RESOURCES
   Budget Authority:
      Appropriations received                                   $                0 $                 0 $                    0
      Borrowing authority                                                        0                   0                      0
      Contract authority                                                         0                   0                      0
      Net transfers (+/-)                                                        0                   0                      0
      Other                                                                      0                   0                      0
   Unobligated balance:
      Beginning of period                                                    1,424                   0                      0
      Net transfers, actual (+/-)                                                0                   0                      0
        Anticipated Transfers Balances                                           0                   0                      0
   Spending authority from offsetting collections:
      Earned                                                                     0                   0                      0
        Collected                                                              101                   0                      0
        Receivable from Federal sources                                          0                   0                      0
      Change in unfilled customer orders                                         0                   0                      0
        Advance received                                                         0                   0                      0
        Without advance from Federal sources                                     0                   0                      0
      Anticipated for the rest of year, without advances                         0                   0                      0
      Previously unavailable                                                     0                   0                      0
      Transfers for trust funds                                                  0                   0                      0
      Subtotal                                                  $              101 $                 0 $                    0
   Recoveries of prior year obligations                                          0                   0                      0
   Temporarily not available pursuant to Public Law                              0                   0                      0
   Permanently not available                                                     0                   0                      0
¬¬¬Total¬Budgetary¬Resources                                    $            1,525 $                 0 $                    0

STATUS¬OF¬BUDGETARY¬RESOURCES
   Obligations incurred:
       Direct                                                   $                0 $                 0 $                    0
       Reimbursable                                                              0                   0                      0
       Subtotal                                                 $                0 $                 0 $                    0
   Unobligated balance:
       Apportioned                                                           1,525                   0                      0
       Exempt from apportionment                                                 0                   0                      0
       Other available                                                           0                   0                      0
   Unobligated Balances Not Available                                            0                   0                      0
¬¬¬Total,¬Status¬of¬Budgetary¬Resources                         $            1,525 $                 0 $                    0
Relationship¬of¬Obligations¬to¬Outlays:
   Obligated Balance, Net - beginning of period                 $                0 $                 0 $                    0
   Obligated Balance transferred, net (+/-)                                      0                   0                      0
   Obligated Balance, Net - end of period:
       Accounts receivable                                                       0                   0                      0
       Unfilled customer order from Federal sources                              0                   0                      0
       Undelivered orders                                                        0                   0                      0
       Accounts payable                                                          0                   0                      0
   Outlays:
       Disbursements                                                             0                   0                      0
       Collections                                                           (101)                   0                      0
       Subtotal                                                 $            (101) $                 0 $                    0
   Less: Offsetting receipts                                                     0                   0                      0
¬¬¬Net¬Outlays                                                  $            (101) $                 0 $                    0



112 General Fund | Principal Financial Statements, Notes, and Supplementary Information
    Component Level     2005 Combined      2004 Combined




$                 0 $               0 $                0
                  0                 0                  0
                  0                 0                  0
                  0                 0                  0
                  0                 0                  0

                  0             1,424              1,272
                  0                 0                  0
                  0                 0                  0

                  0                 0                  0
                  0               101                152
                  0                 0                  0
                  0                 0                  0
                  0                 0                  0
                  0                 0                  0
                  0                 0                  0
                  0                 0                  0
                  0                 0                  0
$                 0 $             101 $              152
                  0                 0                  0
                  0                 0                  0
                  0                 0                  0
$                 0 $           1,525 $            1,424




$                 0 $               0 $                0
                  0                 0                  0
$                 0 $               0 $                0

                  0             1,525              1,424
                  0                 0                  0
                  0                 0                  0
                  0                 0                  0
$                 0 $           1,525 $            1,424

$                 0 $               0 $                0
                  0                 0                  0

                  0                 0                  0
                  0                 0                  0
                  0                 0                  0
                  0                 0                  0

                  0                  0                  0
                  0              (101)              (152)
$                 0 $            (101) $            (152)
                  0                  0                  0
$                 0 $            (101) $            (152)




                                                            FY 2005 Army Annual Financial Statement 113
Department of Defense - Department of the Army
CONSOLIDATING STATEMENT OF FINANCING
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                                                 Active Army       Army Reserve
Resources¬Used¬to¬Finance¬Activities:
Budgetary Resources Obligated
 Obligations incurred                                                                        $   179,792,729 $         6,532,161
 Less: Spending authority from offsetting collections                                            (37,304,397)          (811,287)
 and recoveries (-)
 Obligations net of offsetting collections and recoveries                                    $    142,488,332 $        5,720,874
 Less: Offsetting receipts (-)                                                                      (195,234)                  0
 Net obligations                                                                             $    142,293,098 $        5,720,874
Other Resources
 Donations and forfeitures of property                                                                       0                 0
 Transfers in/out without reimbursement (+/-)                                                          456,293                 0
 Imputed financing from costs absorbed by others                                                     1,092,805                 0
 Other (+/-)                                                                                       (2,538,572)         (171,969)
 Net other resources used to finance activities                                              $       (989,474) $       (171,969)
Total¬resources¬used¬to¬finance¬activities                                                   $    141,303,624 $        5,548,905

Resources¬Used¬to¬Finance¬Items¬not¬Part of¬the¬Net¬Cost¬of¬Operations
 Change in budgetary resources obligated for goods,
 services and benefits ordered but not yet provided
       Undelivered Orders (-)                                                                $   (10,668,692) $        (121,479)
       Unfilled Customer Orders                                                                     2,233,941              6,271
 Resources that fund expenses recognized in prior periods                                         (1,276,787)            (3,123)
 Budgetary offsetting collections and receipts that do not affect net cost of operations              195,334                  0
 Resources that finance the acquisition of assets                                                (26,103,979)          (336,314)
 Other resources or adjustments to net obligated resources
 that do not affect net cost of operations
       Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-)                  0                  0
       Other (+/-)                                                                                  2,082,280            171,968
Total¬resources¬used¬to¬finance¬items¬not part¬of¬the¬net¬cost¬of¬operations                 $   (33,537,903) $        (282,677)
Total¬resources¬used¬to¬finance¬the¬net¬cost¬of operations                                   $   107,765,721 $         5,266,228

Components¬of¬the¬Net¬Cost¬of¬Operations¬that¬will
not¬Require¬or¬Generate¬Resources¬in¬the¬Current¬Period:
Components Requiring or Generating Resources in Future Period:
 Increase in annual leave liability                                                          $        81,190 $            5,901
 Increase in environmental and disposal liability                                                          0                  0
 Upward/Downward reestimates of credit subsidy expense (+/-)                                               0                  0
 Increase in exchange revenue receivable from the the public (-)                                           0                  0
 Other (+/-)                                                                                          52,127                454
 Total components of Net Cost of Operations that                                             $       133,317 $            6,355
 will require or generate resources in future periods
Components not Requiring or Generating Resources:
 Depreciation and amortization                                                                     16,747,389           181,309
 Revaluation of assets or liabilities (+/-)                                                                 0                 0
 Other (+/-)
       Trust Fund Exchange Revenue                                                                        (82)                0
       Cost of Goods Sold                                                                                    0                0
       Operating Material & Supplies Used                                                                    0                0
       Other                                                                                        5,171,436               743
 Total components of Net Cost of Operations that will not require or generate resources      $     21,918,743 $         182,052
Total¬components¬of¬net¬cost¬of¬operations¬that
will¬not¬require¬or¬generate¬resources¬in¬the¬current period                                 $     22,052,060 $          188,407
Net¬Cost¬of¬Operations                                                                       $    129,817,781 $        5,454,635



114 General Fund | Principal Financial Statements, Notes, and Supplementary Information
    Army National Guard      Component Level      2005 Consolidated       2004 Consolidated



$            13,267,985 $                  0 $          199,592,875 $           176,065,951
             (1,688,675)                   0            (39,804,359)            (35,352,991)

$            11,579,310 $                  0 $           159,788,516 $           140,712,960
                      0                    0               (195,234)                 (63,289)
$            11,579,310 $                  0 $           159,593,282 $           140,649,671

                      0                     0                       0                      0
                      0                71,778                 528,071                400,794
                      0                     0               1,092,805                882,077
              (165,099)              (71,778)             (2,947,418)                      0
$             (165,099) $                   0 $           (1,326,542) $            1,282,871
$            11,414,211 $                   0 $          158,266,740 $           141,932,542




$                  6,245 $          (158,979) $         (10,942,905) $          (12,185,137)
                 (2,540)                    0              2,237,672               2,203,425
                 (2,427)                    0            (1,282,337)               (870,785)
                       0                    0                195,334                  63,441
               (312,198)                    0           (26,752,491)             (9,901,005)


                      0                     0                      0                       0
                165,098                     0              2,419,346               (400,794)
$             (145,822) $           (158,979) $         (34,125,381) $          (21,090,855)
$            11,268,389 $           (158,979) $         124,141,359 $           120,841,687




$                 4,564 $                  0 $               91,655 $                 95,284
                      0                    0                      0                3,103,711
                      0                    0                      0                   10,869
                      0                    0                      0                        0
                  2,327                    0                 54,908                   63,634
$                 6,891 $                  0 $              146,563 $              3,273,498


                 36,376                    0              16,965,074               9,815,563
                  1,074                    0                   1,074                 515,037

                      0                    0                     (82)                    (36)
                      0                    0                        0                       0
                      0                    0                        0                       0
                     18                    0               5,172,197               1,335,773
$                37,468 $                  0 $            22,138,263 $            11,666,337

$                44,359 $                   0 $           22,284,826 $            14,939,835
$            11,312,748 $           (158,979) $          146,426,185 $           135,781,522



                                                                                  FY 2005 Army Annual Financial Statement 115
Department of Defense - Department of the Army
COMBINING STATEMENT OF CUSTODIAL ACTIVITY
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                      Active Army          Army Reserve      Army National Guard
SOURCE¬OF¬COLLECTIONS
    Deposits by Foreign Governments                           $            136,000 $                  0 $                      0
    Seized Iraqi Cash                                                            1                    0                        0
    Other Collections                                                            0                    0                        0
    Total Cash Collections                                                 136,001                    0                        0
    Accrual Adjustments (+/-)                                                    0                    0                        0
    Total Custodial Collections                               $            136,001 $                  0 $                      0
DISPOSITION¬OF¬COLLECTIONS
    Disbursed on Behalf of Foreign Governments and            $             82,613 $                  0 $                      0
    International Organizations
    Seized Assets Disbursed on behalf of Iraqi People                        52,061                   0                        0
    Increase (Decrease) in Amounts to be Transferred                         53,387                   0                        0
    Collections Used for Refunds and Other Payments                               0                   0                        0
    Retained by The Reporting Entity                                              0                   0                        0
    Seized Assets Retained for Support of the Iraqi People                 (52,060)                   0                        0
    Total Disposition of Collections                          $            136,001 $                  0 $                      0
NET¬CUSTODIAL¬COLLECTION¬ACTIVITY                             $                   0 $                 0 $                      0




                                                                  Component Level         2005 Combined          2004 Combined
SOURCE¬OF¬COLLECTIONS
    Deposits by Foreign Governments                           $                  0 $             136,000 $                     0
    Seized Iraqi Cash                                                            0                     1                 118,349
    Other Collections                                                            0                     0                       0
    Total Cash Collections                                                       0               136,001                 118,349
    Accrual Adjustments (+/-)                                                    0                     0                       0
    Total Custodial Collections                               $                  0 $             136,001 $               118,349
DISPOSITION¬OF¬COLLECTIONS
    Disbursed on Behalf of Foreign Governments and            $                  0 $              82,613 $                     0
    International Organizations
    Seized Assets Disbursed on behalf of Iraqi People                            0                52,061                  283,058
    Increase (Decrease) in Amounts to be Transferred                             0                53,387                        0
    Collections Used for Refunds and Other Payments                              0                     0                        0
    Retained by The Reporting Entity                                             0                     0                        0
    Seized Assets Retained for Support of the Iraqi People                       0              (52,060)                (164,709)
    Total Disposition of Collections                          $                  0 $            136,001 $                 118,349
NET¬CUSTODIAL¬COLLECTION¬ACTIVITY                             $                  0 $                   0 $                      0




116 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Department of the Army
FY 2005 Required Supplementary Stewardship Information (RSSI)
National Defense Property, Plant, and Equipment
The Federal Accounting Standards Advisory Board (FASAB) revised the Statement of Federal Financial Accounting
Standards No. 6 to require the capitalization and depreciation of military equipment (formerly National Defense
Property, Plant and Equipment/ND PP&E) for ﬁscal years (FY) 2003 and beyond, and encouraged early
implementation.


                                                             Heritage Assets
                                                      For Fiscal Year Ended September 30, 2005

                             (a)                      (b)                  (c)                   (d)              (e)           (f)
                                                 Measurement /           As of                                                 As of
                                                   Quantity             10/1/04             Additions          Deletions      9/30/05
               Museums (Note 2)                      Each                         60                      0              0             60
               Monuments and Memorials               Each                     1,411                      38             209      1,240
               (Note 3)
               Cemeteries (Note 4)                   Sites                       523                     61             118           466
               Archeological Sites (Note 6)          Sites                         0               68,280                0      68,280
               Buildings & Structures (Note 1)       Each                   10,019                     1,404       1,357        10,066
               Major Collections (Note 5)            Each                          6                     84              0             90


Narrative Statement:
In most cases, the additions/deletions are the result of sites/installations: (a) identifying cemeteries and historical
facilities; (b) disposing of BRAC Closure property or excess installations; and (c) privatization/RCI program. BRAC
Mission Closure installations/sites are included in this report.


Notes:
1. Historical Buildings and Structures: buildings and structures designated as historical exclude museums,
    monuments, and memorials. The number of Buildings and Structures increased as a result of the following
    initiatives:
         Installations conducting real property surveys and making adjustments according to their ﬁndings
         Active installations now reporting previously omitted National Guard Bureau buildings and structures
         designated as heritage assets
         Both National Guard and Reserve are now reporting new buildings and structures designated as heritage
         assets
2. Museums: The Army Museum System consists of 60 museums and museum activities in the active Army and
   Army Reserve. There are a relatively small number of federally owned artifacts in National Guard Museum
   activities, which are primarily state entities. In addition, there is historical property displayed in numerous
   regimental rooms, trophy rooms, ofﬁcer’s clubs, visitor’s centers, chapels, and headquarters building elements
   that are not individually recognized by the Department of the Army as museums or museum activities. Solely
   for reporting purposes, we have consolidated all of these separate and smaller collections during this reporting
   period.
    Army had previously reported 117 museums as of 9/30/2004. There are 57 museum activities or other
    collections located on National Guard property that contain primarily State owned artifacts, and whose
    employees and operations are funded by their States. As a result, these 57 museum activities have been
    removed from the Army’s Heritage Asset report.



                                                                                                           FY 2005 Army Annual Financial Statement 117
3. Memorial/Monuments: includes category code 76020 (monuments).
4. Cemeteries: includes category code 76030 (cemetery), 76031 (National Cemetery), 76032 (Veterans Cemetery),
   and excludes 76033 (Pet Cemeteries).
5. Major Collections: The US Army Tank automotive & Armaments Life Cycle Management Command (TACOM
   LCMC) reports two (2) major collections under the Army Donations Program consisting of Ceremonial Riﬂes
   and Monuments/Static Displays. The Ceremonial Riﬂe collection consists of approximately 300,000 weapons
   in the hands of over 23,000 veterans’ organizations, law enforcement agencies and National cemeteries. This
   collection is in good condition with 95% accountability of serial number tracking. The Monuments/Static
   Display collection consists of approximately 4760 major end items which are in good condition with 100%
   accountability.
     Major collections also includes 84 archeological collections identiﬁed at individual Army installations. The
     Army is including Archeological Collections in the number of Major Collections for the ﬁrst time. These
     collections are managed in accordance with Federal Regulations and are kept in perpetuity. Some collections
     are accessible to the public but not all items within an Archeological Collection are accessible to the public
     due to Federal regulations such as the Native American Graves Protection and Repatriation Act (1990). Each
     installation maintaining an archeological collection is considered to have only one collection per installation
     regardless of whether the collection is divided among different facilities or locations. The collections are the
     responsibility of the Army but may be in the care of a contractor, a public institution or other entity.
     The condition of the Army’s Archeological Collections is good. Only 15% of the Army’s existing archeological
     collections need upgrading of either curatorial facilities, accessioning, packaging and/or conservation to meet
     Federal requirements under 36 CFR 79.
6. Archeological collections: The Army counted all sites recorded on Army owned/controlled Federal land that
   are known to exist but may or may not have been evaluated to determine if they are historically signiﬁcant and
   eligibility for the National Register of Historic Places. This number was omitted from previous Army annual
   reports. This number was calculated as of 30 June 2005.
     The Army is reporting Archeological Sites for the ﬁrst time in the Annual Financial Statement. The number is
     inclusive of all sites recorded on Army owned Federal land that are known to exist but may or may not have
     been evaluated to determine eligibility for the National Register of Historic Places. This number was omitted
     from previous Army annual reports. This number was calculated as of 30 June 2005. In future years the number
     will also be counted as of 30 June CY until such time as the Army has in place a automated system that can
     calculate the number of sites as of the end of the Financial Year. Next year the Army intends to separate out
     the number of archeological sites that are on or eligible to be on the National Register of Historic Places from
     the total number of recorded archeological sites and will report them separately. The Army does not generally
     acquire or remove new archeological sites annually but instead identiﬁes new sites on existing Army land
     or evaluates existing sites during the course of the ﬁnancial year. New land acquisitions that include new
     archeological sites will be speciﬁcally noted in future calendar year “additions”.
     The condition of archeological sites across the Army range varies depending on factors including the
     environmental setting, the type of the site, and past impacts from Army activities. If an Army activity has
     the potential to adversely impact an archeological site eligible for the National Register of Historic Places,
     the installation’s Installation Cultural Resource Management Plan (ICRMP) contains provisions for how the
     installation would proceed to mitigate those impacts. ICRMPs are the plan that installations use to manage their
     cultural resources including archeological sites in compliance with federal requirements. These plans provide
     for site protection, site conditions monitoring, and mitigation procedures for adverse impacts to sites. Overall,
     the conditions of sites on Army installations are variable based on the Army’s cultural resource management
     procedures.




118 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Department of the Army
FY 2005 Required Supplementary Stewardship Information (RSSI)

                                                         Stewardship Land
                                                     For Fiscal Year Ended September 30, 2005
                                                                (Acres in Thousands)

                                 (a)                     (b)                     (c)               (d)               (e)
                                                    As of 10/1/04           Additions           Deletions       As of 9/30/05
                  Land Use
                  Mission (Note 1)                         6,910.0                     28.8              24.2         6,914.5
                  Parks & Historic Sites (Note 2)                .94                     .07              .08              .94
                  Total

Narrative Statement:
Additions/deletions are the result of: (a) acquiring additional land through donation or withdrawal from public
domain; (b) identiﬁcation of missing land records; and (c) disposal of BRAC Closure sites or transfer of land to
another DOD agency. BRAC Mission Closure installations/sites are included in this report


Notes:
1. Mission Land: includes the following category codes: 91120, 91131, 91141, 91210, 91310, 91320, 91330, 91410,
    92111, 92121, 92131, 92190. These category codes represent land that was not purchased, but was either donated
    or withdrawn from public domain.
2. Parks/Historic Sites: Same as Cemetery Acreage on Heritage Report (includes category codes 76030, 76031,
   and 76032; excludes Pet Cemeteries). Unable to determine if cemeteries are purchased, donated or transferred
   property. This value could be double reported within Mission Related; therefore; this report should not be
   totaled.




                                                                                                     FY 2005 Army Annual Financial Statement 119
Department of the Army
FY 2005 Required Supplementary Stewardship Information (RSSI)

                                                   Nonfederal Physical Property
                                        Yearly Investment in State and Local Governments
                                                          For Fiscal Years FY 2001 through FY 2005
                                                                     (In Millions of Dollars)

                                        (a)                          (b)              (c)              (d)         (e)         (f)
                                   Categories                    FY 2001          FY 2002            FY 2003     FY 2004     FY 2005
                       Transferred Assets:
                       National Defense Mission Related               $94.8             $7.4           $85.0       $54.7       $70.7
                       Funded Assets:
                       National Defense Mission Related                     0               0                0           0           0
                       Total                                          $94.8             $7.4           $85.0       $54.7       $70.7


Narrative Statement:
Investments in Nonfederal Physical Property refers to those expenses incurred by the Army for the purchase,
construction, or major renovation of physical property owned by State and Local Governments, including major
additions, alterations and replacements; the purchase of major equipment; and the purchase of improvement of
other physical assets. The following is a schedule of estimated investments value of state-owned properties that are
used by the Federal Government.


Notes:
1. Investment values included in this report are based on Nonfederal Physical Property outlays (expenditures).
    Outlays are used because current DoD systems are unable to capture and summarize costs in accordance with
    the Federal Accounting Standards requirements.
2. Data provided here are signiﬁcant because these are properties that are owned by the various U.S. Property and
   Fiscal Ofﬁces and are essential in accomplishing the mission of the Army National Guard.
3. Costs of maintenance of these non-federal assets are included in the budgetary resources of Army National
   Guard.
4. These properties represent non-cash items that were transferred to State and local governments.




120 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Department of the Army
FY 2005 Required Supplementary Stewardship Information (RSSI)

                                           Investments in Research and Development
                                         Yearly Investment in Research and Development
                                                         For Fiscal Years FY 2001 through FY 2005
                                                                    (In Millions of Dollars)

                                       (a)                                       (b)                (c)         (d)        (e)        (f)
                                   Categories                                FY 2001           FY 2002        FY 2003    FY 2004    FY 2005
          Basic Research                                                         $209.2             $206.4      $226.9     $291.6     $360.0
          Applied Research                                                        806.6              864.1       847.2      886.8      995.1
          Development
                  Advanced Technology Development                                 821.9              863.1       988.6    1,010.4    1,185.8
                  Advanced Component Development and Prototypes                   622.6              897.7       880.1      767.7      830.3
                  Systems Development and Demonstration                         1,653.0             1,954.9    2,265.1    3,288.3    4,309.4
                  Research, Development, Test and Evaluation                      888.8              880.9       979.4    1.069.8    1,157.3
                  Management Support
                  Operational Systems Development                                 849.3              970.4       964.9      929.8    1,156.7
          Total                                                               $5,851.4         $6,637.5       $7,152.2   $8,244.4   $9,994.6


Narrative Statement:
Basic Research is the systematic study directed toward greater knowledge or understanding of the fundamental
aspects of phenomena and of observable facts without speciﬁc applications towards processes or products in
mind. It includes all scientiﬁc study and experimentation directed toward increasing fundamental knowledge and
understanding in those ﬁelds of the physical, engineering, environmental, and life sciences related to long-term
national security needs. It is farsighted high payoff research that provides the basis for technological progress.

The following are two representative program examples for each of the major categories:

Defense Research Sciences (PE 0601102A): This program fosters fundamental scientiﬁc knowledge while sustaining
U.S. Army scientiﬁc and technological superiority in land warﬁghting capability. This research provides new
technology concepts and operational applications for the Army’s Future Force. These investments also provide the
resources to exploit scientiﬁc breakthroughs and avoid technological surprises. This program fosters innovation
in Army niche areas and where the commercial incentive to invest is lacking due to limited markets. It also
focuses university single investigators on research in areas of Army interest. The in-house portion of the program
capitalizes on the Army’s scientiﬁc talent and specialized facilities to expeditiously transition knowledge and
technology into practical applications. The extramural program leverages the research efforts of other government
agencies, academia, and industry. This promotes efﬁciency while eliminating undesirable duplication to achieve
a well-integrated program that is executed by four primary contributors: 1) the Army Research, Development and
Engineering Command (RDECOM); 2) the U.S. Army Engineer Research and Development Center (ERDC); 3) the
Army Medical Research and Materiel Command (MRMC) laboratories; and 4) the Army Research Institute for
Behavioral and Social Sciences (ARI). The basic research program is coordinated with the other Services through
the Defense Basic Research Advisory Group, the Defense Basic Research Technology Area Review and Assessment
(TARA) process and other inter-service working groups. This program responds to the scientiﬁc and technological
requirements of the Department of Defense Basic Research Plan by enabling the technologies that can signiﬁcantly
improve joint war ﬁghting capabilities.

University and Industry Research Centers (PE 0601104A): A signiﬁcant portion of the work performed within this
program directly supports US Army requirements by providing research that supports enabling technologies for
the Future Force. Broadly, the work in this program falls into three categories: Collaborative Technology Alliances



                                                                                                              FY 2005 Army Annual Financial Statement 121
(CTAs), University Centers of Excellence (COE), and University-Afﬁliated Research Centers (UARCs). The Army
has formed CTAs to leverage large investments by the commercial sector in basic research areas that are of great
interest to the Army. Collaborative Technology Alliances involve partnerships between industry, academia, and the
Army Research Laboratory to incorporate the practicality of industry, the expansion of boundaries of knowledge
from universities, and Army scientists to shape, mature and transition technology. The Army’s COEs focus on
expanding the frontiers of knowledge in research areas where the Army has enduring needs. Centers of Excellence
couple state-of-the-art research programs at academic institutions with broad-based graduate education programs
to increase the supply of scientists and engineers in information sciences, materials science, electronics, automotive
and rotary wing technology. Additionally, Historically Black Colleges and Universities and Minority Institution
(HBCU/MI) Centers of Excellence address critical research areas for Army Transformation. Also included in this
program is eCYBERMISSION, the Army’s national web-based competition to stimulate interest in science, math
and technology among middle and high school students. This program also includes four “paradigm shifting”
research centers seeking to accelerate opportunities in speciﬁc areas of potentially high payoff. The centers are: The
Institute of Advanced Technology, the Institute for Soldier Nanotechnologies (ISN) at the Massachusetts Institute
of Technology, the Institute for Collaborative Biotechnologies, and the Army’s Institute of Creative Technologies
(ICT) -- a partnership with academia and the entertainment and gaming industries pursuing research in immersive
simulations.

Applied Research is the systematic study to understand the means to meet a recognized and speciﬁc need. It is a
systematic expansion and application of knowledge to develop useful materials, devices, systems or methods. It
may be oriented, ultimately, toward the design, development, and improvement of prototypes and new processes to
meet general mission area requirements. Applied research may translate promising basic research into solutions for
broadly deﬁned military needs, short of system development.

The following are two representative program examples for this category:

Materials Technology (PE 0602105A): This program researches and evaluates material technologies for armor
and armaments that will signiﬁcantly enhance the survivability and lethality of Future Force systems and, where
feasible, can be exploited to enhance Current Force capabilities. It provides the technology base required for solving
materials-related problems in soldier support equipment, armor, armaments, aircraft, ground and combat vehicles,
and combat support.

Combat Vehicle and Automotive Technology (PE 0602601A): This program researches, investigates and applies
combat vehicle and automotive component technologies that will improve survivability, mobility, sustainability,
and maintainability of Army ground combat and tactical vehicles. As combat vehicle systems become smaller
and lighter to provide the necessary strategic deployability and tactical mobility, one of the greatest technological
and operational challenges is providing adequate crew protection without reliance on heavy passive armor. This
challenge is being met by using a layered approach, including long-range situational awareness, multi-spectral
signature reduction, Active Protection systems and advanced lightweight armor in place of heavy conventional
armor. This program also funds the National Automotive Center (NAC). The goal of the NAC is to leverage large
commercial investments in automotive technology research and development by pursuing automotive-oriented
technology programs that have potential beneﬁt to military ground vehicles. This program also investigates hybrid
electric propulsion and electronic vehicle component technologies.

Development takes what has been discovered or learned from basic and applied research and uses it to establish
technological feasibility, assessment of operability, and production capability. Development is comprised of ﬁve
stages deﬁned below:

1. Advanced Technology Development: This area of technology includes all efforts to mature technology
   (hardware or software) sufﬁcient for demonstration in an operational environment—this may be live or virtual.
   In this program experimental systems or subsystems are demonstrated to prove the technical feasibility and
   military utility of the approach selected. Advanced technology development provides the path for the rapid
   development and demonstration of new components and systems. The most complex efforts in this program


122 General Fund | Principal Financial Statements, Notes, and Supplementary Information
    are designated as Advanced Technology Demonstrations (ATDs). The Army’s ATDs are developed to facilitate
    the smooth transition of advanced technology into systems as part of a formal acquisition program.
2. Advanced Component Development and Prototypes (ACD&P) evaluates integrated technologies in as
   realistic an operating environment as possible to assess the performance or cost reduction potential of advanced
   technology. Programs in this phase are generally system speciﬁc. Major outputs of ACD&P development are
   hardware and software components, or complete weapon systems, ready for operational and developmental
   testing and ﬁeld use.
3. System Development and Demonstration concludes the program or project and prepares it for production. It
   consists primarily of preproduction efforts, such as logistics and repair studies. Major outputs are weapons
   systems ﬁnalized for complete operational and developmental testing.
4. RDT&E Management Support includes research, development, test and evaluation efforts and funds to
   sustain and/or modernize the installations or operations required for general research, development, test and
   evaluation.
5. Operational Systems Development includes developmental efforts to upgrade systems that have been
   ﬁelded or have received approval for full rate production and anticipate production funding in the current or
   subsequent ﬁscal years.
The following are ﬁve representative program examples of development:

Electronic Warfare Advanced Technology (PE 0603008A): The goal of this program is to provide enabling
technologies for a secure, mobile, wireless network that will operate reliably in diverse and complex terrain, in
all environments for the Army’s Future Force and, where feasible, exploit opportunities to enhance Current Force
capabilities. Technologies will be matured and demonstrated to address this challenge with distributed, mobile,
secure, self-organizing communications networks. A key objective is to demonstrate seamlessly integrated
communications technologies across all network tiers, ranging from unattended networks and sensors through
maneuver elements and airborne/space assets. To accomplish that goal this program will investigate and
leverage external communication technologies and combine technology options in a series of Command, Control,
Communications, and Computers Intelligence, Surveillance and Reconnaissance (C4ISR) On-The-Move (OTM)
experiments to measure the battleﬁeld effectiveness for Future Combat Systems (FCS) and the Future Force. This
program also provides: protection technologies for tactical wireless networks against modern network attacks; smart
communication technologies to network and control unmanned systems anywhere on the battleﬁeld; advanced
antenna technologies for greater communications mobility, range and throughput; and automated network
management aids. Several tasks are conducted in conjunction with the Defense Advanced Research Projects Agency
(DARPA) and the other Services.

Advanced Tank Armament System (PE 0603653A): This program supports the development of the Family of
Stryker vehicles. A critical need exists to improve the deployability and operational effectiveness of rapid response/
early entry forces. The Stryker equipped Brigade Combat Team (BCT) will be capable of deployment to anywhere
on the globe in a combat ready conﬁguration. Immediate response by a lethal, versatile, tactically agile joint force
capable of operational maneuver once in the Area of Operations is essential to fulﬁlling the warﬁghting needs of the
U. S. Army. The Stryker family includes: the Infantry Carrier, the Reconnaissance Vehicle, the Mobile Gun System,
the Mortar Carrier, the Commander’s Vehicle, the Fire Support Vehicle, the Engineer Squad Vehicle, the Medical
Evacuation Vehicle, the Anti-Tank Guided Missile Vehicle, and the Nuclear/Biological/Chemical Reconnaissance
Vehicle. The use of a common platform/common chassis design reduces requirements for repair parts and logistics
support in the area of operations.

Air Defense Command, Control and Intelligence – Engineering Development (PE 0604741A): This program
supports the Air and Missile Defense Planning and Control System (AMDPCS), which is an Army Future Force
System with Homeland Defense capabilities that allows for the integration of Air and Missile Defense (AMD)
operations. It also supports the Forward Area Air Defense Command, Control, and Intelligence (FAAD C2I)
System which provides continuously tailored situational awareness and situational understanding of the battle


                                                                               FY 2005 Army Annual Financial Statement 123
space. Unique FAAD command and control (C2) software will provide this mission capability by integrating
FAAD C2 engagement operations software with the Joint Digital Radio (JDR), Single Channel Ground and Airborne
Radio System (SINCGARS), Enhanced Position Location Reporting System (EPLRS), Global Positioning System
(GPS), Airborne Warning and Control System (AWACS), Sentinel, and the Army Battle Command System (ABCS)
architecture. It also provides joint command and control interoperability and horizontal integration with Patriot,
the Terminal High-Altitude Area Defense (THAAD) program, the Medium Extended Air Defense System (MEADS),
the Joint Land Attack Cruise Missile Defense Elevated Netted Sensor System (JLENS) and short-range air defense
weapon systems.

Army Test Ranges and Facilities (0605601A): This program provides the institutional funding required to operate
the developmental test activities required by Department of Defense (DoD), weapons systems developers and
Research, Development, and Engineering Centers. This program provides resources to operate four Army Major
Range and Test Facility Bases (MRTFB): White Sands Missile Range, New Mexico; Aberdeen Test Center and
Aberdeen Proving Ground, Aberdeen, Maryland; and Yuma Proving Ground, Arizona.

This program also provides the resources to operate the Army’s developmental test capabilities at the Aviation
Technical Test Center, Fort Rucker, Alabama; and the Redstone Technical Test Center, Redstone Arsenal, Alabama.
It also provides the resources for test planning and safety veriﬁcation/conﬁrmation at the Developmental Test
Command located at Aberdeen Proving Ground, Maryland. Developmental test capabilities at the test ranges
have been uniquely established, are in place to support test and evaluation (T&E) requirements of funded weapons
programs, and are required to assure technical performance, adherence to safety requirements, reliability, logistics
supportability, and quality of materiel in development and in production.

Multiple Launch Rocket System (MLRS) Product Improvement Program (PIP) (0603778A): This program provides
support for the following improvements to MLRS: High Mobility Artillery Rocket System (HIMARS), M270A1,
Guided Multiple Launch Rocket System (GMLRS) and GMLRS Unitary munition which provide precision strike
capability.

     HIMARS, is a C-130 transportable launcher mounted on a Family of Medium Tactical Vehicles (FMTV) chassis.
     HIMARS is capable of ﬁring either six MLRS Family of Munitions (MFOM) rockets or one Army Tactical Missile
     (ATACMS) Family of Munitions (AFOM) missile, including precision munitions, to a range of 300KM.
     The M270A1 upgraded MLRS launcher is mounted on a Bradley Fighting Vehicle chassis, and is capable of
     ﬁring the MFOM and the AFOM, including precision munitions, to a range of 300KM.
     GMLRS is a precision munition which provides an increased range and Global Positioning System (GPS)
     accuracy. Fired from M270A1 and HIMARS launchers, GMLRS comes in two variants: Dual Purpose Improved
     Conventional Munitions (DPICM) which contains 414 submunitions, for attacking area targets with improved
     accuracy and signiﬁcantly reduced hazardous duds; and GMLRS Unitary which has a 200lb High Explosive
     (HE) warhead for attacking point targets with reduced collateral damage.




124 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Department of the Army
FY 2005 Required Supplementary Stewardship Information (RSSI)

                                            General Property, Plant, and Equipment
                                          Real Property Deferred Maintenance Amounts
                                                                 As of September 30, 2005


Narrative Statement:
FY2005 sustainment requirements for the Army are from version 5.1 of the DoD Facilities Sustainment Model
(FSM). The required and executed amounts represent facilities funded from Operations & Maintenance (O&M),
Army Family Housing (AFH), and Working Capital Fund (WCF) appropriations, and from Non-Appropriated
Funds (NAF). Sustainment funding contributions from host nation funding (Japan) and military pay are included.
The appropriated amount includes no contribution from WCF, NAF and host nation funding as these funds are
not appropriated by Congress. Army sustainment data includes facilities that are multi-use heritage assets. The
sustainment data excludes facilities funded from Research, Development, Test and Evaluation (RDTE), and
Procurement appropriations, and Chemical Depots, because we lack separately identiﬁable sustainment funding for
these locations.

                                                            Annual Sustainment FY 2005
                  Property Type                            1. Required         2. Appropriated 3. Executed    4. Difference
                  Buildings, Structures, and Utilities     $3,175.8M           $2,648.0M       $2,167.8M      $1,008.0M
                                                         Annual Deferred Sustainment Trend
                  Property Type                            FY 2002             FY 2003         FY 2004        FY 2005
                  Buildings, Structures, and Utilities     $913.4M             $792.3M         $959.9M        $1,008.0M

Army Restoration & Modernization (R&M) requirements are modeled in the annual Installation Status Report (ISR).
During ISR data collection, facility occupants evaluate the condition of each facility against published standards.
The inspection generates a quality improvement cost estimate for each facility based on the condition rating of each
component of the facility, and the component improvement cost factor. Improvement cost factors are developed for
each component within each facility type.

The requirement reported for General PP&E R&M is the ISR cost to improve the quality of facilities to full up Q-1
status, which represents full improvement cost for each facility. For FY2005, these requirements address facility
types funded from Army appropriated operations and maintenance (O&M), working capital fund (WCF), and Army
family housing (AFH) funds. The Army’s R&M requirement does not include requirements for facilities funded by
Department of Defense agencies (DECA, DLA, TMA, DODDS), non-appropriated funds-NAF (recreation, sports),
Army Air Force Exchange Service, and private funding. The R&M requirement also excludes costs for utilities
planned for privatization, closures from base realignment and closure (BRAC) decisions, ammunition plants and
chemical depots.

The Army’s estimate to return these facilities to a full-up Q-1 status for FY 2005 is $24.4B, based on the 2005 ISR.
Reduced requirements for FY 2005 are a result of three actions:

    ISR 2005 data reﬂects a signiﬁcant change in the ISR methodology. The Army completely revised the ISR
    Infrastructure standards to reduce subjectivity, and revised the quality improvement cost methodology to more
    accurately estimate the quality improvement cost.
    Investments in restoration and modernization show improvements to the condition of facilities.
    Privatization efforts continue to move utilities and Army family housing away from Army responsibility to
    recapitalize.




                                                                                                     FY 2005 Army Annual Financial Statement 125
                                            Restoration & Modernization Requirements
                            Property Type                                End FY 2004          End FY 2005           Change
                            Buildings, Structures, and Utilities             $32.1B             $24.4B              -$7.7B


                                                            Military Equipment
                                                      Deferred Maintenance Amounts
                                                                   As of September 30, 2005
                                                                    (Amount in Thousands)
                                                            (a)                                    (b)
                                                        Major Type
                                        1. Aircraft                                                      $ 74,500
                                        2. Ships                                                               0
                                        3. Missiles                                                       10,000
                                        4. Combat Vehicles                                               164,352
                                        5. Other Weapons Systems                                         256,600
                                        Total                                                        $505,452


The FY 2005 Op-30 Report was used to compile the deferred depot level maintenance. Language has been
incorporated into the draft AR 750-1 (currently released to the ﬁeld for worldwide for stafﬁng) that will require
the reporting of depot-level deferred maintenance requirements into Depot Maintenance Operations and Planning
System (DMOPS). DMOPS is the automated system for capturing depot-level deferred maintenance data.

The following amounts of depot-level deferred maintenance are reported as follows: a) Aircraft -74,500K; b) Missile
Maintenance-10,000K; c) Combat Vehicles-164,352K; d) Other Weapons Systems-256,600K. The total amount of
$505,452 thousand includes depot-level deferred maintenance for the active and reserve component.

Special Note: The MDEP used to compile deferred Field-Level Maintenance was divested by PA&E because they
determined that the Army Fleet Readiness Program (AFRP) was not a valid requirement.




126 General Fund | Principal Financial Statements, Notes, and Supplementary Information
FY 2005 Army Annual Financial Statement 127
Department of Defense - Department of the Army
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
As of September 30, 2005 and 2004 ($ in Thousands)



                                                                              Research, Development,       Operation and
Budgetary Financing Accounts                                       Other            Test & Evaluation       Maintenance
BUDGETARY¬RESOURCES
   Budget Authority:
      Appropriations received                              $   8,803,516 $                 10,682,659 $       50,222,363
      Borrowing authority                                              0                             0                 0
      Contract authority                                               0                             0                 0
      Net transfers (+/-)                                      (901,008)                      (91,962)         3,268,840
      Other                                                            0                             0                 0
   Unobligated balance:
      Beginning of period                                        287,087                    1,737,106         14,520,858
      Net transfers, actual (+/-)                                (33,414)                     (15,350)         1,298,325
        Anticipated Transfers Balances                                  0                            0                 0
   Spending authority from offsetting collections:
      Earned                                                            0                            0                  0
        Collected                                                  20,672                   3,557,863         12,205,176
        Receivable from Federal sources                           (9,038)                     (18,876)         (197,337)
      Change in unfilled customer orders                                0                            0                  0
        Advance received                                          (3,400)                       53,315             44,545
        Without advance from Federal sources                     (12,468)                   1,273,925            (32,823)
      Anticipated for the rest of year, without advances                0                            0                  0
      Transfers from trust funds                                        0                            0                  0
      Subtotal                                             $      (4,234) $                 4,866,227 $       12,019,561
   Recoveries of prior year obligations                          180,709                    1,316,462         10,575,388
   Temporarily not available pursuant to Public Law                     0                            0                  0
   Permanently not available                                      (1,895)                   (159,975)          (424,916)
¬¬¬¬¬Total¬Budgetary¬Resources                             $   8,330,761 $                 18,335,167 $       91,480,419

STATUS¬OF¬BUDGETARY¬RESOURCES
   Obligations incurred:
       Direct                                              $   2,739,091                   11,031,051         76,915,312
       Reimbursable                                               14,807                    4,995,892         13,039,467
       Subtotal                                                2,753,898                   16,026,943         89,954,779
   Unobligated balance:
       Apportioned                                             5,546,332                    2,219,181            360,158
       Exempt from apportionment                                  11,980                            0                  0
       Other available                                                 0                            0                  0
   Unobligated Balances Not Available                             18,551                       89,043          1,165,481
¬¬¬¬¬Total,¬Status¬of¬Budgetary¬Resources                  $   8,330,761 $                 18,335,167 $       91,480,418
Relationship¬of¬Obligations¬to¬Outlays:
   Obligated Balance, Net ? beginning of period            $   1,183,133 $                  5,250,125 $       27,917,307
   Obligated Balance transferred, net (+/-)                            0                            0                  0
   Obligated Balance, Net ? end of period:
       Accounts receivable                                             93                    (173,658)        (1,137,543)
       Unfilled customer order from Federal sources               (4,365)                  (3,303,484)        (5,223,233)
       Undelivered orders                                      1,746,786                     8,085,774        25,200,133
       Accounts payable                                          172,174                       783,875          9,098,442
   Outlays:
       Disbursements                                           1,863,139                   13,313,051          79,589,060
       Collections                                               (17,272)                  (3,611,178)       (12,249,721)
       Subtotal                                            $   1,845,867 $                   9,701,873 $       67,339,339
   Less: Offsetting receipts                                   (195,234)                             0                  0
¬¬¬¬¬Net¬Outlays                                           $   1,650,633 $                   9,701,873 $       67,339,339




128 General Fund | Principal Financial Statements, Notes, and Supplementary Information
                        Military     Military Construction/
    Procurement       Personnel             Family Housing      2005 Combined         2004 Combined



$     23,239,203 $    52,886,976 $               4,012,199 $       149,846,916 $          149,559,892
               0                0                        0                   0                      0
               0                0                        0                   0                      0
         894,232      (2,139,445)                   15,915           1,046,572              2,517,085
               0                0                        0                   0                      0

       3,058,013       1,249,522                 2,028,170          22,880,757              8,212,989
       1,597,849       (234,709)                 (243,514)           2,369,187              4,698,264
               0               0                         0                   0                      0

                 0              0                         0                  0                       0
          973,007        295,082                 3,896,438          20,948,238             18,739,994
             3,662     (161,345)                   (32,166)          (415,099)                 412,742
                 0              0                         0                  0                       0
           (5,011)              0                  (11,715)             77,733                 306,576
          644,252          11,228                  275,825           2,159,939               1,896,851
                 0              0                         0                  0                       0
                 0              0                         0                  0                       0
$       1,615,910 $      144,965 $               4,128,382 $        22,770,811 $           21,356,163
     1,031,465.00      3,092,929                   836,494          17,033,447             13,996,679
                 0              0                         0                  0                       0
        (160,518)        (89,384)                  (40,835)          (877,523)             (1,394,364)
$      31,276,154 $   54,910,854 $              10,736,811 $       215,070,167 $          198,946,708




      26,391,549      54,213,579                 3,795,634         175,086,215            152,590,936
       1,745,499         366,472                 4,344,523          24,506,660             23,475,016
      28,137,048      54,580,051                 8,140,157         199,592,875            176,065,952

       2,824,379         122,008                 2,593,394          13,665,452             21,458,641
               0               0                         0              11,980                 13,411
               0               0                         0                   2                      0
         314,726         208,796                     3,262           1,799,858              1,408,704
$     31,276,153 $    54,910,855 $              10,736,813 $       215,070,167 $          198,946,708

$     15,444,383 $     4,687,457 $               2,539,993 $        57,022,399 $           46,482,855
               0               0                         0                   0                      0

          (72,171)        (5,777)                   (89,293)        (1,478,349)            (1,893,446)
      (2,172,766)        (25,733)               (4,143,528)        (14,873,109)           (12,713,171)
      24,540,050           59,692                 7,139,828          66,772,263             56,509,574
        2,098,471      1,131,622                    664,033          13,948,617             15,119,442

      17,508,467      55,164,891                  6,028,958        173,467,566            149,220,137
       (967,995)       (295,082)                (3,884,723)        (21,025,971)           (19,046,568)
$     16,540,472 $    54,869,809 $                2,144,235 $      152,441,595 $          130,173,569
               0               0                          0           (195,234)               (63,289)
$     16,540,472 $    54,869,809 $                2,144,235 $      152,246,361 $          130,110,280




                                                                                  FY 2005 Army Annual Financial Statement 129
Department of Defense - Department of the Army
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
As of September 30, 2005 ($ in Thousands)
                                                                             Research, Development,     Operation and
Non-Budgetary Financing Accounts                                   Other           Test & Evaluation     Maintenance
BUDGETARY¬RESOURCES
   Budget Authority:
      Appropriations received                              $           0 $                        0 $              0
      Borrowing authority                                              0                          0                0
      Contract authority                                               0                          0                0
      Net transfers (+/-)                                              0                          0                0
      Other                                                            0                          0                0
   Unobligated balance:
      Beginning of period                                          1,424                          0                0
      Net transfers, actual (+/-)                                      0                          0                0
        Anticipated Transfers Balances                                 0                          0                0
   Spending authority from offsetting collections:
      Earned                                                           0                          0                0
        Collected                                                    101                          0                0
        Receivable from Federal sources                                0                          0                0
      Change in unfilled customer orders                               0                          0                0
        Advance received                                               0                          0                0
        Without advance from Federal sources                           0                          0                0
      Anticipated for the rest of year, without advances               0                          0                0
      Transfers from trust funds                                       0                          0                0
      Subtotal                                             $         101 $                        0 $              0
   Recoveries of prior year obligations                                0                          0                0
   Temporarily not available pursuant to Public Law                    0                          0                0
   Permanently not available                                           0                          0                0
¬¬¬¬¬Total¬Budgetary¬Resources                             $       1,525 $                        0 $              0

STATUS¬OF¬BUDGETARY¬RESOURCES
   Obligations incurred:
       Direct                                              $           0                          0                0
       Reimbursable                                                    0                          0                0
       Subtotal                                                        0                          0                0
   Unobligated balance:
       Apportioned                                                 1,525                          0                0
       Exempt from apportionment                                       0                          0                0
       Other available                                                 0                          0                0
   Unobligated Balances Not Available                                  0                          0                0
¬¬¬¬¬Total,¬Status¬of¬Budgetary¬Resources                  $       1,525 $                        0 $              0
Relationship¬of¬Obligations¬to¬Outlays:
   Obligated Balance, Net ? beginning of period            $           0 $                        0 $              0
   Obligated Balance transferred, net (+/-)                            0                          0                0
   Obligated Balance, Net ? end of period:
       Accounts receivable                                             0                          0                0
       Unfilled customer order from Federal sources                    0                          0                0
       Undelivered orders                                              0                          0                0
       Accounts payable                                                0                          0                0
   Outlays:
       Disbursements                                                   0                          0                0
       Collections                                                 (101)                          0                0
       Subtotal                                            $       (101) $                        0 $              0
   Less: Offsetting receipts                                           0                          0                0
¬¬¬¬¬Net¬Outlays                                           $       (101) $                        0 $              0




130 General Fund | Principal Financial Statements, Notes, and Supplementary Information
                      Military    Military Construction/
    Procurement     Personnel            Family Housing     2005 Combined       2004 Combined



$             0 $           0 $                       0 $               0 $                   0
              0             0                         0                 0                     0
              0             0                         0                 0                     0
              0             0                         0                 0                     0
              0             0                         0                 0                     0

              0             0                         0             1,424                 1,272
              0             0                         0                 0                     0
              0             0                         0                 0                     0

              0             0                         0                 0                     0
              0             0                         0               101                   152
              0             0                         0                 0                     0
              0             0                         0                 0                     0
              0             0                         0                 0                     0
              0             0                         0                 0                     0
              0             0                         0                 0                     0
              0             0                         0                 0                     0
$             0 $           0 $                       0 $             101 $                 152
              0             0                         0                 0                     0
              0             0                         0                 0                     0
              0             0                         0                 0                     0
$             0 $           0 $                       0 $           1,525 $               1,424




              0             0                         0                 0                     0
              0             0                         0                 0                     0
              0             0                         0                 0                     0

              0             0                         0             1,525                 1,424
              0             0                         0                 0                     0
              0             0                         0                 0                     0
              0             0                         0                 0                     0
$             0 $           0 $                       0 $           1,525 $               1,424

$             0 $           0 $                       0 $               0 $                   0
              0             0                         0                 0                     0

              0             0                         0                 0                     0
              0             0                         0                 0                     0
              0             0                         0                 0                     0
              0             0                         0                 0                     0

              0             0                         0                  0                    0
              0             0                         0              (101)                (152)
$             0 $           0 $                       0 $            (101) $              (152)
              0             0                         0                  0                    0
$             0 $           0 $                       0 $            (101) $              (152)




                                                                            FY 2005 Army Annual Financial Statement 131
                                        Required Supplemental Information - Part A

AT21 - Army General Fund
($ Amounts in Thousands)
Schedule, Part A DoD Intra-governmental Asset         Treasury     Fund Balance    Accounts          Loans
Balances.                                              Index:      with Treasury   Receivable      Receivable   Investments     Other
Executive Office of the President                         11                           $1,017
Department of Agriculture                                 12                              $85                                     $575
Department of Commerce                                    13                             $630                                   $4,788
Department of the Interior                                14                              $89                                 $588,991
Department of Justice                                     15                          $10,444                                     $512
Department of Labor                                       16                              $24
Navy General Fund                                         17                          $62,306
Department of State                                       19                          $11,722
Department of the Treasury                                20        $87,093,317        $1,830                      $3,495        $162
Office of Personnel Management                            24                                                                   $16,422
Department of Veterans Affairs                            36                                $356
General Service Administration                            47                              $1,257
National Science Foundation                               49                                                                       $20
Air Force General Fund                                    57                          $58,326                                  $15,778
Environmental Protection Agency                           68                             $264                                   $3,918
Department of Transportation                              69                             $674                                   $3,789
Homeland Security                                         70                           $7,450                                  $71,681
Small Business Administration                             73                                                                      $248
Department of Health and Human Services                   75                             $368                                      $41
National Aeronautics and Space Administration             80                             $266                                  $21,239
Department of Energy                                      89                             $470                                   $3,956
Other Legislative Branch Agencies                         9                               $10
US Army Corps of Engineers                                96                           $2,930
Other Defense Organizations General Funds                 97                          $59,469
Other Defense Organizations Working Capital Funds      97-4930                        $29,386                                  $72,511
Army Working Capital Fund                            97-4930.001                      $26,041                                  $19,661
Navy Working Capital Fund                            97-4930.002                                                                   $11
Air Force Working Capital Fund                       97-4930.003                      $1,220
Totals                                                              $87,093,317     $276,634                       $3,495     $824,303




132 General Fund | Principal Financial Statements, Notes, and Supplementary Information
                                         Required Supplemental Information - Part B

AT21 - Army General Fund
($ Amounts in Thousands)
                                                               Treasury     Accounts       Debts/Borrowings From
Schedule, Part B DoD Intra-governmental entity liabilities.     Index:       Payable          Other Agencies              Other
Executive Office of the President                                  11                                                   $46,755
Department of Agriculture                                          12           $8,896                                      $84
Department of Commerce                                             13             $469
Department of the Interior                                         14          $10,360                                       $1
Department of Justice                                              15           $2,771                                      $23
Department of Labor                                                16              $13                                 $423,617
Navy General Fund                                                  17          $37,536                                     $207
Department of State                                                19           $2,205                                   $2,630
Department of the Treasury                                         20         $227,678                                   $1,494
Office of Personnel Management                                     24           $3,236                                  $58,708
Federal Communications Commission                                  27             $595
Library of Congress                                                3                                                        $23
Nuclear Regulatory Commission                                      31             $104
Department of Veterans Affairs                                     36           $3,938                                     $984
General Service Administration                                     47         $477,169                                      $67
National Science Foundation                                        49             $670
Central Intelligence Agency                                        56                                                     $325
Air Force General Fund                                             57          $26,277                                   $2,249
Tennessee Valley Authority                                         64           $5,777
Environmental Protection Agency                                    68          $10,336
Department of Transportation                                       69          $15,980                                     $177
Homeland Security                                                  70          $12,130                                  $37,919
Small Business Administration                                      73             $184
Department of Health and Human Services                            75           $1,594                                  $44,645
National Aeronautics and Space Administration                      80          $10,963                                     $443
Department of Energy                                               89          $24,515                                      $48
US Army Corps of Engineers                                         96          $15,948
Other Defense Organizations General Funds                          97          $68,587                                   $2,082
Other Defense Organizations Working Capital Funds               97-4930       $592,630
Army Working Capital Fund                                     97-4930.001     $312,950                                       $0
Navy Working Capital Fund                                     97-4930.002      $10,484
Air Force Working Capital Fund                                97-4930.003       $1,347
The General Fund of the Treasury                                   99                                                $1,749,780
DoD Medicare-Eligible Retiree Health Care Fund                                  $32,970
Totals                                                                      $1,918,312                               $2,372,261




                                                                                       FY 2005 Army Annual Financial Statement 133
                                      Required Supplemental Information - Part C

AT21 - Army General Fund
($ Amounts in Thousands)
                                                                                           Treasury
Schedule, Part C DoD Intra-governmental revenue and related costs.                          Index:      Earned Revenue
Executive Office of the President                                                              11               $38,746
Department of Agriculture                                                                      12                $2,772
Department of Commerce                                                                         13                $7,017
Department of the Interior                                                                     14                $1,206
Department of Justice                                                                          15               $72,317
Department of Labor                                                                            16                  $105
Navy General Fund                                                                              17              $826,324
Department of State                                                                            19              $272,302
Department of the Treasury                                                                     20               $13,889
Library of Congress                                                                            3                 $1,038
Department of Veterans Affairs                                                                 36                $3,740
General Service Administration                                                                 47                $5,860
Central Intelligence Agency                                                                    56               $14,621
Air Force General Fund                                                                         57            $1,463,044
Environmental Protection Agency                                                                68                $7,402
Department of Transportation                                                                   69               $12,711
Homeland Security                                                                              70              $100,329
Department of Health and Human Services                                                        75               $47,765
National Aeronautics and Space Administration                                                  80               $28,131
Department of Housing and Urban Development                                                    86                   $41
Department of Energy                                                                           89               $30,711
Other Legislative Branch Agencies                                                              9                    $10
Department of Education                                                                        91                  $870
US Army Corps of Engineers                                                                     96              $390,711
Other Defense Organizations General Funds                                                      97            $4,429,253
Other Defense Organizations Working Capital Funds                                           97-4930           $170,421
Army Working Capital Fund                                                                 97-4930.001         $386,412
Air Force Working Capital Fund                                                            97-4930.003            $8,285
DoD Medicare-Eligible Retiree Health Care Fund                                                                $113,180
Totals                                                                                                       $8,449,213




134 General Fund | Principal Financial Statements, Notes, and Supplementary Information
                                     Required Supplemental Information - Part E

AT21 - Army General Fund
($ Amounts in Thousands)
                                                          Treasury Index:      Transfers In        Transfers Out
Executive Office of the President                                11             $2,866,535
Air Force General Fund                                           57                $36,234
US Army Corps of Engineers                                       96                    $34                 $361
Other Defense Organizations General Funds                        97               $621,827             $129,669
Other Defense Organizations Working Capital Funds             97-4930                   $5
Army Working Capital Fund                                   97-4930.001           $700,000
Air Force Working Capital Fund                              97-4930.003           $155,000
The General Fund of the Treasury                                 99                 $9,290               $9,290
Totals                                                                          $4,388,925             $139,320




                                                                            FY 2005 Army Annual Financial Statement 135
                                                                                  INSPECTOR GENERAL
                                                                                DEPARTMENT OF DEFENSE
                                                                                   400 ARMY NAVY DRIVE
                                                                              ARLINGTON, VIRGINIA 22202-4704




                                                                                                                                                                                  November 8, 2005

MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL MANAGEMENT
               AND COMPTROLLER)

SUBJECT: Independent Auditor’s Report on the Fiscal Year 2005 Army General Fund Financial
         Statements (Report No. D 2006 015)

The Chief Financial Ofﬁcers Act of 1990, as amended, requires the Department of Defense Inspector General to
audit the accompanying Army General Fund Consolidated Balance Sheet as of September 30, 2005 and 2004, the
related Consolidated Statement of Net Cost, the Consolidated Statement of Changes in Net Position, the Combined
Statement of Budgetary Resources, the Combined Statement of Financing, and the Statement of Custodial Activity
for the ﬁscal years then ended. The ﬁnancial statements are the responsibility of Army management. The Army
is also responsible for implementing effective internal control and for complying with laws and regulations. We
are unable to give an opinion on the Fiscal Year 2005 ﬁnancial statements of the Army General Fund because of
limitations on the scope of our work. Thus, the ﬁnancial statements may be unreliable. In addition to our disclaimer
of opinion on the ﬁnancial statements, we are including the required Report on Internal Control and Compliance
with Laws and Regulations. The Report on Internal Control and Compliance with Laws and Regulations is an
integral part of our disclaimer of opinion on the ﬁnancial statements and should be considered in assessing the
results of the audit.


Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that ﬁnancial
management systems do not substantially comply with Federal ﬁnancial management system requirements,
generally accepted accounting principles, or the U.S. Government Standard General Ledger at the transaction
level. Therefore, Army cannot provide adequate evidence supporting various material amounts on the ﬁnancial
statements. As a result, we did not perform auditing procedures to determine whether material amounts on the
ﬁnancial statements were fairly presented. We did not perform these and other auditing procedures because Section
1008(d) of the FY 2002 National Defense Authorization Act limits the Department of Defense Inspector General to
perform only audit procedures required by generally accepted government auditing standards that are consistent
with the representations made by management. The Army has also acknowledged, and prior audits have identiﬁed,
the material weaknesses listed in the Summary of Internal Control. These material weaknesses also affect the
reliability of certain information contained in the annual ﬁnancial statements—much of which is taken from the
same data sources as the principal ﬁnancial statements.* Therefore, we are unable to express, and we do not express,
an opinion on the ﬁnancial statements and the accompanying information.




* The annual ﬁnancial statements include the principal ﬁnancial statements, management discussion and analysis, consolidating and combining ﬁnancial statements, Required Supplementary Stewardship Information,
Required Supplementary Information, and Other Accompanying Information.




136 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Summary of Internal Control
In planning our audit, we considered Army internal control over ﬁnancial reporting and compliance. We did
this to determine our procedures for auditing the ﬁnancial statements and to comply with Ofﬁce of Management
and Budget guidance, but our purpose was not to express an opinion on internal control. Accordingly, we do not
express an opinion on internal control over ﬁnancial reporting and compliance. However, previously identiﬁed
reportable conditions, all of which are material, continue to exist in the following areas.

                 Financial Management Systems
                 Accounting Adjustments
                 Intragovernmental Transactions and Eliminations
                 Abnormal Account Balances
                 Fund Balance with Treasury
                 Accounts Receivable
                 Inventory and Related Property
                 General Property, Plant, and Equipment
                 Accounts Payable
                 Environmental Liabilities
                 Statement of Net Cost
                 Statement of Budgetary Resources
                 Statement of Financing

Material weaknesses are reportable conditions in which internal controls do not reduce (to a relatively low level)
the risk of misstatements that are material to the ﬁnancial statements and that might not be timely detected by
employees while performing their normal, assigned functions.

In addition, we identiﬁed weaknesses in reporting contingent legal liabilities, which we consider to be a reportable
condition. Reportable conditions are matters coming to the auditor’s attention that, in his or her judgment, should
be communicated to management because they represent signiﬁcant deﬁciencies in the design or operation of
internal control, which could adversely affect the organization’s ability to initiate, record, process, and report
ﬁnancial data consistent with the assertions of management in ﬁnancial statements.

Our internal control work would not necessarily disclose all reportable conditions. See the Attachment for
additional details on reportable conditions, most of which we consider to be material internal control weaknesses.


Summary of Compliance with Laws and Regulations
Our work to determine compliance with selected provisions of applicable laws and regulations related to
ﬁnancial reporting was limited because management acknowledged, and prior audits conﬁrm, that instances of
noncompliance continue to exist. The Assistant Secretary of the Army (Financial Management and Comptroller)
acknowledged to us that the Army was unable to comply with the requirements of the Chief Financial Ofﬁcers Act
of 1990, as amended. The Army has also acknowledged that many of its ﬁnancial management and feeder systems
do not comply with the requirements of the Federal Financial Management Information Act of 1996. The Army
was also unable to comply with Government Performance and Results Act requirements because it did not have
cost accounting systems in place to collect, process, and report operating costs. Therefore, we did not determine
whether the Army was in compliance with all applicable laws and regulations related to ﬁnancial reporting. See the
Attachment for additional details on compliance with laws and regulations.



                                                                               FY 2005 Army Annual Financial Statement 137
Management Responsibility
Management is responsible for:

                    preparing the ﬁnancial statements in conformity with generally accepted accounting principles;
                    establishing, maintaining, and assessing internal control to provide reasonable assurance that the
                    broad control objectives of the Federal Managers’ Financial Integrity Act are met; and
                    complying with applicable laws and regulations.

We provided a draft of this report to Army ofﬁcials.




Attachment:
As stated




138 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Report on Internal Control and Compliance with Laws and Regulations
Internal Control
Management is responsible for implementing effective internal control and for providing reasonable assurance
that accounting data are accumulated, recorded, and reported properly and that assets are safeguarded against
misappropriation and abuse. Our purpose was not to, and we do not, express an opinion on internal control over
ﬁnancial reporting. However, we have identiﬁed the following material weaknesses and reportable conditions that
could adversely affect a favorable opinion on internal control.

Material Weaknesses. Management acknowledged that previously identiﬁed reportable conditions, all of which are
material, continue to exist.

Financial Management Systems. Army accounting systems lack a single, standard transaction-driven general
ledger. The Army also needs to upgrade or replace many of its nonﬁnancial feeder systems so that ﬁnancial
statement reporting requirements can be met. The lack of integrated, transaction-driven ﬁnancial management
systems will continue to prevent the Army from preparing auditable ﬁnancial statements.

The Army has acknowledged that its ﬁnancial management systems were unable to meet all of the requirements
for full accrual accounting. Many of the Army ﬁnancial systems, nonﬁnancial feeder systems, and processes were
designed and implemented before generally accepted accounting principles were issued and, therefore, were not
designed to collect and record ﬁnancial information on the accrual basis. Until the Army’s systems and processes
are updated in accordance with generally accepted accounting principles, the Army’s ﬁnancial data will be based on
budgetary transactions, nonﬁnancial feeder system transactions, and adjustments for known accruals of major items.
The Army derives its reported values and information for major asset and liability accounts from nonﬁnancial
feeder systems, such as inventory and logistics systems. Major assets include Property, Plant, and Equipment
and Inventory and Related Property. In addition, budgetary transactions are recorded in line items such as Fund
Balance with Treasury, Accounts Receivable, Accounts Payable, Gross Costs, and Earned Revenue. Until the Army
systems are updated, Army ﬁnancial data will be based on budgetary transactions (obligations, disbursements, and
collections).

Accounting Adjustments. Because of inadequate ﬁnancial management systems and processes, journal voucher
adjustments and data calls are used to prepare the Army General Fund ﬁnancial statements. Defense Finance and
Accounting Service Indianapolis did not adequately support $241.5 billion in journal voucher adjustments used
to prepare the Army General Fund ﬁnancial statements. Speciﬁcally, Defense Finance and Accounting Service
Indianapolis made:

                  $71.1 billion in unsupported adjustments to force amounts to agree with records, other sources of
                  information, or ﬁnancial statement lines,
                  $26.2 billion in unsupported adjustments to intragovernmental accounts to force the accounts to
                  agree with the records of the Army’s trading partners,
                  $72.0 billion in unsupported adjustments to correct errors and reclassify amounts to other accounts,
                  and
                  $72.2 billion in unsupported adjustments to force general ledger accounts to agree with status of
                  appropriations data (or ending balance adjustments) without reconciling the differences or
                  determining which data source was correct.

Intragovernmental Transactions and Eliminations. DoD is unable to collect, exchange, and reconcile buyer and
seller intragovernmental transactions, resulting in adjustments that cannot be veriﬁed. This is primarily because
of systems limitations, as the majority of the systems currently used within DoD do not allow for the capture
of buyer-side information for use in reconciliations and eliminations. DoD and Army accounting systems are
unable to capture trading partner data at the transaction level in a manner that facilitates required trading partner


                                                                                FY 2005 Army Annual Financial Statement 139
eliminations, and DoD guidance does not require adequate support for eliminations. In addition, DoD procedures
require that buyer-side transaction data be forced to agree with seller-side transaction data without performing
proper reconciliations. Therefore, Defense Finance and Accounting Service Indianapolis made $26.2 billion in
unsupported adjustments to intragovernmental accounts to force the accounts to agree with the records of Army’s
trading partners.

Abnormal Account Balances. Defense Finance and Accounting Service Indianapolis did not detect, report, or
take action to eliminate abnormal balances included in the Army General Fund accounting records. The FY 2005
trial balance data for the Army General Fund included 224 general ledger accounts with $1.2 trillion of unresolved
abnormal balances.

DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” volume 6B, “Form and Content of the DoD
Audited Financial Statements,” requires the separate disclosure of any individual components that represent
more than 10 percent of a line item identiﬁed as “Other” on the ﬁnancial statements and notes. An $825.3 million
abnormal balance that is part of the Non-Federal Other Assets (With the Public) line item on the Balance Sheet was
not disclosed or explained in Note 6, Other Assets.

In response to DoD IG Report No. D-2004-118, “Army General Fund Controls Over Abnormal Balances For Field
Accounting Activities,” September 28, 2004, Defense Finance and Accounting Service Indianapolis stated that
the Defense Departmental Reporting System-Budgetary Module (Budgetary Module) would signiﬁcantly reduce
abnormal balances in accounting records. Defense Finance and Accounting Service Indianapolis estimated the
completion date for corrective action as September 30, 2005. However, the implementation of the Budgetary Module
has been delayed until December 2005. The DoD Financial Management Regulation has not been revised to require
the disclosure of the amounts of unresolved abnormal balances for all ﬁnancial statement lines impacted in the notes
to the ﬁnancial statements. Abnormal balances not only distort the Army General Fund ﬁnancial statements, but
also indicate internal control and operational deﬁciencies and may conceal instances of fraud.

Fund Balance with Treasury. DoD has long-standing problems in reconciling transaction activity in their Fund
Balance with Treasury accounts. Army appropriation balances recorded in the accounting records do not agree with
balances held at the Department of Treasury. Therefore, the Defense Finance and Accounting Service Indianapolis
made unsupported adjustments that had a net effect of $44.0 billion on the three Fund Balance With Treasury line
items.

Accounts Receivable. DoD has acknowledged weaknesses in its accounts receivable management. The weaknesses
are considered to be DoD-Wide and apply to both public and intragovernmental receivables at the Army General
Fund level. Weaknesses include:

                    noncompliance with policies and procedures regarding referrals to the Debt Management Ofﬁce
                    and the Department of Treasury and for write-offs of 2 year old debt;
                    a lack of controls to ensure all entitlement system receivables (vendor pay, civilian pay, and
                    interest) are recorded in the accounting systems; and
                    a lack of controls to ensure that accounts receivable balances are supportable at the transaction
                    level.

As a result, Defense Finance and Accounting Service Indianapolis made $476.1 million in unsupported adjustments
for FY 2005 that decreased accounts receivable balances by $421 million.

Inventory and Related Property. Inventories are reported at approximate historical cost using Latest Acquisition
Cost adjusted for holding gains and losses. The systems do not maintain historical cost data necessary to comply
with Statement of Federal Financial Accounting Standards No. 3, “Accounting for Inventory and Related Property.”
The systems are also unable to produce ﬁnancial transactions using the U.S. Government Standard General Ledger.
Statement of Federal Financial Accounting Standards No. 3 states that Operating Materials and Supplies will be


140 General Fund | Principal Financial Statements, Notes, and Supplementary Information
expensed when the items are consumed. However, DoD has acknowledged that signiﬁcant amounts of Operating
Materials and Supplies were expensed when purchased, instead of when consumed.

General Property, Plant, and Equipment. Statement of Federal Financial Accounting Standards No. 6, “Accounting
for Property, Plant, and Equipment,” requires that all General Property, Plant, and Equipment be recorded at
cost, and that depreciation expense be recognized on all General Property, Plant, and Equipment. The Army has
acknowledged that real property was not recorded at acquisition or historical cost and did not include all costs
needed to bring the real property to a form and location suitable for its intended use. Also, the Army could not
support the reported cost of Military Equipment in accordance with Statement of Federal Financial Accounting
Standards No. 6. Military Equipment was not recorded at acquisition or historical cost and did not include all costs
needed to bring the equipment to a form and location suitable for its intended use. The Army also lacks property
accountability systems for all its Military Table of Equipment unit property books that comply with the Federal
Financial Management Improvement Act of 1996.

Accounts Payable. The Army is unable to properly account for and report Accounts Payable. Defense Finance and
Accounting Service Indianapolis made $14.4 billion in unsupported adjustments for FY 2005 that increased Accounts
Payable by $9.6 billion. In addition, the Army accounting systems do not capture trading partner data at the
transaction level in a manner that facilitates trading partner aggregations for intra-agency sales. Therefore, the Army
has acknowledged that it is unable to reconcile intragovernmental accounts payable to the related intragovernmental
accounts receivable that generate the payables.

Environmental Liabilities. The Army has not properly estimated and reported its environmental liabilities. For
example, the processes used to report environmental liabilities for the Defense Environmental Restoration Program,
Base Realignment and Closure, and the non Defense Environmental Restoration Program on the ﬁnancial statements
are not adequate to establish or maintain sufﬁcient documentation and audit trails. Although estimators were
properly qualiﬁed to perform estimates, the Army did not document supervisory reviews of estimates and does
not have adequate quality control programs in place to ensure the reliability of data. The Defense Finance and
Accounting Service has identiﬁed ongoing actions to correct the reporting of environmental liabilities by October
2006.

Statement of Net Cost. The ﬁnancial information in the Statement of Net Cost is not presented by programs
that align with major goals and outputs described in the DoD strategic and performance plans required by the
Government Performance and Results Act. Because ﬁnancial processes and systems do not collect costs in line with
performance measures, revenues and expenses are reported by appropriation categories. The amounts presented
in the Statement of Net Cost are based on funding, obligation, and disbursing transactions, which are not always
recorded using accrual accounting. Army systems do not always record the transactions on an accrual basis as
required by generally accepted accounting principles. To capture all cost and ﬁnancing sources for the Army,
the information presented also includes data from nonﬁnancial feeder systems. In addition, Army General Fund
budgetary and proprietary information does not correlate. As a result, Defense Finance and Accounting Service
Indianapolis made $10.5 billion in unsupported adjustments to force costs to agree with obligation information.
Speciﬁcally, these adjustments forced costs reported on the Statement of Net Cost to match the value of Expended
Appropriations minus the amount of Capitalized Assets reported on the Statement of Financing.

Statement of Budgetary Resources. The Army accounting systems do not provide or capture data needed for
obligations incurred and recoveries of prior year obligations in accordance with Ofﬁce of Management and
Budget Circular No. A 11, “Preparation, Submission, and Execution of the Budget Requirements.” Although the
Army developed an alternative methodology to calculate these items, the amount of distortion cannot be reliably
determined. Because the Statement of Budgetary Resources does not include eliminating entries, a Disaggregated
Statement of Budgetary Resources is included in the Required Supplementary Information section of the ﬁnancial
statements. The Army uses budget execution data composed of transaction report codes to prepare both the
monthly Standard Form 133 and the quarterly Federal Agencies Centralized Trial Balance System II budgetary
general ledger accounts. Defense Finance and Accounting Service Indianapolis personnel use the Federal Agencies



                                                                               FY 2005 Army Annual Financial Statement 141
Centralized Trial Balance System II data to prepare the Statement of Budgetary Resources. Because both the
Standard Form 133 and the Statement of Budgetary Resources are prepared using budget execution data, there is
no true reconciliation between the two reports. Ofﬁce of Management and Budget Circular No. A-136, “Financial
Reporting Requirements,” states that the Statement of Budgetary Resources should be predominantly derived from
an entity’s budgetary general ledger, instead of based on budget execution data. In FY 2005, Defense Finance and
Accounting Service Indianapolis prepared $1.8 billion in unsupported adjustments that affected general ledger
accounts used in the Statement of Budgetary Resources.

Statement of Financing. The Ofﬁce of Management and Budget requires a consolidated Statement of Financing,
except for the budgetary information used to calculate net obligations, which must be presented on a combined
basis. However, the Statement of Financing for the Army General Fund is prepared on a combined basis. Also,
because the differences between the Statement of Net Cost and the Statement of Financing were not reconciled,
the Statement of Financing does not accurately present the relationship between budgetary obligations incurred
by the Army General Fund and its Net Cost of Operations. For example, Defense Finance and Accounting Service
Indianapolis prepared $10.5 billion in unsupported adjustments to force costs to agree with obligation information.

Reportable Conditions. During FY 2005, we noted deﬁciencies related to contingent legal liabilities. The Army
legal representation process did not provide meaningful assessments of potential liabilities and was not linked
to the Army process for reporting and disclosing contingent legal liabilities on the ﬁnancial statements. The
legal representation letter from the Army Ofﬁce of General Counsel and its attached management schedule did
not corroborate the $187 million reported on the Balance Sheet as part of Non-Federal Other Liabilities nor the
$255 million disclosed as contingent legal liabilities on footnote 16 in the FY 2005 Army General Fund Financial
Statements. In addition, the legal representation letter and management schedule did not disclose $5.8 billion in
contingent liabilities that, individually, were not considered material but, when aggregated, exceeded the materiality
threshold requested by the auditors.

These ﬁnancial management deﬁciencies are indications of material weaknesses in internal control that may
adversely affect any decision by the Army that is based, in whole or in part, on information that is inaccurate
because of these deﬁciencies. Financial information reported by DoD may also contain misstatements resulting from
these deﬁciencies.


Compliance with Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to ﬁnancial reporting. Our
work to determine compliance with selected provisions of the applicable laws and regulations was limited because
management acknowledged instances of noncompliance, and previously reported instances of noncompliance
continue to exist. Therefore, we did not determine whether the Army was in compliance with selected provisions of
all applicable laws and regulations related to ﬁnancial reporting. Our objective was not to, and we do not, express
an opinion on compliance with applicable laws and regulations.

Statutory Financial Management Systems Reporting Requirements. The Army is required to comply with
ﬁnancial management systems reporting requirements. For example, the Federal Financial Management
Information Act of 1996 requires the Army to establish and maintain ﬁnancial management systems that comply
substantially with Federal ﬁnancial management systems requirements, applicable Federal accounting standards,
and the U.S. Government Standard General Ledger at the transaction level. In addition, the Federal Managers’
Financial Integrity Act of 1982 requires DoD to evaluate the systems and to annually report whether those systems
are in compliance with applicable requirements. The Act requires that each agency develop and maintain an
integrated agency accounting and ﬁnancial management system, including ﬁnancial reporting and internal control.
The system should comply with internal control standards and applicable accounting principles, standards, and
requirements; and it should provide for complete, reliable, consistent, and timely information.

The Army acknowledged that many of its critical ﬁnancial management and feeder systems do not comply
substantially with Federal ﬁnancial management systems requirements, Federal accounting standards, and the U.S.


142 General Fund | Principal Financial Statements, Notes, and Supplementary Information
Government Standard General Ledger at the transaction level. The Army is also unable to comply with the Chief
Financial Ofﬁcers Act because its ﬁnancial management systems are not integrated, and it has acknowledged that
many of its ﬁnancial management and feeder systems do not comply with applicable Federal accounting standards.

Government Performance and Results Act. The Government Performance and Results Act requires that each
Federal agency prepare a strategic plan and annual performance plans and reports. The Army did not comply with
the Government Performance and Results Act because it does not have cost accounting systems in place to collect,
process, and report operating costs. As a result, the Army General Fund Statement of Net Cost cannot provide
cost-of-operations data that are consistent with the Government Performance and Results Act performance goals and
measures.


Audit Disclosures
The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us on January 11,
2005, that the Army ﬁnancial management systems cannot provide adequate evidence supporting various material
amounts on the ﬁnancial statements. Therefore, we did not conduct audit work related to the previously identiﬁed
deﬁciencies.

In addition, we did not perform audit work related to the following selected provisions of laws and regulations.

                 Antideﬁciency Act
                 Provisions Governing Claims of the United States Government
                 Federal Credit Reform Act of 1990
                 Pay and Allowance System for Civilian Employees
                 Prompt Payment Act

This report does not include recommendations to correct the material internal control weaknesses and instances of
noncompliance because previous audit reports contained recommendations for corrective actions.




                                                                              FY 2005 Army Annual Financial Statement 143
                                                                     Working Capital Fund

                The Letterkenny Army Depot - the things they do there in terms of the
             equipment refurbishment, design and manufacture for some of the Special
             Operations forces, is remarkable. I mean...the work they do is going right
               to the ﬁeld, right in the hands of Soldiers and is improving their combat
                             effectiveness within hours of being unloaded from the dock.
                                               Mr. Michael A. Kirby, Executive Director for Institutional Army Transformation




144 Working Capital Fund | FY 2005 Army Annual Financial Statement
Working Capital Fund – Management’s Discussion & Analysis
Overview
The business operations of the Army Working Capital
Fund (AWCF) generated over $16 billion during FY
2005 in support of Army and other DoD logistics
requirements. This equates to a 13% increase in
business volume from FY 2004. They employed
approximately 24,000 civilians and 42 uniformed
personnel at 18 locations in the continental United
States (CONUS).                                              Supply Management
The Army manages two AWCF activity groups,                   Supply Management, Army (SMA) buys and maintains
Supply Management and Industrial Operations (a               stocks of materiel for sale to Army operating units and
consolidation of the former Depot Maintenance and            other DoD customers. The Army’s equipment and
Ordnance activity groups, the reasons for which will         operational readiness, and its combat capability, are
be discussed in the Industrial Operations Performance        directly to the availability of this materiel. As a result
Results section). These activity groups provide the          of deployments to Southwest Asia and continued
capability to satisfy the peacetime and wartime needs        support of the Global War on Terrorism (GWOT),
of the Department of Defense (DoD) by providing              inventory sales are signiﬁcantly higher than for
supplies, equipment, and ordnance necessary to               previous budget submissions. For example, in the
project, sustain, and reconstitute forces. The support       peacetime conditions of FY 2002, SMA gross sales were
services provided by AWCF activity groups are                $5.8 billion. In FY 2005, SMA gross sales were
essential to the readiness and sustainability of Army        $11.5 billion. The level of activity during FY 2005
operating forces and are an integral part of the total       reﬂects the SMA activity group’s on-going efforts to
DoD team. This becomes more apparent as the Army             satisfy increased customer demands from Operation
continues to wage war on global terrorism and to             Iraqi Freedom (OIF). This high level of demand is
provide disaster relief and humanitarian assistance          expected to continue until FY 2007.
around the world.
                                                             This activity group is committed to meeting the needs
                                                             of Soldiers by ensuring that supplies and equipment
Mission                                                      are available when and where needed during
The primary mission of AWCF activities is to help            peacetime and when at war. The major subordinate
the Army maintain constant readiness by providing            commands of the Army Materiel Command (AMC)
supplies, equipment, and ordnance necessary to               manage this activity.
support the projection and sustainment of its forces.
In carrying out this mission, the activities are obligated
to control and reduce costs. In addition, the activities     Industrial Operations
must maintain their capability to quickly ramp up            The Industrial Operations (IO) activity group provides
from peacetime workload levels to meet wartime               the equipment and ordnance necessary to project,
requirements.                                                sustain, and reconstitute forces as required to satisfy
                                                             the peacetime and wartime needs of the DoD.

                                                             The IO activity group is composed of ﬁve maintenance
                                                             depots, three arsenals, two ammunition plants, three
                                                             ammunition storage depots, and three munitions
                                                             centers. The activity group provides the Army and
                                                             DoD with the organic industrial capability to:




                                                                                                                    145
       perform depot-level maintenance, repair, and                                                Table 10. Supply Management, Army
       modernization of weapon systems and component                                               “Wholesalers” that buy and maintain stocks of materiel for sale to operating force units and other
       parts;                                                                                      customers


       manufacture, renovate, and demilitarize materiel;                                             Command/Location                                           Area of Materiel Support
                                                                                                     Aviation and Missile Command,                              Aircraft and aviation ground
       produce quality munitions and large-caliber                                                   Huntsville, AL (AMCOM)                                     support items, missile system
       weapons;                                                                                                                                                 items.
                                                                                                     Communications–Electronics Command,                        Communication and
       perform a full range of ammunition maintenance                                                Fort Monmouth, NJ (CECOM)                                  electronics items.
       services for the DoD and U.S. Allies;                                                         Tank–automotive and Armaments                              Combat, automotive, and
                                                                                                     Command, Warren, MI (TACOM-W)                              construction items.
       perform ammunition receipt, store, and issue
                                                                                                     Tank–automotive and Armaments                              Weapons, special weapons,
       functions; and                                                                                Command, Acquisition and Logistics                         and ﬁre control systems.
                                                                                                     Activity, Rock Island, IL (TACOM-RI)
       provide installation base support to mission
                                                                                                     Tank–automotive and Armaments                              Ground support items and
       elements and tenant activities.                                                               Command, Soldier and Biological                            chemical weapons.
                                                                                                     Chemical, Natick, MA (TACOM-SBC)
In its industrial activities IO both competes and
partners with the private sector to ensure that its goods
and services are delivered efﬁciently and effectively.                                             AMC also serves as the management command for
The ﬁve heavy maintenance depots (Anniston, Corpus                                                 the IO activity group. Installations or activities in this
Christi, Letterkenny, Red River, and Tobyhanna)                                                    group fall under the direct command and control of
have been designated as centers of industrial and                                                  AMC major subordinate commands each aligned in
technical excellence (CITE) for the performance of                                                 accordance with the nature of its mission (Table 11).
core maintenance workload in support of the DoD                                                    Corpus Christi and Letterkenny Army Depots report
and America’s foreign allies. The CITE designation                                                 to the Aviation and Missile Command (AMCOM)
provides the depots with the authority to partner with                                             located at Redstone Arsenal, AL. Anniston, Red
and/or lease facilities to industry on programs relating                                           River, and Sierra Army Depots, as well as Rock
to core maintenance expertise.                                                                     Island and Watervliet Arsenals report to the Tank-
                                                                                                   automotive and Armaments Command (TACOM) in
                                                                                                   Warren, MI. Tobyhanna Army Depot reports to the
Organization                                                                                       Communication-Electronics Command (CECOM)
AMC, headquartered at Fort Belvoir, VA, serves as                                                  at Ft. Monmouth, NJ. Pine Bluff Arsenal reports
the management command for the AWCF activities.                                                    to the CMA at Aberdeen Proving Ground, MD.
It does this through the major supply management                                                   Bluegrass and Tooele Army Depots, as well as Crane
subordinate commands shown in Table 10, the Army                                                   Army Ammunition Activity and McAlester Army
Field Support Command (AFSC) at Rock Island,                                                       Ammunition Plant report to the AFSC at Rock Island
IL, and the Chemical Munitions Agency (CMA) at                                                     Arsenal, IL.
Aberdeen Proving Ground, MD.




A Soldier from 3rd Brigade, 3rd Infantry Division, returns to Forward Operating Base Warhorse in his M2A2 Bradley Fighting Vehicle after a mission near Baqubah, Iraq. (by Staff Sgt. Suzanne Day)




146 Working Capital Fund | FY 2005 Army Annual Financial Statement
Table 11. Industrial Operations

 Activity/Location Combat Systems Command/Activity/Location    Command/Activity/Location
 TACOM                                                         Maintains, repairs, overhauls, and upgrades heavy-tracked combat vehicles and
 Anniston Army Depot, Anniston, AL*                            artillery.
 AMCOM                                                         Maintains, repairs, overhauls, and upgrades rotary wing aircraft, engines, and
 Corpus Christi Army Depot, Corpus Christi, TX                 components.
 AMCOM                                                         Maintains, repairs, overhauls, and upgrades tactical missile systems.
 Letterkenny Army Depot, Chambersburg, PA*
 TACOM                                                         Maintains, repairs, overhauls, and upgrades light armored vehicles and select
 Red River Army Depot, Texarkana, TX*                          missile systems.
 CECOM                                                         Maintains, repairs, overhauls, and upgrades communications—electronics and
 Tobyhanna Army Depot, Tobyhanna, PA*                          missile guidance and control systems and equipment.
 CMA                                                           Manufactures conventional ammunition and chemical and biological defense items.
 Pine Bluff Arsenal, Pine Bluff, AR*                           Produces and rebuilds decontaminating kits, large ﬁlters, masks, and defensive
                                                               chemical test equipment.
 TACOM                                                         Produces weapons for infantry, artillery, and air defense; armament for tanks,
 Rock Island Arsenal, Rock Island, IL*                         artillery, and personnel- and cargo-carriers; and special tools and tool sets.
 TACOM                                                         Produces mortars, recoilless riﬂes, cannon for tanks and towed and self-propelled
 Watervliet Arsenal, Watervliet, NY*                           artillery, special tool sets, and training devices and simulators.
 AFSC                                                          Produces, loads and assembles, stores, distributes, renovates, maintains, and
 Crane Army Ammunition Activity, Crane, IN                     demilitarizes conventional ammunition and ammunition-related components.
 AFSC                                                          Produces, loads and assembles, stores, distributes, renovates, maintains, and
 McAlester Army Ammunition Plant, McAlester, OK*               demilitarizes bombs, missiles, and conventional ammunition and missiles.
 TACOM                                                         Responsible for receipt, storage, and care of supplies in storage; as well as repair,
 Sierra Army Depot, Herlong, CA*                               assembly, disassembly, and shipment of major and secondary items for operational
                                                               project stocks.
 AFSC                                                          Designs and develops ammunition-peculiar equipment. Stores, maintains,
 Tooele Army Depot, Tooele, UT*                                distributes, and demilitarizes conventional ammunition.
 AFSC                                                          Responsible for receipt, issue, storage, testing, and minor repair of chemical
 Blue Grass Army Depot, Richmond, KY*                          defense equipment. Stores, maintains, distributes, and demilitarizes conventional
                                                               ammunition.
 AFSC                                                          Store, maintain, distribute, and demilitarize conventional ammunition.
 Red River Munitions Center, Texarkana, TX
 AFSC
 Letterkenny Munitions Center, Chambersburg, PA
 AFSC
 Anniston Munitions Center, Anniston, AL
*Also provides base support services to tenant organizations




AMC reports to the Army Deputy Chief of Staff, G-4                     year limitation (no-year account). The fund operates
and to the Assistant Secretary of the Army (Financial                  through a ﬁve-step process shown in Figure 11. First,
Management and Comptroller) (ASA (FM&C)). A                            Congress appropriates funds to support programs
DoD corporate board provides oversight of AWCF                         and projects of AWCF customers. Second, a customer
functions; the board is comprised of representatives                   sends an AWCF activity a funded request for a given
                                                                       amount of products or services, such as overhauling
from the military services, defense agencies, DoD
                                                                       100 tanks. Third, the AWCF activity performs the
ofﬁces, and oversight organizations.
                                                                       work, incurring costs such as for labor and materials,
                                                                       which are paid for from AWCF cash. Fourth, the
About Working Capital Funds                                            AWCF activity bills the customer for the cost of the
The AWCF is a revolving fund, which is an account                      order. Finally, the customer deposits payment in the
that operates much like a business, deriving income                    AWCF, thus replenishing the fund so that it can supply
from, and incurring costs for, operations without ﬁscal                working capital to other projects.




                                                                                                                                                   147
Figure 11. How the AWCF Operates                                           Performance Measures
                                                                           Cash Management
                                                                           The ability to generate and manage cash is dependent
                          Bill     AWCF activity supplies
                                   goods and services. The                 on: (1) setting rates to recover full costs, including
                                   provider bills the customer             any previous year losses; (2) accurately projecting
Congress                           and is paid.
approves the                                                               workload; and (3) meeting established operational
annual budget for
the customers.                                                             goals. The Army must maintain sufﬁcient cash on
                                                AWCF activity:             hand in the AWCF account at the U.S. Treasury to pay
                                                  Incurs Costs
        $                                         Produces Goods or        liabilities when due. To minimize the cash balance
                                                  Services
                                                  Buys Parts or Services   required for operating and capital disbursements, the
Customer sends funded                                                      Army manages cash at the corporate level. Rather than
order to AWCF activity.
                                                                           having to maintain a positive cash balance, the AWCF
                                 Project                                   activity groups and installations project collections and
                                 Order
                                                                           disbursements on a monthly basis, working within a 10
                                                                           percent margin of error.

Pricing                                                                    Projecting cash ﬂows has, in past years, proven
                                                                           challenging. A direct correlation can be made between
AWCF activities bill customers in one of two manners:
                                                                           monthly revenue and collections, but no direct
                                                                           correlation can be made between monthly expenses
      The SMA activity group bills customers by
                                                                           and disbursements. The difﬁculty arises within the
      applying a surcharge to the cost of the materiel
                                                                           SMA activity group where monthly expenses are based
      or item being requisitioned. The surcharge is
                                                                           on the cost of goods sold, while disbursements are
      designed to recover the actual costs of operating
                                                                           based on deliveries of materiel on order or in repair.
      the supply business.
      The IO activity group bills customers based on                       The Defense Finance and Accounting Service
      a direct labor hour rate, which is designed to                       (DFAS), the Army’s accounting services provider,
      recover all costs associated with the work being                     is implementing systems improvements that are
      performed (e.g., labor, materials, and overhead).                    expected to enable the Army to see collections and
      Once the standard direct labor hour rate is set in                   disbursements in real-time.
      the budget process, it does not change in the year
      of execution. This shields customers from price                      Table 12 shows the actual collections, disbursements,
      swings and enables them to plan their budgets and                    and outlays at the Army corporate level for the last
      appropriation requests with more certainty than if                   three ﬁscal years, and the resulting cash balance that
      costs reﬂected short-term market variations.                         will be used to pay suppliers and producers of goods.
                                                                           The AWCF ended FY 2005 with a cash balance of $623.3
Working Capital Fund Performance                                           million, $212.7 million above plan. This represents a
                                                                           variance of 34 percent. The ending cash balance reﬂects
Results                                                                    the results of the increase in consumption of repair
                                                                           parts and production at Army industrial facilities that
Corporate Performance
                                                                           is due to the GWOT. In addition, the Army transferred
The mission of the AWCF is to provide support                              $700 million in FY 2005 and $1.3 billion in FY 2004
services to the operating forces in the most efﬁcient                      in cash to the Operations and Maintenance, Army
and cost-effective manner possible. Support services                       (OMA) appropriation in support of the GWOT. The
provided by AWCF activities are essential to the                           $2.0 billion will need to be returned to the AWCF at a
success of operating forces. Assessing the performance                     future date in order for the fund to pay its suppliers
of the AWCF through the use of ﬁnancial and program                        and producers of goods. As operations in Iraq and
performance measures indicates how well the AWCF is                        Afghanistan are drawn down and payments associated
accomplishing its mission.



148 Working Capital Fund | FY 2005 Army Annual Financial Statement
with the delivery of replacement stocks and repair of                    Table 14. Total Corporate Revenue by Customer ($ millions)
equipment are made, the AWCF cash balance should
return to a level closer to its corpus requirement.                                                                             FY 2003           FY 2004           FY 2005
                                                                          Operations and Maintenance, Army                      $8,358.3        $10,297.7         $11,325.5
Table 12. Corporate Collections, Disbursements, and Outlays
($ millions)                                                              Army Procurement                                          680.0             493.7          1,000.0
                                                                          AWCF                                                   1,570.4           1,441.8           2,075.8
                                   FY 2003       FY 2004      FY 2005     Other Army                                                224.0             337.0                253.6
 Collections, Appropriations,      $9,714.1     $12,467.9    $14,383.6    Other Services                                            641.2             825.7                794.5
 and Transfers-in
                                                                          Other DoD                                                 351.9             284.0                107.1
 Disbursements and                 $8,416.6     $13,067.9    $14,708.7
 Transfers-out                                                            Foreign Military Sales                                    315.4             318.0                357.7
 Net Outlays                       $1,297.5       $600.0       $325.1     Non-DoD                                                      40.8             87.5                64.5
 Cash Balance                      $1,548.5       $948.4       $623.3     Total Revenue*                                      $12,182.0         $14,085.4         $15,978.7
                                                                          *This is revenue from operations only. Does not include direct appropriations or transfers-in.



Total Revenue                                                            Personnel Resources
Total revenue is an indicator of the volume of work                      To achieve maximum efﬁciency of performance,
completed by the AWCF activity groups. The total                         the AWCF activity groups need to achieve the
projected revenue for FY 2005 was $15.3 billion. Actual                  conﬁguration of skilled workforce that is most
revenue was $16.1 billion, 5 percent greater than                        appropriate to the workload. Skill mismatches
projected. This was primarily due to operations in                       sometimes occur as a result of deviations between
support of the GWOT.                                                     planned and actual workload. They also can be caused
                                                                         by workforce reductions realized through voluntary
Table 13 displays total revenue and direct                               separation and hiring freezes. Such mismatches can
appropriations by activity group. SMA generates the                      lead to unplanned operating losses.
largest balances, accounting for more than $11.5 billion
                                                                         Table 15. Military and Civilian Personnel by Activity Group
in revenue, or 72 percent of all AWCF revenue. In
addition to the revenue shown in Table 13 and Table                       Personnel                                       FY 2003              FY 2004              FY 2005
14, the AWCF received $184 million in FY 2005 in
                                                                          Supply Management
transfers-in.
                                                                          Civilian End Strength                               2,893                2,779                   3,017
Table 13. Total Revenue and Direct Appropriations by Activity             Civilian FTEs                                       2,790                2,935                   3,044
Group ($ millions)
                                                                          Military End Strength                                   13                   13                     11
 Appropriation                        FY 2003     FY 2004     FY 2005     Military Average Strength                               13                   13                     11

 Supply Management, Army             $9,558.0    $10,620.6   $11,526.8    Industrial Operations
 Industrial Operations               $2,885.3     $3,684.1    $4,551.5    Civilian End Strength                             17,709               19,917               21,687
 Information Services                   $96.7         $0.0        $0.0    Civilian FTEs                                     17,007               18,393               20,950
 Total Revenue and Appropriation    $12,540.0    $14,304.7   $16,078.3    Civilian OT Usage (% DLH)                               NA              17.1%                16.9%
                                                                          Productive Yield                                        NA               1,634                   1,596
                                                                          Military End Strength                                   48                   33                    31
Table 14 displays total corporate revenue by customer.
                                                                          Military Average Strength                               48                   26                    31
The largest customer for the AWCF is OMA, which
accounted for revenues of $11.3 billion.                                  Total
                                                                          Civilian End Strength                             20,602               22,696               24,704
                                                                          Civilian FTEs                                     19,797               21,328               23,994
                                                                          Military End Strength                                   61                   46                    42
                                                                          Military Average Strength                               61                   39                    42




                                                                                                                                                                             149
                                                                                                     Figure 12. SMA Personnel Indicators – Civilian Full-Time
Supply Management, Army                                                                              Equivalents

Program Scope                                                                                        Civilian Full-Time Equivalents
Customer Revenue (Program Size)                                                                                 0               1000                 2000                        3000                               4000

                                                                                                                                                                                                  2,869 | 2,790
SMA revenue from customer sales in FY 2005 was $11.5                                                  FY 2003



billion. This exceeded the President’s Budget estimate                                                FY 2004                                                                                     2,941 | 2,936

of $10.7 billion. This excess revenue was a direct result                                             FY 2005                                                                                     2,987 | 3,044

of increased operations conducted in support of the
                                                                                                                                                            Variance    67               46                    57
GWOT. Included in the revenue table are SMA’s direct                                                                                                         Var (%)     2               2                      2
                                                                                                                                                                       FY 2003          FY 2004           FY 2005
appropriations for war reserves of $89 million in
FY 2003 and $105.4 million in FY 2004, and a transfer-in                                             Military End Strength
of $84.4 million in FY 2005.                                                                                    0                5                    10                         15                                  20

                                                                                                      FY 2003                                                                                        13 | 13
Table 16. Total SMA Revenue by Customer ($ millions)
                                                                                                      FY 2004                                                                                        13 | 13

 Appropriation                          FY 2003               FY 2004              FY 2005            FY 2005                                                                                        11 | 11

 Operations and                         $7,379.8             $8,785.4              $9,573.0                                                                 Variance     0                0                    0
 Maintenance, Army                                                                                                                                           Var (%)     0                0                    0
                                                                                                                                                                       FY 2003          FY 2004           FY 2005
 Army Procurement                          374.8                 161.5                 300.3
                                                                                                                                                                                                           Plan
 AWCF                                      468.5                 434.5                 740.5                                                                                                               Actual

 Other Army                                187.4                 209.3                  77.4         Financial Performance
 Other Services                            562.1                 589.5                 528.8         The ﬁnancial performance of the SMA activity group is
 Other DoD                                   93.6                  22.3                 13.2         evaluated on a variety of ﬁscal measures. The primary
 Foreign Military Sales                    281.1                 271.2                 288.8
                                                                                                     measure, unit cost, is used as a managerial control and
                                                                                                     relates resources consumed to outputs produced. The
 Non-DoD                                       9.4                 41.5                   4.8
                                                                                                     aim of the unit cost measure is to associate total cost
 Total Revenue                          $9,356.7            $10,515.2             $11,526.8          to the work or output. Other measures include total
                                                                                                     gross sales; revenue; cost; net operating results; capital
                                                                                                     investment; cash collections, disbursements, and
Personnel
                                                                                                     outlays; and stock availability and stock turn.
As Figure 12 shows, the FY 2005 actual number of
civilian full-time equivalent employees varied less than                                             Wholesale Unit Costs. The wholesale division sells
two percent from plan. Military employment was on                                                    principally to federal government customers and,
plan, with two positions converted to civilian stafﬁng                                               through the Foreign Military Sales Program, to foreign
from FY 2004 to FY 2005                                                                              governments. Wholesale costs include the costs of




Soldiers from 1st Battalion, 41st Infantry Regiment, 3rd Brigade, 1st Armored Division, scan the landing zone for possible hostile forces in northern Baghdad. The troops are on their way to
refurbish an outdoor playground at an Iraqi public school. (by Tech. Sgt. Russell Cooley IV)




150 Working Capital Fund | FY 2005 Army Annual Financial Statement
logistics operations, the cost of materiel, and credit                                        Gross Sales. To achieve its goals in inventory
issued to customers for materiel returns. Unit cost is                                        management and operations management, and to
measured by dividing these costs by gross wholesale                                           recoup operations costs, it is essential that the AWCF
sales.                                                                                        attain its projected sales levels.
                                                                                              Figure 13. SMA Gross Sales

                                                                                              Wholesale Sales ($ millions)
                                                                                                        0               5000                    10000                            15000

                                                                                              FY 2003                                                            $7,056 | 8,573


                                                                                              FY 2004                                                            $8,074 | 9,342


                                                                                              FY 2005                                                            $9,314 | 10,186


                                                                                                                                     Variance $1,517      1,268            872
                                                                                                                                      Var (%)   21          16              9
                                                                                                                                                FY 2003   FY 2004         FY 2005




                                                                                              NAMI/Retail Sales ($ millions)
                                                                                                        0      400             800       1200             1600                   2000

                                                                                              FY 2003                                                               $791 | 726


                                                                                              FY 2004                                                            $1,017 | 1,154

Bruce Telincho, a Pittston Township resident, tests a telephone circuit switch power supply   FY 2005                                                            $1,348 | 1,307
component at Tobyhanna Army Depot. The component will be used in AN/TTC-46 and 47
Mobile Subscriber Equipment. (by Anthony Ricchiazzi)
                                                                                                                                     Variance   ($65)      137              41
                                                                                                                                      Var (%)    (8)        13               3
In FY 2005, the wholesale division achieved a unit cost                                                                                         FY 2003   FY 2004         FY 2005


of $1.12. The initial unit cost goal (UCG) of $0.98 was                                                                                                                    Plan
                                                                                                                                                                           Actual
revised during the ﬁscal year to allow the execution
of immediate requirements for OIF and the GWOT                                                Financial Operation Measures. Budgetary guidelines
resulting in higher–than-expected sales and high                                              require the SMA activity group to recover its operating
hardware obligations.                                                                         costs and fees while achieving zero accumulated
                                                                                              operating results at the end of the budget period. To
NAMI/Retail Unit Costs. Implementation of the Single                                          achieve this goal, AWCF activities set stabilized rates
Stock Fund (SSF) in FY 2003 has altered the mission of                                        eight or more months prior to the beginning of each
the retail division. Prior to SSF, the retail divisions sold                                  ﬁscal year. These rates are based on forecasts of the
to authorized customers within their local geographical                                       potential workload and the cost of meeting workload
area. The retail divisions bought and sold both Army                                          requirements. This projection is then used to set a
managed items (AMI) and non-Army managed items                                                standard price for AWCF goods and services. Since
(NAMI) at the catalog price of the source of supply.                                          revenue is deﬁned as gross sales at standard price, the
Under SSF, the retail division consists only of NAMI.                                         logical ﬁnancial measures of AWCF operations are
                                                                                              revenue, cost, and net operating results. In FY 2005, the
In FY 2005, gross materiel costs were greater than                                            rates were set to achieve a net operating result (NOR)
planned, producing a unit cost of $1.12 that was above                                        of $218.0 million. The actual NOR, less extraordinary
the UCG of $0.98. The higher costs occurred due to                                            items, was a gain of $193 million. Results of operations,
increased inventory requirements caused by OIF and                                            computed according to budget guidance, are presented
the GWOT.                                                                                     in Table 17.




                                                                                                                                                                                  151
Table 17. Financial Operation Measures ($ millions) for SMA

                                                   FY 2003                         FY 2004                           FY 2005
                                                              Variance                        Variance                          Variance
                                      Plan          Actual      (%)       Plan     Actual       (%)      Plan        Actual       (%)
 Revenue                               $5,595        $9,358       67%     $9,097    $10,515       31%    $10,669      $11,527         8%
 Cost of Goods Sold                    $4,496        $8,450       87%     $9,052    $10,381       30%    $10,451      $11,334         8%
 Net Operating Results                     $239        $908      280%        $45      $134       197%      $218         $193       (12%)
 Accumulated Operating Results              $11         $29      164%        $99       $29       (71%)          $0      ($42)         0%


Capital Investment. The SMA activity group’s capital                      based common technology enterprise architecture,
investment program is focused primarily on the                            which will pull all relevant business processes into the
development of computer software to assist managerial                     integrated domain to ensure the Army can maximize
decision-making, to enable the sharing of databases,                      its return on investment. It will allow users access to
and to support the development of more efﬁcient                           all logistics automated tools within the Army logistics
business practices.                                                       enterprise through a single workstation.
Table 18. Capital Budget Obligations ($ millions) for SMA
                                                                          Cash Management
 Category                        FY 2003          FY 2004      FY 2005    The Army manages AWCF cash at the corporate level.
 Equipment                          $0.0             $0.0          $0.0   The performance of individual activity groups is
 ADPE and Telecom                    0.0              1.2           0.0   measured against planned collections, disbursements,
 Software                           45.7             31.3          24.8   and outlays rather than against independent cash
 Total                             $45.7            $32.5        $24.8    balances. FY 2005 collections were greater than
                                                                          projected because of the increase in customer sales
                                                                          associated with OIF and the GWOT. These increases
FY 2005 Capital Investment Program (CIP) projects
                                                                          far exceeded planned increases. Disbursements
include the purchase of the following:
                                                                          included a cash transfer of $700 million from AWCF to
Logistics Modernization Program (LMP) ($21.5                              the OMA appropriation in support of GWOT.
million). The goal of the LMP is to re-engineer existing
logistics processes to provide ﬂexibility in support                      Program Performance
of CONUS-based power projection scenarios. The                            Supply Management uses the following program
program leverages modern information technology                           performance measure:
enablers to provide real-time visibility of the entire
logistics supply chain and thereby support the                            Stock Availability: Stock availability measures the
transformation of military logistics.                                     percentage of SMA requisitions for stocked items
                                                                          completely ﬁlled within Uniform Materiel Movement
Exchange Pricing (EP) ($2.0 million). The goals of                        and Issue Priority System (UMMIPS) timeframes. DoD
EP are to stabilize credit for reparable secondary items,                 and the Army have set a target of 85 percent stock
separate credit from OPTEMPO funding, enable a                            availability. High demands continued in FY 2005.
multiple price/exchange price structure, signiﬁcantly                     On-going contingency operations and the high level of
improve tracking carcass returns to the supply system,                    OPTEMPO in support of OIF and the GWOT continue
reduce associated logistical and ﬁnancial transactions                    to impact stock availability as item managers’ focus
and employee workloads, and reduce risk to AWCF                           on high priority demands for deployed forces. While
SMA cash ﬂow by providing credit only where credit                        stock availability improved, adverse environmental
is due.                                                                   impacts and long supply pipelines continued to
                                                                          drawdown strategic assets faster than the SMA activity
Common Operating Environment (COE) ($1.3                                  group could replace them.
million). The goal of COE is to provide a windows-



152 Working Capital Fund | FY 2005 Army Annual Financial Statement
Figure 14. SMA Cash Management

Collections ($ millions)                                                                                  Disbursements ($ millions)
          0                         5000                     10000                                15000             0     3000         6000       9000             12000                    15000

FY 2003                                                                         $5,719 | 7,124            FY 2003                                                          $5,212 | 5,651

FY 2004                                                                         $6,734 | 8,781            FY 2004                                                          $8,160 | 9,552

FY 2005                                                                         $8,589 | 9,795            FY 2005                                                          $8,902 | 10,188


                                                    Variance $1,405      2,047             1,206                                              Variance   $439       1,392          1,286
                                                     Var (%)   25          30                14                                                Var (%)     8          17             14
                                                             FY 2003     FY 2004           FY 2005                                                       FY 2003    FY 2004        FY 2005



Outlays ($ millions)
      -1500    -1000      -500       0       500    1000     1500      2000         2500           3000

FY 2003                                                                         ($506) | (1,472)


FY 2004                                                                         $1,426 | 771


FY 2005                                                                            $314 | (307)


                                                    Variance ($966)       655              (621)
                                                     Var (%) (191)         46              (198)
                                                             FY 2003     FY 2004           FY 2005

                                                                                            Plan
                                                                                            Actual

Note: Positive outlays drain cash


Table 19. SMA Stock Availability (percentage)

                       1st Quarter         2nd Quarter     3rd Quarter          4th Quarter
 FY 2003                     85                80               75                      70
 FY 2004                     73                69               74                      76
 FY 2005                     76                78               82                      79




                                                                                                                                                                                             153
Industrial Operations                                            which represents equipment and facilities purposely
                                                                 held above peacetime requirements to support
Program Scope                                                    mobilization and surge requirements. Direct funding
As mentioned previously, the IO activity group                   keeps the cost of maintaining this capacity out of the
reﬂects the consolidation of the former AWCF Depot               rates charged to mission customers.
Maintenance and Ordnance activity groups into a                  Table 20. IO Revenue by Customer ($ millions)
consolidated Industrial Operations activity group. The
Army took this action primarily because the activities               Appropriation                       FY 2003             FY 2004              FY 2005
operate very similarly from a ﬁnancial perspective
                                                                     Operations and                        $978.5            $1,512.3             $1,752.5
and there are beneﬁts from consolidation. These                      Maintenance, Army
beneﬁts include the creation of a more integrated                    Army Procurement                       305.2                332.2                699.7
business perspective that encourages cooperation and                 AWCF                                 1,101.9              1,007.3             1,335.3
partnering and focusing capital investment on the
                                                                     Other Army                               36.6               127.7                176.2
good of the business entity rather than on the good of
                                                                     Other Services                           79.1               236.2                265.7
individual installations. This combination of activities
does not include any increase in organizational                      Other DoD                              258.3                261.7                 93.9
structure or cost. It leverages the capabilities of                  Foreign Military Sales                   34.3                46.8                 68.9
depots and arsenals to improve the quality and                       Non-DoD                                  31.4                46.0                 59.7
responsiveness of logistics services and better support              Total Revenue                      $2,825.3             $3,570.2             $4,451.9
the requirements of future customers and Army
transformation.
                                                                 A key objective of the Army is to have the correct
Customer Revenue (Program Size)                                  number of appropriately skilled people in the right
Customer requirements drive workload. Revenue                    places to meet customer workload demands. As
generated by providing goods and services to meet                reﬂected in Figure 15, the workforce continues to
customer requirements was $4.5 billion in FY 2005.               expand to meet this objective. These workforce
Table 20 displays customer revenue for the past three            requirements are supported by the Army workload
ﬁscal years by appropriation.                                    and performance system, which is a model designed
                                                                 to help AWCF activities staff their operations
Total revenue increased $882 million, or 25 percent,             appropriately for the workload. In FY 2005, activities
between FY 2004 and FY 2005. This increase                       used both permanent and non-permanent sources of
was attributable primarily to heightened global                  labor, multiple shifts, and additional overtime to help
commitments and OPTEMPO. Revenue increases                       meet increasing customer requirements.
support ongoing combat requirements as well as
intensive efforts to convert the Army from a division-
centric operating force to a more scalable brigade-
centric force. This concept, known as modularity,
generates high equipment requirements. Satisfying
these requirements involves a combination of
methods, which include resetting equipment used in
the extreme desert operating environment to pre-war
operating condition and continuing to recapitalize
(recap) selected legacy systems to bring them back to
near zero-time, zero-miles condition. In addition to
the revenue shown in Table 20, the IO activity group
received direct appropriations of $60 million in
FY 2003 and $113.9 million in FY 2004, and a transfer-
in of $99.6 million in FY 2005. This funding supports
                                                                 Four M-1 Abrams tanks are in various stages of upgrade on the reassembly line at Anniston
costs associated with industrial mobilization capacity,          Army Depot Combat Vehicle Facility.




154 Working Capital Fund | FY 2005 Army Annual Financial Statement
Figure 15. IO Personnel Indicators                                                                          also known as the unit cost, which reﬂects macro-level
Civilian Full-Time Equivalents
                                                                                                            changes in the cost of providing goods and services.
          0              6000           12000       18000                 24000                     30000
                                                                                                            Table 21. IO Cost per Direct Labor Hour
FY 2003                                                                           16,725 | 17,007


FY 2004                                                                           19,067 | 18,393                                                   FY 2003       FY 2004   FY 2005
FY 2005                                                                           21,040 | 20,950                                                   Actual         Actual   Actual
                                                Variance     282           (674)           (90)              Cost per Direct Labor Hour             $152.0        $150.3    $156.3
                                                 Var (%)     1.69          (3.5)           (0.4)
                                                            FY 2003        FY 2004        FY 2005
                                                                                                             Change from Prior Year (%)             (0.81%)       (1.2%)      4%
                                                                                                             Direct Labor Hours (thousands)         18,552        23,072    27,897
Military End Strength
          0                        25                        50                                       75

FY 2003                                                                               49 | 49
                                                                                                            Financial Operating Measures. Under the full-cost
                                                                                                            recovery concept, stabilized rates are set to cover
FY 2004                                                                               36 | 33
                                                                                                            all costs and produce a zero accumulated operating
FY 2005                                                                               31 | 31
                                                                                                            result (AOR) at the end of the ﬁscal year. The rates
                                                Variance      0             (3)                 0           are stabilized so that customers’ programs will not be
                                                 Var (%)      0            (8.3)                0           affected during execution, even though the actual costs
                                                            FY 2003        FY 2004        FY 2005

                                                                                            Plan
                                                                                                            of the AWCF activity may be higher or lower than
                                                                                            Actual          planned. They are included in the President’s Budget,
                                                                                                            published approximately eight months in advance of
Performance Measures                                                                                        the year of execution.
Financial Performance
                                                                                                            During execution, the IO activity group may
Financial performance measures include cost per direct
                                                                                                            experience either a positive or negative net operating
labor hour, revenue, cost of goods sold, accumulated
                                                                                                            result (NOR). The gain or loss shown in the NOR is
operating results, customer revenue rate, capital                                                           added to the AOR from past years. Deviations from
investment, and cash management.                                                                            the plan impact the IO activity group to the extent that
                                                                                                            an unplanned gain or loss must be included in the
Cost per Direct Labor Hour. The cost per direct labor                                                       following year’s rates to bring the AOR to zero. Any
hour (DLH) is computed by taking the sum of all labor                                                       change in rates may result in an increase or decrease in
and non-labor expenses (direct, indirect, and general                                                       the customer buying power.
and administrative (G&A)), plus the change in work in
process, and dividing that sum by the total number of                                                       Table 22 shows ﬁnancial operating measures for the
DLHs worked during the ﬁscal year. This calculation is                                                      past three ﬁscal years. FY 2005 revenue and costs were

Table 22. IO Financial Operation Measures ($ millions)

                                                                    FY 2003                                             FY 2004                                  FY 2005
                                                                  Plan                          Actual                Plan                 Actual              Plan           Actual
  Revenue                                                  $2,340.3                      $2,885.2                 $4,087.9           $3,684.1            $4,625.5           $4,551.5
  Cost of Goods Sold                                        2,358.2                         2,820.8                4,107.6                3,466.6            4464.4         $4,361.2
  Operating Results                                          (17.9)                                 64.4             (19.7)                217.5              161.1           $190.3
              (less Cash Surcharge)                                 0.4                               0.7              0.5                    0.6               0.3           ($0.3)
              (less Extraordinary Items)                            0.0                               0.0              0.0                    0.0               0.0             $0.0
  Net Operating Results                                      (18.3)                                 63.7             (20.2)                216.9              160.8           $190.0
  Beginning AOR                                               135.7                              142.6               213.9                 213.9              455.2           $455.2
              (less Adjustments)                                    0.0                               7.6            (74.7)                 24.4             (124.7)            $1.9
  Beginning AOR Adjusted                                      135.7                              150.2               139.2                 238.3              330.5           $457.0
  AOR (NOR plus adjusted AOR)                               $117.4                              $213.9              $119.0                $455.2             $491.3           $647.0




                                                                                                                                                                                   155
$4.5 billion and $4.4 billion respectively.                                                        replace worn and obsolete equipment, to eliminate
FY 2005 variance from plan was low at minus 2 percent,                                             environmental hazards, and to increase throughput via
which is a remarkable achievement given the number                                                 enhanced productivity.
of installations and spectrum of production lines
involved.                                                                                          Table 24 represents capital obligation authority.
                                                                                                   Selected FY 2005 highlights include $39.4 million
Customer Revenue Rate. Customer revenue rates are                                                  for new facility equipment to repair, rebuild, and
set per DLH and are stabilized so that the customer’s                                              test reciprocating engines at Anniston Army Depot;
buying power is protected in the year of execution.                                                $18.9 million to replace obsolete Patriot missile test
Table 23 shows the composite stabilized revenue                                                    station equipment ensuring missile reliability at Red
rates per DLH. Because the Depot Maintenance and                                                   River Army Depot; and $9.1 million to conduct non-
Ordnance activity groups were merged into the IO                                                   destructive tests of ﬂight critical parts at Corpus Christi
activity group in FY 2005, consolidated rates are not                                              Army Depot. The FY 2005 capital budget is higher than
available for FY 2003 and FY 2004. Therefore, the                                                  FY 2003 and FY 2004 based on the increasing volume of
separate revenue rates are shown for those years.                                                  work being performed in the organic industrial base in
                                                                                                   support of wartime workload.
Table 23. IO Stabilized Rates
                                                                                                   Table 24. IO Capital Budget ($ millions)
 Direct Labor Rate                          FY 2003           FY 2004            FY 2005
 Depot Maintenance
                                                                                                    Category                    FY 2003       FY 2004   FY 2005

 Customer Revenue Rate ($)                    133.80            144.91                 NA           Equipment                     $40.8         $41.9    $114.6

 Customer Rate Change (%)                       7.4%              8.3%                 NA           Minor Construction              4.5          15.3      17.7
                                                                                                    ADPE and Telecom                0.0           2.6       3.6
 Ordnance
                                                                                                    Software                       21.3          20.9      17.8
 Customer Revenue Rate ($)                     69.07              70.05                NA
 Customer Rate Change (%)                    (27.0%)              1.4%                 NA           Total                         $66.6         $80.7    $153.7

 Industrial Operations
 Customer Revenue Rate ($)                        NA                 NA            129.57          Cash Management.
 Customer Rate Change (%)                         NA                 NA                NA          The Army manages AWCF cash at the corporate
                                                                                                   level maintaining a single merged account for both
Capital Investment. The AWCF capital investment                                                    SMA and IO. The performance of individual activity
threshold is $100,000. Any items purchased at or above                                             groups is measured against planned collections,
the threshold are capitalized and then depreciated                                                 disbursements, and outlays rather than in terms of
through the operating budget.                                                                      cash balances. IO collections and disbursements in
                                                                                                   FY 2005 were $4.5 billion each. Outlays exceeded the
The activity group seeks to maintain and develop                                                   plan by $51.3 million as installations pre-positioned a
capabilities through capital acquisition of new                                                    signiﬁcant amount of spare parts in support of repair
equipment and minor construction projects. The                                                     and manufacturing programs to help preclude breaks
capital investment program provides a way to                                                       in production.




Bradley manufacturing division at Red River Army Depot, Texarkana, Texas. (by Staff Sgt. Reeba Critser)




156 Working Capital Fund | FY 2005 Army Annual Financial Statement
Figure 16. IO Cash Management ($ millions)

Collections ($ millions)                                                                                                  Disbursements ($ millions)
          0                  1500                    3000                      4500                             6000                0                  1500               3000                        4500                          6000

FY 2003                                                                                     $2,093 | 2,492                FY 2003                                                                                  $2,435 | 2,691

FY 2004                                                                                     $4,156 | 3,669                FY 2004                                                                                  $4,173 | 3,498

FY 2005                                                                                     $4,537 | 4,505                FY 2005                                                                                  $4,502 | 4,521


                                                            Variance $399             (488)              (32)                                                                    Variance $257               (676)           19
                                                             Var (%)  19               (12)               (1)                                                                     Var (%)  11                 (16)           0
                                                                     FY 2003          FY 2004           FY 2005                                                                             FY 2003          FY 2004       FY 2005



Outlays ($ millions)
      -300     -200       -100       0         100           200      300         400             500             600

FY 2003                                                                                         342 | 200


FY 2004                                                                                          17 | (171)               Ammunition Short Tons
FY 2005                                                                                         (35) | 16                 Ammunition short tons is a measure of the amount
                                                            Variance ($142)            (188)             51
                                                                                                                          of short tons (2,000 pounds) of ordnance received,
                                                             Var (%) (142)            (1,125)           (147)             issued, or demilitarized. Based on standards at the
                                                                     FY 2003          FY 2004           FY 2005

                                                                                                            Plan
                                                                                                                          installations, this ﬁgure has a direct correlation to
                                                                                                            Actual        personnel, funding, and rates (see Table 26).

Program Performance
Program performance measures include production
                                                                                                                          Table 26. Ammunition Short Tons
output, schedule conformance, and ammunition short
tons received, issued, or demilitarized.                                                                                                           FY 2003          FY 2004                           FY 2005
                                                                                                                                                                                                                        Variance
Table 25 lists the quantity and customer price for                                                                                                     Actual        Actual          Plan             Actual              (%)
representative items over the last three ﬁscal years.                                                                       Receipts                  162,395       257,744        136,635            214,066                  56%
The table highlights a speciﬁc repair item at each
                                                                                                                            Issues                    202,655       198,661        152,500            192,066                  26%
maintenance depot. Prices indicated are per unit
                                                                                                                            Demilitarized               19,780       19,806         20,797              23,348                 12%
prices. Fluctuations are attributable primarily to
changes in direct materiel costs.

Table 25. IO Production Output



                                                                                  FY 2003                                           FY 2004                                         FY 2005
                                                                       Actual                   Unit Price               Actual          Unit Price           Proposed     Actual             Deviation                Unit Price
 Maintenance Item (Installation)                                      Quantity                     ($)                  Quantity            ($)               Quantity    Quantity              (%)                       ($)
 Engine, Turbine, T701C (Anniston)                                              560              $149,848                      355        $213,776                 153              188                 23%             $287,060
 Engine, Turbine, T700-GE (Corpus Christi)                                        55             $264,751                      130        $258,972                 144              185                 28%             $265,793
 Patriot Launcher (Letterkenny)                                                   40             $699,575                           40    $653,725                  34               34                       0         $581,804
 Wheel, Solid Rubber (Red River)*                                              8,945                    $208                8,975              $214             19,868           13,580                  (32)                 $263
 Visual Display Unit, AH64 (Tobyhanna)                                            49                 $8,438                         60        $8,755               100              100                       0            $9,411
 *The quantities and unit prices reﬂected for Red River are for 26x6 road wheels only.




                                                                                                                                                                                                                                    157
Schedule Conformance. This performance measure                                      in the supply requirements determination process,
records the number of units completed on schedule as                                the price/credit and repair process, and the budget
a percentage of the number of units scheduled. Units                                stratiﬁcation processes. As a result, several RIEs have
completed include both major end items and secondary                                been conducted to develop ways to improve these
items (reparable parts) (see Figure 17).                                            processes notably by streamlining the requirements
                                                                                    determination process and the price/credit process
Figure 17. IO Schedule Conformance (percentage)
                                                                                    used to determine customer prices and obligation
          0   30          60          90              120                     150
                                                                                    authority requirements for AWCF inventory. Many of
FY 2003                                                         96 | 95
                                                                                    these new initiatives will be implemented beginning in
                                                                                    FY 2006. The RIE teams continue to create meaningful
FY 2004                                                         96 | 95
                                                                                    dialogue between all stakeholders and identify critical
                                                                96 | 96
FY 2005
                                                                                    areas to be addressed. As these RIE teams work
                                  Var (%)    (1)       (1)                0         through the process and identify more efﬁcient ways of
                                            FY 2003   FY 2004       FY 2005
                                                                                    doing business, these solutions will be implemented.
                                                                      Plan
                                                                      Actual
                                                                                    Lean/Six Sigma
                                                                                    In recent years, the Army has begun implementing
                                                                                    Lean/Six Sigma to re-engineer many of its
Future Effects of Existing Conditions                                               manufacturing and administrative processes. This
                                                                                    year, tangible and measurable beneﬁts have been
Cash Corpus                                                                         realized as Lean/Six Sigma implementations mature,
Over the past two years, in FY 2004 with congressional                              particularly in the manufacturing, recapitalization,
notiﬁcation and in FY 2005 with congressional                                       maintenance, and repair facilities operated by AMC,
approval, the Army has transferred $2.0 billion from                                which is leading the execution of the program.
the AWCF to the OMA account. The AWCF is required                                   Lean/Six Sigma initiatives are designed to streamline
to maintain cash only in the amount that is needed                                  operations across the enterprise, reduce bureaucracy,
for current operations. These transfers were made in                                and improve ﬂexibility and agility. Process
support of higher priority items, based on unforeseen                               improvements have resulted in millions of dollars of
military requirements, stemming from the GWOT.                                      savings that will be passed back directly to customers
The cash was excess to current requirements of the                                  in the form of reduced costs and/or more production
AWCF. Funds will need to be returned in future years                                output.
as operations are drawn down and the fund returns to
peacetime operations. The cash may be replenished by                                Letterkenny Army Depot. Prior to Lean/Six Sigma,
either a direct appropriation to the AWCF or by adding                              approximately 8,000 Patriot air defense missile
a cash surcharge to the rates.                                                      system components were processed per month in the
                                                                                    directorate of maintenance. Following the Lean/Six
                                                                                    Sigma implementation, throughput and productivity
Advancing the President’s                                                           signiﬁcantly increased. During 2004, with OIF mission
Management Agenda                                                                   surge, parts volume increased to about 20,000 parts
The President’s management agenda has great                                         per month without having to add personnel. During
relevance in the logistics arena. By improving their                                2005, three additional workers were hired as the parts
management efﬁciency, all AWCF activities should be                                 volume rose to a high of 36,912 parts in March 2005 – a
able to lower the rates they charge to customers.                                   productivity increase of 312 percent when factoring in
                                                                                    the added manpower. Process quality improved to the
                                                                                    point in March 2005 when zero rejects were recorded
Improved Financial Performance                                                      and, during the six month period of November 2003
Rapid Improvement Event (RIE) Initiatives                                           through April 2005, only nine external rejects were
In FY 2005, the AWCF initiated a value stream analysis                              recorded equating to a 99.993 percent quality rating.
process to assess inefﬁciencies and redundancies



158 Working Capital Fund | FY 2005 Army Annual Financial Statement
Red River Army Depot. The High Mobility                                                      which is also commonly referred to as business
Multipurpose Wheeled Vehicle (HMMWV)                                                         enterprise architecture (BEA)-logistics, or BEA-LOG,
recapitalization production line was averaging just                                          has six principal components: total lifecycle systems
three vehicles weekly and required over 400 man-hours                                        management (TLCSM), end-to-end customer support,
per vehicle in July 2004. In June 2005, the HMMWV                                            condition-based maintenance, depot partnering,
team was producing 84 vehicles a week, with a new                                            executive agency, and enterprise integration. All
one-day record of 21 vehicles produced in a 10 hour                                          services must ensure that their enterprise integration
work shift.                                                                                  efforts and architectures are in concert with the FLE/
                                                                                             BEA-LOG, which in turn maps to the BEA. The desired
                                                                                             outcome is that within DoD, all services and the
                                                                                             Defense Logistics Agency (DLA) will operate a single
                                                                                             integrated solution whose technical and functional
                                                                                             architecture supports the warﬁghter.

                                                                                             The central objective of the SALE is to develop a fully
                                                                                             integrated knowledge environment that builds and
                                                                                             sustains warﬁghting capability. Logistics, ﬁnancial,
                                                                                             acquisition, and product data will be brought together
                                                                                             in an environment that operates in a near seamless
                                                                                             fashion from the Soldier, to the major Army command,
                                                                                             to Army headquarters, across DoD, and across
                                                                                             industry. Business systems will capture and integrate
                                                                                             data ﬂowing from automatic identiﬁcation technology
Vice Chief of Staff Gen. Richard A. Cody looks at the ﬁnished uparmor kits produced by the
employees at Red River Army Depot, Texarkana, Texas. (by Staff Sgt. Reeba Critser)           and embedded weapons system diagnostics, and
                                                                                             will make these data available to logisticians, system
Corpus Christi Army Depot. Corpus Christi Army                                               engineers, and warﬁghters.
Depot (CCAD) has used Lean/Six Sigma to reduce
by more than half the amount of time it takes to                                             The Army has adopted an incremental approach to
recapitalize the Black Hawk and Apache helicopter                                            delivering SALE capabilities as quickly as possible to
T-700 engines. In 2000, it took more than 260 days to                                        its Soldiers. The SALE strategy consists of four phases.
disassemble one T-700 engine and reassemble it with                                          Today, in phase 1, the Army is enhancing its current
new parts; CCAD now averages only 81 days and the                                            logistics legacy systems at the tactical level in support
total annual number of units shipped has increased                                           of modularity. Simultaneously, the Army is ﬁelding
from 520 to 1344 over the same period.                                                       the Logistics Modernization Program (LMP) at the
                                                                                             national level through FY 2007. In phase 2, projected
Anniston Army Depot. A Lean/Six Sigma                                                        in the FY 2007-2008 timeframe, the Army will include
implementation on the M88 assembly line has                                                  the ﬁelding of the modernized tactical level, enterprise
increased production from eight vehicles per month to                                        resource planning (ERP) programs: Global Combat
12 vehicles per month.                                                                       Support System (Field/Tactical) and GCSS-Army
                                                                                             (Product Lifecycle Management Plus) along with
                                                                                             delivering LMP to the installation level. In phases
Expand Electronic Government                                                                 3 and 4 the Army will accelerate the elimination of
Single Army Logistics Enterprise                                                             interfaces and integrate logistics functions more clearly
The Single Army Logistics Enterprise (SALE) involves                                         into one SALE – providing even greater capability to
integrating several modernizing initiatives, including                                       sustain the combat readiness of deployed forces.
LMP, the Global Combat Support System-Army
(GCSS-Army) (Field/Tactical), and GCSS-Army                                                  Logistics Modernization Program
(Product Lifecycle Management Plus) within the                                               The LMP, a key component of Army transformation,
DoD Future Logistics Enterprise (FLE). The FLE,                                              will update the Army’s national-level logistics business



                                                                                                                                                   159
practices and supporting information technology. The                                            in Figure 18. LMP is implemented at CECOM;
LMP will provide integrated logistics management                                                Headquarters, AMC; and associated DFAS sites.
capabilities such as total asset visibility, a single                                           Deployment to AMCOM and associated DFAS sites
source of data, better forecasting accuracy, and real-                                          is scheduled to begin in 2006. The ﬁnal deployment
time access to enterprise information. The Army also                                            will be to the remainder of AMC, Army CONUS
expects that LMP will improve readiness measurably.                                             installations, and OCONUS war reserve and Army
AMC initiated the pilot phase in July 2003, as shown                                            prepositioned stocks locations, beginning in 2007.

Figure 18. Logistics Modernization Program


    Institutional Risk                                  Streamline Decision Processes, Financial Management Acquisition Excellence

             FY 2003                             FY 2004                            FY 2005                        FY 2006
     1       2       3       4         1         2         3       4         1      2       3      4          1       2               LMP is in Pilot
                                                                                                                                      Stabilization Phase
                                                                                                                                      Making Steady Progress
                                             Pilot Stabilization                                             Pilot Stabilization      in Correcting Items to
                                             effort started                                                  effort to be
                                                                                                             completed/               Complete This Phase.
                                                                                                             validated
                                 Pilot Go-Live
                                                                                                                                      Overall LMP is Rated
                                                                                                                                      Yellow
 Pilot                                               2nd Deployment                     3rd Deployment
 Communications-Electronics                          Aviation & Missle                  Tank-automotive & Armaments Command (TACOM)     As of 30 July 2004,
 Command (CECOM)                                     Command (AMCOM)                    Anniston Army Depot (ANAD)
 HQ Army Materiel Command (AMC)                      Corpus Christi Army Depot (CCAD)   Red River Army Depot (RRAD)                     584 of 722 items
 Tobyhanna Army Depot (TYAD)                         Letterkenny Army Depot (LEAD)      Army Field Support Command (AFSC)
 Defense Finance & Accounting Service (DFAS)                                            Joint Munitions Command (JMC)
                                                                                                                                        completed (81
                                                                                                                                        percent through Pilot
 Description: AIR 13 - Log Modernization Program                                                                                        Stabilization).
 Provide the Army with integrated logistics management capabilities such as total asset visibility, a single
 source or data, improved forecasting accuracy, and realtime access to enterprise information.                                          Pilot
                                                                                                                                        Stabilization/Financial
 Parameter:
 Green: On schedule, Yellow: 1 Quarter behind schedule, Red: 2 Quarters behind schedule                                                 Correction will be
                                                                                                                                        completed end of
 Metric: Milestones planned/achieved                                                                                                    October
 Owner: AMC
                                                                                                                                                  *As of September 2005




160 Working Capital Fund | FY 2005 Army Annual Financial Statement
Photo Credits
Working Capital Fund Opening Photo
Sgt. Matthew Crawford, from the 818th Maintenance Company, 1225th Corps Support
Battalion, 917th Corps Support Group, welds armor on a vehicle in Q-West, Iraq. (by Sonise
Lumbaca)




                                                                                        161
                   Principal Financial Statements, Notes, and Supplementary Information




162 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
LIMITATIONS
LIMITATIONS OF THE FINANCIAL STATEMENTS

The ﬁnancial statements have been prepared to report the ﬁnancial position and results
of operations for the entity, pursuant to the requirements of Title 31, United States Code,
section 3515(b).

While the statements have been prepared from the books and records of the entity, in
accordance with the formats prescribed by the Ofﬁce of Management and Budget, the
statements are in addition to the ﬁnancial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

To the extent possible, the ﬁnancial statements have been prepared in accordance with
federal accounting standards. At times, the department is unable to implement all elements
of the standards due to ﬁnancial management systems limitations. The department
continues to implement system improvements to address these limitations. There are other
instances when the department’s application of the accounting standards is different from
the auditor’s application of the standards. In those situations, the department has reviewed
the intent of the standard and applied it in a manner that management believes fulﬁlls that
intent.

The statements should be read with the realization that they are for a component of the
United States Government, a sovereign entity. One implication of this is that the liabilities
cannot be liquidated without legislation that provides resources to do so.




                                                                   FY 2005 Army Annual Financial Statement 163
164 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
Department of Defense - Army Working Capital Fund
CONSOLIDATED BALANCE SHEET
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                     2005 Consolidated                      2004 Consolidated
¬¬¬ASSETS¬(Note¬2)
     Intragovernmental:
        Fund Balance with Treasury (Note 3)
        Entity                                                   $              623,330 $                                    948,463
        Non-Entity Seized Iraqi Cash                                                  0                                            0
        Non-Entity-Other                                                              0                                            0
        Investments (Note 4)                                                          0                                            0
        Accounts Receivable (Note 5)                                            366,622                                      444,923
        Other Assets (Note 6)                                                         0                                           79
        Total Intragovernmental Assets                           $              989,952 $                                  1,393,465

     Cash and Other Monetary Assets (Note 7)                     $                   0 $                                          0
     Accounts Receivable (Note 5)                                               12,035                                       13,482
     Loans Receivable (Note 8)                                                       0                                            0
     Inventory and Related Property (Note 9)                                15,933,141                                   13,916,672
     General Property, Plant and Equipment (Note 10)                         1,228,213                                      899,438
     Investments (Note 4)                                                            0                                            0
     Other Assets (Note 6)                                                     333,741                                      265,122
¬¬¬TOTAL¬ASSETS                                                  $          18,497,082 $                                 16,488,179

¬¬¬LIABILITIES¬(Note¬11)
      Intragovernmental:
         Accounts Payable (Note 12)                              $              105,603 $                                    159,150
         Debt (Note 13)                                                               0                                            0
         Other Liabilities (Note 15 & Note 16)                                   75,579                                       67,660
         Total Intragovernmental Liabilities                     $              181,182 $                                    226,810

     Accounts Payable (Note 12)                                  $              295,820 $                                    372,054
     Military Retirement Benefits and Other Employment-Related                  286,523                                      304,976
        Actuarial Liabilities (Note 17)
     Environmental Liabilities (Note 14)                                             0                                             0
     Loan Guarantee Liability (Note 8)                                               0                                             0
     Other Liabilities (Note 15 and Note 16)                                   642,522                                       213,452
¬¬¬TOTAL¬LIABILITIES                                             $           1,406,047 $                                   1,117,292

¬¬¬NET¬POSITION
     Unexpended Appropriations                                   $                   0 $                                         53
     Cumulative Results of Operations                                       17,091,035                                   15,370,834
¬¬¬TOTAL¬NET¬POSITION                                            $          17,091,035 $                                 15,370,887

¬¬¬TOTAL¬LIABILITIES¬AND¬NET¬POSITION                            $          18,497,082 $                                 16,488,179




                                                                             The accompanying notes are an integral part of these ﬁnancial statements.


                                                                               FY 2005 Army Annual Financial Statement 165
Department of Defense - Army Working Capital Fund
CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                               2005 Consolidated                         2004 Consolidated
¬¬¬Program¬Costs
      Intragovernmental Gross Costs                                 $                    2,016,164        $                             2,847,994
      (Less: Intragovernmental Earned Revenue)                                         (7,556,355)                                    (8,456,053)
      Intragovernmental Net Costs                                   $                  (5,540,191)        $                           (5,608,059)
      Gross Costs With the Public                                   $                  10,600,436         $                             8,161,300
      (Less: Earned Revenue From the Public)                                           (6,918,271)                                    (4,951,052)
      Net Costs With the Public                                     $                    3,682,165        $                             3,210,248
      Total Net Cost                                                $                  (1,858,026)        $                           (2,397,811)
¬¬¬Cost¬Not¬Assigned¬to¬Programs                                                                 0                                              0
¬¬¬(Less:Earned¬Revenue¬Not¬Attributable¬to¬Programs)                                            0                                              0
¬¬¬Net¬Cost¬of¬Operations                                           $                  (1,858,026)        $                           (2,397,811)




                                                                                         The accompanying notes are an integral part of these ﬁnancial statements.


166 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
Department of Defense - Army Working Capital Fund
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                     2005 Consolidated                  2004 Consolidated
CUMULATIVE¬RESULTS¬OF¬OPERATIONS
   Beginning¬Balances                                            $          15,370,834 $                             13,883,676
   Prior Period Adjustments¬(+/-)
        Changes in Accounting Principles (+/-)                                       0                                        0
        Correction of Errors (+/-)                                                   0                                        0
   Beginning¬Balances,¬as¬adjusted                               $          15,370,834 $                             13,883,676
   Budgetary¬Financing¬Sources:
        Appropriations received                                                       0                                        0
        Appropriations transferred-in/out (+/-)                                       0                                        0
        Other adjustments (rescissions, etc) (+/-)                                    0                                        0
        Appropriations used                                                          53                                  231,207
        Nonexchange revenue                                                           0                                        0
        Donations and forfeitures of cash and cash equivalents                        0                                        0
        Transfers-in/out without reimbursement (+/-)                          (515,944)                              (1,448,600)
        Other budgetary financing sources (+/-)                                       0                                  175,918
   Other¬Financing¬Sources:
        Donations and forfeitures of property                                         0                                        0
        Transfers-in/out without reimbursement (+/-)                                  1                                        0
        Imputed financing from costs absorbed by others                         147,135                                  130,821
        Other (+/-)                                                             230,930                                        0
   Total¬Financing¬Sources                                       $            (137,825) $                              (910,654)
   Net¬Cost¬of¬Operations¬(+/-)                                             (1,858,026)                              (2,397,811)
   Net¬Change                                                    $            1,720,201 $                              1,487,157
   Ending¬Balance                                                $          17,091,035 $                             15,370,833

UNEXPENDED¬APPROPRIATIONS
¬¬¬¬Beginning¬Balances                                           $                     53 $                                 11,960
¬¬¬¬Prior¬period¬adjustments¬(+/-)
        Changes in Accounting Principles (+/-)                                          0                                        0
        Correction of Errors (+/-)                                                      0                                        0
¬¬¬¬Beginning¬Balances,¬as¬adjusted                              $                     53 $                                 11,960
¬¬¬¬Budgetary¬Financing¬Sources:
        Appropriations received                                                         0                                 219,300
        Appropriations transferred-in/out (+/-)                                         0                                       0
        Other adjustments (rescissions, etc) (+/-)                                      0                                       0
        Appropriations used                                                          (53)                               (231,207)
        Nonexchange revenue                                                             0                                       0
        Donations and forfeitures of cash and cash equivalents                          0                                       0
       Transfers-in/out without reimbursement (+/-)                                     0                                       0
       Other budgetary financing sources (+/-)                                          0                                       0
¬¬¬¬Other¬Financing¬Sources:
        Donations and forfeitures of property                                           0                                       0
        Transfers-in/out without reimbursement (+/-)                                    0                                       0
        Imputed financing from costs absorbed by others                                 0                                       0
        Other (+/-)                                                                     0                                       0
    Total¬Financing¬Sources                                      $                   (53) $                              (11,907)
    Net¬Cost¬of¬Operations¬(+/-)
    Net¬Change                                                                       (53)                                (11,907)
    Ending¬Balance                                               $                      0 $                                    53




                                                                              The accompanying notes are an integral part of these ﬁnancial statements.


                                                                                FY 2005 Army Annual Financial Statement 167
Department of Defense - Army Working Capital Fund
COMBINED STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2005 and 2004 ($ in Thousands)



                                                                Budgetary Financing Accounts           Non-Budgetary Financing Accounts
                                                               2005 Combined     2004 Combined         2005 Combined      2004 Combined
BUDGETARY¬RESOURCES
   Budget Authority:
      Appropriations received                              $                0 $          219,300 $                            0 $                              0
      Borrowing authority                                                   0                  0                              0                                0
      Contract authority                                           10,951,904          2,106,368                              0                                0
      Net transfers (+/-)                                                   0        (1,448,600)                              0                                0
      Other                                                                 0                  0                              0                                0
   Unobligated balance:
      Beginning of period                                           1,530,242         2,093,703                               0                                0
      Net transfers, actual (+/-)                                   (515,944)                 0                               0                                0
        Anticipated Transfers Balances                                      0                 0                               0                                0
   Spending authority from offsetting collections:
      Earned                                                                  0                0                              0                                0
        Collected                                                  14,180,280        12,265,860                               0                                0
        Receivable from Federal sources                                (29,369)         (53,776)                              0                                0
      Change in unfilled customer orders                                      0                0                              0                                0
        Advance received                                                 19,271         (17,246)                              0                                0
        Without advance from Federal sources                         (774,190)        (128,900)                               0                                0
      Anticipated for the rest of year, without advances                      0                0                              0                                0
      Previously unavailable                                                  0                0                              0                                0
      Transfers for trust funds                                               0                0                              0                                0
      Subtotal                                             $       13,395,992 $      12,065,938 $                             0 $                              0
   Recoveries of prior year obligations                              1,435,592          499,733                               0                                0
   Temporarily not available pursuant to Public Law                           0                0                              0                                0
   Permanently not available                                       (8,798,841)                 0                              0                                0
¬¬¬Total¬Budgetary¬Resources                               $       17,998,945 $      15,536,442 $                             0 $                              0

STATUS¬OF¬BUDGETARY¬RESOURCES
   Obligations incurred:
       Direct                                              $                0 $               0 $                             0 $                              0
       Reimbursable                                                16,822,445        14,006,202                               0                                0
       Subtotal                                            $       16,822,445 $      14,006,202 $                             0 $                              0
   Unobligated balance:
       Apportioned                                                  1,176,499         1,530,241                               0                                0
       Exempt from apportionment                                            0                  0                              0                                0
       Other available                                                      1                (1)                              0                                0
   Unobligated Balances Not Available                                       0                  0                              0                                0
¬¬¬Total,¬Status¬of¬Budgetary¬Resources                    $       17,998,945 $      15,536,442 $                             0 $                              0
Relationship¬of¬Obligations¬to¬Outlays:
   Obligated Balance, Net - beginning of period            $        3,968,080 $       1,898,332 $                             0 $                              0
   Obligated Balance transferred, net (+/-)                                 0                 0                               0                                0
   Obligated Balance, Net - end of period:
       Accounts receivable                                           (433,233)         (462,602)                              0                                0
       Unfilled customer order from Federal sources                (3,748,523)       (4,522,713)                              0                                0
       Undelivered orders                                            9,775,648         8,334,654                              0                                0
       Accounts payable                                                555,861           618,741                              0                                0
    Outlays:
       Disbursements                                                14,008,740        11,619,397                              0                                0
       Collections                                                (14,199,551)      (12,248,614)                              0                                0
       Subtotal                                            $         (190,811) $       (629,217) $                            0 $                              0
   Less: Offsetting receipts                                                 0                 0                              0                                0
¬¬ Net¬Outlays                                             $         (190,811) $       (629,217) $                            0 $                              0

                                                                                           The accompanying notes are an integral part of these ﬁnancial statements.


168 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
Department of Defense - Army Working Capital Fund
CONSOLIDATED STATEMENT OF FINANCING
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                                                 2005 Consolidated                      2004 Consolidated
Resources¬Used¬to¬Finance¬Activities:
Budgetary Resources Obligated
 Obligations incurred                                                                        $              16,822,445 $                             14,006,202
 Less: Spending authority from offsetting collections                                                     (14,831,585)                             (12,565,671)
 and recoveries (-)
 Obligations net of offsetting collections and recoveries                                    $                1,990,860 $                              1,440,531
 Less: Offsetting receipts (-)                                                                                        0                                        0
 Net obligations                                                                             $                1,990,860 $                              1,440,531
Other Resources
 Donations and forfeitures of property                                                                                0                                        0
 Transfers in/out without reimbursement (+/-)                                                                         1                                        0
 Imputed financing from costs absorbed by others                                                                147,135                                  130,821
 Other (+/-)                                                                                                    230,930                                        0
 Net other resources used to finance activities                                              $                  378,066 $                                130,821
Total¬resources¬used¬to¬finance¬activities                                                   $                2,368,926 $                              1,571,352
Resources¬Used¬to¬Finance¬Items¬not¬Part of¬the¬Net¬Cost¬of¬Operations
 Change in budgetary resources obligated for goods,
 services and benefits ordered but not yet provided
       Undelivered Orders (-)                                                                $              (1,514,883) $                            (2,497,681)
       Unfilled Customer Orders                                                                               (754,919)                                (146,147)
 Resources that fund expenses recognized in prior periods                                                      (21,283)                                 (23,337)
 Budgetary offsetting collections and receipts that do not affect net cost of operations                              0                                        0
 Resources that finance the acquisition of assets                                                           (7,998,974)                              (6,214,549)
 Other resources or adjustments to net obligated resources
 that do not affect net cost of operations
       Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-)                           0                                         0
       Other (+/-)                                                                                           (230,931)                                     6,872
Total¬resources¬used¬to¬finance¬items¬not part¬of¬the¬net¬cost¬of¬operations                 $            (10,520,990) $                             (8,874,842)
Total¬resources¬used¬to¬finance¬the¬net¬cost¬of operations                                   $             (8,152,064) $                             (7,303,490)

Components¬of¬the¬Net¬Cost¬of¬Operations¬that¬will
not¬Require¬or¬Generate¬Resources¬in¬the¬Current¬Period:
Components Requiring or Generating Resources in Future Period:
 Increase in annual leave liability                                                          $                     28,898 $                                  1,376
 Increase in environmental and disposal liability                                                                       0                                        0
 Upward/Downward reestimates of credit subsidy expense (+/-)                                                            0                                        0
 Increase in exchange revenue receivable from the the public (-)                                                        0                                        0
 Other (+/-)                                                                                                            0                                      172
 Total components of Net Cost of Operations that                                             $                     28,898 $                                  1,548
     will require or generate resources in future periods
Components not Requiring or Generating Resources:
 Depreciation and amortization                                                                                    95,884                                   82,909
 Revaluation of assets or liabilities (+/-)                                                                      699,913                                  257,468
 Other (+/-)
        Trust Fund Exchange Revenue                                                                                   0                                        0
        Cost of Goods Sold                                                                                    6,025,370                                5,003,845
        Operating Material & Supplies Used                                                                            0                                        0
        Other                                                                                                 (556,029)                                (440,090)
 Total components of Net Cost of Operations that
  will not require or generate resources                                                     $                6,265,138 $                              4,904,132
Total¬components¬of¬net¬cost¬of¬operations¬that
will¬not¬require¬or¬generate¬resources¬in¬the¬current period                                 $                6,294,036 $                              4,905,680
Net¬Cost¬of¬Operations                                                                       $              (1,858,028) $                            (2,397,810)

                                                                                                 The accompanying notes are an integral part of these ﬁnancial statements.


                                                                                                   FY 2005 Army Annual Financial Statement 169
Note 1. Signiﬁcant Accounting Policies
1.A.      Basis of Presentation
These ﬁnancial statements have been prepared to report the ﬁnancial position and results of operations of the
Army Working Capital Fund (AWCF), as required by the Chief Financial Ofﬁcers Act of 1990, expanded by the
Government Management Reform Act of 1994, and other appropriate legislation. The ﬁnancial statements have
been prepared from the books and records of the AWCF in accordance with the Department of Defense (DoD)
Financial Management Regulation, Ofﬁce of Management and Budget (OMB) Circular A-136, Financial Reporting
Requirements, and to the extent possible, Federal Generally Accepted Accounting Principles (GAAP).

The accompanying ﬁnancial statements account for all resources for which the AWCF is responsible. Under the
above guidance, classiﬁed assets, programs, and operations have been excluded from the statement, or otherwise
aggregated and reported, in such a manner that they are no longer classiﬁed. The AWCF ﬁnancial statements are
in addition to the ﬁnancial reports also prepared by the AWCF pursuant to OMB directives that are used to monitor
and control the AWCF use of budgetary resources.

The AWCF is unable to fully implement all elements of Federal GAAP and OMB Circular A-136 due to limitations
of its ﬁnancial and non-ﬁnancial management processes and systems. The Army derives its reported values and
information for major asset and liability categories largely from non-ﬁnancial feeder systems, such as inventory
and logistics systems. These systems were designed to support reporting requirements focusing on maintaining
accountability over assets and reporting the status of federal appropriations rather than preparing ﬁnancial
statements in accordance with Federal GAAP. As a result, the AWCF cannot currently implement every aspect of
Federal GAAP and OMB Circular A-136. The AWCF continues to implement processes and system improvements
addressing the limitations of its ﬁnancial and non-ﬁnancial feeder systems. Further explanation of these ﬁnancial
statement elements is provided in the applicable note.

The accounting structure of federal agencies is designed to reﬂect both accrual and budgetary accounting
transactions. Under the accrual method of accounting, revenues are recognized when earned, and expenses are
recognized when incurred, without regard to receipt or payment of cash. The budgetary accounting principles, on
the other hand, are designed to recognize the obligation of funds according to legal requirements, which in many
cases is prior to the occurrence of an accrual-based transaction. The recognition of budgetary accounting transactions
is essential for compliance with legal constraints and controls over the use of federal funds.


1.B.      Mission of the Reporting Entity
The AWCF is part of the Defense Working Capital Fund, and is divided into two separate business areas: Supply
Management and Industrial Operations. In October 2004, the Depot Maintenance and Ordnance business areas were
consolidated into what is now Industrial Operations. These business areas ensure delivery of critical items, such
as petroleum products, repair parts, consumable supplies, depot maintenance services, munitions and weapons to
support the deployment and projection of lethal force as and when required by the nation.


1.C.      Appropriations and Funds
The Army appropriations and funds are divided into the general, working capital (revolving funds), trust, special,
and deposit funds. These appropriations and funds are used to fund and report how the resources have been used
in the course of executing the Army missions.

Working capital funds (revolving funds) receive their initial working capital through an appropriation or a
transfer of resources from existing appropriations or funds and use those capital resources to ﬁnance the initial
cost of products and services. Financial resources to replenish the initial working capital and to permit continuing
operations are generated by the acceptance of customer orders. The AWCF operates with ﬁnancial principles that
provide improved cost visibility and accountability to enhance business management and improve the decision-


170 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
making process. The activities provide goods and services on a reimbursable basis. Receipts derived from
operations generally are available in their entirety for use without further congressional action.


1.D.    Basis of Accounting
The AWCF generally records transactions on an accrual accounting basis as is required by Federal GAAP. For
FY 2005, the AWCF ﬁnancial management systems are unable to meet all of the requirements for full accrual
accounting. Many of the AWCF ﬁnancial and non-ﬁnancial feeder systems and processes were designed and
implemented prior to the issuance of Federal GAAP for federal agencies and, therefore, were not designed to collect
and record ﬁnancial information on the full accrual accounting basis as required by Federal GAAP.

The AWCF has undertaken efforts to determine the actions required to bring all of its ﬁnancial and non-ﬁnancial
feeder systems and processes into compliance with all elements of Federal GAAP. One such action is the current
revision of its accounting systems to record transactions based on the U.S. Standard General Ledger (USSGL). At
this time, not all AWCF accounting systems are USSGL compliant. In addition, with the full implementation of
the Logistics Modernization Program (LMP), the AWCF will be in compliance with Statement of Federal Financial
Accounting Standard (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal
Government.” As of December 31, 2003, LMP has been implemented at Tobyhanna Army Depot, Communications
and Electronics Command, and other Army Materiel Command activities. Until LMP is fully implemented and all
of the processes are updated to collect and report ﬁnancial information as required by Federal GAAP, some of the
AWCF ﬁnancial data will be based on budgetary transactions (obligations, disbursements, collections), and non-
ﬁnancial feeder systems. For example, most ﬁnancial information presented on the Statement of Net Costs is based
on accrued costs; however, some of the ﬁnancial information is based on obligations and disbursements.

In addition, the Army identiﬁes programs based upon the major appropriation groups provided by Congress. The
Army does not, however, accumulate costs for major programs based on performance measures because its ﬁnancial
processes and systems do not account for costs in line with established measures. The Army is reviewing available
data and attempting to develop a cost reporting methodology that provides the cost information required by the
Statement of Federal Financial Accounting Standard (SFFAS) No. 4, Managerial Cost Accounting Concepts and
Standards for the Federal Government.


1.E.    Revenues and Other Financing Sources
The AWCF revenue is recognized according to the percentage of completion method for Industrial Operations
activities. Revenue for Supply Management activities is recognized when an inventory item is sold. Prices set for
products and services offered through the AWCF are intended to recover the full costs (cost plus administrative fees)
incurred by these activities. Unearned revenue is recorded as deferred revenue until earned.

Other ﬁnancing sources reported by the AWCF do not include non-monetary support provided by our allies for
common defense and mutual security. The U.S. has agreements with foreign countries that include both direct
and indirect sharing of costs that each country incurs in support of the same general purpose. Examples include
countries where there is a mutual or reciprocal defense agreement, where U.S. troops are stationed, or where the U.S.
ﬂeet is serviced in a port. The DoD is reviewing these types of ﬁnancing and cost reductions in order to establish
accounting policies and procedures to identify what, if any, of these costs are appropriate for disclosure in the
AWCF ﬁnancial statements in accordance with Federal GAAP. Recognition of support provided by host nations
would affect both ﬁnancing sources and expense recognition.


1.F.    Recognition of Expenses
For ﬁnancial reporting purposes, the DoD policy requires the recognition of operating expenses in the period
incurred. However, because the AWCF ﬁnancial and non-ﬁnancial feeder systems were not designed to collect and
record ﬁnancial information on the full accrual accounting basis, accrual adjustments are made for major items such
as payroll expenses and accounts payable. Expenditures for capital and other long-term assets are not recognized


                                                                              FY 2005 Army Annual Financial Statement 171
as expenses in the AWCF operations until depreciated as in the case of property, plant and equipment (PP&E).
Net increases or decreases in unexpended appropriations are recognized as a change in the net position. Certain
expenses, such as annual leave earned but not taken, are recognized in the period in which payments are made.

The AWCF adjusted operating expenses as a result of the elimination of balances between DoD Components. See
Note 18, Disclosures Related to the Statement of Net Cost, for disclosure of elimination amounts.


1.G.      Accounting for Intragovernmental Activities
The AWCF, as an agent of the Federal government, interacts with and is dependent upon the ﬁnancial activities of
the Federal government as a whole. Therefore, these ﬁnancial statements do not reﬂect the results of all ﬁnancial
decisions applicable to the AWCF as though it was a stand-alone entity.

The AWCF proportionate share of public debt and related expenses of the Federal government are not included.
Debt issued by the Federal government and the related costs are not apportioned to federal agencies. The AWCF
ﬁnancial statements, therefore, do not report any portion of the public debt or interest, nor do the ﬁnancial
statements report the source of public ﬁnancing whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through budget appropriations. To the extent this
ﬁnancing may have been obtained through the issuance of public debt, interest costs have not been capitalized since
the Department of Treasury does not allocate such interest costs to the beneﬁting agencies.

The AWCF civilian employees participate in the Civil Service Retirement System (CSRS) or the Federal Employees
Retirement Systems (FERS). Employees and personnel covered by FERS also have varying coverage under Social
Security. The AWCF funds a portion of civilian and military pensions. Reporting civilian pensions under CSRS
and FERS is the responsibility of the Ofﬁce of Personnel Management (OPM). The AWCF recognizes an imputed
expense for the portion of civilian employee pensions and other retirement beneﬁts funded by the OPM in the
Statement of Net Cost and recognizes corresponding imputed revenue from the civilian employee pensions and
other retirement beneﬁts in the Statement of Changes in Net Position.

To prepare reliable ﬁnancial statements, transactions occurring between components or activities within the
AWCF must be eliminated for consolidated ﬁnancial reporting purposes. However, the entire Federal government,
including the AWCF, cannot accurately identify all intragovernmental transactions by its related components
or activities. The Defense Finance and Accounting Service (DFAS) is responsible for eliminating transactions
between components or activities of the AWCF. Beginning in FY 1999, seller entities within the AWCF provided
summary seller-side balances for revenue, accounts receivable, transfers-in/out, and unearned revenue to the
buyer-side internal AWCF accounting ofﬁces. In most cases, the buyer-side records have been adjusted to recognize
unrecorded costs and accounts payable. The AWCF intragovernmental balances are then eliminated.

The Department of the Treasury Financial Management Service (FMS) is responsible for eliminating transactions
between the DoD and other federal agencies. In September 2000, the FMS issued the “Federal Intragovernmental
Transactions Accounting Policies and Procedures Guide.” The AWCF was not able to fully implement the policies
and procedures in this Guide relating to reconciling intragovernmental assets, liabilities, revenues, and expenses for
non-ﬁduciary transactions. However, the AWCF was able to implement the policies and procedures contained in
the “Intragovernmental Fiduciary Transactions Accounting Guide,” as updated by the “Federal Intragovernmental
Transactions Accounting Policies and Procedures Guide” issued in October 2002 for reconciling intragovernmental
transactions. These transactions pertain to Federal Employees’ Compensation Act transactions with the Department
of Labor (DOL), and beneﬁt program transactions with the OPM.


1.H.      Transactions with Foreign Governments and International Organizations
Each year, the AWCF sells defense items and services to foreign governments and international organizations,
primarily under the provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, the DoD


172 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
has the authority to sell defense articles and services to foreign countries and international organizations generally at
no proﬁt or loss to the U.S. government. Customers may be required to make payments in advance.


1.I.     Funds with the U.S. Treasury
The AWCF ﬁnancial resources are maintained in U.S. Treasury accounts. DFAS, Military Services, U.S. Army
Corps of Engineers (USACE) disbursing stations as well as the Department of State ﬁnancial service centers process
the majority of cash collections, disbursements, and adjustments for the Federal government worldwide. Each
disbursing station prepares monthly reports, which provide information to the U.S. Treasury on check issues,
electronic fund transfers, interagency transfers and deposits.

In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury, by
appropriation, on interagency transfers, collections received, and disbursements issued. The Department of the
Treasury then records this information to the applicable Fund Balance with Treasury (FBWT) account maintained in
the Treasury’s system. Differences between the AWCF and Treasury’s records sometime result and are subsequently
reconciled. Material disclosures are provided in Note 3. Differences between accounting ofﬁces’ detail-level records
and Treasury FBWT accounts are disclosed in Note 3, Fund Balance With Treasury, speciﬁcally differences caused by
in-transit disbursements and unmatched disbursements which are not recorded in the accounting ofﬁces’ detail-level
records.


1.J.     Foreign Currency
Not applicable.


1.K.     Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes accounts, claims, and refunds receivables from
other federal agencies and the public. Federal accounts receivable arise generally from the provision of goods and
services to other federal agencies and, with the exception of occasional billing disputes, are considered to be fully
collectible. Receivables from the public generally arise from the provision of goods and services to state, local, and
foreign governments. Refunds receivable, however, are overpayments by the Federal government in the process of
being collected. An allowance for doubtful accounts is established for reporting purposes based on past experience
in the collection of accounts receivable and analysis of outstanding balances by fund type. The AWCF recognizes an
allowance of 50 percent for all non-federal debt between 180 days and two years old and a 100 percent allowance for
all non-federal debt over two years old. The allowance is updated annually, based on the aged accounts receivable
at the end of the 2nd Quarter. The AWCF does not recognize an allowance for estimated uncollectible amounts from
other federal agencies. Claims against other federal agencies are to be resolved between the agencies. Material
disclosures are provided in Note 5, Accounts Receivable.


1.L.     Loans Receivable
Not applicable.


1.M.     Inventories and Related Property
Not all of the AWCF inventory reported in the ﬁnancial statements is valued using the same valuation method.
The AWCF inventories are reported using the Latest Acquisition Cost (LAC), which approximates historical cost,
adjusted for holding gains and losses, and Moving Average Cost (MAC), which computes a new average cost
each time a purchase is made. The AWCF uses the LAC method because its inventory systems were designed for
material management rather than accounting, except for activities that have transitioned to LMP. The systems
provide accountability and visibility over inventory items. They do not maintain the exact historical cost data
necessary to comply with SFFAS No. 3, “Accounting for Inventory and Related Property,” nor can they directly
produce ﬁnancial transactions using the USSGL, as required by the Federal Financial Management Improvement


                                                                                 FY 2005 Army Annual Financial Statement 173
Act of 1996. The AWCF transition to LMP will also allow the use of a MAC methodology for valuing inventory that,
when fully implemented, will allow the AWCF to comply with SFFAS No. 3. (See Note 9, Inventory and Related
Property)

SFFAS No. 3 distinguishes between inventory held for sale and inventory held in reserve for future sale. There is no
management or valuation difference between the two USSGL accounts. Further, the DoD manages only military or
government-speciﬁc material under normal conditions. Items commonly used in and available from the commercial
sector are not managed in the DoD material management activities. Operational cycles are irregular, and the
military risks associated with stock-out positions have no commercial parallel. The AWCF holds material based on
military need and support for contingencies. Therefore, the AWCF does not attempt to account separately for items
held for current or future sale.

In accordance with new DoD policy, the Army accounts for condemned material as excess, obsolete, and
unserviceable. The net value of this type of condemned material is zero, because the costs of disposal are greater
than the potential scrap value. Potentially redistributable material, presented in previous years as excess, obsolete,
and unserviceable, is included in held for use or held for repair categories according to its condition.

In addition, past audit results identiﬁed uncertainties about the completeness and existence of quantities used to
produce the reported values. Material disclosures related to inventory and related property are provided in Note 9,
Inventory and Related Property.


1.N       Investments in U.S. Treasury Securities
Not applicable.


1.O.      General Property, Plant and Equipment
General Property, Plant & Equipment (PP&E) assets are capitalized at historical acquisition cost plus capitalized
improvements when an asset has a useful life of two or more years, and when the acquisition cost equals or exceeds
the DoD capitalization threshold of $100 thousand. Also, improvement costs over the DoD capitalization threshold
of $100,000 for General PP&E are required to be capitalized. All General PP&E, other than land, is depreciated on a
straight-line basis. Land is not depreciated.

Prior to FY 1996, General PP&E with an acquisition cost of $15 thousand, $25 thousand, and $50 thousand for FY
1993, FY 1994, and FY 1995 respectively, and an estimated useful life of two or more years was capitalized. These
assets remain capitalized and reported on AWCF ﬁnancial statements.

For the AWCF activities, all PP&E used in the performance of their mission is categorized as General PP&E, whether
or not it meets the deﬁnition of any other PP&E categories. Heritage Assets and Stewardship Land owned or
maintained on an AWCF installation are reported in the Required Supplemental Stewardship Information Report of
the applicable military department. Material disclosures are provided in Note 10, General PP&E, Net.

Internal use software is capitalized at cost if the acquisition cost is $100 thousand or more. For commercial off-the-
shelf software, the capitalized costs include the amount paid to the vendor for the software; for contractor-developed
software it includes the amount paid to a contractor to design, program, install, and implement the software.
Capitalized costs for internally developed software include the full cost (direct and indirect) incurred during the
software development stage. The estimated useful life for calculating amortization of software is two to ﬁve years
using the straight-line method.


1.P.      Advances and Prepayments
The AWCF records payments made prior to the receipt of goods and services as advances or prepayments and
reports them as assets on the Balance Sheet. Advances and prepayments are recognized as expenditures and
expenses when the related goods and services are received.


174 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
1.Q.     Leases
Not applicable.


1.R.     Other Assets
The AWCF conducts business with commercial contractors under two primary types of contracts--ﬁxed price and
cost reimbursable. To alleviate the potential ﬁnancial burden on the contractor that long-term contracts can cause,
the AWCF provides ﬁnancing payments. One type of ﬁnancing payment that the AWCF makes, for real property, is
based upon a percentage of completion. In accordance with the SFFAS No. 1, “Accounting for Selected Assets and
Liabilities,” such payments are treated as construction-in-process and are reported on the General PP&E line and in
Note 10, General PP&E, Net.

In addition, based on the Federal Acquisition Regulation, the AWCF makes ﬁnancing payments under ﬁxed price
contracts. The AWCF reports these ﬁnancing payments as “Other Assets” because the AWCF becomes liable only
after the contractor delivers the goods in conformance with the contract terms. If the contractor does not deliver a
satisfactory product, the AWCF is not obligated to reimburse the contractor for its costs and the contractor is liable to
repay the AWCF for the full amount of the advance.


1.S.     Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” deﬁnes a contingency as an existing
condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss to the AWCF. The
uncertainty will be resolved when one or more future events occur or fail to occur. A contingency is recognized as a
liability when a past event or exchange transaction has occurred, a future loss is probable and the amount of loss can
be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there
is at least a reasonable possibility that a loss or additional loss will be incurred. Loss contingencies include the
collectibility of receivables, pending or threatened litigation, and possible claims and assessments. The Army’s loss
contingencies arising as a result of pending or threatened litigation or claims and assessments occur due to events
such as aircraft, ship and vehicle accidents; medical malpractice; property or environmental damages; and contract
disputes.


1.T.     Accrued Leave
Civilian annual leave that has been accrued and not used as of the balance sheet date is reported as a liability. The
liability reported at the end of the ﬁscal year reﬂects the current pay rates.


1.U.     Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
appropriations represent budget authority, which is unobligated and has not been rescinded or withdrawn, and
funds obligated but for which legal liabilities have not been incurred.

Cumulative results of operations for AWCF represents the excess of revenues over expenses less refunds to
customers and returns to the U.S. Treasury since fund inception.


1.V.     Treaties for Use of Foreign Bases
Not applicable.




                                                                                 FY 2005 Army Annual Financial Statement 175
1.W.      Comparative Data
The Financial Statements and accompanying Notes to the Financial Statements report the ﬁnancial position and
results of operations for the FY 2005. Financial statement ﬂuctuations greater than two percent of total assets on the
Balance Sheet and/or greater than ten percent between FY 2004 and FY 2005 are explained within the Notes to the
Financial Statements.


1.X.      Unexpended Obligations
The AWCF obligates funds to provide goods and services for outstanding orders not yet delivered. The ﬁnancial
statements do not reﬂect this liability for payment for goods or services not yet delivered.


1.Y.      Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections
matched at the transaction level to a speciﬁc obligation, payable, or receivable in the activity ﬁeld records as opposed
to those reported by the U.S. Treasury. These amounts should agree with the undistributed amounts reported on the
departmental accounting reports.

The Department of Defense policy is to allocate supported undistributed disbursements and collections between
federal and nonfederal categories based on the percentage of Federal and nonfederal accounts payable and accounts
receivable. Unsupported undistributed disbursements are recorded in accounts payable. Unsupported undistributed
collections are recorded in other liabilities. The AWCF follows this procedure.


1.Z.      Logistics Modernization Program (LMP) Issues
The Logistics Modernization Program (LMP) is a key component in the Army’s major transformation to become
more responsive, deployable, agile, versatile, lethal, survivable, and sustainable. The LMP solution will provide
an integrated logistics management capability that enables total asset visibility; enhanced decision support; a
collaborative planning environment; a single, actionable source of data; improved forecasting accuracy; and real-
time, easy access to enterprise-wide information. Since its implementation in July, 2003, the Army has experienced
data conversion problems from legacy accounting and logistics systems to LMP. These issues have presented
many challenges that are reﬂected throughout the AWCF ﬁnancial statements as adjustments, corrections, and
footnote disclosures. The Department of Army has developed a speciﬁc plan to address the ﬁnancial and inventory
management problems recognized in these statements.




176 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
Note 2. Nonentity Assets
 As of September 30                                             2005                     2004
 (Amounts in thousands)
 1. Intragovernmental Assets
    A. Fund Balance with Treasury                      $                    0    $                   0
    B. Investments                                                          0                        0
    C. Accounts Receivable                                                  0                        0
    D. Other Assets                                                         0                        0
    E. Total Intragovernmental Assets                  $                    0    $                   0
 2. Nonfederal Assets
    A. Cash and Other Monetary Assets                  $                    0    $                   0
    B. Accounts Receivable                                                  0                        0
    C. Loans Receivable                                                     0                        0
    D. Inventory & Related Property                                         0                        0
    E. General PP&E                                                         0                        0
    F. Investments                                                          0                        0
    G. Other Assets                                                         0                        0
    H. Total Nonfederal Assets                         $                    0    $                   0
 3. Total Nonentity Assets                             $                    0    $                   0
 4. Total Entity Assets                                $            18,497,082   $          16,488,179
 5. Total Assets                                       $            18,497,082   $          16,488,179

Assets are categorized as:

Nonentity asset are assets held by an entity but are not available for use in the operations of the entity. The Army
Working Capital Fund (AWCF) does not have nonentity assets.

Entity assets are resources that the AWCF has the authority to use or where management is legally obligated to use
funds to meet entity obligations.


Fluctuations and/or Abnormalities
Total Assets increased $2.0 billion, or 12 percent, from FY 2004 to FY 2005. This increase is due primarily to increases
in general property plant and equipment and inventory in FY 2005.


Note Reference
For additional line item discussion, see:
Note 3, Fund Balance With Treasury
Note 5, Accounts Receivable
Note 6, Other Assets
Note 9, Inventory and Related Property
Note 10, General PPE, Net




                                                                                 FY 2005 Army Annual Financial Statement 177
Note 3. Fund Balance with Treasury

  As of September 30                                                         2005                     2004
  (Amounts in thousands)
  1. Fund Balances
     A. Appropriated Funds                                      $                             0   $               53
     B. Revolving Funds                                                                 623,330              948,410
     C. Trust Funds                                                                           0                    0
     D. Special Funds                                                                         0                    0
     E. Other Fund Types                                                                      0                    0
     F. Total Fund Balances                                     $                       623,330   $          948,463
  2. Fund Balances Per Treasury Versus Agency
     A. Fund Balance per Treasury                               $                       623,330   $          948,463
     B. Fund Balance per AWCF                                                           623,330              948,463
  3. Reconciling Amount                                         $                             0   $                0


Fluctuations and/or Abnormalities
Appropriated Funds decreased $53 thousand, or 100 percent, from FY 2004 to FY 2005 due to Ofﬁce of the Secretary
of Defense guidance stating that all Working Capital Fund, Fund Balance With Treasury Appropriated Funds should
be reported as Revolving Funds.

Revolving funds decreased $325.1 million or 34 percent, from FY 2004 to FY 2005. During FY 2005 the AWCF did not
receive direct appropriations. However, the AWCF did receive transfers in of budgetary resources of $84.4 million
for war reserves and $99.6 million received for industrial mobilization capacity, totaling $184.1 million in accordance
with the DoD Appropriations Act, 2005, P.L. 108-287. The AWCF transferred out $250.0 million to the Army General
Fund, Operations and Maintenance Appropriation in accordance with Critical Army Requirements, Reprogramming
Action FY 05-27 PA and $450.0 million to the Army General Fund, Operations and Maintenance Appropriation in
accordance with Critical Army Requirements, Reprogramming Action FY 05-47 PA.


Other disclosures
Defense Finance and Accounting Service increased ﬁeld-reported data by $183 thousand to agree with the FBWT
reported on the Treasury trial balance.

The deposit differences are reconcilable differences reported by the Treasury or the Army. The Army has no deposit
differences greater than 180 days old as of September 30, 2005.

The Intragovernmental Payment and Collection (IPAC) differences are reconcilable differences that represent
amounts recorded by the Treasury but not reported by the organization. The Army had no IPAC differences greater
than 180 days old as of September 30, 2005.

Automated reconciliation tools have virtually eliminated all existing differences for the Army. Field sites requiring
additional documentation to record the transaction in their accounting system, accounting errors, or timing
differences between disbursing and Treasury cut-off dates are the only reasons for an IPAC difference to exist today.


Note Reference
For additional line item discussion, see:
Note 1.I, Funds with the U.S. Treasury




178 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
Status of Fund Balance with Treasury
 As of September 30                                               2005                            2004
 (Amounts in thousands)
 1. Unobligated Balance
    A. Available                                       $                   1,176,499    $                1,530,240
    B. Unavailable                                                                 0                             0
 2. Obligated Balance not yet Disbursed                $                  10,331,508    $                8,953,395
 3. Non-Budgetary FBWT                                 $                           0    $                        0
 4. Non-FBWT Budgetary Accounts                        $                (10,884,677)    $              (9,535,172)
 5. Total                                              $                     623,330    $                  948,463


Unobligated Balance Available represents the budgetary resources from contract authority, reimbursable orders,
appropriations, and transfers in of budgetary resources that have not yet been obligated.

Unobligated balance available decreased $353.7 million, or 23 percent from FY 2004 to FY 2005 as the AWCF
obligated projects in FY 2005 from FY 2004 reimbursable orders.

The Obligated Balance not yet Disbursed increased $1.4 billion or 15 percent. The increase is attributable to
increased undelivered orders in support of contingency missions Operation Enduring Freedom, Operation Iraqi
Freedom and Noble Eagle.

Non-FBWT Budgetary Accounts increased $1.3 billion, or 14 percent. During FY 2005, the AWCF received authority
to incur obligations exceeding earnings in the Supply Management Business to support anticipated operational
requirements in support of contingency missions Operation Enduring Freedom, Operation Iraqi Freedom and Noble
Eagle.


Disclosures Related to Suspense/Budget Clearing Accounts
Not applicable.

The Suspense/Budget Clearing Accounts are maintained and reported by the Army General Fund. Some
transactions relating to the AWCF may be in suspense accounts, but are not identiﬁable. When they are identiﬁed to
the AWCF, they will be transferred from the suspense/clearing account to the correct Treasury appropriation.


Disclosures Related to Problem Disbursements and In-Transit Disbursements
                                                                                                             (Decrease)/
                                                                                                          Increase from FY
 As of September 30                                        2003            2004              2005            2004 - 2005
 (Amounts in thousands)
1. Total Problem Disbursements, Absolute Value
    A. Unmatched Disbursements (UMDS)              $         46,298 $           25,484 $          10,064 $             (15,420)
    B. Negative Unliquidated Obligations (NULO)               2,850              3,810             3,773                  ( 37)
2. Total In-transit Disbursements, Net             $         69,687 $          135,730 $          94,626 $             (41,104)

Deﬁnitions:
Absolute value is the sum of the positive values of debit and credit transactions without regard to the sign.

Unmatched Disbursements (UMDs) occur when payments do not match to a corresponding obligation in the
accounting system.



                                                                                       FY 2005 Army Annual Financial Statement 179
Negative Unliquidated Obligations (NULOs) occur when payments have a valid obligation but the payment is
greater than the amount of the obligation recorded in the ofﬁcial accounting system. These payments use available
funds for valid receiving reports on delivered goods and services under valid contracts.

In-Transits represents the net value of disbursements and collections made by a DoD disbursing activity on behalf of
an accountable activity but not yet attempted to be posted in an accounting system.

Aged UMDs and NULOs:
The Army absolute value UMDs, NULOs, and $1.8 million in aged in-transit disbursements represent problem
disbursements. UMDs and NULOs are considered to be problem disbursements immediately, while in-transits are
considered normal business activity up to the 30-day aging category. After 30 days, they are identiﬁed as problem
disbursements. Fluctuations in the schedule represent normal activity for UMDs and NULOs based on the inﬂow
of undistributed disbursements received for processing. Total in-transit balances have increased at the primary
accounting sites supporting the war, contingency operations, and supply and materiel replenishment.

Note 4. Investments and Related Interest
Not applicable.

Note 5. Accounts Receivable
                                                                                   2005                                   2004
                                                                             Allowance For
                                                            Gross Amount      Estimated              Accounts           Accounts
  As of September 30                                            Due          Uncollectibles       Receivable, Net    Receivable, Net
  (Amounts in thousands)
  1. Intragovernmental Receivables                         $      366,622                N/A   $           366,622   $       444,923
  2. Nonfederal Receivables (From the Public)              $       18,732    $       (6,697)   $            12,035   $        13,482
  3. Total Accounts Receivable                             $      385,354    $       (6,697)   $           378,657   $       458,405


Allowance method:
The Army Working Capital Fund (AWCF) recognizes an allowance of 50 percent for all non-federal debt between
180 days and two years old and a 100 percent allowance for all non-federal debt over two years old. The allowance is
updated annually based on the aged accounts receivable at the end of the 2nd Quarter.


Fluctuations and/or Abnormalities
Intragovernmental Receivables decreased $78.3 million, or 18 percent from FY 2004 to FY 2005. The majority of the
decrease is attributable to the Supply Management business area. For FY 2005, the Defense Finance and Accounting
Service (DFAS) extended the billing cycle cutoff dates for the Commodity Command Standard System (CCSS),
thereby accelerating automated collection of accounts receivable.

Non Federal Receivables, Net decrease $1.4 million or 11 percent from FY 2004 to FY 2005. The decrease is primarily
attributable to increased efforts to reduce delinquent debt during FY 2005.


Other Disclosures
The DoD policy is to allocate supported undistributed collections between intragovernmental and non-federal
categories based on the percentage of each category of receivables. A review of data for the previous twelve months
found no transactions for undistributed collections involving a non-federal entity. Therefore, all undistributed
collections are assigned to federal entities.



180 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
For FY 2005, the AWCF reported unsupported undistributed collections of $891 thousand. These collections are
reported as a Liability for Deposit Funds, Clearing Funds, and Undeposited Collections, as required by the
DFAS-Arlington year-end guidance.

The AWCF accounting systems do not capture trading partner data at the transaction level in a manner that
facilitates trading partner aggregations. Therefore, the AWCF was unable to reconcile intragovernmental accounts
receivable balances with its trading partners’ accounts payable balances. The DoD intends to develop long-term
systems improvements that will address this issue.

Intragovernmental accounts receivable include $5.3 million in receivables over 180 days old which is less than one
percent of the total intragovernmental accounts receivable.

Non-federal accounts receivable includes $5.0 million over 180 days old. Of this amount, $4.0 million was for
contractor debt. The remaining amount is due to Non-Appropriated Fund Instrumentalities and Individual Out-of-
Service debt.

For FY 2005, AWCF reported non-federal refunds receivable of $2.0 million.


Note Reference
For additional line item discussion, see:
Note 1.K, Accounts Receivable
Note 12, Accounts Payable
Note 15, Other Liabilities

Note 6. Other Assets
 As of September 30                                             2005               2004
 (Amounts in thousands)
 1. Intragovernmental Other Assets
    A. Advances and Prepayments                          $                0   $             79
    B. Total Intragovernmental Other Assets              $                0   $             79
 2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments           $          331,500   $        262,338
    B. Other Assets (With the Public)                                 2,241              2,784
    C. Total Nonfederal Other Assets                     $          333,741   $        265,122
 3. Total Other Assets                                   $          333,741   $        265,201


Fluctuations and/or Abnormalities
Intragovernmental advances and prepayments decreased by $79 thousand, or 100 percent, from FY 2004 to FY 2005.
This account balance is dictated by trading partner reports of unearned revenue made by other DoD entities.

Outstanding Contract Financing Payments increased $69.2 million or 26 percent. The majority of the increase is
attributable to payments made for contracts initiated by the Communications and Electronic Command (CECOM).

Other Assets (With the Public) decreased $543 thousand, or 20 percent, from FY 2004 to FY 2005. The majority of
this amount is attributable to a decrease in Prepayments of $511 thousand.




                                                                              FY 2005 Army Annual Financial Statement 181
Non-Federal Other Assets - Other Assets (With the Public)
(Amounts in thousands)

Type of Assets                        2005             2004
Advances to Others:
        Contractor Advance          $2,012         $2,010
        Travel Advances                 39               73
Prepayments                            190              701
Totals                              $2,241         $2,784


Advances and Prepayments
In accordance with DoD elimination guidance, the FY 2005 AWCF intragovernmental advances to others balance
increased by $6.0 million to agree with seller-side unearned revenue from other DoD reporting entities. The note
also reﬂects $6.0 million in elimination entries within the AWCF, leaving a zero balance.


Note Reference
For additional line item discussion, see:
Note 1.R, Other Assets

Note 7. Cash and Other Monetary Assets
Not applicable.

Note 8. Direct Loan and/or Loan Guarantee Programs
Not applicable.

Note 9. Inventory and Related Property
   As of September 30                                                    2005                           2004
   (Amounts in thousands)
   1.    Inventory, Net                                       $                 15,933,141     $           13,916,672
   2.    Operating Materials & Supplies, Net                                             0                          0
   3.    Stockpile Materials, Net                                                        0                          0
   4.    Total                                                $                 15,933,141     $           13,916,672


9.A. Inventory, Net
                                                                                2005                                2004
                                                     Inventory,              Revaluation                                          Valuation
  As of September 30                                Gross Value               Allowance        Inventory, Net   Inventory, Net     Method
  (Amounts in thousands)
  1. Inventory Categories
     A. Available and Purchased for Resale         $        17,507,575   $       (4,118,134)       13,389,441   $   12,467,075    LAC,MAC
     B. Held for Repair                                      3,762,831           (1,244,899)        2,517,932        1,428,303    LAC,MAC
     C. Excess, Obsolete, and Unserviceable                    577,538             (577,538)                0                0      NRV
     D. Raw Materials                                           25,768                     0           25,768           21,294   MAC,SP,LAC
     E. Work in Process                                              0                     0                0                0       AC
     F. Total                                      $        21,873,712   $       (5,940,571)       15,933,141   $   13,916,672




182 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
NRV = Net Realizable Value
SP = Standard Price
AC = Actual Cost
MAC = Moving Average Cost


Restrictions of Inventory Use, Sale, or Disposition:
There are no restrictions on the use, sale, or disposition of inventory except in the following situations:

1) Distributions without reimbursement are made when authorized by DoD directives;
2) War reserve material includes petroleum products and subsistence items that are considered restricted; and
3) Inventory, with the exception of safety stocks, may be sold to foreign, state and local governments; private
   parties; and contractors in accordance with current policies and guidance or at the direction of the President.

Deﬁnitions
Inventory – spare and repair parts, clothing and textiles, petroleum products, and ammunition.

Inventory held for repair – damaged material that requires repair to make it usable.

Excess, obsolete, and unserviceable inventory – condemned materiel that must be retained for management
purposes.

Raw materials – items consumed in the production of goods for sale or in the provision of services for a fee.

Work in process – munitions in production and maintenance work with its associated labor, applied overhead, and
supplies used in the delivery of maintenance services.


Future Sales
In addition to the account balances shown in Table 9.A., Federal Generally Accepted Accounting Principles require
disclosure of the amount of inventory held for future sale. The Army Working Capital Fund (AWCF) estimates that
all of the Inventory Held for Sale will be sold within 24 months from the end of FY 2005.


Fluctuations/Abnormalities
Total inventory increased $2.0 billion, or 14 percent, from FY 2004 to FY 2005. This increase is detailed in the
paragraphs below.

The Inventory Available and Purchased for Resale increased $922.4 million, or 7 percent, from FY 2004 to FY 2005.
The increase is attributable to requirements for increased stockage levels in FY 2006.

The Inventory Held for Repair increased $1.1 billion, or 76 percent, from FY 2004 to FY 2005. The increase is due
to an increase in the volume of returned items needing repair in support of the contingency missions Operations
Enduring Freedom, Iraqi Freedom, and Noble Eagle.

Raw Materials increased $4.5 million, or 21 percent, from FY 2004 to FY 2005. This increase is primarily attributable
to increased purchases of raw materials needed to complete orders at Tobyhanna Army Depot.


Other disclosures
The AWCF began transitioning to the Logistics Modernization Program (LMP) during June 2003. Therefore,


                                                                                  FY 2005 Army Annual Financial Statement 183
not all AWCF inventory reported is valued under the same method. Inventory at Tobyhanna Army Depot,
Communications-Electronics Command, and other Army Materiel Command (AMC) activities using LMP is valued
at MAC. The remainder of the AWCF inventory is valued at LAC.

The AWCF expects to be fully converted to Moving Average Costing for Inventory Items with full deployment
of LMP, which is currently scheduled for Round 3 (Final deployment) in September 2007. However, per recent
GAO recommendations, until LMP addresses certain systemic problems related to data conversion, etc., Round 3
deployment has been delayed.

The Commodity Command Standard System (CCSS) inventory reported as Available and Purchased for Resale
includes a net upward adjustment of $3.0 billion to bring ﬁnancial records into agreement with the logistics records.
Some transactions are not passing from logistical records to ﬁnancial records. Upon replacement of CCSS with LMP,
this adjustment should no longer be required.


Note Reference
For additional line item discussion, see:
Note 18, Disclosures Related to the Statement of Net Cost


Operating Materials and Supplies, Net
Not applicable.

The AWCF expenses rather than capitalizes OM&S because it is normally used within a year of purchase.


Stockpile Materials, Net
Not applicable.

Note 10. General PP&E, Net
                                                                                                2005                                                  2004
                                                           Depreciation/                                      (Accumulated
                                                           Amortization     Service         Acquisition       Depreciation/        Net Book         Prior FY Net
    As of September 30                                       Method          Life             Value           Amortization)         Value           Book Value
    (Amounts in thousands)
    1.    Major Asset Classes
          A. Land                                              N/A             N/A      $             0                  N/A   $            0   $              0
          B. Buildings, Structures, and Facilities             S/L          20 Or 40          2,158,945   $      (1,361,716)          797,229            526,691
          C. Leasehold Improvements                            S/L         lease term            95,213             (76,337)           18,876             21,585
          D. Software                                          S/L          2-5 Or 10           349,675            (262,583)           87,092            103,215
          E. General Equipment                                 S/L           5 or 10          1,535,870          (1,260,079)          275,791            218,546
          F. Military Equipment                                S/L           Various                  0                    0                0                  0
          G. Assets Under Capital Lease                        S/L         lease term                 0                    0                0                  0
          H. Construction-in-Progress                          N/A             N/A               49,225                  N/A           49,225             29,401
          I. Other                                                                                    0                    0                0                  0
    2.    Total General PP&E                                                            $     4,188,928   $      (2,960,715)   $    1,228,213   $        899,438
1
    Note 15 for additional information on Capital Leases


Legend for Valuation Methods:
S/L = Straight Line
N/A = Not Applicable

Total General Property Plant & Equipment increased $328.8 million or 37 percent, from FY 2004 to FY 2005. The
increase is detailed in the following paragraphs.



184 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
Buildings, Structures, and Facilities
Buildings, Structures, and Facilities increased by $270.1 million or 51 percent, from FY 2004 to FY 2005. This increase
is primarily due to the acquisition of a Chemical Weapons Disposal facility for $267.1 million at the Pine Bluff
Arsenal.

Leasehold Improvements
The entire amount shown on this line is for improvements made to facilities at Corpus Christi Army Depot, which is
a tenant on a Navy installation, but does not maintain a lease with the Navy. Improvements made on these facilities
are recorded as leasehold improvements. The decrease of $2.7 million, or 13 percent, from FY 2004 to FY 2005 is due
to depreciation recorded.

Software
Software decreased $16.1 million, or 16 percent, from FY 2004 to FY 2005. The AWCF depreciates software at
approximately 20 percent annually.

General Equipment
General Equipment increased $57.2 million, or 26 percent, from FY 2004 to FY 2005. The majority of this increase,
$39.4 million, is for Power Train project equipment at Anniston Army Depot. Additionally, Anniston purchased
$5.4 million in other general equipment. Corpus Christi Army Depot purchased general equipment for ﬂight critical
parts inspection and treatment, valued at $9.1 million and compression hot section repair cell equipment valued at
$7.0 million.

Construction in Progress
Construction in Progress increased by $19.8 million, or 67 percent, from FY 2004 to FY 2005. The majority of the
increase is attributable to projects at Tobyhanna Army Depot, with other projects reported by Anniston Army Depot,
Sierra Army Depot, Bluegrass Army Depot, and Pine Bluff Arsenal.


Note Reference
For additional line item discussion, see:
Note 1.O, General Plant, Property and Equipment


Assets Under Capital Lease
Not applicable.

Corpus Christi Army Depot is a tenant on a Navy installation, but does not maintain a lease with the Navy.
Improvements made on these facilities are recorded as leasehold improvements.




                                                                                FY 2005 Army Annual Financial Statement 185
Note 11. Liabilities Not Covered by Budgetary Resources
  As of September 30                                                             2005                     2004
  (Amounts in thousands)
  1. Intragovernmental Liabilities
     A. Accounts Payable                                              $                        0      $                0
     B. Debt                                                                                   0                       0
     C. Other                                                                             47,253                  50,084
     D. Total Intragovernmental Liabilities                           $                   47,253      $           50,084
  2. Nonfederal Liabilities
     A. Accounts Payable                                              $                           0   $               0
     B. Military Retirement Benefits and
                                                                                         286,523                 304,976
         Other Employment-Related Actuarial Liabilities
     C. Environmental Liabilities                                                               0                    0
     D. Loan Guarantee Liability                                                                0                    0
     E. Other Liabilities                                                                       0               66,859
     F. Total Nonfederal Liabilities                                  $                   286,523     $        371,835
  3. Total Liabilities Not Covered by Budgetary Resources             $                   333,776     $        421,919
  4. Total Liabilities Covered by Budgetary Resources                                   1,072,271              695,373
  5. Total Liabilities                                                $                 1,406,047     $      1,117,292

Liabilities Not Covered by Budgetary Resources are liabilities incurred by the reporting entity which are not covered
by realized budgetary resources as of the balance sheet date.

Liabilities Covered by Budgetary Resources are liabilities incurred by the reporting entity which are covered by
realized budget resources as of the balance sheet date. Budgetary resources encompass not only new budget
authority, but also other resources available to cover liabilities for speciﬁed purposes in a given year. Realized
budgetary resources include:

1. New budget authority
2. Spending authority from offsetting collections (credited to an appropriation or fund account)
3. Recoveries of unexpired budget authority through downward adjustments of prior year obligations
4. Unobligated balances of budgetary resources at the beginning of the year or net transfers of prior year balances
   during the year
5. Permanent indeﬁnite appropriations or borrowing authority, which have been enacted and signed into law as
   of the balance sheet date, provided that the resources may be apportioned by the Ofﬁce of Management and
   Budget without further action by the Congress or without a contingency ﬁrst having to be met




186 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
Fluctuations and/or Abnormalities
Non-Federal Other Liabilities decreased by $66.9 million, or 100 percent, from FY 2004 to FY 2005. During FY
2004, the AWCF reported annual leave as a not covered by budgetary resources liability due to systems reporting
limitations. In FY 2005, these reporting limitations were resolved and the liability is properly reported as unfunded
covered by budgetary resources.

Other Liabilities Not Covered by Budgetary Resources:
(Amounts in thousands)

                                                     2005        2004
Intragovernmental - Other Liabilities
       FECA Reimbursement to the Dept. of Labor   $ 47,253    $50,084


Legend:
FECA – Federal Employees Compensation Act

The FECA bill is paid by the Department of Labor (DOL), which then bills the Army. At this time, the Army is not
able to split out the DOL bill between AWCF and Army General Fund (AGF). Therefore the portions for AWCF and
AGF are estimated. The AWCF estimate is based on the actual bill that was due to DOL in October 2004, which was
actually paid in February 2005. The FECA billing period runs from July through June and bills are due and payable
in the month of October, two years later.

Currently, the AWCF has a liability for two years, plus one quarter of FECA liability. The liability covers the period
July 2003 through September 2005.

Non-federal Liabilities
Employment-Related Actuarial Liabilities consist of the FECA actuarial liability.


Note Reference
For additional line item discussion, see:
Note 12, Accounts Payable
Note 15, Other Liabilities
Note 17, Military Retirement Beneﬁts and Other Employment Related Actuarial Liabilities

Note 12. Accounts Payable
                                                                                   2005                                         2004
                                                                             Interest, Penalties, and
  As of September 30                                     Accounts Payable      Administrative Fees              Total           Total
  (Amounts in thousands)
  1. Intragovernmental Payables                      $             105,603   $            N/A               $     105,603   $    159,150
  2. Non-Federal Payables (to the Public)                          295,817                              3         295,820        372,054
  3. Total                                           $             401,420   $                          3   $     401,423   $    531,204


Intragovernmental Payables - amounts owed to other federal agencies for goods or services ordered and received
but not yet paid. Interest, penalties and administrative fees are not applicable to intragovernmental payables.

Non-federal Payables (to the Public) - payables for debts owed to individuals and entities outside the Federal
Government.




                                                                                                FY 2005 Army Annual Financial Statement 187
Fluctuation and/or Abnormalities
The Army Working Capital Fund (AWCF) Intragovernmental Payables decreased $53.5 million, or 34 percent, from
FY 2004 to FY 2005. The decrease is due to decreased activity with federal trading partners.

The AWCF Non-Federal Payables decreased $76.2 million, or 20 percent, from FY 2004 to FY 2005. This decrease is
due to a higher liquidation rate since FY 2004 for Accounts Payable arising from delivered goods and services.


Other disclosures
Undistributed Disbursements
Undistributed disbursements are the difference between disbursements recorded in the activity ﬁeld records of
the AWCF versus those reported by the U.S. Treasury. The DoD policy is to allocate supported undistributed
disbursements between intragovernmental and non-federal categories based on the percentage of each category
of payables. The AWCF allocated supported undistributed disbursements based on a 24-month review of detail
transactions. Unsupported undistributed disbursements are those disbursements reported at the U.S. Treasury for
which no supporting voucher exists to post to the appropriate line in the accounting records.

Unsupported Undistributed Disbursements
Unsupported undistributed disbursements are recorded in United States Standard General Ledger account 2120,
Disbursements in Transit. The AWCF currently has $2.4 million in unsupported undistributed disbursements.

Intragovernmental Eliminations
The DoD summary level seller accounts receivable balances were compared to the AWCF payable balances. As
a result of this comparison, adjusting entries were entered to decrease the AWCF intragovernmental payables by
$123.3 million. In addition, $54.0 million of payables within the AWCF were eliminated from the report. For the
majority of intragovernmental sales, the AWCF accounting systems do not capture trading partner data at the
transaction level in a manner that facilitates trading partner aggregations. Therefore, the AWCF was unable to
reconcile its intragovernmental payables with its trading partners’ receivables. The DoD intends to develop long-
term systems improvements that will address this issue.


Note Reference
For additional line item discussion, see:
Note 1.G, Accounting for Intragovernmental Activities

Note 13. Debt
Not applicable.

Note 14. Environmental Liabilities and Disposal Liabilities
Not applicable.




188 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
Note 15. Other Liabilities
 As of September 30                                                               2005                                2004
                                                            Current             Noncurrent
                                                                                                     Total            Total
                                                            Liability            Liability
 (Amounts in thousands)
 1. Intragovernmental
    A. Advances from Others                             $        19,660     $                0   $      19,660    $       10,962
    B. Deposit Funds and Suspense Account Liabilities                 0                    0                 0                 0
    C. Disbursing Officer Cash                                        0                    0                 0                 0
    D. Judgment Fund Liabilities                                      0                    0                 0                 0
    E. FECA Reimbursement to the Department of Labor             21,002               26,252            47,254            50,084
    F. Other Liabilities                                          8,665                    0             8,665             6,614
    G. Total Intragovernmental Other Liabilities        $        49,327     $         26,252     $      75,579    $       67,660
 2. Nonfederal
    A. Accrued Funded Payroll and Benefits              $        91,586     $                0   $      91,586    $       67,790
    B. Advances from Others                                      42,429                      0          42,429            37,206
    C. Deferred Credits                                               0                      0                0                0
    D. Deposit Funds and Suspense Accounts                        (891)                      0           ( 891)            (854)
    E. Temporary Early Retirement Authority                           0                      0                0                0
    F. Nonenvironmental Disposal Liabilities
         (1) Military Equipment (Nonnuclear)                            0                    0               0                0
         (2) Excess/Obsolete Structures                                 0                    0               0                0
         (3) Conventional Munitions Disposal                            0                    0               0                0
         (4) Other                                                      0                    0               0                0
    G. Accrued Unfunded Annual Leave                             95,756                      0          95,756            66,859
    H. Capital Lease Liability                                          0                    0               0                0
    I. Other Liabilities                                        413,642                      0         413,642            42,451
    J. Total Nonfederal Other Liabilities               $       642,522     $                0   $     642,522    $      213,452

 3. Total Other Liabilities                             $       691,849     $         26,252     $     718,101    $      281,112



Fluctuations and/or Abnormalities
Intragovernmental Other Liabilities
Total Intragovernmental Other Liabilities increased $7.9 million, or 12 percent, from FY 2004 to FY 2005 because of
the following reasons:

Intragovernmental Advances from others increased $8.7 million, or 79 percent, from FY 2004 to FY 2005 primarily
from FY 2004 and FY 2005 orders from the Army General Fund that were collected in advance of work performed.
These orders will be completed and the resulting revenue recognized in later periods.

Intragovernmental Other Liabilities increased $2.1 million, or 31 percent, from FY 2004 to FY 2005. The change is
a result of increased employee beneﬁt liabilities as reported by the Ofﬁce of Personnel Management (OPM). The
AWCF is required to balance with what OPM has reported to the Department of the Treasury as an accrual for the
reporting period.

Total Non-Federal Other Liabilities
Total Non-Federal Other Liabilities increased $429.1 million, or 201 percent, because of the following reasons:

Accrued Funded Payroll and Beneﬁts increased $23.8 million, or 35 percent, from FY 2004 to FY 2005. The increase
in Accrued Funded Payroll and Beneﬁts reﬂects ﬂuctuations in personnel strengths and the number of days accrued
for the payroll cycle from FY 2004 to FY 2005.




                                                                                       FY 2005 Army Annual Financial Statement 189
Non-Federal Advances from Others increased $5.2 million, or 14 percent, from FY 2004 to FY 2005. During FY 2005,
the AWCF increased workload with non-federal entities.

Accrued Unfunded Annual Leave increased $28.9 million, or 43 percent, from FY 2004 to FY 2005 because Supply
Management was unable to accrue leave due to system deﬁciencies in prior periods. Previously, the Standard
Operations Maintenance, Army Research Development System (SOMARDS) posted unfunded annual leave for the
Supply Management Business Area to the Army General Fund. In March 2005, the Defense Finance and Accounting
Service (DFAS) began posting SOMARDS data to the Army Working Capital Fund. Additionally, the Logistics
Modernization Program (LMP) began performing the leave accrual function for Supply Management activities on
LMP.

Non-Federal Other Liabilities increased $371.2 million, or 874 percent, from FY 2004 to FY 2005. The increase is
attributable to inventory intransit posted by the Logistics Modernization Program (LMP). The LMP records a
liability for inventory intransit to the Communications and Electronics Command (CECOM) when inventory is
released from the vendor and Army takes ownership. This process was not in place during FY 2004. The process
records an accrual in the current month and a reversal is posted at the beginning of the following month, which
allows LMP to identify the proper liability for inventory intransit.

Other disclosures
The Federal Employment Compensation Act (FECA) is administered by the Department of Labor (DOL), Ofﬁce
of Workers’ Compensation Programs. Workers’ Compensation claims are submitted to and approved by the
DOL. The DOL pays the claim holders and prepares a chargeback billing to the AWCF. The FECA law, P.L. 93-
416, Section 8147, essentially gives agencies two years to pay the chargeback bill, thereby allowing time for the
applicable amount to be included in budget submissions. Pursuant to the FECA law, funding should be paid within
30 days. The current liability is the amount that is payable in October 2005. The non-current liability is payable in
October 2006. Only the Industrial Operations business area reports a FECA liability because it is composed of host
installations responsible for paying Workers’ Compensation. The Supply Management business area is made up of
selected personnel at other installations, whose FECA liabilities are paid by the Army General Fund.

The Unemployment Beneﬁts Liability bill received from the DOL is not broken out by appropriation. The AWCF
does not report an Unemployment Beneﬁts liability. The Army determined that the General Fund is responsible for
the entire liability and reports it on the General Fund statements.

Other Liabilities: (Amounts in Thousands)
                                                         FY 2005    FY 2004
Intragovernmental - Other Liabilities
      VSIP                                                    $0        $0
      CSRS, FERS, FEGLI, FEHB                               8,665     6,614
      FECA Payable, Past Due                                   0         0
Total Intragovernmental Other Liabilities                  $8,665    $6,614
Non-Federal –Other Liabilities
      Contract Holdbacks                                  $41,249   $32,852
      Employers Contributions to TSP and Taxes Payable     11,451     9,599
      Contingent Liability                                   450         0
      Liabilities for Intransit Inventory                 360,492        0
Total Non-Federal Other Liabilities                      $413,642   $42,451
Total Other Liabilities                                  $422,307   $49,065




190 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
Legend:
VSIP – Voluntary Separation Incentive Pay
CSRS – Civil Service Retirement System
FERS – Federal Employees Retirement System
FEGLI – Federal Employees Group Life Insurance
FEHB – Federal Employees Health Beneﬁts
FECA – Federal Employees Compensation Act
TSP – Thrift Savings Plan


Note Reference
For additional line item discussion, see:
Note 1.S, Contingencies and Other Liabilities
Note 11, Liabilities Not Covered by Budgetary Resources
Note 17, Military Retirement Beneﬁts and Other Employment Related Actuarial Liabilities


Capital Lease Liability
Not applicable.

Note 16. Commitments and Contingencies
Disclosures Related to Commitments and Contingencies:


Relevant Information for Comprehension
Nature of Contingency
The Army Working Capital Fund (AWCF) has other contingent liabilities in which the possibility of loss is
considered reasonable. These liabilities are not accrued in the AWCF’s ﬁnancial statements.

As of September 30, 2005, the AWCF has approximately $873 thousand in claims considered reasonably possible.
The possible contingent liability is primarily attributable to a review and legal assessment at Crane Army
Ammunition Activity regarding the likelihood of a claim payment to a contractor. These contingent liabilities and
estimates are presented in the following table.

Estimate of the Possible Liability
Title of Contingent Liabilities   Estimate (in thousands)
Army Materiel Command                     $873


Note Reference
For additional line item discussion, see:
Note 1.S, Contingencies and Other Liabilities




                                                                             FY 2005 Army Annual Financial Statement 191
Note 17. Military Retirement Beneﬁts and Other Employment Related Actuarial
         Liabilities
                                                                                    2005                                                   2004
                                                    Actuarial Present    Assume           (Less: Assets             Unfunded
                                                    Value of Projected   Interest        Available to Pay           Actuarial        Unfunded Actuarial
  As of September 30                                  Plan Benefits      Rate (%)           Benefits)                Liability            Liability
  (Amounts in thousands)
  1. Pension and Health Benefits
     A. Military Retirement Pensions                $                0               $                      0   $                0   $                0
     B. Military Retirement Health Benefits                          0                                      0                    0                    0
     C. Medicare-Eligible Retiree Benefits                           0                                      0                    0                    0
     D. Total Pension and Health Benefits           $                0               $                      0   $                0   $                0
  2. Other
     A. FECA                                        $         286,523        4.53    $                      0   $       286,523      $          304,976
     B. Voluntary Separation Incentive Programs                     0                                       0                 0                       0
     C. DoD Education Benefits Fund                                 0                                       0                 0                       0
     E. Total Other                                 $         286,523                $                      0   $       286,523      $          304,976
  3. Total Military Retirement Benefits and Other
     Employment Related Actuarial Liabilities:      $         286,523                $                      0   $       286,523      $          304,976


Actuarial Cost Method Used: The Army’s actuarial liability for Workers’ Compensation beneﬁts is developed by the
Department of Labor and provided to the Army at the end of each ﬁscal year. The liability includes the expected
liability for death, disability, medical, and miscellaneous costs for approved compensation cases. The liability is
determined using a method that utilizes historical beneﬁt payment patterns to predict the ultimate payments.

Assumptions: The projected annual beneﬁt payments are discounted to the present value using the Ofﬁce of
Management and Budget economic assumptions for 10-year U.S. Treasury notes and bonds. Cost of Living
adjustments and medical inﬂation factors are applied to the calculation of projected future beneﬁts.

Market Value of Investments in Market-based and Marketable Securities: Not applicable.


Military Retirement Beneﬁts
The Army General Fund pays the Army Working Capital Fund (AWCF) military retirement beneﬁts.


Federal Employment Compensation Act (FECA)
The Industrial Operations business area reports a FECA liability because it includes host installations responsible for
paying Workers’ Compensation. The Supply Management business area does not report FECA liability because it is
made up of selected personnel at other installations, whose FECA liabilities are paid by the Army General Fund.

The Ofﬁce of Personnel Management provides updated Army actuarial liabilities during the 4th Quarter of each
ﬁscal year. The AWCF computes its portion of the total Army actuarial liability based on the percentage of the
AWCF FECA expense to the total Army FECA expense.


Note Reference
For additional line item discussion, see:
Note 11, Liabilities Not Covered by Budgetary Resources
Note 15, Other Liabilities




192 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
Note 18. Disclosures Related to the Statement of Net Cost
The Consolidated Statement of Net Cost in the Federal Government is unique because its principles are driven
by understanding the net cost of programs and/or organizations that the Federal Government supports through
appropriations or other means. This statement provides gross and net cost information that can be related to the
amount of output or outcome for a given program and/or organization administered by a responsible reporting
entity.

While the Army Working Capital Fund (AWCF) activities generally record transactions on an accrual basis, as is
required by Federal Generally Accepted Accounting Principles (GAAP), the systems do not always capture actual
costs. Information presented on the Consolidated Statement of Net Cost is primarily based on budgetary obligation,
disbursements, or collection transactions, as well as information from non-ﬁnancial feeder systems. The Army is in
the process of upgrading its ﬁnancial and logistical feeder systems to the Logistics Modernization Program (LMP) to
address this issue.


Fluctuations and/or Abnormalities
The AWCF net costs decreased $539.8 million, or 23 percent, between FY 2004 and FY 2005. This decrease is largely
attributable to the following:

Intragovernmental gross costs decreased $831.8 million, or 29 percent between FY 2004 and FY 2005. During FY
2005, the AWCF placed more orders with the public than with intragovernmental sources in support of contingency
missions Operation Enduring Freedom, Iraqi Freedom, and Noble Eagle.

Intragovernmental earned revenue decreased $899.7 million or 11 percent, between FY 2004 and FY 2005. This
decrease is primarily attributable to a decrease in revenue received from the Army General Fund.

Gross Costs with the Public increased $2.4 billion, or 30 percent, between FY 2004 and FY 2005. Earned revenue
from the Public increased $2.0 billion, or 40 percent between FY 2004 and FY 2005. The change in net costs is
attributable to a decrease in gains on inventory adjustments in the Supply Management Business Area.

During FY 2004, it was discovered that inventory transactions in LMP were causing overstatement of other gains
and other losses, impacting the Communication and Electronics Command (CECOM), Tobyhanna Army Depot,
and other Army Materiel Command (AMC) activities. During 2nd Quarter FY 2005, as part of the LMP stabilization
plan, AMC and the Defense Finance and Accounting Service (DFAS), and LMP contractor support processed journal
voucher entries to correct this problem. These correcting entries created large offsetting gains and losses. The DFAS
prepared adjusting entries to reduce the inventory gains and losses in order to properly reﬂect the current year gains
and losses being reported. The total adjustment of $5.6 billion included $5.56 billion for CECOM and $48.0 million
for Tobyhanna Army Depot activities using LMP.

In addition, elimination balancing entries to bring the AWCF buyer-side costs into agreement with the seller-side
revenues caused a reclassiﬁcation of $984.8 million from Public Gross and Net Costs to Intragovernmental Gross
and Net Costs. For the majority of intragovernmental sales, the AWCF accounting systems do not capture trading
partner data at the transaction level in a manner that facilitates trading partner aggregations. Therefore, the AWCF
was unable to reconcile its intragovernmental expenses with its trading partners’ revenues. The DoD intends to
develop long-term systems improvements that will address this issue.




                                                                               FY 2005 Army Annual Financial Statement 193
Note 19. Disclosures Related to the Statement of Changes in Net Position
                                                                      2005               2005               2004               2004
                                                                    Cumulative                            Cumulative
                                                                    Results of        Unexpended          Results of        Unexpended
  As of September 30                                                Operations       Appropriations       Operations       Appropriations

 1.    Prior Period Adjustments Increases (Decreases)
       to Net Position
       A. Changes in Accounting Standards                       $                0   $            0   $                0   $           0
       B. Errors and Omissions in Prior Year Accounting
            Reports                                                              0                0                    0               0
       C. Other Prior Period Adjustments                                         0                0                    0               0
       D. Total Prior Period Adjustments                        $                0   $            0   $                0   $           0
  2.   Imputed Financing
       A. Civilian CSRS/FERS Retirement                         $          55,172    $            0   $         56,020     $           0
       B. Civilian Health                                                  91,750                 0             74,612                 0
       C. Civilian Life Insurance                                             213                 0                189                 0
       D. Judgment Fund                                                         0                 0                  0                 0
       E. Total Imputed Financing                               $         147,135    $            0   $        130,821     $           0


Legend:
CSRS – Civil Service Retirement System
FERS – Federal Employees Retirement System

Prior Period Adjustments
The Department of the Treasury emphasized the reporting of prior period adjustments for material changes only.
The Ofﬁce of the Under Secretary of Defense (Comptroller) and the Defense Finance and Accounting Service
guidance also emphasized the position that use of prior period adjustments should be infrequent. Individual entities
within the Army Working Capital Fund (AWCF) submitted prior period adjustments, which were subsequently
reported on internal monthly ﬁnancial reports. These adjustments, totaling $82.5 million, did not meet the
materiality threshold established for ﬁnancial statement reporting. These balances were reclassiﬁed to accounts that
would have been affected if they had occurred in the current year.

Imputed Financing
Total Imputed Financing increased $16.3 million, or 12 percent, from FY 2004 to FY 2005. This was primarily due
to an increase in Civilian Health costs of $17.1 million, or 23 percent, and an increase in Civilian Life Insurance of
$24 thousand, or 13 percent from FY 2004 to FY 2005. This increase is attributable to an increase in the government’s
share of Federal Employees Health Beneﬁts (FEHB) and Federal Employees Group Life Insurance (FEGLI). Federal
GAAP requires the reporting of government employee beneﬁts. The amounts remitted to the OPM by and for
covered employees do not generally cover the actual cost of the beneﬁts those employees will receive after their
careers are over. As a consequence, for FY 2005, the AWCF must recognize an imputed cost equal to the difference
between the true cost of providing future beneﬁts to its employees and the employer and employee contributions
they remit to the OPM.


Fluctuations and/or Abnormalities
Cumulative Results of Operations:
Appropriations used decreased $231.2 million, or 100 percent, from FY 2004 to FY 2005, as the AWCF did not receive
any current appropriations.

Budgetary Financing Sources Transfers-in/out without reimbursement changed $932.7 million, or 64 percent,
from FY 2004 to FY 2005. During FY 2005, the AWCF received transfers in of budgetary resources of $84.4 million


194 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
for war reserves and $99.6 million received for industrial mobilization capacity, totaling $184.1 million from the
DoD Appropriations Act, 2005, P.L. 108 287. The AWCF transferred out $250.0 million to the Army General Fund,
Operations and Maintenance Appropriation in accordance with Critical Army Requirements, Reprogramming
Action FY 05-27 PA and $450.0 million to the Army General Fund, Operations and Maintenance Appropriation in
accordance with Critical Army Requirements, Reprogramming Action FY 05-47 PA.

Other Budgetary Financing Sources decreased by $175.9 million, or 100 percent, from FY 2004 to FY 2005. This
decrease resulted from a change in accounting procedures. During FY 2004, other gains and losses were reported as
having a budgetary impact and recorded on this line. The AWCF began reporting other gains and losses as having
no budgetary impact during FY 2005. Other gains and losses are now reported on the Other Financing Sources
Other line.

Other Financing Sources Other increased by $230.9 million, or 100 percent, from FY 2004 to FY 2005. This increase
resulted from a change in accounting procedures. During FY 2004, other gains and losses were reported as having a
budgetary impact and recorded on the Other Budgetary Financing Sources line. The AWCF began reporting other
gains and losses as having no budgetary impact during FY 2005. Other gains and losses are now reported on the
Other Financing Sources Other line.

The AWCF net costs decreased by $539.8 million, or 23 percent, between FY 2004 and FY 2005. This is due to
increased workload in support of contingency missions Operation Enduring Freedom, Iraqi Freedom, and Noble
Eagle.

Unexpended Appropriations:
Appropriations received decreased by $219.3 million or 100 percent, from FY 2004 to FY 2005 as the AWCF did not
receive any FY 2005 appropriations.

Appropriations used decreased $231.2 million or 100 percent as the AWCF did not receive any FY 2005
appropriations.


Note Reference
For Additional Line Item discussion, see:
Note 18, Disclosures Related to the Statement of Net Cost
Note 20, Disclosures Related to the Statement of Budgetary Resources

Note 20. Disclosures Related to the Statement of Budgetary Resources
 As of September 30                                                             2005                    2004
 (Amounts in thousands)
 1.   Net Amount of Budgetary Resources Obligated for Undelivered
      Orders at the End of the Period                                       $      10,115,417   $            8,600,534
 2.   Available Borrowing and Contract Authority at the End of the Period           6,702,921                4,549,857


The Army Working Capital Fund (AWCF) reports all obligations as reimbursable per Ofﬁce of Management and
Budget (OMB) circular A-11, Section 83.5. Primary funding for the AWCF is earned through customer orders, as
described in Note 1.C.




                                                                                FY 2005 Army Annual Financial Statement 195
Available contract authority as of September 30, 2005, is as follows: (Amounts in thousands)

                         Unused Contract Authority        Contract Authority    Contract Authority Available
Business Area             as of September 30, 2004      Realized For FY 2005      as of September 30, 2005
Industrial Operations                      $33,695                  $27,565                          $61,260
Supply Management                        4,516,162                 2,125,499                       6,641,661
Total AWCF                              $4,549,857               $2,153,064                       $6,702,921
Unobligated balances from spending authority from offsetting collections (revenues earned) as of September 30,
2005, are as follows: (Amounts in thousands)

                                          Change in Unﬁlled                     Total Spending Authority from
Business Area                Earned                  Orders       Anticipated           Offsetting Collections
Industrial Operations     $4,405,895                 $(53,752)            $0                       $4,352,143
Supply Management          9,745,017                 (701,167)             0                        9,043,850
Total AWCF               $14,150,912              $(754,919)              $0                      $13,395,993

Fluctuations and/or Abnormalities
Appropriations Received decreased $219.3 million, or 100 percent, from FY 2004 to FY 2005. The AWCF did not
receive direct appropriations in FY 2005.

All business activity increased from FY 2004 to FY 2005 due to increased reimbursable activity with the Army
General Fund, as well as within the AWCF, in support of the contingency missions Operations Enduring Freedom,
Iraqi Freedom, and Noble Eagle.

Contract authority increased $8.8 billion, or 420 percent from FY 2004 to FY 2005. Prior to FY 2005, the net remaining
contract authority was reported on the contract authority line of the statement. The Department of Defense issued
reporting instructions in FY 2005, which now require reporting the total contract authority on this line.

Budget Authority, Net transfers changed $1.4 billion, or 100 percent, between FY 2004 to FY 2005. No budgetary
authority has been transferred in or out of the AWCF during this period.

Unobligated balance, Net transfers, Actual changed $515.9 million, or 100 percent, between FY 2004 and FY 2005.
The Army received two transfers from Defense Logistics Agency (DLA) amounting to $99.6 million for Industrial
Mobilization Capacity and $84.4 million for war reserves in accordance with the DoD Appropriations Act, 2005,
P.L. 108-287. The AWCF transferred out $250.0 million to the Army General Fund, Operation and Maintenance
Appropriation in accordance with Critical Army Requirements, Reprogramming Action FY 05-27 PA and $450.0
million to the Army General Fund, Operation and Maintenance Appropriation in accordance with Critical Army
Requirements, Reprogramming Action FY 05-47 PA.

Spending Authority from Offsetting Collections increased $1.3 billion, or 11 percent, from FY 2004 to FY 2005. This
increase occurred because of increased orders from the Army General Fund. The increase was primarily within the
Supply Management business area to replenish supplies and repair parts. Industrial Operations also recognized
increased orders to repair major end items. These increases are noted below:

     Earned - Collected increased by $1.9 billion, or 16 percent, in FY 2005.
     Earned - Receivable from Federal Sources changed by $24.4 million, or 45 percent, in FY 2004 to FY 2005.
     Change in Unﬁlled Customer Orders – Advance Received changed by $36.5 million, or 212 percent, from FY
     2004 to FY 2005.
     Change in Unﬁlled Customer Orders – Without Advance from Federal Sources increased by $645.3 million, or
     501 percent, from FY 2004 to FY 2005.



196 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
Recoveries of Prior Year Obligations increased by $935.9 million, or 187 percent, from FY 2004 to FY 2005. During
2nd Quarter FY 2005, and throughout FY 2005 as part of the Logistics Modernization Program (LMP) stabilization
plan, the Army Materiel Command (AMC), the Defense Finance and Accounting Service (DFAS), and the LMP
contractor support were doing data migration cleanup to adjust obligations and unliquidated obligations on a
transactional basis. These adjustments resulted in large recoveries during FY 2005.

Permanently not available increased by $8.8 billion, or 100 percent, from FY 2004 to FY 2005. The amount represents
contract authority replaced by other budgetary resources throughout the year. Prior to FY 2005, the permanently not
available was not reﬂected on the AWCF reports. The Department of Defense issued reporting instructions in FY
2005, which now require reporting.

Reimbursable obligations increased by $2.8 billion, or 20 percent, from FY 2004 to FY 2005. The AWCF recognized
this increase primarily in the Supply Management business area due to increased orders for secondary items in
support of the contingency missions Operations Enduring Freedom, Iraqi Freedom, and Noble Eagle.

Unobligated balance apportioned decreased $353.7 million, or 23 percent from FY 2004 to FY 2005 as the AWCF
obligated projects in FY 2005 from FY 2004 reimbursable orders.

Unﬁlled customer orders from federal sources decreased $774.2 million, or 17 percent, from FY 2004 to FY 2005. Due
to increased receipt of inventory, the Supply Management business area was able to clear more back order items
during FY 2005.

Undelivered Orders increased $1.4 billion, or 17 percent, from FY 2004 to FY 2005 primarily in the Supply
Management business area. The increase is due to increased demand for secondary items in support of the
contingency missions Operations Enduring Freedom, Iraqi Freedom, and Noble Eagle.

Accounts Payable decreased $62.9 million, or 10 percent, from FY 2004 to FY 2005. This decrease is due to a higher
liquidation rate since FY 2004 for delivered goods and services.

Net Outlays decreased $438.4 million, or 70 percent, from FY 2004 to FY 2005. Disbursements increased $2.4 billion,
or 21 percent, and Collections increased $2 billion, or 16 percent, from FY 2004 to FY 2005. This reﬂects increased
disbursing and collecting activity in support of the contingency missions Operations Enduring Freedom, Iraqi
Freedom, and Noble Eagle.


Other disclosures
The AWCF does not make eliminating entries in the Statement of Budgetary Resources because the statements are
presented as combined and combining and, therefore, are presented as a Disaggregated Statement of Budgetary
Resources in the Required Supplementary Information section of the ﬁnancial statements.

Adjustments in funds that are temporarily not available pursuant to public law, and those that are permanently
not available, are not included in the Spending Authority From Offsetting Collections and Adjustments line on the
Statement of Budgetary Resources or the Spending Authority for Offsetting Collections and Adjustments line on the
Statement of Financing.

AWCF had reimbursable obligations for apportionment category B of $11.9 billion and $5.0 billion obligations
exempt from apportionment.

The Statement of Budgetary Resources does not eliminate for intragovernmental receivables, nor does it include
contractor debt or refunds receivable.

Accounts payable on the Statement of Budgetary Resources includes the employee payroll liability and does not
eliminate for intragovernmental payables. The Balance Sheet eliminates for intragovernmental payables and reports
the employee payroll liability in Other Liabilities. This results in different balances between the Statement of
Budgetary Resources and the Balance Sheet.


                                                                              FY 2005 Army Annual Financial Statement 197
The AWCF contains obligation and unliquidated obligation values that were migrated to the LMP at values higher
than what was reported in the respective legacy systems at time of migration. This overstatement occurred at the
Supply Management activities for the Communication-Electronics Command and Tobyhanna Army Depot. The
Army Materiel Command believes that the majority of these overstatements were corrected during FY 2005.


Note Reference
For Additional Line Item discussion, see:
Note 1, Signiﬁcant Accounting Policies
Note 5, Accounts Receivable
Note 12, Accounts Payable
Note 18, General Disclosures Related to the Statement of Net Cost
Note 19, General Disclosures Related to the Statement of Changes in Net Position

Note 21. Disclosures Related to the Statement of Financing
Disclosures Related to the Statement of Financing:

The objective of the Statement of Financing is to allow users to understand the difference between the Statement
of Budgetary Resources and the Statement of Net Cost. The statement provides this understanding through a
comprehensive reconciliation process.

The Army Working Capital Fund’s (AWCF) budgetary data does not agree with its proprietary expenses and
assets capitalized. This results in a difference in net cost between the Statement of Net Cost and the Statement of
Financing. Resources that ﬁnance the acquisition of assets were adjusted by $1.4 billion to bring the statements
into agreement. The differences between budgetary and proprietary data for the AWCF were reported as material
weaknesses in the FY 2005 AWCF ﬁnancial statement report.


Fluctuations and/or Abnormalities
Obligations incurred increased by $2.8 billion, or 20 percent, from FY 2004 to FY 2005. The AWCF recognized this
increase primarily in the Supply Management business area due to increased sales and demand for secondary items
in support of the contingency missions Operations Enduring Freedom, Iraqi Freedom, and Noble Eagle.

Spending Authority from offsetting collections and recoveries increased by $2.3 billion, or 18 percent, from FY 2004
to FY 2005. The AWCF recognized this increase primarily in the Supply Management business area due to increased
sales and demand for secondary items in support of the contingency missions Operations Enduring Freedom, Iraqi
Freedom, and Noble Eagle. Collections increased $1.9 billion from FY 2004 to FY 2005. Recoveries of prior year
obligations increased $935.9 million from FY 2004 and FY 2005. These increases in spending authority were offset by
reductions in the amount of orders received without advances, which amounted to a decrease of $645.3 million from
FY 2004 to FY 2005.

Total Imputed Financing increased $16.3 million, or 12 percent, from FY 2004 to FY 2005. This was primarily due
to an increase in Civilian Health costs of $17.1 million, or 23 percent, and an increase in Civilian Life Insurance of
$24 thousand, or 13 percent from FY 2004 to FY 2005. This increase is attributable to an increase in the government’s
share of Federal Employees Health Beneﬁts (FEHB) and Federal Employees Group Life Insurance (FEGLI). Federal
GAAP requires the reporting of government employee beneﬁts. The amounts remitted to the Ofﬁce of Personnel
Management (OPM) by and for covered employees do not generally cover the actual cost of the beneﬁts those
employees will receive after their careers are over. As a consequence, for FY 2005, the AWCF must recognize an
imputed cost equal to the difference between the true cost of providing future beneﬁts to its employees and the
employer and employee contributions they remit to the OPM.

The Budgetary Resources Obligated - Other line increased by $230.9 million, or 100 percent from FY 2004 to FY 2005.


198 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
The FY 2005 balance represents inventory gains and losses reported as non-exchange gains and losses. During FY
2005 the presentation of this line was changed to include non-exchange gains and losses.

Change in Undelivered Orders decreased $982.8 million, or 39 percent, from FY 2004 to FY 2005. This reﬂects the
increased delivery of items ordered in prior years in support of the contingency missions Operations Enduring
Freedom, Iraqi Freedom, and Noble Eagle.

Change in Unﬁlled Customer Orders increased by $608.8 million, or 417 percent, from FY 2004 to FY 2005. This
reﬂects the increased order volume in support of the contingency missions Operations Enduring Freedom, Iraqi
Freedom, and Noble Eagle.

Resources that ﬁnance the Acquisition of Assets increased $1.8 billion, or 29 percent due to purchases of inventory to
increase balances on hand.

Other Resources or Adjustments to Net Obligated Resources – Other decreased $237.8 million, or 3461 percent. The
majority of the change resulted from a presentation change for non-exchange gains and losses on the Statement of
Financing.

Increase in Annual Leave Liability increased by $27.5 million, or 2000 percent, from FY 2004 to FY 2005. The Supply
Management activities previously reported the annual leave liability in the Army General Fund Financial Statements
but began reporting in the AWCF Financial Statements during the 2nd Quarter FY 2005.

Components Requiring or Generating Resources in Future Period – Other decreased by $172 thousand or 100
percent. In FY 2004 this line contained an increase in the Federal Employee Compensation Act (FECA) expense.
In FY 2005 the FECA expense decreased and is reported on the Resources that Fund Expenses Recognized in Prior
Periods.

Depreciation and amortization increased $13.0 million, or 16 percent, from FY 2004 to FY 2005. This increase is
attributable to the acquisition of general property plant and equipment during FY 2005.

Revaluation of Assets or Liabilities increased by $442.4 million, or 172 percent, from FY 2004 to FY 2005. The increase
is due to additional inventory valuation adjustments for Supply Management activities. The Army and the Defense
Finance and Accounting Service continue to monitor inventory reporting values.

Other Cost of Goods Sold increased by $1.0 billion, or 20 percent from FY 2004 to FY 2005. This is a result of
increased sales made in FY 2005 in support of Operations Enduring Freedom, Iraqi Freedom, and Noble Eagle.

Other Other changed by $115.9 million, or 26 percent, from FY 2004 to FY 2005. The change is attributable to
Treasury regulations requiring posting to a cost capitalization offset account. The AWCF implemented this
accounting procedure in FY 2005.


Other disclosures
Transactions within the AWCF have not been eliminated because the statements are presented as combined and
combining.


Note Reference
For Additional Line Item discussion, see:
Note 10, General PP&E
Note 11, Liabilities Not Covered by Budgetary Resources
Note 18, Disclosures Related to the Statement of Net Cost
Note 20, Disclosures Related to the Statement of Budgetary Resources



                                                                                FY 2005 Army Annual Financial Statement 199
Note 22. Disclosures Related to the Statement of Custodial Activity
Not applicable.

Note 23. Other Disclosures
Not applicable.




200 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
FY 2005 Army Annual Financial Statement 201
Department of Defense - Army Working Capital Fund
CONSOLIDATING BALANCE SHEET
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                    Supply Management         Industrial Operations        Component Level
¬¬¬ASSETS¬(Note¬2)
     Intragovernmental:
     Fund Balance with Treasury (Note 3)
        Entity                                                 $             (308,788)    $                 (16,494)   $           948,612
        Non-Entity Seized Iraqi Cash                                                  0                            0                      0
        Non-Entity-Other                                                              0                            0                      0
     Investments (Note 4)                                                             0                            0                      0
     Accounts Receivable (Note 5)                                              221,126                      199,464                (53,968)
     Other Assets (Note 6)                                                       38,831                       51,295               (90,126)
     Total Intragovernmental Assets                            $               (48,831)   $                 234,265    $           804,518
     Cash and Other Monetary Assets (Note 7)                   $                      0   $                        0   $                  0
     Accounts Receivable (Note 5)                                                 8,611                        3,424                      0
     Loans Receivable (Note 8)                                                        0                            0                      0
     Inventory and Related Property (Note 9)                                15,527,728                      405,413                       0
     General Property, Plant and Equipment (Note 10)                             75,650                   1,152,563                       0
     Investments (Note 4)                                                             0                            0                      0
     Other Assets (Note 6)                                                     333,529                           212                      0
¬¬¬TOTAL¬ASSETS                                                $            15,896,687    $               1,795,877    $           804,518

¬¬¬LIABILITIES¬(Note¬11)
      Intragovernmental:
      Accounts Payable (Note 12)                                $              106,160 $                   176,680 $              (177,237)
      Debt (Note 13)                                                                 0                           0                        0
      Other Liabilities (Note 15 & Note 16)                                    100,896                      70,837                 (96,154)
      Total Intragovernmental Liabilities                       $              207,056 $                   247,517 $              (273,391)
      Accounts Payable (Note 12)                                $               38,262 $                   131,857 $                125,701
      Military Retirement Benefits and Other Employment-Related                      0                     286,523                        0
      Actuarial Liabilities (Note 17)
      Environmental Liabilities (Note 14)                                            0                           0                        0
      Loan Guarantee Liability (Note 8)                                              0                           0                        0
      Other Liabilities (Note 15 and Note 16)                                  469,132                     174,281                    (891)
¬¬¬TOTAL¬LIABILITIES                                            $              714,450 $                   840,178 $              (148,581)

¬¬¬NET¬POSITION
     Unexpended Appropriations                                 $                     0 $                         0 $                     0
     Cumulative Results of Operations                                       15,182,237                     955,699                 953,099
¬¬¬TOTAL¬NET¬POSITION                                          $            15,182,237 $                   955,699 $               953,099

¬¬¬TOTAL¬LIABILITIES¬AND¬NET¬POSITION                          $            15,896,687 $                  1,795,877 $              804,518




202 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
    Combined Total        Eliminations       2005 Consolidated       2004 Consolidated




$           623,330   $             0    $             623,330   $             948,463
                  0                 0                        0                       0
                  0                 0                        0                       0
                  0                 0                        0                       0
            366,622                 0                  366,622                 444,923
                  0                 0                        0                      79
$           989,952   $             0    $             989,952   $           1,393,465
$                 0   $             0    $                   0   $                   0
             12,035                 0                   12,035                  13,482
                  0                 0                        0                       0
         15,933,141                 0               15,933,141              13,916,672
          1,228,213                 0                1,228,213                 899,438
                  0                 0                        0                       0
            333,741                 0                  333,741                 265,122
$        18,497,082   $             0    $          18,497,082   $          16,488,179




$          105,603 $                0 $                105,603 $               159,150
                 0                  0                        0                       0
            75,579                  0                   75,579                  67,660
$          181,182 $                0 $                181,182 $               226,810
$          295,820 $                0 $                295,820 $               372,054
           286,523                  0                  286,523                 304,976

                  0                 0                        0                       0
                  0                 0                        0                       0
            642,522                 0                  642,522                 213,452
$         1,406,047 $               0 $              1,406,047 $             1,117,292



$                 0 $               0 $                      0 $                    53
         17,091,035                 0               17,091,035              15,370,834
$        17,091,035 $               0 $             17,091,035 $            15,370,887

$        18,497,082 $               0 $             18,497,082 $            16,488,179




                                                                                         FY 2005 Army Annual Financial Statement 203
Department of Defense - Army Working Capital Fund
CONSOLIDATING STATEMENT OF NET COST
As of September 30, 2005 and 2004 ($ in Thousands)
                                                                                                          2005              2004
¬¬¬Program¬Costs                                          Combined Total       Eliminations       Consolidated      Consolidated
A.¬Component¬Level
          Intragovernmental Gross Costs               $           979,547 $               0 $          979,547 $       2,112,347
          (Less: Intragovernmental Earned Revenue)               5,761,732                0          5,761,732         3,290,147
          Intragovernmental Net Costs                 $          6,741,279 $              0 $        6,741,279 $       5,402,494
          Gross Costs With the Public                 $        (6,746,549) $              0 $       (6,746,549) $     (5,375,497)
          (Less: Earned Revenue From the Public)                        0                 0                  0                 0
          Net Costs With the Public                   $        (6,746,549) $              0 $       (6,746,549) $     (5,375,497)
          Total Net Cost                              $            (5,270) $              0 $           (5,270) $         26,997
B.¬Industrial Operations
          Intragovernmental Gross Costs               $           384,554 $               0 $          384,554 $               0
          (Less: Intragovernmental Earned Revenue)             (4,275,537)                0         (4,275,537)                0
          Intragovernmental Net Costs                 $        (3,890,983) $              0 $       (3,890,983) $              0
          Gross Costs With the Public                 $          9,140,787 $              0 $        9,140,787 $               0
          (Less: Earned Revenue From the Public)               (5,094,022)                0         (5,094,022)                0
          Net Costs With the Public                   $          4,046,765 $              0 $        4,046,765 $               0
          Total Net Cost                              $           155,782 $               0 $          155,782 $               0
C.¬Supply¬Management
          Intragovernmental Gross Costs               $           652,063 $               0 $          652,063 $         386,277
          (Less: Intragovernmental Earned Revenue)             (9,042,550)                0         (9,042,550)       (8,245,086)
          Intragovernmental Net Costs                 $        (8,390,487) $              0 $       (8,390,487) $     (7,858,809)
          Gross Costs With the Public                 $          8,206,198 $              0 $         8,206,198 $       8,185,419
          (Less: Earned Revenue From the Public)               (1,824,249)                0         (1,824,249)       (2,810,651)
          Net Costs With the Public                   $          6,381,949 $              0 $         6,381,949 $       5,374,768
          Total Net Cost                              $        (2,008,538) $              0 $       (2,008,538) $     (2,484,041)




204 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
                                                                                                             2005                2004
                                                            Combined Total        Eliminations       Consolidated        Consolidated
D.¬Depot¬Maintenance
      Intragovernmental Gross Costs                     $                0 $                0 $                 0 $           271,082
      (Less: Intragovernmental Earned Revenue)                           0                  0                   0          (2,653,482)
      Intragovernmental Net Costs                       $                0 $                0 $                 0 $        (2,382,400)
      Gross Costs With the Public                       $                0 $                0 $                 0 $         4,195,038
      (Less: Earned Revenue From the Public)                             0                  0                   0          (1,917,228)
      Net Costs With the Public                         $                0 $                0 $                 0 $         2,277,810
      Total Net Cost                                    $                0 $                0 $                 0 $          (104,590)
E.¬Ordnance
      Intragovernmental Gross Costs                     $                0 $                0 $                 0 $            78,288
      (Less: Intragovernmental Earned Revenue)                           0                  0                   0            (847,632)
      Intragovernmental Net Costs                       $                0 $                0 $                 0 $          (769,344)
      Gross Costs With the Public                       $                0 $                0 $                 0 $         1,156,340
      (Less: Earned Revenue From the Public)                             0                  0                   0            (223,173)
      Net Costs With the Public                         $                0 $                0 $                 0 $           933,167
      Total Net Cost                                    $                0 $                0 $                 0 $           163,823
F.¬Total¬Program¬Costs
      Intragovernmental Gross Costs                     $         2,016,164 $               0 $         2,016,164 $         2,847,994
      (Less: Intragovernmental Earned Revenue)                  (7,556,355)                 0          (7,556,355)         (8,456,053)
      Intragovernmental Net Costs                       $       (5,540,191) $               0 $        (5,540,191) $       (5,608,059)
      Gross Costs With the Public                       $       10,600,436    $             0    $     10,600,436    $       8,161,300
      (Less: Earned Revenue From the Public)                    (6,918,271)                 0          (6,918,271)         (4,951,052)
      Net Costs With the Public                         $         3,682,165   $             0    $       3,682,165   $       3,210,248
      Total Net Cost                                    $       (1,858,026)   $             0    $     (1,858,026)   $     (2,397,811)
¬¬¬Cost¬Not¬Assigned¬to¬Programs                        $                 0   $             0    $               0   $               0
¬¬¬(Less:Earned¬Revenue¬Not¬Attributable¬to¬Programs)                     0                 0                    0                   0
¬¬¬Net¬Cost¬of¬Operations                               $       (1,858,026)   $             0    $     (1,858,026)   $     (2,397,811)




                                                                                       FY 2005 Army Annual Financial Statement 205
Department of Defense - Army Working Capital Fund
CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                       Supply Management          Industrial Operations
CUMULATIVE¬RESULTS¬OF¬OPERATIONS
   Beginning¬Balances                                             $             13,088,913 $                   732,617
   Adjustments¬(+/-)
        Changes in Accounting Principles (+/-)                                           0                           0
        Correction of Errors (+/-)                                                       0                           0
   Beginning¬Balances,¬as¬adjusted                                $             13,088,913 $                   732,617
   Budgetary¬Financing¬Sources:
        Appropriations received                                                           0                          0
        Appropriations transferred-in/out (+/-)                                           0                          0
        Other adjustments (rescissions, etc) (+/-)                                        0                          0
        Appropriations used                                                              53                          0
        Nonexchange revenue                                                               0                          0
        Donations and forfeitures of cash and cash equivalents                            0                          0
        Transfers-in/out without reimbursement (+/-)                              (615,575)                     99,631
        Other budgetary financing sources (+/-)                                    (14,080)                     14,080
   Other¬Financing¬Sources:
        Donations and forfeitures of property                                              0                          0
        Transfers-in/out without reimbursement (+/-)                                772,617                   (171,142)
        Imputed financing from costs absorbed by others                               17,834                    129,301
        Other (+/-)                                                                 (76,064)                    306,994
   Total¬Financing¬Sources                                        $                   84,785 $                  378,864
   Net¬Cost¬of¬Operations¬(+/-)                                                 (2,008,538)                     155,782
   Net¬Change                                                                     2,093,323                     223,082
   Ending¬Balance                                                 $             15,182,236 $                    955,699

UNEXPENDED¬APPROPRIATIONS
¬¬¬¬Beginning¬Balances                                            $                     53 $                         0
¬¬¬¬Prior¬period¬adjustments¬(+/-)
        Changes in Accounting Principles (+/-)                                           0                           0
        Correction of Errors (+/-)                                                       0                           0
¬¬¬¬Beginning¬Balances,¬as¬adjusted                               $                     53 $                         0
¬¬¬¬Budgetary¬Financing¬Sources:
        Appropriations received                                                           0                          0
        Appropriations transferred-in/out (+/-)                                           0                          0
        Other adjustments (rescissions, etc) (+/-)                                        0                          0
        Appropriations used                                                            (53)                          0
        Nonexchange revenue                                                               0                          0
        Donations and forfeitures of cash and cash equivalents                            0                          0
       Transfers-in/out without reimbursement (+/-)                                       0                          0
       Other budgetary financing sources (+/-)                                            0                          0
¬¬¬¬Other¬Financing¬Sources:
        Donations and forfeitures of property                                             0                          0
        Transfers-in/out without reimbursement (+/-)                                      0                          0
        Imputed financing from costs absorbed by others                                   0                          0
        Other (+/-)                                                                       0                          0
    Total¬Financing¬Sources                                       $                    (53) $                        0
    Net¬Cost¬of¬Operations¬(+/-)
    Net¬Change                                                                         (53)                          0
    Ending¬Balance                                                $                       0 $                        0



206 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
    Component Level      Combined Total      Eliminations    2005 Consolidated       2004 Consolidated


$          1,549,304 $       15,370,834 $              0 $          15,370,834 $            13,883,676

                   0                  0                0                     0                       0
                   0                  0                0                     0                       0
$          1,549,304 $       15,370,834 $              0 $          15,370,834 $            13,883,676

                  0                    0               0                     0                        0
                  0                    0               0                     0                        0
                  0                    0               0                     0                        0
                  0                   53               0                    53                  231,207
                  0                    0               0                     0                        0
                  0                    0               0                     0                        0
                  0            (515,944)               0             (515,944)              (1,448,600)
                  0                    0               0                     0                  175,918

                    0                  0               0                      0                       0
           (601,474)                   1               0                      1                       0
                    0            147,135               0                147,135                 130,821
                    0            230,930               0                230,930                       0
$          (601,474) $         (137,825) $             0 $            (137,825) $             (910,654)
              (5,270)        (1,858,026)               0            (1,858,026)             (2,397,811)
           (596,204)           1,720,201               0              1,720,201               1,487,157
$            953,100 $       17,091,035 $              0 $          17,091,035 $            15,370,833



$                 0 $                53 $              0 $                 53 $                 11,960

                  0                   0                0                    0                        0
                  0                   0                0                    0                        0
$                 0 $                53 $              0 $                 53 $                 11,960

                  0                    0               0                     0                  219,300
                  0                    0               0                     0                        0
                  0                    0               0                     0                        0
                  0                 (53)               0                  (53)                (231,207)
                  0                    0               0                     0                        0
                  0                    0               0                     0                        0
                  0                    0               0                     0                        0
                  0                    0               0                     0                        0

                  0                    0               0                     0                        0
                  0                    0               0                     0                        0
                  0                    0               0                     0                        0
                  0                    0               0                     0                        0
$                 0 $               (53) $             0 $                (53) $               (11,907)

                  0                 (53)               0                  (53)                 (11,907)
$                 0 $                  0 $             0 $                   0 $                     53




                                                                                    FY 2005 Army Annual Financial Statement 207
Department of Defense - Army Working Capital Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                  Supply Management               Industrial Operations
Budgetary Financing Accounts
BUDGETARY¬RESOURCES
   Budget Authority:
      Appropriations received                              $                          0 $                            0
      Borrowing authority                                                             0                              0
      Contract authority                                                     10,780,125                        171,779
      Net transfers (+/-)                                                             0                              0
      Other                                                                           0                              0
   Unobligated balance:
      Beginning of period                                                       115,216                       1,378,313
      Net transfers, actual (+/-)                                             (615,575)                          99,631
        Anticipated Transfers Balances                                                0                               0
   Spending authority from offsetting collections:
      Earned                                                                            0                              0
        Collected                                                              9,788,111                      4,392,206
        Receivable from Federal sources                                          (43,094)                         13,688
      Change in unfilled customer orders                                                0                              0
        Advance received                                                            6,475                         12,796
        Without advance from Federal sources                                   (707,642)                        (66,548)
      Anticipated for the rest of year, without advances                                0                              0
      Previously unavailable                                                            0                              0
      Transfers for trust funds                                                         0                              0
       Subtotal                                            $                   9,043,850 $                    4,352,142
   Recoveries of prior year obligations                                        1,187,808                        247,784
   Temporarily not available pursuant to Public Law                                     0                              0
   Permanently not available                                                 (8,654,627)                      (144,214)
¬¬ Total¬Budgetary¬Resources                               $                 11,856,797 $                     6,105,435

STATUS¬OF¬BUDGETARY¬RESOURCES
   Obligations incurred:
       Direct                                              $                          0 $                             0
       Reimbursable                                                          11,850,805                       4,971,640
       Subtotal                                            $                 11,850,805 $                     4,971,640
   Unobligated balance:
       Apportioned                                                                5,991                       1,133,794
       Exempt from apportionment                                                      0                               0
       Other available                                                                1                               1
   Unobligated Balances Not Available                                                 0                               0
¬¬¬Total,¬Status¬of¬Budgetary¬Resources                    $                 11,856,797 $                     6,105,435
Relationship¬of¬Obligations¬to¬Outlays:
   Obligated Balance, Net - beginning of period            $                  4,279,888 $                     (313,201)
   Obligated Balance transferred, net (+/-)                                           0                               0
   Obligated Balance, Net - end of period:
       Accounts receivable                                                     (230,875)                      (201,467)
       Unfilled customer order from Federal sources                          (2,209,533)                    (1,538,990)
       Undelivered orders                                                      8,490,049                      1,285,599
       Accounts payable                                                          156,182                        397,246
   Outlays:
       Disbursements                                                           9,487,799                      4,521,127
       Collections                                                           (9,794,586)                    (4,405,002)
       Subtotal                                            $                   (306,787) $                      116,125
   Less: Offsetting receipts                                                           0                              0
¬¬¬Net¬Outlays                                             $                   (306,787) $                      116,125



208 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
    Component Level      2005 Combined       2004 Combined




$                 0 $                 0 $            219,300
                  0                   0                    0
                  0          10,951,904            2,106,368
                  0                   0          (1,448,600)
                  0                   0                    0

             36,713           1,530,242           2,093,703
                  0           (515,944)                   0
                  0                   0                   0

                   0                    0                  0
                (37)         14,180,280          12,265,860
                  37             (29,369)           (53,776)
                   0                    0                  0
                   0               19,271           (17,246)
                   0           (774,190)          (128,900)
                   0                    0                  0
                   0                    0                  0
                   0                    0                  0
$                  0 $       13,395,992 $        12,065,938
                   0           1,435,592            499,733
                   0                    0                  0
                   0         (8,798,841)                   0
$            36,713 $        17,998,945 $        15,536,442




$                 0 $                 0 $                 0
                  0          16,822,445          14,006,202
$                 0 $        16,822,445 $        14,006,202

             36,714           1,176,499           1,530,241
                   0                  0                    0
                 (1)                  1                  (1)
                   0                  0                    0
$            36,713 $        17,998,945 $        15,536,442

$             1,393 $         3,968,080 $         1,898,332
                  0                   0                   0

              (891)            (433,233)           (462,602)
                  0          (3,748,523)         (4,522,713)
                  0            9,775,648           8,334,654
              2,433              555,861             618,741

              (186)           14,008,740          11,619,397
                 37         (14,199,551)        (12,248,614)
$             (149) $          (190,811) $         (629,217)
                  0                    0                   0
$             (149) $          (190,811) $         (629,217)




                                                               FY 2005 Army Annual Financial Statement 209
Department of Defense - Army Working Capital Fund
CONSOLIDATING STATEMENT OF FINANCING
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                                                      Supply Management
Resources¬Used¬to¬Finance¬Activities:
Budgetary Resources Obligated
 Obligations incurred                                                                             $            11,850,805
 Less: Spending authority from offsetting collections                                                        (10,231,658)
 and recoveries (-)
 Obligations net of offsetting collections and recoveries                                         $            1,619,147
 Less: Offsetting receipts (-)                                                                                         0
 Net obligations                                                                                  $            1,619,147
Other Resources
 Donations and forfeitures of property                                                                                  0
 Transfers in/out without reimbursement (+/-)                                                                    772,617
 Imputed financing from costs absorbed by others                                                                   17,834
 Other (+/-)                                                                                                     (76,064)
 Net other resources used to finance activities                                                   $              714,387
Total¬resources¬used¬to¬finance¬activities                                                        $            2,333,534

Resources¬Used¬to¬Finance¬Items¬not¬Part of¬the¬Net¬Cost¬of¬Operations
 Change in budgetary resources obligated for goods,
 services and benefits ordered but not yet provided
       Undelivered Orders (-)                                                                     $           (1,385,704)
       Unfilled Customer Orders                                                                                 (701,167)
 Resources that fund expenses recognized in prior periods                                                               0
 Budgetary offsetting collections and receipts that do not affect net cost of operations                                0
 Resources that finance the acquisition of assets                                                             (6,042,800)
 Other resources or adjustments to net obligated resources
 that do not affect net cost of operations
       Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-)                              0
       Other (+/-)                                                                                              (696,553)
Total¬resources¬used¬to¬finance¬items¬not part¬of¬the¬net¬cost¬of¬operations                      $           (8,826,224)
Total¬resources¬used¬to¬finance¬the¬net¬cost¬of operations                                        $           (6,492,690)

Components¬of¬the¬Net¬Cost¬of¬Operations¬that¬will
not¬Require¬or¬Generate¬Resources¬in¬the¬Current¬Period:
Components Requiring or Generating Resources in Future Period:
 Increase in annual leave liability                                                               $               23,239
 Increase in environmental and disposal liability                                                                      0
 Upward/Downward reestimates of credit subsidy expense (+/-)                                                           0
 Increase in exchange revenue receivable from the the public (-)                                                       0
 Other (+/-)                                                                                                           0
 Total components of Net Cost of Operations that                                                  $               23,239
 will require or generate resources in future periods
Components not Requiring or Generating Resources:
 Depreciation and amortization                                                                                    48,864
 Revaluation of assets or liabilities (+/-)                                                                      665,661
 Other (+/-)
        Trust Fund Exchange Revenue                                                                                     0
        Cost of Goods Sold                                                                                     3,757,369
        Operating Material & Supplies Used                                                                              0
        Other                                                                                                    (10,982)
 Total components of Net Cost of Operations that
  will not require or generate resources                                                          $            4,460,912
Total¬components¬of¬net¬cost¬of¬operations¬that
will¬not¬require¬or¬generate¬resources¬in¬the¬current period                                      $             4,484,151
Net¬Cost¬of¬Operations                                                                            $           (2,008,539)



210 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
    Industrial Operations     Component Level      2005 Consolidated      2004 Consolidated



$               4,971,640 $                0 $             16,822,445 $           14,006,202
              (4,599,927)                  0             (14,831,585)           (12,565,671)

$                371,713 $                 0 $             1,990,860 $            1,440,531
                       0                   0                       0                      0
$                371,713 $                 0 $             1,990,860 $            1,440,531

                        0                    0                     0                      0
                (171,142)            (601,474)                     1                      0
                  129,301                    0               147,135                130,821
                  306,994                    0               230,930                      0
$                 265,153 $          (601,474) $             378,066 $              130,821
$                 636,866 $          (601,474) $           2,368,926 $            1,571,352




$               (123,909) $            (5,270) $          (1,514,883) $          (2,497,681)
                 (53,752)                    0              (754,919)              (146,147)
                 (21,283)                    0               (21,283)               (23,337)
                        0                    0                      0                      0
              (1,956,174)                    0            (7,998,974)            (6,214,549)


                        0                    0                      0                      0
                (135,852)             601,474               (230,931)                  6,872
$             (2,290,970) $           596,204 $          (10,520,990) $          (8,874,842)
$             (1,654,104) $            (5,270) $          (8,152,064) $          (7,303,490)




$                  5,659 $                  0 $               28,898 $                1,376
                       0                    0                      0                      0
                       0                    0                      0                      0
                       0                    0                      0                      0
                       0                    0                      0                    172
$                  5,659 $                  0 $               28,898 $                1,548


                  47,020                    0                 95,884                 82,909
                  34,252                    0                699,913                257,468

                       0                    0                      0                      0
               2,268,001                    0              6,025,370              5,003,845
                       0                    0                      0                      0
               (545,047)                    0              (556,029)              (440,090)

$              1,804,226 $                 0 $             6,265,138 $            4,904,132

$              1,809,885 $                   0 $            6,294,036 $            4,905,680
$                155,781 $             (5,270) $          (1,858,028) $          (2,397,810)



                                                                              FY 2005 Army Annual Financial Statement 211
Department of Defense - Army Working Capital Fund
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
As of September 30, 2005 and 2004 ($ in Thousands)


                                                               Working Capital Funds       2005 Combined           2004 Combined
Budgetary Financing Accounts
BUDGETARY¬RESOURCES
  Budget Authority:
      Appropriations received                              $                        0 $                     0 $            219,300
      Borrowing authority                                                           0                       0                    0
      Contract authority                                                   10,951,904              10,951,904            2,106,368
      Net transfers (+/-)                                                           0                       0          (1,448,600)
      Other                                                                         0                       0                    0
  Unobligated balance:
      Beginning of period                                                   1,530,241               1,530,241           2,093,704
      Net transfers, actual (+/-)                                           (515,944)               (515,944)                   0
        Anticipated Transfers Balances                                              0                       0                   0
  Spending authority from offsetting collections:
      Earned                                                                         0                        0                  0
        Collected                                                         14,180,280               14,180,280          12,265,860
        Receivable from Federal sources                                       (29,369)                 (29,369)           (53,776)
      Change in unfilled customer orders                                             0                        0                  0
        Advance received                                                        19,271                   19,271           (17,247)
        Without advance from Federal sources                                (774,189)                (774,189)          (128,900)
      Anticipated for the rest of year, without advances                             0                        0                  0
      Transfers from trust funds                                                     0                        0                  0
      Subtotal                                                            13,395,993               13,395,993          12,065,937
  Recoveries of prior year obligations                                      1,435,592                1,435,592            499,733
   Temporarily not available pursuant to Public Law                                  0                        0                  0
  Permanently not available                                               (8,798,841)              (8,798,841)                   0
¬¬¬Total¬Budgetary¬Resources                               $              17,998,945 $             17,998,945 $        15,536,442

STATUS¬OF¬BUDGETARY¬RESOURCES
   Obligations incurred:                                   $
       Direct                                                                       0                       0                   0
       Reimbursable                                                        16,822,446              16,822,445          14,006,202
       Subtotal                                                            16,822,446              16,822,445          14,006,202
   Unobligated balance:
       Apportioned                                                          1,176,499               1,176,499           1,530,241
       Exempt from apportionment                                                    0                       0                    0
       Other available                                                              0                       1                  (1)
   Unobligated Balances Not Available                                               0                       0                    0
¬¬¬Total,¬Status¬of¬Budgetary¬Resources                    $               17,998,945 $            17,998,945 $        15,536,442
Relationship¬of¬Obligations¬to¬Outlays:
   Obligated Balance, Net beginning of period              $                3,968,080 $             3,968,080 $         1,898,332
   Obligated Balance transferred, net (+/-)                                         0                       0                   0
   Obligated Balance, Net end of period:
       Accounts receivable                                                  (433,233)                (433,233)           (462,602)
       Unfilled customer order from Federal sources                       (3,748,523)              (3,748,523)         (4,522,713)
       Undelivered orders                                                   9,775,648                9,775,648           8,334,654
       Accounts payable                                                       555,861                  555,861             618,741
   Outlays:
       Disbursements                                                       14,008,740               14,008,740          11,619,397
       Collections                                                       (14,199,551)             (14,199,551)        (12,248,614)
       Subtotal                                                             (190,811)                (190,811)           (629,217)
   Less: Offsetting receipts                                                        0                        0                   0
¬¬¬Net¬Outlays                                             $                (190,811) $              (190,811) $         (629,217)



212 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
                                                               Working Capital Funds        2005 Combined          2004 Combined
Non-Budgetary Financing Accounts
BUDGETARY¬RESOURCES
   Budget Authority:
      Appropriations received                              $                       0 $                    0 $                    0
      Borrowing authority                                                          0                      0                      0
      Contract authority                                                           0                      0                      0
      Net transfers (+/-)                                                          0                      0                      0
      Other                                                                        0                      0                      0
   Unobligated balance:
      Beginning of period                                                          0                      0                      0
      Net transfers, actual (+/-)                                                  0                      0                      0
        Anticipated Transfers Balances                                             0                      0                      0
   Spending authority from offsetting collections:
      Earned                                                                       0                      0                      0
        Collected                                                                  0                      0                      0
        Receivable from Federal sources                                            0                      0                      0
      Change in unfilled customer orders                                           0                      0                      0
        Advance received                                                           0                      0                      0
        Without advance from Federal sources                                       0                      0                      0
      Anticipated for the rest of year, without advances                           0                      0                      0
      Transfers from trust funds                                                   0                      0                      0
      Subtotal                                                                     0                      0                      0
   Recoveries of prior year obligations                                            0                      0                      0
   Temporarily not available pursuant to Public Law                                0                      0                      0
   Permanently not available                                                       0                      0                      0
¬¬¬Total¬Budgetary¬Resources                               $                       0 $                    0 $                    0

STATUS¬OF¬BUDGETARY¬RESOURCES
   Obligations incurred:                                   $
       Direct                                                                      0                      0                      0
       Reimbursable                                                                0                      0                      0
       Subtotal                                                                    0                      0                      0
   Unobligated balance:
       Apportioned                                                                 0                      0                      0
       Exempt from apportionment                                                   0                      0                      0
       Other available                                                             0                      1                    (1)
   Unobligated Balances Not Available                                              0                      0                      0
¬¬¬Total,¬Status¬of¬Budgetary¬Resources                    $                       0 $                    0 $                    0
Relationship¬of¬Obligations¬to¬Outlays:
   Obligated Balance, Net beginning of period              $                       0 $                    0 $                    0
   Obligated Balance transferred, net (+/-)                                        0                      0                      0
   Obligated Balance, Net end of period:
       Accounts receivable                                                         0                      0                      0
       Unfilled customer order from Federal sources                                0                      0                      0
       Undelivered orders                                                          0                      0                      0
       Accounts payable                                                            0                      0                      0
   Outlays:
       Disbursements                                                               0                      0                      0
       Collections                                                                 0                      0                      0
       Subtotal                                                                    0                      0                      0
   Less: Offsetting receipts                                                       0                      0                      0
¬¬¬Net¬Outlays                                             $                       0 $                    0 $                    0



                                                                                         FY 2005 Army Annual Financial Statement 213
                                      Required Supplemental Information - Part A

AT97 - Army Working Capital Fund
($ Amounts in Thousands)
Schedule, Part A DoD Intra-governmental Asset        Treasury     Fund Balance     Accounts         Loans
Balances.                                             Index:      with Treasury    Receivable     Receivable   Investments   Other
Executive Office of the President                        11                             $193
Department of Agriculture                                12                               $2
Department of the Interior                               14                              $10
Department of Justice                                    15                             $210
Navy General Fund                                        17                          $13,783
Department of State                                      19                             $138
Department of the Treasury                               20           $623,331          $305
Army General Fund                                        21                         $312,950
Library of Congress                                       3                              $46
Department of Veterans Affairs                           36                              $13
General Service Administration                           47                             $358
Central Intelligence Agency                              56                             $652
Air Force General Fund                                   57                           $5,609
Department of Transportation                             69                             $411
Homeland Security                                        70                           $4,366
Department of Health and Human Services                  75                             $155
National Aeronautics and Space Administration            80                              $10
Department of Energy                                     89                             $241
US Army Corps of Engineers                               96                           $1,989
Other Defense Organizations General Funds                97                           $9,769
Other Defense Organizations Working Capital Funds     97-4930                         $7,488
Navy Working Capital Fund                           97-4930.002                       $5,039
Air Force Working Capital Fund                      97-4930.003                       $2,884
Totals                                                                $623,331      $366,621




214 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
                                      Required Supplemental Information - Part B

AT97 - Army Working Capital Fund
($ Amounts in Thousands)
                                                               Treasury     Accounts       Debts/Borrowings
                                                                                                                     Other
Schedule, Part B DoD Intra-governmental entity liabilities.     Index:       Payable      From Other Agencies
Department of Labor                                                16                                              $47,253
Navy General Fund                                                  17         $2,053
Army General Fund                                                  21        $26,041                               $19,661
Office of Personnel Management                                     24                                               $8,665
Air Force General Fund                                             57           $421
US Army Corps of Engineers                                         96             $0
Other Defense Organizations General Funds                          97            $80
Other Defense Organizations Working Capital Funds               97-4930      $67,316
Navy Working Capital Fund                                     97-4930.002     $6,634
Air Force Working Capital Fund                                97-4930.003     $3,059
Totals                                                                      $105,604                               $75,579




                                                                                       FY 2005 Army Annual Financial Statement 215
                                     Required Supplemental Information - Part C

AT97 - Army Working Capital Fund
($ Amounts in Thousands)
Schedule, Part C DoD Intra-governmental revenue and related costs.                        Treasury Index:   Earned Revenue
Executive Office of the President                                                                11                    $627
Department of Agriculture                                                                        12                     $80
Department of the Interior                                                                       14                     $41
Department of Justice                                                                            15                  $1,328
Navy General Fund                                                                                17                $372,869
Department of State                                                                              19                  $1,442
Department of the Treasury                                                                       20                    $669
Army General Fund                                                                                21              $6,143,838
Library of Congress                                                                               3                    $283
Department of Veterans Affairs                                                                   36                     $18
General Service Administration                                                                   47                  $1,638
Central Intelligence Agency                                                                      56                  $3,987
Air Force General Fund                                                                           57                $247,796
Department of Transportation                                                                     69                  $3,585
Homeland Security                                                                                70                 $22,224
Department of Health and Human Services                                                          75                  $1,135
National Aeronautics and Space Administration                                                    80                    $524
Department of Energy                                                                             89                    $295
US Army Corps of Engineers                                                                       96                  $4,528
Other Defense Organizations General Funds                                                        97                $190,876
Other Defense Organizations Working Capital Funds                                             97-4930               $51,174
Navy Working Capital Fund                                                                   97-4930.002            $205,357
Air Force Working Capital Fund                                                              97-4930.003            $302,041
Totals                                                                                                           $7,556,355




216 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
                                       Required Supplemental Information - Part E

AT97 - Army Working Capital Fund
($ Amounts in Thousands)
                                                              Treasury Index:        Transfers In         Transfers Out
Army General Fund                                                    21                                       $700,000
Other Defense Organizations Working Capital Funds                 97-4930               $184,056
Totals                                                                                  $184,056              $700,000




                                                                                FY 2005 Army Annual Financial Statement 217
                                                                                  INSPECTOR GENERAL
                                                                                 DEPARTMENT OF DEFENSE
                                                                                    400 ARMY NAVY DRIVE
                                                                               ARLINGTON, VIRGINIA 22202-4704




                                                                                                                                                                                 November 08, 2005

MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL MANAGEMENT
               AND COMPTROLLER)

SUBJECT: Independent Auditor’s Report on the Fiscal Year 2005 Army Working Capital Fund
         Financial Statements (Report No. D 2006 014)

The Chief Financial Ofﬁcers Act of 1990, as amended, requires the Department of Defense Inspector General to audit
the accompanying Army Working Capital Fund Consolidated Balance Sheet as of September 30, 2005 and 2004, the
related Consolidated Statement of Net Cost, the Consolidated Statement of Changes in Net Position, the Combined
Statement of Budgetary Resources, and the Combined Statement of Financing for the ﬁscal years then ended. The
ﬁnancial statements are the responsibility of Army management. The Army is also responsible for implementing
effective internal control and for complying with laws and regulations. We are unable to give an opinion on the
Fiscal Year 2005 ﬁnancial statements of the Army Working Capital Fund because of limitations on the scope of our
work. Thus, the ﬁnancial statements may be unreliable. In addition to our disclaimer of opinion on the ﬁnancial
statements, we are including the required Report on Internal Control and Compliance with Laws and Regulations.
The Report on Internal Control and Compliance with Laws and Regulations is an integral part of our disclaimer of
opinion on the ﬁnancial statements and should be considered in assessing the results of the audit.


Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that the
ﬁnancial management and feeder systems that Army relies on to provide evidence supporting the Army Working
Capital Fund ﬁnancial statements do not comply with Federal ﬁnancial management system requirements,
generally accepted accounting principles, and the U.S. Government Standard General Ledger at the transaction
level. Therefore, we did not perform auditing procedures to determine whether material amounts on the ﬁnancial
statements were fairly presented. We did not perform these and other auditing procedures because Section 1008(d)
of the FY 2002 National Defense Authorization Act limits the Department of Defense Inspector General to perform
only audit procedures required by generally accepted government auditing standards that are consistent with the
representations made by management. The Army has also acknowledged, and prior audits have identiﬁed, the
material weaknesses listed in the Summary of Internal Control. These material weaknesses also affect the reliability
of certain information contained in the annual ﬁnancial statements—much of which is taken from the same data
sources as the principal ﬁnancial statements.1 Therefore, we are unable to express, and we do not express, an
opinion on the ﬁnancial statements and the accompanying information.


Summary of Internal Control
In planning our audit, we considered Army internal control over ﬁnancial reporting and compliance. We did this to
determine our procedures for auditing the ﬁnancial statements and to comply with Ofﬁce of Management



1
  The annual ﬁnancial statements include the principal ﬁnancial statements, management discussion and analysis, consolidating and combining ﬁnancial statements, Required Supplementary Information, and Other
Accompanying Information.




218 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
and Budget guidance, but our purpose was not to express an opinion on internal control. Accordingly, we do not
express an opinion on internal control over ﬁnancial reporting and compliance. However, previously identiﬁed
reportable conditions,2 all of which are material, continue to exist in the following areas.

                                Financial Management Systems and Processes
                                Inventory
                                General Property, Plant, and Equipment
                                Intragovernmental Transactions and Eliminations
                                Accounting Adjustments
                                Accounts Payable
                                Statement of Net Cost
                                Statement of Financing

Material weaknesses are reportable conditions in which internal controls do not reduce (to a relatively low level)
the risk of misstatements that are material to the ﬁnancial statements and that might not be timely detected by
employees while performing their normal, assigned functions. Our internal control work would not necessarily
disclose all material weaknesses. See the Attachment for additional details on material internal control weaknesses.


Summary of Compliance with Laws and Regulations
Our work to determine compliance with selected provisions of applicable laws and regulations related to
ﬁnancial reporting was limited because management acknowledged, and prior audits conﬁrm, that instances of
noncompliance continue to exist. The Army acknowledged to us that many of its critical ﬁnancial management and
feeder systems do not comply with the requirements of the Federal Financial Management Information Act of 1996.
Therefore, we did not determine whether the Army was in compliance with all applicable laws and regulations
related to ﬁnancial reporting. See the Attachment for additional details on compliance with laws and regulations.


Management Responsibility
Management is responsible for:

                                preparing the ﬁnancial statements in conformity with generally accepted accounting principles;
                                establishing, maintaining, and assessing internal control to provide reasonable assurance that the
                                broad control objectives of the Federal Managers’ Financial Integrity Act are met; and
                                complying with applicable laws and regulations.

We provided a draft of this report to Army ofﬁcials.




Attachment:
As stated

2
  Reportable conditions are matters coming to the auditor’s attention that, in his or her judgment, should be communicated to management because they represent signiﬁcant deﬁciencies in the design or operation of
internal control, which could adversely affect the organization’s ability to initiate, record, process, and report ﬁnancial data consistent with the assertions of management in ﬁnancial statements.




                                                                                                                                                 FY 2005 Army Annual Financial Statement 219
Report on Internal Control and Compliance with Laws and Regulations
Internal Control
Management is responsible for implementing effective internal control and for providing reasonable assurance
that accounting data are accumulated, recorded, and reported properly and that assets are safeguarded against
misappropriation and abuse. Our purpose was not to, and we do not, express an opinion on internal control over
ﬁnancial reporting. However, we have identiﬁed the following material weaknesses that could adversely affect a
favorable opinion on internal control.

Material Weaknesses. Management acknowledged that previously identiﬁed reportable conditions, all of which are
material, continue to exist.

Financial Management Systems and Processes. Army Working Capital Fund systems are unable to meet all of the
requirements for full accrual accounting. The systems do not collect and record ﬁnancial information, as required by
generally accepted accounting principles. Financial and nonﬁnancial feeder systems are not integrated and do not
contain an audit trail for the proprietary and budgetary accounts. The Army Working Capital Fund derives most of
its ﬁnancial information for major accounts from noncompliant ﬁnancial systems, such as the Commodity Command
Standard System and the Logistics Modernization Program.

In FY 2003, the Army began deployment of the Logistics Modernization Program as the system solution for
achieving a clean opinion for the Army Working Capital Fund. The scheduled completion date for the second
deployment of the Logistics Modernization Program was initially February 2005, with full deployment anticipated
by September 2005. However, numerous development problems and the inability to stabilize data at the initial
deployment sites prevented the second deployment from occurring during FY 2005. The second of three planned
deployments has slipped at least until the third quarter of FY 2006. The Army was unable to provide a ﬁrm date
for the full deployment of the Logistics Modernization Program. This delay severely impairs the Army’s ability to
obtain a clean opinion on the Army Working Capital Fund ﬁnancial statements in the near future.

The DoD-Wide systemic deﬁciencies in ﬁnancial management systems and business processes result in the inability
to collect and report ﬁnancial and performance information that is accurate, reliable, and timely. The Under
Secretary of Defense (Comptroller)/Chief Financial Ofﬁcer recommended updating the Logistics Modernization
Program to support the Standard Financial Information Structure. The Standard Financial Information Structure
embodies the end-to-end defense ﬁnancial management process, enabling traceability of budget resources
throughout a transaction’s lifecycle. It will allow future core ﬁnancial system interoperability, establish tracking
and audit traceability at the transaction level, and provide a ﬁnancial data framework compliant with Federal
requirements and consistent with private-sector best practices. Updating the Logistics Modernization Program
to support the Standard Financial Information System may further delay full deployment of the Logistics
Modernization Program.

Other system changes are necessary. For example, the Logistics Modernization Program is unable to record
memorandum entries in the U.S. Government Standard General Ledger for current year asset activity as required
by the Federal ﬁnancial management systems. This is a critical reporting shortfall for which a system change is
needed. The Army Working Capital Fund disclosed ﬁnancial management system deﬁciencies in notes to the FY
2005 ﬁnancial statements.

Inventory. The existing inventory valuation method does not produce an auditable approximation of historical
cost. The Army uses the latest acquisition cost method of valuing most of the inventory because its legacy inventory
systems were designed for materiel management rather than accounting. The systems provide accountability and
visibility over inventory items, but do not maintain the historical cost data necessary to comply with Statement of
Federal Financial Accounting Standards No. 3, “Accounting for Inventory and Related Property.” The systems are
unable to produce ﬁnancial transactions using the U.S. Government Standard General Ledger accounts and neither
the Defense Finance and Accounting Service nor the Army reconciled all differences between the accounting records


220 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
and the logistical records. Instead, they accepted the data from the logistical records and adjusted the accounting
records by about $3 billion. During the initial deployment of the Logistics Modernization Program, Army and
Defense Finance and Accounting Service users reported problems associated with duplicate and inaccurate postings
of inventory and ﬁnancial transactions. During FY 2005, at least $5.6 billion in adjustments were made to correct the
inaccurate postings.

General Property, Plant, and Equipment. The value of Army Working Capital Fund General Property, Plant,
and Equipment is not reliably reported because the Army lacks supporting documentation, is unable to properly
calculate depreciation costs, and fails to report the full value of property in the possession of contractors.
Information on the acquisition date and cost is not always available and is sometimes recorded incorrectly. During
FY 2005, the Army implemented system improvements to the Integrated Facilities System, designed to bring the
system into compliance with the Federal Financial Management Information Act of 1996. They also took actions to
resolve issues in reporting the value of general equipment and property in the possession of contractors and internal
use software in the Defense Property Accountability System.

Intragovernmental Transactions and Eliminations. DoD is unable to collect, exchange, and reconcile buyer and
seller intragovernmental transactions, resulting in adjustments that cannot be veriﬁed. DoD and Army systems
do not adequately capture the ﬁnancial data for buyer-side trading partners at the transaction level for use in
reconciliation and elimination. As a result, DoD did not require trading partner reconciliations. Instead, the Defense
Finance and Accounting Service required adjusting buyer-side transaction data to equal the seller-side transactions
data without performing proper reconciliations. Defense Finance and Accounting Service Indianapolis made
$10.8 billion in adjustments to intragovernmental accounts to force the accounts to agree with the records of Army
Working Capital Fund trading partners.

Accounting Adjustments. Defense Finance and Accounting Service Indianapolis did not adequately support
approximately $1.5 billion in adjustments. This amount is a forced balance made to agree with other sources
of information and records used to prepare the FY 2005 Army Working Capital Fund Financial Statements. An
additional $78.5 million in adjustments did not have adequate documentation attached to the journal vouchers to
support either the reason for the adjustments or the dollar values. The unsupported adjusting accounting entries
presented a material uncertainty regarding the line item balances on the FY 2005 Army Working Capital Fund
Financial Statements. These adjustments affected the ﬁnancial information on all of the statements. Defense Finance
and Accounting Service Indianapolis did not always follow the established minimum requirements for documenting
journal vouchers to support adjusting accounting entries made to the general ledger accounts.

Accounts Payable. Defense Finance and Accounting Service Indianapolis made signiﬁcant adjustments to the
accounts payable balances to derive the reported balances. Defense Finance and Accounting Service Indianapolis
adjusted accounts payable with the public upward by $2.4 million for undistributed disbursements. Also, Defense
Finance and Accounting Service Indianapolis was unable to reconcile intragovernmental accounts payable to the
related intragovernmental accounts receivable that generated the payable. As a result, the Defense Finance and
Accounting Service made $123.3 million in unsupported adjustments to decrease intragovernmental accounts
payable to force the amounts to agree with Army Working Capital Fund trading partners. In addition, accounts
payable in the Supply Management activity group were not established in accordance with Statement of Federal
Financial Accounting Standards No. 1, “Accounting for Selected Assets and Liabilities,” which requires that an
accounts payable be established when the Army accepts title to the goods or services. The Army Working Capital
Fund recognized accounts payable based on the physical receipt of the goods or services rather than when the
Government accepted title to the goods or services. Further, the accounts payable balances were misstated by
approximately $360 million because the Logistics Modernization Program reported accounts payable related to
inventories in transit as “other liabilities.” As a result, the Army Working Capital Fund could not ensure that its
Accounts Payable line was not materially misstated.

Statement of Net Cost. The Statement of Net Cost was not presented by responsibility segments consistent with
DoD performance goals and measures. Accounting systems were unable to accurately capture costs for Army



                                                                               FY 2005 Army Annual Financial Statement 221
Working Capital Fund programs and properly account for intragovernmental transactions and related eliminations.
In addition, some of the Army Working Capital Fund’s ﬁnancial data presented on the Statement of Net Cost were
based on budgetary transactions.

Statement of Financing. The Statement of Financing was prepared on a combined basis, while the Statement of Net
Cost was prepared on a consolidated basis. In addition, the Army cannot reconcile budgetary obligations to net cost
without making unsupported adjustments.

These ﬁnancial management deﬁciencies are indications of material weaknesses in internal control that may
adversely affect any decision by the Army that is based, in whole or in part, on information that is inaccurate
because of these deﬁciencies. Financial information reported by DoD may also contain misstatements resulting from
these deﬁciencies.


Compliance with Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to ﬁnancial reporting. Our
work to determine compliance with selected provisions of the applicable laws and regulations was limited because
management acknowledged instances of noncompliance, and previously reported instances of noncompliance
continue to exist. Therefore, we did not determine whether the Army Working Capital Fund was in compliance
with selected provisions of all applicable laws and regulations related to ﬁnancial reporting. Our objective was not
to, and we do not, express an opinion on compliance with applicable laws and regulations.

Statutory Financial Management Systems Reporting Requirements. The Army Working Capital Fund is required
to comply with ﬁnancial management systems reporting requirements. For example, the Federal Financial
Management Information Act of 1996 requires DoD to establish and maintain ﬁnancial management systems that
comply substantially with Federal ﬁnancial management systems requirements, applicable Federal accounting
standards, and the U.S. Government Standard General Ledger at the transaction level. In addition, the Federal
Managers’ Financial Integrity Act of 1982 requires the Army to evaluate its systems and to report annually whether
those systems comply with applicable requirements. The Chief Financial Ofﬁcers Act of 1990 requires that each
agency develop and maintain an integrated agency accounting and ﬁnancial management system, including
ﬁnancial reporting and internal control. The system should comply with internal control standards and applicable
accounting principles, standards, and requirements; and it should provide complete, reliable, consistent, and timely
information.

The Army acknowledged that many of its critical ﬁnancial management and feeder systems did not substantially
comply with Federal ﬁnancial management systems requirements, generally accepted accounting principles, and
U.S. Government Standard General Ledger at the transaction level. The Army was also unable to comply with the
Chief Financial Ofﬁcers Act of 1990, which requires agencies to develop and maintain integrated agency accounting
and ﬁnancial systems.

Audit Disclosures
The Army acknowledged to us on April 13, 2005, that the Army Working Capital Fund ﬁnancial management
systems cannot provide adequate evidence supporting various material amounts on the ﬁnancial statements.
Therefore, we did not conduct audit work related to the previously identiﬁed deﬁciencies.




222 Working Capital Fund | Principal Financial Statements, Notes, and Supplementary Information
In addition, we did not perform audit work related to the following selected provisions of laws and regulations.

                 Antideﬁciency Act
                 Provisions Governing Claims of the United States Government
                 Federal Credit Reform Act of 1990
                 Pay and Allowance System for Civilian Employees
                 Prompt Payment Act

This report does not include recommendations to correct the material internal control weaknesses and instances of
noncompliance because previous audit reports contained recommendations for corrective actions.




                                                                              FY 2005 Army Annual Financial Statement 223
                                                                 Civil Works Fund

                       The Civil Works’ mission is constantly evolving to keep pace with
                     the changing needs of the Nation. Today, those missions fall in four
                      broad areas: water infrastructure, environmental management and
                        restoration, emergency response and assistance, and engineering
                                                           support and technical services.




224 Civil Works Fund | FY 2005 Army Annual Financial Statement
Civil Works Fund – Management’s Discussion & Analysis
Overview
Mission
The civil works mission is to contribute to the national
welfare and serve the public by providing the nation
and the Army with quality, responsive development
and management of the nation’s water resources;
protection, restoration, and management of the
environment; disaster response and recovery; and               The changing role of the civil works mission in water
engineering and technical services. The mission will           supply has been directed by a series of water resources
be accomplished in an environmentally sustainable,             development acts. The Water Supply Act of 1958 gave
economic, and technically sound manner through                 the civil works program the authority to include water
partnerships with other governmental agencies and              storage in both new and existing reservoir projects
nongovernmental organizations.                                 for municipal and industrial uses at 100 percent
                                                               nonfederal cost.
Developing and Managing Water Resources
The original civil works mission, as it related to             Protecting, Restoring, and Managing the Environment
developing and managing water resources, was to                The Rivers and Harbors Act of 1899 required the Corps
support navigation by maintaining and improving                to prevent the obstruction of navigable waterways. As
water channels. In 1824, legislation authorized the            concern over the environment grew in the late 20th
U.S. Army Corps of Engineers (Corps of Engineers,              century, the Clean Water Act of 1972 greatly broadened
the Corps) to improve safety on the Ohio and                   the Corps’ responsibility by providing authority over
Mississippi Rivers. The Rivers and Harbors Act of 1909         the dredging and ﬁlling in of United States’ waters,
authorized the consideration of various water uses—            including the country’s wetlands. The civil works
including hydroelectric power generation—in the                program’s environmental responsibilities were further
planning, design, and construction of water resource           broadened by new legislation introduced in 1986
development projects. The 1917 Flood Control Act               that expanded the Corps’ traditional environmental
established a role for the civil works program in ﬂood         mitigation activities to include the enhancement and
damage reduction, and in 1936 a ﬂood control act gave          restoration of the natural environment at Corps’
the program the responsibility for providing ﬂood              projects and in areas not directly tied to those projects.
protection for the entire country.                             This legislation made the provision of environmental
                                                               protection one of the primary missions of the Corps’
Recreational facilities at reservoirs were added to            water resource development activities.
the portfolio by the Flood Control Act of 1944. The
1962 River and Harbor Flood Control Act expanded
the recreation mission, providing authority to build,          Responding and Assisting in Disaster Relief
where feasible, recreational facilities as part of all water   Throughout the Corps’ history, America has relied on
resource development projects. Another aspect of               the civil works program for help in times of national
water resources management is that of water supply.            disaster. This help is now provided under two basic
                                                               authorities: the Flood Control and Coastal Emergency
                                                               Act (P.L. 84-99, as amended), and the Robert T.
                                                               Stafford Disaster and Emergency Assistance Act.
                                                               Under P.L. 84-99, the program has direct authority
                                                               to provide emergency assistance during or following
                                                               ﬂooding events to protect lives, public facilities, and




                                                                                                                      225
U.S. Army Corps of Engineers deployable tactical operations system (DTOS) trailers assist in hurricane recovery effort.


infrastructure. Under the Stafford Act, the program                                                  it shows the funds used for executive direction and
supports the Federal Emergency Management Agency                                                     management for those programs. The ninth program,
(FEMA) in carrying out the Federal Response Plan,                                                    support for others, is conducted on a reimbursable
which calls upon 26 federal departments and agencies                                                 basis. Each program speciﬁcally addresses a single
to provide coordinated disaster relief and recovery                                                  mission component, but all nine programs may also
operations. The primary role of the civil works                                                      contribute to one or more of the other missions.
program in emergency relief and recovery operations is
to provide public works and engineering support.
                                                                                                     Navigation
                                                                                                     The navigation program is responsible for providing
Providing Engineering Support and Technical Services                                                 safe, reliable, efﬁcient, and environmentally sustainable
In Titles 10 and 33 of the U.S. Code, Congress                                                       waterborne transportation systems for the movement
expresses its intent that the Corps provide services                                                 of commercial goods and for national security needs.
on a reimbursable basis to other federal entities; state,                                            The program seeks to meet this responsibility through
local, and tribal governments; private ﬁrms; and                                                     a combination of capital improvements and the
international organizations. Additional authorities                                                  operation and maintenance of existing infrastructure
to provide services that are applicable to all federal                                               projects. The navigation program is vital to the
agencies are provided in Titles 15, 22, and 31. These                                                nation’s economic prosperity: 95 percent of America’s
authorities include providing services to friendly                                                   overseas international trade moves through its ports.
foreign governments.
                                                                                                     Our nation’s marine transportation system (MTS)
Civil Works Programs                                                                                 encompasses a network of navigable channels,
                                                                                                     waterways, and infrastructure maintained by the
The Corps utilizes nine programs to accomplish the
                                                                                                     Corps, as well as publicly and privately owned
four components of its mission. Figure 19 lists the eight
                                                                                                     vessels, marine terminals, inter-modal connections,
programs that receive direct appropriations; further




226 Civil Works Fund | FY 2005 Army Annual Financial Statement
Figure 19. FY 2005 Civil Works Initial Appropriation by Program
                                  $2 million
                                                     $170 million
                         $281 million


                    $5 million




                                                                                                                 Navigation

                                                                                                                 Flood and Coastal Storm Damage Prevention

                                                                                                                 Hydropower
                            $777 million
                                                                    $1.8 billion                                 Regulatory

                                                                                                                 Environment

$144 million                                                                                                     Emergency Management

                                                                                                                 Recreation

                                                                                                                 Water Supply

                                               $1.2 billion
      $285 milion
                                                                                                                 Executive Direction & Management




shipyards, and repair facilities. The MTS consists of
                                                                         Major Commodities Moved on Inland Waterways in
approximately 12,000 miles of inland and intracoastal                              Calendar Year (CY) 2004
waterways; 926 coastal, Great Lakes, and inland
harbors; and channel projects that are maintained by                    Crude Oil                                         613 million tons

the Corps.                                                              Petroleum Products                                501 million tons

                                                                        Coal                                              306 million tons
America’s inland waterways provide a highly fuel-
efﬁcient mode of transportation, with waterborne                        Food and Farm Products                            271 million tons
shipping able to move freight at more than 530 ton-                     NOTE: Statistics are compiled on a calendar year basis. CY 2005 statistics not available at time of
                                                                        printing.
miles per gallon of fuel, compared to the approximately
420 ton-miles per gallon that rail transportation
achieves. Use of waterways rather than rail or other                   accounting for 28 percent of the nation’s gross domestic
modes translates to an annual savings of $7 billion in                 product, and creates employment for 13 million people.
transportation costs. The U.S. marine transportation
industry supports nearly $1 trillion in commerce,                      The MTS is nearing capacity, but it is projected that




                                                                                                                                                                         227
                                                                                                and environmentally acceptable upstream sediment
                                                                                                control and best management practices. Nonstructural
                                                                                                solutions include more reliance on trafﬁc management
                                                                                                planning on inland waterways with the aid of new
                                                                                                technologies for trafﬁc control and lock operations that
                                                                                                are compatible with aquatic ecosystems, and more
                                                                                                efﬁcient use of multi-modal transportation systems.

                                                                                                In FY 2005, this $1.81 billion navigation program
                                                                                                accounted for almost 39 percent of civil works
                                                                                                appropriations.


                                                                                                Flood and Coastal Storm Damage Reduction
                                                                                                Program
                                                                                                This program is aimed at saving lives and reducing
                                                                                                property damage in
                                                                                                                              Average Annual Damage
                                                                                                the event of ﬂoods and           Results for Period
                                                                                                coastal storms. The                  1995 – 2004
                                                                                                civil works program         Damaged Suffered $5.4 billion
                                                                                                has constructed 8,500
                                                                                                                            Damage Prevented $22.9 billon
                                                                                                miles of levees and
                                                                                                dikes, 383 reservoirs,
                                                                                                and more than 90 shore protection projects along 240
                                                                                                miles of the nation’s 2,700 miles of shoreline. With the
                                                                                                exception of the reservoirs, most of the infrastructure
                                                                                                constructed under this program is owned and operated
                                                                                                by the sponsoring cities, towns, and agricultural
                                                                                                districts.

                                                                                                The ﬂood and coastal storm damage reduction
A container vessel navigates the Kill Van Kull channel as it passes under the Bayonne Bridge,
N.J. The Corps has deepened this channel to accommodate modern shipping vessels.                program has compiled an impressive record of
                                                                                                performance. In the period 1995–2004, ﬂoods in
the demand on it will grow substantially: the volume                                            unprotected areas caused the United States an average
of domestic and international marine trade is expected                                          of $5.4 billion yearly in property damage. In the same
to double by 2020. The containership of choice is                                               period, Corps projects in protected areas prevented
rapidly becoming a vessel requiring 45 to 50 feet of                                            $22.9 billion in average annual damages. Through
depth. Few U.S. ports have a 50-foot depth, but many                                            FY 2000, the nation had invested $43.6 billion ($122
international ports do. Global competitiveness requires                                         billion, adjusted for inﬂation) in ﬂood damage
ready ports, which in turn requires maintaining                                                 reduction projects, preventing an estimated $419 billion
adequate channels. The deepening and widening of                                                ($709 billion, adjusted for inﬂation) of ﬂood damage.
channels will produce greater quantities of dredged                                             Adjusted for inﬂation, these ﬁgures show a return on
material; therefore, stressing both the physical                                                investment of more than $6.36 in damage prevented for
capacity of the U.S. dredging ﬂeet and the ability to                                           each dollar spent. The program also has helped reduce
dispose of the dredged material economically and in                                             the number of lives lost annually due to ﬂoods from
an environmentally acceptable manner. Managing                                                  an average of 179 in the decade 1972–1981 to 89 in the
sediment materials raises environmental issues on                                               period 1991–2000.
the inland system. Sustainable approaches that can
reduce dredging and disposal needs include innovative                                           As an increasingly mobile society moves toward



228 Civil Works Fund | FY 2005 Army Annual Financial Statement
America’s coastal regions, protecting the coastline           ﬂoodplain ecosystems to America’s natural habitats.
is a matter of rising federal concern. The ﬂood and
coastal storm damage reduction program seeks the              One example is the Corps’ continuing work on the
most economical and environmentally sound solutions           Kissimmee River Project in Florida. This civil works
to provide ﬂood and coastal protection. Most shore            project will restore 52 miles of the river and 27,000
protection projects are carried out at the request of local   acres of wetlands, improving water quality and
sponsors and are authorized and funded by Congress.           restoring the natural habitat for more than 300 species
The costs of these projects are shared with the state         of ﬁsh and wildlife.
and local governments within whose jurisdiction the
project falls. Projects are performed only on publicly
accessible beaches and only after thorough studies
have determined that there exists a positive beneﬁt-to-
cost ratio.

For example, the Corps recently completed a seven-
year project that will protect millions of Americans
in Los Angeles County. In the early 1990s, the 2,000-
square-mile Los Angeles County drainage area was
only partially protected from ﬂoods. Enormous
population growth in the area rendered the existing
ﬂood control system inadequate, to the extent that
FEMA required residents to hold mandatory ﬂood
insurance. Initiated in 1996 at an estimated cost of          Kissimme River C-38 Restoration Project, FL.
more than $450 million, the Los Angeles County
Drainage Area Project was completed for roughly $200
million, of which the civil works program paid $150
million. The project built 21 miles of parapet walls,
reinforced the back slopes of levees, and modiﬁed or
raised 26 bridges. One result of these improvements
was FEMA removing the requirement for ﬂood
insurance.

In FY 2005, this $1.19 billion ﬂood and coastal storm
damage reduction program accounted for more than 25
percent of civil works appropriations.


Environmental Protection, Restoration, and
Management                                                    Ducks, geese and other waterfowl are protected on more than 85,200 acres of Army Corps of
This evolving and growing business program                    Engineers land devoted to wildlife management.

emphasizes environmental stewardship, ecosystem
restoration, mitigation, environmental compliance, and        In another example, the Corps and the Nature
research and development. Responding to the growing           Conservancy are collaborating on the Sustainable
national demand for restoration and protection, the           Rivers Project, an effort to improve the management of
program’s work takes many forms, ranging from:                dams on nine rivers. The project seeks to improve dam
monitoring water quality at dam sites, to operating ﬁsh       operations, helping to restore and protect the health of
hatcheries with the states, to restoring the environment      rivers and surrounding natural areas, while continuing
at the sites of earlier projects. Since 1998 the Corps has    to meet human needs for services such as ﬂood damage
added more than 120,000 acres of aquatic, wetland, and        reduction and power generation. The collaborative



                                                                                                                                                    229
effort is initially examining the potential to improve           The Corps must make ﬁnal permit decisions that
operations at 13 dams on nine rivers in nine states.             are not contrary to the public interest; therefore, the
                                                                 Corps authorizes only projects that represent the
In 1997, the civil works program took over from the              least environmentally damaging practical alternative.
Department of Energy the Formerly Utilized Sites                 The Corps works with project proponents ﬁrst and
Remedial Action Program, which mandates the                      foremost to avoid and minimize impacts to the
cleanup of former Manhattan Project and Atomic                   aquatic environment. Unavoidable adverse impacts
Energy Commission sites. The transfer of this                    to the aquatic environment must be offset by the
program to civil works capitalizes on the Corps’                 implementation of compensatory mitigation projects
experience gained in cleaning up former military sites           that are designed to restore, enhance, establish, or
and hazardous waste sites under the Environmental                protect and maintain aquatic functions and values. A
Protection Agency’s Superfund Program.                           critical objective for the Corps is that it make efﬁcient
                                                                 and timely permit decisions that result in regulatory
In FY 2005, this $777 million environmental protection,          consistency and predictability for all interested parties.
restoration, and management program accounted for
over 16 percent of civil works appropriations.                   In FY 2005, this $144 million regulation of wetlands and
                                                                 waterways program accounted for three percent of civil
                                                                 works appropriations.
Regulation of Wetlands and Waterways
In accordance with the Rivers and Harbors Act of
1899 (Sec. 10) and the Clean Water Act of 1972 (Sec.             Emergency Management
404), as amended, the Army Civil Works Regulatory                Emergency management is an increasingly important
Program regulates the discharge of dredged and ﬁll               part of the civil works program. The Corps responds
material into waters of the United States, including             to more than 30 presidential disaster declarations
wetlands. Section 10 applies to navigable waters,                in a typical year, and its highly trained workforce is
while section 404 applies more broadly to waters of the          prepared to deal with both man-made and natural
United States, which include navigable waters, their             disasters. In 2005 the Corps publicly demonstrated
tributaries, and wetlands.                                       its value and versatility in its response to Hurricanes
                                                                 Dennis and Katrina, removing water from New
Throughout the permit evaluation process, the Corps              Orleans, restoring levees, removing debris, opening
must comply with the National Environmental Policy               waterways, and delivering valuable supplies. It also
Act and other applicable environmental and historic              performed lower-proﬁle but equally important work
preservation laws. The objective of the program is to            during the St Georges, UT, wildﬁres; in its response
protect America’s aquatic resources while allowing               to the four hurricanes that hit Florida in 2004; and in
reasonable use of private property for important                 numerous other emergency support operations..
economic or infrastructure development on both
private and public lands.                                        The southeastern United States was hit by three major
                                                                 hurricanes within a 13-week period at the end of FY
The Corps must consider the views of other federal,              2005:.
tribal, state, and local governments and agencies;
interest groups; and the general public when rendering               Hurricane Dennis – Category 3 – July 1, 2005
its ﬁnal permit decisions. The regulatory program
                                                                     Hurricane Katrina – Category 4 – August 29, 2005
seeks to balance the reasonably foreseeable beneﬁts
and detriments of proposed projects with the goal of                 Hurricane Rita – Category 3 – September 24, 2005
making permit decisions that recognize the essential
values of aquatic ecosystems to the general public and
national security.




230 Civil Works Fund | FY 2005 Army Annual Financial Statement
In its September 1, 2005, tropical weather summary, the
National Weather Service wrote:

    Katrina will likely be recorded as the worst
    natural disaster in the history of the United States
    ... producing catastrophic damage and untold
    casualties in the New Orleans area and along the
    Mississippi Gulf Coast ... and additional casualties
    in South Florida. The extent of the physical and
    human devastation from this hurricane cannot yet
    be estimated.
On September 26, 2005, the death toll from Hurricane
Katrina was raised to 1,069; on September 19, 2005,
property damage was estimated to be between $100
                                                           Two barge loads of pumping equipment and their support crew from the Corps of Engineers
and $200 billion, making Katrina the most expensive        Little Rock District pass through the Inner Harbor Navigation Canal Lock. The equipment was
                                                           unloaded in New Orleans to help pump the water out of the lower Ninth Ward.
natural disaster in U.S. history. Aggravating the
situation, Hurricane Rita, following closely behind
Hurricane Katrina, prompted the evacuation of
almost three million people. Four divisions of the
Corps - South Atlantic, Mississippi River, Great Lakes
and Ohio River, and Southwestern Divisions - were
directly affected by these hurricanes, and every Corps
organization contributed to the post-Katrina recovery
effort. More than 3,000 Corps employees were directly
assigned to the relief effort.

In addition to the contribution the Corps makes to
domestic emergency management efforts, it also
plays a major role on the international stage through
its participation in the civil military emergency
preparedness program. In support of DoD, the Corps         U.S. Army Corps of Engineers New Orleans District Project Manager Stuart Waits watches
                                                           as workers hook up cables to an Army National Guard CH-47 Chinook helicopter to lift 5,000
shares emergency management knowledge and                  pound sandbags for transport to the Industrial Canal in New Orleans.
expertise with U.S. Allies and partners in the former
Soviet republics and Eastern Europe. This valuable
program brings together key leaders and builds
relationships between nations in direct support of the
National Defense Strategy.

In FY 2005, this emergency management program
received new budget authority of $5 million,
accounting for less than one percent of civil works’ new
appropriation authority.


Hydropower
The Corps’ multi-purpose authorities afford
hydroelectric power as an additional beneﬁt of projects
built for navigation and ﬂood control. The Corps is        Penstocks feeding Columbia River water to hydropower generating units at the Chief Joseph
                                                           Dam, Washington.
the largest owner/operator of hydroelectric power



                                                                                                                                                  231
plants in the United States and one of the largest               Water Supply
in the world. The Corps operates 345 generating
                                                                 Careful management of the nation’s water supply
units at 75 multipurpose reservoirs, mostly in the
                                                                 is critical to limiting water shortages and lessening
Paciﬁc Northwest, accounting for about 24 percent of
                                                                 the impact of droughts. The Corps has an important
America’s hydroelectric power and about three percent
                                                                 role in ensuring that homes, businesses, and farms
of the country’s total electric generating capacity.
                                                                 nationwide have enough water to meet their needs.
Its hydroelectric plants produce nearly 100 billion
                                                                 The Corps has the authority for water supply as part
kilowatt-hours each year, sufﬁcient to serve about
                                                                 of projects that serve navigation, ﬂood protection, and
10 million households – equal to ten cities the size
                                                                 hydroelectric purposes. There are over 9.5 million
of Seattle, Washington. Hydropower is a renewable
                                                                 acre-feet of municipal and industrial storage space
source of energy and one of the least environmentally
                                                                 – equal to 3.1 trillion gallons of water – in 177 Corps
disruptive sources of electric power, producing none
                                                                 reservoirs in 24 states and Puerto Rico. At a rate of 750
of the airborne emissions that contribute to acid rain or
                                                                 gallons per day, this is enough water to fulﬁll every
the greenhouse effect. Hydroelectricity is distributed
                                                                 American’s water needs for 17 days.
by federal power marketing agencies. Currently, the
Bonneville Power Administration directly ﬁnances the             In FY 2005, this $2 million water supply program
operation and maintenance costs at Corps hydroelectric           accounted for less than one percent of civil works
projects in the Paciﬁc Northwest. The Corps is working           appropriations.
with the Southeastern, Southwestern, and Western
Power Administrations on a legislative proposal to
authorize a similar direct ﬁnancing arrangement for              Recreation
Corps hydropower facilities in those regions as well.            The Corps is an important provider of outdoor
                                                                 recreation as an ancillary beneﬁt of ﬂood prevention
At the end of every ﬁscal year, the Corps is required            and navigation projects. The Corps manages recreation
to develop a statement of its hydropower expenses                areas on 12 million acres, representing two percent
broken down into plant, district, and region. These              of federal lands. An additional 600 state parks, 600
expenses are monitored through regional alliance                 local government parks, and 420 quasi-public areas
meetings where Corps customers and stakeholders,                 on Corps land are managed by other organizations.
including the power marketing administrators                     The Corps operates more than 4,300 recreation sites
(PMAs), are represented. Once completed, the                     at 463 projects, mostly lakes, and hosts more than
expense statement is audited by an outside contractor            370 million visits a year at its facilities. The Corps
and passed on to the PMAs. The PMAs in turn use                  currently collects about $34 million in recreation user
this information to update and adjust their power                fees annually. This program has signiﬁcant economic
repayment study, which analyzes rates and revenues               impact in that its recreation projects provide 500,000
for current and future years. The PMAs collect power             full- or part-time jobs, generating $15 billion annually
receipts (revenues) throughout the year and return               in visitor spending. In an average year, visitors to
the receipts to the U.S. Treasury. The actual summary            Corps’ lakes spend just over $6 billion in the local
total of receipts deposited to the treasury in any given         communities for gas, food, and lodging.
year is reported back to the Corps for inclusion in the
                                                                 This $281 million recreation program accounted for six
annual ﬁnancial report.
                                                                 percent of the civil works’ budget in FY 2005. More
In FY 2005, this $285 million hydropower program                 than ten percent of the U.S. population visits at least
accounted for just over six percent of civil works               one Corps project each year to swim, ﬁsh, boat, hike, or
appropriations.                                                  camp out.




232 Civil Works Fund | FY 2005 Army Annual Financial Statement
Organizational Structure
The Workforce
The civil works program employs more than 34,000
people, including 650 military ofﬁcers and 24,800
civilians, who perform civil works duties. It is
funded through the energy and water development
appropriation and executes programs through eight
regional divisions and 38 of the 45 districts of the Corps
of Engineers – the remaining seven districts have only
military related missions.

Figure 20 shows the division boundaries. Rather
than being demarcated by state boundaries, these are
deﬁned by watersheds and drainage basins, reﬂecting
the water resources nature of the civil works mission.

The distribution of civil works employees similarly
highlights the customer focus of the program: 95
percent of employees work at the district level,
reﬂecting the fact that project management is
performed at the district level.

The civil works program contracts out to civilian
companies all of its construction and approximately 50
percent of its design work. As many as 150,000 people
are indirectly employed in support of civil works
projects. These contractual arrangements have served
                                                                            Corps of Engineers contractors install a blue roof on a house in eastern Jefferson Parish,
the nation well in times of emergency.                                      Louisiana in support of Hurricane Katrina recovery efforts.



Figure 20. Civil Works Boundaries

                                                                                                                              North
                                                                             Great Lakes                                     Atlantic
                         Seattle
                                                                             & Ohio River
   Alaska                                                                                                                  New
                                                            St.                                                           England
              Portland     Walla
                           Walla
                                    Northwestern            Paul                              Buffalo
                                                                                 Detroit
                                                                   Rock                    Pittsburgh        New York
                                                                   Island
                                                   Omaha                          Chicago                  Philadelphia
                  Sacramento                                                        Cincinnati Baltimore
San                                               Kansas City           St. Louis             Hungtington
                                                                                                          Norfolk
Francisco                South Pacific                                          Louisville
                                                                                  Nashville
                                                                Little
                                                       Tulsa Rock              Memphis                  Wilmington
        Los                                                                                                             Legend:
        Angeles                                  Southwestern                                         Charleston            Div./Regional HQ location
                                   Albuquerque                                        Atlanta
                                                 Ft. Worth                                         Savannah                 District HQ location
                                                                                  Mobile                                    Division boundary
                                                                     Vicksburg                     Jacksonville
                                                           Dallas                                                           District boundary
   Honolulu                                                                                                                 State boundary
                                                      Galveston                  New
                            Pacific Ocean                                        Orleans                  South                     Key
                                                                                                         Atlantic Follows Watershed Boundaries
                                                                Mississippi Valley



                                                                                                                                                                         233
The Leadership                                                   perform all the day-to-day activities that get the job
                                                                 done. They are the program’s face to the nation.
Oversight of civil works is provided through four
levels of authority. As shown in Figure 21, the                  Figure 21. Civil Works Levels of Authority
Assistant Secretary of the Army for Civil Works (ASA
(CW)) is appointed by the President and is responsible
for civil works policy. The military Chief of Engineers,
who reports to the ASA (CW) and is responsible                                             ASA (CW)
for mission accomplishment, delegates most of his                                     Provides policy guidance
responsibilities for managing the various programs to
the Director of Civil Works. The Chief of Engineers,
through the Director of Civil Works, is responsible
for the leadership and management of the civil works                                  Chief of Engineers
                                                                                       Applies policy guidance
program and for ensuring that policies established
by the ASA (CW) are applied to all phases of the civil
works mission.
                                                                                        Director of CW
The divisions, commanded by division engineers, are                            Acts on behalf of the Chief of Engineers
regional ofﬁces responsible for the supervision and
management of their subordinate districts, including
the monitoring and quality assurance of district work.
                                                                                           8 Divisions
                                                                                  Supervise and manage districts
The districts are the foundation of the civil works                             Perform quality assurance on districts
mission, managing water resource development
over a project’s life cycle. They conduct planning
studies, perform project design, oversee construction                  Plan                                       Operate
by contractors, and manage completed facilities. The                   Design             38 Districts            Maintain
                                                                       Construction
districts also develop decision documents, prepare                        Management
reports and cost estimates, negotiate agreements, and




234 Civil Works Fund | FY 2005 Army Annual Financial Statement
Civil Works Fund Performance Results                      performance measures that are to be used for the goals
Civil works directly impacts America’s prosperity,        and objectives. Many of these measures are not yet
competitiveness, quality of life, and environmental       fully in place, but will be reported in future annual
stability. In March 2004 the civil works leaders          reports as they are implemented and performance
published a strategic plan to identify and answer the     data are collected. The performance data included in
nation’s water resource needs, recognizing authorities    this report relate to measures that are supportive of
and funding. Research ﬁndings and input from the          the Corps’ strategic goals and that were in place prior
public, gained through listening sessions, have led the   to the publication of the current plan. They allow for
Corps to identify the following ﬁve issues as the main    comparison over multiple years.
water resource challenges facing the nation:
                                                          Strategic Goals
    Balancing demands for water resource
    development in terms of access to and use of those    Strategic Goal 1: Provide Sustainable Development
    resources and of the preservation of environmental    and Integrated Management of the Nation’s Water
    quality;                                              Resources
    Repairing damage to the nation’s environment
    from past development;                                The Corps will facilitate and collaborate in a systems
    Addressing the performance and safety                 approach to integrated water resources management
    implications of an aging water resources              for the nation. The Corps will work in concert with
    infrastructure;                                       Native American tribes; federal, state, and local entities;
                                                          nongovernmental organizations; and the private sector
    Ensuring the capability to respond to natural
                                                          to design shared visions of water solutions that better
    disasters; and
                                                          balance economic, environmental, and social objectives.
    Minimizing the impact of institutional inhibitors     The Corps will lead the response to valid navigation,
    on decision-making and management of water            ﬂood damage reduction, and environmental demands
    resources.                                            when it has the responsibility to do so, and will aim to
                                                          foster and implement more integrated and sustainable
To address these challenges, the Corps developed          solutions. The Corps’ staff will seek to create a
the following ﬁve strategic goals. Speciﬁc objectives     portfolio of projects that achieve integrated solutions in
associated with each goal enable the measurement of       a watershed or geographic region, including navigation
annual performance toward achievement of the goal:        and ﬂood damage reduction projects. Regardless
                                                          of whether or not the Corps is the lead agency in
    Provide sustainable development and integrated
                                                          implementing water solutions, Corps personnel will be
    management of the nation’s water resources;
                                                          cognizant of the impacts projects have on the objectives
    Repair past environmental degradation and             of others in the region and will work to ﬁnd mutually
    prevent future environmental losses;                  acceptable outcomes. The Corps will recommend
    Ensure that projects perform to meet authorized       funding those projects that offer the greatest economic
    purposes and evolving conditions;                     and environmental beneﬁts.

    Reduce vulnerabilities and losses to the nation and   Performance Measure 1: For investments in
    the Army from natural and man-made disasters,         navigation projects, the beneﬁt-to-cost ratio at the
    including terrorism; and                              completion of project construction should at least equal
    Obtain recognition as a world-class public            the beneﬁt-to-cost ratio at the time of initial project
    engineering organization.                             funding. The performance target for FY 2005 was to
                                                          achieve a beneﬁt-to-cost ratio at completion that is
The Corps is in the process of implementing the           within 10 percent of the initial beneﬁt-to-cost ratio.
Civil Works Strategic Plan and has developed the




                                                                                                                 235
Performance Result 1: In FY 2005, one navigation                 enhancement projects. It is working to ensure that
project was budgeted for completion, the deepening               there is no further net loss of wetlands due to unwise
of the Los Angeles, California, harbor’s main channel.           development.
The project was completed with a beneﬁt-to-cost
ratio of 4.4, which was within 10 percent of the initial         The environmental program also includes a signiﬁcant
beneﬁt-to-cost estimate of 4.7 used to justify initial           environmental stewardship focus at Corps-operated
project construction funding.                                    projects. Strategic goal three focuses on ensuring
                                                                 projects perform to meet authorized purposes and
Performance Measure 2: For investments in ﬂood and               evolving conditions. One important aspect of ensuring
coastal storm damage reduction projects, the beneﬁt-             that projects perform includes assuring that the Corps
to-cost ratio at the completion of project construction          is a good environmental steward. Accordingly, an
should at least equal the estimated beneﬁt-to-cost ratio         environmental program objective under the third
at the time of initial project funding. The performance          strategic goal is to “ensure healthy and sustainable
target for FY 2005 was to achieve a beneﬁt-to-cost ratio         lands and waters and associated natural resources on
at completion within 10 percent of the initial beneﬁt-to-        Corps lands held in public trust to support multiple
cost ratio.                                                      purposes.”

Performance Result 2: In FY 2005, ﬁve ﬂood and                   In addition, the Corps has been given responsibility
coastal storm projects were budgeted for completion.             to execute an environmental clean-up program of
Three of the ﬁve projects met the performance target             contaminated sites under the Formerly Utilized Sites
with a beneﬁt-to-cost ratio equaling or exceeding                Remedial Action Program. Accomplishment of the
the beneﬁt-to-cost estimate used to justify initial              clean-up program will result in the elimination of
project construction funding. The other two projects             potential risks to health and the environment at these
failed to meet the 10 percent performance target; but            high-priority sites.
nonetheless were completed with a positive beneﬁt-
to-cost ratio, thereby still validating the initial project      Success in pursuit of this strategic goal is demonstrated
investment decision.                                             through the performance measures that have been
                                                                 developed for the environmental and regulatory
                                                                 programs.
Strategic Goal 2: Repair Past Environmental
Degradation and Prevent Future Environmental Losses
                                                                 Environmental Restoration and Management
                                                                 This program emphasizes environmental stewardship,
To accomplish the second strategic goal, civil works
                                                                 ecosystem restoration, mitigation, environmental
must anticipate, identify, and address the nation’s
                                                                 compliance, and research and development, which
needs for environmental restoration and water
                                                                 is reﬂected in the inter-related program objectives in
resource enhancement. Civil works will work with its
partners, including other federal and state agencies,            the March 2004 Civil Works Strategic Plan. The work
nongovernmental organizations, and Native American               undertaken within this program takes many forms,
tribes, to develop creative solutions that are both              reﬂecting the growing national demand for restoration,
effective and efﬁcient.                                          stewardship, remediation, and protection.

Civil works is pursuing the restoration of                       The performance data in this section measure the
environmental damages and losses that resulted from              restoration, stewardship, and remediation program
past actions. It will exercise its authority to the fullest      objectives of the strategic plan. The next section will
extent in support of the ecosystem restoration portion           cover protecting the environment under the regulatory
of the civil works program. In addition, it will support         program. To support restoration the Corps will invest
the national commitment to wetlands – embodied in                in mitigation and restoration projects or features that
the Clean Water Action Plan – by adding to the nation’s          make a positive, cost-effective contribution to the
environmental resource base through restoration and



236 Civil Works Fund | FY 2005 Army Annual Financial Statement
nation’s environmental resources. The Corps will                                            Table 28. Recovery Plan Projects
meet its stewardship objectives by ensuring the health
                                                                                                                                                      FY 2002          FY 2003   FY 2004
and sustainability of lands, waters, and associated
                                                                                             Number of opportunities to participate                             509        515      543
natural resources that it holds in public trust. When                                        in recovery of federally listed species
authorized or requested by others, the Corps will assist                                     Number of opportunities taken                                      496        504      533
in the cleanup of contaminated, hazardous, toxic, and
                                                                                             Percentage of opportunities taken to                           97%            98%      98%
radioactive waste sites to meet its remediation program                                      assist in the recovery of federally listed
                                                                                             species
objectives.
                                                                                             Note: FY 2005 data were not available at time of printing.

Performance Measure 1: Program-administered                                                 Performance Measure 3: The Corps’ goal is to correct
mitigation land complying with the requirements of                                          100 percent of all signiﬁcant ﬁndings and 70 percent
applicable legislation and Corps decision documents                                         of all major ﬁndings annually at Corps’ projects. A
should meet or exceed the annual target, which for                                          signiﬁcant ﬁnding is a determination that the Corps is
FY 2005 was 85 percent. This measure is calculated as                                       not meeting an environmental requirement and that
a percentage of all designated program-administered                                         the condition poses, or has a high likelihood of posing,
mitigation lands that meet mitigation requirements.                                         a direct and immediate threat to human health, safety,
                                                                                            the environment, or the civil works mission. A major
Performance Result 1: Table 27 shows mitigation                                             ﬁnding is a determination that the Corps is not meeting
requirements were met for 92 percent of civil works                                         an environmental requirement and that the condition
administered mitigation land in FY 2004. Performance                                        may pose a direct and immediate threat to human
results for FY 2005 were not available at the time of                                       health, safety, the environment, or the civil works
publication.                                                                                mission. The success rate of correcting signiﬁcant and
                                                                                            major ﬁndings is calculated annually.
Table 27. Civil Works-Administered Mitigation Land
                                                                                            Performance Result 3: Although the performance
                                                              FY 2002   FY 2003   FY 2004
                                                                                            target was not met for signiﬁcant or major ﬁndings in
 Total acreage designated as civil                            713,909   625,291   626,373
 works-administered mitigation land                                                         FY 2004, the Corps corrected 9 of 10, or 90 percent (see
 Mitigation land for which requirements                       564,025   566,016   578,076
                                                                                            Table 29), of signiﬁcant ﬁndings. In FY 2005, the Corps
 were met (acres)                                                                           corrected the one signiﬁcant ﬁnding remaining at the
 Percentage of civil works-administered                          79%       91%       92%    end of FY 2004. Performance results for FY 2005 were
 mitigation lands for which mitigation                                                      not available at the time of publication. The Corps
 requirements were met
                                                                                            continues to place a high priority on achieving both
 Note: FY 2005 data were not available at time of printing.
                                                                                            performance goals in FY 2006.
Performance Measure 2: This is the percentage in
which civil works stewardship should be engaged                                             Table 29. Correction of Signiﬁcant and Major Environmental
                                                                                            Findings
in opportunities to participate in recovery plan
efforts for federally listed species. The performance                                                                                           FY 2002               FY 2003    FY 2004
target of 95 percent was continued in FY 2005 based
                                                                                             Number of signiﬁcant ﬁndings                                  10              5          10
upon experience gained with baseline performance
                                                                                             Percentage corrected                                     70%                60%        90%
measurement and the level of funding.
                                                                                             Number of major ﬁndings                                      502            471         795
Performance Result 2: Table 28 shows that during                                             Percentage corrected                                     57%                72%        57%
FY 2004, the Corps participated in 533 separate                                              Note: FY 2005 data were not available at time of printing.

opportunities, out of 543 presented, to help in the
recovery of federally listed species or their habitat.                                      Environmental Protection (Regulatory)
This signiﬁes a performance result of 98 percent.                                           The Corps operates a comprehensive regulatory
Performance results for FY 2005 were not available at                                       program to protect the aquatic environment from
the time of publication.                                                                    overdevelopment and to protect the navigability of




                                                                                                                                                                                     237
waterways. Management of this program has a related                                        Table 31. Permit Actions Completed within 60 Days
objective of minimizing the time taken to process
                                                                                                                                                         FY 2002   FY 2003   FY 2004
decisions on requests for permits to work in the waters
                                                                                            Number of permit actions completed                            71,652    75,771    82,114
of the United States.                                                                       within 60 days
                                                                                            Percentage of actions completed within                          88%       88%       88%
Performance Measure 1: This measures the Corps’                                             60 days
objective to administer the regulatory program in a                                         Note: FY 2005 data were not available at time of printing.

manner that protects the aquatic environment. The
performance target of the civil works program is to                                        Performance Measure 3: This measures the number
realize no net loss of wetlands.                                                           of standard permit decisions completed within 120
                                                                                           days, expressed as a percentage of all standard permit
Performance Result 1: Table 30 shows that during                                           decisions. Standard permits are those for larger projects
FY 2004, 47,243 acres of wetlands were restored,                                           that require extensive review. The performance target
created, enhanced, or preserved, offsetting the 22,102                                     is to complete 70 to 80 percent of decisions on standard
acres that were lost to permitted development.                                             permits within 120 days.
Table 30. Development and Mitigation of Wetlands                                           Performance Result 3: During FY 2004, 57 percent
                                                                                           of all standard permit actions were completed in less
                                                          FY 2002      FY 2003   FY 2004
                                                                                           than 120 days, comparable to the FY 2003 rate. Permit
 Wetland acres permitted for                                  24,651    21,330    22,102
 development                                                                               applications are signiﬁcantly more complex than
 Wetland acres mitigated                                      57,821    43,379    47,243
                                                                                           in past years and, as a result, they involve lengthy
 Note: FY 2005 data were not available at time of printing.
                                                                                           analysis to assess their potential environmental
                                                                                           impacts. Issues related to endangered species, historic
                                                                                           properties, water quality, and coastal resources also
Performance measures two and three address the
                                                                                           add to permit delays.
Corps’ objective of enabling efﬁcient decision making
by rendering fair and efﬁcient decisions in a timely                                       Table 32. Standard Permit Actions Completed Within 120 Days
manner. The ability to respond to permit requests in
a timely manner is indicative of an efﬁcient decision                                                                                                    FY 2002   FY 2003   FY 2004

making process, which is another of the Corps’                                              Number of standard permit actions                              2,536     2,446     2,325
                                                                                            completed within 120 days
objectives.
                                                                                            Percentage of actions completed within                          61%       56%       57%
                                                                                            120 days
Performance Measure 2: The number of permit                                                 Note: FY 2005 data were not available at time of printing.
decisions completed within 60 days, expressed as a
percentage of all permit decisions, is an indicator of the
timeliness of the process. The target is to complete 85                                    Strategic Goal 3: Ensure that Projects Perform to Meet
to 95 percent of all actions within 60 days.                                               Authorized Purposes and Evolving Conditions

Performance Result 2: Table 31 shows that during FY                                        Civil works customers, partners, and stakeholders
2004, 82,114 permit actions, or 88 percent of all permit                                   expect delivery of the level of service that is designed
actions, were completed in 60 days or less. While this                                     into a project and expect the high quality of service to
ﬁgure exceeds the performance target of 85 percent, it                                     continue even with changing demands on the project.
remained unchanged from the FY 2003 performance.                                           This third strategic goal was developed to ensure
The districts have concentrated on getting nationwide                                      that civil works programs continue to meet customer
and general permits authorized, which has helped to                                        expectations. This requires that civil works personnel
stabilize overall processing times, but has resulted in                                    pay particular attention to the quality and performance
a downward trend in enforcement and compliance                                             of Corps projects, recognize and analyze problems as
efforts since FY 2001.                                                                     soon as they occur, and identify cost-effective ways to




238 Civil Works Fund | FY 2005 Army Annual Financial Statement
prevent, lessen, or correct any deﬁciencies.                                                         unit costs decreased by 11.5 percent (see Table 34).
                                                                                                     Performance data for FY 2005 were not available at the
In addition, civil works personnel recognize that they                                               time of printing.
must provide facilities that meet the needs of diverse
and changing user groups. For projects to deliver the                                                Table 34. Volume and Cost of Material Dredged
requisite performance and service levels, they must
                                                                                                                                                   FY 2002              FY 2003               FY 2004
serve the needs of their users. Projects typically are
                                                                                                      Cubic yards removed                                 204                 1911                   229
designed to accomplish a particular purpose for a                                                     (millions)
speciﬁed lifespan.                                                                                    Cost per cubic yard1                             $2.73               $3.131                   $2.77
                                                                                                      Note 1: Values reported are for maintenance dredging only. Dredging data related to project
The performance of several programs reﬂects                                                           construction activity are not covered.
the overall success of the civil works mission in                                                     Note: FY 2005 data were not available at the time of printing.
achieving this strategic goal. These programs and
the performance of each are outlined in the following                                                Flood and Coastal Storm Damage Reduction
sections.                                                                                            There are primarily two ways to reduce ﬂood damage.
                                                                                                     The ﬁrst calls for the use of large-scale engineering
Navigation                                                                                           projects to prevent ﬂoodwaters from inundating
Performance Indicator 1: Monitor the volume of                                                       property, and the second for the modiﬁcation of
commerce and the operational cost of the fuel-taxed                                                  property susceptible to ﬂooding, to minimize the
waterways component of the navigation system.                                                        risk of damage. Civil works projects usually use
                                                                                                     a combination of both approaches. The program
Performance Result 1: The volume of commerce                                                         objective is to operate and maintain existing federal
and the operational cost of the fuel-taxed waterways,                                                infrastructure to ensure that designed levels of
shown in Table 33, remained essentially constant from                                                protection are realized. A single measure is used to
calendar year (CY) 2002 through CY 2004 with less than                                               gauge performance in this respect.
one percent movement from year-to-year. At the time
of printing, the calendar year had not ended, so volume                                              Performance Indicator: The performance of civil
and cost data for CY 2005 are not available.                                                         works facilities in reducing damage where ﬂooding
                                                                                                     otherwise would have been experienced.
Table 33. Volume of Commerce and Operational Cost
                                                                                                     Performance Result: Table 35 shows that during
                                          CY 2002                 CY 2003                CY 2004     FY 2004, the Corps prevented $22.9 billion in ﬂood
 Ton-miles of commerce                        266.9                   250                    233.2   damages. This can be compared to $21.7 billion, the
 carried (billions)1
                                                                                                     10-year moving average that is used to smooth out the
 Cost per ton-mile                       $0.00206                 $0.00195              $0.00220     signiﬁcant ﬂuctuations in year-to-year ﬂood damages
 Note 1 Ton-mile data are reported on a calendar basis. Costs are reported on a ﬁscal-year basis.
                                                                                                     prevented that are associated with variations in
 Note: CY 2005 data were not available at the time of printing.
                                                                                                     meteorological events.
Performance Indicator 2: The need for dredging of
                                                                                                     Table 35. Flood Damages Prevented
harbors and channels is largely dependent upon acts
of nature and factors beyond the control of man. No                                                   (Dollars in billions)                         FY 2002              FY 2003              FY 2004
performance target for the volume of material to be                                                   Flood damage prevented                            $23.1               $15.7                   $22.9
dredged therefore has been established. The depth
                                                                                                      10-year rolling average                           $21.7               $19.6                   $21.7
of material to be dredged and the disposal of that
material are the two main factors inﬂuencing the cost of
dredging.                                                                                            Hydropower
                                                                                                     The civil works program operates 345 hydroelectric
Performance Result 2: Preliminary information                                                        power-generating units at 75 multipurpose reservoirs,
indicates that in FY 2004 the amount of maintenance                                                  providing nearly a quarter of the nation’s total
dredging increased by 19.9 percent and dredging                                                      hydropower needs; enough energy to serve about



                                                                                                                                                                                                      239
ten million households. Hydropower units can start                                          dependent upon hydrologic conditions that cannot be
quickly and adjust rapidly allowing them to serve a                                         managed.
primary role in meeting peak energy demands and
energy reserve needs to protect the national power                                          Performance Result: During FY 2005, preliminary data
system’s reliability and stability. The electricity                                         indicate that Corps hydropower facilities produced
produced is distributed by federal power marketing                                          almost 65 billion kilowatt-hours of energy through
agencies. To ensure that the Corps continues to serve                                       August 2005 at a cost of $0.0027 per kilowatt-hour as
this role, it has established an overall program objective                                  shown in Table 37. Energy produced from existing
to maintain reliable hydroelectric generation reliability                                   Corps facilities continues to be one of the least
at its multi-purpose reservoir projects.                                                    expensive sources of electric power.
                                                                                            Table 37. Kilowatt Hours Generated
Performance Measure: Maintain high reliability
of hydroelectric power generated at multipurpose
                                                                                                                                  FY 2002         FY 2003          FY 2004   FY 20051
reservoir projects. The program goal is to keep the
                                                                                             Kilowatt-hours                            69.4            70.0           67.1       64.6
forced (unplanned) outage rate at less than 2.3 percent                                      generated (billions)
in keeping with industry standards. A lower forced                                           Cost per kilowatt-hour               $0.0033         $0.0035          $0.0027   $0.0027
outage rate implies more reliable and less expensive                                         Note 1: Preliminary performance data available through August 2005.
electricity service being provided to hydropower
customers.
                                                                                            Recreation
Performance Result: Preliminary data through August                                         Most federal lakes were built with a single primary
2005 indicate that the Corps experienced a forced                                           purpose. Public needs and values have changed;
outage rate of 4.6 percent for FY 2005. This is a slight                                    therefore, the program has sought to serve the evolving
increase from the outage rates shown for the prior                                          public interest by adapting reservoirs for multiple
two ﬁscal years and greater than the target rate of 2.3                                     uses, provided there is sufﬁcient legislative authority
percent. Aging equipment and funding levels are two                                         to do so. The program’s objective is to provide outdoor
factors that will impact the degree of hydropower                                           recreation opportunities in an effective and efﬁcient
reliability in the future. Data by ﬁscal year is provided                                   manner to meet the needs of present and future
in Table 36.                                                                                generations.
Table 36. Hydroelectric Power Reliability
                                                                                            Performance Indicator: This indicator measures the
                                                                                            cost per visitor-day of providing outdoor recreation
                                       FY 2002         FY 2003         FY 2004   FY 20051
                                                                                            facilities. The cost per visitor-day is determined by
 Performance Target                           4.5             2.3          2.3        2.3
 (% outage)                                                                                 a number of variables. While civil works is able to
                                                                                            manage the cost of providing recreation facilities, the
 Actual reliability                           3.7             4.7          3.5        4.6
 (% outage)                                                                                 number of visitors who use these facilities is governed
 Note 1: Preliminary performance data available through August 2005.                        in large part by external factors, such as the weather
                                                                                            and prevailing economic conditions. Historically, no
Value to the Nation Performance Indicators: In                                              management performance target has therefore been
addition to measuring system reliability, the                                               speciﬁed.
program also tracks operation system indicators that
provide valuable information and trends on system                                           Performance Result: The FY 2005 performance data in
performance. The following indicators are monitored:                                        Table 38 reﬂect a continued upward trend in visitor-
(1) kilowatt-hours generated to measure total power                                         day usage. The cost per visitor-day rose in FY 2005,
generation and (2) cost per kilowatt-hour to measure                                        but remained within a six-year range of between $1.19
generating efﬁciency. Annual goals are not set for                                          and $1.37. (FY 2000 and FY 2001 were each $1.24 per
these indicators because power production is largely                                        visitor-day.)




240 Civil Works Fund | FY 2005 Army Annual Financial Statement
Table 38. Recreation Usage                                         personnel must pay attention to people, processes,
                                                                   ﬁscal responsibility, efﬁciencies, and technology. The
                           FY 2002   FY 2003   FY 2004   FY 2005   President’s management agenda helps the Corps
 Visitor-days (millions)      210       212       216       220    focus on major organizational effectiveness aspects
 Cost per visitor-day        $1.37     $1.20     $1.19     $1.28   central to being a world-class organization: human
                                                                   talent, ﬁnancial integrity, sound business practices,
                                                                   and the advantages that technology offers, especially
Strategic Goal 4: Reduce Vulnerabilities and Losses to             in bringing government closer to citizens. The Corps’
the Nation and the Army from Natural and Man-Made                  leadership has set three objectives to accomplish
Disasters, Including Terrorism                                     this goal: be a world-class technical leader, improve
                                                                   budgeting and ﬁnancial performance, and become
                                                                   a more efﬁcient and effective organization through
The purpose of this goal is to manage the risks                    technology. The Corps will draw upon the ongoing
associated with all types of hazards and to increase               plans its staff has drafted in support of the President’s
the responsiveness to disasters of the civil works                 management initiatives to make headway toward these
emergency management program within the Corps’                     objectives. Data to measure the Corps’ performance
Ofﬁce of Homeland Security in support of federal,                  toward meeting these objectives is not yet fully
state, and local emergency management efforts.                     compiled.
Disaster preparedness and response capabilities are
not limited to water-related disasters, but draw on                Management Integrity
the engineering skills and management capabilities
                                                                   One management control weakness was identiﬁed as
of the Corps to encompass a broad range of natural
                                                                   a new weakness in FY 2004 and three management
disasters and national emergencies. Emergency
                                                                   control weaknesses that were identiﬁed prior to
readiness contributes to national security. The current
                                                                   FY 2004 remain weaknesses going forward to FY 2006.
objectives for this goal are to prepare and provide
                                                                   The following is a summary of the Corps’ material
for rapid, efﬁcient, and effective all-hazards response
                                                                   weaknesses:
and recovery, and to improve the safety and security
of critical water resources infrastructure. Data to                    Open material weaknesses as of September 30, 2004    4
measure the Corps’ performance toward meeting these
objectives has not yet been fully compiled.                            Plus: New material weaknesses identiﬁed in FY 2005   0
                                                                       Less: Material weaknesses corrected in FY 2005       0

Strategic Goal 5: Be a World-Class Public Engineering                  Open material weaknesses as of September 30, 2005    4
Organization
                                                                   Previously Reported Weaknesses
The focus of this goal is to ensure that the civil works           Three of the weaknesses reported last year
mission is performed in a technically skilled manner               were expected to close during FY 2005. Various
so as to build respect and conﬁdence in the products               circumstances prevented this from happening. The
and services the Corps delivers today and into the                 fourth weakness that remained open at the end of
future. Building trust will come from the integrity of             FY 2005 was not expected to close until FY 2006 per last
the Corps’ engineering and scientiﬁc evaluations and               year’s report. The following sections provide a brief
recommendations, the soundness of its management                   description of each weakness and the revised target
decisions, the transparency of its decision-making                 date for correction.
process, the reliability and effectiveness of its business
processes, and the contributions it makes within and
across its core technical disciplines.                             Information Systems Security—Computer System
                                                                   Controls
If the Corps is to achieve its goal to obtain recognition          In October 2000, the Government Accountability
as a world-class public engineering organization, its              Ofﬁce (GAO) identiﬁed a number of systems control




                                                                                                                            241
weaknesses at the Corps’ data processing centers.                Information Management, require that federal agencies
These weaknesses could allow either hackers or                   institutionalize a Corps IT capital planning and
authorized users to improperly modify, disclose,                 investment decision process. This process integrates
or destroy ﬁnancial data. Corrective actions to                  the programming and budgeting for IT investments
support the assurance of data security, including the            through policies, guidance, and committees that
reorganization of the Corps and funding increases,               monitor and track these investments through the
have been taken to correct these deﬁciencies. The                Corps’ IT investment portfolio. Currently, the process
targeted correction date in last year’s statement of             is fragmented, and senior-level approval continues
assurance was the fourth quarter, FY 2005. The follow-           to be given to high-visibility projects that have not
up to a GAO audit and other review and validation                been through the process. This weakness impacts
actions by the DoD Inspector General (DoDIG) were                corporate decisions on the ranking and prioritization
delayed, and the targeted correction date was not met.
                                                                 of IT investments and their contribution to the Corps
The revised target date for successful correction of this        mission. A number of corrective actions have been
weakness is the fourth quarter, FY 2006.                         completed or partially met while others have been
                                                                 delayed due to ongoing stafﬁng problems.

Subcontracting Plans for Small Business                          The target date for successful correction of this
Procedures for evaluating and negotiating                        weakness is the ﬁrst quarter, FY 2006.
subcontracting plans and for evaluating subcontractor
performance are not wholly in compliance with the                CFO Property, Plant, and Equipment Issues
law as it pertains to small business subcontracting. In
                                                                 Construction in Progress (CIP): During FY 2002 and
August 2002, the civil works program accepted a web-
                                                                 FY 2003 audit work, the DoDIG projected that the
based pilot system to track outlays to small businesses
                                                                 beginning balance for FY 2003 was overstated by $7.8
under approved subcontracting plans and to track
                                                                 billion due to erroneous capitalization of expense-
the actual execution of those plans. The system, as
                                                                 type events, including bank stabilization work, beach
designed, would have enabled subcontractors to
                                                                 nourishment, dredging, ﬁsh mitigation work, and
enter payments received from their prime contractors
                                                                 reimbursements to sponsors; untimely transfers
monthly and enable independent validation by the
                                                                 to completed projects; erroneous capitalization of
government. Because the system was web-based, any
                                                                 nonfederal cost-share projects; CIP costs that could
civil works ofﬁce could have reviewed or generated
                                                                 not be reconciled to source data; and $41 million in
reports on compliance. The system was tested in
                                                                 negative CIP balances. An updated CIP information
FY 2003, but full compliance was delayed due to a
                                                                 paper was provided to the ﬁeld in June 2005 to
lack of funds. During May 2005, plans to complete the
                                                                 clarify certain audit issues. During FY 2005, the
automated system were withdrawn due to the inability
                                                                 Corps continued to analyze the CIP accounts to
to secure funding for testing and implementation.
                                                                 remove expense-type events, cost share projects. and
The internal review to validate ﬁeld corrective actions
                                                                 completed projects, and to track down all supporting
was not completed before the end of FY 2005, as was
                                                                 documentation for CIP balances.
requested.
                                                                 Real Property: During FY 2002 and FY 2003 audit
The revised target date for successful correction of this
                                                                 work, the DoDIG identiﬁed seven major issues:
weakness is 1st quarter, FY 2006.
                                                                 placed in service dates; useful life; physical existence,
                                                                 impairment and usefulness of assets; bank stabilization;
Information Technology Capital Planning and                      nonfederal lease classiﬁcations for building and
Investment Decision Process                                      other structures; supporting documentation; and
Weaknesses in this process were identiﬁed for the                classiﬁcation of assets. During FY 2005, the Corps
selection, control, and evaluation of Corps information          continued to work through corrective actions relating
technology (IT) investments in FY 2001. The Clinger-             to these issues.
Cohen Act of 1996 and Army Regulation 25-1, Army




242 Civil Works Fund | FY 2005 Army Annual Financial Statement
The target date for correction of this weakness is the    since 1986, with $1.7 billion invested to date and an
ﬁrst quarter, FY 2006.                                    additional $3.4 billion programmed for construction.
                                                          This, however, is insufﬁcient to support optimum
                                                          construction schedules; completion dates for these
Future Effects of Existing Conditions
                                                          projects have been set back by between one and ﬁve
The Marine Transportation System                          years, considerably increasing costs.
The MTS consists of 1,000 harbor channels; 25,000 miles   These increasing costs come at a time when investment
of inland, intracoastal, and coastal waterways; and       in water resources is in sharp decline. In 1960,
235 lock chambers. Work done to improve the inland        investment in all public infrastructure was four percent
waterways is estimated to yield $5.5 billion in cost      of the federal budget. Today, that ﬁgure is 2.6 percent.
savings per year, and improvements to the deep-draft      Furthermore, in 1960 water resources received slightly
navigation system are estimated to save a further $1.5    more than one percent of all public infrastructure
billion in transportation costs annually.                 investment; today, they receive less than 0.5 percent.
                                                          This failure to invest adequately in water infrastructure
The MTS is nearing capacity, however, and projections
                                                          could pose a serious constraint to America’s
are for a doubling of cargo by 2020, to more than four
                                                          economic development and competitive advantage in
billion tons annually. This will put great pressure on
                                                          international trade.
the system. It also should be noted that few American
ports provide the 45-50 feet of depth needed by the
latest containerships. Many international ports,          Responding to Terrorist Threats
including Halifax and Vancouver, Canada and               The events of September 11, 2001, changed the thinking
Freeport, Bahamas, already can accommodate such           about threat management. Everything from drinking
ships, and it is essential that America match them. In    water sources to reservoirs and dams is now viewed
preparing the necessary deep-draft channels, civil        as a potential target for terrorists. Since the attacks on
works has dredged an average of 275 million cubic         New York and Washington, D.C., civil works remains
yards of material per year over the past decade. This     at a heightened state of alert in an effort to protect
work creates the additional challenge of how to           the nation’s critical resources of water, waterborne
dispose of the dredged material in an economically and    commerce, and electric power generation.
environmentally acceptable manner.
                                                          Ensuring the security of these resources will require
                                                          investment in warning and alert systems, systems to
Aging Infrastructure                                      detect and respond to chemical and biological agents,
More than 44 percent of America’s locks and dams          intelligence-gathering and counter-terrorism measures,
are at least 50 years old, and many locks are now too     and emergency management systems. Investment in
small to accommodate modern commercial barges             both technology and people is necessary, and current
comfortably. These locks are already carrying more        estimates are that these measures will cost $267 million
tonnage than they were designed to handle, and trafﬁc     for immediate improvements in the ﬁrst year and $65
is forecast to increase 30 percent by 2020. Delays        million annually thereafter.
attributable to aged locks already amount to 550,000
hours annually, representing $385 million in increased
operating costs. This is eroding America’s share of       Advancing the President’s
international markets; American farmers already have      Management Agenda
lost 30 percent of their share of the European market
for soybeans to Brazil and Argentina, both of which       Strategic Management of Human Capital
have invested heavily in inland waterways to reduce       The Corps recognizes that its people are its
costs.                                                    greatest asset, and it has developed a Corps-wide
                                                          comprehensive human capital strategy that is aligned
A lock modernization program has been underway            with both its mission and broad corporate goals. It




                                                                                                                  243
has sought to ﬁll all mission-essential occupations              Competitive Sourcing
with qualiﬁed employees, both through sustainment
                                                                 In 2002 the Corps identiﬁed 7,500 positions to be
and training of its current workforce and through                opened to competition over a ﬁve-year period. Of
recruitment activities.                                          these, 5,700, or 76 percent, are funded by civil works.
                                                                 In FYs 2004-2005, more than 1,100 civil works-funded
The direction for human capital planning is set out in
                                                                 positions in the information management and
the Corps Strategic Campaign Plan published in June
                                                                 information technology, public works, and ﬁnance
2005. The Corps’ continuing human capital initiatives            center functions were announced for competition.
focus on enhancement of the Corps as a learning                  By the end of this year, plans are to announce the
organization, leadership development, attracting and             competition of an additional 2,000 civil works-funded
retaining a world-class workforce, and knowledge                 positions performing the operation and maintenance of
management. The initiatives are sponsored by diverse             navigation locks and dams function, bringing the total
organizational and functional teams, and include                 number of competed civil works positions to more than
working with stakeholders and other agencies, such as            3,000.
the U.S. Ofﬁce of Personnel Management.

As a result of this strategy, the Corps has become more          Improved Financial Performance
citizen-centered and has reduced layers within the               A recognized leader within the Department of Army
organization. Since 1989 the number of supervisors               (DA), the Corps has committed an extensive amount
has been reduced by over 50 percent, the entire Corps            of resources toward obtaining a favorable opinion for
workforce reduced by 38 percent, and the blue-collar             the civil works ﬁnancial statements. At the inception
workforce reduced by 26.5 percent. Ninety-ﬁve percent            of the President’s management agenda, the Corps
of the workforce is now in direct customer service ﬁeld          had just completed deployment of the Corps of
positions. Concurrently, the occupational mix has                Engineers Financial Management System (CEFMS) and
changed to reﬂect the changing missions of the Corps.            consolidation of all ﬁnance and accounting operations
                                                                 to the Corps Finance Center in Millington, TN. These
Additionally, the performance of Corps employees                 two important initiatives are the cornerstones of the
has become more strongly linked to its missions and              Corps’ ability to provide timely and reliable ﬁnancial
strategic goals through the use of the automated                 management information at reduced costs to the
training management program. This program                        taxpayer. The Corps, working with the DoDIG, and
automates the linkage between mission requirements,              the comptroller ofﬁces from the DoD and the DA, are
performance objectives, and individual development               not only progressing toward their goal of obtaining the
                                                                 Army’s ﬁrst favorable opinion, but also are paving the
plans; for the ﬁrst time, it enables management to
                                                                 way for other DoD and DA agencies. Lessons learned
measure and prioritize training and development
                                                                 from previous DoDIG audits have been put to use in
systems, providing a good foundation for
                                                                 preparation for future audits. Although the Corps was
implementation of the National Security Personnel
                                                                 not able to move forward with a FY 2005 civil works
System.
                                                                 ﬁnancial statement audit, the Corps is hopeful that a
                                                                 FY 2006 audit and favorable opinion are within reach.
The Corps responded to surges in deployment
to Afghanistan and Iraq, while at the same time                  Through the CEFMS, the Corps has made progress
supporting an unprecedented hurricane season in                  toward ensuring timely and reliable ﬁnancial
2005. More than 1,550 Corps employees voluntarily                information, thereby assisting its leadership and
deployed in FY 2005, with many deploying more                    stakeholders in making critical business decisions.
than once. As of September 30, 2005, more than 3,000             The CEFMS was designed and built by the Corps with
Corps employees had volunteered to perform Federal               the aid of external contractors, and it delivers a broad
Emergency Management Agency and Corps missions                   range of functionality. It is a single-entry, real-time
associated with Hurricanes Katrina and Rita.                     system, so ﬁnancial information is instantaneous.




244 Civil Works Fund | FY 2005 Army Annual Financial Statement
The CEFMS integrates ﬁnancial management                  to Industry Acquisition Business and FedBizOpps web
business processes with internal program and              sites. Civil works is the DoD’s executive agent for the
project management processes while also providing         architect-engineer contractor administrative support
automated linkages to the DA, the DoD, and the Ofﬁce      system and the construction contractor appraisal
of Management and Budget. The Corps continues to          support system.
upgrade the CEFMS and other related tools in order to
assist the ﬁeld with identiﬁed audit deﬁciencies and to   The sharing of information among federal, state, local,
improve the system.                                       and tribal governments and the full integration of that
                                                          information will contribute to better government for all
The Corps invested approximately $76 million in           Americans.
development of the CEFMS, and the system has gained
acceptance and has proven successful. The system now
serves as a measuring stick for future DoD ﬁnancial       Budget and Performance Integration
management systems.                                       The Corps’ separate accountability for performance
                                                          and budget integration is limited to the civil works
                                                          mission. The following information pertains only to
Expand Electronic Government                              the civil works budget.
Expanded electronic government is a Corps-wide
initiative that aims to make it easier for the public     The civil works budget and performance integration
to access information about civil works services and      initiative focuses on developing formal linkages
programs, and to improve civil works internal and         between program performance planning and
external communications. Due to the adoption of           budget decision-making. In order to accomplish
a wide array of web-based services, civil works has       this, the Corps is pursuing two actions: developing
become an active proponent of the government’s drive      and continually reﬁning clear results-oriented
to reach out to the public via the internet through       program objectives through the civil works strategic
interagency initiatives such as Recreation One-Stop and   planning process, and developing and measuring the
Geospatial Information One-Stop. Access to the rules      accomplishment of program performance targets as
governing use of civil works lands and waterways has      part of budget development.
been simpliﬁed through elimination of all hard-copy
directives and publications by placing the information    Performance-based budgeting improves the quality
online in formats suitable for viewing, downloading,      of budget decisions and enables the Corps to perform
and printing.                                             more effectively its civil works mission with the
                                                          funds available. Performance-based budgeting will
Civil works also is working to make it easier to do       deliver more program results for dollars expended in
business with the federal government. Civil works         future years, a fact that is especially important when
is a full participant in the web-based Tri-Service        funding is constrained and difﬁcult choices must be
Solicitation Network and sponsors the electronic          made. The Corps continues to work on improving the
contract solicitations system, a web-based process        performance-based budget screening criteria for future
for advertising and distributing contract solicitation    civil works budget development.
documents that has linkages to the Army Single Face




                                                          Photo Credits
                                                          Civil Works Fund Opening Photo
                                                          Port Mayaca Lock and Spillway, Florida.




                                                                                                                 245
                   Principal Financial Statements, Notes, and Supplementary Information




246 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
LIMITATIONS
LIMITATIONS OF THE FINANCIAL STATEMENTS

The ﬁnancial statements have been prepared to report the ﬁnancial position and results
of operations for the entity, pursuant to the requirements of Title 31, United States Code,
section 3515(b).

While the statements have been prepared from the books and records of the entity, in
accordance with the formats prescribed by the Ofﬁce of Management and Budget, the
statements are in addition to the ﬁnancial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

To the extent possible, the ﬁnancial statements have been prepared in accordance with
federal accounting standards. At times, the department is unable to implement all elements
of the standards due to ﬁnancial management systems limitations. The department
continues to implement system improvements to address these limitations. There are other
instances when the department’s application of the accounting standards is different from
the auditor’s application of the standards. In those situations, the department has reviewed
the intent of the standard and applied it in a manner that management believes fulﬁlls that
intent.

The statements should be read with the realization that they are for a component of the
United States Government, a sovereign entity. One implication of this is that the liabilities
cannot be liquidated without legislation that provides resources to do so.




                                                                   FY 2005 Army Annual Financial Statement 247
248 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Department of Defense - US Army Corps of Engineers
CONSOLIDATED BALANCE SHEET
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                     2005 Consolidated                       2004 Consolidated
¬¬¬ASSETS¬(Note¬2)
     Intragovernmental:
        Fund Balance with Treasury (Note 3)
        Entity                                                   $             3,138,201 $                                  2,378,442
        Non-Entity Seized Iraqi Cash                                                   0                                            0
        Non-Entity-Other                                                           7,849                                        8,245
        Investments (Note 4)                                                   3,127,832                                    2,741,917
        Accounts Receivable (Note 5)                                             613,904                                      520,123
        Other Assets (Note 6)                                                          0                                            0
        Total Intragovernmental Assets                           $             6,887,786 $                                  5,648,727

     Cash and Other Monetary Assets (Note 7)                     $                 1,147 $                                     1,039
     Accounts Receivable (Note 5)                                              1,750,925                                   1,906,435
     Loans Receivable (Note 8)                                                         0                                           0
     Inventory and Related Property (Note 9)                                     117,384                                      61,815
     General Property, Plant and Equipment (Note 10)                          26,780,102                                  28,448,517
      Investments (Note 4)                                                             0                                           0
      Other Assets (Note 6)                                                            0                                           0
¬¬¬TOTAL¬ASSETS                                                  $            35,537,344 $                                36,066,533

¬¬¬LIABILITIES¬(Note¬11)
      Intragovernmental:
         Accounts Payable (Note 12)                              $                87,230 $                                    103,498
         Debt (Note 13)                                                           14,600                                       15,367
         Other Liabilities (Note 15 & Note 16)                                 1,956,895                                    2,058,627
         Total Intragovernmental Liabilities                     $             2,058,725 $                                  2,177,492

     Accounts Payable (Note 12)                                  $                535,882 $                                    570,255
     Military Retirement Benefits and Other Employment-Related                          0                                            0
     Actuarial Liabilities (Note 17)
     Environmental Liabilities (Note 14)                                         529,617                                            0
     Loan Guarantee Liability (Note 8)                                                 0                                            0
     Other Liabilities (Note 15 and Note 16)                                     600,880                                      646,125
¬¬¬TOTAL¬LIABILITIES                                             $             3,725,104 $                                  3,393,872

¬¬¬NET¬POSITION
     Unexpended Appropriations                                   $             1,005,843 $                                   396,362
     Cumulative Results of Operations                                         30,806,397                                  32,276,299
¬¬¬TOTAL¬NET¬POSITION                                            $            31,812,240 $                                32,672,661

¬¬¬TOTAL¬LIABILITIES¬AND¬NET¬POSITION                            $            35,537,344 $                                36,066,533




                                                                          The accompanying notes are an integral part of these ﬁnancial statements.


                                                                            FY 2005 Army Annual Financial Statement 249
Department of Defense - US Army Corps of Engineers
CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                                2005 Consolidated                           2004 Consolidated
¬¬¬Program¬Costs
      Intragovernmental Gross Costs                                        $               1,378,785       $                               1,020,767
      (Less: Intragovernmental Earned Revenue)                                           (2,152,799)                                     (1,234,805)
      Intragovernmental Net Costs                                          $               (774,014)       $                               (214,038)
      Gross Costs With the Public                                          $               8,882,498       $                               8,658,737
      (Less: Earned Revenue From the Public)                                               (428,778)                                       (367,963)
      Net Costs With the Public                                            $               8,453,720       $                               8,290,774
      Total Net Cost                                                       $               7,679,706       $                               8,076,736
¬¬¬Cost¬Not¬Assigned¬to¬Programs                                                                   0                                               0
¬¬¬(Less:Earned¬Revenue¬Not¬Attributable¬to¬Programs)                                              0                                               0
¬¬¬Net¬Cost¬of¬Operations                                                  $               7,679,706       $                               8,076,736




                                                                                         The accompanying notes are an integral part of these ﬁnancial statements.


250 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Department of Defense - US Army Corps of Engineers
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                     2005 Consolidated             2004 Consolidated
CUMULATIVE¬RESULTS¬OF¬OPERATIONS
   Beginning¬Balances                                            $          32,276,299 $                         34,289,488
   Prior Period Adjustments¬(+/-)
        Changes in Accounting Principles (+/-)                                       0                                    0
        Correction of Errors (+/-)                                                   0                                    0
   Beginning¬Balances,¬as¬adjusted                               $          32,276,299 $                         34,289,488
   Budgetary¬Financing¬Sources:
        Appropriations received                                                      0                                      0
        Appropriations transferred-in/out (+/-)                                      0                                      0
        Other adjustments (rescissions, etc) (+/-)                                   0                                      0
        Appropriations used                                                  4,009,707                             4,079,023
        Nonexchange revenue                                                  1,632,662                             1,434,495
        Donations and forfeitures of cash and cash equivalents                       0                                      0
        Transfers-in/out without reimbursement (+/-)                           326,390                               315,045
        Other budgetary financing sources (+/-)                                    274                                (3,945)
   Other¬Financing¬Sources:
        Donations and forfeitures of property                                      1,490                                  435
        Transfers-in/out without reimbursement (+/-)                             (3,048)                              (1,632)
        Imputed financing from costs absorbed by others                         241,581                              239,548
        Other (+/-)                                                                  748                                  578
   Total¬Financing¬Sources                                       $            6,209,804 $                          6,063,547
   Net¬Cost¬of¬Operations¬(+/-)                                               7,679,706                            8,076,736
   Net¬Change                                                    $          (1,469,902) $                        (2,013,189)
   Ending¬Balance                                                $          30,806,397 $                         32,276,299

UNEXPENDED¬APPROPRIATIONS
¬¬¬¬Beginning¬Balances                                           $             396,362 $                             636,846
¬¬¬¬Prior¬period¬adjustments¬(+/-)
        Changes in Accounting Principles (+/-)                                       0                                     0
        Correction of Errors (+/-)                                                   0                                     0
¬¬¬¬Beginning¬Balances,¬as¬adjusted                              $             396,362 $                             636,846
¬¬¬¬Budgetary¬Financing¬Sources:
        Appropriations received                                               4,629,502                            3,854,081
        Appropriations transferred-in/out (+/-)                                   27,602                               18,394
        Other adjustments (rescissions, etc) (+/-)                              (37,916)                             (33,936)
        Appropriations used                                                 (4,009,707)                          (4,079,023)
        Nonexchange revenue                                                            0                                    0
        Donations and forfeitures of cash and cash equivalents                         0                                    0
       Transfers-in/out without reimbursement (+/-)                                    0                                    0
       Other budgetary financing sources (+/-)                                         0                                    0
¬¬¬¬Other¬Financing¬Sources:
        Donations and forfeitures of property                                        0                                     0
        Transfers-in/out without reimbursement (+/-)                                 0                                     0
        Imputed financing from costs absorbed by others                              0                                     0
        Other (+/-)                                                                  0                                     0
    Total¬Financing¬Sources                                      $             609,481 $                           (240,484)
    Net¬Cost¬of¬Operations¬(+/-)
    Net¬Change                                                                 609,481                             (240,484)
    Ending¬Balance                                               $           1,005,843 $                             396,362

                                                                                           The accompanying notes are an integral part of these ﬁnancial statements.


                                                                                             FY 2005 Army Annual Financial Statement 251
Department of Defense - US Army Corps of Engineers
COMBINED STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2005 and 2004 ($ in Thousands)



                                                                Budgetary Financing Accounts          Non-Budgetary Financing Accounts
                                                               2005 Combined     2004 Combined        2005 Combined      2004 Combined
BUDGETARY¬RESOURCES
   Budget Authority:
      Appropriations received                              $        5,987,913 $       5,141,166 $                             0 $                             0
      Borrowing authority                                                   0               135                               0                               0
      Contract authority                                                    0                 0                               0                               0
      Net transfers (+/-)                                             264,998           206,924                               0                               0
      Other                                                                 0                 0                               0                               0
   Unobligated balance:
      Beginning of period                                           1,693,278         1,850,226                               0                               0
      Net transfers, actual (+/-)                                      (7,606)           28,495                               0                               0
        Anticipated Transfers Balances                                       0                0                               0                               0
   Spending authority from offsetting collections:
      Earned                                                                 0                 0                              0                               0
        Collected                                                   6,471,705         5,212,085                               0                               0
        Receivable from Federal sources                                 11,130            64,104                              0                               0
      Change in unfilled customer orders                                     0                 0                              0                               0
        Advance received                                              (34,324)            29,660                              0                               0
        Without advance from Federal sources                        3,306,341           272,555                               0                               0
      Anticipated for the rest of year, without advances                     0                 0                              0                               0
      Previously unavailable                                                 0                 0                              0                               0
      Transfers for trust funds                                              0                 0                              0                               0
      Subtotal                                                      9,754,852         5,578,404                               0                               0
   Recoveries of prior year obligations                    $                 0 $               0 $                            0 $                             0
   Temporarily not available pursuant to Public Law                   (10,000)          (10,000)                              0                               0
   Permanently not available                                          (38,390)          (29,076)                              0                               0
¬¬¬Total¬Budgetary¬Resources                               $       17,645,045 $      12,766,274 $                             0 $                             0

STATUS¬OF¬BUDGETARY¬RESOURCES
   Obligations incurred:
       Direct                                              $        5,739,464 $       5,615,179 $                             0 $                             0
       Reimbursable                                                 6,902,397         5,457,815                               0                               0
       Subtotal                                            $       12,641,861 $      11,072,994 $                             0 $                             0
   Unobligated balance:
       Apportioned                                                  4,421,128         1,234,139                               0                               0
       Exempt from apportionment                                      581,999           459,076                               0                               0
       Other available                                                     (1)               (1)                              0                               0
   Unobligated Balances Not Available                                      58                66                               0                               0
¬¬¬Total,¬Status¬of¬Budgetary¬Resources                    $       17,645,045 $      12,766,274 $                             0 $                             0
Relationship¬of¬Obligations¬to¬Outlays:
   Obligated Balance, Net - beginning of period            $        1,038,676 $       1,007,621 $                             0 $                             0
   Obligated Balance transferred, net (+/-)                                 0                 0                               0                               0
   Obligated Balance, Net - end of period:
       Accounts receivable                                           (235,835)         (224,704)                              0                               0
       Unfilled customer order from Federal sources                (5,214,150)       (1,907,809)                              0                               0
       Undelivered orders                                            2,862,371         2,022,902                              0                               0
       Accounts payable                                              1,083,001         1,148,287                              0                               0
   Outlays:
       Disbursements                                               11,867,676        10,705,281                               0                               0
       Collections                                                 (6,437,381)       (5,241,746)                              0                               0
       Subtotal                                            $         5,430,295 $       5,463,535 $                            0 $                             0
   Less: Offsetting receipts                                       (1,744,668)       (1,592,297)                              0                               0
¬¬¬Net¬Outlays                                             $         3,685,627 $       3,871,238 $                            0 $                             0

                                                                                           The accompanying notes are an integral part of these ﬁnancial statements.


252 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Department of Defense - US Army Corps of Engineers
CONSOLIDATED STATEMENT OF FINANCING
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                                                    2005 Combined                          2004 Combined
Resources¬Used¬to¬Finance¬Activities:
Budgetary Resources Obligated
 Obligations incurred                                                                        $              12,641,861 $                           11,072,994
 Less: Spending authority from offsetting collections                                                       (9,754,852)                            (5,578,404)
 and recoveries (-)
 Obligations net of offsetting collections and recoveries                                    $                2,887,009 $                            5,494,590
 Less: Offsetting receipts (-)                                                                              (1,744,668)                            (1,592,297)
 Net obligations                                                                             $                1,142,341 $                            3,902,293
Other Resources
 Donations and forfeitures of property                                                                             1,490                                    435
 Transfers in/out without reimbursement (+/-)                                                                    (3,048)                                (1,632)
 Imputed financing from costs absorbed by others                                                                241,581                                239,548
 Other (+/-)                                                                                                         748                                    579
 Net other resources used to finance activities                                              $                  240,771 $                              238,930
Total¬resources¬used¬to¬finance¬activities                                                   $                1,383,112 $                            4,141,223
Resources¬Used¬to¬Finance¬Items¬not¬Part of¬the¬Net¬Cost¬of¬Operations
 Change in budgetary resources obligated for goods,
 services and benefits ordered but not yet provided
       Undelivered Orders (-)                                                                $                (839,097) $                            (400,175)
       Unfilled Customer Orders                                                                               3,272,017                                302,216
 Resources that fund expenses recognized in prior periods                                                       (25,840)                               (55,278)
 Budgetary offsetting collections and receipts that do not affect net cost of operations                      1,744,668                              1,592,297
 Resources that finance the acquisition of assets                                                               (13,136)                           (1,684,000)
 Other resources or adjustments to net obligated resources
 that do not affect net cost of operations
       Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-)                      (10,000)                               (10,000)
       Other (+/-)                                                                                                 1,560                                  1,636
Total¬resources¬used¬to¬finance¬items¬not part¬of¬the¬net¬cost¬of¬operations                 $                4,130,172 $                            (253,304)
Total¬resources¬used¬to¬finance¬the¬net¬cost¬of operations                                   $                5,513,284 $                            3,887,919

Components¬of¬the¬Net¬Cost¬of¬Operations¬that¬will
not¬Require¬or¬Generate¬Resources¬in¬the¬Current¬Period:
Components Requiring or Generating Resources in Future Period
 Increase in annual leave liability                                                          $                          0 $                                    0
 Increase in environmental and disposal liability                                                                       0                                      0
 Upward/Downward reestimates of credit subsidy expense (+/-)                                                            0                                      0
 Increase in exchange revenue receivable from the the public (-)                                                     (34)                                      0
 Other (+/-)                                                                                                     540,581                                  50,966
 Total components of Net Cost of Operations that                                             $                   540,547 $                                50,966
 will require or generate resources in future periods
Components not Requiring or Generating Resources:
 Depreciation and amortization                                                                                1,195,609                              2,373,460
 Revaluation of assets or liabilities (+/-)                                                                   1,046,654                              (822,198)
 Other (+/-)
       Trust Fund Exchange Revenue                                                                                    0                                      0
       Cost of Goods Sold                                                                                         2,764                                      0
       Operating Material & Supplies Used                                                                             0                                      0
       Other                                                                                                  (619,152)                              2,586,589
 Total components of Net Cost of Operations that will not require or generate resources      $                1,625,875 $                            4,137,851
Total¬components¬of¬net¬cost¬of¬operations¬that
will¬not¬require¬or¬generate¬resources¬in¬the¬current period                                 $                2,166,422 $                            4,188,817
Net¬Cost¬of¬Operations                                                                       $                7,679,706 $                            8,076,736


                                                                                                 The accompanying notes are an integral part of these ﬁnancial statements.


                                                                                                   FY 2005 Army Annual Financial Statement 253
Note 1. Signiﬁcant Accounting Policies
1.A.      Basis of Presentation
These ﬁnancial statements have been prepared to report the ﬁnancial position and results of operations of the U.S.
Army Corps of Engineers (USACE) Civil Works, as required by the “Chief Financial Ofﬁcers (CFO) Act of 1990,”
expanded by the “Government Management Reform Act (GMRA) of 1994,” and other appropriate legislation.
The ﬁnancial statements have been prepared from the books and records of the USACE in accordance with the
“Department of Defense Financial Management Regulation (DoDFMR),” the Ofﬁce of Management and Budget
(OMB) Bulletin No. 01-09, “Form and Content of Agency Financial Statements” and, to the extent possible, generally
accepted accounting principles (Federal GAAP). The USACE’s ﬁnancial statements are in addition to the ﬁnancial
reports also prepared by the USACE pursuant to OMB directives that are used to monitor and control the USACE’s
use of budgetary resources.

The USACE ﬁnancial statements are prepared from the consolidation of general ledger ﬁnancial data reported from
the Corps of Engineers Financial System (CEFMS) to the Corps of Engineers Enterprise Management Information
System (CEEMIS).

A more detailed explanation of these ﬁnancial statements elements is provided in the applicable footnote.


1.B.      Mission of the Reporting Entity
Some of the missions of the USACE include maintaining navigation channels, reducing ﬂooding, assisting during
natural disasters and other emergencies, and making waterways passable. The ﬁnancial statements are presented on
the accrual basis of accounting as required by federal ﬁnancial accounting standards.

The asset accounts used to prepare the principal ﬁnancial statements are categorized as entity/non-entity. Entity
accounts consist of resources that the agency has the authority to use, or where management is legally obligated to
use funds to meet entity obligations. Non-entity accounts are assets that are held by an entity but are not available
for use in the operations of the entity.


Entity Accounts:
General Funds
96X3112     Flood Control, Mississippi River and Tributaries
96X3121     General Investigations
96 3121     General Investigations (ﬁscal year)
96X3122     Construction, General
96X3123     Operation and Maintenance, General
96X3124     General Expenses
96X3125     Flood Control and Coastal Emergencies
96X3126     Regulatory Program
96X3128     Washington Aqueduct Capital Improvements
96 3129     Payment to the South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund (ﬁscal year)
96X3130     FUSRAP
96 3132     Ofﬁce of Assistant Secretary of the Army (Civil Works)
96X6094     Advances from the District of Columbia

Revolving Funds
96X4902     Revolving Fund

Special Funds
96X5007     Special Recreation Use Fees
96X5066     Hydraulic Mining in California, Debris


254 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
96X5090       Payments to States, Flood Control Act of 1954
96X5125       Maintenance and Operation of Dams and Other Improvements of Navigable Waters
96X5493       Fund for Non-Federal Use of Disposal Facilities

Trust Funds
96X8217       South Dakota Terrestrial Wildlife habitat Restoration Trust Fund
96X8333       Coastal Wetlands Restoration Trust Fund
96 20X8861    Inland Waterways Trust Fund
96X8862       Rivers and Harbors Contributed and Advance Funds
96 20X8863    Harbor Maintenance Trust Fund

Transfer Funds
96 12X1105 State and Private Forestry, Forest Service
96 13X2050 Economic Development Administration
96 14X1039 Construction National Park Service
96 14X5035 Land Acquisition and State Assistance, National Park Service
96 21X2020 OMA, American Samoa Projects
96 69X8083 Federal Aid Highways
96 89X4045 Bonneville Power Administration
96 72 99/00 1021 Development Assistance, Agency for International Development


Non-Entity:
Deposit Funds
96X6500     Advances without Orders from Non-Federal Sources
96X6501     Small Escrow Amounts

Clearing Accounts
96F3875     Budget Clearing Account
96F3880     Unavailable Check Cancellations and Overpayments
96F3885     Undistributed Intergovernmental Payments

Receipt Accounts
96 0891     Miscellaneous fees for regulatory and judicial services, not otherwise classiﬁed
96 1060     Forfeitures of Unclaimed Money and Property
96 1099     Fines, Penalties, and Forfeitures Not Otherwise Classiﬁed
96 1299     Gifts to the United States, Not Otherwise Classiﬁed
96 1435     General Fund Proprietary Interest, Not Otherwise Classiﬁed
96 3220     General Fund Proprietary Receipts, Not Otherwise Classiﬁed, All Other
96 5005     Land and Water Conservation Fund
96 5007     Special Recreation Use Fees
96 5066     Hydraulic Mining in California
96 5090     Receipts from leases of lands acquired for ﬂood control, navigation, and allied purposes
96 5125     Licenses under Federal Power Act, Improvements of navigable water, maintenance and operation of
            dams, etc., (50%)
96 5493     User Fees, Fund for Non-Federal Use of Disposal Facilities


Obsolete Accounts:
96 13X1450         96 67X0204        96X6134      96F3879       96 1210
96 14X2301         96 89X0224        96X6145      96F3886       96 1499
96 19 00 1082      96 20X8145        96X6275      96 0199       96 2413
96 46X0200         96X3930           96X6302      96 0869       96 2814


                                                                                 FY 2005 Army Annual Financial Statement 255
96 47X4542             96X6050            96X6999         96 1030         96 3102
96 72 00/01 1021       96X6075            96X8868         96 1040         96 3124


1.C.      Appropriations and Funds
The UFACE Civil Works Program receives Federal funding through annual Energy and Water Development
Appropriations Acts. Program funding also comes from non-Federal project sponsors who share in project costs
according to formulas established by project authorization acts. A third source of funding comes through the
Supports for Others Program, which is conducted under reimbursable agreements with Federal agencies.

The USACE Civil Works appropriations and funds are divided into the general, revolving, trust, special, and deposit
funds. These appropriations and funds are used to fund and report how the resources have been used in the course
of executing the USACE missions.

General Funds are used for ﬁnancial transactions arising under congressional appropriations, including personnel,
operation and maintenance, research and development, procurement, and construction accounts.

Revolving Funds receive their initial working capital through an appropriation or a transfer of resources from
existing appropriations or funds and use those capital resources to ﬁnance the initial cost of products and services.
Financial resources to replenish the initial working capital and to permit continuing operations are generated by the
acceptance of customer orders. The activities provide goods and services on a reimbursable basis. Receipts derived
from operations generally are available in their entirety for use without further congressional action.

Trust Funds represent the receipt and expenditure of funds held in trust by the government for use in carrying out
speciﬁc purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

Special Funds account for receipts of the government that are earmarked for a speciﬁc purpose.

Deposit Funds generally are used to (1) hold assets for which the USACE is acting as an agent, custodian, or whose
distribution awaits legal determination, or (2) account for unidentiﬁed remittances.

In 1997, the USACE received borrowing authority from the Department of the Treasury for the three years 1997
through 1999 to ﬁnance capital improvements to the Washington Aqueduct. Appropriation 96X3128 was established
to record ﬁnancial transactions for these capital improvements.


1.D.      Basis of Accounting
The USACE’s transactions are generally recorded on an accrual accounting basis and a budgetary basis as is required
by Federal GAAP. Under the accrual method, revenues are recognized when earned and expenses are recognized
when a liability is incurred without regard to receipt or payment of cash. Budgetary accounting is accomplished
through unique general ledger accounts to facilitate compliance with legal and internal control requirements
associated with the use of federal funds.

A policy change was effective March 2005 to report transfer appropriation Funds Balance with Treasury (FBWT) as
non-entity funds. These funds had previously been reported as appropriated entity funds. Special Funds have also
been distinguished from appropriated funds effective in December 2004.

CEFMS is used at all divisions, districts, centers, laboratories, and ﬁeld ofﬁces. CEFMS is a fully integrated,
automated, and comprehensive ﬁnancial management system that simpliﬁes the management of all aspects of the
USACE’s business, including civil, military, revolving funds, and reimbursable activity. The general ledger chart of
accounts in CEFMS is substantially compliant with the U.S. Government Standard General Ledger. In addition, the
USACE identiﬁes programs based upon the major appropriation groups provided by Congress.




256 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
1.E.     Revenues and Other Financing Sources
Financing sources for General Funds are provided primarily through congressional appropriations that are received
on both an annual and a multiyear basis. When authorized, these appropriations are supplemented by revenues
generated by sales of goods or services through a reimbursable order process. The USACE recognizes revenue
as a result of costs incurred or services performed on behalf of other federal agencies and the public. Revenue is
recognized when earned under the reimbursable order process.


1.F.     Recognition of Expenses
For ﬁnancial reporting purposes, the DoD policy requires the recognition of operating expenses in the period
incurred. Expenditures for capital and other long-term assets are not recognized as expenses in the USACE
operations until depreciated in the case of property, plant, and equipment (PP&E) or consumed in the case of
operating materials and supplies (OM&S). Net increases or decreases in unexpended appropriations are recognized
as a change in the net position.

Certain expenses, such as annual and military leave earned but not taken, are ﬁnanced in the period when earned.


1.G.     Accounting for Intragovernmental Activities
The USACE, as an agency of the federal government, interacts with and is dependent upon the ﬁnancial activities
of the federal government as a whole. Therefore, these ﬁnancial statements do not reﬂect the results of all ﬁnancial
decisions applicable to the USACE as though the agency were a stand alone entity.

The USACE’s proportionate share of public debt and related expenses of the federal government are not included.
Debt issued by the federal government and the related costs are not apportioned to federal agencies. The USACE’s
ﬁnancial statements, therefore, do not report any portion of the public debt or interest thereon, nor do the statements
report the source of public ﬁnancing whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through budget appropriations. To the extent this
ﬁnancing ultimately may have been obtained through the issuance of public debt, interest costs have not been
capitalized since the Department of the Treasury does not allocate such interest costs to the beneﬁting agencies.

The USACE civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal Employees
Retirement Systems (FERS), while military personnel are covered by the Military Retirement System (MRS).
Additionally, employees and personnel covered by FERS and MRS also have varying coverage under Social Security.
The USACE funds a portion of the civilian and military pensions. Reporting civilian pension under CSRS and FERS
retirement systems is the responsibility of the Ofﬁce of Personnel Management (OPM). The USACE recognizes an
imputed expense for the portion of civilian employee pensions and other retirement beneﬁts funded by the OPM in
the Statement of Net Cost and recognizes corresponding imputed revenue from the civilian employee pensions and
other retirement beneﬁts in the Statement of Changes in Net Position.

The Department of Defense reports the assets, funded actuarial liability, and unfunded actuarial liability for the
military personnel in the Military Retirement Fund (MRF) ﬁnancial statements. The Department recognizes the
actuarial liability for the military retirement health beneﬁts in the Other Defense Organization General Fund column
of the DoD Agency wide consolidating/combining statements.

To prepare reliable ﬁnancial statements, transactions occurring between entities within the Department or between
two or more federal agencies must be eliminated. The USACE is responsible for eliminating transactions between
components and activities.

The Department of the Treasury, Financial Management Service (FMS), is responsible for eliminating transactions
between the Department and other federal agencies. In September 2000, the Department of the Treasury, FMS,
issued the “Federal Intragovernmental Transactions Accounting Policies and Procedures Guide.” The USACE


                                                                                FY 2005 Army Annual Financial Statement 257
implemented the policies and procedures in this guide related to reconciling intragovernmental assets, liabilities,
revenues, and expenses for non-ﬁduciary transactions. In addition, the USACE implemented the policies and
procedures contained in the “Intragovernmental Fiduciary Transactions Accounting Guide,” as updated by
the “Federal Intragovernmental Transactions Accounting Policies and Procedures Guide,” issued October
2002 for reconciling intragovernmental transactions. These transactions pertain to investments in Federal
securities, borrowings from the Department of the Treasury and the Federal Financing Bank, Federal Employees’
Compensation Act transactions with the Department of Labor (DoL), and beneﬁt program transactions with the
OPM.


1.H.      Transactions with Foreign Governments and International Organizations
Each year, the DoD Components sell defense articles and services to foreign governments and international
organizations, primarily under the provision of the “Arms Export Control Act of 1976.” Under the provision of
the Act, the Department has authority to sell defense articles and services to foreign countries and international
organizations, generally at no proﬁt or loss to the U.S. Government. Customers may be required to make payments
in advance.


1.I.      Funds with the U.S. Treasury
The USACE’s ﬁnancial resources are maintained in the Department of the Treasury accounts. The majority of cash
collections, disbursements, and adjustments are processed worldwide at the Defense Finance and Accounting
Service (DFAS), Military Services, the USACE Finance Center (UFC) disbursing station, as well as the Department of
State ﬁnancial service centers. Each disbursing station prepares monthly reports which provide information to the
Department of the Treasury on check issues, electronic transfers, interagency transfers, and deposits.

In addition, the DFAS centers and the UFC submit reports to the Department of the Treasury, by appropriation
on interagency transfers, collections received, and disbursements issued. The Department of the Treasury then
records this information to the applicable FBWT account maintained in the Department of the Treasury’s system.
Differences between the USACE’s recorded balance in the FBWT accounts and the Department of the Treasury’s
FBWT accounts sometimes result and are subsequently reconciled. Material disclosures are provided at Note 3.
Differences between accounting ofﬁces’ detail-level records and the Department of the Treasury’s FBWT accounts
are disclosed at Note 3, speciﬁcally, differences caused by in-transit disbursements and unmatched disbursements
(which are not recorded in the accounting ofﬁces’ detail-level records).


1.J.      Foreign Currency
The USACE conducts operations overseas. Foreign Currency ﬂuctuations require adjustment to the original
obligation amount at the time of payment. These currency ﬂuctuations are not separately identiﬁed.


1.K.      Accounts Receivable
As presented in the Balance Sheet statement, accounts receivable includes accounts, claims, and refunds receivable
from other federal entities or from the public. Allowances for uncollectible accounts due from the public are based
upon analysis of collection experience by fund type. The Department does not recognize an allowance for estimated
uncollectible amounts from other federal agencies. Claims against other federal agencies are to be resolved between
the agencies. Material disclosures are provided at Note 5.


1.L.      Loans Receivable
Not applicable.




258 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
1.M.     Inventories and Related Property
Inventories are reported at approximate historical cost based on a moving weighted average that is based on actual
cost divided by quantity. A perpetual record of inventory is maintained in CEFMS to allow for recomputation of the
average unit cost as new receipts are recorded.

The related property portion of the amount reported on the Inventory and Related Property line includes operating
materials and supplies (OM&S). The OM&S are valued at standard purchase price. For the most part, the
Department is using the consumption method of accounting for OM&S, as deﬁned in the SFFAS No. 3, “Accounting
for Inventory and Related Property”, as material that has not been issued to the end user. Once OM&S is issued, the
material is expensed. Material disclosures related to inventory and related property is provided at Note 9.


1.N.     Investments in U.S. Treasury Securities
Investments in the Department of the Treasury securities are reported at cost, net of unamortized premiums
or discounts. Premiums or discounts are amortized into interest income over the term of the investment using
the effective interest rate method or other method if similar results are obtained. The USACE’s intent is to hold
investments to maturity, unless they are needed to ﬁnance claims or otherwise sustain operations. Consequently,
a provision is not made for unrealized gains or losses on these securities, because in the majority of cases, they
are held to maturity. Amounts reported reﬂect the value of investments in the South Dakota Terrestrial Wildlife
Habitat Restoration, Inland Waterways, and Harbor Maintenance Trust Fund accounts, which are managed by the
Department of the Treasury. Material disclosures are provided at Note 4.


1.O.     General Property, Plant and Equipment
General property, plant, and equipment (PP&E) assets are capitalized at historical acquisition cost plus capitalized
improvements when an asset has a useful life of two or more years, and when the acquisition cost is greater than
$25,000, with the exception of all buildings and structures related to hydro-power purpose which are capitalized (to
include joint cost) regardless of cost. Starting in FY 2004, all Civil Works Buildings and Structures under $25,000 are
expensed except for hydro-power assets.

All General PP&E, other than land, is depreciated on a straight-line basis. Land is not depreciated.

In FY 2004, the USACE, Ofﬁce of the Secretary of Defense Comptroller, and Department of Defense Inspector
General (DoDIG) reached an agreement on supporting documentation for land values to include administrative
costs. The USACE is in the process of gathering the necessary supporting documentation in accordance with the
Memorandum of Agreement signed on June 9, 2004.

When it is in the best interest of the government, the USACE provides to contractors government property necessary
to complete contract work. Such property is either owned or leased by the USACE, or purchased directly by the
contractor for the government based on contract terms. When the value of contractor procured General PP&E
exceeds the DoD capitalization threshold, such PP&E is required to be included in the value of General PP&E
reported on the USACE Balance Sheet. The Department of Defense completed a study that indicates that the value
of General PP&E above the DoD capitalization threshold and not older than the DoD Standard Recovery Periods
for depreciation, and that is presently in the possession of contractors, is not material to the Department’s ﬁnancial
statements. Regardless, the Department is developing new policies and a contractor reporting process that will
provide appropriate General PP&E information for future ﬁnancial statement reporting purposes. Accordingly,
the USACE currently reports only government property in the possession of contractors that is maintained in the
USACE property systems.

To bring the USACE into compliance with federal accounting standards, the Department has issued new property
accountability and reporting regulations that require the DoD Components to maintain, in DoD Component
property systems, information on all property furnished to contractors. This action and other DoD proposed actions


                                                                                FY 2005 Army Annual Financial Statement 259
are structured to capture and report the information necessary for compliance with federal accounting standards.

Material disclosures are provided at Note 10.


1.P.      Advances and Prepayments
Payments in advance of the receipt of goods and services are recorded as advances or prepayments and reported as
an asset on the Balance Sheet. Advances and prepayments are recognized as expenditures and expenses when the
related goods and services are received.


1.Q.      Leases
Generally, lease payments are for the rental of equipment, space, and operating facilities and are classiﬁed as
either capital or operating leases. When a lease is essentially equivalent to an installment purchase of property (a
capital lease), the USACE records the applicable asset and liability if the value equals or exceeds the current DoD
capitalization threshold. The capitalization threshold for civil works assets is $25,000. The USACE records the
amounts as the lesser of the present value of the rental and other lease payments during the lease term (excluding
that portion of the payments representing executory costs paid to the lessor) or the asset’s fair market value. Leases
that do not transfer substantially all of the beneﬁts or risks of ownership are classiﬁed as operating leases and
recorded as expenses as payments are made over the lease term.


1.R.      Other Assets
The USACE conducts business with commercial contractors under two primary types of contracts—ﬁxed price and
cost reimbursable. To alleviate the potential ﬁnancial burden on the contractor that long-term contracts can cause,
the USACE provides ﬁnancing payments. One type of ﬁnancing payment that the USACE makes, for real property,
is based upon a percentage of completion. In accordance with the SFFAS No. 1, “Accounting for Selected Assets and
Liabilities,” such payments are treated as construction-in-process and are reported on the General PP&E line and at
Note 10, General PP&E, Net.

In addition, based on the provision of the Federal Acquisition Regulation (FAR), the USACE makes ﬁnancing
payments under ﬁxed price contracts that are not based on a percentage of completion. The USACE reports these
ﬁnancing payments as advances or prepayments in the “Other Assets” line item. The USACE treats these payments
as advances or prepayments because the USACE becomes liable only after the contractor delivers the goods in
conformance with the contract terms. If the contractor does not deliver a satisfactory product, the USACE is not
obligated to reimburse the contractor for its costs and the contractor is liable to repay the USACE for the full amount
of the advance.

DoD has completed a review of all applicable federal accounting standards; applicable public laws on contract
ﬁnancing; FAR Parts 32, 49, and 52; and the OMB guidance in 5 Code of Federal Regulations Part 1315, “Prompt
Payment.” DoD concluded that SFFAS No. 1 does not fully or adequately address the subject of progress payment
accounting and is considering what further action is appropriate.


1.S.      Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” deﬁnes a contingency as an existing
condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss to the USACE.
The uncertainty will be resolved when one or more future events occur or fail to occur. A contingency is recognized
as a liability when a past event or exchange transaction has occurred, a future loss is probable, and the amount of
loss can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there
is at least a reasonable possibility that a loss or additional loss will be incurred. Examples of loss contingencies


260 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
include the collectibility of receivables, pending or threatened litigation, possible claims and assessments. The
USACE’s loss contingencies arising as a result of pending or threatened litigation or claims and assessments occur
due to events such as ship and vehicle accidents, property or environmental damages, and contract disputes.


1.T.     Accrued Leave
Civilian annual leave and military leave that have been accrued and not used as of the balance sheet date are
reported as liabilities. The liability reported at the end of the ﬁscal year reﬂects current pay rates.


1.U.     Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
appropriations represent amounts of authority which are unobligated and have not been rescinded or withdrawn,
and amounts obligated but for which legal liabilities for payments have not been incurred.

Cumulative results of operations represent the difference, since inception of an activity, between expenses and losses
and ﬁnancing sources (including appropriations, revenue, and gains). Beginning with FY 1998, this included the
cumulative amount of donations and transfers of assets in and out without reimbursement.


1.V.     Treaties for Use of Foreign Bases
The USACE has no existing treaties for use of foreign bases


1.W.     Comparative Data
The Financial Statements and accompanying Notes to the Financial Statements report the ﬁnancial position and
results of operations for FY 2005. Financial statement ﬂuctuations greater than 2 percent of total assets on the
Balance Sheet and/or greater than 10 percent between FY 2004 and FY 2005 are explained within the Notes to the
Financial Statements.


1.X.     Unexpended Obligations
The USACE records obligations for goods and services that have been ordered but not yet received. No liability for
payment has been established in the ﬁnancial statements because goods/services have yet to be delivered.


1.Y.     Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections
matched at the transaction level to a speciﬁc obligation, payable, or receivable in the activity ﬁeld records as opposed
to those reported by the Department of the Treasury. These amounts should agree with the undistributed amounts
reported on the departmental accounting reports.

The Department of Defense policy is to allocate supported undistributed disbursements and collections between
federal and nonfederal categories based on the percentage of Federal and nonfederal accounts payable and
accounts receivable. Unsupported undistributed disbursements are recorded in accounts payable. Unsupported
undistributed collections are recorded in other liabilities. The USACE does not follow this procedure.

All unposted disbursements and collections for the USACE are unrecorded Intragovernmental Payment and
Collection (IPAC) transactions. These transactions are all Federal.




                                                                                FY 2005 Army Annual Financial Statement 261
Note 2. Nonentity Assets
  As of September 30                                             2005                         2004
  (Amounts in thousands)
  1. Intragovernmental Assets
     A. Fund Balance with Treasury                    $                      7,849   $                    8,245
     B. Investments                                                              0                            0
     C. Accounts Receivable                                                      0                            0
     D. Other Assets                                                             0                            0
     E. Total Intragovernmental Assets                $                      7,849   $                    8,245
  2. Nonfederal Assets
     A. Cash and Other Monetary Assets                $                      1,147   $                    1,039
     B. Accounts Receivable                                              1,722,336                    1,843,102
     C. Loans Receivable                                                         0                            0
     D. Inventory & Related Property                                             0                            0
     E. General PP&E                                                             0                            0
     F. Investments                                                              0                            0
     G. Other Assets                                                             0                            0
     H. Total Nonfederal Assets                       $                  1,723,483   $                1,844,141
  3. Total Nonentity Assets                           $                  1,731,332   $                1,852,386
  4. Total Entity Assets                              $                 33,806,012   $               34,214,147
  5. Total Assets                                     $                 35,537,344   $               36,066,533


Asset accounts are categorized either as entity or nonentity. Entity accounts consist of resources that the agency has
authority to use, or when management is legally obligated to use funds to meet entity obligations. Nonentity assets
are assets that are held by an entity, but are not available for use in the operations of the entity.


Composition of Other Nonentity Assets
Intragovernmental Nonentity Fund Balance with Treasury consists of amounts collected into deposit and suspense
accounts.

Cash and Other Monetary Assets is comprised of $4 thousand in change funds for recreation cashiers, $552 thousand
in Disbursing Ofﬁcer’s cash, and $591 thousand in foreign currency, as listed at Note 7.

Non-federal nonentity accounts receivable represents all current and non-current receivables due from non-
federal sources. Nonentity receivables include $835.9 million in long-term receivables due from state and local
municipalities for water storage contracts, $33.9 million in current receivables due from state and local municipalities
for water storage, $852.8 million in accrued interest receivable, $2.3 million in penalties, ﬁnes and administrative
fees receivable, $1.3 million in long-term receivables for hydraulic mining, and $1.5 million for other miscellaneous
receivables. An additional $476.2 thousand represents the amount due from the leasing of land acquired for ﬂood
control purposes. Nonentity receivables are recorded in unavailable receipt accounts and funds will be returned to
the U.S. Treasury when collected. The allowance for doubtful accounts totals $5.8 million for nonentity receivables.


Fluctuations
Line 2A. Cash and Other Monetary Assets increased by approximately $107.8 thousand (10 percent) due to an
increase of foreign currency maintained for disbursements and exchange transactions at the Japan, Europe and Far
East Districts. There was an increase in the balance in Japanese yen, Euro dollars and Korean won used to pay local
vendors and contractors.




262 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Note Reference
For Additional Line Item discussion, see:
Note 3, Funds Balance with Treasury
Note 4, Investments
Note 5, Accounts Receivable
Note 7, Cash and Other Monetary Assets
Note 9, Inventory and Related Property
Note 10, General PP&E, Net

Note 3. Fund Balance with Treasury
 As of September 30                                               2005                          2004
 (Amounts in thousands)
 1. Fund Balances
    A. Appropriated Funds                                 $              1,600,628     $               970,538
    B. Revolving Funds                                                     965,552                     902,212
    C. Trust Funds                                                          86,885                      72,121
    D. Special Funds                                                         1,920                           0
    E. Other Fund Types                                                    491,065                     441,816
    F. Total Fund Balances                                $              3,146,050     $             2,386,687
 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                          $              3,180,160     $             2,906,916
    B. Fund Balance per USACE                                            3,146,050                   2,386,687
 3. Reconciling Amount                                    $                 34,110     $               520,229


The Reconciling Amount for Fund Balances per the U. S. Army Corps of Engineers (USACE) includes $83.8 million
in cash reported by the Department of the Treasury for Inland Waterways and Harbor Maintenance Trust Funds, for
which the USACE is identiﬁed as the lead agency for reporting. Fund Balance per USACE does not include $117.9
million in receipt accounts. The USACE closed receipt accounts according to the Treasury Financial Management
Transmittal Letter, transaction code F124, but they were included on the Financial Management Service (FMS) 6655:
Receipt Account Trial Balance at September 30, 2005. These collections were processed in October 2005.


Other Information Related to Fund Balance with Treasury
Fund Balance per Treasury and Fund Balance per USACE include $13.7 million in transfer appropriations. Transfers
are from the Department of Energy, the Department of Transportation, and the Department of Commerce.
According to the Treasury Financial Manual, Part 2, Chapter 4000, Federal Agencies’ Centralized Trial-Balance System,
paragraph 4030.60, if an appropriation transfer is material to the receiving agency’s ﬁnancial statements, the
receiving agency should report the activity relating to the appropriation transfers in its ﬁnancial statements.

Appropriated Funds includes net disbursements for undistributed IPAC transactions of ($12.2) million. These were
distributed to the appropriate funds during October 2005.

Other Fund Types (nonentity) consist of $7.8 million in deposit, suspense, and clearing accounts that are not
available to ﬁnance the USACE activities. Other Fund Types (entity) consists of $2 thousand in borrowing
authority, $467.2 million in contributed funds, and $16 million in the suspense account established to ﬁnance
Washington Aqueduct operations and are available to ﬁnance the USACE activities.

Entity accounts consist of resources that the agency has the authority to use, or when management is legally
obligated to use funds to meet entity obligations. Nonentity accounts are assets that are held by an entity, but are
not available for use in the operation of the entity.



                                                                                     FY 2005 Army Annual Financial Statement 263
There are no restrictions for future use of unobligated balances.

The Fund Balance with Treasury (FBWT) line does not include any amounts for which the Department of the
Treasury is willing to accept corrections to cancelled appropriation accounts, in accordance with the Statement of
Federal Financial Accounting Standards (SFFAS) No. 1, “Accounting for Selected Assets and Liabilities.”


Fluctuations
Appropriated Funds. Appropriated Funds increased by $630.1 million (65 percent). Due to an unprecedented
hurricane season in the fall of 2004 and during 2005, the USACE has received over $548 million in appropriated
funds to perform numerous missions to support those affected by the hurricanes. The USACE is the Federal
Emergency Management Agency’s (FEMA) Emergency Support Function for Engineering.

Trust Funds. Trust Funds increased by $14.8 million (20 percent). The increase is from the Bureau of Public Debt’s
ﬁnancial statements for the Harbor Maintenance and Inland Waterways Trust Funds. The USACE incorporates the
Bureau of Public Debt’s ﬁnancial statement into its ﬁnancial statements. The USACE is the lead agency for reporting
these Trust Funds. The Bureau of Public Debt performs the investment activity for these Trust Funds. They had not
invested all available cash as of the end of 4th Quarter, FY 2005.

Special Funds. Special Funds increased by $1.9 million (100 percent). This category is new in FY 2005. Special
Funds were previously reported as Appropriated Funds.

Other Fund Types. Other Fund Types increased by $49.2 million (11 percent). The increase is due to cost share
projects at the USACE Jacksonville District.

Reconciling Amount. The Reconciling Amount decreased $486.1 million (93 percent). The decrease is a result of
the exclusion of receipts for Contributed Funds which are rolled to the expenditure fund by the Department of the
Treasury. In FY 2004, the USACE included these receipts in Line 1.A. Funds Balance per Treasury, which resulted in
duplication.


Note Reference
Note Disclosure 1.I. Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting requirements
and DoD policies governing Funds with the Department of the Treasury.

Note 2 for Entity/Nonentity Accounts


Status of Fund Balance with Treasury
  As of September 30                                                           2005                    2004
  (Amounts in thousands)
  1. Unobligated Balance
     A. Available                                                   $                 5,003,127    $        1,693,215
     B. Unavailable                                                                           58                   66
  2. Obligated Balance not yet Disbursed                            $                 6,622,332    $        5,493,293
  3. Non-Budgetary FBWT                                             $                    (3,734)   $            8,245
  4. Non-FBWT Budgetary Accounts                                    $               (8,475,925)    $      (4,830,335)
  5. Total                                                          $                 3,145,858    $        2,364,484


Status of Funds Balance uses the formula of the Treasury FMS 2108: Yearend Closing Statement. The unobligated
and obligated not yet disbursed amounts in the budgetary accounts should agree to the balance at the Department of
the Treasury.



264 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
The Bureau of Public Debt Financial Statements for the Inland Waterways, Harbor Maintenance and South Dakota
Terrestrial Wildlife Habitat Restoration Trust Funds are incorporated into the USACE’s ﬁnancial statements. The
Department of the Treasury does not recognize budgetary resources for premium and amortization of premium on
U. S. Treasury Securities for $83.8 million.

According to the Statement of Federal Financial Accounting Standards No. 1, an entity’s Fund Balance with Treasury
does not include contract obligation authority or unused authority to borrow. Contract authority is a statutory
authority under which contracts or other obligations may be entered into prior to receiving an appropriation or
cash transfer for the payment of obligations. The later enacted appropriation provides cash to liquidate obligations.
Thus, contract authority merely permits a federal entity to incur certain obligations but does not, in itself, add
funds to the agency’s accounts with the Department of the Treasury. The USACE’s available balance includes $45.9
million in contract obligation authority for transfer appropriations from the Department of Transportation and the
Department of Energy.


Fluctuations
Unobligated Balance Available. The Unobligated Balance Available increased $3.3 billion (196 percent). Due to an
unprecedented hurricane season in the fall of 2004 and during 2005, the USACE received an increase in appropriated
funds and customer orders to perform numerous missions to support those affected by the hurricanes. The USACE
is the Federal Emergency Management Agency’s (FEMA) Emergency Support Function for Engineering.

Unobligated Balance Unavailable. The Unobligated Balance Unavailable decreased $7.6 thousand (12 percent). The
decrease is due to the return of Transfer Funds to the Agency for International Development.

Obligated Balance not yet Disbursed. The Obligated Balance not yet Disbursed increased $1.1 billion (21 percent).
Due to an unprecedented hurricane season in the fall of 2004 and during 2005, the USACE received an increase in
appropriated funds and customer orders to perform numerous missions to support those affected by the hurricanes.
The USACE is the Federal Emergency Management Agency’s (FEMA) Emergency Support Function for Engineering.
The ﬂuctuation is also due to an increase in interest on investments and taxes on imports and foreign trade for Trust
Funds.

Non-Budgetary FBWT. The Non-Budgetary FBWT decreased $11.9 million (145 percent). The decrease is a result of
transfers of funds in the Suspense and Budget Clearing Accounts to the appropriate funds.

Non-FBWT Budgetary Accounts. The Non-FBWT Budgetary Accounts increased $3.7 billion (77 percent). Due to an
unprecedented hurricane season in the fall of 2004 and during 2005, the USACE received an increase in appropriated
funds and customer orders to perform numerous missions to support those affected by the hurricanes. The USACE
is the Federal Emergency Management Agency’s (FEMA) Emergency Support Function for Engineering. The
ﬂuctuation is also due to an increase in interest on investments and taxes on imports and foreign trade for Trust
Funds.


Disclosures Related to Suspense/Budget Clearing Accounts
                                                                                         (Decrease)/
 As of September 30           2003              2004              2005          Increase from FY2004 - 2005
 (Amounts in thousands)
Account
 F3875                    $          850   $           113    $           632   $                            519
 F3880                                 0                (0)                 0                                  0
 F3882                                 0                  0                 0                                  0
 F3885                                 0                  0          (12,215)                           (12,215)
 F3886                                 0                  0                 0                                  0
Total                     $          850   $           113    $      (11,583)   $                       (11,696)




                                                                                FY 2005 Army Annual Financial Statement 265
During FY 2004 balances in Budget Clearing Account 96F3875 and 96F3885 were closed into the Suspense Account
96X6500 according to Defense Finance Accounting Service guidance. That guidance has been rescinded. The
Budget Clearing Accounts were reestablished at the beginning of FY 2005. Since there is no requirement from the
Department of the Treasury to close budget clearing accounts, the guidance was rescinded for yearend FY 2005.


Disclosures Related to Problem Disbursements and In-Transit Disbursements
Not applicable.

Note 4. Investments and Related Interest
                                                                                              2005                            2004
                                                                            Unamortized                         Market
                                                   Par         Amortization (Premium/         Investments,       Value    Investments,
 As of September 30                             Value/Cost       Method      Discount)            Net          Disclosure     Net
 (Amounts in thousands)
 1. Intragovernmental Securities
                                                                Level Yield
    A. Non-Marketable, Market-Based            $   3,032,895
                                                                Calculation
                                                                              $   78,829 $       3,111,724 $    3,105,672 $   2,728,131
    B. Accrued Interest                              16,108                                          16,108        16,108       13,786
    C. Total Intragovernmental Securities      $   3,049,003                  $   78,829 $       3,127,832 $    3,121,780 $   2,741,917
 2. Other Investments                          $          0                           0 $                0           N/A $           0


Investments for the Inland Waterways, Harbor Maintenance, and South Dakota Terrestrial Wildlife Habitat
Restoration Trust Funds are reported by the Department of the Treasury and are included in the U.S. Army Corps
of Engineers’ ﬁnancial statements. Investments include $262.5 million in one-day certiﬁcates and $2.8 billion in
bonds and notes. Total investment amounts include $347.1 million in Inland Waterways, $2.7 billion in Harbor
Maintenance, and $76.1 million in the South Dakota Terrestrial Wildlife Habitat Restoration account.

Investments are held until maturity. As funds are needed to sustain operations, withdrawals are made from the
one-day certiﬁcate investment account for Inland Waterways and Harbor Maintenance Trust Funds. The investment
policy changed for South Dakota Trust Funds in February 2005. Funds are no longer invested in one-day certiﬁcates,
but are invested in notes and bonds. Provisions are not made for unrealized gains or losses on these securities. The
Trust Funds use the same method that conforms to the prevailing practice in the ﬁnancial community to determine
the amortized book value of investments currently held and the related effective interest yield on investments.
These calculated yields agree with yields published in the security tables of the Department of the Treasury
securities. These types of investments are recorded at cost, net of unamortized premiums or discounts. Premiums
or discounts are amortized into interest income over the term of the investment. Investment decisions for these
funds are made by the managing entity, in this case, the Department of the Treasury.

The Department of the Treasury also provides the investment market value based on the bid price provided by the
Federal Reserve Bank of New York on September 30, 2005.


Note Reference
See Note Disclosure 1.N., Investments in the Department of the Treasury for additional DoD policies governing
Investments in U.S. Treasury Securities.


Fluctuations
Line 1A. Non-Marketable, Market Based Securities: The overall increase of $384 million (14 percent) in Non-
Marketable, Market Based Securities is due to several factors. There is an increase in tax revenues in Harbor
Maintenance and Inland Waterways Trust Funds and an increase in interest on investments (cash) for Harbor


266 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Maintenance, Inland Waterways and South Dakota Trust Funds. Tax revenues are from imports, exports, domestics,
excise, foreign trade and passengers. The tax revenues are invested by the Department of the Treasury and reported
on Bureau of Public Debt’s ﬁnancial statements for Harbor Maintenance and Inland Waterways Trust Funds.
Harbor Maintenance reports an increase in investments of $400 million compared to the 4th Quarter, FY2004. The
increase in investments is due to an increase in volume for taxes on imports and foreign trade. South Dakota is
reporting an $11.9 million increase in investments for the 4th Quarter, FY 2005, compared to the 4th Quarter, FY
2004. The increase is due to the Department of the Treasury investing the funds collected in notes and bonds instead
of one-day certiﬁcates. Inland Waterways reports a decrease in investments of $27.9 million for the 4th Quarter,
FY 2005. The decrease is caused by budget authority transferred by the Department of the Treasury to the Inland
Waterways expenditure account. The funds are transferred from invested balances and are based upon weekly
estimates needed to cover expenditures. As funds are withdrawn, investment accounts decrease.

Line 1B. Accrued Interest: The increase of $2.3 million (17 percent) in accrued interest on investments is due to an
increase in investments through tax collections on imports and foreign trade from the Harbor Maintenance Trust
Funds. Harbor Maintenance has an increase of $2.4 million and South Dakota is reporting an increase of $478
thousand. The increase in the South Dakota account is due to a policy change where the Department of the Treasury
invests its funds in notes and bonds instead of one-day certiﬁcates. Inland Waterways is reporting a decrease of $571
thousand in their interest income receivable. Funds are withdrawn to transfer budget authority in order to cover
expenditures. Withdrawals result in fewer investments available to accrue interest in the Inland Waterways Trust
Fund.

Line 1C. Total Intragovernmental Securities: Total Intragovernmental Securities has a net increase of $386 million
(14 percent) in investments and interest, as of September 30, 2005, compared to September of 2004. The increase is a
result of tax revenues collected and invested until funds are needed for support of operations.

Note 5. Accounts Receivable
                                                                        2005                                   2004
                                                                    Allowance For
                                                Gross Amount         Estimated             Accounts          Accounts
 As of September 30                                  Due            Uncollectibles       Receivable, Net   Receivable, Net
 (Amounts in thousands)
 1. Intragovernmental Receivables               $     613,904                    N/A     $       613,904   $      520,123
 2. Nonfederal Receivables (From the Public)    $   1,756,698   $            (5,773)     $     1,750,925   $    1,906,435
 3. Total Accounts Receivable                   $   2,370,602   $            (5,773)     $     2,364,829   $    2,426,558


Allowance method:
The method of calculating the allowance for estimated uncollectibles is based on the cumulative balance of
delinquent public receivables aged in accordance with current USACE policy. The calculation is performed
automatically in the Corps of Engineers Financial Management System.

The Code of Federal Regulations (4CFR 101) prohibits the write-off of receivables from another federal agency. As
such, no allowance for estimated uncollectible amounts is recognized for these receivables.

Elimination Adjustments
The USACE was able to compare its accounts receivable balances with the accounts payable balances of its
intragovernmental trading partners. No material differences were identiﬁed.

Receivables with Other Federal Agencies (Non-Defense)
Receivables with Department of Homeland Security increased by $53.8 million as a result of reimbursable work
performed for Federal Emergency Management Agency (FEMA), primarily attributable to hurricane relief efforts.
Some activities previously identiﬁed under other agencies are now reported under Department of Homeland


                                                                                       FY 2005 Army Annual Financial Statement 267
Security. Receivables for amounts to be transferred from the Aquatic Resources Trust Fund (Department of Interior)
for currently invested balances to the USACE Coastal Wetlands Trust Fund is $16.3 million more than at this time
last year. This is for coastal wetland projects in the New Orleans District. Additionally, receivables for Inland
Waterways are $7.9 million more than this time last year because of amounts to be transferred to the USACE from
the Inland Waterways Trust Fund for inland waterway navigation projects.

Intragovernmental Receivables Over 180 Days
The amount of intragovernmental receivables over 180 days old is $37.6 million versus $9.6 million this time last
year, with $36.5 million belonging to FEMA.

Public Receivables Over 180 Days
The amount of public receivables over 180 days old is $78.6 million. Receivables with the public include $56.8
million in accrued interest on receivables over 180 days old associated with long-term water storage contracts. Of
the total receivables over 180 days old, $41.1 million is owed by the Commonwealth of Puerto Rico on a 50 year
contract for the Cerrillos Dam water storage.

Nonfederal Refunds Receivable
The amount of public receivables includes $1.2 million in refunds receivable, (95 percent) of which are current
refunds receivable largely attributed to refunds due for liquidated damages, refunds due from U.S Bank on credit
cards and condemnation cases.

Other Disclosures
Public receivables include $33.9 million in current and $835.9 million in long-term accounts receivable (principal)
associated with water storage contracts, $852.8 million in accrued interest receivable, and $2.4 million in penalties,
ﬁnes, and administrative fees receivable. Public receivables also include $1.3 million in long-term receivables for
hydraulic mining and $426.2 thousand due from the leasing of land acquired for ﬂood control purposes, and $24.0
million due from the D.C. Public Schools and Department of Housing. The remainder is for various other accounts
receivables.

The amount of Public Receivables on the Treasury Report on Receivables Due from the Public is $5.7 million greater
than the balance of public receivables reported on the balance sheet. The difference is attributed to the amount of
work-in-progress for $53.3 thousand less the allowance for estimated uncollectibles of $5.8 million not reported on
the Treasury Report on Receivables.

Total trust fund receivables for currently invested balances are $386.7 million. The breakdown between funds
follows. Trust fund receivables for currently invested balances include $368.8 million for the Coastal Wetlands
Restoration Trust Fund, and $17.9 million for the Inland Waterways Trust Fund. To accommodate cash
management practices, funds will remain invested until needed for disbursement. The budget authority is realized
and obligations may be incurred before the actual transfer of funds.


Fluctuations
Intragovernmental Receivables. The increase in intragovernmental receivables is attributed to the increase of $53.8
million in reimbursable work performed for FEMA in support of hurricane relief efforts in Florida. Receivables for
amounts to be transferred from the Aquatic Resources Trust Fund (Department of Interior) for currently invested
balances to the USACE are $16.3 million more than at this time last year. This is for coastal wetland projects in
the New Orleans District. Additionally, receivables for Inland Waterways are $7.9 million more than at this time
last year because of amounts to be transferred to the USACE from the Inland Waterways Trust Fund for inland
waterway navigation projects. Receivables for amounts to be transferred to the USACE from the Department of
Energy are $10.2 million more than at this time last year.




268 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Note 6. Other Assets
Not applicable.

Note 7. Cash and Other Monetary Assets
 As of September 30                                                  2005                  2004
 (Amounts in thousands)
 1. Cash                                                     $                 556   $              571
 2. Foreign Currency (non-purchased)                                           591                  468
 3. Total Cash, Foreign Currency, & Other Monetary Assets    $               1,147   $            1,039


Deﬁnitions
Cash – The total of cash resources under the control of the USACE, which includes coin, paper currency, purchased
foreign currency, negotiable instruments, and amounts on deposit in banks and other ﬁnancial institutions. Cash
available for agency use should include petty cash funds and cash held in revolving funds which will not be
transferred into the U.S. Government General Fund.

Foreign Currency – consists of the total U.S. dollar equivalent of purchased foreign currencies held in foreign
currency fund accounts. Non-purchased foreign currency is limited to the Treasury Index 97X7000 fund account
(formerly called FT accounts).

Other Monetary Assets - includes gold, special drawing rights, and U.S. Reserves in the International Monetary
Fund. This category is principally for use by the Department of the Treasury.

Other USACE Disclosures
Cash consists of $552 thousand in Disbursing Ofﬁcer’s Cash and $4 thousand in change funds for recreation cashiers.

The USACE translates foreign currency to U.S. dollars utilizing the Department of the Treasury Prevailing Rate of
Exchange. This rate is the most favorable rate that would legally be available to the U. S. Government’s acquisition
of foreign currency for its ofﬁcial disbursements and accommodation of exchange transactions. The USACE
maintains a balance of Japanese yen, Euro dollars, and Korean won for disbursements made at Japan, Europe, and
Far-East Districts.


Fluctuations
The increase in foreign currency is from the balances maintained in Japanese yen, Euro dollars, and Korean won,
which are used to pay local vendors and contractors. The increase, expressed in US dollars, is $29.6 thousand in
Japanese yen, $24 thousand in Euro dollars, and $69 thousand in Korean won. The ﬂuctuation is due to increased
volume of work. The balance ﬂuctuates daily as new funds are obtained and disbursements are made.


Note Reference
See Note Disclosure 1. J.- Signiﬁcant Accounting Policies, for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Foreign Currency.

Note 8. Direct Loan and/or Loan Guarantee Programs
Not applicable




                                                                               FY 2005 Army Annual Financial Statement 269
Note 9. Inventory and Related Property
  As of September 30                                              2005                         2004
  (Amounts in thousands)
  1.   Inventory, Net                                    $                  117,237    $                61,671
  2.   Operating Materials & Supplies, Net                                      147                        144
  3.   Stockpile Materials, Net                                                   0                          0
  4.   Total                                             $                  117,384    $                61,815


Inventory, Net
                                                                         2005                                    2004
                                                  Inventory,          Revaluation                                            Valuation
  As of September 30                             Gross Value           Allowance       Inventory, Net     Inventory, Net      Method
  (Amounts in thousands)
  1. Inventory Categories
     A. Available and Purchased for Resale      $        95,011   $             (15)           94,996    $          41,718      O
     B. Held for Repair                                       0                    0                0                    0      O
     C. Excess, Obsolete, and Unserviceable                   0                    0                0                    0      O
     D. Raw Materials                                         0                    0                0                    0      O
     E. Work in Process                                  22,241                    0           22,241               19,953      O
     F. Total                                   $       117,252   $             (15)          117,237    $          61,671


Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
NRV = Net Realizable Value
SP = Standard Price
O = Other
AC = Actual Cost
MAC = Moving Average Cost

Inventory may be sold to foreign, state and local governments, private parties, and contractors in accordance with
current policies and guidance or at the direction of the U.S. President.


Deﬁnitions
Inventory Available and Purchased for Resale includes consumable spare and repair parts and repairable items
owned and managed by the Department. Material available and purchased for resale includes material held due to
a managerial determination that it should be retained to support military or national contingencies.

Inventory Held for Repair is damaged inventory that requires repair to make suitable for sale. Many of the inventory
items are more economical to repair than to procure. In addition, because the Department often relies on weapon
systems and machinery no longer in production, the Department supports a process that encourages the repair and
rebuilding of certain items. This repair cycle is essential to maintaining a ready, mobile, and armed military force.

Excess, Obsolete, and Unserviceable inventory consists of scrap materials or items that cannot be economically
repaired and are awaiting disposal. Potentially reusable material, presented in previous years as “Excess, Obsolete
and Unserviceable,” is included in “Held for Use” or “Held for Repair” categories according to its condition.

Work-in-Process (WIP) balances include costs related to the production or servicing of items, including direct
material, direct labor, applied overhead, and other direct costs. WIP also includes the value of ﬁnished products
or completed services pending the submission of bills to the customer. The WIP designation may also be used to



270 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
accumulate the amount paid to a contractor under cost reimbursable contracts, including the amount withheld from
payment to ensure performance, and the amount paid to other Government plants for accrued costs of end-items of
material ordered, but not delivered.


General Composition of Inventory
Inventory is tangible personal property that is (1) held for sale, (2) in the process of production for sale, or (3) to be
consumed in the production of goods for sale or in the provision of services for a fee. “Inventory held for Current
Sale” is that expected to be sold in the normal course of operations. “Excess Inventory” is that which exceeds the
demand expected in the normal course of operations and which does not meet management’s criteria to be held in
reserve for future sale. “Obsolete Inventory” is that which no longer is needed due to changes in technology, laws,
customs or operations. “Unserviceable Inventory” is damaged inventory that is more economical to dispose of than
to repair. WIP includes associated labor, applied overhead and supplies used in the delivery of services.

The inventory data reported on the ﬁnancial statements is derived from the Corps of Engineers Financial
Management System (CEFMS). CEFMS is a comprehensive system that is designed to capture and maintain
historical cost data necessary to fully comply with the Statement of Federal Financial Accounting Standards No. 3,
“Accounting for Inventory and Related Property.”

The inventory valuation method is based on a moving weighted average based on actual cost divided by quantity.
A perpetual record of inventory is maintained to allow for recomputation of the average unit cost as new receipts are
recorded.

For regulatory discussion on Inventory, Net, see Department of Defense Federal Management Regulation, Volume
6B, Chapter 10, paragraph 1011.


Fluctuations
Available and Purchased for Resale. Available and Purchased for Resale increased $53.3 million (127.7 percent).
The increase is attributed to corrections made to the value of the Warehouse Stock Found on Works account in the
amount of $47.1 million. As a result of CEFMS incorrect general ledger correlations, this account had previously
been understated. The Inventory Allowance account was incorrect because Found on works items were increasing
the Inventory account and at the same time begin offset in the Allowance account. This resulted in no increase to
the overall inventory. Found on Works items are now recorded as a gain, which results in an increase to the overall
inventory. The system correction was made in 2nd Quarter FY 2005. The increase is also attributed to a $6.2 million
transfer of materials for river bank stabilization revetment projects on the Mississippi River by Memphis District
from WIP to Available and Purchased for Resale.

Work-in-Process. Work-in-Process increased $2.3 million (11 percent). The net increase is due to an increase of $8.5
million at Vicksburg District for casting concrete mattresses and a decrease of $6.2 million at Memphis District that
was transferred to Available and Purchased for Resale.


Note Reference
See Note Disclosure 1. M. - Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and Department of Defense (DoD) policies governing Inventory and Related Property.




                                                                                  FY 2005 Army Annual Financial Statement 271
Operating Materials and Supplies, Net
                                                                   2005                           2004
                                                  OM&S          Revaluation                                    Valuation
  As of September 30                            Gross Value     Allowance      OM&S, Net      OM&S, Net         Method
  (Amounts in thousands)
  1. OM&S Categories
     A. Held for Use                            $        147   $          0   $         147   $          144      O
     B. Held for Repair                                    0              0               0                0      O
     C. Excess, Obsolete, and Unserviceable                0              0               0                0      O
     D. Total                                   $        147   $          0   $         147   $          144


Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
NRV = Net Realizable Value
SP = Standard Price
O = Other
AC = Actual Cost

There are no restrictions on operating materials and supplies (OM&S). The valuation method is based on a moving
weighted average based on actual cost divided by quantity.

For regulatory discussion on OM&S, see Department of Defense Financial Management Regulation, Volume 6B,
Chapter 10, paragraph 101108.


Fluctuations
None.


Note Reference
See Note Disclosure 1. M. - Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Inventory and Related Property.


Stockpile Materials, Net
Not applicable.




272 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Note 10. General PP&E, Net
                                                                                                  2005                                                   2004
                                                           Depreciation/                                       (Accumulated
                                                           Amortization     Service         Acquisition        Depreciation/         Net Book          Prior FY Net
    As of September 30                                       Method          Life             Value            Amortization)          Value            Book Value
    (Amounts in thousands)
    1. Major Asset Classes
        A. Land                                                N/A             N/A      $      8,900,815                  N/A    $     8,900,815   $        8,583,779
        B. Buildings, Structures, and Facilities               S/L           20 - 100         27,124,179   $     (12,608,026)         14,516,153           16,128,806
        C. Leasehold Improvements                              S/L         lease term             26,719             (14,158)             12,561               14,800
        D. Software                                            S/L            2-5                 82,711             (45,848)             36,863               26,466
        E. General Equipment                                   S/L           5 - 100           1,263,312            (619,736)            643,576              632,840
        F. Military Equipment                                  S/L           Various                   0                     0                 0                    0
        G. Assets Under Capital Lease                          S/L         lease term                  0                     0                 0                    0
        H. Construction-in- Progress                           N/A             N/A             2,642,702                  N/A          2,642,702            3,018,921
        I. Other                                                                                  27,432                   (0)            27,432               42,905
    2. Total General PP&E                                                               $     40,067,870   $     (13,287,768)    $    26,780,102   $       28,448,517
1
    Note 15 for additional information on Capital Leases


Legend for Valuation Methods:
S/L = Straight Line
N/A = Not Applicable


General PP&E – Signiﬁcant Amount of Assets
A cumulative total of $2.6 billion of intangible assets has been reclassiﬁed as land. These costs increased by
$315 million in FY 2005. These assets are comprised of historical costs associated with the acquisition of land in
conjunction with power projects. Costs were originally classiﬁed as intangible assets in order to comply with
Federal Energy Regulatory Commission (FERC) guidelines on cost recovery. However, the decision was made that
these costs were improperly classiﬁed in accordance with the Statement of Federal Financial Accounting Standards
(SFFAS) No. 6, “Accounting for Property, Plant and Equipment,” as they were part of the initial acquisitions cost of
the land and should have been classiﬁed as such. We have also made a reversing entry for current year amortization
in our statements to properly reﬂect the effect of the transfer into land (category 00) where accumulated depreciation
is inappropriate. Supporting documentation for $17.3 billion of the $26.8 billion recorded in the Property, Plant,
and Equipment (PP&E) line is being supported by alternate methods as agreed upon by the Inspector General,
Department of Defense and the U.S. Army Corps of Engineers (USACE) in a June 9, 2004 Memorandum of
Agreement.

The service life for the USACE’s multiple purpose project assets is derived from guidance provided by the FERC
based on industry standards. The Power Marketing Administration (PMA) related assets make up $7.6 billion of the
book value of the USACE’s PP&E.

The USACE currently operates and maintains 75 hydroelectric power plants, generating about 24 percent of
America’s hydroelectric power. All power generated by these 75 hydroelectric power plants is transmitted to PMA
for distribution to customers across the region. Each ﬁscal year, the USACE prepares a “Statement of Expenses”
broken down by plant, district, and region and provides this information to the PMAs to assist in their Power
Repayment Study. The PMAs then collect power receipts (revenues) from customers and return the receipts to the
Department of the Treasury.

The USACE’s policy requires all capital improvements to real property, occupied but not owned by the USACE,
with a useful life of two or more years and cost of $25 thousand to be capitalized as leasehold improvements.

In the USACE’s FY 2005 Construction-in-Progress (CIP) account, $151 million of the $2.6 billion (5 percent) is
attributable to a dormant project formally known as the “Elk Creek Lake Project” located at the U. S. Army Corps
of Engineers Portland District. The project, which was authorized by the 1962 Flood Control Act, was originally

                                                                                                                      FY 2005 Army Annual Financial Statement 273
authorized to perform the purpose of Flood Control. In 1971, construction began on the project but after completing
only 33 percent of its design height, the project was shut down due to a court-ordered injunction. Additional
analysis under National Environmental Policy Act (NEPA) is required to remove the injunction. To date, the
environmental concerns have not been resolved and the project is sitting in a hold status until such time these issues
are resolved. Therefore, the USACE will continue to carry the construction costs of the “Elk Creek Lake Project” in
the CIP account until a ﬁnal decision is made concerning the outcome of the project.

Due to the USACE’s signiﬁcant involvement in debris removal, ﬂood control and repair work on the breached
levees in the Hurricane Katrina affected areas, effort has not been focused at this time on identifying the potential
losses to the USACE assets or liabilities associated with environmental damages. Many areas where the potentially
affected assets exist are still inaccessible due to ﬂooding. The USACE plans to perform a full assessment of potential
damages and liabilities in FY 2006.

For regulatory discussion on General PP&E, Net, see Department of Defense Financial Management Regulation,
Volume 6B, Chapter 10, paragraph 1012.


Fluctuations
Line1A – The USACE recorded an increase of $315 million in intangible assets reclassiﬁed to land associated with the
power projects in FY 2005 which accounts for most of the $317 million (3 percent) variance.

Line 1B – The decrease of $1.6 billion (10 percent) in Buildings and Structure is partly due to the result of ongoing
corrective actions by the USACE. A large portion of river bank stabilization assets should have been expensed and
the USACE has taken appropriate actions to remove these assets. Bank stabilization expenses totaled $59 million for
FY 2005. Other major factors include the retirement of channels, canals, and various assets at Vicksburg District for
$635 million and various assets transferred to retirements at Wilmington District for $94 million; Memphis District
for $80 million; New York District for $58 million; Seattle District for $37 million; Louisville District for $47 million;
Nashville District for $44 million; Mobile District for $45 million; Savannah District for $43 million; and Ft. Worth
District for $57 million.

Line 1C – The decrease of $2.2 million (15 percent) in net book value of Leasehold Improvements is due to
depreciation expense for Government Accountability Ofﬁce (GAO) Building Construction at Humphrey’s
Engineering Center Support Activity (HECSA).

Line 1D – The majority of the increase of $10.4 million (39 percent) in net book value of software is due to the
acquisition of P2 Project Management System for $15.7 million at Headquarters USACE (HQUSACE) and the normal
depreciation expense of $5 million for software at HECSA and HQUSACE.

Line 1H - The decrease of $376 million (12 percent) in CIP is due to a change in accounting policy in FY 2004
requiring the write-off of non-federal cost share projects as costs are incurred. The HQUSACE issued policy to
reﬂect the proper accounting treatment of non-Federal CIP for cost shared projects. The proper accounting treatment
is to remove the non-Federal portion from the CIP, based on SFFAS No 8, Supplementary Stewardship Reporting.

In the past, costs for non-federal cost share projects were capitalized and then transferred to the public at completion
by recording a loss.

Line 1I - Other: Other assets consist of assets awaiting disposal. The decrease of $15 million (36 percent) is due to
the disposal of retired assets at various districts.


Note Reference
See Note Disclosure 1.O. - Signiﬁcant Accounting Policies, for additional discussion on ﬁnancial reporting
requirements and DoD policies governing General Property, Plant and Equipment.



274 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Assets Under Capital Lease
Not applicable.

Note 11. Liabilities Not Covered by Budgetary Resources
 As of September 30                                                    2005                       2004
 (Amounts in thousands)
 1. Intragovernmental Liabilities
    A. Accounts Payable                                       $                       0   $                    0
    B. Debt                                                                      14,251                   15,000
    C. Other                                                                  1,930,884                  262,233
    D. Total Intragovernmental Liabilities                    $               1,945,135   $              277,233
 2. Nonfederal Liabilities
    A. Accounts Payable                                       $                      0    $                    0
    B. Military Retirement Benefits and
                                                                                     0                         0
        Other Employment-Related Actuarial Liabilities
    C. Environmental Liabilities                                                529,617                        0
    D. Loan Guarantee Liability                                                       0                        0
    E. Other Liabilities                                                         26,055                   50,353
    F. Total Nonfederal Liabilities                           $                 555,672   $               50,353
 3. Total Liabilities Not Covered by Budgetary Resources      $               2,500,807   $              327,586
 4. Total Liabilities Covered by Budgetary Resources          $               1,224,297   $            3,066,286
 5. Total Liabilities                                         $               3,725,104   $            3,393,872


Deﬁnitions
Liabilities Not Covered by Budgetary Resources
Liabilities that are not considered covered by realized budgetary resources as of the Balance Sheet date. Budgetary
resources encompass the following:

    New budget authority.
    Spending authority from offsetting collections (credited to an appropriation or fund account).
    Recoveries of unexpired budget authority through downward adjustments of prior-year obligations.
    Unobligated balances of budgetary resources at the beginning of the year or net transfers of prior-year balances
    during the year.
    Borrowing authority or permanent indeﬁnite appropriations, which have been enacted and signed into law as
    of the Balance Sheet date, provided that the resources may be apportioned by the Ofﬁce of Management and
    Budget without further action by the Congress or without a contingency ﬁrst having to be met.

Intragovernmental Liabilities – Other includes Workmen’s Compensation liabilities under the Federal Employees
Compensation Act (FECA) totaling $46.9 million, offsetting custodial liability to accounts receivable totaling $1.7
billion, and Judgment Fund liabilities-Contract Disputes Act (CDA) totaling $162.6 million. The custodial liability
is for amounts that will be deposited in the General Fund of the Department of the Treasury when collected and are
primarily related to water storage contracts.

The Actuarial Liability for FECA is not included. The Department of Labor is unable to furnish a ﬁgure for FECA
actuarial liability speciﬁc to the United States Army Corps of Engineers (USACE) Civil Works.

Non-federal Liabilities – Other includes $26 million for contracts with continuation clauses.

Total Liabilities Covered by Budgetary Resources: Intragovernmental - Accounts Payable, $91.2 million; and Other


                                                                                  FY 2005 Army Annual Financial Statement 275
(FECA, Unearned Revenue-Advances, Deposit Fund and Clearing Accounts), $26 million. Non-federal – Accounts
Payable, $532 million; and Other (Contract Holdbacks, FECA, Unearned Revenue-Advances, Deposit Fund, Clearing
Account and Contingent Liabilities resulting from casualty losses), $574.8 million.


Fluctuations
Intragovernmental Liabilities - Other: This amount increased $1.7 billion (636 percent). Uncollected Custodial
Liability increased $1.6 billion because it is reported with Liabilities Not Covered by Budgetary Resources in the
4th Quarter, FY 2005. It was reported with Liabilities Covered by Budgetary Resources in the 4th Quarter, FY 2004.
Prior to the 1st Quarter, FY 2005, the USACE could not use US Standard General Ledger (USSGL) 2980 and recorded
the offsetting custodial liability to accounts receivable in USSGL 2990. DFAS-Arlington provided guidance to the
USACE to use USSGL 2980 instead of USSGL 2990 for the 1st Quarter, FY 2005 reporting period, which results in the
liability being properly reported as Not Covered by Budgetary Resources. Also, there was an increase of $9.3 million
in Unfunded Judgment Fund liability under the Contract Disputes Act and an increase of $3.1 million in Unfunded
FECA liability.

Non-federal Liabilities – Environmental Liabilities: The increase of $529.6 million (100 percent) is attributed to the
recognition of future contingent liabilities for the Formerly Utilized Sites Remedial Action Program. The liability
amounts were not known prior to the 4th Quarter, FY 2005.

Non-federal Liabilities – Other Liabilities: The decrease of $24.3 million (48 percent) is attributed to unfunded
liabilities for contracts with continuation clauses. The amount for the unfunded liability is recorded in the general
ledger when a receiving report is entered in the Corps of Engineers Financial Management System (CEFMS),
but the obligation is not recorded at this time. When funds become available, the actual receiving report and
obligation are entered in the CEFMS and the initial receiving report with no obligation is reversed. More contracts
with continuation clauses were recorded in the 4th Quarter, FY 2004 than the 4th Quarter, FY 2005. The USACE
implemented a policy change this year requiring approval from Headquarters before awarding a contract with
continuation clauses which resulted in a decrease in these contracts and related liability of $24.3 million.


Note Reference
For additional line item discussion, see:
Note 8, Direct Loans and/or Loan Guarantee Programs
Note 12, Accounts Payable
Note 13, Debt
Note 14, Environmental Liabilities and Disposal Liabilities
Note 15, Other Liabilities
Note 16, Commitments and Contingencies
Note 17, Military Retirement Beneﬁts and Other Employment-Related Actuarial Liabilities

Note 12. Accounts Payable
                                                                                2005                                  2004
                                                         Accounts      Interest, Penalties, and
  As of September 30                                     Payable         Administrative Fees          Total           Total
  (Amounts in thousands)
  1. Intragovernmental Payables                      $       87,230    $                   N/A    $      87,230   $     103,498
  2. Non-Federal Payables (to the Public)                   535,882                          0          535,882         570,255
  3. Total                                           $      623,112    $                     0    $     623,112   $     673,753


Other Information


276 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Intragovernmental Accounts Payable consists of amounts owed to other federal agencies for goods or services
ordered and received, but not yet paid. Interest, penalties and administrative fees are not applicable to
intragovernmental payables.

The United States Army Corps of Engineers (USACE) has no known delinquent accounts payable; therefore, no
amount is reported for interest, penalties and administrative fees. For the period ending September 30, 2005, the
USACE paid $855.8 thousand in interest from Civil Works appropriations on payments subject to the Prompt
Payment Act.

The USACE was able to compare its accounts payable balance with the accounts receivable balances of its intra-
departmental (Department of Defense) trading partners. No material reconciling differences were identiﬁed.


Fluctuations
Intragovernmental Payables: This amount decreased $16.3 million (16 percent). Payables with the General Services
Administration (GSA) decreased $13.4 million as a result of more efﬁcient billing by the GSA. Payables with the
Department of Commerce National Marine Fisheries decreased $5.5 million primarily due to a decrease in the
USACE work in the conservation of ﬁsheries and waters.


Note Reference:
See Note Disclosure 1.G. - Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing accounting for Intragovernmental Activities.

Note 13. Debt
 As of September 30                                                           2005                                   2004
                                                      Beginning               Net                 Ending            Ending
 (Amounts in thousands)
                                                       Balance              Borrowings            Balance           Balance
 1. Agency Debt
    A. Debt to the Treasury                      $          15,367    $               (767)   $       14,600   $         15,367
    B. Debt to the Federal Financing Bank                        0                        0                0                  0
    C. Total Agency Debt                         $          15,367    $              ( 767)   $       14,600   $         15,367
 2. Total Debt                                   $          15,367    $              ( 767)   $       14,600   $         15,367


During ﬁscal years 1997, 1998, and 1999, the USACE executed three promissory notes totaling $75 million with the
Department of the Treasury. Funds provided were used for capital improvements to the Washington Aqueduct.
Arlington County, the city of Falls Church, Virginia, and the District of Columbia provide funding to repay the
debt. The District of Columbia repaid the remaining portion of their debt in FY 2004. Cumulative actual drawdown
of the funds has been made from the Department of the Treasury in the amount of $74.9 million. There were no
drawdowns of funds from the Department of the Treasury for the 4th Quarter, FY 2005.

 Accrued Interest Payable
 as of September 30, 2005   +   Principle Repayments FY05     =      Net Borrowings FY05
       $19 thousand                   $748 thousand                       $767 thousand

Total cumulative principal repayments as of September 30, 2005, are $61.8 million.

The difference between the FY 2004 and FY 2005 ending balance represents FY 2005’s principle repayment plus the
accrued interest payable amount as of September 30, 2005.




                                                                                                  FY 2005 Army Annual Financial Statement 277
Note Reference
See Note Disclosure 1.G., – Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Accounting for Intragovernmental Activities, Public Debt.

See Note 20 for further discussion on the Washington Aqueduct project.

Note 14. Environmental Liabilities and Disposal Liabilities
                                                                                          2005                                   2004
 As of September 30                                               Current Liability   Noncurrent Liability       Total           Total
  (Amounts in thousands)
  1. Environmental Liabilities – Non Federal
   A. Accrued Environmental Restoration (DERP funded) Costs:
    1. Active Installations--Environmental Restoration (ER)       $               0   $                  0   $           0   $           0
    2. Active Installations--ER for Closed Ranges                                 0                      0               0               0
    3. Formerly Used Defense Sites (FUDS) -- ER                                   0                      0               0               0
    4. FUDS--ER for Transferred Ranges                                            0                      0               0               0
   B. Other Accrued Environmental Costs (Non-DERP funds)
    1. Active Installations--Environmental Corrective Action                      0                      0              0                0
    2. Active Installations--Environmental Closure Requirements                   0                      0              0                0
    3. Active Installations--Environ.Response at Active Ranges                    0                      0              0                0
    4. Other                                                                      0                529,617        529,617                0
   C. Base Realignment and Closure (BRAC)
    1. BRAC Installations--Environmental Restoration (ER)                         0                      0               0               0
    2. BRAC Installations--ER for Transferring Ranges                             0                      0               0               0
    3. BRAC Installations--Environmental Corrective Action                        0                      0               0               0
    4. Other                                                                      0                      0               0               0
   D. Environmental Disposal for Weapons Systems Programs
    1. Nuclear Powered Aircraft Carriers                                          0                      0              0                0
    2. Nuclear Powered Submarines                                                 0                      0              0                0
    3. Other Nuclear Powered Ships                                                0                      0              0                0
    4. Other National Defense Weapons Systems                                     0                      0              0                0
    5. Chemical Weapons Disposal Program                                          0                      0              0                0
    6. Other                                                                      0                      0              0                0
  2. Total Environmental Liabilities:                             $               0   $            529,617   $    529,617    $           0



The USACE is responsible for the Formerly Utilized Sites Remedial Action Program (FUSRAP), which was
established to respond to radiological contamination from early U.S. atomic energy and weapons program. This
program is funded through Civil Works appropriations.

Future liabilities for the FUSRAP Program are $529.6 million, where studies and ﬁnal Records of Decision
documenting the cleanup requirements have been completed at the following sites: St. Louis Downtown Site
Accessible Soils, St. Louis Airport Site, Latty Avenue Site, St. Louis Airport Vicinity Properties Site, Maywood Site
Soils, Middlesex Sampling Plant Soils, Shpack Landﬁll Site, W. R. Grace Building 23 Site, Luckey Site, and the Linde
Air Products Site.

The USACE recognizes future liabilities related to this program but the liability amounts are currently unknown.

The project sites are: St. Louis Downtown Site Inaccessible Soils, Iowa Army Ammunition Plant FUSRAP site,
Colonie Site, Maywood Site Groundwater, Middlesex Sampling Plant Site Groundwater, Combustion Engineering
Site, DuPont Chambers Works Site, W. R. Grace Radioactive Waste Disposal Area Site, Seaway Industrial Park
Site, Niagara Falls Storage Site, Shallow Land Disposal Area Site, Former Harshaw Chemical Company Site, Guterl
Specialty Steel Site, and Painesville Site.

Due to the USACE’s signiﬁcant involvement in debris removal, ﬂood control and repair work on the breached
levees in the Hurricane Katrina affected areas, effort has not been focused at this time on identifying the potential
losses to the USACE assets or liabilities associated with environmental damages. Many areas where the potentially


278 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
affected assets exist are still inaccessible due to ﬂooding. The USACE plans to perform a full assessment of potential
damages and liabilities in FY 2006.


Fluctuations
Line 1B4. Other Accrued Environmental Costs (Non-DERP funds) increased by $529.6 million (100 percent) due to
the fact that the amount of liability for future contingent liabilities for the Formerly Utilized Sites Remedial Action
Program was unknown until 4th quarter, FY 2005.

Note 15. Other Liabilities
                                                                                     2005                                2004
                                                              Current             Noncurrent
 As of September 30                                           Liability            Liability           Total             Total
 (Amounts in thousands)
 1. Intragovernmental
    A. Advances from Others                               $        11,247     $                0   $       11,247    $       10,853
    B. Deposit Funds and Suspense Account Liabilities                 594                     0               594               472
    C. Disbursing Officer Cash                                        552                     0               552               567
    D. Judgment Fund Liabilities                                  162,645                     0           162,645           153,309
    E. FECA Reimbursement to the Department of Labor               20,172                26,679            46,851            43,745
    F. Other Liabilities                                          133,570             1,601,436         1,735,006         1,849,681
    G. Total Intragovernmental Other Liabilities          $       328,780     $       1,628,115    $    1,956,895    $    2,058,627
 (Amounts in thousands)
 2. Nonfederal
    A. Accrued Funded Payroll and Benefits                $       376,600     $                0   $      376,600    $      358,538
    B. Advances from Others                                       104,775                      0          104,775           139,121
    C. Deferred Credits                                                  0                     0                 0                0
    D. Deposit Funds and Suspense Accounts                         (2,742)                     0           (2,742)            9,272
    E. Temporary Early Retirement Authority                              0                     0                 0                0
    F. Nonenvironmental Disposal Liabilities
        (1) Military Equipment (Nonnuclear)                               0                    0                0                0
        (2) Excess/Obsolete Structures                                    0                    0                0                0
        (3) Conventional Munitions Disposal                               0                    0                0                0
        (4) Other                                                         0                    0                0                0
    G. Accrued Unfunded Annual Leave                                      0                    0                0                0
    H. Capital Lease Liability                                          0                      0                0                 0
    I. Other Liabilities                                          122,247                      0          122,247           139,194
    J. Total Nonfederal Other Liabilities                 $       600,880     $                0   $      600,880    $      646,125
 3. Total Other Liabilities                               $       929,660     $       1,628,115    $    2,557,775    $    2,704,752


Line 1.D. The Corps of Engineers Civil Works Directorate has recognized 36 unfunded liabilities arising from
Judgment Fund Contract Disputes Act settlements in accordance with the Interpretation of Federal Financial
Accounting Standards No. 2, Accounting for Treasury Judgment Fund Transactions. Claims totaling $71.4 million
date back to FY 2001 to FY 1992. Claims totaling $32.3 million were incurred from FY 1995 through FY 1997.
The remaining claims for $58.9 million were incurred during FY 2000 and thereafter. The USACE cannot fund
the Judgment Fund Contract Disputes Act claims since it is funded by project and funding does not include an
allowance for this type of claim. Therefore, the USACE sought a supplemental appropriation in FY 2000 which was
not approved. The USACE has again requested funds in the FY 2006 Civil Works budget to pay the outstanding
claims. If the entire amount is not approved, the USACE plans to pay the oldest claims ﬁrst and work forward until
all claims are paid.




                                                                                        FY 2005 Army Annual Financial Statement 279
Line 1.E. Federal Employees’ Workman’s Compensation costs reﬂect cost incurred for income lost and medical
costs for federal civilian employees injured on the job, employees who have incurred a work-related occupational
disease, and beneﬁciaries of employees whose death is attributable to a job-related injury or occupational disease.
The costs are paid as authorized in the Federal Employees’ Compensation Act (FECA) by the Department of
Labor. The USACE reimburses the Department of Labor for the costs. The USACE records a liability until the
reimbursement to the Department of Labor is accomplished. Fiscal year 2006 and beyond costs of $26.7 million are
reﬂected as a noncurrent liability.


Other Liabilities
Intragovernmental
Line 1.F. Intragovernmental other liabilities (current) includes $13.6 million for employer contributions and
payroll taxes and $120 million to offset interest and accounts receivables which, when collected, will be returned to
Treasury. Intragovernmental other liabilities (noncurrent) represent future revenue of $1.6 billion from long-term
water storage contracts and $1.3 million from hydraulic mining contracts.

Non-federal
Line 2.I. Non-federal other liabilities include $39.6 million to fund contingent liabilities arising from casualty
losses. The amount also includes $56.6 million in contract holdbacks on construction-in-progress payments and $26
million for unfunded liabilities for contracts with continuation clauses. The continuation clause allows contractors
to continue work without funds being obligated. The amount of the unfunded payable is recorded in the general
ledger when a receiving report is entered in the Corps of Engineers Financial Management System (CEFMS), but
no obligation is recorded at this time. When funds become available, the actual receiving report and obligation are
entered in CEFMS and the initial receiving report with no obligation is reversed.

Intragovernmental Reconciliations for Fiduciary Transactions
With respect to the major ﬁduciary balances with the Ofﬁce of Personnel Management (OPM) and the Department of
Labor (DOL), the USACE was able to reconcile with the OPM and the DOL. There were no variances.


Fluctuations
Line 1.B. Deposit Funds and Suspense Accounts increased this year by $122 thousand (26 percent) due to an
increase in foreign currency.

Line 2.B. Non-federal Advances from Others decreased by $34.3 million (25 percent) due to completion of work on
projects related to the advances and, in some cases, the return of funds to the customer generally due to a change in
the original project plans. Signiﬁcant reductions in advances occurred in the Kansas City, Sacramento and Honolulu
Districts as work was completed on projects. The New York and Honolulu Districts returned $12.1 million to
customers.

Line 2.D. Deposit Funds and Suspense Accounts decreased by $12 million (130 percent) due to the reporting of
unposted intergovernmental collections and disbursements (net) of ($12.2) million in a budget clearing suspense
account in FY 2005. The balance of unposted intragovernmental disbursements and collections (net) of ($25.6)
million was reported as Disbursements in Transit in FY 2004. Unposted disbursements exceeded collections
resulting in an abnormal balance for this budget clearing suspense account in FY 2005.

Line 2.I. Other Non-federal liabilities decreased by $16.9 million (12 percent) due to two factors. There was a
decrease of $24.3 million in the liability recorded for contracts with continuation clauses. The USACE implemented
a policy change this year requiring approval from Headquarters before awarding a contract with continuation
clauses which resulted in a decrease in these contracts and related liability. There was also an increase of $7.8
million in contract holdbacks in the Flood Control and Coastal Emergencies appropriation, the Construction General
appropriation, and the Rivers and Harbors Contributed and Advance Funds.




280 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Note Reference
See Note Disclosure 1.S.-Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Contingencies and Other Liabilities.


Capital Lease Liability
Not applicable.

Note 16. Commitments and Contingencies

Disclosures Related to Commitments and Contingencies:
Proprietary contingencies are commonly referred to as contingent liabilities. The USACE has 81 cases pending
litigation, 66 claims pending in contract claims and appeals, and 341 tort claims in which the relief requested is $2.7
million or more. The USACE Legal Counsel is of the opinion that it is “remote” that the outcome of the litigation
will result in a loss.

Since these cases fail to satisfy the criteria to record a contingent liability in accordance with the Statement of Federal
Financial Accounting Standard No. 5, Accounting for Liabilities of the Federal Government, no amount is included
in our ﬁnancial statements.


Note Reference
See Note Disclosure 1.S. - Signiﬁcant Accounting Policies for additional discussion on ﬁnancial reporting
requirements and DoD policies governing Contingencies and Other Liabilities.

Note 17. Military Retirement Beneﬁts and Other Employment Related Actuarial
         Liabilities
Not applicable.

Note 18. Disclosures Related to the Statement of Net Cost

Consolidated Statement of Net Cost
The Consolidated Statement of Net Cost (SoNC) in the federal government is unique because its principles are
driven on understanding the net cost of programs and/or organizations that the federal government supports
through appropriations or other means. This statement provides gross and net cost information that can be related
to the amount of output or outcome for a given program and/or organization administered by a responsible
reporting entity.

The amounts presented in the SoNC are based on obligations, disbursements, and accruals. The United States Army
Corps of Engineers (USACE) records transactions on an accrual basis as required by generally accepted accounting
principles.


Fluctuations
Intragovernmental Gross Costs: The increase of $358 million (35 percent) includes $288.5 million in activity with
the Department of the Army. The activity was primarily in the USACE Gulf Region Division for the Iraqi relief and
reconstruction effort in the Persian Gulf area. The remaining variance includes increases in judgment fund claims,
employee beneﬁt expense and imputed costs for health beneﬁts, life insurance and retirement.




                                                                                  FY 2005 Army Annual Financial Statement 281
Intragovernmental Earned Revenue: This amount increased $918 million (74 percent). Reimbursable work
performed for the Federal Emergency Management Agency (FEMA) on the hurricane relief effort in Florida totaled
$740.7 million. The USACE received $848.0 million in funding authority from FEMA to perform numerous missions
to support those affected by the four hurricanes that struck Florida in the fall of 2004. Work continues on that effort.
There was an increase of $241.7 million for reimbursable labor cost for work performed in Iraq for the Department of
the Army.

Earned Revenue From the Public: This amount increased $60.8 million (17 percent). An increase of $92.4 million
is due to programming changes made in the Corps of Engineers Financial Management System (CEFMS) general
ledger correlations for the Revolving Fund. Public revenue was understated in the 4th Quarter, FY 2004 because
the CEFMS did not properly update all relevant general ledger accounts. There was a decrease of $34.2 million
attributed to the decrease in reimbursable activity for the District of Columbia (DC) Public Schools.

Note 19. Disclosures Related to the Statement of Changes in Net Position
                                                                      2005               2005               2004                   2004
                                                                    Cumulative                            Cumulative
                                                                    Results of        Unexpended          Results of            Unexpended
  As of September 30                                                Operations       Appropriations       Operations           Appropriations
  (Amounts in thousands)
 1.    Prior Period Adjustments Increases (Decreases)
       to Net Position
       A. Changes in Accounting Standards                       $                0   $            0   $                0   $                    0
       B. Errors and Omissions in Prior Year Accounting                          0                0                    0                        0
            Reports
       C. Other Prior Period Adjustments                                         0                0                    0                        0
       D. Total Prior Period Adjustments                        $                0   $            0   $                0   $                    0
  2.   Imputed Financing
       A. Civilian CSRS/FERS Retirement                         $         97,212     $            0   $        102,108     $                    0
       B. Civilian Health                                                134,320                  0            125,990                          0
       C. Civilian Life Insurance                                            397                  0                392                          0
       D. Judgment Fund                                                    9,652                  0             11,058                          0
       E. Intra-Entity                                                         0                  0                  0                          0
       F. Total Imputed Financing                               $        241,581     $            0   $        239,548     $                    0


Other USACE Disclosures
Taxes and Other Nonexchange Revenue include $1.1 billion in tax collections and $84.7 million in interest income
deposited into the trust fund accounts. Excise taxes totaling $91.3 million have been deposited into the Inland
Waterways Trust Fund. Taxes totaling $1 billion have been collected and deposited into the Harbor Maintenance
Trust Fund. These taxes are derived from:

Tax on Exports              $18.2 thousand
Tax on Foreign Trade        $138 million
Tax on Imports              $842 million
Tax on Passengers           $8.4 million
Tax on Domestics            $60 million

Transfers-in include: $10 million transferred into the South Dakota Terrestrial Wildlife Habitat Restoration Trust
Fund; $687.2 million in budget authority transferred into the Harbor Maintenance Trust Fund from the Department
of the Treasury; $58 million in budget authority transferred into the Coastal Wetlands Restoration Trust Fund from
the Aquatic Resource Trust Fund; and $136.3 million in budget authority transferred into the Inland Waterways
Trust Fund from the Department of the Treasury.


282 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Transfers-out to other governmental agencies total $19 million. This includes $15.7 million transferred to the Saint
Lawrence Seaway Development Corporation from the Harbor Maintenance Trust Fund. Additional transfers
from the General Fund were transferred as follows: $20 thousand was transferred to the U.S. Department of
Interior, Bureau of Indian Affairs; $3.2 million was transferred to the U.S. Fish and Wildlife; and $7.7 thousand was
transferred to the U.S. Geological Survey.

Transfers-out to Non-USACE total $34.2 thousand, which is a transfer to the 425th Engineering Detachment.


Fluctuations
Footnotes:

Line 2D. Imputed Financing – Judgment Fund: The amount of Judgment Fund claims, paid by the Department of
the Treasury, decreased by $1.4 million (13 percent) for the 4th Quarter, FY 2005.


Statement of Changes in Net Position
Cumulative Results of Operations:
Line 4E. Budgetary Financing Sources – Nonexchange revenue: The overall $198.2 million (14 percent) increase
in Budgetary Financing Sources – nonexchange revenue is due to ﬂuctuation in taxes for Harbor Maintenance and
Inland Waterways Trust Funds and interest for Harbor Maintenance, Inland Waterways, and South Dakota Trust
Funds. The USACE is the lead agency for reporting Inland Waterways, Harbor Maintenance, and South Dakota
Trust Funds. Interest on investments (cash) increased 4th Quarter, FY 2005, by a total of $24.4 million, for all three
trust funds. Tax revenue collected from Harbor Maintenance and Inland Waterways Trust Funds has increased by
$178.6 million. South Dakota does not have tax revenue.

Line 4H. Budgetary Financing Sources – Other budgetary ﬁnancing sources: The decrease of $4.2 million (107
percent) in other budgetary ﬁnancing sources is due to a change in reporting procedures for General, Revolving, and
Transfer Funds. General and Revolving Funds now record USSGL accounts 7190 and 7290, Other Gains and Losses,
on the Statement of Financing instead of the Statement of Changes in Net Position. Also, transfer appropriations are
no longer treated as appropriations received. They are treated as transfers.

Line 5A. Other Financing Sources – Donations and forfeitures of property: There is an overall $1.1 million (243
percent) increase in donations and forfeitures of property for the 4th Quarter, FY 2005. General Funds has the
largest increase, with the Wilmington District reporting a $664 thousand increase in donated land tracts and a $259
thousand increase in donated property with the Omaha District. The increase was caused by tracts of land which
were acquired in prior years by the donation method and reﬂected nominal or zero costs. The USACE obtained fair
market value for the donated land tracts and updated its ﬁnancial records for the 4th Quarter, 2005.

Line 5B. Other Financing Sources – Transfers-in/out without reimbursement: Transfers-in/out without
reimbursement has a $1.4 million (87 percent) difference between the 4th Quarter, FY 2005, and the 4th Quarter,
FY 2004. This is due primarily to the fact that there have been no material transfers-in this ﬁscal year. Last year
the USACE received a transfer-in of $2.1 million from the Western Area Power Administration which offset the
transfers-out. Therefore, transfers-in have decreased by $1.9 million.

Line 5D. Other Financing Sources – Other: The overall $169 thousand (30 percent) increase to Other Financing
Sources – Other, has been caused by several factors. General Funds is now recording USSGL accounts 5900 and 5909
to distributed offsetting receipts, which updates line 4 on the Net Position, instead of line 5. In the 4th Quarter, FY
2004, the net amount of other revenue was $1.4 million. The amount is zero for the 4th Quarter, 2005, in General
Funds. There is a $1.2 million decrease in Borrowing Authority due to the District of Columbia, Water and Sewer
Authority electing to prepay their debt. Therefore, all their remaining Treasury borrowing was repaid in the 2nd
Quarter, FY 2004. This created a larger than normal principal repayment.




                                                                                 FY 2005 Army Annual Financial Statement 283
Unexpended Appropriations:
Lines 1, 2B & 3. Beginning Balances and Prior period adjustments: The overall $240.5 million (38 percent) decrease
in the beginning balance is due to General and Transfer Funds reporting some funds transferred-in as ﬁnances from
other sources rather than appropriated funds. This change began in 4th Quarter, FY 2004. Finances from other
sources do not update the USSGL 3100 series, Unexpended Appropriations.

Line 4A. Budgetary Financing Sources – Appropriations received: The $775.4 million (20 percent) increase in
Appropriations Received is due to an increase in funding from the Energy and Water Development Appropriations
Act. General Funds has an increase of $750.4 million and Formerly Utilized Sites Remedial Action Program
(FUSRAP) has an increase of $25 million.

Line 4B. Budgetary Financing Sources – Appropriations transferred-in/out: Appropriations transferred-in/out has
a net $9.2 million (50 percent) increase. Transfer Funds has received $9.7 million more in transfers-in/out from the
Department of Interior for the 4th Quarter, FY 2005, compared to the 4th Quarter, FY 2004. The Jacksonville District
received the increased funding for construction from the Department of Interior, National Park Service.

Line 4C. Budgetary Financing Sources – Other adjustments (rescissions, etc): The $4 million (12 percent) increase
to Budgetary Financing Sources - Other adjustments is due to several factors. General Funds and Formerly Utilized
Sites Remedial Action Program (FUSRAP) are reporting increases in rescission amounts for the 4th Quarter, 2005.
General Funds has an increase of $11 million and FUSRAP has an increase of $494 thousand. There is a decrease of
$7.1 million in Transfer funds for the 4th Quarter, FY 2005. In the 4th Quarter, 2004, USSGL account 3106 was used
to adjust the beginning balance in Transfer Funds of appropriations receiving “funding from other sources”.


Note Reference
For regulatory disclosure related to the Statement of Changes in Net Position, see the Department of Defense
Financial Management Regulation, Volume 6B, Chapter 10, paragraph 1022.

Note 20. Disclosures Related to the Statement of Budgetary Resources
  As of September 30                                                                    2005                  2004
  (Amounts in thousands)

  1.   Net Amount of Budgetary Resources Obligated for Undelivered
       Orders at the End of the Period                                          $             2,419,101   $      1,628,052
  2.   Available Borrowing and Contract Authority at the End of the Period                            0             30,445


Other Information:
Intraentity Transactions
The Statement of Budgetary Resources (SBR) does not include intraentity transactions because the statements are
presented as combined and combining.

Apportionment Categories
The amount of direct and reimbursable obligations incurred against amounts apportioned under Category A in the
SBR includes: $5.7 billion for direct; $29 million for direct obligations exempt from apportionment; $6.9 billion for
reimbursable obligations; and $1 million for reimbursable obligations exempt from apportionment. The U.S. Army
Corps of Engineers (USACE) has no apportionments under Category B.

Undelivered Orders
Undelivered Orders presented in the SBR include Undelivered Orders-Unpaid for both direct and reimbursable
funds.




284 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Borrowing Authority
Borrowing authority is for capital improvements to the Washington Aqueduct. Funding to repay the debt is
provided by Arlington County, Virginia, and Falls Church, Virginia.


Fluctuations
Note 20, Line 1 – The vast majority of the $791 million (48 percent) variance is due to $744 million of undelivered
orders in General Funds, of which $587 million is in the Flood Control and Coastal Emergencies appropriation.
Revolving Fund has $31 million in undelivered orders and Transfers Funds has $12 million.

Note 20, Line 2 – The $30 million (100 percent) variance is due to receipt in full of borrowing authority.


SBR Fluctuations
Appropriations received - The majority of the increase of $846.7 million (16 percent) is due to General Funds
receiving $717 million more in appropriated funds in FY 2005 than FY 2004. The Flood Control and Coastal
Emergencies appropriation alone received an increase of $343 million for hurricane relief efforts on the Gulf Coast.
There was also an increase of $74 million in the Department of the Treasury’s receipts unavailable for obligation
in FY 2005. The USACE records the Department of the Treasury’s portion of funds in the Defense Departmental
Reporting System (DDRS). There was an increase of $25 million to the USACE Pollution Control & Abatement
appropriation and a $1 million increase in Special Funds.

Borrowing authority - Reﬂects a variance of $135 thousand (100 percent) due to receipt in full of borrowing
authority.

Net transfers – The variance of $58 million (28 percent) is due to a change in the recording of nonexpenditure
transfers (SF ll51’s) in General Funds. In FY 2004, $41 million was recorded in the U.S. Standard General Ledger
(USSGL) 4119 vice 4175 for transfers-in from Special Funds. Also in FY 2005, Transfer Funds received $19 million
more than in FY 2004 and Special Funds $2 million less.

Unobligated balance: Net transfers, actual (+/-) – The decrease of $36 million (126 percent) is due to transactions
recorded in the Transfer Funds. Receivables valued at $35.6 million were recorded at year-end FY 2004 from the
Department of Transportation (DOT) and the Department of Energy (DOE). At the beginning of FY 2005, DOT and
DOE reapportioned excess prior year money and recorded as new authority. In FY 2005, the USACE transferred out
the receivable of prior year budget authority and recorded as current year budget authority to reconcile with DOT
and DOE.

Spending authority from offsetting collections – The increase in collections of $1.3 million (24 percent) and
decrease in receivable of $53 million (82 percent) is due to collections and receivables in the Flood Control and
Coastal Emergencies appropriation for hurricane relief efforts and operations in the Gulf Region Division in Iraq.
Collections increased $846 million in General Funds and $416 million in Revolving Fund. Receivables decreased $71
million in General Funds and increased $18.6 million in Revolving fund.

Change in unﬁlled customer orders – Unﬁlled customer orders with advance decreased by $63.9 million (215
percent) in FY 2005 due to an increase in General Funds of $64.3 million and an increase in Revolving Fund of $11.3
million. Unﬁlled customer orders without advance from Federal sources increased by $3 billion (1,113 percent) in
General Funds primarily in the Flood Control and Coastal Emergencies appropriation due to the hurricane relief
work.

Permanently not available – The variance of $9.2 million (32 percent) is due to an increase of budget authority
rescission of $10 million in General Funds and $500 thousand in Formerly Utilized Sites Remedial Action Program
(FUSRAP) appropriation. Also, repayment of debt in Borrowing Authority decreased by $1.2 million.

Obligations incurred, Reimbursable – The increase of $1.4 billion (26 percent) is primarily in General and Revolving


                                                                                 FY 2005 Army Annual Financial Statement 285
Funds. The increase in General Funds of $1.1 billion is due to the activity in the South Atlantic region for hurricane
relief efforts. The increase in Revolving Fund of $319 million is associated with the Gulf Region Division in Iraq.

Unobligated balance apportioned – The variance of $3.2 billion (258 percent) is an increase in the unobligated
balance in the Flood Control and Coastal Emergencies appropriation.

Unobligated balance exempt from apportionment – The variance of $123 thousand (27 percent) is due to an increase
in the Civil Work, Operation and Maintenance appropriation for $45 million from Bonneville Power Administration;
Revolving Fund for $34 million; and Trust Funds for $34 million.

Unobligated balances not available – The decrease of $8 thousand (12 percent) is the result of the return of expired
funds to the Agency for International Development.

Obligated balance, net–end of period - The increase of $3.3 billion (173 percent) in unﬁlled customer orders from
Federal sources and the increase of $839 thousand (41 percent) in undelivered orders is in the Flood Control and
Coastal Emergencies appropriation. This increase is due to recovery work performed in the New Orleans and
Vicksburg Districts in support of the hurricane relief effort.

Outlays – The increase in disbursements of $1.2 billion (11 percent) and the increase in collections of $1.2 billion
(23 percent) is due to an increase of disbursements in General Funds of $839 million and in Revolving Fund of $263
million; and an increase of collections in General Fund of $784 million and Revolving Fund of $414 million. The
increase in activity is due to the hurricane relief effort in the Gulf Coast and operations in the Gulf Region Division
in Iraq.

Note 21. Disclosures Related to the Statement of Financing
Intra-entity transactions have not been eliminated because the Statement of Financing is presented as combined and
combining.


Resources Used to Finance Activities:
Obligations incurred: Obligations incurred increased by $1.6 billion (14 percent). The increase in obligations
occurred in the General and Revolving Funds. The increase in the General Fund is due to an increase in obligations
in the Flood Control and Coastal Emergencies appropriation for hurricanes in the Louisiana, Mississippi and Texas
Gulf Coast in 2005. The increase in the Revolving Fund is associated with the Gulf Region Division in Iraq.

Less: Spending authority from offsetting collections: This amount increased by $4.2 billion (75 percent) due
primarily to an increase in collections and receivables in the Flood Control and Coastal Emergencies appropriation.
Again, this increase is related to recovery work for hurricane damage in 2004 and the most recent hurricanes in 2005.
Customer orders increased by $3.2 billion for work related to the hurricanes. Collections increased by $915.7 million
related to 2004 hurricane recovery work.


Other Resources
Donations and forfeitures of property: Donations and forfeitures of property increased by $1 million (243 percent)
due primarily to corrections to the fair market value of land tracts donated in prior years. The land tracts were
initially recorded with no or nominal value rather than fair market value. The Wilmington and Omaha Districts
made corrections for $664 thousand and $258.9 thousand respectively.

Transfers in/out without reimbursement: Net transfers in and out increased by $1.4 million (87 percent) due
primarily to a decrease in the amount of transfers-in. Transfers- in decreased by $1.9 million. Last year the
U.S. Army Corps of Engineers (USACE) received a transfer-in of $2.1 million from the Western Area Power
Administration. There were no material transfers-in this ﬁscal year.


286 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Other: Other resources increased by $169 thousand (29 percent). Undistributed offsetting receipts net of the contra
account, collections for others, were previously reported as other resources on the Statement of Financing but are
now only reported on the Statement of Changes in Net Position. In addition, there was a decrease of $1.2 million in
the amount of collections for repayment of the debt for repairs to the Washington Aqueduct.


Resources Used to Finance Items not Part of the Cost of Operations:
Undelivered Orders: The change in undelivered orders increased by $438.4 million (110 percent) due to three
factors. There was an increase in undelivered orders in the Flood Control and Coastal Emergencies appropriation
due to recovery work for hurricane damage to the Louisiana, Mississippi, and Texas Gulf Coast in 2005.
Undelivered orders also increased in the Construction General appropriation due to a variety of projects. There
was also a change in undelivered orders in the Coastal Wetlands Restoration Trust Fund related to environmental
projects in the New Orleans District.

Unﬁlled Customer Orders: The change in unﬁlled customer orders increased by $3 billion (983 percent) due to an
increase in unﬁlled customer orders in the Flood Control and Coastal Emergencies appropriation for hurricane
damage that occurred to the Louisiana, Mississippi, and Texas Gulf Coast in 2005.

Resources that fund expenses recognized in prior periods: Resources that fund expenses recognized in prior
period decreased by $29.4 million (53 percent) and is mostly attributed to the decrease in future funded expense for
contracts with continuation clauses. The amount of future funded expense associated with the liability for contracts
with continuation clauses decreased by $24.3 million in FY 2005. The USACE implemented a policy change this
year requiring approval from Headquarters before awarding contracts with continuation clauses which resulted in
a decrease in these contracts and related liabilities. The change also reﬂects the payment of judgment fund claims in
FY 2005 for $1.8 million.

Resources that ﬁnance the acquisition of assets: Resources that ﬁnance the acquisition of assets decreased by
$1.7 billion (99 percent) due to a change in the methodology by the USACE to record current year purchases of
capitalized assets to comply with the Ofﬁce of Management and Budget Bulletin 01-09, Form and Content and
Treasury’s Cost Capitalization Offset, policy and procedures. The major change for reporting on this line this
ﬁscal year is to exclude costs associated with construction-in-process (CIP) accounts as current year purchases of
capitalized assets. These costs are now recognized as part of the Cost Capitalization Offset account.


Components of the Net Cost of Operations that will not Require or Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Period:
Increase in exchange revenue receivable from the public: The exchange revenue receivable from the public changed
by $34 thousand (100 percent). This amount was identiﬁed and reported due to programming changes in the
Revolving Fund in FY 2005. This amount was not reported in the past.

Other: Other components requiring resources in future periods increased by $489.9 million (961 percent) due to
the recognition of future contingent liabilities for the Formerly Utilized Sites Remedial Action Program for $529.6
million. This amount was offset by a reduction in the amount of future funded expense associated with the liability
for contracts with continuation clauses. The amount of the liability for contracts with continuation clauses reported
for FY 2004 was $50.3 million but decreased by $24.3 million in FY 2005 to $26 million. The USACE implemented a
policy change this year requiring approval from Headquarters before awarding contracts with continuation clauses
which resulted in a decrease in these contracts and related liabilities. The USACE also recorded new judgment fund
claims for $11.1 million in FY 2005.

Components not Requiring or Generating Resources:
Depreciation and amortization: Depreciation expense decreased by $1.2 billion (50 percent). Depreciation expense
decreased by $1.7 billion in the Flood Control, Mississippi River Tributaries appropriation, but was offset by an
increase in depreciation expense of $512.5 million in the Construction, General, and Operation and Maintenance
appropriations. The New Orleans, Vicksburg and St. Louis Districts adjusted depreciation expense to fully
depreciate all revetments already placed in service by the end of FY 2004 in the Flood Control, Mississippi River


                                                                               FY 2005 Army Annual Financial Statement 287
Tributaries appropriation. The increase in depreciation expense for the Construction, General, and Operations and
Maintenance appropriations is due primarily to depreciation adjustments. Adjustments were made to change the
service life years of real property assets, to change the placed-in-service dates for some assets and to adjust for errors
in depreciation for Additions and Betterments.

Revaluation of assets or liabilities: The revaluation of assets increased by $1.9 billion (227 percent) due to several
factors. Losses on the disposition of assets and capital investments increased by approximately $969 million in
FY 2005. The USACE made large adjustments to write-off bank stabilization projects and revetments that were
improperly capitalized. Losses in the Vicksburg District alone increased by $530.4 million due to the write-off of
the bank stabilization projects and revetments. The USACE also recognized losses for land, buildings and other
structures that were leased for non-monetary or nominal amounts to non-Federal entities for public parks, recreation
areas and ﬁsh and wildlife management areas. The USACE treated the leases as “operating leases” and maintained
the assets on its ﬁnancial records. Because the lease periods equaled or exceeded the useful lives of the assets, the
assets are now considered donations and were written-off. These losses were offset by a gain of $47.1 million for a
found-on-works inventory adjustment made in FY 2005. Found-on-works inventory was previously recorded as an
inventory allowance account in error. A reversing entry was made for $981.7 million in FY 2004 for the write-off
of non-federal cost share projects recognized in FY 2003. In the past, non-federal cost share projects were recorded
as construction-in-process. When the projects were completed, they were transferred to the public and a loss was
recorded. Due to a policy change implemented in FY 2004, costs associated with non-federal cost share projects are
reported as expenses rather than losses.

Other – Costs of Goods Sold: Costs of goods sold increased by $2.8 million (100 percent) and is associated with the
sale of assets in the revolving fund. This was not reported in the prior ﬁscal year.

Other: Other components not requiring or generating resources decreased by $3.2 billion (124 percent). The
decrease is due primarily to other expenses not requiring budgetary resources. In FY 2004 the USACE recognized
expenses not requiring budgetary resources to write-off non-federal cost share projects for $909.8 million. In
addition, current year expenses for construction-in-process accounts for $1.7 billion were reclassiﬁed to other
expenses not requiring budgetary resources. In FY 2005 other expenses not requiring budgetary resources decreased
due to the reversal of the prior year entry of $909.8 million for the write-off of non-federal cost share projects. This
expense was recognized in the Defense Departmental Reporting System but not in the Corps of Engineers Financial
Management System (CEFMS) in FY 2004. The expense has since been recorded in CEFMS as an operating expense
or to the Cost Capitalization Offset account. The USACE expensed an additional $97 million in FY 2005 to write-off
non-federal cost share projects. Other expenses not requiring budgetary resources has an abnormal balance due
to the reversal of the prior year expense of $909.8 million. Current year net expenses related to construction-in-
process (CIP) accounts decreased signiﬁcantly from $1.7 billion to $169.7 million. The accounting treatment also
changed in FY 2005 to record costs associated with the CIP accounts to the Cost Capitalization Offset account. The
Cost Capitalization Offset account has an abnormal balance due to the large amount of costs moved from CIP to this
account.

Note 22. Disclosures Related to the Statement of Custodial Activity
Not applicable.

Note 23. Other Disclosures
Not applicable.

During FY 2005, the USACE received $72.9 million in direct appropriations from the Power Marketing
Administration.




288 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
FY 2005 Army Annual Financial Statement 289
Department of Defense - US Army Corps of Engineers
CONSOLIDATING BALANCE SHEET
As of September 30, 2005 and 2004 ($ in Thousands)
                                                                                                                           Borrowing
                                                               Special Funds       Trust Funds        Transfer Funds        Authority
¬¬¬ASSETS¬(Note¬2)
     Intragovernmental:
     Fund Balance with Treasury (Note 3)
        Entity                                             $           1,920   $        86,885    $           38,123   $           2
        Non-Entity Seized Iraqi Cash                                       0                 0                     0               0
        Non-Entity-Other                                                   0                 0                     0               0
     Investments (Note 4)                                                  0         3,127,832                     0               0
     Accounts Receivable (Note 5)                                          0           386,683                45,919               0
     Other Assets (Note 6)                                                 0                 0                     0               0
     Total Intragovernmental Assets                        $           1,920   $     3,601,400    $           84,042   $           2
     Cash and Other Monetary Assets (Note 7)               $               0   $             0    $                0   $           0
     Accounts Receivable (Note 5)                                      1,870                 0                     0               0
     Loans Receivable (Note 8)                                             0                 0                     0               0
     Inventory and Related Property (Note 9)                               0                 0                   352               0
     General Property, Plant and Equipment (Note 10)                   1,465           754,862               329,931               0
     Investments (Note 4)                                                  0                 0                     0               0
     Other Assets (Note 6)                                                 0                 0                     0               0
¬¬¬TOTAL¬ASSETS                                            $           5,255   $     4,356,262    $          414,325   $           2

¬¬¬LIABILITIES¬(Note¬11)
      Intragovernmental:
      Accounts Payable (Note 12)                           $               2 $          18,136 $                 939 $              0
      Debt (Note 13)                                                       0                 0                     0           14,600
      Other Liabilities (Note 15 & Note 16)                            1,870             6,000                     0                0
      Total Intragovernmental Liabilities                  $           1,872 $          24,136 $                 939 $         14,600
      Accounts Payable (Note 12)                           $           1,112 $           6,671 $              12,354 $              0
          Military Retirement Benefits and
          Other Employment-Related                                         0                  0                   0                0
     Actuarial Liabilities (Note 17)
     Environmental Liabilities (Note 14)                                   0                 0                     0                0
     Loan Guarantee Liability (Note 8)                                     0                 0                     0                0
     Other Liabilities (Note 15 and Note 16)                              26               574                 3,154                0
¬¬¬TOTAL¬LIABILITIES                                       $           3,010 $          31,381 $              16,447 $         14,600

¬¬¬NET¬POSITION
     Unexpended Appropriations                             $               0 $               0 $              23,142 $              0
     Cumulative Results of Operations                                  2,245         4,324,881               374,736         (14,598)
¬¬¬TOTAL¬NET¬POSITION                                      $           2,245 $       4,324,881 $             397,878 $       (14,598)

¬¬¬TOTAL¬LIABILITIES¬AND¬NET¬POSITION                      $           5,255 $       4,356,262 $             414,325 $             2




290 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
    Revolving        Contributed         General                       Combined                                    2005               2004
       Funds              Funds           Funds         FUSRAP            Total         Eliminations       Consolidated       Consolidated




$      965,552   $       467,176   $    1,536,365   $     42,178   $    3,138,201   $             0    $      3,138,201   $      2,378,442
             0                 0                0              0                0                 0                   0                  0
             0                 0            7,849              0            7,849                 0               7,849              8,245
             0                 0                0              0        3,127,832                 0           3,127,832          2,741,917
        18,080                 0          163,676              0          614,358               454             613,904            520,123
             0                 0                0              0                0                 0                   0                  0
$      983,632   $       467,176   $    1,707,890   $     42,178   $    6,888,240   $           454    $      6,887,786   $      5,648,727
$            0   $             0   $        1,147   $          0   $        1,147   $             0    $          1,147   $          1,039
         1,348                22        1,747,683              2        1,750,925                 0           1,750,925          1,906,435
             0                 0                0              0                0                 0                   0                  0
        87,808                 0           29,224              0          117,384                 0             117,384             61,815
       837,296            13,176       24,843,372              0       26,780,102                 0          26,780,102         28,448,517
             0                 0                0              0                0                 0                   0                  0
             0                 0                0              0                0                 0                   0                  0
$    1,910,084   $       480,374   $   28,329,316   $     42,180   $   35,537,798   $           454    $     35,537,344   $     36,066,533




$      38,337 $              184 $         29,937 $          149 $         87,684 $             454 $            87,230 $          103,498
            0                  0                0              0           14,600                 0              14,600             15,367
       13,821              3,886        1,931,318              0        1,956,895                 0           1,956,895          2,058,627
$      52,158 $            4,070 $      1,961,255 $          149 $      2,059,179 $             454 $         2,058,725 $        2,177,492
$      74,043 $           15,753 $        394,223 $       31,726 $        535,882 $               0 $           535,882 $          570,255

            0                 0                0               0               0                  0                  0                  0

            0                  0                0        529,617          529,617                 0             529,617                  0
            0                  0                0              0                0                 0                   0                  0
      455,175              6,133          135,788             30          600,880                 0             600,880            646,125
$     581,376 $           25,956 $      2,491,266 $      561,522 $      3,725,558 $             454 $         3,725,104 $        3,393,872



$            0 $               0 $        972,428 $        10,273 $     1,005,843 $               0 $         1,005,843 $          396,362
     1,328,708           454,418       24,865,622       (529,615)      30,806,397                 0          30,806,397         32,276,299
$    1,328,708 $         454,418 $     25,838,050 $     (519,342) $    31,812,240 $               0 $        31,812,240 $       32,672,661

$    1,910,084 $         480,374 $     28,329,316 $       42,180 $     35,537,798 $             454 $        35,537,344 $       36,066,533




                                                                                               FY 2005 Army Annual Financial Statement 291
Department of Defense - US Army Corps of Engineers
CONSOLIDATING STATEMENT OF NET COST
As of September 30, 2005 and 2004 ($ in Thousands)
                                                              Combined                                       2005                2004
                                                                 Total           Eliminations        Consolidated        Consolidated
¬¬¬Program¬Costs
A.¬Borrowing¬Authority
      Intragovernmental Gross Costs                    $              467    $              0    $             467   $             241
      (Less: Intragovernmental Earned Revenue)                          0                   0                    0                   0
      Intragovernmental Net Costs                      $              467    $              0    $             467   $             241
      Gross Costs With the Public                      $              725    $              0    $             725   $           2,110
      (Less: Earned Revenue From the Public)                      (1,187)                   0              (1,187)             (2,261)
      Net Costs With the Public                        $            (462)    $              0    $           (462)   $           (151)
      Total Net Cost                                   $                5    $              0    $               5   $              90
B.¬Contributed¬Funds
      Intragovernmental Gross Costs                    $          34,625     $         25,460    $          9,165    $         10,983
      (Less: Intragovernmental Earned Revenue)                         0                    0                   0                    0
      Intragovernmental Net Costs                      $          34,625     $         25,460    $          9,165    $         10,983
      Gross Costs With the Public                      $         306,977     $              0    $        306,977    $        336,036
      (Less: Earned Revenue From the Public)                           0                    0                   0                  (1)
      Net Costs With the Public                        $         306,977     $              0    $        306,977    $        336,035
      Total Net Cost                                   $         341,602     $         25,460    $        316,142    $        347,018
C.¬FUSRAP
      Intragovernmental Gross Costs                    $          16,558     $         14,049    $          2,509    $          2,510
      (Less: Intragovernmental Earned Revenue)                         0                    0                   0                   0
      Intragovernmental Net Costs                      $          16,558     $         14,049    $          2,509    $          2,510
      Gross Costs With the Public                      $         670,837     $              0    $        670,837    $        122,458
      (Less: Earned Revenue From the Public)                           0                    0                   0                   0
      Net Costs With the Public                        $         670,837     $              0    $        670,837    $        122,458
      Total Net Cost                                   $         687,395     $         14,049    $        673,346    $        124,968
D.¬General¬Funds
      Intragovernmental Gross Costs                    $        1,294,689    $       997,330     $         297,359   $        297,547
      (Less: Intragovernmental Earned Revenue)                (1,331,070)            (27,752)          (1,303,318)          (609,393)
      Intragovernmental Net Costs                      $          (36,381)   $       969,578     $     (1,005,959)   $      (311,846)
      Gross Costs With the Public                      $        5,917,921    $              0    $       5,917,921   $      6,063,017
      (Less: Earned Revenue From the Public)                    (226,448)                   0            (226,448)          (281,571)
      Net Costs With the Public                        $        5,691,473    $              0    $       5,691,473   $      5,781,446
      Total Net Cost                                   $        5,655,092    $       969,578     $       4,685,514   $      5,469,600
E.¬Revolving¬Funds
      Intragovernmental Gross Costs                    $        1,027,687    $             500   $      1,027,187    $        680,145
      (Less: Intragovernmental Earned Revenue)                (1,903,491)          (1,054,010)          (849,481)           (625,412)
      Intragovernmental Net Costs                      $        (875,804)    $     (1,053,510)   $        177,706    $          54,733
      Gross Costs With the Public                      $        1,175,470    $               0   $      1,175,470    $      1,392,422
      (Less: Earned Revenue From the Public)                    (193,475)                    0          (193,475)             (78,520)
      Net Costs With the Public                        $          981,995    $               0   $        981,995    $      1,313,902
      Total Net Cost                                   $          106,191    $     (1,053,510)   $      1,159,701    $      1,368,635




292 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
                                                      Combined                                        2005                 2004
                                                         Total          Eliminations          Consolidated         Consolidated
F.¬Special¬Funds
       Intragovernmental Gross Costs              $        2,529    $           2,004     $             525    $            314
       (Less: Intragovernmental Earned Revenue)                0                    0                     0                   0
       Intragovernmental Net Costs                $        2,529    $           2,004     $             525    $            314
       Gross Costs With the Public                $       13,714    $               0     $          13,714    $         12,850
       (Less: Earned Revenue From the Public)                  0                    0                     0                   0
       Net Costs With the Public                  $       13,714    $               0     $          13,714    $         12,850
       Total Net Cost                             $       16,243    $           2,004     $          14,239    $         13,164
G.¬Transfer¬Funds
       Intragovernmental Gross Costs              $       43,471    $         35,386      $            8,085   $           5,971
       (Less: Intragovernmental Earned Revenue)                 0                  0                       0                   0
       Intragovernmental Net Costs                $       43,471    $         35,386      $            8,085   $           5,971
       Gross Costs With the Public                $       75,534    $              0      $          75,534    $         35,596
       (Less: Earned Revenue From the Public)             (5,972)                  0                 (5,972)             (5,610)
       Net Costs With the Public                  $       69,562    $              0      $          69,562    $         29,986
       Total Net Cost                             $      113,033    $         35,386      $          77,647    $         35,957
H.¬Trust¬Funds
       Intragovernmental Gross Costs              $       40,520    $           7,032     $          33,488    $         23,056
       (Less: Intragovernmental Earned Revenue)                 0                   0                      0                  0
       Intragovernmental Net Costs                $       40,520    $           7,032     $          33,488    $         23,056
       Gross Costs With the Public                $      721,320    $               0     $         721,320    $        694,248
       (Less: Earned Revenue From the Public)             (1,696)                   0                (1,696)                  0
       Net Costs With the Public                  $      719,624    $               0     $         719,624    $        694,248
       Total Net Cost                             $      760,144    $           7,032     $         753,112    $        717,304
I.¬Total¬Program¬Costs
       Intragovernmental Gross Costs              $     2,460,546   $       1,081,761     $        1,378,785   $       1,020,767
       (Less: Intragovernmental Earned Revenue)       (3,234,561)         (1,081,762)            (2,152,799)         (1,234,805)
       Intragovernmental Net Costs                $     (774,015)   $              (1)    $        (774,014)   $       (214,038)
       Gross Costs With the Public                $     8,882,498   $                0    $        8,882,498   $       8,658,737
       (Less: Earned Revenue From the Public)           (428,778)                    0             (428,778)           (367,963)
       Net Costs With the Public                  $     8,453,720   $                0    $        8,453,720   $       8,290,774
       Total Net Cost                             $     7,679,705   $              (1)    $        7,679,706   $       8,076,736
¬¬¬Cost¬Not¬Assigned¬to¬Programs                  $             0   $                0    $                0   $               0
     (Less:Earned¬Revenue¬Not¬Attributable
                                                               0                    0                     0                   0
     to¬Programs)
¬¬¬Net¬Cost¬of¬Operations                         $    7,679,705 $                 (1) $           7,679,706 $        8,076,736




                                                                                         FY 2005 Army Annual Financial Statement 293
Department of Defense - US Army Corps of Engineers
 CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                    Special Funds             Trust Funds     Transfer Funds
CUMULATIVE¬RESULTS¬OF¬OPERATIONS
   Beginning¬Balances                                           $            4,277 $            3,823,601 $          310,673
   Prior Period Adjustments¬(+/-)
        Changes in Accounting Principles (+/-)                                   0                      0                  0
        Correction of Errors (+/-)                                               0                      0                  0
   Beginning¬Balances,¬as¬adjusted                              $            4,277 $            3,823,601 $          310,673
   Budgetary¬Financing¬Sources:
        Appropriations received                                                  0                      0                  0
        Appropriations transferred-in/out (+/-)                                  0                      0                  0
        Other adjustments (rescissions, etc) (+/-)                               0                      0                  0
        Appropriations used                                                      0                      0             28,468
        Nonexchange revenue                                                      0              1,223,892                  0
        Donations and forfeitures of cash and cash                               0                      0                  0
        Transfers-in/out without reimbursement (+/-)                        14,787                 49,347            156,888
        Other budgetary financing sources (+/-)                                  0                      0                  0
   Other¬Financing¬Sources:
        Donations and forfeitures of property                                    0                       0                  0
        Transfers-in/out without reimbursement (+/-)                         (575)                (11,815)            (8,260)
        Imputed financing from costs absorbed by others                          0                       0                  0
        Other (+/-)                                                              0                       0                  0
   Total¬Financing¬Sources                                      $          14,212 $             1,261,424 $          177,096
   Net¬Cost¬of¬Operations¬(+/-)                                            16,243                 760,144            113,033
   Net¬Change                                                   $          (2,031) $              501,280 $           64,063
   Ending¬Balance                                               $            2,246 $            4,324,881 $          374,736

UNEXPENDED¬APPROPRIATIONS
¬¬¬¬Beginning¬Balances                                          $                0 $                   0 $            23,515
¬¬¬¬Prior¬period¬adjustments¬(+/-)
        Changes in Accounting Principles (+/-)                                   0                     0                   0
        Correction of Errors (+/-)                                               0                     0                   0
¬¬¬¬Beginning¬Balances,¬as¬adjusted                             $                0 $                   0 $            23,515
¬¬¬¬Budgetary¬Financing¬Sources:
        Appropriations received                                                  0                     0                    0
        Appropriations transferred-in/out (+/-)                                  0                     0               28,095
        Other adjustments (rescissions, etc) (+/-)                               0                     0                    0
        Appropriations used                                                      0                     0             (28,468)
        Nonexchange revenue                                                      0                     0                    0
         Donations and forfeitures of cash and cash                              0                     0                    0
        Transfers-in/out without reimbursement (+/-)                             0                     0                    0
        Other budgetary financing sources (+/-)                                  0                     0                    0
¬¬¬¬Other¬Financing¬Sources:
        Donations and forfeitures of property                                    0                     0                   0
        Transfers-in/out without reimbursement (+/-)                             0                     0                   0
        Imputed financing from costs absorbed by others                          0                     0                   0
        Other (+/-)                                                              0                     0                   0
    Total¬Financing¬Sources                                     $                0 $                   0 $             (373)
    Net¬Cost¬of¬Operations¬(+/-)                                                 0                     0                   0
    Net¬Change                                                  $                0 $                   0 $             (373)
    Ending¬Balance                                              $                0 $                   0 $            23,142




294 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
    Borrowing Authority      Revolving Funds      Contributed Funds      General Funds             FUSRAP


$                (7,708)            1,201,096 $             396,789 $        26,547,571 $                  0

                       0                    0                     0                   0                    0
                       0                    0                     0                   0                    0
$                (7,708) $          1,201,096 $             396,789 $        26,547,571 $                  0

                      0                   0                       0                   0                   0
                      0                   0                       0                   0                   0
                      0                   0                       0                   0                   0
                      0                   0                       0           3,823,459             157,780
                      0                   0                 409,490               (720)                   0
                      0                   0                       0                   0                   0
                      1                   0                       0             105,367                   0
                      0                   0                       0                 274                   0

                       0                    0                      0              1,490                    0
                 (7,634)                1,874               (10,259)             33,621                    0
                       0              231,929                      0              9,652                    0
                     748                    0                      0                  0                    0
$                (6,885) $            233,803 $             399,231 $         3,973,143 $            157,780
                       5              106,191               341,602           5,655,092              687,395
$                (6,890) $            127,612 $               57,629 $      (1,681,949) $          (529,615)
$               (14,598) $          1,328,708 $             454,418 $       24,865,622 $           (529,615)


$                     0                   0 $                    0 $           368,474 $               4,373

                      0                   0                      0                   0                     0
                      0                   0                      0                   0                     0
$                     0 $                 0 $                    0 $           368,474 $               4,373

                      0                   0                      0            4,464,502              165,000
                      0                   0                      0                 (493)                    0
                      0                   0                      0              (36,596)              (1,320)
                      0                   0                      0          (3,823,459)            (157,780)
                      0                   0                      0                     0                    0
                      0                   0                      0                     0                    0
                      0                   0                      0                     0                    0
                      0                   0                      0                     0                    0

                      0                   0                      0                   0                    0
                      0                   0                      0                   0                    0
                      0                   0                      0                   0                    0
                      0                   0                      0                   0                    0
$                     0 $                 0 $                    0 $           603,954 $              5,900
                      0                   0                      0                   0                    0
$                     0 $                 0 $                    0 $           603,954 $              5,900
$                     0 $                 0 $                    0 $           972,428 $             10,273




                                                                                FY 2005 Army Annual Financial Statement 295
Department of Defense - US Army Corps of Engineers
 CONSOLIDATING STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2005 and 2004 ($ in Thousands)


                                                                           Combined Total        Eliminations
CUMULATIVE¬RESULTS¬OF¬OPERATIONS
   Beginning¬Balances                                               $            32,276,299 $              0
   Prior Period Adjustments¬(+/-)
        Changes in Accounting Principles (+/-)                                            0                0
        Correction of Errors (+/-)                                                        0                0
   Beginning¬Balances,¬as¬adjusted                                  $            32,276,299 $              0
   Budgetary¬Financing¬Sources:
        Appropriations received                                                           0                0
        Appropriations transferred-in/out (+/-)                                           0                0
        Other adjustments (rescissions, etc) (+/-)                                        0                0
        Appropriations used                                                       4,009,707                0
        Nonexchange revenue                                                       1,632,662                0
        Donations and forfeitures of cash and cash                                        0                0
        Transfers-in/out without reimbursement (+/-)                                326,390                0
        Other budgetary financing sources (+/-)                                         274                0
   Other¬Financing¬Sources:
        Donations and forfeitures of property                                           1,490               0
        Transfers-in/out without reimbursement (+/-)                                  (3,048)               0
        Imputed financing from costs absorbed by others                              241,581                0
        Other (+/-)                                                                       748               0
   Total¬Financing¬Sources                                          $              6,209,804 $              0
   Net¬Cost¬of¬Operations¬(+/-)                                                    7,679,705              (1)
   Net¬Change                                                       $            (1,469,901) $              1
   Ending¬Balance                                                   $            30,806,398 $               1

UNEXPENDED¬APPROPRIATIONS
¬¬¬¬Beginning¬Balances                                              $               396,362 $              0
¬¬¬¬Prior¬period¬adjustments¬(+/-)
        Changes in Accounting Principles (+/-)                                            0                0
        Correction of Errors (+/-)                                                        0                0
¬¬¬¬Beginning¬Balances,¬as¬adjusted                                 $               396,362 $              0
¬¬¬¬Budgetary¬Financing¬Sources:
        Appropriations received                                                    4,629,502               0
        Appropriations transferred-in/out (+/-)                                        27,602              0
        Other adjustments (rescissions, etc) (+/-)                                   (37,916)              0
        Appropriations used                                                      (4,009,707)               0
        Nonexchange revenue                                                                 0              0
         Donations and forfeitures of cash and cash                                         0              0
        Transfers-in/out without reimbursement (+/-)                                        0              0
        Other budgetary financing sources (+/-)                                             0              0
¬¬¬¬Other¬Financing¬Sources:
        Donations and forfeitures of property                                             0                0
        Transfers-in/out without reimbursement (+/-)                                      0                0
        Imputed financing from costs absorbed by others                                   0                0
        Other (+/-)                                                                       0                0
    Total¬Financing¬Sources                                         $               609,481 $              0
    Net¬Cost¬of¬Operations¬(+/-)                                                          0                0
    Net¬Change                                                      $               609,481 $              0
    Ending¬Balance                                                  $             1,005,843 $              0




296 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
    2005 Consolidated      2004 Consolidated


$          32,276,299 $           34,289,488

                    0                      0
                    0                      0
$          32,276,299 $           34,289,488

                    0                       0
                    0                       0
                    0                       0
            4,009,707              4,079,023
            1,632,662              1,434,495
                    0                       0
              326,390                315,045
                  274                 (3,945)

                  1,490                    435
                (3,048)                (1,632)
               241,581                239,548
                    748                    578
$            6,209,804 $            6,063,547
             7,679,706              8,076,736
$          (1,469,902) $          (2,013,189)
$          30,806,397 $           32,276,299


$             396,362 $              636,846

                    0                      0
                    0                      0
$             396,362 $              636,846

             4,629,502              3,854,081
                 27,602                 18,394
               (37,916)               (33,936)
           (4,009,707)            (4,079,023)
                      0                      0
                      0                      0
                      0                      0
                      0                      0

                    0                       0
                    0                       0
                    0                       0
                    0                       0
$             609,481 $             (240,484)
                    0                       0
$             609,481 $             (240,484)
$           1,005,843 $               396,362




                                                 FY 2005 Army Annual Financial Statement 297
Department of Defense - US Army Corps of Engineers
COMBINING STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2005 and 2004 ($ in Thousands)
                                                                                                                       Borrowing
                                                               Special Funds      Trust Funds      Transfer Funds       Authority
Budgetary Financing Accounts
BUDGETARY¬RESOURCES
   Budget Authority:
      Appropriations received                              $           57,253 $       891,624 $                 0 $             0
      Borrowing authority                                                   0               0                   0               0
      Contract authority                                                    0               0                   0               0
      Net transfers (+/-)                                            (42,466)               0             192,590               0
      Other                                                                 0               0                   0               0
   Unobligated balance:
      Beginning of period                                                 62           89,344              47,488           (343)
      Net transfers, actual (+/-)                                          0                0              (7,606)              0
      Anticipated Transfers Balances                                       0                0                    0              0
   Spending authority from offsetting collections:
      Earned                                                               0                 0                   0               0
        Collected                                                          9                 0                  12          1,187
        Receivable from Federal sources                                    0                 0                   0               0
      Change in unfilled customer orders                                   0                 0                   0               0
        Advance received                                                   0                 0                   0             (1)
        Without advance from Federal sources                               0                 0                (11)               0
      Anticipated for the rest of year, without advances                   0                 0                   0               0
      Previously unavailable                                               0                 0                   0               0
      Transfers for trust funds                                            0                 0                   0               0
      Subtotal                                             $               9 $               0 $                 1 $        1,186
   Recoveries of prior year obligations                                    0                 0                   0               0
   Temporarily not available pursuant to Public Law                        0          (10,000)                   0               0
   Permanently not available                                               0                 0                   0          (748)
¬¬¬Total¬Budgetary¬Resources                               $          14,858 $        970,968 $           232,473 $            95

STATUS¬OF¬BUDGETARY¬RESOURCES
   Obligations incurred:
       Direct                                              $          14,170 $        847,176 $           191,798 $            3
       Reimbursable                                                        9                0                  12            438
       Subtotal                                            $          14,179 $        847,176 $           191,810 $          441
   Unobligated balance:
       Apportioned                                                       679                0              10,480               0
       Exempt from apportionment                                           0          123,792              30,183           (346)
       Other available                                                     0                0                   0               0
   Unobligated Balances Not Available                                      0                0                   0               0
¬¬¬Total,¬Status¬of¬Budgetary¬Resources                    $          14,858 $        970,968 $           232,473 $            95
Relationship¬of¬Obligations¬to¬Outlays:
   Obligated Balance, Net - beginning of period            $           2,911 $        275,064 $            33,228 $          369
   Obligated Balance transferred, net (+/-)                                0                0                   0              0
   Obligated Balance, Net - end of period:
       Accounts receivable                                                 0                0                   0              0
       Unfilled customer order from Federal sources                        0                0                   0              0
       Undelivered orders                                                101          258,436              26,932              0
       Accounts payable                                                1,140            7,527              16,447            348
   Outlays:
       Disbursements                                                   15,848          856,276            181,670             462
       Collections                                                         (9)               0                (12)        (1,186)
       Subtotal                                            $           15,839 $        856,276 $          181,658 $         (724)
   Less: Offsetting receipts                                         (52,817)      (1,223,892)                   0              0
¬¬ Net¬Outlays                                             $         (36,978) $      (367,616) $          181,658 $         (724)



298 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
    Revolving Funds       Contributed Funds      General Funds      FUSRAP       2005 Combined        2004 Combined




$                 0 $               409,534 $         4,464,502 $   165,000 $          5,987,913 $         5,141,166
                  0                       0                   0           0                    0                 135
                  0                       0                   0           0                    0                   0
                  0                       0             114,874           0              264,998             206,924
                  0                       0                   0           0                    0                   0

              3,553                 259,938           1,290,984       2,252            1,693,278           1,850,226
                  0                       0                   0           0               (7,606)             28,495
                  0                       0                   0           0                     0                  0

                    0                      0                   0            0                   0                   0
           4,460,783                      82          2,007,481        2,151           6,471,705           5,212,085
              10,357                       0                 848         (75)              11,130              64,104
                    0                      0                   0            0                   0                   0
              (3,651)                      0            (30,672)            0            (34,324)              29,660
              (3,726)                   (58)          3,311,387      (1,251)           3,306,341             272,555
                    0                      0                   0            0                   0                   0
                    0                      0                   0            0                   0                   0
                    0                      0                   0            0                   0                   0
$          4,463,763 $                    24 $        5,289,044 $        825 $         9,754,852 $         5,578,404
                    0                      0                   0            0                   0                   0
                    0                      0                   0            0            (10,000)            (10,000)
                    0                      0            (36,322)     (1,320)             (38,390)            (29,076)
$          4,467,316 $              669,496 $        11,123,082 $   166,757 $         17,645,045 $        12,766,274




$                  0 $              401,479 $         4,125,130 $   159,708 $          5,739,464 $         5,615,179
           4,430,234                     82           2,470,795         827            6,902,397           5,457,815
$          4,430,234 $              401,561 $         6,595,925 $   160,535 $         12,641,861 $        11,072,994

                   0                      0           4,403,747       6,222            4,421,128           1,234,139
              37,082                267,935             123,353           0              581,999             459,076
                   0                      0                  (1)          0                   (1)                 (1)
                   0                      0                  58           0                   58                  66
$          4,467,316 $              669,496 $        11,123,082 $   166,757 $         17,645,045 $        12,766,274

$           898,660 $               148,071 $         (348,299) $    28,672 $          1,038,676 $         1,007,621
                  0                       0                   0           0                    0                   0

            (23,697)                       0          (212,137)          (1)            (235,835)           (224,704)
            (33,480)                     (5)        (5,180,374)       (291)           (5,214,150)         (1,907,809)
            476,525                 177,178           1,918,857       4,342             2,862,371           2,022,902
            509,122                  22,067             494,444      31,906             1,083,001           1,148,287

           4,393,793                 350,449          5,914,601     154,577           11,867,676          10,705,281
         (4,457,132)                     (82)       (1,976,809)      (2,151)          (6,437,381)         (5,241,746)
$            (63,339) $              350,367 $        3,937,792 $   152,426 $           5,430,295 $         5,463,535
                    0              (409,534)            (58,425)           0          (1,744,668)         (1,592,297)
$            (63,339) $             (59,167) $        3,879,367 $   152,426 $           3,685,627 $         3,871,238



                                                                                 FY 2005 Army Annual Financial Statement 299
Department of Defense - US Army Corps of Engineers
CONSOLIDATING STATEMENT OF FINANCING
As of September 30, 2005 and 2004 ($ in Thousands)
                                                                                                 Special          Trust       Transfer
                                                                                                  Funds          Funds          Funds
Resources¬Used¬to¬Finance¬Activities:
Budgetary Resources Obligated
 Obligations incurred                                                                        $    14,179 $       847,176 $     191,810
 Less: Spending authority from offsetting collections                                                 (9)              0            (1)
 and recoveries (-)
 Obligations net of offsetting collections and recoveries                                    $     14,170 $       847,176 $    191,809
 Less: Offsetting receipts (-)                                                                   (52,817)     (1,223,892)            0
 Net obligations                                                                             $   (38,647) $     (376,716) $    191,809
Other Resources
 Donations and forfeitures of property                                                                  0              0              0
 Transfers in/out without reimbursement (+/-)                                                       (575)       (11,815)        (8,260)
 Imputed financing from costs absorbed by others                                                        0              0              0
 Other (+/-)                                                                                            0              0              0
 Net other resources used to finance activities                                              $      (575) $     (11,815) $      (8,260)
Total¬resources¬used¬to¬finance¬activities                                                   $   (39,222) $    (388,531) $     183,549

Resources¬Used¬to¬Finance¬Items¬not¬Part of¬the¬Net¬Cost¬of¬Operations
 Change in budgetary resources obligated for goods,
 services and benefits ordered but not yet provided
       Undelivered Orders (-)                                                                $     2,046 $         6,449 $    (11,897)
       Unfilled Customer Orders                                                                        0               0          (11)
 Resources that fund expenses recognized in prior periods                                              0               0             0
 Budgetary offsetting collections and receipts that do not affect net cost of operations          52,817       1,223,892             0
 Resources that finance the acquisition of assets                                                      0               0            98
 Other resources or adjustments to net obligated resources
 that do not affect net cost of operations
       Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-)             0               0              0
       Other (+/-)                                                                                   575          11,815          8,260
Total¬resources¬used¬to¬finance¬items¬not part¬of¬the¬net¬cost¬of¬operations                 $    55,438 $     1,242,156 $      (3,550)
Total¬resources¬used¬to¬finance¬the¬net¬cost¬of operations                                   $    16,216 $       853,625 $     179,999

Components¬of¬the¬Net¬Cost¬of¬Operations¬that¬will
not¬Require¬or¬Generate¬Resources¬in¬the¬Current¬Period:
Components Requiring or Generating Resources in Future Period:
 Increase in annual leave liability                                                          $         0 $             0 $           0
 Increase in environmental and disposal liability                                                      0               0             0
 Upward/Downward reestimates of credit subsidy expense (+/-)                                           0               0             0
 Increase in exchange revenue receivable from the the public (-)                                       0               0             0
 Other (+/-)                                                                                           0               0             0
 Total components of Net Cost of Operations that                                             $         0 $             0 $           0
 will require or generate resources in future periods
Components not Requiring or Generating Resources:
 Depreciation and amortization                                                                        15           3,643         6,653
 Revaluation of assets or liabilities (+/-)                                                            0         (1,650)       (5,800)
 Other (+/-)
       Trust Fund Exchange Revenue                                                                     0               0             0
       Cost of Goods Sold                                                                              0               0             0
       Operating Material & Supplies Used                                                              0               0             0
       Other                                                                                          13        (95,474)      (67,818)
 Total components of Net Cost of Operations that will not require or generate resources      $        28 $      (93,481) $    (66,965)
Total¬components¬of¬net¬cost¬of¬operations¬that                                              $        28 $      (93,481) $    (66,965)
will¬not¬require¬or¬generate¬resources¬in¬the¬current period                                 $    16,244 $      760,144 $     113,034
Net¬Cost¬of¬Operations



300 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
    Borrowing      Revolving       Contributed                                                 2005              2004
     Authority        Funds             Funds        General Funds        FUSRAP           Combined          Combined



$          441       4,430,234 $       401,561 $            6,595,925 $     160,535 $      12,641,861 $      11,072,994
       (1,186)     (4,463,763)             (24)           (5,289,044)         (825)        (9,754,852)       (5,578,404)

$        (745) $     (33,529) $         401,537 $          1,306,881 $      159,710 $        2,887,009 $       5,494,590
             0              0         (409,534)              (58,425)             0        (1,744,668)       (1,592,297)
$        (745) $     (33,529) $          (7,997) $         1,248,456 $      159,710 $        1,142,341 $       3,902,293

             0              0                 0                1,490              0               1,490              435
       (7,634)          1,874          (10,259)               33,621              0             (3,048)          (1,632)
             0 $      231,929                 0                9,652              0            241,581          239,548
           748              0                 0                    0              0                 748              579
$      (6,886) $      233,803 $        (10,259) $             44,763 $            0 $          240,771 $        238,930
$      (7,631) $      200,274 $        (18,256) $          1,293,219 $      159,710 $        1,383,112 $      4,141,223




$            2 $     (32,663) $        (53,695) $          (748,661) $        (678) $        (839,097) $       (400,175)
           (1)        (7,377)              (58)            3,280,715        (1,251)          3,272,017           302,216
             0       (25,840)                 0                    0              0            (25,840)          (55,278)
             0              0          409,534                58,425              0          1,744,668         1,592,297
             0       (13,043)                 0                (191)              0            (13,136)      (1,684,000)


             0              0                0               (10,000)              0           (10,000)         (10,000)
         7,634        (1,874)           10,260               (35,110)              0              1,560            1,636
$        7,635 $     (80,797) $        366,041 $           2,545,178 $       (1,929) $       4,130,172 $      (253,304)
$            4 $     119,477 $         347,785 $           3,838,397 $      157,781 $        5,513,284 $      3,887,919




$           0 $             0 $              0 $                   0 $            0 $                0 $              0
            0               0                0                     0              0                  0                0
            0               0                0                     0              0                  0                0
            0            (34)                0                     0              0               (34)                0
            0               0            1,250                 9,714        529,617           540,581            50,966
$           0$           (34) $          1,250 $               9,714 $      529,617 $         540,547 $          50,966


            0          61,626            1,992             1,121,680               0         1,195,609        2,373,460
            0        (24,884)            1,382             1,077,606               0         1,046,654        (822,198)

            0               0                 0                    0               0                 0                0
            0           2,764                 0                    0               0             2,764                0
            0               0                 0                    0               0                 0                0
            0        (52,760)          (10,806)            (392,305)             (2)         (619,152)        2,586,589
$           0$       (13,254) $         (7,432) $          1,806,981 $           (2) $       1,625,875 $      4,137,851
$           0 $      (13,288) $         (6,182) $          1,816,695 $      529,615 $        2,166,422 $      4,188,817
$           4 $      106,189 $         341,603 $           5,655,092 $      687,396 $        7,679,706 $      8,076,736




                                                                                   FY 2005 Army Annual Financial Statement 301
Department of the Army
FY 2005 Required Supplementary Stewardship Information (RSSI)

                                     FEDERAL MISSION PROPERTY, PLANT and EQUIPMENT
                                Yearly Investment in Federal Mission Property, Plant and Equipment
                                                       For Fiscal Year Ended September 30, 2005
                                                                  (In Millions of Dollars)

                          (a)                   (b)                  (c)                     (d)    (e)       (f)
                      Categories              FY2001              FY2002                  FY2003   FY2004   FY2005
             1. Bank Stabilization Projects     nr                    nr                      nr    $74      $59
             Total:                                                                                 $74      $59


Narrative Statement:
Investments in Federal Mission Property, Plant and Equipment refer to those expenses incurred by USACE for the
protection of the riverbanks of the Mississippi River and other navigable waterways inside the continental United
States. Stabilization and protection of the riverbanks are important to the ﬂood control and navigation plans, serving
to protect ﬂood control features and to insure the desired alignment of the river’s navigation channel. Stabilizing the
riverbanks and channels provide an efﬁcient navigation alignment, increase the ﬂood-carrying capacity of the river,
and or protection of the levees system to include the tributary basin improvements for major drainage. The process
by which this is accomplished is by; cutoffs (shortening the river and reducing ﬂood heights), revetment (controlling
the river’s meandering), dikes (directing the ﬂow), and improvement dredging (realigning the river/channel).


Notes:
1. For FY 2001 – 2003 USACE does not have historical data as FY04 was our ﬁrst reporting of Federal Mission
    Property, Plant and Equipment in the Required Supplementary Stewardship Information section of the ﬁnancial
    statements. (nr = Nonreporting)
2. After major ﬂoods in 1882, 1912, 1913 and 1927 the Flood Control Act of 1928 was signed which committed the
   federal government to a deﬁnite program of ﬂood control. This legislation authorized the Mississippi River and
   Tributaries Project, the nation’s ﬁrst comprehensive ﬂood control and navigation act.
3. Investments values included in this report are based on Nonfederal Physical Property outlays (expenditures).
   Outlays are used because current DOD systems are unable to capture and summarize costs in accordance with
   the Federal Accounting Standards requirements.




302 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Department of the Army
FY 2005 Required Supplementary Stewardship Information (RSSI)

                                                     HERITAGE ASSETS
                                                    For Fiscal Year Ended September 2005

                               (a)            (b)                   (c)                (d)           (e)          (f)
                                          Measurement            As of                                           As of
                                            Quantity            10/01/04          Additions       Deletions     9/30/05
                  Museums                    Each                           1                                             1
                  Monuments & Memorials      Each                           1                                             1
                  Cemeteries                 Sites                          0                                             0
                  Archeological Sites        Sites                        142                                           142
                  Buildings & Structure      Each                         348                 1                         349
                  Major Collections          Each                           1                                             1



Narrative Statement
USACE administers the Lake Superior Marine Museum as part of the Operations and Maintenance Mission of
the Detroit District. This museum has gone inadvertently unreported in previous submittals on USACE Heritage
Assets.

We have one (1) Major Collection, that being the collection of historical memorabilia, historic artifacts and records
managed by the Headquarters, U.S. Army Corps of Engineers Ofﬁce of History.

Other than multipurpose heritage assets, heritage assets are not material to the mission of the U. S. Army Corps of
Engineers. Disclosures pertinent to multipurpose heritage assets are contained in the ﬁnancial statements.

Heritage assets classiﬁed as Land are special land plots containing archaeological sites as listed on the National
Register of Historic Places or eligible to be listed.

Heritage assets on display are assumed to be in adequate condition for display purposes, consistent with their
origins, unless otherwise noted. Reported heritage assets are free of material conditions that are counter to
safeguarding, adequately protecting, and properly managing those assets; they have not materially degraded while
under the care of the U. S. Army Corps of Engineers. The existence of most of the un-categorized heritage assets is
informally known to be adequate for display purposes, however, the condition of many un-categorized assets are
unknown.

Cemeteries and Archeological Sites are archeological properties listed on or eligible for, the National Register of
Historic Places. These archeological assets cover almost the entire range of human occupation of the Continental
United States beginning with the Kennewick Man Discovery Site in Washington State, dating to approximately
10,000 years before present, to archeological remains of early European-American settlements such as Fort
Independence in Georgia..

Buildings and Structures include a range of historic resources from a covered bridge in Sacramento District to early
farming structures in Savannah District. It also includes some non-traditional structures such as a snag boat that
operated on the Mississippi River. A new building and associated historic district, Conchas Dam and Conchas Dam
Historic District, New Mexico was added to USACE inventory.




                                                                                                   FY 2005 Army Annual Financial Statement 303
Department of the Army
FY 2005 Required Supplementary Stewardship Information (RSSI)

                                            NONFEDERAL PHYSICAL PROPERTY
                                      Yearly Investment in State and Local Governments
                                                        For Fiscal Year Ended September 30, 2005
                                                                   (In Millions of Dollars)

                                       (a)                    (b)             (c)             (d)    (e)         (f)
                                    Categories             FY2001          FY2002          FY2003   FY2004     FY2005
                           Transferred Assets:
                           1. Federal Mission Related          nr              nr              nr    $4,429     $1,324
                           Funded Assets:
                           2. Federal Mission Related          nr              nr              nr          0           0
                           Total:                                                                    $4,429     $1,324


Narrative Statement:
Investments in Nonfederal Property refers to those expenses incurred by USACE for the purchase, construction
or major renovation of physical property owned by State and Local Governments, including major additions
and replacements; the purchase of major equipment; and the purchase of improvement of other physical assets.
The authority to enter into cost share agreements with nonfederal sponsors is governed under numerous Water
Resources Development Acts starting with the Act of 1992.


Notes:
1. For FY 2001 – 2003 USACE does not have historical data as FY04 was our ﬁrst reporting of Nonfederal Physical
    Property in the Required Supplementary Stewardship Information. The variance in the FY04 and FY05 amounts
    is due to FY04 ﬁgure being a ﬁrst report cumulative number and the FY05 number is for FY05 cost share. (nr =
    Nonreporting)
2. Under numerous authorities USACE provides design, build and construction services/management for the
   missions of commercial navigation, ﬂood/storm damage reduction, hydropower, regulatory, environmental,
   recreation and water supply.
3. Investments values included in this report are based on Nonfederal Physical Property outlays (expenditures).
   Outlays are used because current DOD systems are unable to capture and summarize costs in accordance with
   the Federal Accounting Standards requirements.




304 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Department of the Army
FY 2005 Required Supplementary Stewardship Information (RSSI)
                                      General Property, Plant and Equipment
                                   Real Property Deferred Maintenance Amounts
                                                         As of September 30, 2005

                                                       (a)                             (b)
                                   Property Type/Major Class
                                   1. Real Property
                                        A. Buildings
                                        B. Structures                               $1,200,000
                                   2. Total                                         $1,200,000

Narrative Statement: Deferred maintenance at Civil Works water resources projects operated and maintained by
the U.S. Army Corps of Engineers was determined through the budget development process whereby operations
managers identify the operation and maintenance (O&M) needs at each project in the Civil Works inventory. O&M
needs are based on inspections of project Features, engineering analyses and historical experience. “Non-deferrable”
is work that should be accomplished in the budget year to avoid further deterioration or a reduction in project
beneﬁts.




                                                                                             FY 2005 Army Annual Financial Statement 305
Department of Defense - US Army Corps of Engineers
 STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
As of September 30, 2005 and 2004 ($ in Thousands)


Budgetary Financing Accounts                                      Civil Works       2005 Combined           2004 Combined
BUDGETARY¬RESOURCES
   Budget Authority:
      Appropriations received                              $         5,987,912 $              5,987,913 $        5,141,166
      Borrowing authority                                                    0                        0                135
      Contract authority                                                     0                        0                  0
      Net transfers (+/-)                                              264,998                  264,998            206,924
      Other                                                                  0                        0                  0
   Unobligated balance:
      Beginning of period                                            1,693,281                1,693,278          1,850,226
      Net transfers, actual (+/-)                                       (7,606)                  (7,606)            28,495
        Anticipated Transfers Balances                                        0                        0                 0
   Spending authority from offsetting collections:
      Earned                                                                  0                     0                     0
        Collected                                                    6,471,704             6,471,705             5,212,085
        Receivable from Federal sources                                  11,131                11,130                64,104
      Change in unfilled customer orders                                      0                     0                     0
        Advance received                                               (34,324)              (34,324)                29,660
        Without advance from Federal sources                         3,306,340             3,306,341               272,555
      Anticipated for the rest of year, without advances                      0                     0                     0
      Transfers from trust funds                                              0                     0                     0
      Subtotal                                             $                  0 $                   0 $                   0
   Recoveries of prior year obligations                                       0                     0                     0
   Temporarily not available pursuant to Public Law                    (10,000)              (10,000)              (10,000)
   Permanently not available                                           (38,390)              (38,390)              (29,076)
¬¬¬Total¬Budgetary¬Resources                               $        17,645,046 $          17,645,045 $          12,766,274

STATUS¬OF¬BUDGETARY¬RESOURCES
   Obligations incurred:
       Direct                                              $         5,739,464             5,739,464             5,615,179
       Reimbursable                                                  6,902,397             6,902,397             5,457,815
       Subtotal                                                     12,641,861            12,641,861            11,072,994
   Unobligated balance:
       Apportioned                                                   4,421,128             4,421,128             1,234,139
       Exempt from apportionment                                       581,998               581,999               459,076
       Other available                                                       0                    (1)                   (1)
   Unobligated Balances Not Available                                       58                    58                    66
¬¬¬Total,¬Status¬of¬Budgetary¬Resources                    $        17,645,045 $          17,645,045 $          12,766,274
Relationship¬of¬Obligations¬to¬Outlays:
   Obligated Balance, Net ? beginning of period            $         1,038,675 $              1,038,676 $        1,007,621
   Obligated Balance transferred, net (+/-)                                  0                        0                  0
   Obligated Balance, Net ? end of period:
       Accounts receivable                                            (235,835)             (235,835)             (224,704)
       Unfilled customer order from Federal sources                 (5,214,150)           (5,214,150)           (1,907,809)
       Undelivered orders                                             2,862,371             2,862,371             2,022,902
       Accounts payable                                               1,083,003             1,083,001             1,148,287
   Outlays:
       Disbursements                                                11,867,677            11,867,676            10,705,281
       Collections                                                  (6,437,380)           (6,437,381)           (5,241,746)
       Subtotal                                            $          5,430,297 $           5,430,295 $           5,463,535
   Less: Offsetting receipts                                        (1,744,667)           (1,744,668)           (1,592,297)
¬¬¬Net¬Outlays                                             $          3,685,630 $           3,685,627 $           3,871,238




306 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Non-Budgetary Financing Accounts                               Civil Works    2005 Combined      2004 Combined
BUDGETARY¬RESOURCES
   Budget Authority:
      Appropriations received                              $            0 $               0 $                  0
      Borrowing authority                                               0                 0                    0
      Contract authority                                                0                 0                    0
      Net transfers (+/-)                                               0                 0                    0
      Other                                                             0                 0                    0
  Unobligated balance:
      Beginning of period                                               0                 0                    0
      Net transfers, actual (+/-)                                       0                 0                    0
        Anticipated Transfers Balances                                  0                 0                    0
  Spending authority from offsetting collections
      Earned                                                            0                 0                    0
        Collected                                                       0                 0                    0
        Receivable from Federal sources                                 0                 0                    0
      Change in unfilled customer orders                                0                 0                    0
        Advance received                                                0                 0                    0
        Without advance from Federal sources                            0                 0                    0
      Anticipated for the rest of year, without advances                0                 0                    0
      Transfers from trust funds                                        0                 0                    0
      Subtotal                                             $            0 $               0 $                  0
  Recoveries of prior year obligations                                  0                 0                    0
   Temporarily not available pursuant to Public Law                     0                 0                    0
  Permanently not available                                             0                 0                    0
¬¬¬Total¬Budgetary¬Resources                               $            0 $               0 $                  0

STATUS¬OF¬BUDGETARY¬RESOURCES
   Obligations incurred:                                   $
       Direct                                                           0                 0                    0
       Reimbursable                                                     0                 0                    0
       Subtotal                                                         0                 0                    0
  Unobligated balance:
       Apportioned                                                      0                 0                    0
       Exempt from apportionment                                        0                 0                    0
       Other available                                                  0                 0                    0
  Unobligated Balances Not Available                                    0                 0                    0
¬¬¬Total,¬Status¬of¬Budgetary¬Resources                    $            0 $               0 $                  0
Relationship¬of¬Obligations¬to¬Outlays:
   Obligated Balance, Net - beginning of period            $            0 $               0 $                  0
   Obligated Balance transferred, net (+/-)                             0                 0                    0
  Obligated Balance, Net - end of period:
       Accounts receivable                                              0                 0                    0
       Unfilled customer order from Federal sources                     0                 0                    0
       Undelivered orders                                               0                 0                    0
       Accounts payable                                                 0                 0                    0
  Outlays:
       Disbursements                                                    0                 0                    0
       Collections                                                      0                 0                    0
       Subtotal                                            $            0 $               0 $                  0
  Less: Offsetting receipts                                             0                 0                    0
¬¬¬Net¬Outlays                                             $            0 $               0 $                  0




                                                                                       FY 2005 Army Annual Financial Statement 307
                                       Required Supplemental Information - Part A

AT96 - US Army Corps of Engineers
($ Amounts in Thousands)
Schedule, Part A DoD Intra-governmental               Treasury     Fund Balance     Accounts       Loans
Asset Balances.                                        Index:      with Treasury    Receivable   Receivable   Investments   Other
Unidentifiable Federal Agency Entity
                                                          0                              $539
(Other than DoD entities)
The Judiciary                                             10                                $0
Department of Agriculture                                 12                             $789
Department of Commerce                                    13                             $318
Department of the Interior                                14                         $371,152
Department of Justice                                     15                             $619
Navy General Fund                                         17                             $236
United States Postal Service                              18                              $86
Department of State                                       19                             $847
Department of the Treasury                                20         $3,146,050           $72                 $3,127,832
Army General Fund                                         21                          $15,948
Social Security Administration                            28                                $1
Nuclear Regulatory Commission                             31                              $35
John F. Kennedy Center                                    33                             $896
Department of Veterans Affairs                            36                                $1
General Service Administration                            47                             $364
Air Force General Fund                                    57                           $1,035
Railroad Retirement Board                                 60                                $2
National Labor Relations Board                            63                                $1
Tennessee Valley Authority                                64                              $28
Environmental Protection Agency                           68                          $18,768
Department of Transportation                              69                           $3,240
Homeland Security                                         70                         $133,787
Agency for International Development                      72                             $443
Small Business Administration                             73                                $3
Department of Health and Human Services                   75                             $161
National Aeronautics and Space Administration             80                             $139
Department of Housing and Urban Development               86                              $33
Department of Energy                                      89                          $46,235
Independent Agencies                                      95                              $30
Other Defense Organizations General Funds                 97                             $237
Other Defense Organizations Working Capital Funds      97-4930                              $7
Army Working Capital Fund                            97-4930.001                            $0
The General Fund of the Treasury                          99                          $17,853
Architect of the Capitol                                                                  ($1)
Totals                                                               $3,146,050      $613,904                 $3,127,832




308 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
                                         Required Supplemental Information - Part B

AT96 - US Army Corps of Engineers
($ Amounts in Thousands)
                                                                  Treasury     Accounts      Debts/Borrowings
Schedule, Part B DoD Intra-governmental entity liabilities.        Index:       Payable     From Other Agencies          Other
Unidentifiable Federal Agency Entity (Other than DoD entities)         0                                                   $43
Department of Agriculture                                             12           $912                                   $558
Department of Commerce                                                13         $3,343                                 $1,075
Department of the Interior                                            14        $16,870                                   $957
Department of Justice                                                 15            $33                                     $2
Department of Labor                                                   16            $66                                $46,851
Navy General Fund                                                     17         $1,753
United States Postal Service                                          18            $27
Department of State                                                   19           $962                                    $13
Department of the Treasury                                            20           $603                 $14,600       $162,645
Army General Fund                                                     21         $2,930
Office of Personnel Management                                        24             $4                                $13,618
Library of Congress                                                    3            $12
Department of Veterans Affairs                                        36           $119
Government Printing Office                                             4            $83
General Service Administration                                        47        $18,343                                    $40
National Science Foundation                                           49            $29
Air Force General Fund                                                57           $102
Tennessee Valley Authority                                            64           $688
Environmental Protection Agency                                       68            $42                                    $28
Department of Transportation                                          69           $254
Homeland Security                                                     70         $7,826                                    $19
Small Business Administration                                         73             $0                                     $1
Department of Health and Human Services                               75           $506                                 $3,912
Department of Energy                                                  89         $2,152                                 $4,550
Department of Education                                               91            $51                                    $49
Other Defense Organizations General Funds                             97         $1,064
Other Defense Organizations Working Capital Funds                  97-4930       $8,499
Army Working Capital Fund                                        97-4930.001     $1,989
Navy Working Capital Fund                                        97-4930.002        $83
Air Force Working Capital Fund                                   97-4930.003        $34
The General Fund of the Treasury                                      99        $17,853                             $1,722,534
Totals                                                                          $87,232                 $14,600     $1,956,895




                                                                                          FY 2005 Army Annual Financial Statement 309
                                        Required Supplemental Information - Part C

AT96 - US Army Corps of Engineers
($ Amounts in Thousands)
                                                                                               Treasury
Schedule, Part C DoD Intra-governmental revenue and related costs.                              Index:      Earned Revenue
Unidentifiable Federal Agency Entity (Other than DoD entities)                                      0                  $554
The Judiciary                                                                                      10                   $11
Department of Agriculture                                                                          12                $8,014
Department of Commerce                                                                             13                $7,343
Department of the Interior                                                                         14               $41,008
Department of Justice                                                                              15                $6,459
Department of Labor                                                                                16                     $3
Navy General Fund                                                                                  17                $4,125
United States Postal Service                                                                       18                  $188
Department of State                                                                                19                $6,711
Department of the Treasury                                                                         20                  $116
Army General Fund                                                                                  21             $770,336
Office of Personnel Management                                                                     24                   $92
Social Security Administration                                                                     28                     $2
Nuclear Regulatory Commission                                                                      31                  $464
John F. Kennedy Center                                                                             33                $9,130
Department of Veterans Affairs                                                                     36                $2,289
Government Printing Office                                                                          4                   ($1)
U.S. Equal Employment Opportunity Commission                                                       45                     $5
General Service Administration                                                                     47                $4,444
National Science Foundation                                                                        49                $1,599
General Accounting Office                                                                           5                  $483
Air Force General Fund                                                                             57               $46,665
Railroad Retirement Board                                                                          60                     $5
National Labor Relations Board                                                                     63                     $1
Tennessee Valley Authority                                                                         64                   $76
Environmental Protection Agency                                                                    68               $86,974
Department of Transportation                                                                       69               $10,697
Homeland Security                                                                                  70            $1,004,964
Agency for International Development                                                               72               $30,368
Small Business Administration                                                                      73                     $5
American Battle Monuments                                                                          74                   $77
Department of Health and Human Services                                                            75                $6,634
National Aeronautics and Space Administration                                                      80               $36,440
Department of Housing and Urban Development                                                        86                  $155
Department of Energy                                                                               89               $28,055
Department of Education                                                                            91                   $56
Independent Agencies                                                                               95                  $433
Other Defense Organizations General Funds                                                          97               $28,571
Other Defense Organizations Working Capital Funds                                               97-4930                $359
Army Working Capital Fund                                                                     97-4930.001               $10
Architect of the Capitol                                                                                             $8,876
Totals                                                                                                           $2,152,796




310 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
                                   Required Supplemental Information - Part E

AT96 - US Army Corps of Engineers
($ Amounts in Thousands)
                                                       Treasury Index:      Transfers In         Transfers Out
Department of the Interior                                   14                 $58,055                 $3,218
Army General Fund                                            21                    $361                    $34
Tennessee Valley Authority                                   64                                           $156
Department of Transportation                                 69                     $1,632
Department of Energy                                         89                  $228,157
The General Fund of the Treasury                             99                  $890,822             $852,276
Totals                                                                          $1,179,027            $855,684




                                                                          FY 2005 Army Annual Financial Statement 311
                                                                                  INSPECTOR GENERAL
                                                                                 DEPARTMENT OF DEFENSE
                                                                                    400 ARMY NAVY DRIVE
                                                                               ARLINGTON, VIRGINIA 22202-4704




                                                                                                                                                                                  November 8, 2005

MEMORANDUM FOR THE COMMANDER, U.S. ARMY CORPS OF ENGINEERS

SUBJECT: Independent Auditor’s Report on the Fiscal Year 2005 U.S. Army Corps of
         Engineers, Civil Works, Financial Statements (Report No. D 2006 020)

The Chief Financial Ofﬁcers Act of 1990, as amended, requires the Department of Defense Inspector General to
audit the accompanying U.S. Army Corps of Engineers, Civil Works, (USACE) Consolidated Balance Sheet as of
September 30, 2005 and 2004, the related Consolidated Statement of Net Cost, Consolidated Statement of Changes
in Net Position, Combined Statement of Budgetary Resources, and Combined Statement of Financing for the
ﬁscal years then ended. The ﬁnancial statements are the responsibility of USACE management. USACE is also
responsible for implementing effective internal control and for complying with laws and regulations. We are
unable to give an opinion on the USACE FY 2005 Financial Statements because of limitations on the scope of our
work. Thus, the ﬁnancial statements may be unreliable. In addition to our disclaimer of opinion on the ﬁnancial
statements, we are including the required Report on Internal Control and Compliance with Laws and Regulations.
The Report on Internal Control and Compliance with Laws and Regulations is an integral part of our disclaimer of
opinion on the ﬁnancial statements and should be considered in assessing the results of the audit.


Disclaimer of Opinion on the Financial Statements
USACE acknowledged to us that the USACE FY 2005 Financial Statements may not be fairly presented in conformity
with generally accepted accounting principles. Because USACE management cannot assert that the ﬁnancial
statements are free from material error, and based on the deﬁciencies acknowledged by USACE management, we
did not perform auditing procedures to determine whether material amounts on the ﬁnancial statements were fairly
presented. We did not perform these and other auditing procedures because Section 1008(d) of the FY 2002 National
Defense Authorization Act limits the Department of Defense Inspector General to perform only audit procedures
required by generally accepted government auditing standards that are consistent with the representations made by
management. USACE has also acknowledged, and prior audits have identiﬁed, the material weaknesses listed in the
Summary of Internal Control. These material weaknesses also affect the reliability of certain information contained
in the annual ﬁnancial statements—much of which is taken from the same data sources as the principal ﬁnancial
statements.1 Therefore, we are unable to express, and we do not express, an opinion on the ﬁnancial statements and
the accompanying information.




1
  The annual ﬁnancial statements include the principal ﬁnancial statements, management discussion and analysis, consolidating and combining ﬁnancial statements, Required Supplementary Stewardship Information,
Required Supplementary Information, and Other Accompanying Information.




312 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Summary of Internal Control
In planning our audit, we considered USACE internal control over ﬁnancial reporting and compliance. We did
this to determine our procedures for auditing the ﬁnancial statements and to comply with Ofﬁce of Management
and Budget guidance, but our purpose was not to express an opinion on internal control. Accordingly, we do not
express an opinion on internal control over ﬁnancial reporting and compliance. However, previously identiﬁed
reportable conditions,2 all of which are material, continue to exist in the following areas.

                                Fund Balance With Treasury and Unexpended Appropriations
                                Accounts Receivable
                                General Property, Plant, and Equipment
                                Accounts Payable
                                Financial Statement Compilation
                                Financial Management Systems

Material weaknesses are reportable conditions in which internal controls do not reduce (to a relatively low level)
the risk of misstatements that are material to the ﬁnancial statements and that might not be timely detected by
employees while performing their normal, assigned functions. Our internal control work would not necessarily
disclose all material weaknesses. See the Attachment for additional details on material internal control weaknesses.


Summary of Compliance with Laws and Regulations
Our work to determine compliance with selected provisions of applicable laws and regulations related to ﬁnancial
reporting was limited because USACE management acknowledged, and prior audits conﬁrm, that instances of
noncompliance continue to exist. USACE acknowledged that its ﬁnancial management systems do not fully comply
with Federal ﬁnancial management systems requirements, Federal accounting standards, and the U.S. Standard
General Ledger at the transaction level, as required by the Federal Financial Management Improvement Act of 1996.

The Department of Defense Inspector General and the Government Accountability Ofﬁce previously disclosed, and
USACE acknowledged, instances of noncompliance with the following.

                                Federal Managers’ Financial Integrity Act of 1982
                                Ofﬁce Management and Budget Circulars:
                                -A-123, “Management Accountability and Control”
                                -A-127, “Federal Management Systems”
                                -A-130, “Management of Federal Information Resources” 3




2
  Reportable conditions are matters coming to the auditor’s attention that, in his or her judgment, should be communicated to management because they represent signiﬁcant deﬁciencies in the design or operation of
internal control, which could adversely affect the organization’s ability to initiate, record, process, and report ﬁnancial data consistent with the assertions of management in ﬁnancial statements.

3
  GAO Report No. GAO-02-589, “Corps of Engineers Making Improvements, But Weaknesses Continue,” June 2002; GAO Report No. GAO-01-89, “Signiﬁcant Weaknesses in Corps of Engineers’ Computer Controls,”
October 2000; and DoD IG Report No. D-2004-115, “Information System Security: The Followup on the Government Accountability Ofﬁce and U.S. Army Audit Agency Recommendations for the U.S. Army Corps of
Engineers (FOUO),” September 21, 2004.




                                                                                                                                                 FY 2005 Army Annual Financial Statement 313
Therefore, we did not determine whether USACE was in compliance with all applicable laws and regulations related
to ﬁnancial reporting. See the Attachment for additional details on compliance with laws and regulations.


Management Responsibility
USACE management is responsible for:

                    preparing the ﬁnancial statements in conformity with generally accepted accounting principles;
                    establishing, maintaining, and assessing internal control to provide reasonable assurance that the
                    broad control objectives of the Federal Managers’ Financial Integrity Act of 1982 are met; and
                    complying with applicable laws and regulations.

We provided a draft of this report to USACE. USACE management commented, “it is important to note that USACE
has taken aggressive action to make corrective actions on all material audit ﬁndings.” USACE management further
commented, “USACE has shown signiﬁcant progress in this area [Financial Statement Compilation] since the
original reviews in FY 2003 and FY 2004.”




Attachment:
As stated




314 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Report on Internal Control and Compliance with Laws and Regulations
Internal Control
USACE management is responsible for implementing effective internal control and for providing reasonable
assurance that accounting data are accumulated, recorded, and reported properly and that assets are safeguarded
against misappropriation and abuse. Our purpose was not to, and we do not, express an opinion on internal control
over ﬁnancial reporting. However, we have identiﬁed the following material weaknesses and reportable conditions
that could adversely affect a favorable opinion on internal control.

Material Weaknesses. USACE management acknowledged that previously identiﬁed reportable conditions, all of
which are material, continue to exist.

Fund Balance With Treasury and Unexpended Appropriations. USACE did not comply with generally accepted
accounting principles. Speciﬁcally, USACE recorded noncompliant funding in the Corps of Engineers Financial
Management System for the Fund Balance With Treasury and Unexpended Appropriations accounts. Furthermore,
USACE did not establish Fund Balance With Treasury accounts in the Corps of Engineers Financial Management
System for expenditure and receipt accounts required by the United States Code and assigned by Department of
Treasury, and omitted transactions applicable to the accounts. Finally, USACE commingled appropriation warrants
and nonexpenditure transfers in the Corps of Engineers Financial Management System subsidiary accounts for Fund
Balance With Treasury. As a result, USACE did not maintain reliable funding information in the Corps of Engineers
Financial Management System for the Fund Balance With Treasury and Unexpended Appropriations accounts.

USACE also erroneously reported unprocessed interagency transfer collections (that is, USACE reported collections
that had not yet occurred) to the Department of Treasury and the Ofﬁce of Management and Budget. In addition,
the USACE revolving fund created unreconciled collection and disbursement differences. As a result, USACE
did not report reliable Fund Balance With Treasury amounts to the Department of Treasury and the Ofﬁce of
Management and Budget.

Accounts Receivable. USACE Districts did not provide adequate source data and needs to improve the
reconciliation of the general ledger to the subsidiary records for speciﬁc samples reviewed.


General Property, Plant, and Equipment
Buildings, Structures, and Facilities. USACE did not implement corrective actions for the Buildings, Structures,
and Facilities line item deﬁciencies involving useful lives, support for asset values, placed-in-service dates, asset
classiﬁcation (including bank stabilization), physical existence, and capital lease recording.

A systematic weakness was also identiﬁed involving adjustments to useful lives in the Corps of Engineers Financial
Management System. Speciﬁcally, the Corps of Engineers Financial Management System does not always spread
depreciation accurately across the life of buildings and structures, which affects the book value, accumulated
depreciation, and ultimately, the balance of the Buildings, Structures, and Facilities line item.

Construction-in-Progress. USACE did not implement corrective actions for Construction-in-Progress deﬁciencies
involving the timely transfer of completed assets, the capitalization of expense-type events, non-Federal cost share
projects, prior Construction-in-Progress errors, negative Construction-in-Progress, and other variances. In addition,
material audit issues relating to previously identiﬁed Construction-in-Progress deﬁciencies remained unresolved.

Equipment. USACE did not implement corrective actions for deﬁciencies involving the lack of adequate
documentation to support equipment values.

Land. USACE did not implement corrective actions for deﬁciencies involving land costs originating in the Corps of
Engineers Management Information System, land costs originating in the Corps of Engineers Financial Management
System, and classiﬁcation of reservoir costs.


                                                                                 FY 2005 Army Annual Financial Statement 315
Accounts Payable. USACE Districts did not correct previously identiﬁed internal control weaknesses involving
Accounts Payable. USACE activities continued to improperly record payables, did not properly review aged
payables, did not record payables in the proper accounting period, and were unable to provide supporting
documentation in a timely manner.

Financial Statement Compilation. The review of the FY 2004 year-end ﬁnancial statement compilation process
disclosed signiﬁcant deﬁciencies related to unsupported journal vouchers and undocumented differences in
trial balance data. In addition, USACE had not corrected the deﬁciencies with the Corps of Engineers Financial
Management System general ledger correlations.

Financial Management Systems. USACE acknowledged that its ﬁnancial management systems do not fully comply
with Federal ﬁnancial management systems requirements, applicable Federal accounting standards, and the U.S.
Standard General Ledger at the transaction level. Until resolved, the possibility exists that USACE general and
application computer control vulnerabilities make it difﬁcult for USACE to ensure the reliability, conﬁdentiality, and
availability of ﬁnancial and sensitive data.

These ﬁnancial management deﬁciencies* are indications of material weaknesses in internal control that may
adversely affect any decision by USACE that is based, in whole or in part, on information that is inaccurate because
of these deﬁciencies. Financial information reported by USACE also may contain misstatements resulting from these
deﬁciencies.


Compliance with Laws and Regulations
USACE management is responsible for compliance with existing laws and regulations related to ﬁnancial reporting.
Our work to determine compliance with selected provisions of the applicable laws and regulations was limited
because USACE management acknowledged instances of noncompliance, and previously reported instances of
noncompliance continue to exist. Therefore, we did not determine whether USACE was in compliance with selected
provisions of all applicable laws and regulations related to ﬁnancial reporting. Our objective was not to, and we do
not, express an opinion on compliance with applicable laws and regulations.

USACE acknowledged, and the Department of Defense Inspector General and the Government Accountability Ofﬁce
audits established, that USACE did not fully comply with the following ﬁnancial management systems reporting
requirements:

                               The Federal Managers’ Financial Integrity Act of 1982 requires agencies to evaluate the
                                systems and to annually report whether those systems are in compliance with applicable
                               requirements. When systems are not in compliance, the statement must include a report of
                               internal accounting and administrative control material weaknesses with plans and a schedule for
                               correcting the material weaknesses.
                               Ofﬁce of Management and Budget Circular A-123, revised June 21, 1995, requires agencies and
                               individual Federal managers to take systematic and proactive measures to assess the adequacy of
                               management controls in Federal programs and operations, identify needed improvements, take
                               corresponding corrective actions, and report annually on management controls.
                               Ofﬁce of Management and Budget Circular A-127, revised July 23, 1993, requires agencies
                               to develop, operate, evaluate, and report on ﬁnancial management systems. It also requires
                               that ﬁnancial management systems provide complete, reliable, consistent, timely, and useful
                               information.




*Described in greater detail in previous GAO and DoD IG reports.




316 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
                 Ofﬁce of Management and Budget Circular A-130, Appendix III, establishes a minimum set of
                 controls to be included in Federal automated information security programs, assigns Federal
                 agency responsibilities for the security of automated information, and links agency information
                 security programs and agency management control systems established in accordance with
                 Ofﬁce of Management and Budget Circular A-123. Agencies should implement and maintain
                 their automated security programs to ensure that adequate security is provided for all agency
                 information collected, processed, transmitted, stored, or disseminated in general support systems
                 and major applications.

USACE acknowledged that its ﬁnancial management systems do not fully comply with Federal ﬁnancial
management systems requirements, applicable Federal accounting standards, and the U.S. Standard General Ledger
at the transaction level, as required under the Federal Financial Management Improvement Act of 1996. According
to prior Government Accountability Ofﬁce audit reports, USACE did not fully comply with the Federal Managers’
Financial Integrity Act of 1982 and the Ofﬁce of Management and Budget Circulars A-123 and A-130 requirements
to protect the integrity of its ﬁnancial management systems, identify needed improvements, and take corresponding
corrective actions. During FY 2004, the Department of Defense Inspector General reviewed previously identiﬁed
Government Accountability Ofﬁce deﬁciencies related to general and application controls. The Department of
Defense Inspector General audit report concluded that USACE had not fully implemented all of the Government
Accountability Ofﬁce recommendations. During FY 2005, USACE acknowledged that it is still in the process of
completing the prior Government Accountability Ofﬁce recommendations. Until resolved, the possibility exists
that the USACE general and application computer control vulnerabilities make it difﬁcult for USACE to ensure the
reliability, conﬁdentiality, and availability of ﬁnancial and sensitive data, as required by the Ofﬁce of Management
and Budget Circular A-127.


Audit Disclosures
USACE acknowledged to us on June 21, 2005, that the USACE ﬁnancial management systems cannot provide
adequate evidence supporting various material amounts on the ﬁnancial statements. USACE also stated that
material internal control weaknesses disclosed in prior Department of Defense Inspector General audit reports may
or may not materially affect the ﬁnancial statements. Therefore, we did not conduct audit work related to previously
identiﬁed deﬁciencies in the following areas.

                 Fund Balance With Treasury and Unexpended Appropriations
                 Accounts Receivable
                 General Property, Plant, and Equipment
                 Accounts Payable
                 Financial Statement Compilation
                 Financial Management Systems

In addition, we did not perform audit work related to the following selected provisions of laws and regulations.

                 Antideﬁciency Act
                 Federal Credit Reform Act of 1990
                 Pay and Allowance System for Civilian Employees
                 Prompt Payment Act
                 Provisions Governing Claims of the U.S. Government (including provisions of the Debt Collection
                 Improvement Act of 1996)

This report does not include recommendations to correct the material internal control weaknesses and
noncompliance with laws and regulations because previous audit reports contained recommendations for corrective
actions.

                                                                              FY 2005 Army Annual Financial Statement 317
318 Civil Works Fund | Principal Financial Statements, Notes, and Supplementary Information
Call to Duty – 230 Years of Service to Our Nation




                         FY 2005 Army Annual Financial Statement
United States Army • 1500 Army Pentagon • Washington, DC, 20310-1500 • www.army.mil
